Audit Report




OIG-09-006
Audit of the Department of the Treasury’s Fiscal Years 2008 and
2007 Financial Statements
November 17, 2008




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Memorandum for the Secretary


Section I – Independent Auditors’ Report and Management’s Response


Section II - Department of the Treasury Fiscal Year 2008
             Performance & Accountability Report
THIS PAGE INTENTIONALLY LEFT BLANK
                                          DEPARTMENT OF THE TREASURY
                                                  W ASHINGTON, D.C. 20220




     OFFICE OF                                      November 17, 2008
INSPECTOR GENERAL




            INFORMATION MEMORANDUM FOR SECRETARY PAULSON

            FROM:


            SUBJECT:                   Audit of the Department of the Treasury’s Financial Statements for
                                       Fiscal Years 2008 and 2007


            INTRODUCTION

            I am pleased to transmit KPMG LLP’s report on the Department of the Treasury’s (the
            Department) financial statements as of and for the fiscal years (FY) ending September 30, 2008
            and 2007.

            The Department of the Treasury Office of Inspector General is responsible for ensuring that the
            financial statement audit of the Department of the Treasury is conducted in accordance with the
            Chief Financial Officers’ Act of 1990, as amended by the Government Management Reform Act
            of 1994.

            RESULTS OF INDEPENDENT AUDIT

            Under a contract monitored by my office, KPMG LLP, an independent certified public
            accounting firm, performed an audit of the FY 2008 and 2007 financial statements. The contract
            required that the audit be performed in accordance with generally accepted government auditing
            standards issued by the Comptroller General of the United States; Office of Management and
            Budget Bulletin No. 07-04, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            In its audit of the Department of the Treasury, KPMG LLP

                •   found that the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;

                •   reported that the three material weaknesses related to financial systems and reporting
                    identified by the auditor of the Internal Revenue Service (IRS) are collectively considered
                    a material weakness for the Department as a whole;

                •   reported that control deficiencies related to (1) financial management practices at the
                    departmental level and (2) controls over foreign currency transactions represent
                    significant deficiencies for the Department as a whole;
Page 2

   •     reported an instance of noncompliance with laws and regulations related to the Internal
         Revenue Code Section 6325;

   •     reported that the Department’s financial management systems did not substantially
         comply with the requirements of the Federal Financial Management Improvement Act of
         1996 (FFMIA); and

   •     reported an instance of a potential Anti-deficiency Act violation related to transactions
         and activities of the Financial Crimes Enforcement Network

IRS’s pervasive internal control weaknesses have existed since audits of its financial statements
were initiated in FY 1992. The Government Accountability Office (GAO), the auditor of IRS’s
financial statements for the fiscal years ending September 30, 2008 and 2007, reported that the
bureau continued to make significant strides in addressing its financial management challenges
and material weaknesses in its internal controls. In particular, IRS made progress to address
control deficiencies over tax revenue and refunds such that GAO no longer considers the
remaining control deficiencies in this area a material weakness. IRS also improved internal
controls over safeguarding hard-copy taxpayer receipts and data that enabled GAO to conclude
that the remaining issues in this area no longer constitute a significant deficiency. However, IRS
faces serious challenges from its use of obsolete financial management systems that do not
conform to the requirements of FFMIA. Until IRS resolves the issues affecting the automated
systems it relies on to process tax related transactions, it will be challenged to sustain the level of
effort needed to produce reliable financial statements in a timely manner. Continued IRS and
Department senior leadership involvement is essential to effectively address IRS’s remaining
financial management challenges.

EVALUATION OF AUDITORS’ PERFORMANCE

To ensure the quality of the audit work performed, we reviewed KPMG LLP’s approach and
planning of the audit, evaluated the qualifications and independence of the auditors, monitored
the progress of the audit at key points, reviewed and accepted KPMG LLP’s audit report, and
performed other procedures that we deemed necessary. We also provide oversight of the audits
of financial statements and certain accounts and activities conducted at 12 component entities of
the Department. Our review, as differentiated from an audit in accordance with generally
accepted government auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the effectiveness of internal
control or on whether the Department’s financial management systems substantially complied
with the Federal Financial Management Improvement Act of 1996 or conclusions on compliance
with laws and regulations. KPMG LLP is responsible for the attached auditor’s report dated
November 17, 2008, and the conclusions expressed in that report. However, our review disclosed
no instances where KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.
Page 3

I appreciate the courtesies and cooperation extended to KPMG LLP and my staff during the
audit. Should you or your staff have questions, you may contact me at (202) 622-1090 or
Marla A. Freedman, Assistant Inspector General for Audit, at (202) 927-5400.

Attachment

cc: Peter B. McCarthy
    Assistant Secretary for Management
       and Chief Financial Officer
THIS PAGE INTENTIONALLY LEFT BLANK
         SECTION I –

INDEPENDENT AUDITORS’ REPORT
 AND MANAGEMENT’S RESPONSE
THIS PAGE INTENTIONALLY LEFT BLANK
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                           Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury:

We have audited the accompanying consolidated balance sheets of the U.S. Department of the Treasury
(Department) as of September 30, 2008 and 2007, and the related consolidated statements of net cost, and
changes in net position, combined statements of budgetary resources, and the statements of custodial
activity (hereinafter referred to as “consolidated financial statements”) for the years then ended. The
objective of our audits was to express an opinion on the fair presentation of these consolidated financial
statements. These consolidated financial statements are incorporated in the accompanying U.S. Department
of the Treasury Fiscal Year 2008 Performance and Accountability Report (PAR).

We did not audit the amounts included in the consolidated financial statements related to the Internal
Revenue Service (IRS), a component entity of the Department. The financial statements of the IRS were
audited by another auditor whose report thereon has been provided to us. Our opinion, insofar as it relates
to the amounts included for the IRS, is based solely on the report of the other auditor.

In connection with our fiscal year 2008 audit, we, and the other auditor, also considered the Department’s
internal control over financial reporting and tested the Department’s compliance with certain provisions of
applicable laws, regulations, contracts, and grant agreements that could have a direct and material effect on
these consolidated financial statements. Our conclusions on internal control over financial reporting and
compliance and other matters, insofar as it relates to the IRS, are based solely on the report of the other
auditor.

Summary

As stated in our opinion on the consolidated financial statements, based on our audits and the report of the
other auditor, we concluded that the Department’s consolidated financial statements as of and for the years
ended September 30, 2008 and 2007, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.

As discussed in Notes 24, 25, and 26, the Department is a participant in significant legislation and
transactions whose purpose is to assist in stabilizing the financial markets.

Our, and the other auditor’s consideration of internal control over financial reporting resulted in the
following conditions being identified as significant deficiencies:

    •   Financial Systems and Reporting at the IRS (Repeat Condition)
    •   Financial Management Practices at the Departmental Level (Repeat Condition)
    •   Controls Over Foreign Currency Transactions

We consider the significant deficiency related to Financial Systems and Reporting at the IRS noted above,
to be a material weakness.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
U.S. Department of the Treasury
November 17, 2008
Page 2 of 12


The results of our tests, and the tests performed by the other auditor, of compliance with certain provisions
of laws, regulations, contracts, and grant agreements disclosed an instance of noncompliance with Internal
Revenue Code (IRC) Section 6325, that is required to be reported under Government Auditing Standards,
issued by the Comptroller General of the United States, and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. In addition, the Department’s
financial management systems did not substantially comply with the Federal Financial Management
Improvement Act of 1996 (FFMIA) requirements related to compliance with Federal financial management
system requirements (FFMSR), applicable Federal accounting standards, and the U.S. Government
Standard General Ledger (SGL) at the transaction level.

We also reported a matter related to compliance with the Anti-deficiency Act at the Financial Crimes
Enforcement Network (FinCEN). This potential violation is currently under review by the Government
Accountability Office (GAO).

The following sections discuss our opinion on the Department’s consolidated financial statements; our, and
the other auditor’s, consideration of the Department’s internal controls over financial reporting; our, and
the other auditor’s, tests of the Department’s compliance with certain provisions of applicable laws,
regulations, contracts, and grant agreements; and management’s and our responsibilities.

Opinion on the Financial Statements

We have audited the accompanying consolidated balance sheets of the Department of the Treasury as of
September 30, 2008 and 2007, and the related consolidated statements of net cost, changes in net position,
the combined statements of budgetary resources, and the statements of custodial activity, for the years then
ended.

We did not audit the amounts included in the consolidated financial statements related to the IRS, a
component entity of the Department, which reflect total assets of $35.6 billion and $31.3 billion, net costs
of operations of $12.2 billion and $11.7 billion, and custodial revenues of $2.8 trillion and $2.7 trillion, as
of and for the years ended September 30, 2008 and 2007, respectively. The financial statements of the
IRS, as of and for the years ended September 30, 2008 and 2007, were audited by another auditor whose
report dated November 5, 2008, has been provided to us, and our opinion, insofar as it relates to the
amounts included for the IRS, is based solely on the report of the other auditor.

In our opinion, based on our audits, and the report of the other auditor, the consolidated financial
statements referred to above present fairly, in all material respects, the financial position of the Department
of the Treasury as of September 30, 2008 and 2007, and its net costs, changes in net position, budgetary
resources, and custodial activity for the years then ended, in conformity with U.S. generally accepted
accounting principles.

As discussed in Notes 24, 25, and 26, the Department is a participant in significant legislation and
transactions whose purpose is to assist in stabilizing the financial markets.

The information in the PAR in Part I – Management’s Discussion and Analysis, and the Required
Supplemental Information section of Part III – Annual Financial Report, is not a required part of the
consolidated financial statements, but is supplementary information required by U.S. generally accepted
accounting principles. We, and the other auditor, have applied certain limited procedures, which consisted
U.S. Department of the Treasury
November 17, 2008
Page 3 of 12


principally of inquiries of management regarding the methods of measurement and presentation of this
information. However, we did not audit this information and, accordingly, we express no opinion on it.

Our audits, and the audits of the other auditor, were conducted for the purpose of forming an opinion on
the consolidated financial statements taken as a whole. The information in the Message from the Secretary,
in the PAR in Part II – Annual Performance Report; and in Part IV – Other Accompanying Information, are
presented for purposes of additional analysis and are not required as part of the consolidated financial
statements. This information has not been subjected to auditing procedures and, accordingly, we express no
opinion on it.

Internal Control Over Financial Reporting

Our, and the other auditor’s, consideration of the internal control over financial reporting is described in
the Responsibilities section of this report. Our consideration of internal control over financial reporting
was for a limited purpose and would not necessarily disclose all deficiencies in the internal control over
financial reporting that might be significant deficiencies or material weaknesses. This report also includes
our consideration of the results of the other auditor’s testing of internal control over financial reporting that
is reported on separately by the other auditor. The other auditor’s consideration of internal control over
financial reporting was for the purpose of providing an opinion on the effectiveness of IRS’s internal
controls. This report, insofar as it relates to the results of the other auditor, is based solely on the report of
the other auditor.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects the Department’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the Department’s consolidated financial statements that is more
than inconsequential will not be prevented or detected by the Department’s internal control. A material
weakness is a significant deficiency, or combination of significant deficiencies, that results in more than a
remote likelihood that a material misstatement of the financial statements will not be prevented or detected
by the Department’s internal control.

In our fiscal year 2008 audit, we, and the other auditor, consider the deficiencies, summarized below, to be
significant deficiencies in internal control over financial reporting. The significant deficiency related to
Financial Systems and Reporting at the IRS noted below is considered to be a material weakness. Because
of the IRS material weakness in internal controls discussed below, the other auditor’s opinion on internal
control stated that the IRS did not maintain effective internal control over financial reporting (including
safeguarding of assets), or compliance with laws and regulations, and thus did not provide reasonable
assurance that losses, misstatements, and noncompliance with laws material in relation to the financial
statements would be prevented or detected on a timely basis.
U.S. Department of the Treasury
November 17, 2008
Page 4 of 12


MATERIAL WEAKNESS

Financial Systems and Reporting at the IRS (Repeat Condition)

IRS continued to make progress in addressing weaknesses in internal control identified in previous years.
However, significant deficiencies related to financial reporting, unpaid tax assessments, and information
security controls continued to exist in fiscal year 2008.

These weaknesses adversely affect IRS’s ability to fulfill its responsibilities as the nation’s tax collector
because it is unable to routinely obtain comprehensive, timely, accurate, and useful, information for day-to-
day decision making. As a result, IRS personnel will continue to be challenged to sustain the level of
effort needed to produce reliable financial statements timely until the IRS successfully addresses
underlying systems and internal control weaknesses.

The material weaknesses in internal control over financial reporting identified by the auditors of IRS’s
financial statements, all of which are repeat conditions, and collectively considered a material weakness for
the Department as a whole, are summarized as follows:

        •   Weaknesses in controls over the financial reporting process, resulting in IRS not (1) being able
            to prepare its balance sheet without extensive compensating procedures, and (2) having current
            and reliable ongoing cost information to support management decision making and to prepare
            cost-based performance measures;

        •   Weaknesses in controls over unpaid tax assessments, resulting in IRS’s inability to properly
            manage unpaid tax assessments and leading to increased taxpayer burden; and

        •   Weaknesses in information security controls, resulting in increased risk of unauthorized
            individuals accessing, altering, or abusing proprietary IRS programs and electronic data and
            taxpayer information.

The material weaknesses in internal control noted above may adversely affect decisions by IRS’s
management that is based, in whole or in part, on information that is inaccurate because of these
deficiencies.

Additional details related to the material weaknesses identified above have been provided to IRS
management by the auditors of the IRS’s financial statements in their report dated November 5, 2008.

Recommendations

Recommendations to address the material weaknesses discussed above have been provided to IRS
management by the auditors of the IRS’s financial statements. We recommend that the Assistant Secretary
for Management and Chief Financial Officer (ASM/CFO) provide effective oversight to ensure that
corrective actions are taken by the IRS to fully address this material weakness.
U.S. Department of the Treasury
November 17, 2008
Page 5 of 12


SIGNIFICANT DEFICIENCIES

Financial Management Practices at the Departmental Level (Repeat Condition)

Due to expanded accounting and reporting requirements and responsibilities of the Department,
improvements continue to be needed in current financial management and reporting practices.

The Office of Accounting and Internal Control (AIC) within the Office of the Deputy Chief Financial
Officer (ODCFO), is responsible for establishing and maintaining financial policies that guide consolidated
financial reporting throughout the Department, and implementing internal controls to ensure the overall
integrity of financial data reported at the consolidated level. AIC prepares consolidated financial
statements including footnote and supplementary data, from trial balances and other financial data
submitted by the components. AIC uses this information to compile the Department’s consolidated
financial statements. AIC is dependent on the Treasury components for complete, accurate, and timely
submission of monthly financial data. Certain quality control procedures are conducted by AIC to ensure
that component financial and other data is accurate and complete for inclusion in the consolidated financial
statements. However, several control deficiencies were noted, as described below, that indicated a weak
control environment, resulting in financial management and reporting weaknesses. These deficiencies in
internal control over financial reporting are collectively considered a significant deficiency for the
Department as a whole.

    • We continue to note that AIC, in addition to other Departmental Offices such as the Office of Financial
      Management (OFM), and the Office of Performance Budgeting and Strategic Planning (OPBSP), have
      financial management infrastructures that are inadequately staffed for the financial reporting
      responsibilities of such a large and complex Executive Branch agency. Several key personnel having
      significant institutional knowledge of the Department’s accounting and reporting processes within
      these offices are at or near retirement eligibility status. In the event of retirement or sudden prolonged
      absence of one or more of the key accounting individuals, Treasury would face a significant loss of
      operational and institutional knowledge absent a comprehensive, formalized succession plan, resulting
      in significant financial management deficiencies. In fiscal year 2008, we noted that AIC successfully
      replaced one key official that retired in the current year, and supplemented its existing staff with two
      additional staff members on detail from other Treasury components. Although this temporarily helped
      with AIC’s short-term needs, AIC, OFM, and OPBSP’s long-term human capital need of personnel
      who have the requisite financial accounting background, knowledge, and expertise, to assist in the
      financial management and reporting of such a large and complex executive branch agency remains to
      be addressed.

•     AIC’s supervisory and monitoring control procedures were not consistently performed and documented
      over certain financial data and other information transmitted by Treasury components. During our
      review of interim and final consolidated financial statements, we noted errors and discrepancies that
      were only corrected after they were identified during audit test work. In other instances, we noted
      inadequate and/or untimely follow-up of accounting and/or reporting issues.

•     AIC has not yet formalized written policies and procedures for the required accounting and reporting of
      various non-routine, complex, and unique transactions, such as the reporting of the U.S. Mint’s
      Seigniorage amount, accrued interest and discount on debt, transfers to the General Fund and Other, in
      the Department’s consolidated financial statements.
U.S. Department of the Treasury
November 17, 2008
Page 6 of 12



•   AIC procedures for monitoring compliance with existing, as well as new laws and regulations that
    apply to the Department need improvement. Specifically, we noted that there is no formal
    communication between Treasury’s Office of General Counsel (OGC) and AIC on matters related to
    new legislation, the assessment of compliance requirements, if any, and subsequent actions to be taken
    by the Department. Currently, interpretation of new laws and regulations, and resulting compliance
    needs, are left up to the discretion and interpretation of Department personnel. Without a formal
    communication process, there is significant risk of noncompliance with laws and regulations by the
    Department and its components.

•   Our reviews of Department-wide testing and reporting on internal control over financial reporting, in
    accordance with OMB Circular No. A-123, Management’s Responsibility for Internal Control (A-123),
    continue to identify similar implementation issues as in prior years. Although the Department
    established an effective implementation plan (Plan) to assess, document, test, and report on internal
    control over financial reporting, certain Treasury components did not fully execute the Plan.
    Specifically, some components did not have, or provide verifiable and documented results to support
    their conclusion as to whether internal control over financial reporting was properly designed and
    operating effectively for certain areas in accordance with the Department’s guidelines. In addition, the
    AIC, which is responsible for the Department-wide monitoring of A-123 compliance, did not
    effectively review the work performed by components to assess whether the methodology and
    implementation requirements had been followed.

•   As a result of the Housing and Economic Recovery Act legislation of 2008, the Department was
    involved in various financial transactions unique to the Department. These transactions were processed
    in a shortened time-frame causing various control deficiencies related to documentation of policies and
    procedures and financial reporting. The Department overcame significant time and personnel resource
    constraints to appropriately execute, manage, and report the results of these unprecedented events and
    transactions all of which occurred during the last month of the fiscal year. One transaction type
    involved the purchase of GSE Mortgage Backed Securities (MBS) in the amount of $3.3 billion. The
    Department concluded that the purchase of GSE MBS should be accounted under the Federal Credit
    Reform Act of 1990, as amended (FCRA). FCRA has significant documentation requirements. Since
    the MBS program was implemented in a shortened time-frame, the Department did not properly
    document policies and procedures, and controls relating to the MBS accounting and reporting. The
    primary cause of this lack of documentation was that Treasury did not have the resources, including
    personnel to prepare the required documentation supporting the accounting, re-estimate valuation, and
    financial reporting of the MBS purchases under FCRA.

The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires that agencies establish internal
controls according to standards prescribed by the Comptroller General and specified in the Government
Accountability Office’s (GAO) Standards for Internal Control in the Federal Government (Standards).
The GAO defines “internal control” as an integral component of an organization’s management that
provides reasonable assurance that the following objectives are achieved: effectiveness and efficiency of
operations, reliability of financial reporting, and compliance with applicable laws and regulations. The
GAO Standards identify the control environment as one of the five key elements of control, which
emphasizes the importance of control conscientiousness in management’s operating philosophy and
U.S. Department of the Treasury
November 17, 2008
Page 7 of 12


commitment to internal control. These standards cover controls such as human capital practices,
supervisory reviews, and segregation of duties, policies, procedures, and monitoring.

A-123 requires agencies to (1) develop and implement management controls; (2) assess the adequacy of
management controls; (3) identify needed improvements; (4) take corresponding corrective actions; and
(5) report annually on management controls in support of FMFIA. The issues we identified occurred
mainly because certain key AIC and OFM financial personnel have excessive workloads, and there is
insufficient time for these key financial personnel to devote to supervisory reviews and other financial
management activities. This resulted in increased reliance being placed on the annual audit process to
identify errors and omissions in the consolidated financial statements, as well as the Department’s
implementation of A-123.

Recommendations

We recommend that the ASM/CFO, Deputy CFO, and Deputy Assistant Secretary for Human Resources
and Chief Human Capital Officer, with input from the Directors of AIC, OFM and OPBSP, as appropriate:

1. Complete a human capital needs assessment, with particular focus on the management skills needed to
   perform the daily operations of these offices. Once the human capital needs are assessed, hire staff, or
   consider transferring suitable staff from other offices within Treasury to meet these immediate needs.

2. Establish new policies or improve existing policies and procedures to ensure that:

    i.   Quality control reviews are performed on the consolidated financial statements by responsible
         officials to ensure that all errors and inconsistencies are corrected in a timely manner; and

    ii. Adequate reviews are conducted by senior AIC officials on all documentation prepared to support
        consolidated financial statement amounts to ensure that the documents and information provided
        are accurate and complete, and such review is documented.

3. Ensure that documentation exists to support all new and/or unique accounting and reporting
   requirements as well as non-routine or complex accounting and reporting matters. For example, any
   new financial statement footnote disclosures that are developed should include a policy memo,
   financial statement footnote disclosure format as well as evidence of review by responsible officials
   within AIC of both the policy and the format to be followed.

4. Ensure that communication is initiated on a periodic basis (at least quarterly) with OGC, to obtain
   information and documentation on any new laws and regulations that apply at the
   Department/component level, including documentation of OGC’s assessment of compliance
   requirements especially those having financial impact.

5. Monitor the A-123 work being conducted by components to ensure that the Department’s A-123
   guidance is fully implemented, and if not, document the rationale or mitgating factors that were
   considered for not following the Department’s requirements.
U.S. Department of the Treasury
November 17, 2008
Page 8 of 12


6. Document policy and procedures related to FCRA transactions, periodically examine performance of
   the credit programs to re-estimate cash flow projections and assumptions, and have affected personnel
   continue to consult with other Federal agencies that have substantial credit reform accounting
   experience.

Controls Over Foreign Currency Transactions

Improvements are needed related to internal control over foreign currency investment transactions at the
Exchange Stabilization Fund (ESF). ESF’s foreign currency operations are managed on ESF’s behalf by a
designated fiscal agent. The fiscal agent is responsible for the monthly accounting and reporting to the
ESF of foreign currency activities. The fiscal agent also provides data that supports various ESF financial
statement disclosures such as for fair values. The ESF relies entirely on the financial information reported
by the fiscal agent and incorporates the financial data reported monthly into its general ledger and financial
statements. Although ESF’s financial data are subject to detailed review and validation by the fiscal agent,
ESF does not have sufficient internal independent checks and balances in place to ensure the accuracy and
completeness of the transactions and balances reported to them by the fiscal agent. Comprehensive
internal processes, procedures, and controls over foreign currency transactions are essential to ensure that
these transactions and balances are complete and accurate, and appropriately reported.
Additional details related to the significant deficiency identified above will be provided to ESF
management by the auditors of the ESF’s financial statements.

Recommendations

Recommendations to address the significant deficiency discussed above will be provided to ESF
management by the auditors of the ESF’s financial statements. We recommend that the ASM/CFO provide
effective oversight to ensure that corrective actions are taken by the ESF to fully address this significant
deficiency.

Compliance and Other Matter

The results of certain of our tests, and the tests performed by the other auditor, of compliance as described
in the Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed the
following instance of noncompliance or other matters that is required to be reported herein under
Government Auditing Standards or OMB Bulletin No. 07-04.

       •   Noncompliance with IRC Section 6325 - The IRC grants IRS the power to file a lien against
           the property of any taxpayer who neglects or refuses to pay all assessed Federal taxes. Under
           IRC Section 6325, the IRS is required to release a Federal tax lien within 30 days after the date
           the tax liability is satisfied, or has become legally unenforceable, or the Secretary of the
           Treasury has accepted a bond for the assessed tax. Instances were noted during the fiscal year
           2008 audit where the IRS did not timely release the applicable Federal tax lien within 30 days
           of the tax liability being either paid off or abated as required by the IRC (Repeat Condition).
U.S. Department of the Treasury
November 17, 2008
Page 9 of 12


The results of our other tests, and the tests performed by the other auditor, of compliance as described in
the Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed no instances
of noncompliance or other matters that are required to be reported herein under Government Auditing
Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA, and the tests performed by the other auditor, disclosed instances where
the Department’s financial management systems did not substantially comply with FFMIA Section 803(a)
requirements (Repeat Condition) related to compliance with (1) federal financial management system
requirements (FFMSR), (2) applicable Federal accounting standards, and (3) the United States Government
Standard General Ledger (SGL) at the transaction level, as described below.

       Instances of noncompliance with FFMSR are summarized below:

        •   IRS’s financial management systems do not provide timely and reliable information for
            financial reporting and preparation of financial statements. IRS had to rely on extensive
            compensating procedures to generate reliable financial statements.

        •   Deficiencies were identified in information security controls at the IRS, resulting in increased
            risk of unauthorized individuals accessing, altering, or abusing proprietary IRS programs and
            electronic data and taxpayer information.

        Instances of noncompliance with Federal accounting standards are summarized below:

        •   Material weaknesses at the IRS related to controls over financial reporting and unpaid tax
            assessments.

        •   IRS’s financial management system cannot produce reliable, current information on the costs
            of its activities available to support decision making on a routine basis, consistent with the
            requirements of Statement of Federal Financial Accounting Standards No. 4, Managerial Cost
            Accounting Standards.

        An instance of noncompliance with the SGL at the transaction level is summarized below:

        •   IRS’s core general ledger system for tax-related activities does not comply with the SGL at the
            transaction level and also does not post transactions in conformance with SGL posting models.

The Secretary of the Treasury also stated in his Letter of Assurance, included in Part I – Management’s
Discussion and Analysis, of the accompanying PAR that the Department cannot provide assurance that its
financial management systems are in substantial compliance with FFMIA. The Department’s remedial
actions and related time frames are presented in Appendix D of the PAR.

FFMIA requires that if the head of an agency determines that its financial management systems do not
substantially comply with FFMIA, a remediation plan must be developed, in consultation with OMB that
describes the resources, remedies, and intermediate target dates for achieving substantial compliance.
FFMIA also requires OMB concurrence with any plan not expected to bring the agency’s system into
substantial compliance within three years after a determination of noncompliance is made.
U.S. Department of the Treasury
November 17, 2008
Page 10 of 12


IRS has established a remediation plan to address the conditions affecting its systems’ inability to comply
substantially with the requirements of FFMIA. This plan outlines the actions to be taken to resolve these
issues, but these actions are long term in nature and are tied to IRS’s system modernization efforts.

Recommendation

We recommend that the ASM/CFO provide effective oversight to ensure that (1) IRS implements
appropriate controls so that Federal tax liens are released in accordance with Section 6325 of the IRC; and
(2) IRS implements its plan of action to solve financial management problems so as to enable resolving the
identified instances of financial management systems noncompliance with the requirements of FFMIA.
Detailed recommendations to address the noncompliance findings discussed above have been provided to
IRS management by the auditors of the IRS’s financial statements.

Other Matter

The Department’s management informed us of an instance of a potential Anti-deficiency Act violation
related to transactions and activities of FinCEN. Specifically, budgetary control weaknesses existing
within FinCEN may have allowed a potential violation of the Anti-deficiency Act. This matter is currently
under review by the GAO.

Management’s Response to Internal Control and Compliance Findings

The Department’s management has indicated in a separate letter immediately following this report that it
concurs with the findings presented in this section of our report. Further, it has responded that it will take
corrective action, as necessary, to ensure the matters presented are addressed by the respective component
management within the Department. We did not audit the Department’s response and, accordingly, we
express no opinion on it.

                                                 * * * * *

We noted certain additional matters involving internal control over financial reporting and its operation
that we will report to the Department’s management in a separate letter.

Responsibilities

Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
and grant agreements applicable to the Department.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2008 and 2007
consolidated financial statements of the Department based on our audits and the report of the other auditor.
We, and the other auditor, conducted our audits in accordance with auditing standards generally accepted
in the United States of America; the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States; and OMB Bulletin No. 07-04.
Those standards and OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the consolidated financial statements are free of material misstatement.
An audit includes consideration of internal control over financial reporting as a basis for designing audit
U.S. Department of the Treasury
November 17, 2008
Page 11 of 12


procedures that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the Department’s internal control over financial reporting. Accordingly, we express no
such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;

•     Assessing the accounting principles used and significant estimates made by management; and

•     Evaluating the overall consolidated financial statement presentation.

We believe that our audits, and the report of the other auditor, related to the amounts included for the IRS,
provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2008 audit, we considered the Department’s internal control
over financial reporting, exclusive of the internal control over financial reporting related to the IRS, by
obtaining an understanding of the design effectiveness of the Department’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion on the
consolidated financial statements. Internal control over financial reporting related to the IRS was
considered by the other auditor whose report thereon dated November 5, 2008 has been provided to us.
We, and the other auditor, did not test all internal controls relevant to operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to
express an opinion on the effectiveness of the Department’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Department’s internal control over
financial reporting. The objective of the other auditor’s audit was to express an opinion on the
effectiveness of the IRS’s internal control over financial reporting. Accordingly, the other auditor provided
an opinion on IRS’s internal control over financial reporting.

As part of obtaining reasonable assurance about whether the Department’s fiscal year 2008 consolidated
financial statements are free of material misstatement, we, and the other auditor, performed tests of the
Department’s compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the consolidated
financial statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 07-04, including the provisions referred to in Section 803(a) of FFMIA. We, and the other
auditor, limited our tests of compliance to the provisions described in the preceding sentence, and we, and
the other auditor, did not test compliance with all laws, regulations, contracts, and grant agreements
applicable to the Department. However, providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our audit and, accordingly, we do not express such
an opinion.

                                   ______________________________
U.S. Department of the Treasury
November 17, 2008
Page 12 of 12


This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, OMB, the GAO, and the U.S. Congress and is not intended to
be and should not be used by anyone other than these specified parties.




November 17, 2008
THIS PAGE INTENTIONALLY LEFT BLANK
        SECTION II –

 DEPARTMENT OF THE TREASURY
FISCAL YEAR 2008 PERFORMANCE
   & ACCOUNTABILITY REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
       Pe r for mance &
Accou ntab i lity R e port




             fiscal year 2008
    Th e U n ite d States De partm e nt
             Of Th e Tr easu ry

                                   Our Vision

              Set the global standard in financial and economic leadership


                                 Our Mission

   Serve the American people and strengthen national security by managing the U.S.
Government’s finances effectively, promoting economic growth and stability, and ensuring
    the safety, soundness, and security of the U.S. and international financial systems


                                  Our Values
     SERVICE – Work for the benefit of the American people
     INTEGRITY – Aspire to the highest levels ethical standards of
                    honesty, trustworthiness, and dependability
     EXCELLENCE – Strive to be the best, continuously improve, innovate, and adapt
     OBJECTIVITY – Encourage independent views
     ACCOUNTABILITY – Responsible for our conduct and work
     COMMUNITY – Dedicated to excellent customer service, collaboration,
                    and teamwork while promoting diversity
Fiscal Year 2008
         Pe r for mance &
 Accou ntab i lity R e port
ii
Tab le of Conte nts




      Message from the Secretary .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
      About this Report  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .     vii


Part I: Management’s Discussion and Analysis
      Introduction .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  3
      Organization  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
      The Treasury Department’s 2007-2012 Strategic Framework  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  7
      Fiscal Year 2008 Summary of Performance by Strategic Goal .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  8
      How Well is Treasury Performing?  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  9
      Financial Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11
      Fiscal Year 2008 Key Initiatives  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 12
      Fiscal Year 2008 Performance by Strategic Goal  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
             Effectively Managed U.S. Government Finances  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 21
             U.S. and World Economies Perform at Full Economic Potential .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 22
             Prevented Terrorism and Promoted the Nation’s Security through
             Strengthened International Financial Systems .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 24
             Management and Organizational Excellence  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 26

      Summary of Management Challenges and High-Risk Areas  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 28
      Analysis of Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 31
      Improper Payments Information Act and Recovery Auditing Act .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 36
      Management Assurances .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
      Material Weaknesses, Audit Follow-up, and Financial Systems .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 40




iii                                                                                                                                                                                                  Contents
Fiscal Year 2008 Performance and Accountability Report




           Part II: Annual Performance Report
              Introduction .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 47
              Completeness and Reliability of Performance Data .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 48
              Guide to the Annual Performance Report .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 50
              Strategic Objective: Cash Resources are Available to Operate the Government .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 51
              Strategic Objective: Improved Economic Opportunity, Mobility, and Security
                              with Robust, Real, Sustainable Economic Growth at Home and Abroad  .  .  .  .  .  .  .  .  .  .  .  .  .  . 72
              Strategic Objective: Trust and Confidence in U.S. Currency Worldwide .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 91
              Strategic Objective: Pre-empted and Neutralized Threats to the
                              International Financial System and Enhanced U.S. National Security .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 99
              Strategic Objective: Enabled and Effective Treasury Department  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 111


           Part III: Annual Financial Report
              Message from the Assistant Secretary for Management and Chief Financial Officer .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 123
              Inspector General’s Transmittal Letter .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  125
              Auditor’s Report on the Department’s Financial Statements  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 127
              Management’s Response to Auditor's Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 139
              Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 140
              Notes to the Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  147
              Required Supplemental Information (Unaudited) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  211


           Part IV: Other Accompanying Information
              APPendices
                   Appendix A: Other Accompanying Information (Unaudited) .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  219
                   Appendix B: Improper Payments Information Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 223
                   Appendix C: Management Challenges and Responses .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 231
                   Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 269
                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008
                               Performance Measures by Focus and Strategic Goal .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  279

              Glossary of Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                       377




Contents                                                                                                                                                                                             iv
M essag e from th e Secr etary



November 17, 2008


On behalf of the Department of the Treasury, I am pleased to submit the Fiscal Year
2008 Performance and Accountability Report. This annual report provides insight into
the Department’s broad leadership role for the economic and financial activities of
the U.S. Government. The current economic turmoil calls for extraordinary measures,
and the Treasury Department has actively pursued initiatives aimed at stabilizing the
financial system and strengthening financial institutions that play a vital role in support-
ing U.S. economic activity.


Maintaining and improving the performance of the Department is crucial. In fiscal year 2008, the Department of the
Treasury met or exceeded 70 percent of its performance targets, slightly lower than fiscal year 2007. Though the result is
lower than the prior year, Treasury improved the quality of its measures through innovative approaches to measure difficult
areas, such as Terrorism and Financial Intelligence, and economic and financial technical assistance provided to other
countries.


This year brought two additional management challenges for the Department: Management of Treasury’s New Authorities
Related to Distressed Financial Markets and Regulation of National Banks and Thrifts. Treasury recognizes the importance
of sound stewardship in managing the authorities related to distressed financial markets. We are executing the authorities
we have been granted with one primary goal – to restore liquidity and stability to the financial system of the United States.
More broadly, we are reviewing the regulation of national banks and thrifts to identify gaps in regulatory authority and
the regulatory framework that contributed to the current financial turmoil, and putting forward policies to modernize our
financial regulatory architecture to match the evolution of the financial marketplace.


The Department of the Treasury has again received an unqualified opinion on its financial statements. The Department
has validated the accuracy, completeness, and reliability of the financial data in this report. Performance data has been
validated, and is likewise complete and reliable. The Department has continued to make progress in reducing management
control weaknesses and in efforts to satisfy federal financial systems and control objectives.


Sincerely,




Henry M. Paulson, Jr.
Secretary of the Treasury




v                                                                                                     Message from the Secretary
Fiscal Year 2008 Performance and Accountability Report




                                              This page intentionally left blank




Message from the Secretary                                                         vi
About th is R e port

The fiscal year 2008 Treasury Performance and Accountability Report provides information that enables Congress, the
President, and the public to assess the Department’s performance relative to its mission and stewardship of the resources
entrusted to it.

The magnitude of the economic and financial challenges this year prompted changes in this report. Management’s
Discussion and Analysis (MD&A) is focused on the contributions Treasury has made on behalf of the American people
to mitigate current or potential financial turmoil.

The MD&A also includes key accomplishments and challenges that are summarized by strategic goal, along with trends
in performance, budget, and cost. The Performance Highlights page from the prior year has been renamed to "How Well
is Treasury Performing?" It includes graphical results for Program Assessment Rating Tool (PART) ratings by both num-
ber of programs and by funding. Performance measures have two additional rating categories this fiscal year, “exceeded”
and “improved.” These results are indicated in two charts, one that incorporates baseline and discontinued measures, and
one that does not. There is marked difference in viewing the performance results from these two perspectives.

Additionally, the Department has included three new charts. The first chart is a summary of actual performance trends
for the last four years. Treasury examined each of its performance measures for favorable or unfavorable trends, and tabu-
lated the results. The second new chart attempts to provide readers with an approximation of the cost of the Treasury
Department for each citizen in the United States. Treasury performance cost was divided by an estimate of the U.S.
population at the end of fiscal year 2008 to determine the result. The third and final chart plots Treasury performance
and cost versus inflation from 2005-2008. This is a dual-axis chart that indicates the year-over-year change in Treasury
performance cost and inflation, and the percentage of Treasury performance measures that were either met or exceeded.

The MD&A also includes a new summary of Treasury-wide and Internal Revenue Service specific challenges, and High
Risk Area updates (as defined by the Government Accountability Office). Each management challenge is assessed for
its progress and status, with hyperlinks to the appendix of the report that will provide additional detail. High Risk areas
are summarized, including hyperlinks to the Office of Management and Budget’s ExpectMore.gov page for performance
information.

The Annual Performance Report includes new performance measure tables that add a percent of target achieved for
each performance measure, as well as indicators for actual and target performance trends over the last four years. A new
section entitled "Analysis of Performance Results" is included to provide a transparent explanation of performance results.

The Department has also included a "Moving Forward" section as it has done in previous years to describe what it will do
to address any performance shortfalls and future plans.

Treasury believes this report embodies the integrity, objectivity, transparency, and spirit of continuous improvement that
is resident at the agency, and clarifies the public benefits of our collective actions.




 vii                                                                                                               About this report
Fiscal Year 2008 Performance and Accountability Report




                                              This page left intentionally blank




                                                                                   viii
        Manag e m e nt’s
Discu ssion & analysis




                  Part I
                                                                                      parT i — manaGemenT’S diScUSSiOn and analySiS




INtroduction

Fiscal year 2008 has been a challenging year. The ongoing housing correction has reverberated throughout the U.S.
financial system and severely impacted the U.S. economy. Lack of confidence among lenders and strained capital markets
have made it harder to obtain student loans, auto loans, home loans and business loans. Restoring confidence in capital
markets is essential to the long-term health of the U.S. economy. Treasury has made significant efforts this year to
address financial market difficulties and mitigate effects on the overall economy. The list below constitutes some of the
actions taken by the Department:
     •	 Led the government response to financial market challenges

     •	 Participated in development and implementation of the Economic Stimulus Act of 2008

     •	 Helped homeowners by supporting creation of the HOPE NOW alliance

     •	 Participated in finding solutions for troubled non-depository financial institutions

     •	 Contributed to placement of Fannie Mae and Freddie Mac in conservatorship

     •	 Proposed legislation allowing Treasury to increase liquidity in financial markets

     •	 Implemented measures to bolster regulation of national banks and thrifts

     •	 Established a Temporary Guarantee Program for money market funds

     •	 Released the Blueprint for a Modernized Financial Regulatory Structure

     •	 Participated in Federal Housing Administration modernization

     •	 Participated in the development and implementation of temporary tax relief for mortgage holders

     •	 Issued the Best Practices for Residential Covered Bonds

     •	 Coordinated the U.S. policy agenda for the U.S.-China Strategic Economic Dialogue

All of these actions are aimed at implementing the Department’s strategy to address the four key challenges financial
markets face today - confidence, capital, systemic risk and liquidity. It will take time for these actions to have their full
effect. Treasury will move aggressively on all possible fronts to address ongoing market and economic challenges.

Treasury’s Offices of the Assistant Secretary for Management and Chief Financial Officer, the Deputy CFO, the Deputy
Assistant Secretary for Management and Budget, and other Treasury bureaus and policy offices, in coordination with the
Office of Financial Stability (OFS), are working through the financial and accounting aspects of the Emergency Economic
Stabilization Act of 2008 (EESA) over which the Department of the Treasury has authority, including the Troubled Asset
Relief Program (TARP). The TARP includes a Capital Purchase Program, a Systemically Significant Failing Institutions
Program, and may in the future include other programs to purchase troubled assets plus an insurance program as required
under EESA.
     •	 Value the various types of assets to be purchased under the TARP’s authority

     •	 Model the associated cash flows related to the assets to be purchased under the TARP’s authority

     •	 Report the TARP accurately, fairly, and transparently on the OFS’s and the Department’s financial statements in
       accordance with Generally Accepted Accounting Principles (GAAP)
     •	 Account for capital infusions and equity positions in publicly traded banks under the Capital Purchase Program

     •	 Account for programs that insure money market funds




3                                                                                                                               Introduction
Fiscal Year 2008 Performance and Accountability Report




          Treasury will work with its partners to determine fair market value of the assets it purchases through the TARP program.
          This work began in early fiscal year 2009. Treasury plans to work closely with the Federal Accounting Standards Advisory
          Board (FASAB) to ensure that TARP financial reporting maintains consistency with appropriate accounting and financial
          reporting standards.

          While there have been significant accomplishments in fiscal year 2008, much work remains to implement Treasury’s new
          authorities. The Department will exercise proper stewardship and provide exceptional accountability and transparency to
          perform its work on behalf of the American people. This work is accomplished through Treasury’s talented and dedicated
          workforce.



          Organization                                                      Economic Policy reports on current and prospective
                                                                                 economic developments and assists in the deter-
          The Department of the Treasury is the executive agency                 mination of appropriate economic policies. The
               responsible for promoting economic prosperity and                 office is responsible for the review and analysis of
               ensuring the financial security of the United States.             domestic economic issues and developments in the
               The Department is organized into two major com-                   financial markets.
               ponents, the departmental offices and the bureaus.
               The departmental offices are primarily responsible           Tax Policy develops and implements tax policies and pro-
               for policy formulation, while the bureaus are                      grams, reviews regulations and rulings to administer
               primarily the operating units of the organization.                 the Internal Revenue Code, negotiates tax treaties
                                                                                  and provides economic and legal policy analysis
          Departmental Offices                                                    for domestic and international tax policy decisions.
          Domestic Finance advises and assists in areas of domestic               Tax policy also provides revenue estimates for the
               finance, banking, and other related economic matters.              President’s budget.
               In addition, this office develops policies and guidance      Treasurer of the United States advises the Secretary
               for Treasury Department responsibilities in the areas              on matters relating to coinage, currency, and the
               of financial institutions, federal debt finance, financial         production of other financial instruments. The
               regulation, capital markets, financial management,                 Treasurer also serves as one of the Department’s
               fiscal policy and cash management decisions.                       principal advisors and a spokesperson in the area of
          International Affairs advises and assists in the formula-               financial literacy and education.
                tion and execution of U.S. international economic,          The Community Development Financial Institutions
                financial, monetary, trade, investment, bilateral                Fund (CDFI) expands the capacity of community
                aid, environment, debt, development and energy                   development financial institutions and community
                policy, including U.S. participation in international            development entities to provide credit, capital, tax
                financial institutions.                                          credit allocations, and financial services to under-
          Terrorism and Financial Intelligence marshals the                      served domestic populations and communities.
                Department’s intelligence and enforcement func-             The Office of Small and Disadvantaged Business
                tions with the twin aims of safeguarding the finan-              Utilization assists, counsels, and advises small
                cial system against illicit use and combating rogue              businesses of all types: disadvantaged, women-
                nations, terrorist facilitators, money launderers, drug          owned, veteran-owned, service-disabled veteran-
                kingpins, and other national security threats.                   owned, and small businesses located in historically




organization                                                                                                                        4
                                                                                Part I — Management’s Discussion and Analysis




       underutilized business zones on procedures for          The Financial Crimes Enforcement Network
       contracting with Treasury.                                    (FinCEN) safeguards the financial system from the
                                                                     abuses of financial crime, including terrorist financ-
  Internally, the Treasury’s Departmental Offices
                                                                     ing, money laundering, and other illicit activity.
  are responsible for the overall management of the
  Department. The Office of the Assistant Secretary of         The Financial Management Service (FMS) provides
  Management and Chief Financial Officer is responsible              central payment services to federal program agen-
  for internal management and controls. Support organi-              cies, operates the federal government’s collections
  zations include General Counsel, Legislative Affairs, and          and deposit systems, provides government-wide
  Public Affairs. Also, two inspectors general, the Treasury         accounting and reporting services and manages
  Inspector General for Tax Administration and the Office of         the collection of delinquent debt owed to the U.S.
  the Inspector General provide independent audits, inves-           Government.
  tigations, and oversight to the Department of Treasury
                                                               The Internal Revenue Service (IRS) is the largest of the
  and its programs.
                                                                     Department’s bureaus and determines, assesses, and
                                                                     collects tax revenue for the federal government.
Bureaus
Bureaus employ 98 percent of Treasury’s workforce and are      The United States Mint designs, produces, and issues
responsible for carrying out specific operations assigned to        circulating and bullion coins, numismatic coins and
the Department.                                                     other items, Congressional gold medals, and other
                                                                    medals of national significance. The United States
The Alcohol and Tobacco Tax and Trade Bureau
                                                                    Mint maintains physical custody and protection of
      (TTB) collects excise taxes on alcohol, tobacco,
                                                                    the nation’s gold assets.
      and firearms that are lawfully due the government,
      protects consumers of alcoholic beverages through        The Office of the Comptroller of the Currency (OCC)
      voluntary compliance programs that are based on               charters, regulates, and supervises national banks
      education and enforcement to ensure a fair market-            to ensure a safe, sound, and competitive banking
      place, and assists industry members in understand-            system that supports citizens, communities, and the
      ing and complying voluntarily with federal tax,               economy.
      product, and marketing requirements.
                                                               The Office of Thrift Supervision (OTS) charters,
The Bureau of Engraving and Printing (BEP) designs                  examines, supervises, and regulates federal and
      and manufactures high quality notes and other                 many state-chartered thrift associations in order to
      financial documents that deter counterfeiting and             maintain their safety and soundness and compli-
      meet customer requirements for quality, quantity,             ance with consumer laws.
      and performance.

The Bureau of the Public Debt (BPD) borrows the
      money needed to operate the federal government
      through the sale of marketable, savings, and special
      purpose U.S. Treasury securities. In addition, it ac-
      counts for and services the public debt and provides
      reimbursable support services to federal agencies.




5                                                                                                                       organization
Fiscal Year 2008 Performance and Accountability Report




          The Department of the Treasury Organizational Chart




               Office of the Chief of Staff
                                                                                    Secretary


                                                   Inspector General           Deputy Secretary             Treasury Inspector General
                                                                                                               for Tax Administration




                                               Undersecretary Domestic        Undersecretary Terrorism           Undersecretary
                                                      Finance                   Financial Intelligence         International Affairs




                                                                                                                                         Special Envoy to China
                                                                                                                                            for the Strategic
                                                                                                                                          Economic Dialogue
                 Internal Revenue                Assistant Secretary          Assistant Secretary          Assistant Secretary
                      Service                     Financial Markets           Terrorist Financing          International Affairs
                                                                                                           Financial Markets &             Assistant Secretary
                                                                                                            Investment Policy                   Tax Policy
               Bureau of Engraving               Assistant Secretary           Assistant Secretary
                   and Printing                   Financial Stability       Intelligence and Analysis
                                                                                                            Assistant Secretary           Alcohol and Tobacco
                                                                                                            International Affairs            Tax and Trade
                                                                                                         International Economics
                                                 Assistant Secretary           Financial Crimes               & Development
                United States Mint
                                                Financial Institutions       Enforcement Network
                                                                                                                                           Assistant Secretary
                                                                                                                                            Economic Policy
                  Office of the               Community Development
                Comptroller of the            Financial Institutions Fund                                                                  Assistant Secretary
                   Currency
                                                                                                                                         Public Affairs & Director
                                                                                                                                            of Policy Planning
                  Office of Thrift               Assistant Secretary
                   Supervision                          Fiscal
                                                                                                                                           Assistant Secretary
                                                                                                                                            Legislative Affairs
                                                          Bureau of
                                                         Public Debt
                                                                                                                                           Assistant Secretary
                                                                                                                                                MGT/CFO
                                                         Financial
                                                        Management
                                                          Service
                                                                                                                                            General Counsel




                                                                                                                                                Treasurer



                                                                                                                                         Director Office of Small
                                                                                                                                            & Disadvantaged
                                                                                                                                           Business Utilization




organization                                                                                                                                                         6
                                                                                                           Part I — Management’s Discussion and Analysis



Th e Tr easu ry De partm e nt’s 2007-2012
Strateg ic Fram ewor k

The Treasury Department’s Strategic Framework is a summary of our goals, objectives, and outcomes. This framework
provides the basis for performance planning and continuous improvement.

                   Strategic Goals                  Strategic Objectives                Value Chains**                    Value Chain Outcomes
              Effectively Managed U.S.     Available cash resources to operate the    Collect            •	 Revenue collected when due through a fair and
              Government Finances          government                                 Disburse              uniform application of the law at the lowest possible
                                                                                      Borrow                cost
                                                                                      Account            •	 Timely and accurate payments at the lowest possible
                                                                                      Invest                cost
 Financial




                                                                                                         •	 Government financing at the lowest possible cost
                                                                                                            over time
                                                                                                         •	 Effective cash management
                                                                                                         •	 Accurate, timely, useful, transparent and accessible
                                                                                                            financial information


              U.S. and World Economies     Improved economic opportunity,             Strengthen         •	 Strong U.S. economic competitiveness
              Perform at Full Economic     mobility and security with robust, real,   Regulate           •	 Free trade and investment
              Potential                    sustainable economic growth at home
                                           and abroad                                                    •	 Decreased gap in global standard of living
 Economic




                                                                                                         •	 Competitive capital markets
                                                                                                         •	 Prevented or mitigated financial and economic crises

                                           Trust and confidence in U.S. currency      Manufacture        •	 Commerce enabled through safe, secure U.S. notes
                                           worldwide                                                        and coins

              Prevented Terrorism and      Pre-empted and neutralized threats to      Secure             •	 Removed or reduced threats to national security
              Promoted the Nation’s        the international financial system and                           from terrorism, proliferation of weapons of mass
              Security Through             enhanced U.S. national security                                  destruction, narcotics trafficking and other criminal
              Strengthened International
                                                                                                            activity on the part of rogue regimes, individuals, and
              Financial Systems
                                                                                                            their support networks
 Security




                                                                                                         •	 Safer and more transparent U.S. and international
                                                                                                            financial systems




              Management and               Enabled and effective Treasury             Manage             •	 A citizen-centered, results-oriented and strategically
              Organizational Excellence    Department                                                       aligned organization
 Management




                                                                                                         •	 Exceptional accountability and transparency




              ** Value Chains – Programs grouped by a common purpose.




 7                                                                                        the Treasury Department’s 2007–2012 Strategic framework
Fiscal Year 2008 Performance and Accountability Report



        Fiscal Year 2008 Su m mary of Pe r for mance
        by Strateg ic Goal


                Strategic Goal                                   Key Accomplishments                                                    Key Challenges                             Trend
           Effectively Managed U.S.       •	 Collected $2.74 trillion in tax revenue and $14.6 billion in federal excise   •	 Continue to work toward the Congressional        Performance 
           Government Finances               taxes on tobacco, alcohol, firearms and ammunition                               goal of having 80 percent of tax returns filed
                                          •	 Processed 98.5 million tax returns electronically, up 10 percent over            electronically
           Cost*:                                                                                                                                                              Budget 
                                             2007                                                                          •	 Continue to convert from paper to electronic
           2007:$13.3 Billion                                                                                                 savings bonds
                                          •	 Administered 116.2 million payments under the Economic Stimulus Act
           2008: $14.0 Billion                                                                                                                                                 Cost 
                                             of 2008                                                                       •	 Meet the long-term goal to have 90 percent
                                          •	 Conducted more than 200 auctions resulting in the issuance of more               of payments made electronically
                                             than $5.6 trillion in marketable Treasury securities                          •	 Reduce the use of illegal international tax
                                          •	 Resumed issuance of the 52-week bill on a monthly basis in order to              shelters
                                             finance budget deficit projections                                            •	 Reduce the erroneous payments rate
                                          •	 Reduced the minimum bid at Treasury auctions from $1,000 to $100                 within the Earned Income Tax Credit (EITC)
                                                                                                                              program

           U.S. and World Economies       •	 Participated in development and implementation of the Economic                •	 Continue to mitigate risks at national banks     Performance 
           Perform at Full Economic          Stimulus Act of 2008                                                             and thrifts
           Potential                      •	 Helped homeowners by supporting creation of the HOPE NOW alliance             •	 Restructure regulatory institutions to           Budget 
                                          •	 Participated in finding solutions for troubled non-depository financial          improve supervision of financial markets
           Cost:
                                             institutions                                                                  •	 Reform Medicare and Social Security to
           2007: $3.2 Billion                                                                                                                                                  Cost 
                                          •	 Contributed to placement of Fannie Mae and Freddie Mac in                        ensure long-term solvency
           2008: $3.7 Billion
                                             conservatorship                                                               •	 Maintain open economies despite rising
                                          •	 Proposed legislation allowing Treasury to increase liquidity in financial        protectionist interests
                                             markets                                                                       •	 Improve productivity management relating to
                                          •	 Implemented measures to bolster regulation of national banks and thrifts         the printing and engraving of currency notes
                                          •	 Established a Temporary Guarantee Program for money market funds              •	 Improve supply management for bullion coin
                                                                                                                              production
                                          •	 Released the Blueprint for a Modernized Financial Regulatory Structure
                                                                                                                           •	 Manage cost issues related to the penny
                                          •	 Participated in Federal Housing Administration modernization                     and nickel
                                          •	 Participated in the development and implementation of temporary tax
                                             relief for mortgage holders
                                          •	 Issued the Best Practices for Residential Covered Bonds
                                          •	 Coordinated the U.S. policy agenda for the U.S.-China Strategic Economic
                                             Dialogue (U.S.-China SED)
                                          •	 Contributed to reform initiatives at the International Monetary Fund (IMF),
                                             World Bank and other international financial institutions
                                          •	 Participated in finalization of proposed rules for U.S. Basel II
                                             implementation
                                          •	 Provided loans, investments, financial services and technical support
                                             through the CDFI Fund

           Prevented Terrorism and        •	 Persuaded a number of the world’s leading financial institutions of the       •	 Fully implement anti-money laundering and        Performance 
           Promoted the Nation’s             risks of dealing with Iran and Iranian banks                                     counter-terrorist financing (AML/CFT) laws
           Security Through               •	 Designated and blocked key Zimbabwe regime supporters                            in key countries
                                                                                                                                                                               Budget 
           Strengthened International                                                                                      •	 Establish an external validation process to
           Financial Systems
                                          •	 Completed actions targeted at the Revolutionary Armed Forces of
                                             Columbia (FARC)                                                                  justify performance results
                                                                                                                                                                               Cost 
           Cost:                          •	 Led efforts within the Financial Action Task Force (FATF)
           2007: $537 Million             •	 Increased collaboration within the Intelligence Community
           2008: $555 Million             •	 Implemented efforts to increase Bank Secrecy Act (BSA) effectiveness
                                             and efficiency




           Management and                 •	 Issued 179 audits reports that produced financial accomplishments of          •	 Improve security configuration management        Performance 
           Organizational Excellence         $2.4 billion                                                                  •	 Provide effective corporate leadership and
                                          •	 Provided integrity and fraud awareness presentations to more than                accountability to improve performance            Budget 
           Cost:
                                             90,000 IRS employees and educated tax professionals by providing                 between corporate, bureau, and program
           2007: $763 Million                awareness presentations to tax practitioners and preparers                       office management
           2008: $508 Million                                                                                                                                                  Cost 
                                          •	 Created the Office of Privacy and Treasury Records (PTR)                      •	 Complete an increased number of Material
                                          •	 Established two Human Capital performance measures                               Loss Reviews (MLRs)
                                                                                                                           •	 Remain at last year’s levels for the
                                                                                                                              President’s Management Agenda (PMA)
                                                                                                                              Initiatives

           * Cost is stated as “Performance Cost”, and represents imputed costs, depreciation, losses, and other expenses not requiring budgetary resources. A full definition
             can be found in the Introduction to Part 2.




Fiscal Year 2008 Summary of Performance by Strategic Goal                                                                                                                                      8
                                                                                                                                                                                                          Part I — Management’s Discussion and Analysis




How we ll is Tr easu ry Pe r for m i ng?


                                                          Treasury Performance Cost Trend                                                                                 Treasury Total (Direct & Reimbursable) Budget Trend
                                                 $20,000,000                                                                                                                                $20,000,000
                                                 $17,500,000                                                                                                                                $17,500,000
     Dollars (in Thousands)




                                                                                                                                                              Dollars (in Thousands)
                                                 $15,000,000                                                                                                                                $15,000,000
                                                 $12,500,000                                                                                                                                $12,500,000
                                                 $10,000,000                                                                                                                                $10,000,000




                                                                                                                                                                                                          $15,000,044



                                                                                                                                                                                                                              $14,732,430



                                                                                                                                                                                                                                                     $16,224,763



                                                                                                                                                                                                                                                                          $16,989,508



                                                                                                                                                                                                                                                                                                     $18,133,476
                                                  $7,500,000                                                                                                                                 $7,500,000
                                                                $15,400,006



                                                                               $16,882,622



                                                                                                     $17,436,584



                                                                                                                          $17,843,729



                                                                                                                                         $18,820,586
                                                  $5,000,000                                                                                                                                 $5,000,000
                                                  $2,500,000                                                                                                                                 $2,500,000
                                                         $0                                                                                                                                         $0
                                                               2004           2005                  2006              2007              2008                                                              2004               2005                  2006               2007                          2008
                                                                                               Fiscal Year                                                                                                                                    Fiscal Year


     Treasury Program Evaluations Based on Number of Programs                                                                                                                                Treasury Program Evaluations Based on Funding


                                        32% Effective                                                                                                                                  22% Adequate                                                                                                  26% Effective
                                                                                                                                          22% Moderately
                                                                                                                                          Effective

                                   2% Ineffective
                                                                                                                                                                                       2% Results Not
                                                                                                                                                                                        Demonstrated                                                                                                 50% Moderately
                                                                                                                                          22% Adequate                                                                                                                                               Effective
                  22% Results not
                    Demonstrated




                                                     Fiscal Year 2008 Treasury-wide Performance Results                                                                                         Fiscal Year 2008 Treasury-wide Performance Results
                                                        Including Discontinued and Baseline Measures                                                                                               Excluding Discontinued and Baseline Measures

     13% Discontinued                                                                                                                     8% Baseline                                                                                                                                                24% Met
                                                                                                                                          9% Unmet
                                                                                                                                                                                       62% Exceeded
                                                                                                                                          2% Improved

                                                                                                                                                                                                                                                                                                     12% Unmet
                               49% Exceeded                                                                                               19% Met


                                                                                                                                                                                                                                                                                                     2% Improved




                                                      14.00                                                                                                                                      14.00
                                                   Treasury Actual Performance Trends 2005–2008                                                                                               Treasury Target Performance Trends 2005–2008
                                                       13.75                                                                                                                                      13.75
                                                      13.50                                                                                                                                      13.50

                                       13.25                                                                                                                                                    13.25                                                                                                18% No Significant
                              63% Favorable                                                                                               6% No Significant                            53% Favorable                                                                                                 Change
                                                      13.00                                                                               Change                                                 13.00

                                                       12.75                                                                                                                                      12.75
                                                                                                                                          31% Unfavorable                                        12.50                                                                                               29% Unfavorable
                                                      12.50
                                                       12.25                                                                                                                                      12.25
                                                      12.00                                                                                                                                      12.00
                                                                2005                         2006                  2007                 2008                                                              2005                              2006                   2007                             2008




                                                               Treasury Cost per Person                                                                                                      Treasury Performance and Cost vs. Inflation
                                                     $70.00                                                                                                                                    12.00%                                                                                                                   80%
                                                                                                                                                                                                                                                                                                                                 Percent of Performance Targets




                                                                                                                      $59.09            $61.61
                                                                                                    $58.24                                                                                                    9.6%
                   Cost per Person in the U.S.




                                                                              $56.96
                                                     $60.00    $52.44                                                                                                                          10.00%                                                                                                                   70%
                                                                                                                                                                                                                                                                    72%                             70%
                                                                                                                                                                                                                                                                                                                                        Exceeded or Met




                                                     $50.00                                                                                                                                      8.00%                                                                                                                  60%
                                                                                                                                                                                                                60%                         60%
                                                                                                                                                                                  Percent




                                                     $40.00                                                                                                                                                                                                                                         5.5%
                                                                                                                                                                                                 6.00%                                                                                                                  50%
                                                     $30.00                                                                                                                                                                                                        3.5%
                                                                                                                                                                                                 4.00%                                        3.3%                                                  4.7%                40%
                                                     $20.00                                                                                                                                                   4.4%
                                                                                                                                                                                                 2.00%                                                                                                                  30%
                                                     $10.00                                                                                                                                                                                                        2.3%
                                                                                                                                                                                                                                               1.3%
                                                         $0                                                                                                                                      0.00%                                                                                                                  20%
                                                               2004           2005                  2006              2007               2008                                           2004                 2005                           2006                   2007                             2008

                                                                                               Fiscal Year                                                    Fiscal Year                                        Year-over-year growth in performance cost                              Inflation                  Performance




 9                                                                                                                                                                                                                             How well is the Treasury Performing?
Fiscal Year 2008 Performance and Accountability Report




          How Well is Treasury                                          Actual and Target Performance Trends
          Performing Discussion                                         Trends in actual performance and targets have been
                                                                        analyzed since 2004 where data was available. Trends can
          Performance Cost and Budget Trends                            move upward, downward, or remain flat. Depending on
          Performance cost represents the best indication of the        the type of measure, a trend can be favorable, unfavorable,
          total cost to operate the Treasury Department. It includes    or remain unchanged. Results indicate that 63 percent of
          normal operating expenses as well as imputed costs, depre-    actual performance trends were favorable, 31 percent were
          ciation, losses, and other expenses not requiring budgetary   unfavorable, and 6 percent were unchanged. Target trends
          resources. Performance cost on the average has risen four     were 53 percent favorable, 29 percent unfavorable, and 18
          to five percent per year since 2004. The Department’s total   percent unchanged.
          budget, which includes direct appropriations and reim-
          bursable amounts, has also risen an average of four to five   Treasury Cost per Person
          percent per year since 2004.                                  A chart that indicates the approximate cost of the Treasury
                                                                        Department per person in the United States is shown
          Program Evaluations                                           here. The calculation is determined by dividing Treasury
          A total of 37 of Treasury Department programs have been       Performance Cost by an estimate of the U.S. population at
          evaluated using the Office of Management and Budget’s         the end off fiscal year 2008. This ratio attempts to describe
          Program Assessment Rating Tool (PART) since 2002.             the cost of the Department in terms people can relate to.
          Each program receives a rating of effective, moderately
          effective, adequate, results not demonstrated, or ineffec-    Treasury Performance and Cost versus Inflation
          tive. Results for all program evaluations are shown in two    A dual scale chart provides Treasury performance to target,
          different charts. One chart is based on the number of         performance cost, and inflation information since fiscal
          programs, and the other on program funding. Programs          year 2004. The data indicate that the gap between Treasury
          receiving an adequate or better rating were 76 percent        Performance Cost and inflation is narrowing while
          using the number of programs, but 98 percent based on         performance has improved.
          program funding.

          Performance to Target
          In fiscal year 2008, the Treasury Department revised its
          performance rating system. Performance to target was
          rated as exceeded, met, improved from the prior year
          (but not met), unmet, baseline or discontinued. Prior to
          this, performance measures were rated only as met or
          unmet. Results are shown in two charts, one including all
          performance measures, and one not including baseline
          and discontinued measures. While 70 percent of targets
          were exceeded, met or improved based on all measures, 88
          percent of targets were exceeded, met or improved based
          on measures that were not base-lined or discontinued.




How well is the Treasury Performing?                                                                                            10
                                                                                                                                              Part I — Management’s Discussion and Analysis




Fi nancial H ig h lig hts


                                          Total Assets (in Billions)                                                                        Total Liabilities (in Billions)

                             $12,000                                                                                              $12,000
                                                                                      $11,117.0                                                                                            $10,807.3
                             $10,000                                       $9,528.8                                               $10,000                                       $9,407.7
    Dollars (in Billions)




                                                              $8,988.0                                                                                             $8,873.1




                                                                                                       Dollars (in Billions)
                                       $7,828.4   $8,394.4                                                                                             $8,279.0
                                                                                                                                            $7,715.2
                              $8,000                                                                                               $8,000

                              $6,000                                                                                               $6,000

                              $4,000                                                                                               $4,000

                              $2,000                                                                                               $2,000

                                 $0                                                                                                   $0
                                        2004       2005         2006        2007        2008                                                 2004       2005         2006        2007        2008

                                                             Fiscal Year                                                                                          Fiscal Year

The increase of $1.6 trillion in total assets in fiscal year 2008                                 Total liabilities increased by $1.4 trillion from fiscal year 2007 to
is largely due to the increase in future funds required from the                                  fiscal year 2008. The majority of the increase is due to borrowings
General Fund of the U.S. Government to pay for the federal debt                                   from other federal agencies and debt issued to the public.
owed to the public and other federal agencies.



                            Net Federal Debt Interest Costs (in Billions)                                                          Total Budgetary Resources (in Billions)

                               $500                                                                                                 $900
                                                                           $420.4      $440.9                                                                                               $772.2
                                                               $390.9                                                               $750
    Dollars (in Billions)




                               $400
                                                                                                        Dollars (in Billions)




                                                  $342.4
                                       $310.7                                                                                       $600
                               $300                                                                                                                                 $503.1      $523.0
                                                                                                                                            $430.7     $453.3
                                                                                                                                    $450
                               $200
                                                                                                                                    $300
                               $100
                                                                                                                                    $150

                                 $0                                                                                                   $0
                                        2004       2005         2006        2007        2008                                                 2004       2005         2006        2007        2008

                                                             Fiscal Year                                                                                          Fiscal Year

The increase of $20.5 billion in net interest paid on the federal                                 The majority of the increase in total budgetary resources for fiscal
debt is due to the increase in the debt. Total federal debt and                                   year 2008 was to ensure liquidity of Government-Sponsored
interest payable increased by $1.05 trillion in fiscal year 2008.                                 Enterprises (GSEs) pursuant to the Housing and Economic
                                                                                                  Recovery Act of 2008.



                                          Net Outlays (in Billions)                                                             Net Custodial Revenue Received (in Trillions)

                               $500                                                    $462.9                                        $3.0
                                                                           $436.1
                                                               $413.0                                                                                                            $2.45
                                                                                                                                     $2.5                                                    $2.37
    Dollars (in Billions)




                               $400
                                                                                                       Dollars (in Trillions)




                                                  $361.2                                                                                                             $2.28
                                       $344.6                                                                                                           $2.04
                                                                                                                                     $2.0   $1.77
                               $300
                                                                                                                                     $1.5
                               $200
                                                                                                                                     $1.0
                               $100
                                                                                                                                     $0.5

                                 $0                                                                                                  $0.0
                                        2004       2005         2006        2007        2008                                                 2004       2005         2006        2007        2008

                                                             Fiscal Year                                                                                          Fiscal Year

The majority of the $26.8 billion increase in net outlays was due                                 Total custodial revenue collected on behalf of the U.S.
to the increase in interest payments on the federal debt.                                         Government decreased by $82 billion. The majority of the
                                                                                                  decrease can be attributed to the Economic Stimulus payments of
                                                                                                  $93.4 billion issued by the Internal Revenue Service.




 11                                                                                                                                                                                              Financial Highlights
Fiscal Year 2008 Performance and Accountability Report




         Fiscal Year 2008 Key I n itiatives


           Led government response to                                       •	 The Chairman of the Board of Governors of the

           financial market challenges                                         Federal Reserve
                                                                            •	 The Chairman of the Securities and Exchange
           Throughout fiscal year 2008, the Treasury Department                Commission (SEC)
           coordinated with federal agencies, state authorities,
                                                                            •	 The Chairman of the Commodities Futures Trading
           international bodies and private groups to address chal-
                                                                               Commission (CFTC)
           lenges in financial markets and the broader economy. Some
           examples include:                                            In August 2007, the President charged the PWG with
               •	 Coordinated government mortgage management            reviewing the underlying causes of financial market turmoil.
                 initiatives with the Department of Housing and         In response, the PWG issued a Policy Statement on Financial
                 Urban Development (HUD)                                Market Developments in March 2008 providing both an
               •	 Developed funding solutions for economically          overview of causes as well as specific policy recommenda-
                 distressed industries with the Department of           tions to address regulatory and management shortfalls.
                 Commerce                                               The key recommendations to government authorities and
                                                                        market participants to address market weaknesses include:
               •	 Developed alternative funding solutions for student
                 loan programs with the Department of Education             •	 Reforming key parts of the mortgage origination
                                                                               process in the U.S.
               •	 Coordinated international financial negotiations
                 with the Department of State                               •	 Enhancing disclosure and improving the practices
                                                                               of sponsors, underwriters, and investors with respect
               •	 Collaborated with the Financial Stability Forum
                                                                               to securitized credits
                 (FSF), a body consisting of representatives from
                 the world’s largest economies and international            •	 Reforming the credit rating agencies’ processes for
                 financial institutions, and G-7 countries to develop          and practices regarding rating structured credit
                 international guidelines for managing financial               products
                 market challenges                                          •	 Ensuring that global financial institutions take
               •	 Worked with various state authorities to address             appropriate steps to address weaknesses in risk
                 mortgage origination issues and concerns about                management and reporting practices
                 conditions at state-chartered financial institutions       •	 Ensuring that prudential regulatory policies
                                                                               applicable to banks and securities firms, including
           For financial market management in particular, the
                                                                               capital and disclosure requirements, provide strong
           Department worked with members of the President’s
                                                                               incentives for effective risk management practices
           Working Group on Financial Markets (PWG), Federal
           Deposit Insurance Corporation (FDIC), Federal Housing        The report includes 27 specific recommendations for public
           Finance Agency (FHFA) and other agencies to respond to       and private sector action within these broad categories.
           market events.                                               The PWG issued a detailed report on progress in October
                                                                        2008 and is continuing to monitor the implementation of
           Established in 1988, the PWG is the federal government’s
                                                                        recommendations.
           primary inter-agency committee responsible for coordinat-
           ing supervision of financial markets and is comprised of:    The Treasury Department, as the nation’s foremost eco-
               •	 The Secretary of the Treasury, who serves as          nomic policy agency, will continue to take necessary steps
                 Chairman                                               to address financial market challenges in coordination with
                                                                        public and private sector agencies.




Fiscal Year 2008 Key Initiatives                                                                                                  12
                                                                                         Part I — Management’s Discussion and Analysis




Developed and implemented the                                                  Mortgage Foreclosures Started
Economic Stimulus Act of 2008                                                as a Percent of All Loans, Quarterly
                                                                             1.4
The Economic Stimulus Act of 2008 was signed into law on                     1.2

February 13, 2008. Created to support the economy during                     1.0




                                                                   Percent
                                                                             0.8
a period of slowing growth, the bill provided relief in the
                                                                             0.6
form of individual tax rebates for households and tax in-                    0.4
centives for businesses to stimulate investment. Businesses                  0.2

were expected to utilize $45 billion in tax deductions by                    0.0 98       99    00    01    02    03     04    05   06    07    08

the end of 2008. In fiscal year 2008, over 116.2 million                                                         Year
                                                                                                                               Source: Mortgage Bankers Association
stimulus payments, totaling $94.3 billion, were issued in
the form of checks and electronic deposits.

The Department participated directly in development and
                                                               Supported the 1.20




                                                               HOPE NOW alliance
                                                                             1.00


implementation of the stimulus package. The IRS and                          0.80



FMS managed customer inquiries and issued payments                           0.60

                                                               Ongoing challenges in housing markets have increased
during the tax season. In particular, the IRS provided
                                                                             0.40

                                                               pressure on homeowners unable to make their mortgage
                                                                             0.20

informational announcements and mailings, interactive          payments. Seeking to support a coordinated response to
                                                                             0.00


telephone options, an online payment calculator, and main-
                                                                                    98   99    00    01    02    03     04    05    06    07   08


                                                               the crisis, the Department participated in discussions with
tained a hotline to allow taxpayers to check on the status     mortgage industry participants in August 2007 to search
of their payment. The FMS issued 74.1 million paper            for a solution to address market conditions. The result
checks and made over 42 million electronic deposits. Some      was the formation in October 2007 of the HOPE NOW
additional statistics on the stimulus payments:                Alliance, a private sector alliance of mortgage servicers,
     •	 The first stimulus payments were made by electronic    counselors, and investors to provide information and
       deposit 75 days after the legislation was passed        direct assistance to homeowners to help avoid preventable
     •	 A total of 132.9 million notices were sent to inform   foreclosures.
       taxpayers of their potential eligibility
                                                               HOPE NOW has worked aggressively over the past year
     •	 5.5 million operator-assisted calls and 21.9 million
                                                               to disseminate information to at-risk homeowners through
       automated calls were handled, resulting in a 90
                                                               direct mailings, advertisements, and phone contacts.
       percent increase in total telephone demand
                                                               They have also actively coordinated matching at-risk
     •	 38.7 million taxpayers used the “Where’s My            homeowners with mortgage industry specialists to find
       Stimulus Payment?” webpage to check the status of       best solutions. In December 2007, HOPE NOW adopted
       their payment                                           the mortgage management framework developed by the
     •	 $1.46 billion in delinquent non-tax, state tax, and    American Securitization Forum, and in February 2008
       child support debts were withheld from stimulus         adopted Project Lifeline to focus efforts as efficiently as
       payments and disbursed to appropriate recipients        possible to help at-risk homeowners. As of August 2008,
                                                               HOPE NOW included 94 percent of mortgage servicers
Additional information may be found here: Stimulus
                                                               and had helped over two million homeowners negotiate
Payment
                                                               arrangements enabling them to avoid foreclosure and keep
                                                               their homes.

                                                               The success of the HOPE NOW Alliance is encouraging
                                                               in light of the ongoing difficulties in mortgage markets.




13                                                                                                                            Fiscal Year 2008 Key Initiatives
Fiscal Year 2008 Performance and Accountability Report




           The Treasury Department will continue to work closely          the Federal Home Loan Mortgage Corporation (Freddie
           with lenders and key industry participants to identify         Mac). Among the new authorities given to the FHFA
           aggressive strategies to help at-risk homeowners.              was the ability to bring the two government-sponsored
                                                                          enterprises (GSEs) under either conservatorship (allow-
           Additional information may be found here: HOPE NOW
                                                                          ing FHFA to assume the powers of the GSEs’ directors,
                                                                          officers, and shareholders without declaring bankruptcy) or
           Solutions for non-                                             receivership (allowing FHFA to assume the powers above
           depository institutions                                        and initiate liquidation). The Act also granted the Secretary
                                                                          of the Treasury temporary authority to purchase GSE
           Working in coordination with the Federal Reserve and           obligations and securities through December 31, 2009.
           SEC, Treasury participated in negotiations during fiscal
           year 2008 to determine an appropriate course to address        Following passage of the legislation, financial markets,
           financial difficulties at some of the country’s largest non-   business conditions, and the current financial condi-
           depository financial institutions. Challenging conditions      tion of the two GSEs were closely monitored. On
           in financial markets, particularly linked to rapidly falling   September 7, 2008 the Treasury Department, Federal
           values of Mortgage Backed Securities or MBS (securities        Reserve, and FHFA deemed it necessary for the preserva-
           issued with mortgages as collateral), asset-backed com-        tion of market stability and taxpayer interests to place
           mercial paper (short-term securities generally linked to       Fannie Mae and Freddie Mac in conservatorship under the
           revenue streams, such as payments of auto loans or credit      July 2008 Act.
           cards), credit default swaps (similar to insurance policies    From the beginning of the current financial turmoil,
           on debt in case of default) and other instruments increased    the Treasury Department has maintained three critical
           financial pressures on institutions with large holdings        objectives: provide stability to financial markets, support
           of these assets. Failure of a few large institutions with      the availability of mortgage finance, and protect taxpayers.
           significant market presence threatened to severely impact      The intent of placing the GSEs under conservatorship
           market confidence. To ensure confidence in capital mar-        was to minimize the near-term costs of insolvency at the
           kets, extraordinary consultations and actions were taken       two institutions and initiate resolution of systemic risks
           to address conditions in financial institutions such as Bear   associated with the GSEs’ structure. The steps taken were
           Stearns, Lehman Brothers, and American International           the result of detailed and thorough collaboration between
           Group. The Department will continue to monitor financial       FHFA, Treasury, and the Federal Reserve.
           conditions and respond as necessary to maintain the health
           of the financial system.                                       The Preferred Stock Purchase Agreements reached be-
                                                                          tween Treasury and the two GSEs included the following
                                                                          provisions:
           Contributed to placement
                                                                              •	 For each GSE, the Treasury Department received
           of Fannie Mae and Freddie
                                                                                 $1 billion in Senior Preferred Equity Shares,
           Mac in conservatorship                                                providing an annual dividend of 10 percent and
           On July 30th 2008, President Bush signed the Housing                  permitting the Department to receive dividends
                                                                                 before all other shareholders
           and Economic Recovery Act of 2008 into law, granting the
           Treasury Department, the Federal Reserve and the new               •	 The Treasury received warrants (ownership options)

           Federal Housing Finance Agency (FHFA) authority to                    for 79.9 percent of each enterprise
           enhance stability in financial markets and manage affairs          •	 The Department committed to provide each GSE
           related to the two largest sources of mortgage finance, the           up to $100 billion under a secured lending facility
           Federal National Mortgage Association (Fannie Mae) and                to ensure solvency




Fiscal Year 2008 Key Initiatives                                                                                                  14
                                                                                Part I — Management’s Discussion and Analysis




     •	 The Department committed to purchase up to            payments to their executives; and strict provisions on asset
       $5 billion in MBS issued by the GSEs                   manager selection.

Fannie Mae and Freddie Mac’s continued activity is
central to recovery in the housing market and mitigation      Implemented measures to
of underlying financial market uncertainty. The temporary     bolster regulation of
liquidity and capital backstops included in the conserva-     national banks and thrifts
torship arrangements are aimed at providing longer-term
clarity to investors in GSE debt and MBS and ensuring         The OCC and OTS are the primary regulators of national
the stability of financial markets. Fannie Mae and Freddie    banks and thrifts, respectively. With elevated concerns about
Mac continue to play an important role in financing           banking solvency given strained financial markets, both have
mortgages in capital markets.                                 made extensive efforts to monitor evolving conditions at the
                                                              financial institutions they regulate and implement measures
                                                              to ensure the stability of the banking system. The Inspector
Proposed legislation allowing                                 General has indicated regulation of national banks and
Treasury to increase liquidity                                thrifts as a Management Challenge for fiscal year 2008.
in financial markets
                                                              In fiscal year 2008, 14 financial institutions with $216 bil-
On September 19, 2008, the Treasury Secretary, Federal        lion in deposits were placed into receivership under FDIC
Reserve Chairman, and SEC Chairman met with                   authority. Of these, five were national banks, three were
Congressional leaders to discuss legislation permitting       thrifts, and six were state banks. The bulk of deposits were
Treasury to increase liquidity in financial markets by        held by two thrifts, Washington Mutual Bank and IndyMac
purchasing up to $700 billion in assets from financial        Bank, which accounted together for $207 billion in deposits.
institutions. The initiative was primarily intended to        Work-out solutions, whereby some or all deposits and assets
ensure stability in financial markets and improve financial   were assumed by another existing bank, were arranged
institutions’ capital position to encourage new lending. On   by FDIC and regulators for all failed institutions except
the same day, the Department also announced expansion         IndyMac Bank. IndyMac Bank was placed under conser-
of the existing program to purchase GSE MBS.                  vatorship and operations were assumed directly by FDIC
                                                              under a newly-formed IndyMac Federal Bank.
The Emergency Economic Stabilization Act of 2008 was
signed into law on October 3, 2008. The legislation in-       Supervisory activities at OCC and OTS during fiscal year
cluded provisions for an expanded MBS purchase program,       2008 centered on evaluation of loan holdings and risk
a whole loan purchase program, a troubled-assets insur-       management practices to identify existing and potential
ance program, and an equity purchase program. Under           weaknesses. In response to the crisis, supervisory efforts
the Act, Treasury was provided authority to purchase          have been strengthened in key risk areas, including:
up to $250 billion in securities, with an additional $100     underwriting and credit administration, diversification of
billion available upon written certification to Congress      funding sources (including realistic contingency funding
by the President and a final $350 billion available upon      planning), development of strong internal controls and
written request by the President, subject to disapproval      risk management systems, timely recognition of losses, and
by Congress. The law provides a series of safeguards to       maintenance of strong capital positions. Over the past year,
protect taxpayer interests, including the establishment of    resident examiner teams from the OCC have been in place
two oversight boards and a Special Inspector General;         at the largest national banks to monitor their funding, trad-
requirements that participants provide the government         ing, and mortgage practices as well as gather information
an ownership stake in their business and restrict certain     on market conditions, deal flow, and funding availability.




15                                                                                                 Fiscal Year 2008 Key Initiatives
Fiscal Year 2008 Performance and Accountability Report




           Information obtained by the examiners contributed to early       the American Securitization Forum as well as outreach
           identification of problem areas and development of risk          efforts with advocacy groups, research organizations,
           management practices that have been implemented by the           community development practitioners, and community
           PWG, the Senior Supervisors Group, and the FSF. (The             development membership organizations. During fiscal year
           Senior Supervisors Group consists of supervisory agencies        2008, the OCC published guides for homeowners on ways
           from France, Germany, Switzerland, Britain, and the U.S.)        to recognize and avoid foreclosure rescue fraud and effec-
                                                                            tively manage certain hybrid adjustable rate mortgages. The
           Given increases in leveraged lending at national banks
                                                                            OTS has issued additional guidance to thrifts governing
           in prior years, the OCC undertook in-depth leveraged
                                                                            regulation of late charges, prepayment penalties, and
           lending reviews at the largest national banks in fiscal year
                                                                            adjustments to mortgage terms. Given the high concentra-
           2008, looking specifically at banks’ syndicated pipeline
                                                                            tion of mortgage holdings at thrifts, the OTS has actively
           management, stress testing, and limit setting. Following
                                                                            encouraged utilization of foreclosure-prevention strategies,
           the reviews, a Leveraged Lending handbook was developed
                                                                            including loan modifications, conversion of adjustable-rate
           based on findings and issued to all banks, consolidating
                                                                            mortgages into fixed-rate mortgages, extension of amorti-
           and supplementing guidance to bankers and examin-
                                                                            zation, and payment deferral.
           ers on managing leverage risk. At an inter-agency level,
           both the OCC and OTS have worked directly with the               Although national banks were not dominant originators
           Federal Reserve and FDIC to review large syndicated              of subprime mortgages, strains in housing markets have
           loans through the Shared National Credit program. The            significantly affected banks’ residential mortgage and
           comprehensive review in 2008 of these loans covered 8,750        home equity loan portfolios. In response, the OCC began
           credit facilities with commitments of over $2.8 trillion. The    requiring the nine largest national bank servicers, account-
           OCC and OTS will continue to coordinate their licensing          ing for 90 percent of mortgages held by national banks and
           and supervisory procedures with other federal agencies to        40 percent of mortgages overall, to submit comprehensive
           keep regulations current, transparent, and supportive of         mortgage data on a monthly basis. Similarly, in July 2008
           financial industry stability and growth.                         the OTS published its first Mortgage Metrics Report,
                                                                            presenting key performance data on first lien residential
           Due to the thrift industry’s natural concentration in
                                                                            mortgages serviced by the top five thrifts or their affiliates,
           longer-term mortgages (thrifts are required to keep 65
                                                                            covering 91 percent of thrift mortgages. The data showed
           percent of their holdings in mortgages), the OTS main-
                                                                            a total of 49,044 loss mitigation actions through the end
           tains a Net Portfolio Value model which provides estimates
                                                                            of March, providing solutions for 25 percent of thrift
           of each institution’s interest rate risk. The model allows
                                                                            loans in foreclosure. In September, the two supervisors
           the OTS to value a wide range of financial instruments
                                                                            merged their reports into a single Mortgage Metrics Report,
           and produce reports focusing on areas such as net interest
                                                                            covering some 35 million mortgages worth $6.1 trillion,
           income, liquidity, and value-at-risk. Enhancements to
                                                                            constituting an important data source on conditions in
           the Net Portfolio Value model were added in 2008 which
                                                                            mortgage markets.
           improve examiners’ ability to track interest rate risk and
           permit for easier electronic filing (E-Filing) of applications   Given more stringent regulation and the conditions in
           for actions requiring OTS approval.                              mortgage markets, additional concern has more recently
                                                                            been directed towards the under-provision of credit in
           To facilitate management of mortgage concerns, the OCC
                                                                            financial markets. The 2008 OCC Annual Survey of Credit
           and OTS have encouraged banks and thrifts to work
                                                                            Underwriting Practices showed that banks have substan-
           constructively with borrowers facing difficulty meeting
                                                                            tially tightened underwriting standards for both retail and
           their mortgage obligations. This includes support for
                                                                            commercial loans over the last year. Regulatory guidance
           industry initiatives such as the HOPE NOW alliance and
                                                                            issued to banks and thrifts by both OCC and OTS has




Fiscal Year 2008 Key Initiatives                                                                                                      16
                                                                                Part I — Management’s Discussion and Analysis




reiterated the importance of maintaining prudent credit       Released the Blueprint for
underwriting standards throughout the economic cycle.         a Modernized Financial
                                                              Regulatory Structure
Established a Temporary                                       Recent capital market developments stemming from the
Guarantee Program for                                         subprime mortgage and credit turmoil have exposed the
money market funds                                            need for fundamental reform of the U.S. financial regula-
                                                              tory system. Created over 70 years ago, the U.S. financial
On September 19, Treasury announced a Temporary
                                                              regulatory structure today is managed under segregated
Guarantee Program for money market funds. Taxable
                                                              industry “silos” that have failed to keep pace with industry
and tax-exempt funds regulated by the SEC under the
                                                              changes. Under this structure, regulators have narrow
Investment Company Act of 1940 are eligible to participate
                                                              responsibilities to supervise activities within their industry
in the guarantee program upon payment of an assessed fee
                                                              but little responsibility to regulate across industries. With
of 0.01 percent of net asset value per share greater than
                                                              the development of more integrated financial markets that
or equal to $0.9975 as of September 19. Funds with net
                                                              are characterized by convergence of industries, intercon-
asset value per share less than $0.9975 and greater than or
                                                              nectedness, and globalization, this “siloed” structure has
equal to $0.995 are required to pay an upfront fee of 0.015
                                                              permitted substantial gaps and redundancies in oversight.
percent, based on the number of shares outstanding as of
                                                              To respond to these conditions, the Department issued a
September 19. Funds with net asset values below $0.995
                                                              Blueprint for a Modernized Financial Regulatory Structure in
were not eligible to participate. In return for participa-
                                                              March 2008 to identify and propose solutions to address
tion, fund shareholders receive a guarantee that they will
                                                              major shortfalls in regulatory systems. The Blueprint
be compensated up to the $1 share price of the fund
                                                              provides a series of near, intermediate, and long-term
should the share price fall below $0.995. Initial funding
                                                              recommendations to restructure the U.S. financial regula-
of $50 billion for the program was provided through the
                                                              tory system.
Exchange Stabilization Fund established under the Gold
Reserve Act of 1934.                                          Near-term recommendations:
                                                                  •	 Modernize the PWG by expanding its member-
The Temporary Guarantee Program is a temporary
                                                                     ship to include the heads of the OCC, OTS, and
measure intended to address short-term dislocations in
                                                                     FDIC, enabling the body to serve as coordinator of
credit markets. The program will exist for an initial three
                                                                     financial regulatory policy for the entire financial
month term, after which the Secretary of the Treasury
                                                                     industry
will review the need and terms for program extension. The
                                                                  •	 Establish a federal Mortgage Origination
Secretary has the option to renew the program through
                                                                     Commission to develop national standards for
September 18, 2009. The program will not automatically
                                                                     mortgage origination and work to ensure compli-
extend for the full year and money market funds would be
                                                                     ance by all mortgage originators
required to renew their participation to maintain coverage.
                                                                  •	 Improve Federal Reserve liquidity provisions with
If the Secretary does not renew the program at the end of
                                                                     respect to non-depository financial institutions
the three month period, the program will terminate.

                                                              Intermediate-term recommendations:
                                                                  •	 Transition financial institutions chartered as thrifts
                                                                     into national bank charters and merge the OTS
                                                                     into the OCC




17                                                                                                  Fiscal Year 2008 Key Initiatives
Fiscal Year 2008 Performance and Accountability Report




               •	 Establish one federal regulator of state banks, in        protecting consumer interests, and promoting financial
                  contrast to the dual supervisory system splitting         market competitiveness.
                  regulatory responsibility between the Federal
                  Reserve and FDIC                                          Additional information may be found here: Blueprint for a
                                                                            Modernized Financial Regulatory Structure
               •	 Establish a federal charter for payment and settle-
                  ment systems supervised by the Federal Reserve
               •	 Establish a federal charter and oversight board for       Participated in Federal Housing
                  insurance companies, distinct from state insurance        Administration modernization
                  licensing                                                 and provision of temporary
               •	 Merge the CFTC with the SEC, while retaining              tax relief for homeowners
                  key strengths of each institution
                                                                            In addition to GSE reform, two other presidential
           Long-term recommendations                                        initiatives were announced in August 2007 to address
                                                                            problems in mortgage markets: expanding the capacity of
               •	 Restructure the existing financial regulatory system
                  into a three-tiered system with duties divided by         the Federal Housing Administration (FHA) to provide
                  objectives, including:                                    mortgage assistance to a greater range of homeowners and
                                                                            providing temporary tax relief for homeowners entering
                      A market stability regulator, likely the Federal
                                                                            foreclosure or negotiating partial mortgage write-downs.
                      Reserve, which would supervise overall condi-
                      tions in financial markets and develop measures       The Department worked closely with HUD to promote
                      to address high-level market stability
                                                                            passage of FHA-related statutes in the Housing and
                      A prudential financial regulator, which would be      Economic Recovery Act of 2008. Among other provisions,
                      responsible for assessing risk management at all      the legislation expanded FHA’s authority to provide as-
                      financial institutions and supervising institu-       sistance to homeowners by offering government insurance
                      tions’ safety and soundness associated with
                                                                            to lenders who voluntarily reduce mortgages for at-risk
                      government guarantees
                                                                            homeowners to at least 90 percent of the property’s
                      A business conduct regulator, which would             current value. (Also known as the Hope for Homeowners
                      establish standards for business practices for        program.) To participate in the program, homeowners
                      financial institutions and ensure protection of
                                                                            are required to share a portion of the appreciation of the
                      consumer rights
                                                                            value of their homes with the FHA. A board consisting
               •	 In addition to these agencies, two other regulatory       of the Secretary of HUD, the Secretary of the Treasury,
                  bodies were proposed:                                     the Chairman of the Federal Reserve, and the Chairman
                      A federal insurance guarantor, which would            of FDIC was established under the legislation to oversee
                      provide insurance services for the entire finan-      implementation of the program. The new measures, which
                      cial sector, similar to services currently provided   came into effect on October 1, 2008, are expected to help
                      to banks by the FDIC                                  an additional 400,000 homeowners refinance into more
                      A corporate finance regulator, which would            affordable mortgages.
                      oversee corporate finance in public securities
                      markets, similar to services currently provided       In addition to the Hope for Homeowners program, the
                      by the SEC                                            FHASecure program has helped approximately 360,000
                                                                            homeowners since July 2007 refinance into FHA-insured
           No amount of regulation can fully eliminate capital market       loans. The program provides assistance to homeown-
           risks, but it is clear that a modernized regulatory structure    ers with conforming loans (prime loans valued up to
           is essential to establishing a more stable financial system,     $417,000) who are unable to afford mortgage payments




Fiscal Year 2008 Key Initiatives                                                                                                  18
                                                                                 Part I — Management’s Discussion and Analysis




after the reset of their adjustable rate mortgage. Starting     are originated by banks or thrifts and then sold to an entity
in July 2008, FHASecure also began providing assistance         which creates MBS which are then sold to investors. In
to subprime borrowers with adjustable rate mortgages            these transactions, ownership of the mortgage is effectively
who have missed up to three monthly mortgage payments           transferred from the mortgage originator to the bond
over the previous 12 months or experienced temporary            holder and the mortgage originator has no liability if the
economic hardship. The Department was directly involved         mortgage is not paid. With covered bonds, the originator
in promoting FHASecure and supported the extension of           of the mortgage is required to place the mortgages on its
benefits to additional homeowners.                              books, making them liable for payments if the mortgage
                                                                borrower does not pay. Additionally, as the mortgage
In December 2007, the Mortgage Forgiveness Debt Relief
                                                                remains on the originator’s books, the originator is also
Act of 2007 was passed providing temporary tax relief for
                                                                required to keep capital reserves covering the mortgages.
homeowners entering foreclosure or negotiating partial
                                                                Covered bonds are currently used to finance mortgages
mortgage write-downs. Generally, debt that is forgiven by
                                                                in the United Kingdom and Europe, constituting a $3.3
a lender is included as income for tax purposes. The Act
                                                                trillion market, and are a promising source of mortgage
permits homeowners to refinance their mortgages and pay
                                                                financing to complement the existing system in the U.S.
no federal taxes on forgiven debt if the refinance occurs
during 2007, 2008, or 2009. An estimated $200 million in        On July 15, 2008, the FDIC issued the Final Covered Bond
tax forgiveness is projected to be available to homeowners      Policy Statement which specified actions that the FDIC
under the legislation. The Treasury Department, through         will take if a covered bond issuer becomes insolvent or is
the IRS, OCC, and OTS, has encouraged homeowners                placed into receivership. The Best Practices for Residential
with mortgage problems to take full advantage of the tax        Covered Bonds is a complement to the FDIC statement by
relief.                                                         introducing quality standards in areas such as collateral and
                                                                disclosure. In conjunction with the release of the guidance,
Additional information may be found here: Mortgage
                                                                the Treasury Department updated its policy to include
Forgiveness Debt Relief Act
                                                                covered bonds as an approved asset category for Treasury’s
                                                                investments and deposits of public money with commercial
Issued the Best Practices for                                   counterparties, which will provide credibility for the asset
Residential Covered Bonds                                       class.

The availability of affordable mortgage financing is            The $11 trillion U.S. mortgage market can benefit from all
essential to a healthy economy. Along with focusing on          forms of mortgage finance. As Treasury seeks to encourage
restoring the traditional sources of mortgage financing in      new sources of mortgage funding in the United States,
2008, the Treasury Department took steps to encourage           improve underwriting standards, and strengthen financial
development of new sources for mortgage funding and             institutions’ balance sheets, covered bonds can help provide
strengthen financial institutions by issuing a Best Practices   additional funding to homeowners and strengthen U.S.
for Residential Covered Bonds. In preparing this guidance,      financial institutions by diversifying risk. America’s four
the Department consulted with European counterparts as          largest banks, Bank of America, Citigroup, JPMorgan
well as the FDIC, Federal Reserve, OCC, OTS, SEC, and           Chase, and Wells Fargo, have announced plans to establish
various market participants.                                    covered bond programs to launch the market in the United
                                                                States.
Covered bonds provide a means for issuing commercial
banks or thrifts to sell off rights to mortgage payments        Additional information may be found here: Best Practices
made by borrowers without selling the mortgages them-           for Residential Covered Bonds
selves. In current practice, a large percentage of mortgages




19                                                                                                   Fiscal Year 2008 Key Initiatives
Fiscal Year 2008 Performance and Accountability Report




           U.S.–China Strategic                                                •	 Signing of a Ten-Year Energy and Environment

           Economic Dialogue                                                      Cooperation Framework focused on creating a new
                                                                                  energy-efficient model for sustainable economic
           Initiated in 2006, the U.S.-China SED is a semiannual                  development
           forum bringing together the two countries’ highest-level            •	 Reaching agreements to further open financial
           officials to discuss key economic issues. The intent is to             markets in the areas of banking, insurance, and
           improve officials’ understanding of the interests and chal-            securities
           lenges faced by their counterparts on issues of relevance to        •	 Expanding coordination on management of
           both economies, to improve policy coordination on areas of             product quality and food safety
           mutual interest, and to institutionalize a forum for address-
                                                                               •	 Expanding efforts to address economic imbalances
           ing sensitive issues. Since its inception, the U.S.-China
                                                                                  related to trade, investment, and exchange rates
           SED has held four full meetings with discussions on issues
                                                                               •	 Establishing guidelines to improve transparency in
           including management of financial and macroeconomic
                                                                                  administrative rule-making and innovation policy
           cycles, market access, trade, property rights protection,
           food and product quality, financial regulation, energy          By establishing this dialogue, both sides have committed
           management, environmental policy, and other issues. The         to addressing potentially sensitive economic issues of
           latest U.S.-China SED was held in Annapolis, Maryland           interest in a central forum. Through the U.S.-China SED,
           in June 2008.                                                   the two countries’ officials have reached important policy
                                                                           decisions and established relationships building mutual
           As the coordinator for the U.S. Government, the
                                                                           trust and promoting improved coordination. The fifth
           Department of the Treasury has worked closely with other
                                                                           U.S.-China SED is scheduled to be held in Beijing, China
           agencies in the federal government to develop meeting
                                                                           in December 2008.
           agendas, establish policy goals, and facilitate implementa-
           tion of final agreements. Key achievements during the           Additional information may be found here: U.S.-China
           December 2007 and June 2008 meetings included:                  SED
               •	 Launching negotiations for a bilateral investment
                  treaty to help open new opportunities for U.S. and
                  Chinese investors




Fiscal Year 2008 Key Initiatives                                                                                                     20
                                                                                Part I — Management’s Discussion and Analysis



Fiscal Year 2008 Pe r for mance
by Strateg ic Goal


Effectively Managed U.S.                                       auctions was reduced from $1,000 to $100 to broaden
Government Finances                                            the potential investor pool

Tax returns filed electronically                               Saving bonds
In fiscal year 2008, a total of 98.5 million tax returns       Issuing savings bonds is an important aspect of debt
were filed electronically, a 10 percent increase over 2007.    financing and the Department is committed to offering
Although the Department has not yet reached the                them in an efficient manner. There are approximately
Congressional goal of having 80 percent of tax returns filed   $700 billion in paper savings bonds outstanding. Going
electronically, in fiscal year 2008 the Department achieved    forward, Treasury is encouraging its customers to purchase
63 percent for individual taxpayers including taxpayers        and manage their holdings online using TreasuryDirect.
who filed solely to claim the economic stimulus. Treasury      TreasuryDirect allows customers to buy savings bonds and
continues to promote the use of the IRS Free File program      convert paper bonds to an electronic version, increasing
as a means of increasing E-Filing. A recent survey showed      efficiency in management and servicing of bonds over
that 96 percent of those who used the Free File program        the long-term. To mitigate risks associated with online
found it easy to use, 98 percent said that they would          financial transactions, Treasury continually seeks ways
recommend it to others, and 95 percent said that they          to increase security. For example, TreasuryDirect Access
would use it again.                                            Cards are distributed to account holders, providing a
                                                               unique and secure means to access their accounts. While
Increase electronic payments                                   the website remains the primary means of communicating
                                                               with the public about Treasury securities, outreach through
In fiscal year 2008, the Department issued 116.2 mil-
                                                               other channels, such as financial literacy programs, will
lion economic stimulus payments. However, only 36.2
                                                               target customers unaccustomed to conducting transac-
percent were made electronically. Overall, 79 percent of
                                                               tions online. Although a date has not been set for the
Treasury payments and associated information were made
                                                               withdrawal of paper bonds from sale, the intent is to move
electronically. Treasury continues to promote the use of
                                                               investors to TreasuryDirect as the preferred way to buy and
direct deposit for government payments through the Go
                                                               hold savings bonds.
Direct campaign. There were 901,054 conversions from
paper checks to direct deposit during the third year of the
                                                               Need to address international tax issues
campaign.  This is an increase over the 510,045 conversions
during the campaign’s second year. The total number of         The Treasury Department is working to improve interna-
conversions since the inception of the campaign is over 2.1    tional tax administration to effectively deal with increased
million for a return on investment of $184.7 million.          tax issues associated with globalization for both individual
                                                               and corporate taxpayers. In fiscal year 2008, Treasury issued
Debt financing                                                 guidance addressing offshore and cross-border compliance
                                                               risks. Collaboration with foreign tax administrators was
Debt financing operations are critical to ensuring that
                                                               expanded by the addition of Japan’s National Tax Agency
the government has the money needed to continue its
                                                               to the Joint International Tax Shelter Information Centre,
operations. In fiscal year 2008, the Department con-
                                                               an organization created by the tax agencies of the U.S.,
ducted more than 200 auctions, resulting in the issuance
                                                               Britain, Canada, and Australia to identify and curb abusive
of over $5.6 trillion in marketable securities. Treasury
                                                               cross-border transactions and schemes. The Treasury
successfully resumed the issuance of the 52-week bill on
                                                               Department has tax representatives in ten international
a monthly basis in order to meet increased demand for
borrowing. Additionally, the minimum bid at Treasury




21                                                                          Fiscal Year 2008 Performance by Strategic Goal
Fiscal Year 2008 Performance and Accountability Report




          cities, and in fiscal year 2009 tax representatives will be      on U.S. rules implementing the Basel II Capital Accord.
          placed in Beijing, China.                                        The agencies issued a notice of proposed rulemaking in
                                                                           July 2008 and are expected to implement final rules in
          Need to address high rates of erroneous payments                 2009. The new provisions effectively marry banks’ internal
          The Department continues to have high rates of erroneous         risk management systems with their capital requirements,
          payments within the EITC program, however, improve-              more directly linking asset risks with cash holdings. In
          ments in 2008 allowed for removal of the long-standing           addition to the standard Basel II rules, the proposed
          EITC Federal Managers’ Financial Integrity Act of 1982           U.S. rules preserve two requirements from current U.S.
          (FMFIA) Material Weakness. In fiscal year 2008, as part          regulations — a conforming leverage ratio and prompt
          of the effort to complete the Study of Universal Use of          corrective action requirements — to maintain consistency
          Advanced Payment of Earned Income Credit mandated by             in supervisory quality. Implementation of the rules is
          Congress, Treasury took several steps to address the issue.      required for the country’s ten largest banks. Other banks
          These steps included improving communication with                are currently permitted to implement the new rules on an
          taxpayers and tax practitioners, reaching out to employers       optional basis and will otherwise continue to be subject to
          to gain their insights into the benefits, costs, risks, and      previous capital requirement regulations.
          barriers if the EITC program were expanded, and enhanc-
          ing the training of examiners reviewing EITC returns.            Provided loans, investments, financial services, and
          In fiscal year 2008, $3.2 billion in revenue was protected       technical support through the CDFI Fund
          through examination of returns claiming the EITC credit          The CDFI Fund provides capital, loans, and tax credits
          and document matching programs.                                  to specialized financial institutions that finance economic
                                                                           development in underserved communities. The Fund
                                                                           competitively awards amounts to organizations that offer
          U.S. and World Economies                                         a wide array of banking services, including loans, invest-
          Perform at Full                                                  ments, and financial education to underserved populations
          Economic Potential                                               and communities. The Fund also provides incentives for
                                                                           community development by allocating federal tax credits to
          Contributed to reforms at the IMF, World Bank,                   organizations that attract investors for commercial, retail,
          and other international institutions                             industrial, and mixed-use development projects. These
          In fiscal year 2008, the Department was actively involved        organizations sell these credits to investors, which can be
          in reforms at international financial institutions. One of the   applied against federal income taxes, in order to generate
          more outstanding achievements was reform at the IMF.             funds for projects in target markets. Investments associ-
          Based on the Department’s recommendation, the IMF                ated with the CDFI Fund contributed to the creation or
          has restructured its voting system to expand participation       maintenance of 29,539 jobs in fiscal year 2008, surpassing
          for emerging market countries, coordinated development           the program target of 28,676 jobs.
          of investment guidelines for sovereign wealth funds, and
          undertaken management reorganization saving some $100            Market conditions complicate efforts to mitigate
          million in annual expenses. With these changes, the IMF is       risks at national banks and thrifts
          redefining its role in international markets to better match     Current market conditions can be attributed in part to
          global exchange and investment needs.                            poor risk management practices at financial institutions
                                                                           and insufficient government regulation of lending activi-
          Banking regulators finalized U.S. Basel II rules                 ties. While the vast majority of national banks and thrifts
          In November 2007, federal banking regulators (the Federal        remain well capitalized, there are some which remain
          Reserve, FDIC, OCC, and OTS) reached final agreement             over-exposed to riskier mortgage assets or highly leveraged




Fiscal Year 2008 Performance by Strategic Goal                                                                                    22
                                                                                   Part I — Management’s Discussion and Analysis




investments. Over the past year, the OCC and OTS have            Incomplete reforms of Medicare and Social Security
made pointed efforts to work with national banks and             The financial conditions of Medicare and Social Security
thrifts to reduce exposure to risky assets and improve risk      remain dire. Based on actuarial assumptions published in
management, as outlined previously in the Key Initiatives        March 2008, the Medicare Hospital Insurance trust fund
section. However, current strained markets for some              is projected to begin paying out more in expenditures than
products, and over-exposure by some institutions to softer       it receives in taxes and dedicated revenues by the end of
regional markets, have complicated efforts to manage these       2008. With the deficit between expenditures and revenue
risk exposures. Assets with uncertain valuations remain on       expected to continue rising, the fund is expected to be
financial institutions’ books – removing them will require       exhausted by 2019. Under current assumptions, Social
time and effective risk management. Deleveraging, as             Security is similarly projected to begin paying out more
banks reduce holdings in certain assets, has also incurred       in benefits than it receives in income and payroll taxes in
substantial costs. Until these assets can be removed from        2011, with the fund exhausted by 2041. The current actu-
institutions’ balance sheets, new lending will remain            arial deficit to cover all expected future payments for Social
constrained. The OCC and OTS will continue to work               Security recipients is $13.6 trillion. (The actuarial deficit is
with national banks and thrifts to isolate risky investments     the required funding needed today to pay for the existing
and work towards developing strategies to limit exposure         liabilities of all current contributors and recipients.) In
to future losses.                                                addition, the Medicare Supplementary Medical Insurance
                                                                 program that covers prescription drug benefits is projected
Incomplete regulatory restructuring of the financial             to require general revenue financing that will grow faster
system                                                           than the economy and beneficiary incomes. These bud-
The current “siloed” system of regulatory oversight in           getary shortfalls will require policy action to ensure the
the United States is incompatible with financial markets         solvency of the two funds and manageable provision of
characterized by cross-sector convergence and market             prescription drug benefits. Given the Secretary’s position
globalization. Many of the recent problems in financial          as Chairman of the Boards of Trustees for the Social
markets have stemmed from a confusing and sometimes              Security and Medicare trust funds, in fiscal year 2008 the
insufficient mix of state and federal financial regula-          Department issued five articles offering policy recom-
tions, lack of appreciation for the growing complexity of        mendations to address funding problems at the two funds.
cross-sector financial transactions and institutions, and lack   Government action on these recommendations, however,
of understanding of the riskiness of certain investments.        was limited during 2008, due to significant attention
Issuing the Blueprint for a Modernized Financial Regulatory      directed at immediate financial challenges.
Structure in March 2008 capped the Department’s analyti-
cal review of the financial system. Included in the report       Protectionist interests impede the ability to
are a series of near, intermediate, and long-term measures       maintain open economies
to improve regulatory oversight and restructure the “siloed”     Preservation of open international trade and financial
system. Common across these measures is a recognized             channels has become more challenging in today’s economic
need to establish stronger federal oversight of mortgage         environment. Collapse of the Doha Round talks in July
origination, insurance practices, clearing operations, and       2008, heightened concerns about investments by sovereign
banking regulation. These policy recommendations are             wealth funds and foreign government-owned enter-
outlined previously in the Key Initiatives section. As of the    prises and delayed consideration of the U.S.-Colombia
end of fiscal year 2008, most recommendations from the           Free Trade Agreement highlight these challenges. The
Blueprint had yet to be implemented.                             Treasury Department supports the expansion of trade and
                                                                 investment opportunities which can promote economic
                                                                 development and security. While the number of U.S. free




23                                                                             Fiscal Year 2008 Performance by Strategic Goal
Fiscal Year 2008 Performance and Accountability Report




          trade agreements negotiated with Treasury Department           percent, and 78 percent, respectively. The Department is
          input increased in 2008, delayed implementation of these       working with Congress to determine more cost-effective
          agreements has limited their benefit for the U.S. economy.     ways to produce circulating coins in the future.
          The Department will continue to actively participate in
          the U.S. Government’s efforts to open access to foreign
          markets and promote trade and investment growth.               Prevented Terrorism and
                                                                         Promoted the Nation’s Security
          Improve productivity management relating to the                through Strengthened
          printing and engraving of currency notes                       International Financial Systems
          The manufacturing of currency notes experienced a 0.6
                                                                         Persuaded a number of the world’s leading financial
          billion unit (7.2 percent) reduction in quantity ordered
                                                                         institutions of the risks of dealing with Iran and
          by the Federal Reserve, a drop from 8.3 billion notes in
                                                                         Iranian banks
          2007 to 7.7 billion in 2008. This reduction in the Federal
          Reserve order was large enough to affect a 12 percent drop     A precautionary advisory and an online warning were
          in BEP’s productivity between fiscal years 2007 and 2008.      issued to U.S. banks about the risks of doing business with
                                                                         Iran. Specific attention focused on the Central Bank of
          Improve supply management for bullion coin                     Iran which has engaged in deceptive financial conduct,
          production                                                     including requesting that its name be removed from global
                                                                         transactions to make it more difficult for intermediary
          As the economy and financial markets softened, investors
                                                                         financial institutions to determine the true parties in the
          sought the perceived safety of precious metals. Revenue
                                                                         transaction. Simultaneously, Treasury continued to take
          from the sale of gold, platinum, and silver bullion coins
                                                                         targeted financial actions against Iranian individuals and
          more than doubled, increasing to $949 million in fiscal
                                                                         entities engaged in Iran’s proliferation activities or support
          year 2008 from $356 million in fiscal year 2007. However,
                                                                         to terrorist groups. Bank Melli, Iran’s largest bank, was
          successful sales efforts in the bullion product line posed
                                                                         designated for providing services to entities involved in
          a new set of challenges. The volume of precious metal
                                                                         Iran’s nuclear and ballistic missile programs, including
          blanks suppliers were able to provide on time and produc-
                                                                         entities listed by the United Nations for their involve-
          tion capacity limits at the Mint constrained the number
                                                                         ment in those programs. Bank Mellat was designated for
          of bullion products that could be produced. These forces
                                                                         providing bank services in support of Iran’s nuclear entities.
          compelled the Mint to temporarily suspend sale of certain
                                                                         A vast majority of the world’s leading financial institutions
          bullion coins as production was unable to meet demand.
                                                                         have dramatically scaled back or completely cut off their
                                                                         dealings with Iran and its banks as a result of mutually
          Manage cost issues related to the penny and nickel
                                                                         reinforcing actions taken by government and private sector
          For the third year in a row, the penny and nickel cost more
                                                                         entities. These actions helped protect the integrity of the
          to produce than their face value. Two primary factors
                                                                         financial system from illicit conduct while supporting a
          affected the cost to produce these coins. First, the slowing
                                                                         multilateral effort to reach a negotiated solution on Iran’s
          economy reduced demand for circulating coins, increasing
                                                                         nuclear program.
          the fixed production cost per unit. Shipments from the
          Mint to the Federal Reserve fell from 15.4 billion coins in
                                                                         Designated and blocked key Zimbabwe regime
          2007 to 8.6 billion in 2008. Second, global price increases
                                                                         supporters
          for copper, nickel, and zinc, the metals used to produce
                                                                         In January 2008, OFAC designated two Zimbabwean
          the penny and nickel, drove up per unit production costs.
                                                                         entities and two individuals as part of an increased effort
          Between September 2004 and September 2008, spot prices
                                                                         to pressure those who are aiding Robert Mugabe's efforts
          for copper, nickel, and zinc increased by 141.5 percent, 34
                                                                         to cripple Zimbabwe. In July 2008, the President signed




Fiscal Year 2008 Performance by Strategic Goal                                                                                    24
                                                                                   Part I — Management’s Discussion and Analysis




a new Executive Order to expand sanctions against the            public statements expressing concern and alerting jurisdic-
Government of Zimbabwe and significantly enhanced                tions worldwide to the risks arising from the deficiencies
OFAC’s ability to designate additional individuals and           in those anti-money laundering/counter-terrorist financing
entities. This included entities owned or controlled             (AML/CFT) regimes.
by the Government of Zimbabwe or an official of the
Government, or those that have participated in human             Increased collaboration with Intelligence
rights abuses. OFAC designated 17 entities including             Community
several working with their government in an unofficial           Treasury enhanced its efforts to provide timely, accurate,
capacity. Designations included one individual whose             actionable, and policy-relevant intelligence analysis on the
support for Robert Mugabe's regime contributed to the            financial underpinnings of threats to national security. This
undermining of democratic processes and institutions in          analysis took the form of tactical and strategic assessments
Zimbabwe.                                                        to inform policymaking and support enforcement actions.
                                                                 The Department strengthened relationships with its
Completed actions against FARC                                   Intelligence Community counterparts and other partners
The Foreign Narcotics Designation Kingpin Act gives              in fiscal year 2008 through exchanges and assignments at
Treasury the authority to apply economic sanctions               the working level. Treasury hosted representatives from
against foreign narcotics trafficking worldwide. In fiscal       the National Security Agency, the Defense Intelligence
year 2008, Treasury designated 15 key commanders of              Agency, United States Central Command, and other key
FARC leadership, parts of the FARC’s money laundering            partners to improve coordination. Treasury liaison officers
network, senior Venezuelan officials supporting the FARC,        participate in rotations within the Intelligence Community
and members of the FARC’s international committee.               in the United States and overseas.
According to a federal indictment, FARC is responsible for
60 percent of the cocaine that is brought into the United        Implemented efforts to increase Bank Secrecy Act
States, and is directly involved with its production and         effectiveness and efficiency
distribution. Four successive actions throughout the year        Treasury placed additional emphasis on providing guidance
focused on disrupting FARC's money laundering opera-             and feedback to regulated industries, engaging specific
tions through the international financial system. These          financial institutions and industries to learn more about
actions are part of an ongoing U.S. Government effort            the practical implications of regulatory requirements, and
under this Act to apply financial measures against foreign       providing additional feedback to industry. A proposal was
drug kingpins.                                                   announced to significantly simplify the requirements for
                                                                 depository institutions to exempt their eligible customers
Led efforts within the Financial Action Task Force               from Currency Transaction Reporting. In fiscal year 2008,
(FATF)                                                           the draft rule on Chapter 10 was published, an effort to
Critical to Treasury’s strategic goal of preventing terrorism    overhaul Bank Secrecy Act regulations for inclusion in the
and strengthening national security is identifying systemic      new Code of Federal Regulations, to provide greater clarity
vulnerabilities that terrorist and other criminals can exploit   in regulations and make it easier for industry to follow, as
to finance their operations and interests. Treasury led or       well as more intuitive and responsive to industry feedback.
co-chaired several important working groups within the           This simplified approach serves as an important factor of
FATF that produced valuable guidance and reports for             the Department’s anti-money laundering mission by fa-
identifying and addressing these vulnerabilities in the          cilitating compliance by financial institutions. Additionally,
international financial system, including Iran, Pakistan,        the Department worked collaboratively with other federal
Sao Tome and Principe, Turkmenistan, Uzbekistan, and             banking agencies to assess different approaches to exami-
the northern part of Cyprus. As a result, the FATF issued        nations that are commensurate with risk.




25                                                                            Fiscal Year 2008 Performance by Strategic Goal
Fiscal Year 2008 Performance and Accountability Report




          Need to fully implement AML/CFT laws in key                    Enhance security of information technology
          countries                                                      The Treasury Department strives to provide a secure infor-
          As a leader and representative of the Financial Action         mation technology infrastructure. Treasury strengthened
          Task Force (FATF), the Department is responsible for           its networks by encrypting 99.8 percent of laptops, 99.7
          encouraging countries to comply with international AML/        percent of digital assistants, testing 98 percent of system
          CFT standards. Using these standards to determine              contingency plans, certifying and accrediting 97 percent of
          compliance, FATF assessed 37 countries in fiscal year 2008     systems, strengthening security policies, and implementing
          and the Department served as an assessor to 12 of these        enhanced safeguards to reduce exposure to Internet-based
          mutual evaluations. Despite Treasury’s work, there is still    threats. However, the Department did not meet its goal
          room for improvement in implementing these laws in key         of 100 percent compliance with Security Configuration
          countries. In particular, Pakistan has passed an anti-money    requirements.
          laundering law, but has yet to implement it. Additionally,
                                                                         The Department recognizes the importance of cyber se-
          many Gulf countries have yet to adequately protect against
                                                                         curity in fulfilling its mission. In fiscal year 2008, Treasury
          vulnerabilities from cash courier systems.
                                                                         made significant progress in strengthening security
                                                                         configuration management, which was noted as a signifi-
          Need to implement a mechanism for validating
                                                                         cant deficiency in fiscal year 2007. The Federal Information
          performance results
                                                                         Security Management Act (FISMA) 2008 audit found
          A composite performance measure was developed to rate          no significant deficiencies in information security, and the
          the impact of activities related to the Department’s efforts   Department’s remaining material weakness in this area was
          to prevent terrorism and safeguard U.S. and international      formally closed.
          financial systems. Determining this impact has proved
          to be extremely difficult; currently the only validation is    Created the Privacy and Treasury Records office
          from internal customers and the Department. An external        Treasury is committed to maintaining, collecting, using,
          validation process needs to be determined.                     and disseminating information necessary to carry out its
                                                                         mission. PTR was created to strengthen the Department’s
                                                                         privacy program and records management. PTR will
          Management and
                                                                         ensure that Treasury has a system in place to serve and
          Organizational Excellence
                                                                         inform the public, and strengthen the Department’s
                                                                         compliance with privacy and disclosure requirements.
          Issued audit reports
          TIGTA conducted audits and investigations to ensure fair       Developed human capital measures
          administration of the nation’s tax system and accountabil-
                                                                         In fiscal year 2008, the Department developed two
          ity for more than $2 trillion in tax revenue collected each
                                                                         human capital performance measures. The first measure
          year. The audits conducted identify high-risk issues and
                                                                         is designed to assess progress in developing a high-
          deficiencies related to the administration of programs and
                                                                         performance, talented, and diverse workforce; the second
          operations. These audits ensure that taxpayers are served
                                                                         measure is designed to assess Treasury’s standing as a
          appropriately and their rights adequately protected. In
                                                                         highly desirable employer of choice.
          fiscal year 2008, TIGTA issued 179 audit reports, making
          recommendations to improve areas such as tax compliance,
                                                                         Strengthen corporate leadership
          security maintenance, systems, and operations, resulting in
          $2.4 billion in potential financial benefits.                  The Treasury Department has made a profound effort in
                                                                         2008 to promote corporate governance. In addition to daily
                                                                         meetings of the senior leadership team, weekly bureau
                                                                         head meetings, and monthly Treasury-wide council meet-




Fiscal Year 2008 Performance by Strategic Goal                                                                                     26
                                                                                          Part I — Management’s Discussion and Analysis




ings, the Department has taken several actions to improve       President’s Management Agenda
corporate management. An Executive Review Board was             The PMA is a management initiative instituted in 2001 to
re-established for major IT capital investments to better       improve management practices across the federal govern-
engage department and bureau executive leadership in IT         ment and transform it into a results-oriented, efficient, and
decision making.                                                citizen-centered enterprise. The PMA is used as a frame-
                                                                work to strengthen Treasury's workforce, lower the cost
The Human Capital Strategic Plan was revised, identifying
                                                                of doing business through competition, improve financial
the factors that will shape the future workforce environ-
                                                                performance, increase the use of information technology and
ment of the agency, and the corporate strategies that are
                                                                E-Government capabilities, and integrate budget decisions
needed to meet these challenges. A corporate approach to
                                                                with performance data. Fiscal year 2008 results were similar
procurement provided significant savings and improved
                                                                to fiscal year 2007. Progress steadily improved throughout
governance, communication, and training across the
                                                                the year in the areas of E-Government, Performance
agency. A prototype Treasury performance scorecard was
                                                                Improvement, and Human Capital. For additional informa-
developed for the financial outcomes described in the
                                                                tion see the Treasury website.
Department’s strategic plan.

Corporate governance activities were consistently moni-          President’s Management Agenda
                                                                                                    Status                  FY 2008 Progress
tored and any gaps in the process were identified. These                     Initiative     FY     FY     FY     FY    Q1       Q2    Q3       Q4
included strategic planning, financial management, asset                                   2005   2006   2007   2008

                                                                         Human Capital      Y      G      G      G     G        G     G        G
management, information technology, risk management,
                                                                   Commercial Services      G      G      Y      Y     Y        Y     Y        Y
human capital, procurement, performance management,
                                                                  Financial Performance     R      R      Y      Y     Y        Y     G        G
privacy and records management, and emergency/continu-
                                                                         E-Government       R      Y      Y      Y     G        G     G        G
ity program management.
                                                                           Performance      Y      Y      Y      Y     G        G     G        G
                                                                          Improvement
Material Loss Reviews                                               Improper Payments       R      R      R      R     Y        Y     Y        Y

                                                                    Credit Management      N/A    N/A     Y      Y     Y        G     G        G
OIG is mandated to conduct MLRs of any Treasury-
                                                                    G Green for Success Y Yellow for Mixed Results R Red for Unsatisfactory
regulated bank failures resulting in material losses greater
than $25 million or two percent of the institution’s assets.
An MLR examines the cause(s) of the failure, the supervi-
sion exercised over the institution, and recommendations
regulators can consider to help prevent future failures. Also
examined are indicators of fraud that may lead to the crimi-
nal or civil prosecution of the perpetrators. In fiscal year
2008, OIG completed one MLR of the NetBank failure
and currently has five MLRs in progress.




27                                                                               Fiscal Year 2008 Performance by Strategic Goal
Fiscal Year 2008 Performance and Accountability Report



        Su m mary of Manag e m e nt Challe ng es
        an d H ig h-R isk Ar eas


          Treasury-wide Management Challenges
                         Management Challenge                                                     Importance                                              Progress                                 Status
            Management of Treasury’s Authorities                        Protection of the taxpayer from unnecessary risk                   New                                            New
            Related to Distressed Financial Markets                     associated with the implementation of the program
            Regulation of National Banks and Thrifts                    Prevent or better mitigate unsafe and unsound practices            New                                            New
                                                                        and protect the financial health of the banking industry
            Corporate Management                                        Overall agency performance/improved value for the                  Reasonable                                     Adequate
                                                                        taxpayer
            Management of Capital Investments                           Effective use of taxpayer funds for large capital                  Significant                                    Meets Expectations
                                                                        investments
            Information Security                                        Appropriate protection of electronic information and               Significant                                    Meets Expectations
                                                                        cyber assets
            Linking Resources to Results                                Resources that are focused on producing the best value             A cost accounting policy revision              Closed
                                                                        for stakeholders                                                   and changes to operations
                                                                                                                                           allowed removal of this challenge
            Anti-Money Laundering and Terrorist                         U.S. and international financial systems that are safe             Reasonable                                     Meets Expectations
            Financing/BSA Reporting



          IRS Management Challenges
                         Management Challenge                                                     Importance                                              Progress                                 Status
            Modernization of the Internal Revenue                       Improved taxpayer service and efficiency of operations             Reasonable                                     Meets Expectations
            Service (Computerized Systems and Business
            Structure) and IRS Business Systems
            Tax Compliance Initiatives                                  Improved compliance and fairness in the application of             Reasonable                                     Meets Expectations
                                                                        the tax laws
            Security of the Internal Revenue Service                    Appropriate protection of financial, personal, and other           Reasonable                                     Meets Expectations
                                                                        information
            Providing Quality Taxpayer Service Operations               Improved taxpayer service                                          Significant                                    Exceeds Expectations
            Human Capital                                               Enables the IRS to achieve its mission                             Significant                                    Exceeds Expectations
            Erroneous and Improper Payments                             Effective use of taxpayer funds                                    Reasonable                                     Adequate
            Taxpayer Protection and Rights                              Fairness in the application of the tax laws                        Significant                                    Meets Expectations
            Processing Returns and Implementing Tax                     Improved taxpayer service and efficiency of operations             Significant                                    Exceeds Expectations
            Law Changes During the Tax Filing Season
            Using Performance and Financial Information                 Resources that are focused on producing the best value             Significant                                    Exceeds Expectations
            for Program and Budget Decisions                            for stakeholders
            Click on any management challenge for additional information.



           Progress Rating                                    Description                                      Status Rating                                         Description

           New               A new management challenge in fiscal year 2008                                    New               A new management challenge in fiscal year 2008
           None              No progress was made on the management challenge                                  Inadequate        Regardless of progress made in the fiscal year, the status of the management
                                                                                                                                 challenge remains incomplete and falls significantly short of expectations
           Marginal          Minimal progress was made on the management challenge compared to the prior
                             year                                                                              Adequate          The current status of the management challenge is acceptable but falls slightly short
                                                                                                                                 of expectations set for the fiscal year
           Reasonable        Progress was made in addressing the management challenge, improving from the
                             prior year                                                                        Meets             The current status of the management challenge meets expectations set for the
                                                                                                               Expectations      fiscal year
           Significant       A large amount of progress was made compared to the prior year assessment
                                                                                                               Exceeds           The current status of the management challenge exceeds expectations set for the
                                                                                                               Expectations      fiscal year
                                                                                                               Closed            Actions taken resulted in the elimination of the management challenge




Summary Of Management Challenges and High-Risk Areas                                                                                                                                                         28
                                                                                   Part I — Management’s Discussion and Analysis




High Risk Area Update:                                             Improve information technology through
Enforcement of the Tax Laws                                        modernization.
                                                                     •	 Execute the following initiatives: In fiscal year 2008
Challenges/Actions                                                      and fiscal year 2009 the process to match informa-
                                                                        tion documents to information on a tax return and
 Reduce the opportunity for evasion
                                                                        improved case selection and scoring will be reengi-
     •	 Propose legislation changes targeted at information             neered. In fiscal year 2009 data storage facilities will
       reporting, compliance by businesses, and strength-               be enhanced to improve the workload identifica-
       ening tax administration.                                        tion. In fiscal year 2009 automated lien delivery will
                                                                        be deployed. In fiscal year 2009 new and improved
 Target specif ic areas of noncompliance and improve
                                                                        analytics will be developed that identify issues and
 voluntary compliance with extensive research.
                                                                        select cases for all types of audits. By fiscal year
     •	 In fiscal year 2008 compliance studies will be                  2009 features will be built and implemented for an
       completed on S corporations and individuals;                     electronic transmission capability for additional tax
       in fiscal year 2009 updates to the payment and                   forms on Modernized electronic Filing (MeF). In
       filing compliance estimates of the tax gap will be               fiscal year 2009 the Broker Compliance Initiative
       completed.                                                       pilot will be used to identify and address tax
     •	 Research the effect of service and its relationship to          schemes of individuals and businesses.
       taxpayer compliance. In addition, survey taxpayers
       to see the relationship between complexity, burden,       For additional information, click here: Enforcement of Tax
       and compliance to improve workload selection              Laws
       formulas and reduce the burden of unnecessary
       taxpayer contacts.
                                                                 High Risk Area Update:
     •	 Assess outreach and education awareness cam-
                                                                 IRS Business Systems
       paigns that target the EITC eligible and non-
                                                                 Modernization
       compliant population, and adjust as necessary to
       increase participation and improve compliance.            Problem: The Business Systems Modernization (BSM)
       In fiscal year 2008 significant achievements were               program is developing and delivering a number of
       made: 1) established diagnostic measures for
                                                                       modernized systems to replace the aging business
       compliance, outreach, and support, 2) developed full
                                                                       and tax processing systems currently in use. This
       cost computation for EITC compliance activities,
                                                                       effort is highly complex and scheduled to be carried
       3) increased protected revenue from the under-
                                                                       out over a numbers of years, ultimately creating a
       reporter program by 190 percent, 4) increased base
       compliance activities by 35 percent, 5) reduced the             more efficient and effective IRS. Though the IRS
       no-change rate on examination cases by 59 percent,              experienced delays and cost overruns in the early
       6) realized a return on investment in compliance ac-            years of the effort, improved practices and oversight
       tivities of 12–to-1 for examinations and 67-to-1 for            are now contributing to better delivery of outcomes.
       under-reporter cases. In fiscal year 2009, activities
       from the fourth year of the EITC Return Preparer          Goal: Meet all BSM project milestones within a cost
       Study will be completed and short-term outcomes                 and schedule variance of 10 percent of the initial
       will be analyzed, including penalties and accuracy              estimate.
       of returns, and the effect of due diligence visits,
       education/compliance notices, and phone calls to
       first-time EITC preparers.




29                                                                 Summary Of Management Challenges and High-Risk Areas
Fiscal Year 2008 Performance and Accountability Report




          Challenges/Actions
            Fully implement all projects and programs for the
            Business Systems Modernization program.
              •	 Customer Account Data Engine (CADE) will hold
                over 200 million individual and business taxpayer’s
                information that will provide flexibility to respond
                quickly to complex tax law and policy initiatives.
                Through mid-August 2008 CADE processed 30.5
                million individual tax returns which is 21 percent
                of all individual tax returns filed. Each new release
                of CADE will expand the functionality CADE can
                process and thus increase the numbers of returns
                processed. Under current resource assumptions,
                IRS has a goal of processing over 90 percent of all
                returns through CADE by Fall 2012.
              •	 Make similar progress on all other BSM projects:
                Accounts Management Services (AMS) applies ap-
                plications that enable IRS employees and taxpayers
                to access, validate, and update taxpayer accounts
                on demand. Modernized E-File (MeF) will allow
                the IRS to store all tax return data in a modernized
                tax return database allowing all viewers to see an
                entire tax return online. Custodial Detail Database
                (CDDB) provides detailed data to support revenue
                financial reporting. Revenue Accounting Control
                System (RACS) will reduce the risk of failure to
                sustain future clean IRS audit opinions, and stream-
                line financial reporting.

          For additional information, click here: IRS BSM




Summary Of Management Challenges and High-Risk Areas                    30
                                                                                           Part I — Management’s Discussion and Analysis




Analysis of Fi nancial State m e nts

The complete financial statements and auditor’s report are in part III of this report.


   Condensed Consolidated Balance Sheets (in Millions):                                      2008                  2007
         Due From the General Fund                                                 $     10,100,763         $   9,052,624
         Other Intra-governmental Assets                                                   551,115               322,255
         Cash, Foreign Currency, and Other Monetary Assets                                 387,270                92,330
         Gold and Silver Reserves                                                           11,062                11,062
         Investments and Related Interest                                                   10.576                10,074
         Tax, Other, and Related Interest Receivables, Net                                  30,878                27,559
         Other Assets                                                                       25,374                12,903
      Total Assets                                                                       11,117,038             9,528,807
         Federal Debt and Interest Payable                                               10,075,108             9,029,038
         Other Intra-governmental Liabilities                                              681,621               343,466
         Other Liabilities                                                                  50,598                35,204
      Total Liabilities                                                                  10,807,327             9,407,708
         Unexpended Appropriations                                                         271,968                72,317
         Cumulative Results of Operations                                                   37,743                48,782
      Total Net Position                                                                   309,711               121,099
      Total Liabilities and Net Position                                           $     11,117,038         $   9,528,807



   Condensed Consolidated Statements of Net Cost (in Millions):                              2008                  2007
         Net Financial Program Cost                                                $        12,287          $     11,735
         Net Economic Program (Revenue)/Cost                                                   248                   (456)
         Net Security Program Cost                                                             342                   300
         Net Management Program Cost                                                           466                   440
      Total Net Cost of Treasury Operations                                                 13,343                12,019
         GSE Costs                                                                          13,800                    —
         Net Federal Costs (primarily interest on the Federal Debt)                $       442,208          $    429,302


   Condensed Statements of Custodial Activity (in Millions):                                 2008                  2007
         Individual and FICA Taxes                                                 $      2,294,326         $   2,201,464
         Corporate Income Taxes                                                            354,063               395,320
         Other Revenues                                                                    144,218               142,005
      Total Revenue Received                                                              2,792,607             2,738,789
         Less Refunds                                                                      (426,074)             (292,684)
      Net Revenue Received                                                                2,366,533             2,446,105
         Accrual Adjustment                                                                   3,132                5,588
      Total Custodial Revenue                                                             2,369,665             2,451,693
         Amounts Provided to Fund the Federal Government                                  2,366,126             2,445,619
         Other                                                                                 407                   486
         Accrual Adjustment                                                                   3,132                5,588
      Total Disposition of Custodial Revenue                                              2,369,665             2,451,693
      Net Custodial Revenue Activity                                               $              0         $           0




 31                                                                                                    Analysis of Financial Statements
Fiscal Year 2008 Performance and Accountability Report




             Condensed Consolidated Statements of Changes
             in Net Position (in Millions):                                        2008            2007
                 Beginning Balance                                          $     48,782     $    46,644

                 Budgetary Financing Sources                                     482,150         447,331
                 Other Financing Sources (Uses)                                  (23,838)          (3,872)
                 Total Financing Sources                                         458,312         443,459
                 Net Cost of Operations                                         (469,351)        (441,321)
                 Net Change                                                      (11,039)          2,138
               Cumulative Results of Operations                                   37,743          48,782
                 Beginning Balance                                                72,317          68,270

                 Appropriations Received                                         681,473         451,222
                 Appropriations Used                                            (481,735)        (447,057)
                 Other                                                                (87)           (118)
                 Total Budgetary Financing Sources                               199,651           4,047
               Total Unexpended Appropriations                                   271,968          72,317
               Net Position - Year End                                      $    309,711     $   121,099



             Condensed Combined Statements of
             Budgetary Resources (in Millions):                                    2008            2007
                 Unobligated Balance, Brought Forward                       $     57,450     $    57,540
                 Recoveries of Prior Year Unpaid Obligations                         413             474
                 Budget Authority                                                722,859         474,974
                 Other Budget Authority                                           (8,558)         (10,008)
               Total Budgetary Resources                                         772,164         522,980
                 Obligations Incurred                                            487,534         465,530
                 Unobligated Balance                                             273,235          46,455
                 Unobligated Balance Not Available                                11,395          10,995
               Total Status of Budgetary Resources                               772,164         522,980
                 Total Unpaid Obligated Balances, Net                             57,393          52,448
                 Obligations Incurred, Net                                       487,534         465,530
                 Gross Outlays                                                  (487,608)        (460,302)
                 Recoveries of Prior Year Unpaid Obligations, Actual                (413)            (474)
                 Changes in Uncollected Customer Payments Federal                     71             191
               Total Unpaid Obligated Balance, Net, End of Year                   56,977          57,393
                 Gross Outlays                                                   487,608         460,302
                 Offsetting Collections & Distributed Offsetting Receipts        (24,740)         (24,232)
               Net Outlays                                                  $    462,868     $   436,070




Analysis of Financial Statements                                                                          32
                                                                                    Part I — Management’s Discussion and Analysis




Auditor’s Report on
the Treasury Department’s Financial Statements
The Department received an unqualified audit opinion on its fiscal year 2008 financial statements. The auditor reported
a material weakness related to financial systems and reporting at the IRS and significant deficiencies related to financial
management practices at the departmental level and controls over foreign currency transactions. The auditor also reported
an instance of noncompliance with laws and regulations related to Section 6325 of the Internal Revenue Code and that the
Department’s financial management systems did not substantially comply with the requirements of the Federal Financial
Management Improvement Act of 1996. In addition, a potential Anti-deficiency Act violation related to transactions and
activities of the Financial Crimes Enforcement Network was reported.

Summary of Financial Statement Audit

 Audit Opinion                                                                 Unqualified
 Restatement                                                                       No
                Material Weakness             Beginning Balance   New            Resolved        Consolidated    Ending Balance

 Financial Systems and Reporting at the IRS          1             0                0                 0                  1


Limitations on the Principal Financial Statements
The principal financial statements have been prepared to report the financial position and results of operations of the
Department of the Treasury, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared
from the books and records of the Department of the Treasury, in accordance with GAAP for federal entities and the
formats prescribed by OMB, the statements are in addition to the financial reports used to monitor and control budgetary
resources which are prepared from the same books and records.

The financial statements should be read with the realization that they are for a component of a sovereign entity, that
liabilities not covered by budgetary resources cannot be liquidated without the enactment of an appropriation, and that the
payment of all liabilities other than for contracts can be abrogated by the sovereign entity.

Major Highlights
The following provides the highlights of Treasury’s financial position and results of operations for fiscal year 2008.




33                                                                                                   Analysis of Financial Statements
Fiscal Year 2008 Performance and Accountability Report




          Major Highlights                                                    Liabilities. Intra-governmental liabilities totaled $4.9 tril-
                                                                                  lion, and include $4.3 trillion of principal and interest
          The following provides the major highlights of Treasury’s               payable to various federal agencies such as the Social
          financial position and results of operations for fiscal year            Security Trust Fund.
          2008.
                                                                                   Liabilities also include federal debt held by the
          Assets. Total assets increased from $9.5 trillion at                     public, including interest, of $5.8 trillion; this debt
             September 30, 2007, to $11.1 trillion at September                    was mainly issued as Treasury Notes. The increase in
             30, 2008. The primary reason for the increase is the                  total liabilities in fiscal year 2008 over fiscal year 2007
             rise in the federal debt, which causes a corresponding                ($1.4 trillion and 14.9%) is the result of increases
             rise in the “Due from the General Fund of the U.S.                    in borrowings from various federal agencies ($257
             Government” account ($10.1 trillion). This account                    billion), and federal debt held by the public, includ-
             represents future funds required from the General                     ing interest ($759.4 billion). Debt held by the public
             Fund of the U.S. Government to pay borrowings                         increased primarily because of the need to finance
             from the public and other federal agencies.                           budget deficits.

              The majority of loans and interest receivable ($264.9
              billion) included in “Intra-governmental” assets are
              the loans issued by the Bureau of the Public Debt to                                         Total Liabilities

              other federal agencies for their own use or to private
              sector borrowers, whose loans are guaranteed by the
                                                                                                   54%                         7%
              federal agencies.                                                       Federal Debt and                         Other Liabilities
                                                                                       Interest Payable
                                                                                    (held by the Public)
                                                                                                                               39%
                                                                                                                               Federal Debt and
                                    Total Assets                                                                               Interest Payable
                                                                                                                               (held by other
                                                                                                                               federal agencies)


                            91%                         7% Other Assets
                    Due from the
                    General Fund                        2%
                                                        Intra-governmental
                                                        Loans and
                                                        Interest Receivable




Analysis of Financial Statements                                                                                                              34
                                                                                                                                              Part I — Management’s Discussion and Analysis




Net Cost of Treasury Operations. The Consolidated                                                      Net Federal Debt Interest Costs. Interest costs have
    Statement of Net Cost presents the Department’s                                                        increased over the past four years due to the increase
    gross and net cost for its four strategic missions:                                                    in the federal debt.
    financial program, economic program, security
    program, and management program. The majority                                                                                       Net Federal Debt Interest Cost (in Billions)

    of the Net Cost of Treasury Operations is in the                                                                                         $500
                                                                                                                                                                                             $440.9
                                                                                                                                                                                    $420.4
                                                                                                                                                                        $390.9
    financial program. Treasury is the primary fiscal                                                                                        $400




                                                                                                                Dollars (in Billions)
                                                                                                                                                             $342.4
                                                                                                                                                    $310.7
    agent for the Federal Government in managing the                                                                                         $300

    nation’s finances by collecting revenue, making federal                                                                                  $200
    payments, managing federal borrowing, performing
                                                                                                                                             $100
    central accounting functions, and producing coins and
                                                                                                                                               $0
    currency sufficient to meet demand.                                                                                                             2004      2005       2006        2007     2008
                                                                                                                                                                      Fiscal Year

     Net cost (not from Treasury operations) includes
     $13.8 billion related to the GSE Keepwell agreement.

            Net Cost of Treasury Operations (in Millions)                                              Custodial Revenue. Total net revenue collected by
                                 $14,000                                                                  Treasury on behalf of the Federal Government
                                           $12,287
                                 $12,000                                                                  includes various taxes, primarily income taxes, user
         Dollars (in Millions)




                                 $10,000                                                                  fees, fines and penalties, and other revenue. Over 94.8
                                  $8,000
                                                                                                          percent of the revenues are from income and social
                                  $6,000

                                  $4,000
                                                                                                          security taxes.
                                  $2,000
                                                            $248            $342             $466
                                     $0
                                           Financial     Economic        Security         Management                                           Total Revenue (in Trillions)
                                                                Program Cost



             Net Cost of Treasury Operations (in Billions)                                                                  82%                                                         5%
                                                                                                              Individual Income                                                         Other Revenue
                                    $15
                                                                                                                 and FICA Taxes
                                                                                                                                                                                        13%
                                                                   $14.03
                                    $14                $13.79                                                                                                                           Corporate
         Dollars (in Billions)




                                                                                             $13.34                                                                                     Income Taxes
                                    $13

                                           $11.78                              $12.02
                                    $12

                                    $11

                                    $10
                                           2004         2005        2006           2007       2008
                                                                 Fiscal Year




35                                                                                                                                                                    Analysis of Financial Statements
Fiscal Year 2008 Performance and Accountability Report



        I m prope r Paym e nts I n for mation Act
        an d R ecove ry Au diti ng Act


          Improper Payments                                              Treasury’s Risk Assessment Methodology
          Information Act                                                and Results for Fiscal Year 2008
                                                                         Each year, Treasury develops a comprehensive inventory
          Background                                                     of all funding sources and conducts a risk assessment
          The Improper Payments Information Act of 2002 (IPIA)           for improper payments on all of its programs and activi-
          requires agencies to review their programs and activi-         ties. The risk assessment performed on all of Treasury’s
          ties annually to identify those susceptible to significant     programs and activities resulted in low and medium
          improper payments. According to Office of Management           risk susceptibility for improper payments except for the
          and Budget (OMB) Circular A-123, Appendix C,                   Internal Revenue Service’s (IRS) Earned Income Tax
          Requirements for Effective Measurement and Remediation         Credit (EITC) program. The high-risk status of this
          of Improper Payments (A-123, Appendix C), “significant”        program is well-documented and has been deemed a
          means that an estimated error rate and a dollar amount         complex program for the purposes of the IPIA.
          exceed the threshold of 2.5 percent and $10 million of
          total program funding. A-123, Appendix C also requires         Earned Income Tax Credit
          the agency to implement a corrective action plan that in-      The EITC is a refundable tax credit that offsets income
          cludes improper payment reduction and recovery targets.        tax owed by low-income taxpayers and, if the credit
                                                                         exceeds the amount of taxes due, provides a lump-sum
          However, some federal programs are so complex that
                                                                         payment in the form of a refund to those who qualify. The
          developing an annual error rate is not feasible. The
                                                                         fiscal year 2008 estimate is that a maximum of 28 percent
          government-wide Chief Financial Officers Council
                                                                         ($13.1 billion) and a minimum of 23 percent ($11.1 bil-
          developed an alternative for such programs to assist
                                                                         lion) of the EITC total program payments are overclaims.
          them in meeting the IPIA requirements. Agencies may
          establish an annual estimate for a high-risk component of      The IRS has a robust base enforcement program for the
          a complex program (e.g., a specific program population)        EITC which consists of examinations, math error notices,
          with OMB approval. Agencies must also perform trend            and document matching and has adopted a two-pronged
          analyses to update the program’s baseline error rate in the    approach to reduce improper payments:
          interim years between detailed program studies. When
                                                                             •	 Seek opportunities to increase program efficiency
          development of a statistically valid error rate is possible,         within existing resources
          the reduction targets are revised and become the basis for
                                                                             •	 Test potential new approaches and processes and
          future trend analyses.
                                                                               then request implementation funding if the tests
                                                                               prove successful




Improper Payments Information Act and Recovery auditing Act                                                                   36
                                                                                  Part I — Management’s Discussion and Analysis




Recovery Auditing Act                                            Results for Fiscal Year 2008
                                                                 During fiscal year 2008, $5.0 billion in contracts (defined
Background                                                       as issued and obligated contracts, modifications, task or-
In accordance with the Recovery Auditing Act, OMB                ders, and delivery orders) were issued. Improper payments
Circular A-123, Appendix C, requires agencies issuing            in the amount of $825,279 were identified from recovery
$500 million or more in contracts to establish and main-         auditing efforts, and $839,818 has been recovered,
tain recovery auditing activities and report on the results      including prior year recoveries, with $1,834 outstanding
of those recovery efforts annually. Recovery auditing            as accounts receivable on September 30, 2008.
activities include the use of (1) contract audits, in which
an examination of contracts pursuant to the audit and            Note: Additional detail on Treasury’s IPIA and Recovery
records clause incorporated in the contract is performed;        Auditing Act Program can be found in Appendix B.
(2) contingency contracts for recovery services in which
the contractor is paid a percentage of the recoveries;
and (3) internal review and analysis in which payment
controls are employed to ensure that contract payments
are accurate.

For Recovery Act compliance, Treasury requires each
bureau and office to review their post-payment controls
and report on recovery auditing activities, contracts
issued, improper payments made, and recoveries achieved.
Bureaus and offices may use recovery auditing firms to
perform many of the steps in their recovery program and
identify candidates for recovery action.




37                                                            Improper Payments Information Act and Recovery auditing Act
Fiscal Year 2008 Performance and Accountability Report




                                              This page left intentionally blank




                                                                                   38
                                                                                Part I — Management’s Discussion and Analysis




Manag e m e nt Assu rances



     The Secretary’s Letter of Assurance
       The Department of the Treasury’s management is responsible for establishing and maintaining effective
       internal control and financial management systems that meet the objectives of the Federal Managers’
       Financial Integrity Act (FMFIA). Treasury has evaluated its management controls, internal controls
       over financial reporting, and compliance with federal financial systems standards. As part of the evalu-
       ation process, we considered results of extensive testing and assessment across the Department and the
       results of independent audits.

       Treasury provides reasonable assurance that the objectives of the Federal Managers’ Financial Integrity
       Act over operations have been achieved, except for the material weaknesses noted below. In accordance
       with OMB Circular A-123, Appendix A, we provide qualified assurance that internal control over
       financial reporting is effective as of June 30, 2008. Treasury is not in substantial compliance with the
       Federal Financial Management Improvement Act due to the material weakness involving revenue
       accounting systems; this weakness is a significant reason for our qualified overall assurance level for
       A-123, Appendix A.

       Treasury has four remaining material weaknesses as of September 30, 2008, as follows:
          Operations:
             Internal Revenue Service
                 •	 Systems modernization management and controls
                 •	 Systems security controls

             Financial Management Service
                 •	 Systems, controls, and procedures to prepare the Government-wide financial statements

          Financial Reporting:
             Internal Revenue Service
                 •	 Revenue accounting systems

       The Department made significant progress during fiscal year 2008 by closing two of six material weak-
       nesses. For the sixth straight fiscal year, we identified no new material weaknesses. We will continue to
       focus on achieving positive results by:
                 •	 Emphasizing internal control program responsibilities throughout Treasury
                 •	 Ensuring senior management attention to management controls
                 •	 Focusing on the need to develop and carry out responsible plans for resolving weaknesses


                                                                 Sincerely,



                                                                 Henry M. Paulson, Jr.
                                                                 November 17, 2008




39                                                                                                       Management Assurances
Fiscal Year 2008 Performance and Accountability Report



        Mate r ial Weakn esses, Au dit Follow-u p,
        an d Fi nancial Syste ms


          Summary of Management Assurance

           Summary of Material Weaknesses
                                                                      Beginning                                                         Ending
           Material Weaknesses                                         Balance        New       Resolved    Consolidated   Reassessed   Balance
           IRS - Revenue Accounting Systems                                1            0          0             0             0          1
           IRS - Systems Modernization Management and Controls             1            0          0             0             0          1
           IRS - Overclaims in the Earned Income Tax Credit Program        1            0          1             0             0          0
           IRS - Systems Security Controls                                 1            0          0             0             0          1
           FMS - Systems, Controls and Procedures to Prepare the           1            0          0             0             0          1
           Government-wide Financial Statements
           DO - Systems Security                                           1            0          1             0             0          0
           Total Material Weaknesses                                       6            0          2             0             0          4



          During fiscal year 2008, Treasury closed two material                     As of September 30, 2008, Treasury has four remaining
          weaknesses: Treasury Departmental Offices Lack of                         material weaknesses under Section 2 of the FMFIA as
          Compliance with the FISMA, and IRS Overclaims                             shown in the tables below.
          in the Earned Income Tax Credit.

           Effectiveness of Internal Control over Financial Reporting (FMFIA § 2)
           Statement of Assurance                                                                 Qualified Assurance
                                                                      Beginning                                                         Ending
           Material Weaknesses                                         Balance        New       Resolved    Consolidated   Reassessed   Balance
           IRS - Revenue Accounting Systems                                1            0          0             0             0          1
           Total Material Weaknesses                                       1            0          0             0             0          1


           Effectiveness of Internal Control over Operations (FMFIA § 2)
           Statement of Assurance                                                                 Qualified Assurance
                                                                      Beginning                                                         Ending
           Material Weaknesses                                         Balance        New       Resolved    Consolidated   Reassessed   Balance
           IRS - Systems Modernization Management and Controls             1            0          0             0             0          1
           IRS - Overclaims in the Earned Income Tax Credit Program        1            0          1             0             0          0
           IRS - Systems Security Controls                                 1            0          0             0             0          1
           FMS - Systems, Controls, and Procedures to Prepare the          1            0          0             0             0          1
           Government-wide Financial Statements
           DO - Systems Security                                           1            0          1             0             0          0
           Total Material Weaknesses                                       5            0          2             0             0          3




Material Weaknesses, Audit Follow-up, and Financial Systems                                                                                   40
                                                                                                 Part I — Management’s Discussion and Analysis




 Conformance with Financial Management System Requirements (FMFIA § 4)
 Statement of Assurance                                                 Systems conform to financial management system requirements
                                                            Beginning                                                                 Ending
 Non-Conformances                                            Balance          New         Resolved    Consolidated   Reassessed       Balance
 Total Non-conformances                                        0                0            0             0             0              0


 Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                                              Agency                                  Auditor
 Overall Substantial Compliance                                                 No                                       No
 1. System Requirements                                                                              No
 2. Accounting Standards                                                                             No
 3. USSGL at Transaction Level                                                                       No




Federal Managers’ Financial Integrity Act                                  Each year material weaknesses, both the resolution of ex-
(FMFIA)                                                                    isting ones and the prevention of new ones, receive special
The management control objectives under FMFIA are to                       attention. Over the past six years, Treasury has made great
reasonably ensure that:                                                    progress in reducing the number of material weaknesses.
                                                                           During fiscal year 2008, the Department closed two of
     •	 programs achieve their intended results
                                                                           six material weaknesses and continues to make resolution
     •	 resources are used consistent with overall mission
                                                                           of these weaknesses a performance requirement for every
     •	 programs and resources are free from waste, fraud,                 executive, manager, and supervisor.
        and mismanagement
     •	 laws and regulations are followed                                  Office of Management and Budget (OMB)
                                                                           Circular A-123, Appendix A
     •	 controls are sufficient to minimize any improper or
        erroneous payments                                                 The Department continues to strengthen and improve the
                                                                           execution of the Treasury mission through the applica-
     •	 performance information is reliable
                                                                           tion of sound internal controls over financial reporting.
     •	 system security is in substantial compliance with                  In response to OMB Circular A-123, Management’s
        all relevant requirements                                          Responsibility for Internal Control, Appendix A, Treasury
     •	 continuity of operations planning in critical areas                developed and implemented an extensive testing and
        is sufficient to reduce risk to reasonable levels                  assessment methodology that identified and documented
     •	 financial management systems are in compliance                     internal controls over financial reporting at the transac-
        with federal financial systems standards                           tion level integrated with the Government Accountability
                                                                           Office’s Standards for Internal Control. The testing and
Deficiencies that seriously affect an agency’s ability to                  assessment were completed across all material Treasury
meet these objectives are deemed “material weaknesses.”                    bureaus and offices by June 30, 2008. Treasury provides
Treasury can provide reasonable assurance that the                         qualified reasonable assurance that internal controls over
objectives of FMFIA have been achieved, except for the                     financial reporting are effective as of June 30, 2008, due
remaining material weaknesses noted in the Secretary’s                     in large part to the revenue accounting system weaknesses
Letter of Assurance. The last identified material weakness                 at the IRS.
is targeted for closure in fiscal year 2012.




41                                                                       Material Weaknesses, Audit Follow-up, and Financial Systems
Fiscal Year 2008 Performance and Accountability Report




          Federal Financial Management                                  tion and coordination among the Treasury offices vari-
          Improvement Act (FFMIA)                                       ously involved in strategic planning, budget formulation,
          FFMIA mandates that agencies “... implement and               budget execution, performance management, and financial
          maintain financial management systems that comply             management.
          substantially with federal financial management systems
          requirements, applicable federal accounting standards, and
                                                                        Financial Management Systems
                                                                        Framework
          the United States Government Standard General Ledger
          at the transaction level.” FFMIA also requires that reme-     The Department’s overall financial management systems
          diation plans be developed for any entity that is unable to   framework consists of a Treasury-wide financial data ware-
          report substantial compliance with these requirements.        house, supported by a financial reporting tool and separate
                                                                        bureau financial systems. Bureaus submit their monthly
          As of September 30, 2008, the Treasury Department’s           financial data to the data warehouse within three business
          financial management systems were not in substantial          days of the month-end. The Department then produces
          compliance with FFMIA due to deficiencies with the            monthly financial statements and reports for management
          IRS’s financial management systems. The IRS has a reme-       analysis. This framework satisfies both the bureaus’ diverse
          diation plan in place to correct the deficiencies. For each   financial operational and reporting needs, as well as the
          FFMIA recommendation, the remediation plan identifies         Department’s internal and external reporting requirements.
          specific remedies, target dates, responsible officials, and   The financial data warehouse is part of the overarching
          resource estimates required for completion. This plan is      Treasury-wide Financial Analysis and Reporting System
          reviewed and updated quarterly. (Refer to Appendix D for      (FARS), which also includes applications for bureaus to
          detailed information.)                                        report the status of their performance measures and the
                                                                        status of their planned audit corrective actions. Treasury
          Audit Follow-Up                                               has also implemented a budget application which is used
          During fiscal year 2008, Treasury placed a renewed            by the Departmental Offices (DO) in the management
          emphasis on improving both the general administration of      of DO’s budget expenditures. Additional FARS applica-
          management control issues throughout the Department           tions are planned to improve the Department’s financial
          and the timeliness of the resolution of all findings and      management and operations. This includes asset manage-
          recommendations identified by the Office of the Inspector     ment and enhanced reporting functionality.
          General (OIG), the Treasury Inspector General for Tax
          Administration (TIGTA), the Government Accountability         Treasury’s FARS applications operate at a contractor
          Office, and external auditors.                                operated hosting facility. In accordance with the guidance
                                                                        contained in the American Institute of Certified Public
          Treasury management at every level will maintain the          Accountants’ Statement of Auditing Standards (SAS) No.
          momentum on accomplishing Planned Corrective Actions          70, Service Organizations, the service provider’s indepen-
          (PCAs) timely to resolve and implement sound solutions        dent auditors examined the controls for the dedicated
          for all audit recommendations. Although the Department        hosting service. In the opinion of the auditors, the descrip-
          has made great progress, considerably more work lies ahead    tion of the controls presents fairly, in all material respects,
          to integrate the effects of those actions more fully into     the relevant aspects of the provider’s controls that had
          management’s decision-making processes. The Department        been placed in operation as of September 30, 2008. Also,
          needs to identify more precisely what it costs to ac-         the controls described are suitably designed to provide
          complish Treasury’s varied missions and develop ways to       reasonable assurance that the specified control objectives
          improve overall performance. This will entail building upon   would be achieved if the described controls were complied
          the progress already made in expanding the communica-         with satisfactorily and customer organizations applied




Material Weaknesses, Audit Follow-up, and Financial Systems                                                                       42
                                                                               Part I — Management’s Discussion and Analysis




the controls contemplated in the design of the provider’s     by the ARC, began a phased implementation to the
controls.                                                     E-Government travel system in May 2008.

The Department continues to enhance its financial             The Department’s FARS applications are also used to
management systems structure. As of September 30, 2008,       support other federal agencies. Treasury currently hosts
the number of financial management systems decreased to       another federal agency for consolidated financial process-
60, down from 64 at the end of fiscal year 2007.              ing and reporting. As a result of this arrangement, Treasury
                                                              is able to share costs for the maintenance and operation of
The Bureau of the Public Debt’s Administrative Resource
                                                              the FARS applications. In addition, the Department has
Center (ARC) has been designated by OMB as a Financial
                                                              demonstrated various FARS applications to other agencies.
Management Line of Business Shared Service Provider
                                                              Several of the agencies have implemented FARS applica-
(SSP). The ARC currently services 28 federal entities for
                                                              tions to run in their own systems environment, reducing
core financial systems, including twelve Treasury bureaus
                                                              their capital investment in systems software development.
and reporting entities. Treasury will continue to evaluate
opportunities to consolidate financial management systems
and better utilize existing resources. The Department
will work with the remaining bureaus to develop plans
to migrate to a SSP for core financial systems in accor-
dance with the Financial Management Line of Business
requirements.

The ARC also provides systems and service support to
eleven Department bureaus in the processing of their
travel needs as part of the Department’s E-Gov Travel
initiative. Of the three remaining bureaus, two are exempt
from the Federal Travel Regulations and do not plan to
migrate at this time. The IRS, which is not cross-serviced




43                                                           Material Weaknesses, Audit Follow-up, and Financial Systems
Fiscal Year 2008 Performance and Accountability Report




                                              This page left intentionally blank




                                                                                   44
               An n ual
Pe r for mance R e port




                Part II
                                                                                            Part II — Annual Performance report




I ntroduction

The Annual Performance Report (APR) is written by               traction (how efficiently and effectively policy offices
strategic objective and outcome. Included in the discussion     worked with other government offices and/or the extent to
is a summary of why the objective is important, and its         which the office influences progress towards an outcome)
associated outcomes. An overall performance statement is        and impact (whether or not the policy initiative had a
provided for each objective, along with charts and tables       positive outcome).
for cost, budget and performance. Performance chart
                                                                As one example, Treasury has developed a new measure
percentages are calculated based on active performance
                                                                to gauge the performance of the Office of Technical
measures for which targets were either exceeded, met,
                                                                Assistance in providing economic and financial expertise to
improved, or not met. Baseline and discontinued measures
                                                                developing countries. Similar measures are being developed
are not included in the calculations. While baseline mea-
                                                                for Terrorism and Financial Intelligence. The process of de-
sures are not counted in the calculation, they are shown as
                                                                veloping these measures has deepened the understanding
“met” in the performance tables in this section and in Part
                                                                and connection between activities and desired outcomes,
IV. Several measures were discontinued and/or base-lined
                                                                resulting in measures that the Department believes are
this year as a result of the ongoing analysis of Treasury’s
                                                                much more useful to both performers and evaluators.
performance measures as they relate to outcomes.
                                                                Each section of the APR concludes with a “Moving
A table of key performance measures includes actual data
                                                                Forward” piece that describes future action to be taken.
from the last four years, a performance rating for 2008, the
                                                                Actions could include closing performance gaps, de-
fiscal year 2009 target, and a determination of the trends in
                                                                veloping new measures, or drafting new polices and/or
both actual performance and targets. Trends are indicated
                                                                regulations.
by colored arrows, with red indicating an unfavorable
direction, green a favorable direction, black indicating no     A note on cost: Cost is stated as “Performance Cost,” and
change and the “B” for a measure that is being base-lined       represents imputed costs, depreciation, losses, and other
this fiscal year.                                               expenses not requiring budgetary resources. Performance
                                                                Cost was used rather than Net Cost because it more
Results are analyzed for the factors affecting performance
                                                                accurately represents the total cost to achieve a result or
for the entire set of measures associated with the strategic
                                                                outcome. For instance, while the Net Cost to manufacture
objective and its associated outcomes. In some cases, un-
                                                                coins and currency for non-appropriated bureaus such as
derlying causes are not clear, and this is discussed. Because
                                                                the U.S. Mint and the Bureau of Engraving and Printing is
performance is a mixture of both policy and operations,
                                                                zero because they are essentially self-funded, the real cost
it is difficult to assess the contribution of them together
                                                                of operating these organizations is over $2 billion once all
when trying to measure an outcome.
                                                                imputed costs, depreciation, losses and other expenses are
It is generally easier to assess the performance of estab-      included. While performance cost is more than Net Cost,
lished programs than it is policy initiatives. With some        it is less than the Gross Cost reported on the Statement of
exceptions, determining whether or not a policy initiative      Net Cost because it excludes accounts that do contribute
is successful is subject to legislated outcome, success of      to the cost of achieving performance for the agency, such
government-wide implementation and analyst opinion.             as the Exchange Stabilization Fund and the Federal
To overcome this problem, and to better assess policy           Financing Bank. Fiscal year 2008 is the second year that
performance, Treasury is currently developing measures          Treasury has included this information.
that gauge the effectiveness of policy initiatives by their




47                                                                                                                         Introduction
Fiscal Year 2008 Performance and Accountability Report



        Com plete n ess an d R e liab i lity
        of Pe r for mance Data


          Accuracy of Performance                                       As a result, performing this process will uncover any
          Measures                                                      potential data or calculation error and will provide
                                                                        additional assurances on the integrity of the informa-
          Measures are classified for accuracy as follows:              tion and data presented in the annual Performance and
              •	 Reasonable Accuracy: Judged to be sufficiently         Accountability Report.
                 accurate for program management and perfor-
                 mance reporting purposes (specified in Office of
                                                                        Completeness of Data
                 Management & Budget Circular A-11, Section
                 230-4(f ))                                             Not Available: There were no measures in fiscal year 2008
              •	 Questionable or Unknown Accuracy: Judged to                  for which data was not available.
                 be materially inadequate (specified in Office of
                 Management & Budget Circular A-11, Section             Discontinued: The following performance measures were
                 230-4(f ) as “materially inadequate”)                       discontinued in fiscal year 2008 and will not have
                                                                             data available for this Report. Explanations for why
                                                                             these measures were discontinued can be found in
          Procedures for Conducting                                          Appendix E.
          Review of the Department’s
          Performance Measure Data                                       Bureau      Performance Measure
                                                                         BPD         Percentage of Government Agency customer initiated
          The Department of the Treasury’s Office of Strategic                       transactions conducted online
          Planning and Performance Management prepares the               DO          Audit opinion received on government-wide financial
          annual report on performance measures and monitors                         statements
          component-submitted performance information. Based             DO          Number of new Free Trade Agreement (FTA) negotiations and
          on an audit finding in fiscal year 2006, it was determined                 Bilateral Investment Treaties (BIT) negotiations underway or
                                                                                     completed
          that improvements to the internal control process for
                                                                         DO          U.S. real Gross Domestic Product (GDP) growth rate
          performance measures were needed. Improvements to the
                                                                         DO          U.S. unemployment rate
          process included:
                                                                         DO          Management cost per Treasury employee
              •	 All measures are now categorized by audit priority
                                                                         FinCEN      Number of federal and state regulatory agencies with which
                 as high, medium, or low, based on the relationship                  FinCEN has conducted memoranda of understanding/
                 to achieving the Department’s goals                                 information sharing agreements

              •	 A representative sample of measures are selected for    IRS         BSM Project Cost Variance by Release/Subrelease

                 review every fiscal quarter                             IRS         BSM Project Schedule Variance by Release/Subrelease
                                                                         Mint        Cycle Time
              •	 Supporting documentation from that sample is
                 reviewed for accuracy, reliability and completeness     Mint        Order Fulfillment
                                                                         Mint        Total Losses
              •	 All measure calculations are verified, data sources
                 are validated, and comparisons are made to prior        OTS         Difference between the inflation rate and the OTS assessment
                                                                                     rate increase
                 year results
                                                                         Franchise   Customer Satisfaction Index - Financial System, Consulting
              •	 Information related to the measure audit is             Fund        & Training
                 maintained in hard-copy form and can be reviewed        Franchise   Customer Satisfaction Index - Consolidated/Integrated
                 at any time                                             Fund        Administrative Management




Completeness and Reliability of Performance Data                                                                                             48
                                                                                                       Part II — Annual Performance report




Bureau   Performance Measure
                                                                       Baseline: The following measures established baseline
                                                                             values and targets in fiscal year 2008:
TTB      Percentage of voluntary compliance in filing tax payments
         timely and accurately (in terms of number of compliant
         industry members)                                              Bureau    Performance Measure
TTB      Cumulative percentage of excise tax revenue audited over 3     DO        Number of New Trade and Investment Negotiations Underway
         years                                                                    or Completed
TTB      Percentage of COLA approval applications processed within 9    DO        Number of specific new trade actions involving Treasury
         calendar days of receipt                                                 interagency participation in order to enact, implement and
                                                                                  enforce US trade law and international agreements
TTB      Percentage of permit application (original and amended)
         processed by the National Revenue Center within 60 days        DO        Changes that result from project engagement (impact)
TTB      Percentage of total tax receipts collected electronically      DO        Scope and intensity of engagement (traction)
TTB      Percentage of voluntary compliance in filing tax payments      FinCEN    Percentage of customers satisfied with WebCBRS and secure
         timely and accurately (in terms of revenue)                              outreach
TTB      Resources as a percentage of revenue                           FinCEN    Percent of federal and state regulatory agencies with
                                                                                  memoranda of understanding/information sharing
TTB      Unit cost to process an excise tax return                                agreements
TTB      Unit cost to process a Wine Certificate of Label Approval      FinCEN    Percent of FinCEN’s compliance MOU holders finding
                                                                                  FinCEN’s information exchange valuable to improve the BSA
                                                                                  consistency and compliance of the financial system
                                                                        IRS       Percent of BSM projects within +/- cost variance
                                                                        IRS       Percent of BSM projects within +/- schedule variance
                                                                        Mint      Conversion costs per 1,000 coin equivalents (percent
                                                                                  deviation from target)
                                                                        TTB       Amount of revenue collected per program dollar
                                                                        TTB       National Revenue Center customer satisfaction survey
                                                                        TTB       Average number of days to process an original permit
                                                                                  application at the National Revenue Center
                                                                        TTB       Percentage of instances where the utilization of the
                                                                                  International Trade Database System identified importers
                                                                                  without permits as a percentage of total permits on file
                                                                        TTB       Percent of Voluntary Compliance from large taxpayers in filing
                                                                                  tax payments timely and accurately (in terms of revenue)


                                                                       Data Reliability: Performance data presented in this
                                                                             report meets the standards for reliability set forth
                                                                             in Office of Management & Budget Circular A-11,
                                                                             Section 230-5(f). There is neither a refusal nor a
                                                                             marked reluctance by agency managers or govern-
                                                                             ment decision makers to use the data in carrying
                                                                             out their responsibilities.




49                                                                               Completeness and Reliability of Performance Data
Fiscal Year 2008 Performance and Accountability Report




        G u i de to th e An n ual Pe r for mance R e port

          The Department of Treasury Annual Performance Report is organized by strategic goal, objective and outcome.
          Each goal contains the following information:

              •	 Description of the goal

              •	 For each objective associated with the goal:

                     Bureaus and policy offices involved in the achievement of the objective
                     Outcomes
                     Budget and performance cost trends
                     Performance to target
                     Performance cost by outcome
                     A list of program evaluations
                     An indication of the quality of the improvement plan for each program

              •	 For each outcome associated with the objective:

                     A summary performance statement
                     Performance to target
                     A summary of actual performance trends
                     A table of key performance measures
                     Analysis of performance results
                     A moving forward section that describes future actions to address performance shortfalls, improved
                     measurement techniques, and proposed regularity or legislation changes.




Guide to the Annual Performance Report                                                                                    50
                                                                                                                                                                                                  Part II — Annual Performance report



Strateg ic Goal: E ffective ly Manag e d U.S.
Gove r n m e nt Fi nances


             Strategic Objective:
                Cash Resources are Available to Operate the Government

The Treasury Department manages the nation’s finances by                                                                                           •	 Financial Management Service
collecting money due to the United States, making its pay-                                                                                         •	 Internal Revenue Service
ments, managing its borrowing, investing when appropri-
                                                                                                                                                   •	 The Office of Domestic Finance
ate, and performing central accounting functions. Sound
fiscal management enables continual operation of essential                                                              The outcomes associated with this objective are:
government services and allows the Department to meet
                                                                                                                                                   •	 Revenue collected when due through a fair and
its financial obligations while minimizing borrowing costs.                                                                                           uniform application of the law
Accurate projections of the U.S. Government’s cash re-
                                                                                                                                                   •	 Timely and accurate payments at the lowest
quirements ensure that funds are available to cover federal
                                                                                                                                                      possible cost
payments on a daily basis. The ability of the Treasury to
manage the nation’s finances is essential to maintaining the                                                                                       •	 Government financing at the lowest possible cost

stability and integrity of the financial system.                                                                                                      over time
                                                                                                                                                   •	 Effective cash management
The bureaus and policy offices responsible for the achieve-
                                                                                                                                                   •	 Accurate, timely, useful, transparent and accessible
ment of this objective are:
                                                                                                                                                      financial information
                          •	 Alcohol and Tobacco Tax and Trade Bureau

                          •	 Bureau of the Public Debt



                                           Budget Trend by Objective                                                                                                   Performance Cost Trend

                             $13,000,000                                                                                                              $15,000,000
 Dollars (in Thousands)




                                                                                                                         Dollars (in Thousands)




                             $12,000,000                                                                                                              $14,000,000

                             $11,000,000                                                                                                              $13,000,000

                             $10,000,000                                                                                                              $12,000,000
                                            $11,498,755



                                                          $10,759,020



                                                                            $11,699,999



                                                                                           $12,024,656



                                                                                                         $12,642,310




                                                                                                                                                                      $11,910,415



                                                                                                                                                                                    $13,111,129



                                                                                                                                                                                                      $12,979,117



                                                                                                                                                                                                                     $13,354,531



                                                                                                                                                                                                                                            $14,042,171




                              $9,000,000                                                                                                              $11,000,000

                              $8,000,000                                                                                                              $10,000,000
                                           2004           2005            2006            2007           2008                                                         2004          2005             2006           2007                  2008
                                                                        Fiscal Year                                                                                                               Fiscal Year



                                           Cash Resources are Available                                                                                             Performance Cost by Outcome
                                            to Operate the Government

                                                                                                                                                  2.24%
                                                                                                                                                                                                                                   Revenue collected when due
                                                                                                          9% Unmet                                 .64%                                                                            through a fair and uniform
                                                                                                                                                   .04%                                                                            application of the law.


                          63% Exceeded                                                                                                            2.76%                                                                            Timely and accurate payments
                                                                                                                                                                                                                                   at the lowest possible cost.
                                                                                                          23% Met                                                                                                                  Effective cash management.
                                                                                                                                           94.32%
                                                                                                                                                                                                                                   Accurate, timely, useful, transparent
                                                                                                                                                                                                                                   and accessible financial information.

                                                                                                                                                                                                                                   Government financing at the lowest
                                                                                                                                                                                                                                   possible cost over time.
                                                                                                          5% Improved




 51                                                                                               Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




           Program Assessment Rating Tool 2008
                                                                                            Year                                                      Current
           Program                                                            Bureau      Conducted                            Rating            Improvement Plan
           Administering the Public Debt                                       BPD           2003                          Effective                      
           Collections                                                         FMS           2004                          Effective                      
           Debt Collection                                                     FMS           2003                          Effective                      
           Government Wide Accounting & Reporting                              FMS           2006                   Moderately Effective                  
           Payments                                                            FMS           2005                          Effective                      
           Criminal Investigation                                              IRS           2005                   Moderately Effective                  
           Earned Income Tax Credit                                            IRS           2002                         Ineffective                     
           Health Care Tax Credit Administration                               IRS           2006                Results Not Demonstrated                 
           Examination                                                         IRS           2005                   Moderately Effective                  
           Retirement Savings Regulatory Program                               IRS           2006                         Adequate                        
           Submission Processing                                               IRS           2005                   Moderately Effective                  
           Taxpayer Advocate Service                                           IRS           2004                   Moderately Effective                  
           Taxpayer Service                                                    IRS           2004                         Adequate                        
           Tax Collection                                                      IRS           2008                   Moderately Effective                  
           Collect the Revenue Program                                         TTB           2005                          Effective                      
            Click on program name to obtain more information.




          Revenue collected when due
          through a fair and uniform
          application of the law
          Based on the performance results, Treasury was gener-
          ally successful in achieving revenue collected when due
          through a fair and uniform application of the law in fiscal
          year 2008.
                                                                                       Summary of Actual Trends for the Prior Four Years
          Fiscal Year 2008 Results                                                      Trend                                           Symbol      Count     %
                                                                                        Favorable upward trend                                      26       65%
                         Revenue Collected when Due through a
                         Fair and Uniform Application of the Law                        Favorable downward trend                                     1        3%
                                                                                        Unfavorable upward trend                                     3        8%
               62% Exceeded                                     13% Unmet               Unfavorable downward trend                                   5       13%
                                                                                        No change in trend, no effect                                1        3%

                                                                17% Met                 No change in trend, favorable effect                         0        0%
                                                                                        No change in trend, unfavorable effect                       0        0%
                                                                                        Baseline                                           B          4       10%
                                                                8% Improved
                                                                                        Total                                                        40       100%
                                                                                        Discontinued                                                  8




Strategic Objective: Cash Resources are Available to Operate the Government                                                                                   52
                                                                                                                  Part II — Annual Performance report




Key Performance Measure Table
The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                 Percent
                                                                         FY 2008    FY 2008     of Target   Performance   FY 2009   Target   Actual
 Key Performance Measures                                  Bureau         Target     Actual     Achieved       Rating      Target   Trend    Trend
 Percentage collected electronically of total dollar        FMS             79%       80%        101%        Exceeded      80%               
 amount of federal government receipts
 Unit cost to process a federal revenue collection          FMS           $1.30      $1.23*      105%        Exceeded      $1.30             
 transaction
 Amount of delinquent debt collected per $1 spent           FMS          $40.00     $54.82* +    137%        Exceeded     $43.00             

 Amount of delinquent debt collected through all            FMS           $3.40      $4.41+      130%        Exceeded      $3.90             
 available tools ($ billions)
 Percentage of delinquent debt referred to FMS for          FMS             95%       99%        104%        Exceeded      97%               
 collection compared to amount eligible for referral
 Percent of voluntary compliance from large taxpayers        TTB         Baseline     94%        100%          Met         92%        B        B
 in filing tax payments timely and accurately (in terms
 of revenue)
 Customer contacts resolved per Staff year                   IRS          8,000      12,634      158%        Exceeded      9,686             
 Customer Service Representative (CSR) level of              IRS            82%      52.8%        64%         Unmet        77%               
 service
 Examination Quality (LMSB) – Industry                       IRS            88%       88%        100%          Met         88%               
 Percent of business returns processed electronically        IRS         20.8%       19.4%        93%        Improved     22.9%              
 Percent of individual returns processed electronically      IRS         61.8%       57.6%        93%        Improved      64%               
 Field collection embedded quality                           IRS            86%       79%         92%         Unmet        80%               
 Field examination embedded quality                          IRS            87%       86%         99%        Improved      87%               
 Taxpayer self assistance rate                               IRS         51.5%       66.8%       130%        Exceeded     64.2%              
 Refund timeliness - Individual (paper)                      IRS         98.4%       99.1%       101%        Exceeded     98.4%              
 *Indicates estimates for fiscal year 2008 data
 + Data does not include offset collections from the stimulus package



 Legend                                                            Symbol           Analysis of Performance Results
 Favorable upward trend                                                            The table above is a sample of the measures associated
 Favorable downward trend                                                          with the achievement of the revenue collection outcome.
 Unfavorable upward trend                                           
                                                                                    Analysis of fiscal year 2008 performance is based on the
 Unfavorable downward trend                                         
                                                                                    best data available. Based on the full suite of measures
 No change in trend, no effect                                       
                                                                                    relating to this outcome, Treasury exceeded 62 percent
 No change in trend, favorable effect                                
                                                                                    of its targets, met 17 percent, missed 13 percent, and
 No change in trend, unfavorable effect                              
 Baseline                                                            B
                                                                                    improved eight percent. Three measures were not met,
                                                                                    but performance improved over fiscal year 2007. Eight
                                                                                    measures were discontinued in fiscal year 2008.




53                                                     Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          The IRS is the largest contributor to this outcome. In fiscal     increased over 65 percent from fiscal year 2007, total
          year 2008, IRS met or exceeded 75 percent of their 32 per-        telephone demand increased 90 percent (402 million
          formance targets, up from 62 percent in fiscal year 2007.         versus 211 million), and the taxpayer self-assistance rates
          On average, all measures were within 6.5 percent of their         increased 35 percent. The significant increase in customer
          targets for fiscal year 2008. Removing the three measures         contacts stressed existing systems, resulting in a lower
          most affected by the implementation of the stimulus pack-         customer level of service score – 52.8 percent versus a
          age, Customer service representative level of service, Customer   target of 82 percent. Despite these challenges, the IRS
          contacts per staff year, and Taxpayer self assistance rate, the   processed more than 154.3 million individual returns, a
          average difference to target would have been 3.0 percent.         10 percent increase, issued 107.6 million refunds totaling
          These results indicate the IRS is reasonably accurate in          $369 billion (including $94.3 billion through 116.2 million
          setting performance targets, allowing for better assessment       stimulus payments, EITC, and child tax credit refunds),
          of their achievement of program goals.                            and completed 52 million automated calls, a 123 percent
                                                                            increase. These accomplishments were realized while
          The FMS successfully achieved its performance measures
                                                                            maintaining Account and Tax Law Accuracy rates of over
          and generally continues to set aggressive targets. In fiscal
                                                                            90 percent.
          years 2005 and 2006 the FMS missed the target for the
          measure Percentage collected electronically of total dollar       Additional highlights of the filing season include:
          amount of federal government receipts; since then FMS has              •	 Fielded 40.4 million telephone calls, an increase
          worked to promote the use of electronic technologies for                 of 21 percent due to the large number of taxpayer
          revenue collection, successfully exceeding the target by one             inquiries regarding the economic stimulus
          percent this year.
                                                                                 •	 Expanded partnerships with nonprofit and com-
                                                                                   munity organizations, offering almost 12,000 free
          During fiscal year 2008, TTB discontinued five perfor-
                                                                                   tax preparation sites nationwide (volunteers at these
          mance measures and established two new measures. The
                                                                                   sites prepared 3.5 million returns for low-income
          new measures reduce the need for estimation and use up-
                                                                                   and elderly taxpayers, an increase of 33 percent)
          dated assumptions, offering the bureau better indicators to
                                                                                 •	 Expanded return preparation at the IRS Taxpayer
          assess the performance of the Collect the Revenue program.
                                                                                   Assistance Centers, assisting with over 575,000
          The activities associated with Revenue collected when due                returns, a 42 percent increase over last year
          through a fair and uniform application of the law are taxpayer
                                                                            The economic stimulus substantially increased customer
          service, revenue processing, and enforcement.
                                                                            inquiries and filings. Over 347 million visits were made to
                                                                            IRS.gov in 2008, up 61.8 percent over 2007. Specifically,
          Taxpayer Service and Revenue Processing
                                                                            over 39 million taxpayers used the web application Where’s
          Internal Revenue Service                                          My Refund? to check the status of their refunds and over
          The IRS delivered another successful filing season in fiscal      38.7 million taxpayers used the web application, Where’s my
          year 2008. The late enactment of the Alternative Minimum          Stimulus Payment? to check on the status of their payment.
          Tax legislation and the increased workload associated with        IRS processed 13.7 million more paper individual returns
          the implementation of the Economic Stimulus Package               and 4.9 million more electronic returns in 2008 than 2007,
          posed unique challenges. Forms and systems changes and            largely due to filings necessary to qualify for a stimulus
          increased customer service volume coincided with normal           payment. The increase in paper filings reduced the Percent
          preparations associated with delivering the filing season.        of Individual Returns Processed Electronically to 57.6 percent,
                                                                            4.2 percentage points below the target of 61.8 percent.
          In fiscal year 2008, the total revenue collected by the           (Excluding the additional paper filings for stimulus pay-
          IRS was $2.74 trillion. Customer contacts per staff year          ments, the percentage of individual returns filed electroni-




Strategic Objective: Cash Resources are Available to Operate the Government                                                           54
                                                                                              Part II — Annual Performance report




cally was 63 percent.) For fiscal year 2008, Customer Service    Modernized e-File (MeF) provides E-Filing capability
Representative Level of Service was 52.8 percent, roughly 29     for large corporations, small businesses, partnerships, and
percentage points below the target of 82 percent, due to         non-profit organizations. MeF enables taxpayers to file all
high call volumes associated with the stimulus.                  of their tax forms electronically, eliminating the need for
                                                                 the IRS to match paper documents to electronic returns.
Over 4.7 million tax returns were prepared and submitted
                                                                 The system also permits more robust error checking and
through IRS Free File in fiscal year 2008, increasing 23
                                                                 data validation before returns are processed, reducing
percent over the previous year. A recent survey showed 96
                                                                 the number of returns that need manual intervention
percent of those who used the program found it easy to
                                                                 and correction. In fiscal year 2008, 3.2 million corporate,
use, 98 percent said they would recommend Free File, and
                                                                 non-profit, and partnership returns were accepted, a more
95 percent said they would use it again. Business returns
                                                                 than 50 percent increase over the previous year. The fifth
filed electronically reached 19.4 percent, 1.4 percentage
                                                                 release of this program went into production as planned
points below the target of 20.8 percent, and home com-
                                                                 early in 2008, including capabilities to process foreign
puter filing increased to 26.8 million, a 20 percent increase
                                                                 corporate tax returns and Form 990N for small tax-exempt
over 2007. Tax professional use of E-File increased to 61.8
                                                                 organizations.
million returns, up nine percent over last year.
                                                                 The Accounts Management System (AMS) is designed to
To manage costs associated with the Health Care Tax
                                                                 improve system performance by bridging the gap between
Credit, the IRS tracks program correspondence, registra-
                                                                 new initiatives like CADE and existing legacy systems.
tion, and program participation expenditures. For fiscal year
                                                                 Significantly, AMS allows on-demand, real-time access,
2008, the cumulative cost per taxpayer served was $16.94,
                                                                 validation, and update of taxpayer accounts across IRS
up 13.5 percent from $14.93 in fiscal year 2007. The IRS
                                                                 systems.
associates this shortfall to a decrease in the number of
taxpayers eligible for the credit and reduced taxpayer contact   Alcohol and Tobacco Tax and Trade Bureau
associated with better public understanding of the program. 
                                                                 TTB, through its Collect the Revenue program, collects
IRS works to improve service and efficiency through mod-         excise taxes associated with the sale of alcohol, tobacco,
ernization of its computer systems. In fiscal year 2008, the     firearms, and ammunition. In fiscal year 2008, TTB
IRS Business System Modernization Program met cost               collected $14.6 billion in federal taxes from 9,200 excise
and schedule estimates for most releases. Specific systems       taxpayers. For every dollar expended by its program offices,
associated with the modernization include the Customer           TTB collected $313 in revenue. TTB has had relative
Account Data Engine (CADE), Modernized E-File                    success in promoting voluntary compliance from industry
program, and Account Management Services (AMS).                  members through its educational outreach efforts, as
                                                                 evidenced by the 94 percent compliance rate for large
The 2008 CADE release was online before the filing               excise taxpayers in fiscal year 2008.
season and processed 30.6 million returns, a substantial
increase from the 2007 posting of 11.2 million returns. The      TTB targets non-compliant industry members utilizing a
system additionally issued 28.8 million refunds, totaling        risk model developed with data received from audits and
more than $44.1 billion. Compared to the legacy system           investigations, industry member submissions, and intelli-
which updates weekly, CADE settles daily, allowing               gence received from internal and external sources.  In fiscal
refunds to be processed on average five days faster, and         year 2008, TTB completed 179 audits, or 95 percent of its
updates taxpayer account information immediately for             audit plan, collecting $18.3 million in additional tax, pen-
customer service personnel. The daily processing capabili-       alties, and interest. TTB also initiated 285 revenue related
ties of CADE enabled economic stimulus payments to be            investigations, many of which involved small producers,
made to taxpayers ahead of the published schedule.               tobacco importers, and claims verification.




55                                       Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          In fiscal year 2008, TTB processed $287 million in              and businesses to make non-tax payments to 117 federal
          drawback claims. Under current law, producers who use           agencies over the Internet. Since inception in 2005, it has
          non-beverage alcohol in the manufacture of medicines, food      processed approximately 38.5 million transactions valued
          products, flavors, extracts, perfume, or other non-potable      at $135.3 billion. In fiscal year 2008, Pay.gov collected
          products may be eligible to claim drawback of excise taxes      $48.7 billion, versus $37.9 billion collected in fiscal year
          paid on distilled spirits used in their products.  To assess    2007. As one example, TTB expanded its E-Filing pro-
          drawback claims, the TTB Laboratory analyzed 13,572             gram to allow excise taxpayers to file and pay taxes and file
          submitted samples. TTB also analyzes beverage alcohol and       monthly operational reports through Pay.gov; currently 39
          tobacco product samples to assign or verify a tax clas-         percent of TTB’s taxpayers are registered to use the system.
          sification. For this purpose, TTB analyzed 1,339 beverage
                                                                          The PCC OTC program converts paper checks received
          alcohol samples associated with pre-import evaluation, the
                                                                          at federal agency point of sale locations throughout the
          5010 tax credit, and the alcohol beverage sampling program.
                                                                          United States and overseas into electronic transactions
          Another 457 tobacco samples were analyzed to ensure
                                                                          and deposits funds into the Treasury. The PCC OTC
          products were appropriately classified for tax purposes, a 47
                                                                          fully automates the collection, reconciliation, research of
          percent increase over the previous fiscal year.
                                                                          returned checks, and reporting processes associated with
          Financial Management Service                                    federal agencies’ over-the-counter check collections. The
                                                                          program leverages image technology to provide a complete
          The FMS is responsible for managing the federal govern-
                                                                          electronic record of all check images and related financial
          ment’s collection system. In fiscal year 2008, FMS col-
                                                                          data accessible via a web based archive. The PCC OTC
          lected a record $3.195 trillion through a network of more
                                                                          has been implemented with approximately 41 agencies and
          than 9,000 financial institutions, 80 percent of which was
                                                                          collected $11.7 billion during fiscal year 2008.
          collected electronically. FMS exceeded its collections from
          fiscal year 2007 by 2.6 percent. FMS is making significant      ECP is the system developed by the FMS to provide
          progress towards achieving its long-term goal of having         federal agencies with a centralized, secure paper check
          90 percent of the dollar amount of all collections made         clearing process. The process improves availability of funds
          electronically.                                                 to the Treasury and allows improved cash management.
                                                                          ECP collected $15.6 billion during fiscal year 2008.
          The Electronic Federal Tax Payment System (EFTPS) is a
          tax payment system that allows businesses and individuals       In addition to managing these government collection
          to more conveniently make their federal tax payments elec-      systems, FMS is also responsible for the collection of
          tronically, supporting the initiative to increase electronic    delinquent government and child support debt. The Debt
          collections. In fiscal year 2008, more than 97.9 million        Collection program provides centralized debt collection
          tax payments were processed through EFTPS, which                management and operational services to federal program
          represented an 8.7 percent increase over the previous year.     agencies and states as required by the Debt Collection
          Dollar receipts were $2.18 trillion, up 4.3 percent. EFTPS      Improvement Act of 1996 and related legislation. In
          Online, a component of EFTPS, had total collections of          fiscal year 2008, FMS collected a record $59.2 billion
          $439 billion on a volume of 30.6 million transactions,          in delinquent debt, including debt offset by economic
          representing a 24.7 percent increase in dollar collections      stimulus payments, providing $2.83 billion in past due
          and 37.2 percent increase in transaction volume.                child support, $2.29 billion in federal non-tax debt, $378
                                                                          million in state tax offsets, and $400 million in tax levies.
          Several important programs to enhance electronic non-tax
          collections include: Pay.gov, Payment Check Conversion
          Over the Counter (PCC OTC), and Electronic Check
          Processing (ECP). Pay.gov is a system allowing individuals




Strategic Objective: Cash Resources are Available to Operate the Government                                                       56
                                                                                                                                  Part II — Annual Performance report




Enforcement                                                                                               •	 Automated Questionable Refund Program
                                                                                                             processes, producing a 16 percent labor savings and
The IRS’s enforcement activities are intended to encour-
                                                                                                             permitting the consolidation of 10 Fraud Detection
age compliance with tax laws. In fiscal year 2008, the IRS
                                                                                                             Centers into three
collected $56.4 billion through examination and collection
                                                                                                          •	 Collaborated with the SEC to resolve issues associ-
enforcement activities; a decrease from $59.2 billion in
                                                                                                             ated with stock option backdating, resulting in tax
2007. (Much of the decrease can be associated with two
                                                                                                             and penalty assessments of $1.65 billion
large settlements in 2007, which inflated figures for that
year.) From 2002 to 2008, the IRS has increased revenue                                                   •	 Increased Automated UnderReporter (AUR)

from enforcement programs by 65 percent, yielding $56.4                                                      contact closures by almost four percent and dollars
billion in revenue in fiscal year 2008 versus a budget of                                                    collected through the AUR and Information
                                                                                                             Return processing by 22 percent
$10.9 billion. The IRS met or exceeded 78 percent of its
enforcement program targets, due to efforts focusing on                                                   •	 Increased productivity in the AUR notice process

tax evasion by corporations, high income taxpayers, and                                                      facilitating selection of the most productive cases,
other major violators of the tax code. Targeting high-risk                                                   increasing assessments from $5.1 billion to $6.4
                                                                                                             billion
categories has improved efficiency, reduced burdens on
compliant taxpayers, and focused enforcement presence                                                     •	 Enhanced identification and predictability of
where it is most needed.                                                                                     productive assessments in the Correspondence
                                                                                                             Examination Program, contributing to a $1.7
                                       IRS Enforcement Revenue                                               billion increase in assessments
                              $60.0                                                                       •	 Increased high-income taxpayer audits by 16
                              $50.0                                                                          percent and small business audits by three percent
   Dollars (in Billions)




                              $40.0                                                                       •	 Audited over 13,000 large corporations with assets
                              $30.0                                                                          greater than $10 million for the fourth consecutive
                              $20.0                                                                          year
                                      $34.1


                                              $37.6


                                                      $43.1


                                                                  $47.3


                                                                            $48.7


                                                                                     $59.2


                                                                                             $56.4




                              $10.0
                                                                                                          •	 Increased collection case closures by 1.4 percent
                               $0.0
                                      2002    2003    2004       2005     2006      2007     2008
                                                              Fiscal Year                             The IRS continued to vigorously investigate egregious
                                                                                                      tax, money laundering, and other financial crimes which
                                                                                                      adversely affect tax administration. Improved case develop-
In fiscal year 2008, the IRS enhanced analytical capabilities                                         ment and selection methods, coupled with heightened
in critical programs and implemented systems targeting                                                fraud awareness resulted in the successful prosecution of
high-risk cases. As a result, in fiscal year 2008, the IRS                                            taxpayers involved in significant abusive tax schemes, high-
made improvements over fiscal year 2007 across a range of                                             income non-filers, employment tax evasion cases, and other
program areas. A small sample of these improvements                                                   flagrant forms of tax evasion. Using its unique statutory
include:                                                                                              jurisdiction and financial expertise, the IRS made signifi-
                                                                                                      cant contributions to important national law enforcement
              •	 Identified more than 337,000 potentially fraudulent
                           returns and stopped more than $1.5 billion in                              priorities. Highlights for the criminal investigation
                           fraudulent claims                                                          program include completing 4,044 criminal investigations,
                                                                                                      achieving a conviction rate of 92.3 percent, maintaining a
              •	 Implemented an Industry Issue Focus process that
                                                                                                      Department of Justice acceptance rate of 93.6 percent, and
                           places compliance issues into three tiers, identify-
                           ing $10.1 billion in additional taxable income not                         obtaining 2,144 convictions.
                           previously reported




57                                                                                  Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          In 2006, IRS revised its quality systems for examination       organizations participated in a settlement resulting in
          and collections. The new system imposed stricter standards     assessments of $14.6 million in tax and penalties. However,
          and increased the number of factors used in the evaluation     there are approximately 2,500 noncompliant taxpayers who
          process. Though embedded quality targets were not met in       did not elect to participate in the settlement initiative and
          fiscal year 2008, quality scores for both examination and      are subject to further enforcement activity by the IRS.
          collection were on average within 96 percent of target.
                                                                         The number of returns filed with the IRS with interna-
          For fiscal year 2008, the score for the measure the Field
                                                                         tional tax issues is increasing dramatically each year, as is
          Collection Embedded Quality was 79 percent; seven percent-
                                                                         the complexity of the issues encountered on these returns.
          age points below the target of 86 percent. Efforts to reduce
                                                                         Actions taken in fiscal year 2008 to address international
          the number of aged cases in the quality inventory, coupled
                                                                         tax issues include:
          with the overall lower quality of the older cases, affected
          the cumulative score. For the measure Field Examination            •	 Improved alignment of resources to address
          Embedded Quality, the score was 86 percent, missing the               international challenges
          target by one percentage point. Action plans have been             •	 Issued guidance to address offshore and cross-
          developed to update communication on quality issues and               border compliance risks and expand relationships
          area “case quality improvement teams,” comprised of field             and collaboration with foreign tax administrators
          managers and quality staff, have been formed to identify           •	 Expanded the Joint International Tax Shelter
          improvement opportunities. Improvements to job aids,                  Information Centre, created by the IRS and the
          continuation of quarterly reviews and an annual Quality               tax agencies of Britain, Canada, and Australia to
          Summit focusing on specific quality attributes in need of             identify and curb abusive cross-border transactions
          improvement will continue to focus bureau attention on                and schemes, with the addition of the Japanese
          examination.                                                          National Tax Agency
                                                                             •	 Opened a second tax office in London, England
          International tax enforcement
                                                                             •	 Reached an agreement, in conjunction with the
          Abusive tax avoidance transactions can appear on many                 Department of State, to open a tax office at the U.S.
          types of tax returns and range from complex, structured               Embassy in Beijing, China in early fiscal year 2009
          corporate transactions that utilize multiple entities, to
          individual scams and schemes.  The use of offshore entities    Tax-exempt entity compliance with tax
          and accounts is also common and the organized promo-           statutes
          tion of tax shelters makes them available to all types of      The IRS also faced ongoing challenges in assisting tax-
          taxpayers.  The variety, size, and nature of tax shelters      exempt and government entities in complying with the
          require an organized approach to detection, deterrence,        complicated rules for maintaining special tax status. The
          and enforcement so that abusive transactions can be iden-      IRS continues to ensure that charitable organizations are
          tified and stopped.                                            not used for non-charitable or illegal purposes, including
                                                                         financing terrorist activities. In fiscal year 2008, the IRS
          The IRS continues to ensure taxpayers employed overseas
                                                                         took the following actions:
          comply with the tax laws and works with other countries
          to negotiate tax treaties. A recent compliance check of lo-        •	 Launched an e-Postcard (Form 990N) for small
                                                                                tax-exempt organizations to electronically file an
          cally hired employees of foreign embassies, consulates, and
                                                                                annual information notice; approximately 170,000
          international organizations found some may not have been
                                                                                e-postcards were filed in fiscal year 2008
          properly reporting their income or were claiming incorrect
          deductions or credits related to that income. As a result,         •	 Redesigned the form used by tax-exempt entities to

          2,100 individuals from 134 countries and international                report information about their operations




Strategic Objective: Cash Resources are Available to Operate the Government                                                       58
                                                                                                Part II — Annual Performance report




     •	 Developed a pre-screening process to identify             strategic plan in fiscal year 2009, it is considering changes
       employee plan applications that have deficiencies, so      to performance measures to obtain a more balanced view
       taxpayers can correct items in a more timely fashion       of the organization, focusing on the areas of voluntary
     •	 Increased small employer awareness of Pension             compliance, customer satisfaction, taxpayer perception,
       Plan Correction Programs through new “fix-it”              enforcement, modernization, and employee engagement.
       guides and educational workshops
                                                                  The FMS exceeded 100 percent of its targets for fiscal year
Conclusion                                                        2008. Eighty-three percent of targets showed a positive
                                                                  trend, suggesting target setting was reasonable. However,
The Treasury Department, through its bureaus FMS,
                                                                  three measures — Amount of delinquent debt collected per $1
IRS, and TTB, was reasonably successful in achieving
                                                                  spent, Amount of delinquent debt collected through all available
the outcome Revenue collected when due through a fair
                                                                  tools, and Dollar amount of collections transacted through Pay.
and uniform application of the law. Late enactment of
                                                                  gov, a government-wide collections portal — were over 20
Alternative Minimum Tax legislation and implementation
                                                                  percent higher than target. With these three measures
of the economic stimulus payment package necessitated
                                                                  excluded, measure results for this outcome were within 3.5
realignment of IRS and FMS resources to meet resulting
                                                                  percent of target.
demands.
                                                                  In fiscal year 2008, TTB discontinued several measures
In fiscal year 2008, 79 percent of the targets were met or
                                                                  and replaced them with new measures that more accurately
exceeded. Reasonably aggressive targets for 2009 have
                                                                  track performance outcomes. These new measures that will
been set by all three bureaus: 67 percent of fiscal year 2009
                                                                  provide greater clarity on bureau operations and permit
targets are set to increase. Twelve percent of the targets
                                                                  greater insight into management effectiveness, when there
are flat; two of these did not meet their targets this year,
                                                                  is sufficient data to review.
indicating that it is not appropriate to set a higher target in
2009 until current levels can be achieved.
                                                                  Moving Forward
Despite missing some key performance targets for 2008,            FMS is implementing a comprehensive effort to stream-
particularly those for Customer Service Representative Level      line and modernize the processes and systems supporting
of Service, Examination Coverage – Business Corporations          Treasury’s collections and cash management programs.
> $10 Million, and Field Collection Embedded Quality, the         This effort will reduce the complexity of FMS’s collec-
IRS generally met or exceeded their performance targets.          tions program and improve the ability of FMS and other
In some cases measure targets were significantly exceeded,        agencies to manage financial performance. FMS will
such as Customer Contacts per Staff Year and Taxpayer             reduce program complexity by eliminating redundant
Self Assistance Rate, due largely to implementation of the        processes and systems and improve financial performance
stimulus package. On the whole, the IRS maintains a fairly        by consolidating information on revenue collections. One
effective planning and performance management process.            example of this effort is the Transaction Reporting System
Performance results for 2008 were on average within 3.0           (TRS). Currently, FMS’s collection programs report
percent of program target, if the three measures Customer         information externally to many federal program agencies
Service Representative Level of Service, Customer Contacts        and internally to multiple Treasury Department systems.
per Staff Year, and Taxpayer Self Assistance Rate affected by     This use of multiple systems makes it difficult for agen-
the stimulus are excluded. (With these measures included          cies and Treasury to obtain all the financial information
the average difference to target was 6.7 percent.) Overall,       they need in timely fashion. TRS will change this model
the IRS exceeded 59 percent, met 16 percent, missed               by serving as a single portal for reporting and retrieving
16 percent, and improved in nine percent of measures.             information on revenue collections. This single access
(Two measures were discontinued.) As the IRS revises its          point will substantially reduce redundancies in the federal




59                                        Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          government’s collections reporting processes and facilitate      tobacco collections related to public policy surrounding
          information sharing.                                             tobacco products.

          As part of their strategic planning process, which is still      In fiscal year 2009, the IRS faces a variety of chal-
          underway, FMS is developing long-term strategic goals            lenges; the most significant include legislative changes,
          and measures supporting major FMS missions with a                the prevalence and complexity of abusive tax avoidance
          target date of 2018. Two of those measures correspond to         transactions, and an increase in international tax activi-
          the Treasury outcome Revenue collected when due through a        ties. In general, tax law changes have significant impact
          fair and uniform application of the law. Long-term targets       on the IRS, affecting the scope and effectiveness of its
          for these measures are as follows: 90 percent of the dollar      service, the cost to deliver service, and how taxpayers
          amount of all collections to be made electronically, and         perceive the service provided. The IRS continues to find
          $8 billion dollars to be collected annually from delinquent      ways to effectively administer tax law changes in ways that
          debt referrals.                                                  minimize complexity, burden on taxpayers, and the cost of
                                                                           administering the tax code. The IRS expects the percentage
          In addition to these initiatives, the FMS will continue
                                                                           of business filers to increase in the future due to increased
          to work with federal agencies on an automated system
                                                                           marketing and expanded business E-File programs,
          eliminating the paper checks and deposit ticket used by
                                                                           including the acceptance of new forms and schedules. The
          federal agencies in over-the-counter transactions, primarily
                                                                           IRS will continue to pursue additional mandates for all
          through conversion to electronic transactions.
                                                                           businesses to file electronically, similar to the one in place
          In fiscal year 2009, TTB expects modest improvements in          for large corporations.  
          the 94 percent voluntary compliance rate for large taxpayers,
                                                                           As the flow of trade and capital moves more easily across
          due to the large number of newly permitted taxpayers in
                                                                           borders, the global marketplace is continually expanding.
          2008 and current widespread taxpayer use of Pay.gov. Going
                                                                           Abusive tax avoidance transactions present formidable
          forward, efforts to promote voluntary compliance will focus
                                                                           compliance challenges for IRS. Corporate tax planning is
          on educational programs, such as the TTB Expo 2009,
                                                                           increasingly focused on minimizing the worldwide effec-
          permitting staff to provide advanced instruction on report-
                                                                           tive tax rate and organized promotion of shelters is making
          ing and payment of excise taxes to broad groups of users.
                                                                           them available to all types of taxpayers. The variety, size
          To improve efficiency, TTB is also exploring options to          and nature of these shelters require an organized approach
          develop an automated permit application system, reducing         to detection, deterrence and enforcement to mini-
          the processing and turnaround time for permits. TTB has          mize abuse. IRS is working to ensure tax preparers receive
          also developed an aggressive annual audit plan that incor-       appropriate advice and counsel to fulfill their responsibili-
          porates a new risk model to take effect in fiscal year 2009.     ties associated with international tax management.
          This risk model will be reviewed and updated annually to
          reduce costs. In fiscal year 2008, TTB found unpaid tax
          liabilities resulting from the industry’s misuse of alcohol as
          fuel and unsupported exports. By continuing to focus on
          these areas, TTB can potentially detect and collect millions
          in additional tax revenue. In fiscal year 2009, TTB expects
          a slight decline in revenues, largely due to the erosion of




Strategic Objective: Cash Resources are Available to Operate the Government                                                         60
                                                                 Part II — Annual Performance report




                       Timely and accurate payments
                       at the lowest possible cost
                       Based on the performance results, Treasury was suc-
                       cessful in achieving timely and accurate payments at the
                       lowest possible cost in fiscal year 2008.

                       Fiscal Year 2008 Results

                                              Timely and Accurate Payments
                                                at the Lowest Possible Cost




                             50% Exceeded                                      50% Met




                       Summary of Actual Trends for the Prior Four Years
                        Trend                                         Symbol   Count     %
                        Favorable upward trend                                 2        50%
                        Favorable downward trend                               0         0%
                        Unfavorable upward trend                               1        25%
                        Unfavorable downward trend                             0         0%
                        No change in trend, no effect                          1        25%
                        No change in trend, favorable effect                   0         0%
                        No change in trend, unfavorable effect                 0         0%
                        Baseline                                        B       0         0%
                        Total                                                   4        100%
                        Discontinued                                            1




61   Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          Key Performance Measure Table
          The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
          sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                      Percent
                                                                                FY 2008    FY 2008   of Target   Performance   FY 2009   Target   Actual
           Key Performance Measures                                  Bureau      Target     Actual   Achieved       Rating      Target   Trend    Trend
           Percentage of paper check and electronic funds transfer    FMS        100%       100%      100%          Met         100%              
           (EFT) payments made accurately and on-time
           Percentage of Treasury payments and associated             FMS        79%         79%      100%          Met         80%               
           information made electronically
           Unit cost for federal government payments                  FMS        $0.40      $0.39*    103%        Exceeded      $0.40             

           * Indicates estimates for fiscal year 2008 data



           Legend                                                      Symbol             beneficiaries, and disabled veterans or their survivors. FMS
           Favorable upward trend                                                        was responsible for disbursement of these payments, in
           Favorable downward trend                                                      addition to their standard responsibilities. As of October
           Unfavorable upward trend                                                      3, 2008, FMS had issued a total of 116.2 million economic
           Unfavorable downward trend                                                    stimulus payments valued at $94 billion. Over 42 million
           No change in trend, no effect                                                 payments were issued by direct deposit, with the remaining
           No change in trend, favorable effect                          
                                                                                          74.1 million issued by paper check. As part of managing
           No change in trend, unfavorable effect                        
                                                                                          disbursement, FMS offset 2.8 million stimulus payments
           Baseline                                                         B
                                                                                          for delinquent non-tax, state tax, and child support debts
                                                                                          valued at $1.5 billion.
          Analysis of Performance Results                                                 Over the past several years, FMS has steadily processed
          In fiscal year 2008, Treasury exceeded targets for 50 per-                      fewer paper checks and processed more electronic pay-
          cent of its measures and met 50 percent for this outcome.                       ments. (Please see the accompanying charts.) The FMS
          One measure was discontinued in fiscal year 2008.                               nationwide campaign Go Direct is entering its fourth year.
                                                                                          This campaign encourages current federal benefit check
          The third long-term goal for FMS is to have 90 percent
                                                                                          recipients to switch to direct deposit. Go Direct recently
          of all payments made electronically by 2018. During fiscal
                                                                                          concluded an extremely successful third year, in which
          year 2008, FMS continued to work towards this goal by
                                                                                          901,054 conversions were attributed to the campaign.
          expanding and marketing the use of electronic media
                                                                                          The current number of total conversions obtained since
          to deliver federal payments, improve service to payment
                                                                                          the inception of the campaign is over 2.2 million, cut-
          recipients, and reduce government program costs. This
                                                                                          ting costs by $184.7 million. In April 2008, the FMS
          helped decrease the number of paper checks issued, the re-
                                                                                          implemented Direct Express, providing an electronic
          issuance of lost, stolen or misplaced checks, and minimize
                                                                                          payment option for federal check recipients who do not
          costs associated with postage.
                                                                                          have bank accounts. The FMS worked closely with the
          On February 13, 2008 President Bush signed into law                             Social Security Administration and other organizations
          the Economic Stimulus Act of 2008 providing stimulus                            to develop and implement the program. To date, over
          payments to United States taxpayers, Social Security                            110,000, enrollments have been processed.




Strategic Objective: Cash Resources are Available to Operate the Government                                                                         62
                                                                                                                                                            Part II — Annual Performance report




                                                                                                                                federal program agencies. In addition to standardization,
                                    Number of Check Payments
                                                                                                                                FMS is modernizing the technologies employed in the
                      250,000,000                                                                                               development of the system, using commercial software
                                                                                                                                products where feasible. The project incorporates new and
 Number of Payments




                      200,000,000

                      150,000,000
                                                                                                                                enhanced functionality to support improvements in the
                                                                                                                                payment process.
                      100,000,000




                                                                            214,827,530




                                                                                                205,604,000
                                      227,641,756




                                                    219,053,590

                      50,000,0000                                                                                               Several factors affected the cost to make federal govern-
                               0                                                                                                ment payments over the past few years, including inflation,
                                     2005           2006                   2007                2008
                                                            Fiscal Year                                                         infrastructure spending, cost associated with initiatives
                                                                                                                                performed within the Government-wide Accounting
                               Number of Electronic Payments*                                                                   program, and the change in FMS’s cost allocation method-
                                                                                                                                ologies. Due to the inflation factor, the cost of consumables
                      800,000,000
                                                                                                                                has increased in recent years. For example, the check stock
 Number of Payments




                      750,000,000
                                                                                                                                cost increased by $4.9 million and postage costs have
                      700,000,000
                                                                                                                                increased by $2.5 million in fiscal year 2007.
                      650,000,000
                                                                                                793,832,000
                                      724,996,095




                                                    744,980,007




                                                                            767,126,921




                      600,000,000
                                                                                                                                The Unit cost for federal government payments measure
                      550,000,000
                                                                                                                                includes electronic payment, check payment, and other
                      500,000,000
                                     2005           2006                   2007                2008                             special payment mechanisms as well as the processes of
                                                                  Fiscal Year
                                                                                            * Not including stimulus payments   reconciliation and claims. For fiscal year 2008 the actual
                                                                                                                                was $0.387, slightly below the previous year’s figure of
In fiscal year 2008, the FMS continued to make consider-                                                                        $0.392. Various programs to promote electronic payments
able efforts to incorporate new payment technologies.                                                                           and increase system efficiency were largely responsible for
Issuance of a Stored Value Card (SVC), similar to a credit or                                                                   the reduction. FMS generally sets targets in line with infla-
debit card, which uses an encrypted computer chip to pro-                                                                       tion estimates and expected conversion rates from paper to
cess “electronic money” stored on the card, has reduced the                                                                     electronic payments.
amount of U.S. currency transported, circulated, and man-
                                                                                                                                The FMS continues its efforts to expand the use of elec-
aged at military facilities throughout the world. For the
                                                                                                                                tronic payments and decrease check payment volume. In
organizations responsible for providing cash management
                                                                                                                                some cases, investments in electronic payments systems or
functions at these locations, the SVC program improves
                                                                                                                                events of the year, such as the wars in Iraq and Afghanistan
financial accountability and reduces risk and workload. For
                                                                                                                                or natural disasters, can increase costs. In fiscal year
those serving in the United States Armed Forces, the SVC
                                                                                                                                2008, the expansion of the SVC program in Afghanistan
program offers increased financial flexibility, security, and
                                                                                                                                and Iraq, supporting the military bases and ships at sea,
convenience. Since it was introduced in 1997, over 12.4
                                                                                                                                increased short-term costs as systems were put in place.
million electronic fund transfer transactions with a dollar
                                                                                                                                While the program saves the government money in the
value in excess of $2 billion were processed through the
                                                                                                                                long run by eliminating coin, currency, money orders,
SVC program.
                                                                                                                                and other labor-intensive payment mechanisms; initial
The Payments Modernization (PAM) project is an effort                                                                           necessary investments in infrastructure, such as setting up
to replace the current software applications that are used to                                                                   kiosks, can cause costs to increase.
disburse some $1.5 trillion in payments. Ultimately, PAM
will be a single application that will generate check, wire
transfer, and Automated Clearing House payments for




63                                                                                        Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          Conclusion                                                      Government financing at the
          In general Treasury, through the FMS, successfully              lowest possible cost over time
          achieved timely and accurate payments at the lowest pos-
                                                                          Based on the performance results, Treasury was successful
          sible cost, based on current measures and targets. However,
                                                                          in achieving or exceeding government financing at the
          the unit cost for federal government payments has been
                                                                          lowest possible cost over time in fiscal year 2008.
          increasing since fiscal year 2005. As the acceptance of elec-
          tronic payments continues to expand, increased efficiency       Fiscal Year 2008 Results
          should result in cost reductions. While cost measures
                                                                                                 Government Financing at the
          provide some view of operations, adding measures for cycle                            Lowest Possible Cost Over Time
          time and quality management would provide additional
          information regarding Treasury’s ability to achieve this
          outcome.
                                                                                86% Exceeded                                     14% Met

          Moving Forward
          FMS will continue its efforts to have 90 percent of all pay-
          ments made electronically by 2018. In fiscal year 2009 the
          FMS will expand and market the use of electronic media
          to deliver federal payments, improve service to payment         Summary of Actual Trends for the Prior Four Years
          recipients, and reduce government program costs. This
                                                                           Trend                                    Symbol       Count     %
          will help decrease the number of paper checks issued and
                                                                           Favorable upward trend                                2        29%
          minimize costs associated with postage, the re-issuance of
                                                                           Favorable downward trend                              2        29%
          lost, stolen and misplaced checks, and inefficiencies associ-
                                                                           Unfavorable upward trend                              2        29%
          ated with the non-electronic delivery of benefits. FMS will      Unfavorable downward trend                            0         0%
          continue to implement the successful GoDirect campaign           No change in trend, no effect                         0         0%
          to expand and market the use of electronic media to deliver      No change in trend, favorable effect                  1        14%
          federal payments, improve service to payment recipients,         No change in trend, unfavorable effect                0         0%
          and reduce government program costs.                             Baseline                                   B           0         0%
                                                                           Total                                                  7        100%
          FMS plans to continue to issue 100 percent of payments           Discontinued                                           1
          accurately and on-time. The Secure Payment System used
          by program agencies to certify checks, clearinghouses, or
          wire payments to recipients in a secure environment is
          critical for achieving performance goals.




Strategic Objective: Cash Resources are Available to Operate the Government                                                                64
                                                                                                                 Part II — Annual Performance report




Key Performance Measure Table
The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                            FY 2008     FY 2008      Percent of Target   Performance   FY 2009    Target   Actual
 Key Performance Measures                          Bureau    Target      Actual          Achieved           Rating      Target    Trend    Trend
 Cost per debt financing operation                  BPD     $263,306    $237,636*         110%            Exceeded     $275,610            
 Cost per federal funds investment transaction      BPD      $75.55      $57.81*          123%            Exceeded      $69.11             
 Percent of auction results released in two         BPD       95%         100%            105%            Exceeded       95%               
 minutes +/- 30 seconds
 Cost per TreasuryDirect assisted transaction       BPD      $9.25       $7.23*           122%            Exceeded      $9.34              
 Cost per TreasuryDirect online transaction         BPD      $4.34       $3.76*           113%            Exceeded      $4.34              
 Percentage of retail customer service              BPD       90%        99.86%           111%            Exceeded       90%               
 transactions completed within 12 business
 days
 * Indicates estimates for fiscal year 2008 data



 Legend                                                        Symbol             successfully held over 125 announcements and auctions.
 Favorable upward trend                                                          This new system, created by BPD in conjunction with the
 Favorable downward trend                                                        primary dealer community and the Federal Reserve Bank
 Unfavorable upward trend                                                        of New York, offers the Treasury Department a secure and
 Unfavorable downward trend                                                      robust auction system. The contingency capabilities and
 No change in trend, no effect                                                   flexibility of the system substantially exceed the previous
 No change in trend, favorable effect                                            system. Also in April 2008, the Department reduced
 No change in trend, unfavorable effect                          
                                                                                  the minimum bid at Treasury auctions from $1000 to
 Baseline                                                        B
                                                                                  $100, broadening the potential universe of investors in
                                                                                  Treasury markets and increasing access to retail inves-
                                                                                  tors. Additionally, in June 2008, the Office of Debt
Analysis of Performance Results
                                                                                  Management successfully resumed the issuance of the
Treasury exceeded the target for 86 percent of its measures
                                                                                  52-week Treasury bill on a monthly basis.
and met 14 percent of measures relating to this outcome.
One measure was discontinued.                                                     Conclusion
In order to cost-effectively finance the government,                              In fiscal year 2008 Treasury successfully met or exceeded
Treasury must efficiently execute its securities auctions. By                     the targets that were established to demonstrate the
minimizing the time that bidders are exposed to the risk of                       achievement of financing the government at the lowest
adverse market movements, participants are likely to bid at                       possible cost over time; however the costs associated
more favorable rates and yields to the federal government.                        with this outcome continue to increase. TreasuryDirect’s
The BPD consistently releases securities auction results                          costs and the costs associated with debt financing opera-
within two minutes, plus or minus 30 seconds, of the                              tions have risen since 2006. The primary sources of these
auction close.                                                                    increases are volume sensitivity to movement in market
                                                                                  rates, implementation of new auction systems, and infla-
Several important government financing initiatives were                           tion. While cost measures provide some view of operations,
accomplished in 2008. In April 2008, the Department                               adding measures for cycle time and quality management
launched a new Treasury auction system and has since




65                                                  Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          would provide additional information regarding Treasury’s                                                      BPD will continue to enhance the system through security
          ability to achieve this outcome.                                                                               upgrades and new registration options for trust, estate, and
                                                                                                                         organizational accounts.
          Moving Forward
                                                                                                                         Treasury still needs to develop an improved measure for
          It is essential that BPD maintain comprehensive contin-
                                                                                                                         evaluating Treasury’s progress in minimizing the cost of
          gency plans and strong security controls to manage gov-
                                                                                                                         financing the government over time.
          ernment borrowing activities. In the Wholesale Securities
          Services area, BPD is working with primary dealers to
          ensure that at least 90 percent of dealers can participate in                                                  Effective cash management
          Treasury auctions from contingency locations by fiscal year
          2012. Operational testing of these contingency plans will                                                      Based on the performance results, Treasury was successful
          ensure the overall readiness of the system and ensure the                                                      in achieving effective cash management in fiscal year 2008.
          continuity of the Treasury auction process. BPD will con-
                                                                                                                         Fiscal Year 2008 Results
          tinue to look for additional ways to improve its operations.
                                                                                                                                               Effective Cash Management
                  Paper Savings Bonds Converted to TreasuryDirect*

                                          800
             Conversions (in Thousands)




                                          700                                                                                                                               100% Exceeded
                                          600
                                          500
                                          400
                                          300
                                          200
                                                190.3




                                                        464.0




                                                                         686.8




                                                                                            532.8




                                          100
                                            0
                                                2005    2006         2007                  2008
                                                           Fiscal Year
                                                                                                                         Summary of Actual Trends for the Prior Four Years
                                                                                 * Conversions began on March 22, 2005




             TreasuryDirect Primary Accounts Established to Date                                                          Trend                                    Symbol   Count       %
                                                                                                                          Favorable upward trend                            0              0%
                                          800
                                                                                                                          Favorable downward trend                          1         100%
                                          700
             Accounts (in Thousands)




                                          600                                                                             Unfavorable upward trend                          0              0%
                                          500                                                                             Unfavorable downward trend                        0              0%
                                          400
                                                                                                                          No change in trend, no effect                     0              0%
                                          300
                                                                                                                          No change in trend, favorable effect              0              0%
                                          200
                                                354.3




                                                        543.0




                                                                         610.4




                                                                                            685.8




                                          100                                                                             No change in trend, unfavorable effect            0              0%
                                            0
                                                2005    2006         2007                  2008
                                                                                                                          Baseline                                   B       0              0%
                                                                                                                          Total                                              1         100%
                                                           Fiscal Year
                                                                                                                          Discontinued                                       0


          Although a date has not been set for the withdrawal
          of paper bonds from sale, BPD is working to issue all
          Treasury securities electronically. For retail securities, BPD
          is encouraging investors to utilize the TreasuryDirect
          system. The primary challenge in this effort is communi-
          cating to customers the benefits of purchasing securities
          and managing their holdings online in TreasuryDirect.




Strategic Objective: Cash Resources are Available to Operate the Government                                                                                                            66
                                                                                                            Part II — Annual Performance report




Key Performance Measure Table
The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                         Percent
                                                                  FY 2008   FY 2008     of Target   Performance         FY 2009      Target     Actual
 Key Performance Measures                            Bureau        Target    Actual     Achieved       Rating            Target      Trend      Trend
 Variance between estimated and actual receipts        DO            5%      4.6%        108%         Exceeded            5%                     
 (annual forecast)


 Legend                                                     Symbol          percent in the TIO program, and six percent in the Repo
 Favorable upward trend                                                    program. The following table highlights a comparison
 Favorable downward trend                                                  against previous years:
 Unfavorable upward trend                                     
 Unfavorable downward trend                                                  Treasury’s Cash Balance FY 2005–2008
 No change in trend, no effect                                               % Net Investable Balance
 No change in trend, favorable effect                                                                                                           Net
 No change in trend, unfavorable effect                                                                                                      Invested
 Baseline                                                     B                                     TT&L          TIO             Repo         Funds
                                                                              FY 2005               38%          62%              0%           100%
                                                                              FY 2006               34%          60%              6%           100%
Analysis of Performance Results
                                                                              FY 2007               23%          68%              9%           100%
The Department of the Treasury manages the govern-
                                                                              FY 2008               23%          71%              6%           100%
ment’s central operating account and cash position,
supporting gross annual transactions totaling $15 trillion.
                                                                            Treasury earned $603 million in interest on funds invested
The Department’s Office of Fiscal Projections provides
                                                                            through TT&L, TIO, and Repo in fiscal year 2008, com-
forecasts of federal receipts, outlays, and debt transactions
                                                                            pared to $1,171 million in fiscal year 2007. The decrease in
to ensure that funds are available on a daily basis to cover
                                                                            earnings is primarily a result of two factors, a 25 percent
federal payments. By increasing the accuracy of fiscal
                                                                            decrease in the average investment balances between fiscal
projections, the Department is able to maximize earnings
                                                                            year 2007 ($24.0 billion) and fiscal year 2008 ($17.8 bil-
on investments of operating cash and minimize borrowing
                                                                            lion); and a 44 percent reduction in the Federal Funds rate
costs, having a direct and material impact on the govern-
                                                                            between fiscal year 2007 (5.2 percent) and fiscal year 2008
ment’s net operating cost.
                                                                            (2.9 percent).
Treasury invests its excess cash, or cash in excess of
                                                                            Treasury’s rate of return on cash investments is generally
Treasury’s Federal Reserve account balance, through three
                                                                            measured against the TT&L rate, which is equal to the
primary mechanisms:
                                                                            Federal Funds rate less 25 basis points. In fiscal year 2008,
      •	 The legacy Treasury Tax and Loan (TT&L)
                                                                            Treasury’s average rate of return on funds invested through
            program
                                                                            the TT&L, TIO, and Repo programs was the TT&L rate
      •	 The Term Investment Option (TIO) program                           plus 17 basis points (or the average effective Federal Funds
      •	 The Treasury Reverse Repurchase Agreement                          rate less 8 basis points). This was an improvement of 47
            (Repo) program                                                  percent over fiscal year 2007, when Treasury earned an
                                                                            average of 11 basis points above the TT&L rate.
During fiscal year 2008, Treasury invested 23 percent of
net investable funds in the legacy TT&L program, 71




67                                                Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          To analyze the effectiveness of the cash management tech-       The current financial climate is causing consideration of
          niques employed, the Department measures the variance           new variables and factors in establishing investment mix.
          between actual and projected receipts. The Office of Fiscal     Shortage of capacity in one or more of the investment
          Projections successfully exceeded its target despite several    tools is a result of banks either not having an interest in
          unique events that introduced uncertainty into forecasting      holding Treasury funds at expected rates or not having
          models, including the economic stimulus package, stress in      collateral acceptable to Treasury to pledge in support of
          global credit markets, restructuring of the Federal Reserve’s   investments received. A lack of investment capacity in
          balance sheet, and a spike in deposit insurance outlays, in     one of the tools removes that tool from the mix, forcing
          addition to the broader economic slowdown impacting tax         consideration of other investment alternatives. A further
          receipts. In fiscal year 2008 the revenue forecast was 4.6      consideration is that the Federal Reserve recently began
          percent, better than the target of five percent, but failing    paying interest on bank reserves that financial institutions
          to improve over the previous year’s 2.1 percent. Actual         keep on deposit in the Federal Reserve System. This is
          receipts were below forecasted levels due to a reduction in     now an implicit cost that Treasury must consider when
          tax payments made by individuals coupled with a lower           determining its daily investment strategy.
          than anticipated Unemployment Trust Fund Deposit made
          by states, which may relate to the current weak employ-         Conclusion
          ment reports. Additionally, Federal Reserve Bank earnings       Effective management of daily cash position and
          also came in lower than forecasted.                             minimizing borrowing costs over time is essential to
                                                                          ensure that government activities and services continue
          In fiscal year 2008, the Department’s Office of the Fiscal
                                                                          uninterrupted. Based on the one measure and informa-
          Assistant Secretary introduced new policies to improve
                                                                          tion provided, Treasury is successfully achieving this
          the management of investment derived from Treasury’s
                                                                          outcome. However, one measure is an insufficient indica-
          term investments with commercial financial institutions.
                                                                          tor of the Department’s success or failure in this area.
          The rules for establishing the term investment offering
                                                                          The Department will need to consider development of
          amounts, interest rates, and counterparty limits were
                                                                          additional measures that provide a more comprehensive
          revised, resulting in additional earnings on operating cash
                                                                          assessment of Treasury’s cash management operations.
          balances of $36.8 million. Furthermore, the Department
          expanded its repurchase agreement investment program,
                                                                          Moving Forward
          by adding a new bank counterparty to the program and
                                                                          Treasury anticipates that forecasting government receipts
          expanding back office capacity, resulting in additional
                                                                          and outlays in fiscal year 2009 will continue to be chal-
          repurchase earnings of $2.2 million. In addition to these
                                                                          lenging. Volatility caused by changing economic condi-
          operational improvements, the Treasury Department
                                                                          tions, new programs and initiatives enacted by Congress
          proposed legislation to broaden its statutory authority to
                                                                          to address systemic risks, and market concerns will have
          allow investments of operating cash with additional classes
                                                                          to be addressed in forecasting models. The Department
          of counterparties.
                                                                          will continue to maintain a five percent target variance for
                                                                          forecasts of receipts.




Strategic Objective: Cash Resources are Available to Operate the Government                                                       68
                                                                 Part II — Annual Performance report




                       Accurate, timely, useful,
                       transparent and accessible
                       financial information
                       Based on the performance results, Treasury was successful
                       in providing accurate, timely, useful, transparent and acces-
                       sible financial information in fiscal year 2008.

                       Fiscal Year 2008 Results

                                       Accurate, Timely, Useful, Transparent and
                                           Accessible Financial Information




                             40% Exceeded                                      60% Met




                       Summary of Actual Trends for the Prior Four Years
                        Trend                                         Symbol   Count     %
                        Favorable upward trend                                 0         0%
                        Favorable downward trend                               1        20%
                        Unfavorable upward trend                               1        20%
                        Unfavorable downward trend                             0         0%
                        No change in trend, no effect                          0         0%
                        No change in trend, favorable effect                   3        60%
                        No change in trend, unfavorable effect                 0         0%
                        Baseline                                        B       0         0%
                        Total                                                   5        100%
                        Discontinued                                            1




69   Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report




          Key Performance Measure Table
          The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
          sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                   Percent
                                                                             FY 2008   FY 2008    of Target     Performance      FY 2009     Target    Actual
           Key Performance Measures                             Bureau        Target    Actual    Achieved         Rating         Target     Trend     Trend
           Cost per summary debt accounting transaction          BPD          $9.91    $8.29*       116%          Exceeded        $10.01               
           Release federal government-wide statements on time    DO             Met     Met*        100%             Met           Met                  
           Percentage of government-wide accounting reports      FMS          100%      100%        100%             Met          100%                  
           issued accurately
           Percentage of government-wide accounting reports      FMS          100%      100%        100%             Met          100%                  
           issued timely
           Unit cost to manage $1 million of cash flow           FMS         $11.72    $9.21*       121%          Exceeded        $13.39               
           * Indicates estimates for fiscal year 2008 data


           Legend                                                      Symbol          FMS’s Government-wide Accounting and Reporting
           Favorable upward trend                                                     program manages the federal government’s accounts
           Favorable downward trend                                                   through the central accounting and reporting system. In
           Unfavorable upward trend                                                   fiscal year 2008, FMS met the 45-day reporting deadline
           Unfavorable downward trend                                                 for issuance of the fiscal year 2007 Consolidated Financial
           No change in trend, no effect                                              Report of the United States Government, as it has in prior
           No change in trend, favorable effect                                       years. This report presents a picture of government-wide
           No change in trend, unfavorable effect                        
                                                                                       finances that complements traditional federal government
           Baseline                                                      B
                                                                                       budget information, and is critical to a fully informed
                                                                                       budget process. FMS, in coordination with the Office of
                                                                                       Management and Budget (OMB)1, continues to make
          Analysis of Performance Results
                                                                                       improvements to its policies, procedures, information
          Treasury exceeded targets for 40 percent of its mea-
                                                                                       systems, and internal controls associated with compiling
          sures, met 60 percent, and discontinued one measure
                                                                                       and issuing the Consolidated Financial Report of the United
          relating to the achievement of this outcome. In fiscal
                                                                                       States Government. These improvements resulted in the
          year 2008 a Market Room was established to monitor
                                                                                       elimination of 35 of 81 open Government Accountability
          global financial markets and leverage the expertise of
                                                                                       Office (GAO) findings and recommendations in the fiscal
          individuals across the Department. The Market Room
                                                                                       year 2007 Audit Report. Additionally, ten new recommen-
          was established during a critical period and has been an
                                                                                       dations were reported. FMS, in coordination with OMB
          invaluable resource for Treasury and other agencies in
                                                                                       and the requisite federal agencies, will continue to work to
          Washington, DC. The Office of Debt Management also
                                                                                       resolve these preparation issues.
          initiated the design of a new, transparent risk manage-
          ment system with assistance from the BPD, FMS, and
          the Federal Reserve Bank of New York. Funding and
                                                                                         1	 The Secretary of the Treasury, in coordination with the Director
          design plans for the new Treasury Debt Management                                 of the Office of Management and Budget, is required annually
          System are now in place, with expected phased deploy-                             to submit financial statements for the U.S. government to the
                                                                                            President and Congress. The Government Management Reform
          ment of the system beginning in fiscal year 2009.
                                                                                            Act of 1994 has required such reporting, covering the Executive
                                                                                            branch, starting with financial statements prepared for fiscal year
                                                                                            1997. 31 U.S.C. 331(e).




Strategic Objective: Cash Resources are Available to Operate the Government                                                                              70
                                                                                              Part II — Annual Performance report




Treasury continues to release the Monthly Treasury               taken in earlier years to improve cost-efficiency. In general,
Statement, the monthly public source of budgetary results,       cost measures offer a limited view of operations – addition
on the eighth business day of each month. This release           of cycle time and quality measures would offer additional
schedule allows Treasury to provide agency financial             information regarding Treasury’s ability to successfully
managers complete and accurate financial data on a timely        provide financial information.
basis for use in preparation of their financial statements.
FMS also performs the accounting for the federal govern-         Moving Forward
ment’s operating cash, and provides critical support related     Going forward FMS plans to continue its efforts to
to government-wide cash forecasting and cash manage-             improve efficiencies and lower the costs associated with
ment functions.                                                  managing the nation’s money. In fiscal year 2009, FMS will
                                                                 continue moving forward on the Financial Information
One of FMS’ major initiatives is to modernize long
                                                                 and Reporting Standardization (FIRST) initiative. This
standing federal accounting processes and provide agencies
                                                                 initiative integrates budget and financial reports from fed-
with methodologies and tools to improve the accuracy
                                                                 eral program agencies. FIRST will improve the consistency
and consistency of their financial data. This initiative, the
                                                                 of the budgetary and proprietary accounting data recorded
Government-wide Accounting Modernization program,
                                                                 in agency financial statements and reported to FMS.
will improve the reliability, usefulness, and timeliness of
                                                                 FIRST is designed to provide authoritative information,
the government’s financial information, provide agencies
                                                                 contained in Treasury’s central accounting system, to the
and other users with better access to that information, and
                                                                 agencies to facilitate the reconciliation process for specific
will eliminate duplicate reporting and reconciliation bur-
                                                                 intra-governmental transactions.
dens by agencies, resulting in significant government-wide
savings. It will also improve the budgetary information          FMS will continue to update and improve the govern-
being collected from the agencies at the transaction level.      ment-wide accounting processes to provide more useful
                                                                 and reliable financial information. FMS is building and
For the measure Unit cost to manage $1 million of cash
                                                                 implementing a system to improve the exchange of finan-
flow, costs for fiscal year 2008 were $9.21. The result was
                                                                 cial information between FMS, federal program agencies,
substantially lower than the result for fiscal year 2007
                                                                 the Office of Management and Budget, and the banking
($10.36) although still higher than the result for fiscal
                                                                 community. Once the Government-wide Accounting
year 2006 ($8.67). Cash flow and costs associated with
                                                                 Modernization program is completed it will replace cur-
government-wide accounting are expected to fluctuate in
                                                                 rent government-wide accounting functions and processes
fiscal year 2009.
                                                                 that are both internal and external to FMS. Additionally,
                                                                 it will improve the reliability, usefulness, and timeliness of
Conclusion
                                                                 the government’s financial information, provide better ac-
For fiscal year 2008 Treasury was successful in providing
                                                                 cess to information, and will eliminate duplicate reporting
accurate, timely, useful, transparent and accessible financial
                                                                 and reconciliation burdens for agencies.
information. Although the measure Unit cost to manage $1
million dollars of cash flow exceeded its target in 2008, over   A new measure will be developed in fiscal year 2009
time the cost to manage $1 million has been increasing,          to replace the discontinued measure. Audit opinion on
resulting in an unfavorable actual trend. For the remaining      government-wide financial statements.
measures, target and actual trends have both been positive.
The one caveat relates to the measure Cost per summary debt
accounting transaction, where long-term target trends re-
main favorable, even though year-over-year changes show
continued increase in costs. This is due largely to steps




71                                       Strategic Objective: Cash Resources are Available to Operate the Government
Fiscal Year 2008 Performance and Accountability Report



        Strateg ic Goal: U.S. an d Wor ld Econom i es
        Pe r for m at Fu ll Econom ic Pote ntial


            Strategic Objective:
               Improved Economic Opportunity, Mobility, and Security with Robust, Real,
               Sustainable Economic Growth at Home and Abroad

          Economic growth stimulates economic opportunity, mobili-                                                    The bureaus and offices responsible for achievement of this
          ty, and security for Americans and others around the world.                                                 objective are:
          Promoting the development of new markets in the U.S.                                                             •	 Alcohol and Tobacco Tax and Trade Bureau
          ensures that all Americans benefit from economic growth.                                                         •	 Community Development Financial Institutions
          The expansion of underdeveloped economies abroad opens                                                              Fund
          markets, enhances regional stability, reduces the spread                                                         •	 The Office of the Comptroller of the Currency
          of disease, creates opportunities for profitable trade, and                                                      •	 The Office of Domestic Finance
          demonstrates democracy in action. Treasury promotes                                                              •	 The Office of Economic Policy
          economic growth through direct and indirect regulation of                                                        •	 The Office of International Affairs
          financial markets; regulation of national banks and thrifts;                                                     •	 The Office of Thrift Supervision
          implementation of policies promoting international trade,
          investment and economic security; programs encouraging                                                      The outcomes associated with this objective are:
          investment in economically distressed communities; and                                                                                 •	 Strong U.S. economic competitiveness

          policy initiatives directed at expanding the capacity of                                                                               •	 Competitive capital markets

          financial institutions to provide affordable credit, capital                                                                           •	 Free trade and investment

          and financial services to the American people.                                                                                         •	 Prevented or mitigated financial and economic crises
                                                                                                                                                 •	 Decreased gap in global standard of living

                                                      Budget Trend by Objective                                                                                     Performance Cost Trend

                                         $1,500,000                                                                                                 $1,250,000
            Dollars (in Thousands)




                                                                                                                        Dollars (in Thousands)




                                         $1,200,000                                                                                                 $1,000,000

                                          $900,000                                                                                                   $750,000

                                          $600,000                                                                                                   $500,000
                                                                                            $1,057,863



                                                                                                         $1,383,230




                                                                                                                                                                                             $1,016,696



                                                                                                                                                                                                           $1,077,080



                                                                                                                                                                                                                                 $1,162,382
                                                      $825,793



                                                                 $874,059



                                                                                $975,283




                                                                                                                                                                   $829,468



                                                                                                                                                                              $927,076




                                          $300,000                                                                                                   $250,000

                                                $0                                                                                                         $0
                                                      2004       2005         2006         2007          2008                                                      2004       2005         2006           2007                 2008
                                                                            Fiscal Year                                                                                                  Fiscal Year



             Improved Economic Opportunity, Mobility, and Security with                                                                                          Performance Cost by Outcome
           Robust, Real, Sustainable Economic Growth at Home and Abroad

                                                                                                                                            .26%
                                                                                                                                                                                                                        Competitive capital markets
                                                                                                          16% Unmet                         .56%
                                                                                                                                                                                                                        Decreased gap in global standard of
                                                                                                                                            .73%                                                                        living

                                                                                                                                                                                                                        Free trade and investment

                                                                                                                                                                                                                        Prevented or mitigated financial and
                                     55% Exceeded                                                         29% Met                                                                                                       economic crisis
                                                                                                                         16.98%                                                                                         Strong U.S. economic
                                                                                                                                                                                                                        competitiveness

                                                                                                                         81.46%




Strategic Objective: Improved economic opportunity, mobility, and security with                                                                                                                                                                        72
robust, real, sustainable economic growth at home and abroad
                                                                                                     Part II — Annual Performance report




 Program Assessment Rating Tool 2008
                                                                          Year                                          Current
 Program                                                     Bureau     Conducted               Rating             Improvement Plan
 Bank Enterprise Award                                        CDFI         2002         Results Not Demonstrated         
 Financial and Technical Assistance                           CDFI         2004                Adequate                  
 New Markets Tax Credit                                       CDFI         2004                Adequate                  
 African Development Fund                                     DO           2003         Results Not Demonstrated         
 Asian Development Fund                                       DO           2005         Results Not Demonstrated         
 Debt Restructuring for Heavily Indebted Poor Countries       DO           2007           Moderately Effective           
 Global Environment Facility                                  DO           2004         Results Not Demonstrated         
 International Development Association                        DO           2002                Adequate                  
 Office of Technical Assistance                               DO           2003                Adequate                  
 Tropical Forest Conservation Act                             DO           2007           Moderately Effective           
 National Bank Supervision                                    OCC          2002                 Effective                
 Thrift Institution and Savings Association Supervision       OTS          2002                 Effective                
 Protect the Public Program                                   TTB          2002                Adequate                  
  Click on program name to obtain more information.




Assessing the Effectiveness of Economic                               subject to legislated outcome, success of government-wide
Policy                                                                implementation, the test of time, and analyst opinion.
The Department’s economic policy efforts can be separated             To overcome this problem, and to better assess policy
into two categories: policy initiatives and established               performance, Treasury is currently developing measures
programs. The differences between them have largely to                which gauge the effectiveness of policy initiatives by their
do with timing in the policy process. Policy initiatives              traction (how efficiently and effectively policy offices
generally include efforts to influence economic growth and            worked with other government offices and/or the extent to
financial market activity through the development of new              which the office influences progress towards an outcome)
legislation or government-wide policy. Substantial analyti-           and impact (whether or not the policy initiative had a
cal effort is used to understand a problem, develop alterna-          positive outcome). As one example, Treasury has developed
tives and ultimately propose a legislative or administrative          a new measure for fiscal year 2008 to gauge the Office of
solution. Final legislation or administrative decision is then        Technical Assistance’s (OTA) performance in providing
implemented by Treasury or other government agencies.                 assistance to developing countries, assessing the ability
Conversely, established programs are typically legislated to          of the office to establish good working relationships with
operate within an existing office, with specific objectives           client countries and influence positive policy outcomes.
and defined management scope. These offices gener-                    A measure assessing the performance of economic policy
ally manage government efforts related to a designated                development is currently being designed for the Office
problem, within clearly defined missions and goals.                   of Economic Policy utilizing a similar approach, with
                                                                      completion expected for fiscal year 2009. Currently, most
Given the differences in scope and mission, it is generally           performance measures evaluating Treasury’s management
easier to assess the performance of established programs              of economic affairs correspond to established programs
than policy initiatives. With some exceptions, determin-              and not to policy initiatives. Given this reality, analysis of
ing whether or not a policy initiative is successful is




73                                             Strategic Objective: Improved economic opportunity, mobility, and security with
                                                              robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          this objective is divided into two components: one review-           •	 Issuing the Best Practices for Residential Covered
          ing policy initiatives more qualitatively, the other analyzing         Bonds and working with financial institutions to
          established programs more quantitatively.                              establish a U.S. covered bond market
                                                                               •	 Developing legislation allowing Treasury to increase
          Assessing the Performance of Economic                                  liquidity in financial markets
          Policy Initiatives
                                                                               •	 Establishing a Temporary Guarantee Program for
          Policy performance in addressing U.S. economic challenges              money market funds
          was mixed. Turmoil in financial markets, the ongoing
                                                                               •	 Serving as primary coordinator for U.S. policy for
          housing correction, and record high energy prices had                  the U.S.-China SED
          substantial impact on economic performance in fiscal year
          2008. Treasury, working with other federal agencies, state       Individual Department offices within Treasury made
          governments, other national governments, international           significant contributions to these efforts.
          organizations, and various private sector participants, took         •	 The Office of Economic Policy provided detailed
          exceptional steps to address these challenges and work                 analysis on key elements of the turmoil, including
          to prevent and mitigate financial and economic crises.                 subprime mortgage defaults, credit market disrup-
          Many of these efforts were successful; some were less                  tions, general conditions in housing markets and
          successful than others. The key economic policy initiatives            sources of higher commodity prices. Findings from
          the Department engaged in, discussed in detail in the                  this analysis were used by policymakers across
          Management Discussion and Analysis section, include:                   government to formulate policy action. For the
                                                                                 economic stimulus package, the Office of Economic
              •	 Development of specific recommendations for
                                                                                 Policy worked collaboratively with the Council of
                 regulators and financial industry participants to
                                                                                 Economic Advisors to estimate the impact and
                 address weaknesses in the financial system through
                                                                                 effectiveness of different policy approaches and
                 the PWG and international groups
                                                                                 finalize the package’s composition. The Office of
              •	 Development (and implementation) of the                         Economic Policy also contributed to the develop-
                 economic stimulus package under the Economic                    ment of Hope for Homeowners, a program to help
                 Stimulus Act of 2008                                            those at risk of default or foreclosure refinance into
              •	 Assistance to homeowners through support for                    more affordable mortgage loans.
                 legislation providing temporary tax relief, FHA               •	 The Office of Financial Markets (OFM) provided
                 modernization (in particular creation of the Hope               direct support to the PWG, including coordinat-
                 for Homeowners program), higher conforming                      ing meetings, developing briefing materials and
                 limits for mortgages and GSE reform                             drafting the Policy Statement on Financial Market
              •	 Helping homeowners through public and private                   Developments. OFM also analyzed a range of
                 sector initiatives, such as FHASecure and HOPE                  issues related to securities and futures markets
                 NOW                                                             (including credit rating agencies; capital market
                                                                                 competitiveness; broker-dealer, investment advisor
              •	 Finding solutions for troubled non-depository
                                                                                 and money market fund regulation; international
                 financial institutions
                                                                                 accounting and auditing issues; mutual recognition
              •	 Contributing to placement of Fannie Mae and                     of comparable foreign regulatory agencies; energy
                 Freddie Mac into conservatorship                                and agricultural commodity price volatility; CFTC
              •	 Implementation of measures to bolster regulation of             reauthorization; House and Senate energy bills;
                 national banks and thrifts                                      and oversight of exempt commercial markets) and
                                                                                 organized and chaired monthly staff meetings of
                                                                                 the Interagency Financial Markets Group.




Strategic Objective: Improved economic opportunity, mobility, and security with                                                        74
robust, real, sustainable economic growth at home and abroad
                                                                                               Part II — Annual Performance report




     •	 OFM and the Office of Financial Institutions                    Market Room is now a permanent intra-agency
       Policy (OFIP) contributed significantly to the                   body within Treasury.
       Blueprint for a Modernized Financial Regulatory                •	 Through the U.S.-China SED, the Joint Economic
       Structure. OFIP played the lead role in policy                   Committee, the Financial Services Working
       actions associated with the restructuring of Fannie              Group and the Investment Forum, Treasury offices
       Mae and Freddie Mac.                                             continue to engage China as a strategic economic
     •	 OFM and the Office of International Affairs coor-               partner. Through these dialogues, the Department
       dinated Treasury’s participation in the formulation              has focused on engaging Chinese government
       of international recommendations for policy action               officials on the importance of diversifying their
       through the FSF, G-7, G-20 and other groups.                     economy beyond export driven growth, developing
       In addition, the Office of International Affairs                 tools to manage a market-driven economy, develop-
       coordinated U.S. Government bilateral negotiations               ing greater exchange rate flexibility, and opening
       on regulatory and policy arrangements with other                 markets to foreign goods and financial services.
       national authorities.                                            The fifth U.S.-China SED will be held in Beijing,
     •	 OCC and OTS, as the primary regulators of na-
                                                                        China in December 2008.
       tional banks and thrifts, implemented measures en-
       suring stability at these financial institutions. Both    Conclusion
       supervisors introduced new regulatory guidelines          It is inherently difficult to assess the success or failure
       for financial operations, issued new guidance for         of policy initiatives shortly after implementation. Lack
       management of mortgages and assisted homeown-             of data and different possible interpretations of results
       ers in finding solutions to avoid foreclosure.            complicate meaningful evaluation of program perfor-
     •	 To facilitate student loan funding after the seizing     mance. Still, while financial market challenges remained
       of key funding markets, the Office of Domestic            the primary focus of policy attention at the end of fiscal
       Finance worked closely with the Department of             year 2008, significant achievements in mitigating financial
       Education and the Office of Management and                turmoil and stabilizing economic conditions were evident.
       Budget to develop measures to ensure uninter-             While there had been significant difficulties at individual
       rupted access to federal student loans for eligible       financial institutions, systemic failure of the banking sys-
       applicants. Shortly following passage of the
                                                                 tem was not evident. Where economic growth had turned
       Ensuring Continued Access to Student Loans Act
                                                                 negative at the end of 2007, the stimulus package imple-
       of 2008 in May, the Departments of Education
                                                                 mented beginning in May helped stabilize the economy
       and Treasury unveiled a four-point plan to ensure
       continued access to federal student aid. Included         in the middle of 2008. Through the end of the fiscal year,
       were two new programs to 1) ensure lenders could          more than two million at-risk homeowners were helped by
       originate Federal Family Education Loans and              HOPE NOW, FHASecure and other public and private
       not lose money, and 2) provide liquidity to lenders       initiatives, preventing foreclosures. International initiatives
       unable to raise capital cost-effectively in the market.   succeeded in improving coordination between national
       Hundreds of lenders participated in one or both           authorities to address market conditions. Measures were
       programs, enabling funding of student programs for        proposed to address troubled assets at financial institutions
       the 2008-2009 academic year.                              and inject capital into financial markets. Restructuring of
     •	 Formation of a Market Room within Treasury to            Fannie Mae and Freddie Mac reduced uncertainty related
       monitor financial market activity, pulling tal-           to outstanding GSE bonds and the continuity of markets
       ent from various offices across the Department,           for mortgage financing. Initiatives to find alternative
       contributed to timely response to market events.          funding for student programs had succeeded by the
       Formed before the crisis began in August 2007, the        beginning of the 2008-2009 year in providing educational
                                                                 funding for millions of students. Although Treasury has




75                                    Strategic Objective: Improved economic opportunity, mobility, and security with
                                                     robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          no performance measures to evaluate the success of policy            additional recommendations to improve financial
          initiatives in sustaining economic growth, the Department            market oversight and industry practices.
          made exceptional efforts during fiscal year 2008 to stabilize      •	 The current “siloed” system of financial industry
          financial markets and the broader economy.                           regulation in the U.S. is incompatible with a
                                                                               financial market where sector lines have blurred
          Moving Forward                                                       and market globalization necessitates international
          The Department will continue to monitor market events,               regulatory coordination. The Blueprint for a
          analyze existing conditions, and take action as neces-               Modernized Financial Regulatory Structure issued
                                                                               in March offered a series of near, intermediate, and
          sary to promote real, robust and sustainable economic
                                                                               long-term solutions to structural weaknesses in
          growth. Credit markets continue to experience weakness
                                                                               the regulatory system, most of which have not yet
          moving into fiscal year 2009. The Emergency Economic
                                                                               been implemented. Implementation of financial
          Stabilization Act of 2008 (signed into law October 3,
                                                                               regulatory reforms in 2009 will be critical.
          2008) is intended to promote market stability and protect
                                                                             •	 Efforts to reform Social Security and Medicare are
          the U.S. economy, by authorizing Treasury to purchase
                                                                               stalled given the focus on economic and financial
          and guarantee troubled financial assets and make equity
                                                                               conditions. The $13.6 trillion actuarial deficit for
          investment in banks. The Act establishes a new Office
                                                                               Social Security will have to be addressed in the near
          of Financial Stability in the Treasury Department to                 future. The projected insolvency of the Medicare
          implement a $700 billion Troubled Asset Relief Program               trust fund by 2019 and growing prescription drug
          (TARP). Operations of the TARP will be overseen by                   benefit expenditures will need to be addressed in
          a Financial Stability Oversight Board comprised of the               the immediate future. The Treasury Department in
          Secretary of the Treasury, the Chairman of the Federal               fiscal year 2008 issued five policy briefs proposing
          Reserve, the Director of the FHFA, the Chairman of                   specific reforms of Social Security which have yet to
          the SEC, and the Secretary of HUD. In addition, TARP                 receive dedicated policy attention. Implementation
          will be audited by a Special Inspector General, will be              of entitlement reform is an essential Treasury policy
          subject to audits by the GAO, and will have its activities           objective for 2009.
          reviewed by a Congressional Oversight Panel. The Office            •	 Market conditions have complicated efforts
          of Financial Stability will be required to report on TARP            to mitigate risks at national banks and thrifts.
          activities on a monthly basis and make special reports               Strained markets for some financial products and
          on asset holdings for every $50 billion in purchases.                over-exposure by some regional banks and thrifts
          Treasury will work to ensure provisions under the Act are            to areas deeply affected by falling home prices
                                                                               have constrained management of risk exposure.
          implemented efficiently and effectively to protect taxpayer
                                                                               The OCC and OTS will continue to work with
          interests, provide market stability, help families stay in their
                                                                               these banks and thrifts to isolate risky assets and
          homes, and encourage return to market normalcy.
                                                                               implement strategies limiting risk exposure.
          Additional future challenges for Treasury:                         •	 Protectionist interests are increasingly eroding

               •	 The PWG is expected to issue its update on
                                                                               international trade and financial linkages. Collapse
                 implementation of recommendations from the                    of the World Trade Organization’s Doha Round
                 Policy Statement on Financial Market Developments             of trade talks in July 2008, heightened concerns
                 before the end of 2008. This update will review               about investments by sovereign wealth funds and
                 progress by state and federal government agencies,            other foreign government-owned enterprises, and
                 private sector interests, and non-governmental                delayed consideration of the U.S.-Colombia Free
                 organizations in addressing identified structural             Trade Agreement, have limited efforts to open
                 weaknesses. The update is expected to include                 international markets to U.S. commerce. Opening
                                                                               foreign and domestic markets for goods and




Strategic Objective: Improved economic opportunity, mobility, and security with                                                     76
robust, real, sustainable economic growth at home and abroad
                                                                                                         Part II — Annual Performance report




       services is vital for sustaining a robust and growing   Strong U.S. Economic
       U.S. economy. Treasury will endeavor to resume the      Competitiveness
       opening of global markets in 2009.
                                                               Strong U.S. economic competitiveness is crucial for robust
Assessing the Effectiveness of                                 economic growth worldwide, continued investment in the
Established Programs                                           United States, and job creation. The Treasury Department
For established programs, performance in improving eco-        develops policies and programs intended to promote a
nomic opportunity, mobility, and security was moderately       prosperous financial infrastructure, a balanced macro
strong. Performance exceeded target levels for 55 percent      economy, market efficiency, technological readiness, and
of measures, met target levels for 29 percent, and did not     innovation. For fiscal year 2008, Treasury generally met or
meet target levels for 16 percent. (Seven measures were        exceeded its performance targets for established programs
discontinued and seven measures were base-lined in fiscal      promoting U.S. economic competitiveness.
year 2008.) For active measures, 35 percent of performance
                                                               Fiscal Year 2008 Results
targets showed trend improvement, 13 percent of targets
were flat with neither improvement or decline, and 52                          Strong U.S. Economic Competitiveness
percent showed target trend decline. For actual trend
results, 58 percent of results showed trend improvement,
                                                                                                                       24% Unmet
ten percent had flat trends, and 32 percent showed trend             62% Exceeded
declines. The average deviation from target (the average
percentage difference of actual to target) for all measures                                                            14% Met

was 20 percent.




                                                               Summary of Actual Trends for the Prior Four Years
                                                                Trend                                         Symbol   Count       %
                                                                Favorable upward trend                                 11         52%
                                                                Favorable downward trend                               0           0%
                                                                Unfavorable upward trend                               4          19%
                                                                Unfavorable downward trend                             3          14%
                                                                No change in trend, no effect                          0           0%
                                                                No change in trend, favorable effect                   0           0%
                                                                No change in trend, unfavorable effect                 0           0%
                                                                Baseline                                        B       3          14%
                                                                Total                                                   21         100%
                                                                Discontinued                                            3




77                                   Strategic Objective: Improved economic opportunity, mobility, and security with
                                                    robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          Key Performance Measure Table
          The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
          sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                             Percent
                                                                                   FY 2008    FY 2008       of Target   Performance   FY 2009   Target   Actual
           Key Performance Measures                                 Bureau          Target     Actual       Achieved       Rating      Target   Trend    Trend
           Administrative cost per number of Bank Enterprise          CDFI         $1,455     $3,070         -11%         Unmet       $1,455             
           Award (BEA) applications processed
           Administrative costs per financial assistance              CDFI         $6,920     $7,200          96%         Unmet       $6,920             
           application processed
           Administrative costs per number of Native American         CDFI         $9,090     $10,990         79%         Unmet       $9,090             
           CDFI Assistance applications processed
           Administrative costs per number of New Markets Tax         CDFI         $4,875     $7,400          48%         Unmet       $4,875             
           Credit (NMTC) applications processed
           Dollars of private and non-CDFI Fund investments           CDFI            $750     $621           83%         Unmet        $635              
           that CDFIs are able to leverage because of their CDFI
           Fund Financial Assistance ($ million)
           Number of full-time equivalent jobs created                CDFI         28,676     29,539         103%        Exceeded     30,000             
           or maintained in underserved communities by
           businesses financed by CDFI program awardees
           Average number of days to process an original permit       TTB          Baseline     64           100%          Met          72        B        B
           application at the National Revenue Center
           National Revenue Center (NRC) customer satisfaction        TTB          Baseline    90%           100%          Met         85%        B        B
           survey
           Percent of electronically filed Certificate of Label       TTB             52%      62%           119%        Exceeded      52%               
           Approval applications
           Percentage of instances where the utilization of           TTB          Baseline    15%           100%          Met         16%        B        B
           the International Trade Database System identified
           importers without permits as a percentage of total
           permits on file
           See Appendix for additional information regarding calculation of “Percent of Target Achieved.”



           Legend                                                            Symbol           Analysis of Performance Results
           Favorable upward trend                                                            Performance for established programs promoting strong
           Favorable downward trend                                                          U.S. economic competitiveness exceeded target levels for
           Unfavorable upward trend                                           
                                                                                              62 percent of measures, met target levels for 14 percent of
           Unfavorable downward trend                                         
                                                                                              measures, and did not meet target levels for 24 percent of
           No change in trend, no effect                                       
                                                                                              measures for fiscal year 2008. (Three performance measures
           No change in trend, favorable effect                                
                                                                                              were discontinued.) Fifty-six percent of performance
           No change in trend, unfavorable effect                              
           Baseline                                                            B
                                                                                              targets showed trend improvement, 33 percent showed
                                                                                              target trend decline and 11 percent showed neither decline
                                                                                              or improvement. For actual trend results, 61 percent of
                                                                                              results showed trend improvement, 33 percent showed
                                                                                              trend declines and six percent showed neither decline or
                                                                                              improvement. These results indicate that these programs
                                                                                              generally succeeded in achieving their performance goals.




Strategic Objective: Improved economic opportunity, mobility, and security with                                                                            78
robust, real, sustainable economic growth at home and abroad
                                                                                            Part II — Annual Performance report




Community Development Financial                                        higher than the target of $1,455. The cost target
Institutions Fund                                                      for 2009 is $1,455. The number of small businesses
                                                                       and commercial real estate properties located in
The Community Development Financial Institutions
                                                                       underserved communities and financed by program
Fund provides grants and loans to financial institutions
                                                                       applicants met performance targets, also despite
(Community Development Financial Institutions, or
                                                                       financial market problems.
CDFIs) which provide capital, credit and financial services
                                                                    •	 The NMTC Program permits taxpayers to receive
to underserved populations and economically distressed
                                                                       credit against federal income taxes for making quali-
communities. Performance results for 2008 were mixed:
                                                                       fied equity investments in designated Community
12 measures exceeded target levels and five measures did
                                                                       Development Entities. The NMTC Program
not meet target levels. The greatest shortfall, covering
                                                                       competitively awarded $3.3 billion in tax credit
four of the five unmet measures, was in management of                  allocations in fiscal year 2008, surpassing the target
administrative costs. The Fund’s activities are divided into           of $2.5 billion. However, administrative costs per
four components:                                                       application were $7,400, 52 percent higher than the
     •	 The CDFI Program provides direct funding to                    target of $4,875. The cost target for 2009 is $4,875.
       CDFIs. In fiscal year 2008, the CDFI Program                    In fiscal year 2008, 73 percent of CDE loans and
       distributed $54.2 million in funding. The CDFI                  investments were made in severely distressed com-
       Program did not meet two performance targets                    munities, exceeding the target of 66 percent.
       in 2008. Administrative costs per financial assistance       •	 The Native Initiatives component of the CDFI
       application processed were $7,200, four percent                 Fund provides financial assistance, technical
       higher than the target of $6,920. The cost target for           assistance and training to CDFIs and other entities
       2009 is again $6,920. The amount of money CDFIs                 seeking to become CDFIs in Native American
       were able to attract from private investors leverag-            communities. The initiative registered a 19 percent
       ing their participation in the CDFI Program was                 increase in total assets for 2008, beating the target
       $621 million, 17 percent below the target of $750               increase of 15 percent. However, administrative
       million. This deficit, however, was largely antici-             costs per application in fiscal year 2008 were
       pated given conditions in financial markets. The                $10,990, 21 percent higher than the target
       private funding target for 2009 is $635 million. For            of$9,090. While this was substantially below fiscal
       other performance measures, the CDFI Program                    year 2007 costs of $13,510, the target is again set at
       met or exceeded target levels. Eighty percent of                $9,090 for fiscal year 2009.
       CDFIs increased their total assets over the previous
       year (versus a target of 70 percent), the percentage     Alcohol and tobacco industry regulation
       of eligible areas served by more than one CDFI
                                                                The TTB protects consumers of alcohol and tobacco prod-
       increased to 3.4 percent (versus a target of 3.0
                                                                ucts from fraud and deception through industry regulation.
       percent) and CDFIs helped provide funds creating
       or maintaining an estimated 29,539 jobs in under-        Importers and bottlers of alcohol beverages are required
       served communities (versus a target of 28,676 jobs).     by law to obtain a Certificate of Label Approval (COLA)
                                                                or certificate of exemption from label approval from TTB
     •	 The BEA Program provides cash awards to banks
                                                                for most alcohol beverages prior to introduction into the
       which increase their investment in low-income
       communities and CDFIs. The BEA Program                   market. Through September 30, 2008, TTB processed
       registered an increase from $227 million to $232         133,427 COLA applications. Sixty-two percent of
       million in program participants’ qualified invest-       applications were received electronically through COLAs
       ments between fiscal years 2007 and 2008, despite        Online, significantly beating the target of 52 percent and
       financial market challenges. However, administra-        2007 actual result of 51 percent. The increase in online
       tive costs per application were $3,070, 111 percent      applications was due in large part to outreach efforts by the




79                                    Strategic Objective: Improved economic opportunity, mobility, and security with
                                                     robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          Advertising, Labeling, and Formulation Division through         growth of greenhouse gas emissions in developing coun-
          educational workshops, one-on-one demonstrations to             tries through the financing of clean energy technologies.
          large filers, and the first annual TTB expo.                    Introduction of these technologies will help reduce global
                                                                          emissions and migrate emerging markets’ development
          The three additional performance measures for TTB
                                                                          paths towards lower carbon emission systems in anticipa-
          were new for fiscal year 2008. Two were customer service
                                                                          tion of a more environmentally sustainable global climate
          measures replacing measures which were discontinued in
                                                                          framework. Treasury also actively engaged Chinese officials
          2008. The third is a measure assessing TTB’s enforcement
                                                                          in discussions of energy and environment issues through
          of product labeling non-compliance among alcohol and
                                                                          the U.S.-China SED.
          tobacco importers. In fiscal year 2008, TTB issued 105
          cease and desist letters to tobacco importers identified by     Conclusion
          the bureau as operating without a permit.
                                                                          The CDFI Fund continues to provide important financial
                                                                          assistance to troubled regional markets. The Fund provided
          Office of Financial Education
                                                                          substantial benefits to low-income and underserved
          Treasury, through the Office of Financial Education,
                                                                          communities by attracting private resources and expanding
          coordinates government efforts to promote financial
                                                                          job creation. However, cost management at the Fund will
          education through outreach activities across the country.
                                                                          require significant attention in 2009. Fund cost targets for
          In fiscal year 2008, Treasury held several large events,
                                                                          2008 have been retained for 2009 in anticipation of this
          including a major conference on banking the “unbanked”
                                                                          effort.
          in New York City, two roundtables on multicultural issues,
          and an international conference including 43 countries          TTB discontinued several measures in 2008 and replaced
          from the Organization for Economic Co-operation and             them with new measures that more accurately track
          Development and the Organization of American States.            performance outcomes. These new measures will provide
          Promotion of the MyMoney.gov and 1-888-MyMoney                  greater clarity on bureau operations and permit greater
          toll-free hotline resulted in 510,900 visits and 1,100 calls,   insight into management effectiveness, when there is
          respectively. On an inter-agency basis, the office supports     sufficient data to review. TTB plans to continue their
          initiatives by the President’s Advisory Council on Financial    successful marketing efforts to promote COLAs Online
          Literacy, which for fiscal year 2008 included issuance of new   to educate users about the benefits of using the E-Filing
          financial education curriculum for middle school and high       system. Dramatic improvements in online applications
          school students, creation of a Community Financial Access       such as from 2007 (51 percent of applications) to 2008 (62
          Pilot to expand financial education in low- and moderate-       percent of applications), however, are unlikely for 2009.
          income communities, and development of a baseline survey
          to examine financial literacy among U.S. adults.                Moving Forward
                                                                          Given challenging economic conditions, the CDFI Fund’s
          Managing international negotiations                             role in providing financing for low-income and economi-
          concerning energy and the environment                           cally-distressed communities will continue to be essential.
          Recognizing the linkages between economic development           Provisions in the Housing and Economic Recovery Act of
          and protection of the environment, Treasury created a new       2008 created a new competitive grant program, entitled
          organization within the Department to manage environ-           the Capital Magnet Fund, within the CDFI Fund, which
          mental and energy issues as they relate to economic policy.     will support affordable housing and economic development
          This organization was centrally involved in the launch          in underserved areas most directly affected by the hous-
          of a Clean Technology Fund by the U.S., Britain, Japan,         ing crisis. The Director of CDFI is actively participating
          Germany, and France. The Fund’s goal is to reduce the           in implementation of TARP, serving as primary advisor




Strategic Objective: Improved economic opportunity, mobility, and security with                                                  80
robust, real, sustainable economic growth at home and abroad
                                                                                              Part II — Annual Performance report




on issues related to housing conditions in low-income            Competitive capital markets
communities.
                                                                 Prosperous capital markets play an important role in facili-
TTB will continue to work to reduce costs associated with        tating economic growth by inspiring investor confidence
COLA applications, improve processing time and seek to           and ensuring fair asset pricing. Treasury strives to preserve
migrate users to the COLAs Online system. TTB plans              the integrity of the U.S. market, which is essential to
to begin using the International Trade Database System           maintaining competitiveness.
to identify illicit alcohol importers in 2009, in addition to
tobacco importers.                                               Treasury does not have performance measures linked
                                                                 to promoting competitive capital markets. Most efforts
Three recommendations of the GAO’s December 2006                 related to this outcome are policy initiatives, such as the
report have not yet been implemented by the Office of            Blueprint for a Modernized Financial Regulatory Structure
Financial Education but are slated to be addressed in fiscal     discussed earlier in this section. The Department’s Capital
year 2009. These include:                                        Markets Competitiveness Action Plan, initiated in 2006 by
     •	 Conducting usability testing to measure the quality      the Secretary, elevated the federal government’s policy
       of users’ experiences with the Commission’s website       debate on regulatory impediments to U.S. financial market
     •	 Develop a customer satisfaction measure to assess        competitiveness. In March 2007, a conference on U.S.
       users’ experiences with the website                       capital market competitiveness was hosted by Treasury
                                                                 to sharpen dialogue on the issue. In June 2007, Treasury
     •	 Provide for independent third-party review of fi-
                                                                 participated in the PWG’s appointment of two blue ribbon
       nancial education resources among federal agencies
       and review the availability, utilization, and impact of   panels to develop best practice guidelines for hedge fund
       financial literacy materials                              managers and investors, an initiative which followed the
                                                                 March conference. At the same time, development of the
The Office of Economic Policy is currently developing a          Blueprint was announced to outline regulatory reforms
new composite measure to assess its performance in pro-          aimed at improving capital market competitiveness. With
viding micro- and macroeconomic analysis. The measure            the credit crisis, the Blueprint assumed greater urgency and
will be linked to achievement of two outcomes: strong U.S.       was refocused towards fundamental reform of the financial
economic competitiveness and prevention or mitigation            regulatory system. Treasury will continue to work with
of financial or economic crises. Variables which are being       national, state, and international government organiza-
considered for the measure include: timeliness of release        tions to reform the financial regulatory system and restore
of analysis from receipt of data or assignment, accuracy of      confidence in the integrity and competitiveness of financial
analysis, whether or not analysis is communicated ef-            markets.
fectively to stakeholders, the degree to which research and
analysis were used to formulate policy or recommenda-            Going forward, the Department will develop a suitable
tions, and whether or not analysis is done proactively or        performance measure to assess progress in maintaining
reactively. This measure is expected to be completed by the      competitive capital markets.
end of fiscal year 2009.




81                                    Strategic Objective: Improved economic opportunity, mobility, and security with
                                                     robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          Free trade and investment
          Open foreign and domestic markets for goods and services
          are vital for a robust, growing and sustainable U.S. economy.
          While protectionism has strengthened over the last year,
          Treasury continues to work to maintain open markets for
          American products. For fiscal year 2008, Treasury met or
          exceeded its performance targets for established programs
          seeking to promote free trade and investment.
                                                                                                 Summary of Actual Trends for the Prior Four Years
          Fiscal Year 2008 Results                                                                Trend                                         Symbol     Count     %
                                                                                                  Favorable upward trend                                    0           0%
                                  Free Trade and Investment
                                                                                                  Favorable downward trend                                  0           0%
                                                                                                  Unfavorable upward trend                                  0           0%
                                                                                                  Unfavorable downward trend                                0           0%
                                                                        100% Met
                                                                                                  No change in trend, no effect                             0           0%
                                                                                                  No change in trend, favorable effect                      0           0%
                                                                                                  No change in trend, unfavorable effect                    0           0%
                                                                                                  Baseline                                        B          2      100%
                                                                                                  Total                                                      2      100%
                                                                                                  Discontinued                                               1



          Key Performance Measure Table
          The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
          sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                                  Percent
                                                                                      FY 2008     FY 2008        of Target        Performance   FY 2009   Target   Actual
           Key Performance Measures                                       Bureau       Target      Actual        Achieved            Rating      Target   Trend    Trend
           Number of New Trade and Investment Negotiations                  DO        Baseline       14            100%                  Met       6        B        B
           Underway or Completed
           Number of specific new trade actions involving Treasury          DO        Baseline       68            100%                  Met      68        B        B
           interagency participation in order to enact, implement and
           enforce U.S. trade law and international agreements


           Legend                                                            Symbol              Analysis of Performance Results
           Favorable upward trend                                                               Performance for established programs promoting free
           Favorable downward trend                                                             trade and investment cannot be determined from perfor-
           Unfavorable upward trend                                            
                                                                                                 mance measure analysis, as two new measures were added
           Unfavorable downward trend                                          
                                                                                                 for 2008 and one measure was discontinued. Qualitative
           No change in trend, no effect                                       
                                                                                                 analysis of results, though, suggests that these programs
           No change in trend, favorable effect                                
                                                                                                 succeeded in achieving their performance goals.
           No change in trend, unfavorable effect                              
           Baseline                                                              B               Foreign investment in the U.S. and U.S. investments
                                                                                                 overseas are major sources of economic growth. The Office
                                                                                                 of International Affairs serves as chair of the inter-agency




Strategic Objective: Improved economic opportunity, mobility, and security with                                                                                      82
robust, real, sustainable economic growth at home and abroad
                                                                                                            Part II — Annual Performance report




Committee on Foreign Investment in the United States              While bilateral negotiations continue, it is essential that
(CFIUS) to ensure that foreign investment does not pose a         multilateral negotiations resume to address outstanding
national security risk. In fiscal year 2008, CFIUS issued up-     global trade and investment issues. Enforcement actions
dated guidance to investors on investment practices, follow-      in the current economic climate will likely continue to
ing passage of new legislation last year. Treasury’s on-going     outpace expectations, given heightened concerns about
Open Investment Initiative is intended to promote economic        unfair practices in a slowing economy.
growth by 1) highlighting the benefits of international
investment, 2) warning against the dangers to the U.S. and
global economies from protectionism, and 3) explaining U.S.       Prevented or mitigated
investment policy in the context of economic security. The        financial and economic crises
Initiative emphasizes the need for open investment channels
                                                                  Prevention and mitigation of financial and economic crises
to promote growth and development, both for the U.S. and
                                                                  have obvious economic benefits. Treasury’s focused policy
world economies. Similarly, the International Trade Program
                                                                  efforts to address financial and economic market conditions
seeks to promote growth through lower trade barriers.
                                                                  during fiscal year 2008 have been outlined in the sections
Through multilateral and bilateral negotiations with foreign
counterparts, the programs seek to ensure open markets for        above and the Management Discussion and Analysis.
U.S. exporters, financial services suppliers and investors.       While Treasury generally met or exceeded its performance
                                                                  targets for established programs seeking to prevent or
In fiscal year 2008, the Office of International Affairs had      mitigate financial and economic crises, given troubled
two performance measures associated with this outcome.            conditions at some national banks and thrifts, it is neces-
The first measure, the number of trade and investment             sary to examine existing measure targets or establish new
negotiations either underway or concluded, was initiated          performance measures.
at a level of 14. The fiscal year 2009 target for this measure,
however, is six, due to uncertainty associated with future        Fiscal Year 2008 Results
free trade negotiations. The second measure, the number of
                                                                     Prevented or Mitigated Financial and Economic Crisis
specific trade actions to enact, implement, and enforce US
trade law and international agreements, was initiated at a
level of 68 actions. The target for 2009 is also 68 actions.                  8% Unmet
                                                                                                                          31% Met




Conclusion
Given that both current measures are new, there is little               61% Exceeded

quantitative evidence to judge the effectiveness of per-
formance in trade negotiations and enforcement actions.
Additional data in future years will provide greater clarity
on program effectiveness.                                         Summary of Actual Trends for the Prior Four Years
                                                                   Trend                                         Symbol   Count      %
Moving Forward
                                                                   Favorable upward trend                                 4        31%
Efforts to expand international trade and investment link-
                                                                   Favorable downward trend                               1         8%
ages are increasingly overshadowed by growing protection-          Unfavorable upward trend                               1         8%
ist sentiment. Collapse of the World Trade Organization’s          Unfavorable downward trend                             3        23%
Doha Round of trade negotiations in July 2008, failure to          No change in trend, no effect                          2        15%
pass the U.S.-Colombia Free Trade Agreement and con-               No change in trend, favorable effect                   0         0%
cerns about investments by sovereign wealth funds and for-         No change in trend, unfavorable effect                 0         0%
eign government-owned enterprises significantly impede             Baseline                                        B       2        15%
U.S. economic engagement with international markets.               Total                                                   13       100%
                                                                   Discontinued                                            3




83                                     Strategic Objective: Improved economic opportunity, mobility, and security with
                                                      robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          Key Performance Measure Table
          The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
          sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                      Percent
                                                                                FY 2008    FY 2008   of Target   Performance   FY 2009   Target   Actual
           Key Performance Measures                                Bureau        Target     Actual   Achieved       Rating      Target   Trend    Trend
           Changes that result from project engagement              DO          Baseline     3.1      100%          Met          3.1       B        B
           (impact)
           Scope and intensity of engagement (traction)             DO          Baseline     3.7      100%          Met          3.7       B        B
           Percent of national banks with composite CAMELS          OCC            90%      92%       102%        Exceeded      90%               
           rating of 1 or 2
           Percentage of licensing applications and notices         OCC            95%      95%       100%          Met         95%               
           completed with established timeframes
           Percentage of national banks that are categorized as     OCC            95%      99%       104%        Exceeded      95%               
           well capitalized
           Percentage of national banks with consumer               OCC            94%      97%       103%        Exceeded      94%               
           compliance rating of 1 or 2
           Rehabilitated national banks as a percentage of          OCC            40%      47%       118%        Exceeded      40%               
           problem national banks one year ago (CAMELS 3, 4
           or 5)
           Total OCC costs relative to every $100,000 in bank       OCC          $9.55      $8.39     112%        Exceeded      $9.22             
           assets regulated
           Percent of safety and soundness exams started as         OTS            90%      94%       104%        Exceeded      90%               
           scheduled
           Percent of thrifts that are well capitalized             OTS            95%     98.4%      104%        Exceeded      95%               
           Percent of thrifts with a compliance examination         OTS            90%     95.8%      106%        Exceeded      90%               
           rating of 1 or 2
           Percent of thrifts with composite CAMELS ratings of      OTS            90%      90%       100%          Met         90%               
           1 or 2
           Total OTS costs relative to every $100,000 in savings    OTS         $15.08     $15.10     99.9%        Unmet       $15.07             
           association assets regulated


           Legend                                                         Symbol           Analysis of Performance Results
           Favorable upward trend                                                         Performance for established programs aimed at preventing
           Favorable downward trend                                                       or mitigating financial and economic crises exceeded target
           Unfavorable upward trend                                                       levels for 61 percent of measures, met target levels for 31
           Unfavorable downward trend                                                     percent of measures and did not meet target levels for
           No change in trend, no effect                                    
                                                                                           eight percent of measures. (Three performance measures
           No change in trend, favorable effect                             
                                                                                           were discontinued.) Target trends were generally flat,
           No change in trend, unfavorable effect                           
                                                                                           except for cost measures which have increased over time.
           Baseline                                                         B
                                                                                           Actual trends were mixed, with fewer banks and thrifts
                                                                                           receiving CAMELS ratings of one or two and fewer being
                                                                                           categorized as well capitalized. Lower actual trends for
                                                                                           these measures are indicative of the financial difficulties
                                                                                           faced by banks and thrifts during 2008. Still, the fact that




Strategic Objective: Improved economic opportunity, mobility, and security with                                                                     84
robust, real, sustainable economic growth at home and abroad
                                                                                              Part II — Annual Performance report




most commercial banks and thrifts are well-capitalized           positive result for both bureaus. To improve consumer prac-
suggests that the OCC and OTS generally achieved their           tices at banks and thrifts, the organizations conduct out-
performance goals. However, as performance targets at            reach efforts with advocacy groups, research organizations,
OCC and OTS have been significantly exceeded, and                community development practitioners, and other groups
particularly that targets were exceeded during a challeng-       to determine appropriate consumer protection measures
ing year, strongly suggests that target levels and measures      and help resolve consumer issues. To facilitate fair lending,
need to be reevaluated.                                          the OCC and OTS issue handbooks and provide training
                                                                 to help borrowers determine if services are being offered
Regulation of banks and thrifts                                  appropriately, and to help bankers and bank directors better
Market conditions in fiscal year 2008 have highlighted           understand their obligations under the law. Banks found to
the importance of banks’ ability to identify, measure,           be delinquent in meeting their obligations are referred for
manage, and control risk exposures. As discussed in the          investigation to the Department of Justice, with notification
Management Discussion and Analysis, supervisory efforts          to HUD as appropriate. To improve consumer protection,
at the OCC and OTS have emphasized the need for                  the OCC, OTS, FDIC, and Federal Reserve issued final
sound underwriting and credit administration at financial        rules in 2008 on identity theft “red flags”, management of
institutions, diversified sources of bank funding, strong        address discrepancies, and implementation of the Fair and
internal controls and risk management systems, timely            Accurate Credit Transactions Act of 2003. In November
recognition of losses, and maintenance of adequate loan-         2007, the agencies and the Federal Trade Commission
loss reserves. Still, the percentage of banks and thrifts with   proposed regulations and guidelines to help ensure the
CAMELS ratings of two or higher was lower in 2008 than           accuracy and integrity of information provided to consumer
at any point in the last five years. Favorably, the percentage   reporting agencies, primarily by permitting consumers to
of rehabilitated national banks of problem national banks        directly dispute inaccuracies.
was higher in 2008 than 2007. Efforts to improve visibility
                                                                 BSA/AML provisions remained a priority in 2008. The
into the mortgage crisis through creation of a Mortgage
                                                                 OCC and OTS conducted on-site examinations of bank
Metrics report, stationing of examiners at key banks,
                                                                 compliance with BSA/AML provisions in parallel to
analysis of leveraged lending systems and loan syndication,
                                                                 safety and soundness examinations and took enforcement
and encouragement of bank participation in HOPE NOW
                                                                 action as necessary. The OCC has developed a Money
and Hope for Homeowners will continue. The question
                                                                 Laundering Risk System that provides over 1,600 national
remains of what future action may be necessary to ensure
                                                                 banks risk assessment information, helping facilitate
the banking crisis remains contained.
                                                                 statute compliance.
In addition to regulatory efforts associated with the credit
                                                                 Administrative results for the supervisory bureaus were
crisis, the OCC and OTS supervise activities in the areas
                                                                 mixed. For the OCC, costs per $100,000 in bank assets
of fair lending and consumer protection, implementation
                                                                 supervised fell significantly from $8.89 in 2007 to $8.39
of security measures under the Bank Secrecy Act and
                                                                 in 2008. This was well below the target of $9.55. Still, the
Anti-Money Laundering (BSA/AML) Provisions, and
                                                                 percent of licensing applications and notices completed
preservation of information security.
                                                                 within established timeframes had a lower actual trend than
The OCC and OTS ensure consumers have fair access to             in previous years. For the OTS, costs per $100,000 in thrift
financial services and fair treatment in provision of services   assets supervised in 2008 were $15.10, significantly higher
through ongoing reviews of lending practices. For both the       than $13.90 in 2007. While most of the cost increase is at-
OCC and OTS, the number of regulated institutions with           tributable to costly reviews of holding companies (which are
consumer compliance ratings of one or two exceeded tar-          not included in the cost calculation, but have $8.4 trillion
gets for 2008 and showed an upward actual trend. This is a       in assets) and challenges associated with supervising a large




85                                     Strategic Objective: Improved economic opportunity, mobility, and security with
                                                      robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          number of small thrifts (some 60 percent of savings associa-     Establishment of new performance measure
          tions regulated by OTS have total assets less than $250          for the Office of Technical Assistance
          million), the results suggest additional cost savings actions    In fiscal year 2008, OTA established two new, comprehen-
          may be necessary for 2009. Still, the percentage of safety and   sive performance measures to assess the effectiveness of
          soundness exams started as scheduled improved to 94 per-         assistance programs for client countries. The measures eval-
          cent, exceeding target levels and actual results for previous    uate the traction advisors establish with country leadership
          years. These results show both management improvement            and the impact of client country programs implemented
          and need for additional action at both organizations.            with U.S. assistance. The measures determine traction and
                                                                           impact along four dimensions: country integration into
          Safeguarding critical infrastructure in the                      the international community, country progress towards
          U.S. financial system                                            strategic goals, human and systems capacity building, and
          As the lead agency for management of banking and                 program effectiveness across government and the private
          finance, Treasury is responsible for ensuring security and       sector. The measures were base-lined in fiscal year 2008.
          stability of the financial system in the event of natural or     The average rating was 3.7 for traction and 3.1 for impact,
          man-made disaster. The Office of Critical Infrastructure         out of a possible score of 5.0.
          and Compliance Policy (OCIP) in Treasury collaborates
          with other federal and state regulators and the private          Conclusion
          sector to maintain safeguards against disruptions to critical    The OCC and OTS have made concerted efforts in fiscal
          financial infrastructure.                                        year 2008 to supervise risk management at national banks
                                                                           and thrifts and mitigate the effects of the current credit
          In Fall 2007, OCIP participated in a three-week pan-
                                                                           crisis. Still, the failure of eight national banks and thrifts,
          demic flu exercise involving state and federal authorities,
                                                                           weakened conditions at other banks and excesses in prac-
          financial industry trade groups, and industry participants.
                                                                           tices suggest there is room for improvement in supervisory
          In total some 2,700 organizations participated in the
                                                                           oversight. For performance, better linkage of performance
          exercise, constituting the largest market-wide exercise to
                                                                           targets for OCC and OTS measures to actual results
          date. Following the exercise, OCIP worked with financial
                                                                           would improve visibility into supervisory quality. The fact
          industry participants to develop a report detailing primary
                                                                           that performance targets were exceeded or met for all but
          findings. After issuance of the report, OCIP hosted the
                                                                           one of the bureaus’ measures, despite current challenges in
          first international symposium bringing together financial
                                                                           financial markets, suggests that targets could be set more
          authorities and industry participants from around the
                                                                           aggressively and measures need to be reevaluated. This is a
          world to discuss global pandemic flu planning.
                                                                           challenge Treasury will need to confront in 2009.
          To discuss current and emerging cyber threats, in February
                                                                           Implementation of the new OTA measures has provided
          2008 OCIP hosted a cyber summit bringing together
                                                                           significantly greater clarity on the impact of the office’s
          financial services leaders from the business community,
                                                                           operations. While previous measures gauged only the
          financial regulatory agencies, law enforcement, and the
                                                                           outcome of a client country’s policy process, i.e. whether
          intelligence community. Two organizations representing
                                                                           or not sustainable economic growth was achieved, the new
          the public and private sectors were respectively formed
                                                                           measures allow for more direct analysis of the consultative
          following the summit to coordinate management of cyber
                                                                           role U.S. advisors provide in most countries. Ability to
          threats and improve contingency planning. The commit-
                                                                           track these measures over time will permit greater under-
          tees are jointly planning a cyber exercise for Fall 2008 to
                                                                           standing of the effectiveness of certain policy approaches
          improve crisis response.
                                                                           and will help define ways in which standard recommenda-
                                                                           tions can be tailored to address country-specific needs.




Strategic Objective: Improved economic opportunity, mobility, and security with                                                      86
robust, real, sustainable economic growth at home and abroad
                                                                                                        Part II — Annual Performance report




Additional measures of this type are currently being          Decreased gap in global
considered for other policy offices.                          standard of living

Moving Forward                                                A decreased gap in the global standard of living, associated
The OCC and OTS’ strategic objectives for fiscal year         with improved economic conditions in emerging markets,
2008 continue to emphasize supervisory practices that sup-    improves economic opportunity for Americans. For fiscal
port banks’ and thrifts’ ability to compete while maintain-   year 2008, Treasury programs exceeded their performance
ing safety and soundness. The OCC’s priorities for fiscal     targets related to decreasing the gap in the global standard
year 2009 include supervisory issues related to potential     of living.
adverse changes in national bank asset quality and risk
                                                              Fiscal Year 2008 Results
profiles, completing implementation of Basel II capital
                                                                          Decreased Gap in Global Standard of Living
standards, enforcing compliance with BSA/AML and
USA PATRIOT Act requirements, and ensuring appropriate
follow-up actions associated with financial market turmoil.
                                                                                                                      100% Exceeded
The Shared National Credit Review undertaken by the
OCC, Federal Reserve, OTS, and FDIC will continue
through fiscal year 2009, with the agencies working to
modernize the collection and analysis of data. The two
supervisory bodies will also continue to work with state
authorities to improve coordination and establish uniform
national standards for banking practices.
                                                              Summary of Actual Trends for the Prior Four Years
In December 2008, OTS will hold its Third Annual
National Housing Forum, bringing together the country’s        Trend                                         Symbol   Count       %

foremost experts in housing and mortgage finance to            Favorable upward trend                                 2         100%
                                                               Favorable downward trend                               0              0%
discuss potential solutions to the nation’s housing crisis.
                                                               Unfavorable upward trend                               0              0%
The Forum permits financial services industry participants,
                                                               Unfavorable downward trend                             0              0%
federal and state regulators, public policy advocates, and
                                                               No change in trend, no effect                          0              0%
financial analysts to discuss financing and reform issues.
                                                               No change in trend, favorable effect                   0              0%
The OTS is also in the process of drafting a Financial         No change in trend, unfavorable effect                 0              0%
Institution Reform Initiative offering recommendations on      Baseline                                        B       0              0%
standards for mortgage brokers and mortgage companies.         Total                                                   2         100%
                                                               Discontinued                                            0




87                                   Strategic Objective: Improved economic opportunity, mobility, and security with
                                                    robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          Key Performance Measure Table
          The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
          sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                    Percent
                                                                               FY 2008   FY 2008   of Target   Performance   FY 2009   Target   Actual
           Key Performance Measures                               Bureau        Target    Actual   Achieved       Rating      Target   Trend    Trend
           Improve International Monetary Fund (IMF)               DO            90%      93%       103%        Exceeded      90%               
           effectiveness and quality through periodic review of
           IMF programs
           Percentage of grant and loan proposals containing       DO            90%      94%       104%        Exceeded      90%               
           satisfactory frameworks for results measurement


           Legend                                                       Symbol           on that analysis, and managing international currency
           Favorable upward trend                                                       exchange. The Department’s review of IMF programs
           Favorable downward trend                                                     for effectiveness and quality for fiscal year 2008 yielded
           Unfavorable upward trend                                                     an improvement rate of 93 percent, exceeding the target
           Unfavorable downward trend                                                   improvement rate of 90 percent.
           No change in trend, no effect                                   
           No change in trend, favorable effect                                         As part of its reform process, the IMF has restructured its
           No change in trend, unfavorable effect                                       voting system to expand representation for emerging mar-
           Baseline                                                        B             ket countries. Reforms approved by the voting members of
                                                                                         the IMF announced in April 2008 and supported by the
                                                                                         U.S. tripled the number of voting shares under the charter,
          Analysis of Performance Results
                                                                                         expanding participation and decision-making authority for
          Performance for established programs seeking to de-                            over two-thirds of the IMF’s 185 member countries. The
          crease the gap in the global standard of living exceeded                       change should provide a stronger voice for low-income
          target levels. These results indicate that these programs                      countries and improve the working relationship between
          succeeded in achieving their performance goals.                                the IMF and emerging market participants, better reflect-
          However, the target trends for both measures were flat.                        ing the realities of today’s economic landscape.
          The fact that performance targets were exceeded or
          met for the last four years for both of these measures                         Based on the Treasury Secretary’s recommendation, the
          suggests that targets could be set more aggressively.                          IMF has coordinated development of guidelines for
                                                                                         sovereign wealth fund investment in foreign markets. In
          Reforming international financial institutions                                 September 2008 the International Working Group of
          With the adoption of flexible exchange rates and glo-                          Sovereign Wealth Funds, a body including representatives
          balization of financial markets over the last decade, the                      from 26 sovereign wealth funds working with the IMF,
          need for IMF lending facilities has diminished. The result                     announced preliminary agreement on draft Generally
          has been a reevaluation of policy direction at the IMF to                      Accepted Principles and Practices (GAPP). The GAPP
          determine future course. The Treasury Department, acting                       framework provides a guide for sovereign wealth fund in-
          as the U.S. Government’s primary economic policy agency,                       vestment practices, governance and accountability arrange-
          has been an active participant in these deliberations. The                     ments and is expected to be published in October 2008.
          Department’s primary recommendation for the IMF was
                                                                                         Finally, the Treasury Department has actively supported
          to focus more directly on its core mission of analyzing gov-
                                                                                         restructuring efforts at the IMF to improve internal
          ernment policies, providing advice to governments based
                                                                                         management. Cost-cutting initiatives implemented by the




Strategic Objective: Improved economic opportunity, mobility, and security with                                                                   88
robust, real, sustainable economic growth at home and abroad
                                                                                               Part II — Annual Performance report




Director of the IMF are expected to provide an estimated          activities has been on Iraq, Afghanistan, Georgia, Kosovo,
$100 million in savings and focus the Fund on core                and various African and Latin American countries.
functions. As part of these core functions, the Department
                                                                  Iraq. Treasury continues to help Iraqi officials formulate
has encouraged the IMF to contribute to development
                                                                  and execute sound economic policies and guide their coun-
of a foreign exchange management system to help reduce
                                                                  try on a sustainable path towards economic growth and
conflict between nations over exchange rate management
                                                                  development. As U.S. financial assistance for Iraq declines,
and improve international economic relations.
                                                                  Treasury is helping the Government of Iraq manage its
At the World Bank and European Bank for                           own resources to lead reconstruction efforts and provide
Reconstruction and Development, Treasury has been                 essential services throughout the country. Treasury has
supportive of efforts to increase the voice of developing         helped Iraq secure important debt relief agreements, re-
countries to better reflect their development needs and           main in good standing on its IMF Stand-By Arrangement
initiatives to channel more resources towards lower-income        and commit to a medium-term reform strategy with the
central European countries. Initiatives to reduce debt            support of the international community.
levels and improve the debt sustainability of poor countries
                                                                  Afghanistan. Treasury has worked closely with the Afghan
through the Department’s Heavily Indebted Poor Country
                                                                  government and international institutions to continue
Initiative and Multilateral Debt Relief Initiative have
                                                                  Afghanistan’s movement towards implementation of
also yielded favorable results, particularly through active
                                                                  macroeconomic policies supporting growth, development
engagement with “emerging creditors” such as China.
                                                                  and stability. Primary efforts focus on: helping Afghanistan
In addition to promoting international trade and invest-          meet its international commitments, particularly in the
ment, the Office of International Affairs conducts annual         areas of fiscal sustainability and revenue collection; private
reviews of the grant and loan programs at multilateral            sector development; fighting corruption; and countering
development banks to ensure effective practices are utilized      illicit financial activities.
to support developing economies. For fiscal year 2008, 94
                                                                  Georgia. Following the August 2008 conflict with Russia,
percent of grant and loan programs at the multilateral devel-
                                                                  Treasury has worked with other U.S. Government agencies
opment banks were found to have satisfactory frameworks,
                                                                  and international partners to assess economic vulner-
exceeding target levels and reflecting a positive actual trend.
                                                                  abilities in Georgia. Treasury has proposed mechanisms for
Efforts to support economic liberalization and                    economic support and worked with Georgian authorities
development                                                       to continue policies bolstering market-led economic and
                                                                  financial market development. Significant efforts have been
The Department has a unique position to help transition
                                                                  made to provide a timely support package.
economies and post-conflict countries as they reconstruct
and develop their economies. Treasury financial attachés,         Kosovo. Treasury is providing the new government of
technical assistance officers and regional officers engage        independent Kosovo assistance in developing effective
at all levels of government, helping implement economic           economic policies to support growth and national integra-
policies to promote economic growth and poverty reduc-            tion. This includes establishing a stable fiscal framework
tion. The Treasury attaché program in particular, whereby         and implementing policies that provide a strong basis for
attachés are posted in foreign countries considered signifi-      private sector growth, notably in the energy sector. Treasury
cant to U.S. domestic or foreign economic policy, has been        is also assisting with Kosovo’s membership applications
a central component of this support effort. By November           to international financial institutions and with efforts to
2008, the Department will have 16 attaché posts estab-            resolve outstanding financial and debt issues with Serbia.
lished with an additional five planned for deployment in
2009. Specific focus for development and reconstruction




89                                     Strategic Objective: Improved economic opportunity, mobility, and security with
                                                      robust, real, sustainable economic growth at home and abroad
Fiscal Year 2008 Performance and Accountability Report




          African countries. Economic performance in sub-Saharan         liberalization and development. The IMF’s efforts in
          Africa has improved dramatically in the last five years.       restructuring management and reorienting strategic focus,
          Treasury, with advice and financial support provided           however, may be attenuated in fiscal year 2009 if weakened
          through the IMF and debt relief initiatives with other do-     financial conditions increase sovereign demand for IMF
          nors, has encouraged African governments to implement          lending and analytical support. Expansion of Treasury’s
          macroeconomic policies promoting economic growth.              attaché program has yielded favorable results and will
          Key action areas include: engaging African government          continue to receive primary attention as means to improve
          officials on implementation of sound fiscal and monetary       communications with participant countries.
          policies, working through the IMF to help low-income
          countries strengthen macroeconomic policy, and providing       Moving Forward
          debt relief on condition of commitment to maintaining          Treasury will continue to work with international de-
          macroeconomic stability.                                       velopment banks, the IMF, the World Bank, and other
                                                                         organizations to promote economic growth in developing
          Latin America. Treasury continues to foster the U.S. Small
                                                                         markets. Ongoing reforms at the IMF, World Bank, and
          Business Lending Initiative, launched in June 2007, to
                                                                         other organizations to better integrate emerging market
          accelerate job creation and poverty-reduction in Latin
                                                                         perspectives in policy-making is essential for redefining
          America. Since inception, the initiative has generated
                                                                         international financial institutions to better match global
          $68 million in loans and technical assistance grants to
                                                                         markets. As economic reforms in Africa, Latin America,
          commercial banks in Latin America, providing support
                                                                         and other parts of the developing world continue, it can
          for small business development. Treasury also is providing
                                                                         be expected that additional reforms will be necessary
          technical assistance to countries in Latin America focused
                                                                         to reflect changed conditions. Treasury will continue to
          on establishing anti-money laundering measures.
                                                                         actively participate in international deliberations seeking
                                                                         ways to reduce the global standard of living gap, with the
          Conclusion
                                                                         perspective that stronger international markets benefit the
          Treasury continues to play an important role in the imple-
                                                                         American economy.
          mentation of reforms at international financial institutions
          and development of programs supporting economic




Strategic Objective: Improved economic opportunity, mobility, and security with                                                 90
robust, real, sustainable economic growth at home and abroad
                                                                                                                                                                                                    Part II — Annual Performance report



Strateg ic Goal: U.S. an d Wor ld Econom i es
Pe r for m at Fu ll Econom ic Pote ntial


  Strategic Objective:
     Trust and Confidence in U.S. Currency Worldwide

Continued trust and confidence in the integrity of United                                                                    documents to the United States Federal Reserve and to
States currency, and the ready acceptance of U.S. currency                                                                   federal agencies. In addition to producing notes, coins,
as a secure medium of exchange for conducting business                                                                       and security documents, the Department also secures the
transactions, enable the free flow of domestic and global                                                                    nation’s precious metals reserves.
commerce, and contribute to the security and stability of
                                                                                                                             The bureaus and policy offices responsible for the achieve-
the world’s monetary system. Total circulation of U.S. cur-
                                                                                                                             ment of this objective are:
rency around the world exceeds $770 billion, and as much
as two-thirds of that circulates outside the borders of the                                                                                             •	 The Bureau of Engraving and Printing
United States. To instill high levels of trust and confidence                                                                                           •	 The United States Mint
in the integrity of U.S. currency, the Department’s currency
                                                                                                                                                        •	 The Office of the Treasurer of the United States
products are designed to achieve the maximum possible
levels of counterfeiting deterrence, product quality, user                                                                   The outcome associated with this strategic objective is:
acceptance, and cost-effectiveness. To achieve these levels,                                                                                            •	 Commerce enabled through safe, secure U.S. notes
BEP and the United States Mint manufacture and deliver                                                                                                    and coins
high-quality U.S. currency notes, coins, and security


                                            Budget Trend by Objective                                                                                                      Performance Cost Trend

                               $3,000,000                                                                                                                  $3,000,000
  Dollars (in Thousands)




                                                                                                                               Dollars (in Thousands)




                               $2,400,000                                                                                                                  $2,400,000

                               $1,800,000                                                                                                                  $1,800,000

                               $1,200,000                                                                                                                  $1,200,000
                                            $1,459,176



                                                         $1,506,143



                                                                          $2,012,017



                                                                                        $2,370,208




                                                                                                                                                                          $1,579,915



                                                                                                                                                                                       $1,541,046



                                                                                                                                                                                                       $2,099,429



                                                                                                                                                                                                                     $2,139,937



                                                                                                                                                                                                                                          $2,552,998
                                                                                                     $2,706,326




                                $600,000                                                                                                                    $600,000

                                      $0                                                                                                                          $0
                                            2004         2005           2006           2007          2008                                                                 2004         2005           2006          2007                 2008
                                                                      Fiscal Year                                                                                                                   Fiscal Year



                           Trust and Confidence in U.S. Currency Worldwide                                                                                              Performance Cost by Outcome

                                                                                                      14% Unmet
                                                                                                                                                                                                                                  Commerce enabled through safe,
                                                                                                                                                                                                                                  secure U.S. notes and coins

                           50% Exceeded

                                                                                                      36% Met                                    100%




91                                                                                                                Strategic Objective: Trust and Confidence in U.S. Currency Worldwide
Fiscal Year 2008 Performance and Accountability Report




           Program Assessment Rating Tool 2008
                                                                                          Year                                                      Current
           Program                                                          Bureau      Conducted                            Rating            Improvement Plan
           New Currency Manufacturing                                        BEP           2003                          Effective                      

           Protection and Accountability of Assets                           BEP           2006                          Effective                      

           Coin Production                                                   Mint          2002                          Effective                      
           Numismatic Program                                                Mint          2004                          Effective                      

           Protection                                                        Mint          2005                          Effective                      

            Click on program name to obtain more information.




          Commerce enabled
          through safe, secure
          U.S. notes and coins
          Based on performance results, Treasury was generally suc-
          cessful at achieving this strategic objective and its associ-
          ated strategic outcome during fiscal year 2008.
                                                                                     Summary of Actual Trends for the Prior Four Years
          Fiscal Year 2008 Results
                                                                                      Trend                                           Symbol      Count     %
                                                                                      Favorable upward trend                                      0         0%
                              Commerce Enabled Through Safe,
                               Secure U.S. Notes and Currency                         Favorable downward trend                                    6        43%
                                                                                      Unfavorable upward trend                                    2        14%
                                                                14% Unmet             Unfavorable downward trend                                  2        14%

               50% Exceeded                                                           No change in trend, no effect                               1         7%
                                                                                      No change in trend, favorable effect                        2        14%
                                                                                      No change in trend, unfavorable effect                      0         0%
                                                                36% Met               Baseline                                          B          1         7%
                                                                                      Total                                                        14       100%
                                                                                      Discontinued                                                 3




Strategic Objective: Trust and Confidence in U.S. Currency Worldwide                                                                                        92
                                                                                                              Part II — Annual Performance report




Key Performance Measure Table
The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                          Percent
                                                                    FY 2008    FY 2008   of Target   Performance   FY 2009   Target   Actual
 Key Performance Measures                             Bureau         Target     Actual   Achieved       Rating      Target   Trend    Trend
 Manufacturing costs for currency (dollar costs per    BEP          $33.00     $29.47     111%        Exceeded     $37.00             
 thousand notes produced)
 Maintain ISO Certification                            BEP             Met      Met       100%          Met          Met              
 Currency production (billion notes)                   BEP             7.7       7.7      100%          Met          6.8              
 Percent of currency notes delivered to the Federal    BEP          99.9%       100%     100.1%       Exceeded      99.9%             
 Reserve that meet customer quality requirements
 Currency shipment discrepancies per million notes     BEP          0.01%      0.01%      100%          Met         0.01%             
 Security costs per 1,000 notes delivered              BEP           $5.65      $5.63    100.4%       Exceeded      $5.65             
 Conversion costs per 1,000 coin equivalents           Mint          $7.09      $8.46     80.7%        Unmet        $7.99             
 Conversion costs per 1,000 coin equivalents (%        Mint         Baseline    11%       100%          Met          0%        B        B
 deviation from target)
 Protection cost per square foot                       Mint         $32.50     $31.76     102%        Exceeded     $31.75             
 Employee confidence in protection                     Mint            86%      81%        94%         Unmet        83%               


 Legend                                                       Symbol           negative actual performance trend over time, two (14 per-
 Favorable upward trend                                                       cent) showed relatively flat performance over time, and a
 Favorable downward trend                                                     baseline was being established for one measure (7 percent).
 Unfavorable upward trend                                                     Overall, it can be concluded that trended actual perfor-
 Unfavorable downward trend                                                   mance over time appears to show a trend of improvement
 No change in trend, no effect                                                when averaged across all measures. Taking into consider-
 No change in trend, favorable effect                                         ation that three measures (18 percent, nearly one-fifth) of
 No change in trend, unfavorable effect                         
                                                                               the associated performance measures were discontinued
 Baseline                                                       B
                                                                               in 2008, one might also conclude, however, that the
                                                                               Department still needs to find a stable way of measuring
Analysis of Performance Results                                                success at achieving this objective and its outcome. Efforts
In fiscal year 2008, 14 measures were reported for this                        to narrow in on an effective way to measure such success
objective, one of which was a new measure. Of all 14                           may need to become more aggressive.
measures, 12 measures (86 percent) either exceeded or met
                                                                               When target trends over the past four fiscal years are
their performance targets. Two measures (14 percent) did
                                                                               examined, one finds that six targets have a positive direction
not meet targets.
                                                                               (43 percent), two targets (14 percent) exhibited a fairly flat
While the reported metrics indicate that Treasury met its                      trend, and five (36 percent) displayed a negative direction.
performance targets for this objective and its associated                      A baseline was being established for one measure (seven
outcome for fiscal year 2008, performance trends over the                      percent). Averaging these trends across all measures, it can
past four fiscal years require closer examination. Of these                    be concluded that the overall trend in target-setting for
measures, seven (50 percent) showed a positive actual                          this objective and its outcome also remained essentially flat.
performance trend over time, four (29 percent) showed a                        Taken together, the actual performance and target trends




93                                                            Strategic Objective: Trust and Confidence in U.S. Currency Worldwide
Fiscal Year 2008 Performance and Accountability Report




          over time may suggest that, either more aggressive target-       BEP efforts related to protection and accountability
          setting is needed to stimulate improved performance, or          over government assets continued to meet performance
          perhaps new measures may need to be established.                 expectations, and BEP appears on track in its drive to
                                                                           reduce security costs by 43 percent between 2006 and
          The Bureau of Engraving and Printing                             2012. Measures of shipment accuracy and overall security
          In fiscal year 2008, BEP delivered 7.7 billion paper currency    cost continued to meet targets. Fines, fees, and losses were
          notes meeting Federal Reserve product quality standards          also well under target.
          and exceeding its performance target for costs per 1,000
                                                                           In 2008, as it has for the past 23 consecutive years, BEP
          notes produced. Notwithstanding, BEP manufacturing costs
                                                                           has received an unqualified audit opinion on its financial
          increased from $28.71 per thousand units in 2007 to $29.47
                                                                           statements from an independent certified public account-
          in 2008, a 2.65 percent increase. The increase was largely
                                                                           ing firm. The Bureau also received an unqualified opinion
          due to the annual Federal Reserve order for paper currency
                                                                           in 2008, as it has for the past three years, on the effective-
          shifting toward proportionally greater production of higher-
                                                                           ness of its internal controls over financial reporting based
          denomination notes which are more costly to manufacture
                                                                           on criteria established by the Committee of Sponsoring
          and deliver. In addition, there was a 7.2 percent reduction
                                                                           Organizations of the Treadway Commission, a voluntary
          in total currency notes ordered in 2008 as compared to
                                                                           private sector organization dedicated to improving the
          2007. Any highly capital-intensive manufacturing operation
                                                                           quality of financial reporting through business ethics,
          will tend to incur relatively high proportions of fixed costs;
                                                                           effective internal controls, and corporate governance. (For
          therefore, as production volume decreases, so do the number
                                                                           more information see http://www.coso.org/aboutus.htm.)
          of units among which those fixed costs can be spread mak-
          ing each unit produced more costly. Reduction in Federal
                                                                           The United States Mint
          Reserve demand for currency also reduced BEP productivity
                                                                           For the United States Mint, fiscal year 2008 was a year of
          by approximately 12 percent versus the prior year.
                                                                           mixed results. The slowing economy had a major impact on
          A notable effort in the currency manufacturing arena             the Mint’s financial results. Total revenue in 2008 reached
          during the fiscal year included the launch of a redesigned       $2.80 billion, a $165 million (6.3 percent) increase from
          $5 note that went into circulation on March 13, 2008, a          $2.64 billion in 2007. As a result of operations, the Mint
          product redesign initiated to keep the nation’s currency a       returned $750 million to the Treasury General Fund, down
          step ahead of a developing counterfeiting threat.                $75 million (9.1 percent) from last year.

          BEP continued to keep product quality at consistently high       During fiscal year 2008, the United States Mint shipped
          levels despite changes in volume. In fiscal year 2008, BEP       10.0 billion coins to the Federal Reserve, down from 14.0
          reported nearly 100 percent of the currency notes delivered      billion coins shipped in fiscal year 2007. Circulating coin
          to the Federal Reserve met its product quality requirements.     demand fell from fiscal year 2007 levels because of the
          As it has for the past six years, BEP maintained ISO 9001        economic slowdown and the Federal Reserve’s decision
          certification in fiscal year 2008 for its currency production    to lower inventories. When production volumes decline
          quality management system. ISO 9001 certification indi-          because of lower demand, the Mint must allocate fixed costs
          cates an ongoing commitment to continuous process and            over fewer units, which drives unit costs upward. While
          quality improvement. In 2008, BEP also continued efforts         declining from last year, the unit cost for penny and nickel
          to maintain ISO 14001 certification, which it first obtained     denominations remained above face value for the third con-
          in 2007. ISO 14001 certification indicates a commitment to       secutive fiscal year. Lower volumes also limited the Mint’s
          high-quality environmental management.                           ability to maintain the cost per 1,000 coin equivalents
                                                                           below target. Quarter and dollar denominations made up a
                                                                           growing portion of total coins shipped because of continued




Strategic Objective: Trust and Confidence in U.S. Currency Worldwide                                                                 94
                                                                                              Part II — Annual Performance report




collector interest in the rotating coin designs of the 50 State   Retail sales of numismatic versions of the Mint’s circulat-
Quarters and Presidential $1 Coin Programs. This increased        ing and commemorative coins remained strong in spite of
the Mint’s revenue from circulating operations and also           the slowing economy. Numismatic revenue totaled $557
augmented seigniorage (the difference between a coin’s face       million, outpacing the fiscal year 2007 record total of
value and its unit cost) per dollar issued. While the total       $552 million. Strong sales of both new and core recurring
quantity of coins shipped was, on average, 4.4 million coins      products drove most of the growth in fiscal year 2008. Net
down from the past four fiscal years, revenue reached $1.29       income and seigniorage from numismatic sales increased
billion and circulating seigniorage totaled $706 million.         to $85 million in fiscal year 2008 compared to $76 million
                                                                  last year, an 11.8 percent increase.
The Presidential $1 Coin Act (Public Law 109-145) mandates
Mint to identify, analyze, and overcome barriers to the           The Mint experienced unprecedented sales of its gold,
robust circulation of $1 coins. Promoting circulating usage       platinum, and silver bullion coins in fiscal year 2008. As
of the coins is also beneficial to financial results because      the economy and financial markets softened, investors
$1 coins can be minted and issued at a higher seigniorage         sought the perceived safety of precious metals. Total
per dollar than any other denomination. As of September           bullion revenue topped $949 million, a $593 million (166.4
30, 2008, the United States Mint had approximately $224           percent) increase from fiscal year 2007. However, in fiscal
million dollar coins in inventory primarily made up of            year 2008, the Mint needed to temporarily suspend the
Sacagawea dollar coins produced in 2000 and 2001 ($92             sale of certain bullion products because inventories were
million), and the Presidential dollar coins produced in           insufficient to meet record demand. To address this, the
2007, the first year of the Presidential Dollar program ($83      Mint set standard allocation and ordering limits so that
million). Net pay for all $1 coins in fiscal year 2008 totaled    scarce products would be equitably distributed among
$240 million. This represents a 49 percent decline from the       authorized purchasers. The availability of processed
$467 million coin net pay recorded in fiscal year 2007. The       precious metals is a worldwide problem, as the Mint must
Federal Reserve defines demand for circulating coinage by         compete with other mints and consumers of metals around
the net payment (net pay) of coins at the Federal Reserve         the world to acquire a limited supply of precious metal.
level. Net pay is the difference between coins deposited          Despite supply constraints, the Mint remains one of the
and coins withdrawn at the Federal Reserve by depository          world’s largest producers of gold and silver bullion coins.
financial institutions (i.e. commercial banks and thrift          During the fiscal year, efficient use of production capacity
institutions).                                                    allowed the Mint to achieve record bullion production
                                                                  volume without incurring additional operating costs. The
As part of the Mint’s continuing work to promote the
                                                                  Mint produced 10.5 million (126.8 percent) more ounces
robust circulation of $1 coins, at the close of fiscal year
                                                                  of gold, silver, and platinum bullion than fiscal year 2007.
2008, the Mint developed a three-pronged strategy to
                                                                  Net income from bullion sales increased to $17.8 million
increase transactional demand of $1 coins and began test-
                                                                  in fiscal year 2008 compared to $4.6 million in fiscal year
ing it in a four-city pilot program. In addition to standard
                                                                  2007, a sharp 287 percent increase of $13.2 million dollars,
public relations and advertising efforts used in the past,
                                                                  nearly quadrupling the prior year’s figure.
the bureau focused on retail activation by promoting usage
directly with large-scale retailers. A thorough review of the     The Mint is responsible for protecting over $200 billion
pilot will be conducted when it concludes in November             in United States assets stored in its facilities. The Mint’s
2008. If successful in generating a significant increase in       Office of Protection safeguards both Mint assets and
$1 coins in circulation, the Mint will launch a regional or       non-Mint assets in its custody, including gold and silver
national program in 2009.                                         bullion reserves, as well as the Mint’s products, employees,
                                                                  facilities, and equipment. During fiscal year 2008, the Mint




95                                                   Strategic Objective: Trust and Confidence in U.S. Currency Worldwide
Fiscal Year 2008 Performance and Accountability Report




          achieved its target protection cost per square foot metric by    it is estimated volume will be reduced another 11.7 percent
          reducing expenses for overtime and travel from last year.        from 2008 levels, to 6.8 billion notes, representing a capacity
                                                                           utilization of only 68 to 85 percent. Electronic commerce,
          Conclusion                                                       such as internet based electronic transactions and stored
          Based on the analysis of the results, it can be concluded        value cards, has adversely affected currency use by the public.
          that the current suite of measures only partially gauges the     These and other economic trends increase the potential for
          success of the outcome and objective associated with coins       further reductions in BEP production volume in the future.
          and currency. Improved measures are needed to determine if       This will require BEP to closely monitor and streamline
          commerce is effectively enabled for the nation, particularly     overhead and production process costs to ensure the most
          for coinage. Accurately forecasting demand and maintain-         efficient production of the nation’s paper currency.
          ing inventory targets will minimize costs related to the
                                                                           To improve efficiency, BEP is engaged in a multi-year
          entire supply chain. Management of Numismatic product
                                                                           project to retool and retrofit its manufacturing processes to
          inventory also needs to be addressed to minimize the costs
                                                                           increase its flexibility and improve its response to product
          of obsolescence and disposal. Measures providing even more
                                                                           configuration changes. The project will include installation
          information about process and product quality (such as cycle
                                                                           of new state-of-the-art equipment capable of producing
          time and Six Sigma quality measures) could reduce manu-
                                                                           50-note currency sheets, achieving greater production
          facturing costs even further for both BEP and the Mint.
                                                                           efficiency than the existing equipment, which produces
          BEP has engaged in an extensive effort to rapidly in-            32-note sheets. The new equipment will include intaglio
          troduce counterfeit-deterrent currency note redesigns,           presses, electronic inspection systems, and finishing equip-
          a necessary step to address the increasing frequency of          ment. BEP is also investing in new technologies such as
          serious counterfeiting threats, and to bolster global trust      its BEP Enterprise (BEN) program, which will integrate
          and confidence in the integrity of U.S. currency. The            various disparate information technology systems and
          only indicator of success in this arena is the estimated         applications used at BEP. The BEN program is intended to
          counterfeiting rate. Because it is an indicator, setting a       optimize the reliability, integration, and timely collection
          target for this would be similar to setting a target for the     of real-time performance data from equipment on the
          unemployment rate – it is an important outcome, but it           production floor. Having this data available when needed
          is extremely difficult to draw a direct correlation between      will enable production supervisors and program managers
          it and the actions of the Treasury Department. However,          to proactively manage manufacturing processes to gain
          other measures could be considered such as the average           production efficiency, and improve quality and productivity.
          cycle time and marginal costs to introduce note redesigns.
                                                                           Today’s operating environment requires BEP to invest
                                                                           heavily in research and development to meet the need for
          Moving Forward
                                                                           increasingly complex advanced counterfeit deterrent features
          Continual imaginative efforts at counterfeiting U.S. cur-
                                                                           needed to keep U.S. paper currency on the leading edge in
          rency and advancements in available technology demand
                                                                           counterfeit deterrence and to garner wide note acceptance by
          that BEP invest heavily in research and development on
                                                                           the public. To increase note acceptance, BEP has contracted
          counterfeit-deterrent note features. As a manufacturer, BEP
                                                                           a research study that is looking at options for enhancing
          has a highly capital-intensive operation with high fixed costs
                                                                           note accessibility for the blind and visually impaired. This
          to cover. This forces BEP to squeeze the greatest possible
                                                                           study is expected to be delivered in the second quarter of
          cost efficiencies in its manufacturing operations without
                                                                           2009. Additionally, in response to requests posed by the
          sacrificing effectiveness. Volume decreases place even greater
                                                                           Federal Reserve to lower downstream costs of currency, BEP
          pressure on the Bureau. BEP expects that in fiscal year
                                                                           is also in process of testing various materials to investigate
          2009, productivity will drop another eight percent because
                                                                           ways to prolong the useful life of currency notes.




Strategic Objective: Trust and Confidence in U.S. Currency Worldwide                                                                 96
                                                                                              Part II — Annual Performance report




BEP is continually evaluating the size and capability             adequacy of internal controls, the physical security of
of its workforce so as to operate as cost-effectively as          assets and employees, and the adequacy of operating
possible. BEP increasingly needs employees that possess           management oversight and the physical security and
a high degree of technical skill, and recognizes the need         monitoring infrastructure. For proper asset accountability
to continue building its workforce’s capability to use more       and security, BEP has policies requiring direct involvement
advanced equipment and meet new note design require-              of accounting and security personnel to ensure that proper
ments. To address this challenge, BEP has implemented a           accountability and security features are identified and
competency and skill assessment and a training program            addressed during each stage of acquisition and installation
designed to elevate the skill and proficiency levels of the       of new equipment. Whenever facility space is reconfigured
BEP workforce, and provide optimized training where               to modify production processes, BEP maintains proper
needed. This program should enhance staffing flexibility          camera coverage and two-person compliance procedures
under a variety of foreseeable production scenarios.              for security and internal financial control. To boost IT
                                                                  security, BEP has evaluated, certified, and accredited all of
To maintain trust and confidence in U.S. currency,
                                                                  its IT systems to meet applicable federal requirements, and
today’s operating environment forces BEP to engage in
                                                                  implemented technologies such as laptop encryption and
continuous efforts to improve note design, since rapid
                                                                  removable hard drive installation to prevent the compro-
developments in reprographic technologies and computer-
                                                                  mise of information security, as well as patch management,
driven printing pose increased challenges to counterfeit
                                                                  and active vulnerability scanning and feedback programs
deterrence. In response, BEP continues to collaborate with
                                                                  to reduce information system vulnerability and improve
other members of the Advance Counterfeit Deterrent
                                                                  the resilience of operational capability. Comprehensive
Steering Committee such as the Federal Reserve Board,
                                                                  succession planning is also being implemented, including
the United States Secret Service, and other organizations
                                                                  emergency delegation of authority, safekeeping of records,
within the Department of the Treasury to determine the
                                                                  and establishment of emergency operating capabilities.
effectiveness of current counterfeit deterrent features
and evaluate possible future features and designs. The            To ensure smooth introduction and ready acceptance
Committee also monitors the reliability of the BEP manu-          of the new redesign of the $100 note and other future
facturing process, the incorporation of new design features,      redesigned denominations, ongoing domestic and
and the effectiveness of those features during the course         international communication and outreach about note
of daily cash transactions. To stay ahead of increasingly         redesign and counterfeit deterrent features is imperative
sophisticated counterfeiting threats, BEP is continuing           for the business and financial communities such as foreign
its redesign of U.S. currency. Redesign of the $100 note is       exchange companies, law enforcement agencies, banking
underway, and a new design is expected to be approved for         officials, other cash handlers in industry, and to the gen-
production in the 2009 to 2010 time frame.                        eral public. This is particularly important as international
                                                                  interest in the redesigned $100 note is expected to greatly
To monitor ongoing product quality and asset account-
                                                                  exceed what was experienced during rollout of previous
ability, BEP employs comprehensive security and product
                                                                  note redesigns. To secure solid awareness of these
accountability programs. BEP is implementing a risk-
                                                                  changes, BEP is developing an extensive public education
based management approach to augment and improve
                                                                  strategy to inform target industries and key stakeholder
these programs, designed to identify and rank risks and
                                                                  groups about the new $100 note design. This strategy that
vulnerabilities by order of priority, so appropriate attention
                                                                  may involve support from U.S. Foreign Service and other
and resources are allocated to areas of greatest vulnerability.
                                                                  State Department personnel, as well as law enforcement
BEP also conducts stringent oversight methods such as
                                                                  agencies and foreign central banks around the world. It
physical inventories, unannounced compliance reviews,
                                                                  is crucial that users of U.S. currency worldwide be made
and independent audits, to assess, test, and monitor the




97                                                  Strategic Objective: Trust and Confidence in U.S. Currency Worldwide
Fiscal Year 2008 Performance and Accountability Report




          aware of design changes to avoid confusion over the notes’      would remain unaffected. On May 6, 2008, the United
          authenticity when issued by the Federal Reserve, and so         States House of Representatives passed a different approach
          people will recognize genuine U.S. currency when they           to the problem by voice vote in H.R. 5512. In response,
          receive it.                                                     the Mint Director wrote to the House Subcommittee on
                                                                          Domestic and International Monetary Policy, Trade and
          Although the Mint has successfully worked to reduce its
                                                                          Technology on May 6, 2008, stating that the “provisions
          manufacturing costs, base metal prices continue to make
                                                                          of the bill are too prescriptive and limiting to allow for
          up the largest portion of circulating coinage production
                                                                          the successful implementation of the Act without severely
          cost. Changing the composition of circulating coins to less
                                                                          jeopardizing significant and lasting cost savings for the
          expensive alternatives can generate significant cost savings
                                                                          American taxpayer.” H.R. 5512 has since been referred to
          and mitigate further reductions in seigniorage should
                                                                          the Senate Committee on Banking, Housing and Urban
          metal market prices again increase for copper, nickel, and
                                                                          Affairs, and the Mint continues to discuss the benefits of S.
          zinc. This is an important consideration, since there have
                                                                          1986 with the Committee, and is asking for consideration of
          been steady increases in the prices of copper, nickel, and
                                                                          the legislation during the 110th Congress. Further results of
          zinc over the last few years. Although metals prices have
                                                                          these efforts were pending as of the end of fiscal year 2008.
          trended downward during fiscal year 2008, the average
          daily spot price for the month of September increased           The Mint is responsible for providing an uninterrupted
          141.5 percent for copper, 34.0 percent for nickel, and 78.0     supply of circulating coinage to meet the needs of the
          percent for zinc between 2004 and 2008.                         United States. In fiscal year 2009, the Mint will establish
                                                                          a strategic coin reserve to ensure continuous supply of
          The Mint’s legislative affairs office and the Department are
                                                                          circulating coins in the event of coin demand exceeding
          working to advocate for the passage of legislation granting
                                                                          production capacity. The strategic reserve will hold suf-
          the Secretary of the Treasury the authority to implement
                                                                          ficient coinage to compensate for an unexpected disrup-
          changes in coin material composition without having to
                                                                          tion in operations equivalent to the loss of one circulating
          first secure congressional approval. This could enable more
                                                                          plant for a period of three months. Production disruptions
          effective control over the cost of raw materials used to
                                                                          beyond that time may require additional measures. The
          manufacture coin products, and ultimately result in signifi-
                                                                          United States Mint plans to build the coin inventory
          cant savings by providing the Department’s flexibility to
                                                                          over the next three years by taking advantage of excess
          respond to changing market conditions. Legislation recom-
                                                                          production capacity during periods of lower coin demand.
          mended by the United States Mint and Department of the
                                                                          The accumulated inventory will also allow the agency to
          Treasury was introduced in the House of Representatives
                                                                          quickly meet any unexpected spikes in coin demand.
          as H.R. 3330 and in the U.S. Senate as S. 1986, The Coinage
          Materials Modernization Act of 2007. In connection,              The Mint has also established a performance metric to
          United States Mint Director testified before the House          monitor productivity that will be used internally at its
          Subcommittee on Domestic and International Monetary             manufacturing plants beginning in fiscal year 2009. The
          Policy, Trade and Technology on March 11, 2008. H.R.            metric, related to operating equipment efficiency and
          3330 assigns the responsibility for determining the metal       covering operating data such as yield, machine throughput,
          content of all circulating coinage to the Secretary of the      and machine availability, is aimed at improving productiv-
          Treasury, the approach recommended by the Department to         ity. Additionally, the Mint is in process of rolling out a
          fairly and efficiently manage the highly technical evaluation   suite of new performance measures in fiscal year 2009 that
          of alternative metals using a public process with public        will more clearly link to its outcome. These measures were
          protections afforded by the Administrative Procedures Act.      still under development as of the close of fiscal year 2008.
          Any other statutory provisions applicable to coinage such as
          denominations, size, required inscriptions, and other factors




Strategic Objective: Trust and Confidence in U.S. Currency Worldwide                                                              98
                                                                                                                                                                                  Part II — Annual Performance report



Strateg ic Goal: Pr eve nte d Te r ror ism an d Promote d th e
Nation’s Secu r ity Th roug h Str e ngth e n e d I nte r national
Fi nancial Syste ms


   Strategic Objective:
      Pre-empted and Neutralized Threats to the International Financial System
      and Enhanced U.S. National Security

 The Office of Terrorism and Financial Intelligence (TFI)                                                                                    •	 The Office of Intelligence and Analysis (OIA)
 is the only organization solely devoted to using financial                                                                                    provides all-source intelligence analysis, leads
 intelligence to track, degrade, and disrupt threats to                                                                                        the Department’s integration into the larger
 U.S. national security. Its unique capabilities leverage                                                                                      Intelligence Community, and provides support to
 intelligence, law enforcement, sanctions, regulatory, and                                                                                     Department leadership on a full range of economic,
                                                                                                                                               political, and security issues
 diplomatic tools to achieve Treasury’s strategic objective.
 It is imperative that potential threats to U.S. national                                                                                    •	 The Financial Crimes Enforcement Network
 security from financial and other support networks of                                                                                         (FinCEN) is responsible for administering the
 terrorists, weapons of mass destruction (WMD) prolifera-                                                                                      Bank Secrecy Act (BSA) and other regulatory
 tors, drug traffickers, rogue regimes, and other criminals be                                                                                 functions
 impaired. Keeping the world’s financial systems accessible                                                                                  •	 The Treasury Executive Office of Asset Forfeiture
 to legitimate users and excluding those who wish to exploit                                                                                   administers the Treasury Forfeiture Fund, which
 these systems for illegal purposes ensures confidence in                                                                                      is the receipt account for the deposit of non-tax
 U.S. and international financial systems. If these systems                                                                                    forfeitures
 are safeguarded and transparent, the ability of terrorists,
                                                                                                                  The outcomes associated with this objective are:
 drug traffickers, WMD proliferators, and other criminals
                                                                                                                                             •	 Removed or reduced threats to national security
 to conceal illicit dealings will diminish.
                                                                                                                                               from terrorism, proliferation of weapons of mass
 This is accomplished through five unified policy offices and                                                                                  destruction, drug trafficking and other criminal
 one bureau within the Department:                                                                                                             activity on the part of rogue regimes, individuals,
                                                                                                                                               and their support networks
                            •	 The Office of Foreign Assets Control (OFAC)
                              administers and enforces economic and trade                                                                    •	 Safer and more transparent U.S. and international

                              sanctions                                                                                                        financial systems

                            •	 The Office of Terrorist Financing and Financial
                              Crimes (TFFC) is the policy and outreach appara-
                              tus for TFI

                                           Budget Trend by Objective                                                                                         Performance Cost Trend

                                $900,000                                                                                                         $600,000
   Dollars (in Thousands)




                                                                                                                    Dollars (in Thousands)




                                $750,000                                                                                                         $500,000

                                $600,000                                                                                                         $400,000

                                $450,000                                                                                                         $300,000

                                $300,000                                                                                                         $200,000
                                           $350,001



                                                      $455,108



                                                                     $602,332



                                                                                 $697,774




                                                                                                                                                                                      $478,764



                                                                                                                                                                                                  $505,209



                                                                                                                                                                                                             $555,144
                                                                                            $778,960




                                                                                                                                                            $221,944



                                                                                                                                                                       $270,553




                                $150,000                                                                                                         $100,000

                                     $0                                                                                                               $0
                                           2004       2005         2006         2007        2008                                                            2004       2005          2006        2007        2008
                                                                 Fiscal Year                                                                                                      Fiscal Year




 99                                                                                                               Strategic Objective: Pre-empted and neutralized threats to
                                                                                                       the international financial system and enhanced U.S. national security
Fiscal Year 2008 Performance and Accountability Report




               Pre-empted and Neutralized Threats to the International                                  Performance Cost by Outcome
                  Financial System and Enhanced National Security


                                                                                          20%                                                 Removed or reduced threats to
                                                                5% Unmet                                                                      national security from terrorism,
                                                                                                                                              proliferation of weapons of mass
                                                                                                                                              destruction, narcotics trafficking and
                                                                                                                                              other criminal activity on the part of
                                                                                                                                              rogue regimes, individuals, and their
                                                                                                                                              financial and other support networks

               70% Exceeded                                     25% Met                                                                       Safer and more transparent U.S. and
                                                                                                                                              international financial systems


                                                                                          80%




           Program Assessment Rating Tool 2008
                                                                                         Year                                                        Current
           Program                                                         Bureau      Conducted                            Rating              Improvement Plan
           Economic and Trade Sanctions Program: Office of Foreign          DO            2002                Results Not Demonstrated                         
           Assets Control
           BSA Data Collection, Retrieval and Sharing                      FinCEN         2005                   Moderately Effective                          
           Bank Secrecy Act Administration                                 FinCEN         2006                Results Not Demonstrated                         
           Bank Secrecy Act Analysis                                       FinCEN         2006                         Adequate                                
            Click on program name to obtain more information.




          Removed or reduced threats
          to national security from
          terrorism, proliferation of
          weapons of mass destruction,
          drug trafficking and other
          criminal activity on the part
          of rogue regimes, individuals,
          and their support networks
          Based on performance results, Treasury was generally suc-
          cessful in achieving this outcome in fiscal year 2008.
                                                                                    Summary of Actual Trends for the Prior Four Years
          Fiscal Year 2008 Results                                                   Trend                                           Symbol         Count                         %

               Removed or Reduced Threats to National Security                       Favorable upward trend                                               2                  50%
                                                                                     Favorable downward trend                                             0                    0%
                                                                                     Unfavorable upward trend                                             0                    0%
                                                                                     Unfavorable downward trend                                           2                  50%
               75% Exceeded                                                          No change in trend, no effect                                        0                    0%
                                                                25% Met              No change in trend, favorable effect                                 0                    0%
                                                                                     No change in trend, unfavorable effect                               0                    0%
                                                                                     Baseline                                            B                 0                    0%
                                                                                     Total                                                                 4                100%
                                                                                     Discontinued                                                          0




Strategic Objective: Pre-empted and neutralized threats to                                                                                                              100
the international financial system and enhanced U.S. national security
                                                                                                                               Part II — Annual Performance report




Key Performance Measure Table
The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                    Percent
 Key Performance                                                         FY 2008      FY 2008      of Target     Performance         FY 2009         Target     Actual
 Measures                                                    Bureau       Target       Actual      Achieved         Rating            Target         Trend      Trend
 Number of open civil penalty cases that are resolved          DO            120        233          194%          Exceeded       Discontinued                     
 within the Statute of Limitations period
 Increase the number of outreach engagements with              DO            70%        80%          114%          Exceeded       Discontinued                     
 the charitable and international financial communities
 Number of countries that are assessed for                     DO            12          12          100%             Met         Discontinued                     
 compliance with the Financial Action Task Force
 (FATF) 40 + 9 recommendations


 Legend                                                         Symbol
 Favorable upward trend                                                
 Favorable downward trend                                              
 Unfavorable upward trend                                              
 Unfavorable downward trend                                            
 No change in trend, no effect                                         
 No change in trend, favorable effect                                  
 No change in trend, unfavorable effect                                
 Baseline                                                                B


Analysis of Performance Results
TFI introduced and began to apply a composite perfor-
mance measure to improve the assessment of its impact.
The following table represents the component areas of
TFI’s performance measure, aligned with its performance
goals and the Department’s outcomes. TFI was not given
a rating or score, but evidence was collected to support and
justify each focus area component. With a more formal
methodology and process, a rating will be determined with
the intent to score each area and rate their impact.


 Treasury Outcomes                        Performance Goals                                                                    Focus Areas
 Removed or reduced threats to            TFI effectively employed tools and authorities to further U.S. Government policy     Impact of policy making, outreach, and
 national security from terrorism,        objectives and mitigate national security threats                                    diplomacy
 proliferation of weapons of mass
 destruction, drug trafficking and                                                                                             Impact of economic sanctions
 other criminal activity on the part      Support the formulation of Treasury policy and the execution of departmental
 of rogue regimes, individuals, and       authorities through all-source analysis of the global financial network
 their support networks                                                                                                        Impact of information and analysis
                                          Provide Treasury Department decision makers with timely, accurate, and relevant
                                          intelligence support on the full range of economic, political, and security issues
 Safer and more transparent U.S.          Anti-money laundering and combating financing of terrorism regulations are           Impact of activities to create safer and
 and international financial systems      administered effectively and efficiently                                             more transparent financial systems




101                                                                            Strategic Objective: Pre-empted and neutralized threats to
                                                                    the international financial system and enhanced U.S. national security
Fiscal Year 2008 Performance and Accountability Report




          Supporting Evidence of Performance                            assessments through the FATF, the various FATF-Style
          Results                                                       Regional Bodies, the World Bank and IMF.  Compliance
                                                                        with international AML/CFT standards is facilitated by
          Advancing U.S. policy goals through the
                                                                        auditing the regimes of FATF and member governments,
          Financial Action Task Force (FATF) and
                                                                        which increased to over 175 countries from 150 compared
          other international bodies
                                                                        to 2007.
          TFFC worked through the FATF, an entity that sets
          the global standards for combating terrorist financing        These evaluation reports also identify deficiencies and
          and money laundering, to identify vulnerabilities in the      ways to strengthen each country’s AML/CFT policies and
          financial system by issuing guidance, best practices, and     practices. In fiscal year 2008, TFFC achieved its target of
          recommendations. In fiscal year 2008, TFFC, as a member       assessing 12 countries that were evaluated through FATF.
          of the FATF:                                                  Adoption of the mutual evaluation by the FATF triggers
              •	 Led an international working group that developed      a follow-up review, which establishes an avenue for TFFC
                guidance to assist countries in conducting domestic     to encourage additional measures to strengthen a country’s
                money laundering and terrorist financing risk           AML/CFT policies and practices. For example, building
                assessments. The final report, Money Laundering         on the feedback generated from an earlier evaluation, the
                and Terrorist Financing Risk Assessment Strategies,     United Arab Emirates implemented a set of AML/CFT
                identifies key factors to be considered in conducting   regulatory reforms in June 2008 focusing on the area of
                a risk assessment, including sources of data and        customer due diligence.
                methods of analysis
                                                                        Treasury is pursuing additional initiatives with inter-
              •	 Co-chaired a working group that identified
                jurisdictional money laundering/terrorist financing     national bodies to help identify systemic threats to the
                vulnerabilities in the international financial system   international financial system, focusing on policy develop-
                with respect to Iran, Pakistan, Sao Tome and            ment to protect the financial system from abuse.  For
                Principe, Turkmenistan, Uzbekistan, and the north-      example, TFFC has been working closely with the State
                ern part of Cyprus. As a result, the FATF issued        Department on a series of targeted sanctions workshops
                public statements expressing concern and alerting       with the European Union aimed at sharing best practices
                jurisdictions worldwide to the risks associated with    and educating the participants on how to implement an ef-
                the deficiencies in those AML/CFT regimes               fective sanctions regime against terrorist financing.  TFFC
              •	 Co-chaired a working group that produced a             has increasingly refined the themes for the workshops to
                comprehensive report describing what constitutes        allow for in-depth discussion of specific aspects of targeted
                terrorist financing, including its sources, methods     economic sanctions, and the most recent workshop in
                of movement, and uses. The report, which includes       Brussels, in April 2008, focused on bringing together the
                case examples from around the world, was ad-            lessons learned and findings of the entire workshop series,
                opted by the FATF in March 2008, and has been           to develop a coordinated U.S.-European Union approach
                published on the FATF website, FATF Terrorist
                                                                        for addressing sanction issues in the future.
                Financing Report
              •	 Worked with interagency partners that contrib-         Designated terrorist financiers
                uted to FATF typology studies on: The Money
                                                                        The Treasury Department continues to target terrorist
                Laundering and Terrorist Financing Vulnerabilities of
                                                                        financiers and facilitators. These efforts include exposing
                Commercial Websites and Internet Payment Systems
                                                                        and disrupting terrorist-front charities—a conduit used
          The Department increased its collaboration with in-           by groups such as al-Qa’ida, Hamas, Palestinian Islamic
          teragency partners and international counterparts to          Jihad and Hizballah to funnel funds and exploit charitable
          establish a comprehensive global system of AML/CFT            giving to advance terrorism. As of September 30, 2008 the




Strategic Objective: Pre-empted and neutralized threats to                                                                    102
the international financial system and enhanced U.S. national security
                                                                                             Part II — Annual Performance report




Department had designated 539 individuals and entities as       as a result of their severing ties with Colombia’s notori-
terrorists, their financiers or facilitators since the imple-   ous Cali drug cartel and assisting Colombian authorities.
mentation of the Executive Order in September, 2001. In         This action resulted from close cooperation with the
fiscal year 2008, some key designations included:               Colombian government. OFAC also lifted sanctions on
    •	 Iran’s Islamic Revolutionary Guard Corps-Qods            the China Great Wall Industry Corporation, a Chinese
       Force for providing material support to the Taliban      firm designated for providing material support to Iran’s
       and other terrorist organizations, and Iran’s            missile program. The Chinese firm implemented a rigorous
       state-owned Bank Saderat as a terrorist financier.       and thorough compliance program to prevent any and all
       The Qods Force is the Iranian regime’s primary           future dealings with Iran.
       instrument for providing lethal support to the
       Taliban. Bank Saderat, which has approximately           Combating the proliferation of WMD: Iran
       3,200 branch offices, has been used by the govern-
                                                                A primary focus of the Department has been addressing
       ment of Iran to channel funds to terrorist organiza-
                                                                the multi-faceted threats posed by Iran. Treasury leader-
       tions, including Hizballah and European Union
                                                                ship, working with the Department of State, is implement-
       designated terrorist groups Hamas, and Palestinian
                                                                ing a strategy to combat this threat, and application of
       Islamic Jihad
                                                                financial pressure to the Iranian regime consists of three
    •	 Four individuals that hold leadership positions in
                                                                inter-related initiatives:
       Lashkar-e-Tayyiba, a Pakistan-based terrorist group
       with links to Usama bin Ladin and the al-Qa’ida              •	 Developing and implementing targeted financial
       network                                                         measures to combat Iran’s proliferation and terror-
                                                                       ism support activities
    •	 Kuwait-based Revival of Islamic Heritage Society
       for providing financial and material support to              •	 Maximizing the impact of U.S. financial actions by
       al-Qa’ida and it’s affiliates, including Lashkar                securing international support
       e-Tayyiba, Jemaah Islamiyah, and Al-Itihaad                  •	 Engaging in a strategic dialogue with the interna-
       al-Islamiya                                                     tional private sector to explain the risks of doing
    •	 Four leaders of al-Qa’ida in the Lands of the                   business with Iran
       Islamic Maghreb, who carried out three attacks east
                                                                In fiscal year 2008, 69 individuals and entities were desig-
       of Algiers in June 2008, including a bombing near a
       train station that killed a French national              nated under Executive Order 13382 as WMD proliferators
                                                                or their supporters. Since the implementation of the
Designation programs often have an impact beyond their          Executive Order in June 2005, over 110 individuals and
legal reach. Many banks, around the world, screen their         entities have been designated under this authority. These
customers and transactions against the U.S. list of desig-      designations have targeted financial institutions, front
nated entities and individuals. Information made public, in     companies, military construction firms, transporters, and
combination with designated actions, can have a substan-        key personnel in Iran’s missile and WMD programs.
tial impact, creating a deterrent effect.
                                                                In fiscal year 2008, some noteworthy designations
Response by targets and their networks                          included:

In fiscal year 2008, OFAC took several actions to lift              •	 Bank Melli, Iran’s largest bank, was designated

sanctions on individuals and entities who had changed                  for providing services to entities involved in Iran’s
their problematic behavior or connections. These ac-                   nuclear and ballistic missile programs, including
                                                                       entities listed by the United Nations for their in-
tions exemplify the impact OFAC designations have on
                                                                       volvement in those programs. Bank Melli handled
individuals or entities. In June 2008, 60 individuals were
                                                                       transactions for Bank Sepah, the Defense Industries
removed from OFAC’s Specially Designated Nationals list




103                                                           Strategic Objective: Pre-empted and neutralized threats to
                                                   the international financial system and enhanced U.S. national security
Fiscal Year 2008 Performance and Accountability Report




                 Organization, and the Shahid Hemmat Industrial            Security Initiative to ensure effective implementation of
                 Group. Bank Melli has provided a range of financial       the financial provisions contained in the United Nations
                 services on behalf of Iran’s nuclear and missile          Security Council Resolutions related to Iran and prolifera-
                 industries, including opening letters of credit and       tion finance. The FATF issued guidance in October 2007
                 maintaining accounts                                      to assist jurisdictions in implementing activity-based
              •	 Bank Mellat was designated for providing bank ser-        financial prohibitions contained in United Nation Security
                 vices in support of Iran’s nuclear entities, including    Council Resolution 1737 relating to prevention of WMD
                 the Atomic Energy Organization of Iran. Bank              proliferation in Iran. This guidance and earlier advisories
                 Mellat services and maintains this organization’s ac-     has produced valuable results, all 34 members of the FATF
                 counts, mainly through its financial conduit, Novin       have implemented additional measures against Iran.
                 Energy. Bank Mellat has facilitated the movement
                 of millions of dollars for Iran’s nuclear program         These efforts have been accompanied by international ac-
                 since approximately 2003                                  tions which, in turn, reinforce the utility of these targeted
              •	 The Islamic Republic of Iran Shipping Lines               financial measures. For example, the most recent United
                 (IRISL), and 18 affiliated entities were designated       Nations Security Council Resolution 1803, adopted in
                 for providing logistical services to Iran’s Ministry of   March 2008, called upon its member states to exercise
                 Defense and Armed Forces Logistics (MODAFL).              vigilance over their own financial institutions’ activities
                 IRISL facilitates shipments of military-related           with all financial institutions domiciled in Iran, including
                 cargo designated for MODAFL and its subor-                their branches and subsidiaries abroad. This provision
                 dinates. IRISL has deliberately misled maritime
                                                                           made special mention of the risks posed by Bank Melli
                 authorities through the use of deception techniques,
                                                                           and Bank Saderat. The FATF issued a second statement on
                 which were adopted to conceal the true nature
                                                                           Iran in February 2008, sending a clear message to govern-
                 of shipments ultimately destined for MODAFL.
                                                                           ments and financial institutions worldwide about the
                 Furthermore, as international attention over Iran’s
                 WMD programs has increased, IRISL has pursued             threat Iran poses to the international financial system. The
                 new strategies, allowing it the potential to evade        actions of the United Nations and FATF were followed by
                 future detection of military shipments                    the European Union, which froze the assets of Bank Melli,
                                                                           in June 2008, due to its linkages with Iran’s nuclear and
              •	 Six Iranian military firms were designated for being
                 owned or controlled by MODAFL and/or the                  ballistic programs.
                 Defense Industries Organization. These firms, which
                 produce a variety of defense-related products, in-        Response by the private sector
                 cluding electronics and communications equipment,         Response by the private sector is a key factor when
                 aircraft, logistics systems, unmanned aerial vehicles,    using targeted financial measures. Rather than defying
                 rocket and missile launchers, and weapons, act as         compliance, or even trying to evade these measures, many
                 procurement front companies for Iran’s military           members of the banking industry voluntarily go beyond
                                                                           their legal requirements for fear of handling illicit business.
          Over the past year and a half, senior leaders from TFI have
                                                                           This is a result of corporate citizenship and the desire to
          met with finance ministry and central bank counterparts
                                                                           protect their reputations. Positive, private sector voluntary
          from around the world to discuss the importance of
                                                                           actions amplify the effectiveness of government-imposed
          ensuring that the international financial system is not
                                                                           measures, deterring this type of behavior. For example:
          tainted by Iran’s abuse. TFFC has led the effort to raise
          the issues of terrorist and proliferation finance bilaterally         •	 Many leading financial institutions have either

          with international partners and bring these issues to the               scaled back dramatically or even terminated their
          fore of international organizations and bodies. TFFC                    Iran-related business entirely
          accomplished this through the FATF and the Proliferation




Strategic Objective: Pre-empted and neutralized threats to                                                                        104
the international financial system and enhanced U.S. national security
                                                                                             Part II — Annual Performance report




    •	 A number of other foreign banks, in Europe, China,       the gem-mining, timber, and banking industries. Not long
       and in the Middle East reportedly are refusing to        after this took place, Burma was struck by Cyclone Nargis.
       issue new letters of credit to Iranian businesses, and   The Department responded by issuing general licenses
       the United Arab Emirates prohibited their banks          to facilitate the flow of funds for humanitarian assistance
       from issuing letters of credit for businesses whose      to the Burmese. An additional general license authorized
       place of production is in Iran
                                                                the transfer of funds, unlimited in amount, for personal
When the private sector decides to cut off companies            remittances to or from Burma.
or individuals Treasury has targeted, it becomes an even
greater reputational risk for others not to follow. The
                                                                Civil penalties and enforcement
impact of voluntary implementation and compliance               The imposition of civil monetary penalties is an impor-
makes it even more palatable for governments to impose          tant function of enforcing sanctions, and OFAC’s Civil
similar measures, thus creating a mutually-reinforcing cycle    Penalties division is responsible for all actions under the
of public and private action.                                   economic and trade sanctions programs administered and
                                                                enforced by OFAC. A large percentage of penalty cases are
The overall result has been exactly the type of government      based upon the illegal trade of goods and services. In fiscal
and private sector collaboration necessary to effectively       year 2008, OFAC collected civil penalty in 94 cases, total-
combat WMD proliferators. In reaction to U.S. and               ing $4,923,342. One country in particular, Iran, accounted
multilateral actions, the world’s leading financial institu-    for 30 percent of these cases because it has a relatively large
tions have largely stopped dealing with Iran, and especially    economy and appetite for U.S. goods and services. The
Iranian banks, in any currency. This represents a substantial   emphasis on Iran is a practical result of the number of vio-
success in protecting the integrity of the financial system     lations investigated, but is also consistent with its priority
from Iranian illicit conduct while simultaneously providing     as a national security threat. In fiscal year 2008, 233 open
leverage to support the multilateral effort to reach a nego-    civil penalty cases were resolved within the statute of limi-
tiated solution on Iran’s nuclear program. It also represents   tations period. OFAC also issued new Economic Sanctions
a comprehensive example of TFI utilizing all the tools at       Enforcement Guidelines, which will guide its enforcement
its disposal – outreach and policy consultation from TFFC,      response to apparent violations of the sanctions programs
essential intelligence analysis and support from OIA,           that it administers and enforces, and which will allow it to
implementation of targeted financial measures by OFAC,          implement enhanced civil penalties.
and the efficient use of regulatory tools by FinCEN.
                                                                Expert support to policymakers
Rogue nations                                                   OIA is responsible for providing timely and focused
The Department intensified its pressure on Burma                intelligence on economic, political, and security issues to
throughout fiscal year 2008. In September 2007, OFAC            Treasury senior leaders and staff. Areas of high priority
designated senior officials from the Government of Burma        include the Committee on Foreign Investment in the
in response to the violent suppression of democratic            United States, Critical Infrastructure Protection, and the
protests, and in October 2007, an additional 11 Burmese         U.S.-China SED. In fiscal year 2008 the focus was on
officials were designated to increase U.S. sanctions against    enhancing the level of support to the senior leadership for
their military regime. Family members or regime leaders         National Security Council (NSC) meetings and key bi-
were targeted including the financial network of Burmese        lateral engagements, while expanding liaison and advisory
tycoon Tay Za, an arms dealer with close ties to the            services to the Department.
military regime. In July 2008, ten companies that were
owned or controlled by the Government of Burma or its           In fiscal year 2008, OIA’s Intelligence Operations Center
officials were designated, including companies involved in      completed its transformation into a fully functioning 24/7




105                                                           Strategic Objective: Pre-empted and neutralized threats to
                                                   the international financial system and enhanced U.S. national security
Fiscal Year 2008 Performance and Accountability Report




          facility, to provide timely, accurate, and relevant intelligence   Moving Forward
          to support the following:                                          TFFC will develop and implement strategies aimed at
               •	 Daily Read Books for the Department’s senior               combating the financial networks that support terrorism,
                 leadership                                                  proliferation, and financial crime, while continuing to
               •	 Treasury’s participation in the NSC policymaking           increase capacity of key activities that provide tools to
                 process                                                     law enforcement and national security agencies. TFFC
               •	 Policymaker’s engagement with counterparts abroad          will build upon the current targeted financial measures
                                                                             to financially isolate Iran and Syria, state sponsors of
               •	 Identification and dissemination of priority intel-
                                                                             terrorism, and to disrupt and dismantle the financial
                 ligence to Treasury decision-makers
                                                                             networks that support WMD proliferation. TFFC will
          OIA established a dedicated Requirements Staff and                 continue to advance discussions within the FATF on how
          significantly improved its ability to drive collection of          the existing AML/CFT international standards should
          intelligence in response to Departmental requirements—             be supplemented, amended, or applied to enhance their
          particularly on key terrorist finance, proliferation finance,      effectiveness.
          and economic and financial stability issues. In addition,
                                                                             OFAC plans to determine its capacity requirements to
          OIA created “Treasury Intelligence Online”—a secure
                                                                             effectively investigate terrorist networks and state spon-
          community of interest on the Intelligence Community’s
                                                                             sored terrorism, proliferators of WMDs, foreign narcotics
          Top Secret-level computer network, allowing the dissemi-
                                                                             trafficking organizations, and other sanction targets.
          nation of its written analytic products to a wider audience
                                                                             Licensing, compliance, and enforcement capacity will be
          in the U.S .Government.
                                                                             analyzed based on the level of Executive Orders, designa-
          OIA began conducting an annual customer satisfaction               tions of terrorists, WMD proliferators, and other national
          survey in fiscal year 2007 to measure its impact in meeting        security threats.
          Treasury performance goals and outcomes. The survey is
                                                                             OIA will utilize a comprehensive approach on financial
          sent after the conclusion of each fiscal year. Survey results
                                                                             intelligence to respond to the growing demand from
          for fiscal year 2007 showed that 83 percent of customers
                                                                             Treasury and U.S. Government policymakers for intelli-
          were strongly satisfied with the overall accuracy, timeliness,
                                                                             gence on the global financial network. The global financial
          and relevance of OIA’s counterterrorism-related products. In
                                                                             network encompasses the financial underpinnings of
          fiscal year 2008 the survey was refined to measure the overall
                                                                             national security threats from adversaries financial vulner-
          level of customer satisfaction with the accuracy, timeliness,
                                                                             abilities, the impact of U.S. targeted financial measures,
          and relevance of finished intelligence products and intel-
                                                                             and threats to international financial stability. The Global
          ligence support on the full-range of issues. At the time of
                                                                             Finance Initiative will implement this approach by
          publication, fiscal year 2008 results were not available.
                                                                             enhancing OIA’s capabilities regarding requirements and
                                                                             collection support, analysis, dissemination and informa-
          Conclusion
                                                                             tion sharing, policy and strategic planning, and mission
          The Department met or exceeded 100 percent of its target
                                                                             support. OIA’s Counterintelligence and Security Initiative
          levels to achieve this outcome. The current performance
                                                                             will augment the Department’s ability to detect and thwart
          measures only partially describe how this outcome is
                                                                             threats to Treasury personnel, programs, and information.
          accomplished. The current measures tend to be more op-
                                                                             This initiative will consist of a phased program designed
          erational and output oriented, necessitating a reevaluation
                                                                             to prevent espionage, as well as identify and neutralize or
          of the methodology used to assess the impact of activities.
                                                                             mitigate threats from compromise.




Strategic Objective: Pre-empted and neutralized threats to                                                                        106
the international financial system and enhanced U.S. national security
                                                                                                      Part II — Annual Performance report




While quantitative measures, such as assets seized or       Safer and more transparent
blocked could be used to measure TFI’s effectiveness, it    U.S. and international
only provides a partial view of the entire organization.    financial systems
The newly developed composite measure outlines the
functions and roles of each office showing the unique       Based on the performance results, Treasury was successful
impact of TFI. Additionally, there will need to be a        in achieving this outcome in fiscal year 2008.
stronger process for validating and justifying each com-
                                                            Fiscal Year 2008 Results
ponent from an external assessor, to confirm the results.
                                                                               Safer and More Transparent U.S. and
The expectation is that this measure will evolve and                             International Financial Systems
change over time as the factors that determine impact
are assessed and evaluated. In fiscal year 2009, TFI will                                                            6% Unmet

obtain additional information and data, and reach a
consensus through the Department and the Office of                69% Exceeded                                       25% Met

Management and Budget (OMB) on the focus area
components and how each will be rated, ultimately
rolling up to a composite measure score for TFI as an
integrated organization.

                                                            Summary of Actual Trends for the Prior Four Years
                                                             Trend                                         Symbol    Count      %
                                                             Favorable upward trend                                  6         38%
                                                             Favorable downward trend                                4         25%
                                                             Unfavorable upward trend                                0          0%
                                                             Unfavorable downward trend                              1          6%
                                                             No change in trend, no effect                           2         13%
                                                             No change in trend, favorable effect                    0          0%
                                                             No change in trend, unfavorable effect                  0          0%
                                                             Baseline                                        B        3         19%
                                                             Total                                                    16        100%
                                                             Discontinued                                             1




107                                                       Strategic Objective: Pre-empted and neutralized threats to
                                               the international financial system and enhanced U.S. national security
Fiscal Year 2008 Performance and Accountability Report




          Key Performance Measure Table
          The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
          sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                           Percent
                                                                                  FY 2008     FY 2008     of Target   Performance   FY 2009   Target   Actual
           Key Performance Measure                                     Bureau      Target      Actual     Achieved       Rating      Target   Trend    Trend
           Average time to process enforcement matters (in years)      FinCEN        1         0.7%        130%        Exceeded       1                
           Percentage of FinCEN’s Regulatory Resource Center           FinCEN      90%         94%         104%        Exceeded      90%               
           customers rating the guidance received as understandable
           The percentage of domestic law enforcement and foreign      FinCEN      79%         83%         105%        Exceeded      80%               
           financial intelligence units finding FinCEN’s analytical
           reports highly valuable
           Percentage of bank examinations conducted by the            FinCEN      5.2%        2.5%        152%        Exceeded      5.2%              
           Federal Banking Agencies indicating a systemic failure of
           the anti-money laundering program rule
           Percent of FinCEN’s compliance MOU holders finding          FinCEN     Baseline     64%         100%          Met         66%        B        B
           FinCEN’s information exchange valuable to improve the
           BSA consistency and compliance of the financial system
           Percent of federal and state regulatory agencies with       FinCEN     Baseline     41%         100%          Met         45%        B        B
           memoranda of understanding/information sharing
           agreements
           Percentage of customers satisfied with the BSA E-Filing     FinCEN      90%         93%         103%        Exceeded      90%               


           Legend                                                        Symbol              conducting studies to provide feedback to stakeholders,
           Favorable upward trend                                                           and initiating enforcement actions when appropriate.
           Favorable downward trend                                       
                                                                                             In fiscal year 2008, FinCEN:
           Unfavorable upward trend                                       
           Unfavorable downward trend                                                           •	 Published guidance related to a variety of industries,
           No change in trend, no effect                                                             including the AML program rule for dealers in
           No change in trend, favorable effect                                                      precious metals, stones or jewels
           No change in trend, unfavorable effect                          
                                                                                                 •	 Drafted a rule on Chapter 10 of the Code of
           Baseline                                                        B
                                                                                                      Federal Regulations, providing clarity in regulations
                                                                                                      and making it easier for the industry to understand
          Analysis of Performance Results                                                        •	 Published three strategic assessments describing
                                                                                                      findings from Suspicious Activity Reports (SAR) to
          Regulatory Accomplishments
                                                                                                      provide feedback to stakeholders
          FinCEN’s regulatory policy efforts focus on efficient and
          effective administration of the BSA. The BSA requires                                  •	 Issued a notice of proposed rulemaking that would

          financial institutions to file reports on certain types of                                  simplify the existing currency transaction reporting
          financial activity and to establish appropriate internal                                    exemption requirements
          controls to guard against money laundering, terrorist
          financing, and other illicit finance. These activities include                     Compliance with the BSA
          improving the consistency in the application of BSA                                FinCEN continued to increase its engagement in activities
          regulations, providing guidance on regulatory expectations,                        that monitor BSA compliance by financial institutions
                                                                                             examined by state and federal regulators through enter-




Strategic Objective: Pre-empted and neutralized threats to                                                                                             108
the international financial system and enhanced U.S. national security
                                                                                            Part II — Annual Performance report




ing into an MOU to exchange information. In 2008,                attributable to greater consistency among bank regulators
FinCEN executed three additional agreements, conclud-            in citing instances of program failures.
ing that 41 percent of federal and state regulatory agencies
have entered an MOU or information sharing agreement.            Analytic efforts in support of detection and
The number of federal and state regulatory agencies with         deterrence of money laundering
which FinCEN has conducted memoranda of understanding/           BSA filings are utilized by law enforcement agencies,
information sharing agreements was discontinued in fiscal        both domestically and through exchanges with interna-
year 2008 and replaced with the percentage measure               tional counterparts to identify, detect, and deter money
because the methodology better reflects the impact of            laundering. FinCEN’s analytic efforts focus on developing
this activity. FinCEN surveyed its compliance MOU                products and services to help law enforcement agencies
holders to determine the impact of the information               enhance detection and deterrence of money laundering,
exchanged, and established a 64 percent baseline of              terrorism financing, and other illicit activity. FinCEN
respondents rating the information exchange as valuable;         continued its support to these agencies by focusing on
this will improve BSA consistency and compliance. The            actionable analysis targeted at high-priority money
Inspector General identified compliance with the BSA as          laundering and terrorist financing targets. Additionally,
a Management Challenge again in fiscal year 2008.                FinCEN published two comprehensive technical refer-
                                                                 ence guides for law enforcement officials.
FinCEN strives to be responsive to the needs of financial
institutions and collaborates to increase their under-           FinCEN also serves as the nation’s financial intelligence
standing of the BSA. FinCEN’s goal is to maintain a              unit (FIU), which is responsible for collecting, analyzing,
90 percent satisfaction level of its Regulatory Resource         disseminating, and exchanging information pursuant
Center customers, it exceeded this target with 94 percent        to a country’s AML/CFT regulations. This includes
of customers rating the guidance as “understandable.”            exchange of information with counterpart foreign FIUs
                                                                 in 108 countries that are Egmont Group members. In
FinCEN works closely with its regulatory partners to
                                                                 fiscal year 2008, FinCEN worked with its Egmont Group
take enforcement action against financial institutions that
                                                                 partners to develop actionable intelligence concerning
systemically and egregiously violate the provisions of the
                                                                 illicit money flows, and provided technical assistance and
BSA, including the imposition of civil money penalties
                                                                 training to a number of Egmont candidates and members.
when appropriate. In fiscal year 2008, FinCEN surpassed
                                                                 For example, FinCEN increased its collaboration with
its target for the average time to process enforcement matters
                                                                 the Mexican FIU, and provided analytical training,
in one year with an average time of 0.7 percent; this was
                                                                 on-site visits, supported technology updates, and joint
due to actively managing the casework.
                                                                 analytical projects. FinCEN is currently working with
FinCEN established the measure, percentage of bank ex-           a Canadian FIU to analyze cross border currency flows,
aminations conducted by Federal Banking Agencies indicating      and the Spanish FIU to begin analyzing the flow of Euros
a systemic anti-money laundering program failure in fiscal       into and out of the U.S. and conduct strategic analysis of
year 2007. This measure is an indicator of trends that           money laundering typologies. The percentage of custom-
identify FinCEN’s regulatory compliance and examina-             ers finding FinCEN’s analytical reports highly valuable
tion efforts on the banking industry. As the percentage          is measured to show how BSA information is used by law
fluctuates, FinCEN recognizes that laxity in examina-            enforcement and international FIUs to identify, investi-
tions or increased vigilance in compliance could trigger         gate, and prevent abuse of the financial system. FinCEN
a downward trend in performance, and sets its indicator          exceeded its target of 79 percent with 83 percent of its
levels accordingly. In fiscal year 2008, the percentage of       customers finding the analytical reports highly valuable.
banking institutions cited for program failures during
examinations was significantly below the 5.2 percent in-
dicator level, only 2.5 percent were cited. This is primarily




109                                                            Strategic Objective: Pre-empted and neutralized threats to
                                                    the international financial system and enhanced U.S. national security
Fiscal Year 2008 Performance and Accountability Report




          Accessibility of BSA information                                The three key measures, percentage of FinCEN’s compli-
          In fiscal year 2008, FinCEN began the process to retire         ance MOU holders finding FinCEN’s information exchange
          magnetic media filing, maximized BSA E-Filing capa-             valuable to improve the BSA consistency and compliance of the
          bilities and BSA data validation, and implemented data          financial systems, the percentage of domestic law enforcement
          quality measures to improve its management of BSA data          and foreign financial intelligence units finding FinCEN’s ana-
          and increase coordination and communication with its            lytical reports highly valuable, and the percentage of FinCEN’s
          federal stakeholders. The information and technology used       Regulatory Resource Center customers rating the guidance
          to facilitate analysis are at the core of FinCEN’s mission to   received as understandable, provide a reasonable indication
          deter and detect criminal activity, and to safeguard finan-     of FinCEN’s impact. However, the other performance
          cial systems from abuse by promoting transparency in the        measures are more output oriented, and the link to achiev-
          U.S. and international financial systems. FinCEN surveys        ing the outcome is not as distinct.
          the users of the BSA E-Filing system to determine the
          overall satisfaction level and identify where improvements      Moving Forward
          are needed. The percentage of customers satisfied with the      FinCEN’s future plans are to improve its ability to strength-
          BSA E-Filing was 93 percent, although this was a one            en financial system security and enhance U.S. national
          percent decrease compared to last year, customer satisfac-      security to achieve the Department’s outcome. FinCEN
          tion has been consistent with the target set at 90 percent.     will continue to reach out to the largest fifteen depository
                                                                          institutions in the U.S. and expand this to include additional
          FinCEN focused its efforts related to efficient manage-         financial service industries. In order to learn more about
          ment, safeguarding, and use of BSA information by               their AML programs FinCEN will develop a strategy for
          improving the overall information infrastructure and en-        more consistent application of the BSA across industries.
          hancing information technology management capabilities.         FinCEN will develop additional memoranda of understand-
          In May 2008, FinCEN implemented a new public website            ing to exchange information with state regulators, focusing
          that improved navigation features and allows customers to       primarily on insurance commissioners. FinCEN will also
          find information easily. The newly developed site created a     conduct and publish additional studies promoting greater
          more flexible and sustainable structure.                        awareness of emerging money laundering trends and vulner-
                                                                          abilities, while also providing greater clarity to regulated
          FinCEN conducted a thorough review of its BSA data se-
                                                                          industries regarding their requirements under the BSA.
          curity program and updated many components of the BSA
          access program. In fiscal year 2008, FinCEN increased           FinCEN will improve and expand collaborative relation-
          law enforcement access to BSA information through an            ships with investigative and intelligence agencies to
          initiative that significantly increased the number of MOUs      exploit SARs to develop proactive evaluations. FinCEN
          with U.S. Attorney’s Offices.                                   will implement a process to capture and measure analytic
                                                                          product relevance to support law enforcement. FinCEN
          Conclusion                                                      also plans to increase analyst exchanges and joint analytic
          The performance measures for fiscal year 2008 showed            activities with partner FIUs, and expand the complexity
          positive results with the exception of one measure, where       of FinCEN products provided to international partners,
          the target was not met. In total, 69 percent of targets were    while also increasing outreach to U.S. law enforcement
          exceeded, 25 percent were met, and six percent were not met.    and regulatory agencies to educate them on the benefits
                                                                          provided by the global network of FIUs.
          Law enforcement, regulatory, and international users
          indicate that FinCEN’s services are valuable. While it is       FinCEN will continue information technology moderniza-
          difficult to formalize performance measures and show im-        tion. FinCEN has partnered with the IRS to improve IT
          pact, the performance measures used provide a reasonable        processes, and reached an agreement on the governance
          indication of FinCEN’s progress in achieving its outcome.       structure and is charting a path forward.




Strategic Objective: Pre-empted and neutralized threats to                                                                       110
the international financial system and enhanced U.S. national security
                                                                                                                                                                                       Part II — Annual Performance report



Strateg ic Goal: Manag e m e nt an d
Organ i zational Exce lle nce


  Strategic Objective:
     Enabled and Effective Treasury Department

The Department of the Treasury strives to maintain public                                                        The bureaus and offices responsible for achievement of this
trust and confidence through exemplary leadership by                                                             objective are:
creating a culture of excellence, integrity, and teamwork.                                                                                  •	 The Treasury Inspector General for Tax
The Department is dedicated to serving the public interest                                                                                    Administration
and focused on delivering results that align with its strate-
                                                                                                                                            •	 Office of the Treasury Inspector General
gic objectives. Management enables this through a strong
                                                                                                                                            •	 Office of the Treasury Assistant Secretary for
institution that is citizen-centered, focused on achieving
                                                                                                                                              Management & Chief Financial Officer (ASM/
results, and transparent and accountable to the American
                                                                                                                                              CFO, including Finance, Budget, Planning, Human
people. Strategies to achieve this objective are aligning and
                                                                                                                                              Capital, Information Technology, Procurement,
managing resources, investing in people and technology,
                                                                                                                                              Privacy, and Operations)
and conducting independent audits and investigations.
The Treasury Department is committed to planning and                                                             The outcomes associated with this objective are:
assessing performance, reviewing results, and continuous                                                                                    •	 A citizen-centered, results oriented and strategically
improvement.                                                                                                                                  aligned organization
                                                                                                                                            •	 Exceptional accountability and transparency

                                                                                                                 There are no program evaluations for Treasury manage-
                                                                                                                 ment functions.

                                            Budget Trend by Objective                                                                                           Performance Cost Trend

                               $1,200,000                                                                                                      $1,200,000
  Dollars (in Thousands)




                                                                                                                   Dollars (in Thousands)




                               $1,000,000                                                                                                      $1,000,000

                                $800,000                                                                                                          $800,000

                                $600,000                                                                                                          $600,000

                                $400,000
                                                       $1,138,100




                                                                                                                                                  $400,000
                                                                                                                                                                          $1,032,818
                                            $866,319




                                                                        $935,132



                                                                                    $839,007



                                                                                               $622,649




                                                                                                                                                               $858,264




                                                                                                                                                                                           $862,578



                                                                                                                                                                                                       $766,972



                                                                                                                                                                                                                           $507,891




                                $200,000                                                                                                          $200,000

                                      $0                                                                                                               $0
                                            2004       2005           2006         2007        2008                                                            2004       2005            2006        2007                2008
                                                                    Fiscal Year                                                                                                        Fiscal Year



                               Enabled and Effective Treasury Department                                                                                     Performance Cost by Outcome


                                                                                                                                                                                                                  A citizen-centered, results-oriented
                                                                                                21% Unmet                                   47%                                                                   and strategically aligned
                                                                                                                                                                                                                  organization

                                                                                                                                                                                                                  Exceptional accountability and
                                                                                                                                                                                                                  transparency


                           72% Exceeded                                                         7% Met


                                                                                                                                            53%




 111                                                                                                        Strategic Objective: Enabled and effective Treasury Department
Fiscal Year 2008 Performance and Accountability Report




          A citizen-centered, results                                                 •	 National Revenue Center customer satisfaction

          oriented and strategically                                                     survey results (TTB)
          aligned organization                                                        •	 Average days to process an original permit (TTB)

                                                                                      •	 Percentage of retail customer service transactions
          Based on performance results, Treasury succeeded in
                                                                                         completed within 12 business days (BPD)
          achieving this outcome for fiscal year 2008.
                                                                                      •	 Increase in the percentage of eligible areas served by
          Fiscal Year 2008 Results                                                       a CDFI (CDFI)
                          A Citizen-Centered, Results-Oriented and                    •	 Percentage of customers satisfied with WebCBRS
                              Strategically Aligned Organization
                                                                                         and secure outreach (FinCEN)
                                                                                      •	 Percentage of customers satisfied with the BSA
                                                                                         E-Filing (FinCEN)

                75% Exceeded                                   25% Unmet              •	 Percentage of FinCEN’s Regulatory Resource
                                                                                         Center Customers rating the guidance received as
                                                                                         understandable (FinCEN)
                                                                                      •	 The percentage of domestic law enforcement
                                                                                         and foreign financial intelligence units finding
                                                                                         FinCEN’s analytical reports highly valuable
          Summary of Actual Trends for the Prior Four Years
                                                                                         (FinCEN)
           Trend                                    Symbol     Count       %
                                                                                      •	 The percentage of private industry or financial
           Favorable upward trend                               3         38%
                                                                                         institution customers finding FinCEN’s Suspicious
           Favorable downward trend                             2         25%
                                                                                         Activity Review (SAR) products valuable
           Unfavorable upward trend                             2         25%
                                                                                         (FinCEN)
           Unfavorable downward trend                           1         13%
           No change in trend, no effect                        0          0%
           No change in trend, favorable effect                 0          0%
                                                                                  Analysis of Performance Results
           No change in trend, unfavorable effect               0          0%
           Baseline                                   B          0          0%    Human Capital
           Total                                                 8         100%
                                                                                  During fiscal year 2008, the Office of the Deputy Assistant
           Discontinued                                          3
                                                                                  Secretary of Human Resources / Chief Human Capital
                                                                                  Officer (DASHR/CHCO) began using two performance
          Much of management involves staff functions such as                     measures to assess how well employee expectations align
          finance, procurement, planning, budgeting, human capital,               with Treasury goals, executive compensation aligns with
          and information technology. These functions critically                  organization performance, and talent is managed at the
          support bureaus and offices that serve U.S. citizens. Many              Department. The two measures include:
          of Treasury’s performance measures are service-oriented,
                                                                                      •	 Results-Oriented Performance Culture System:
          such as:
                                                                                         Evaluates attraction, development, and retention of
                •	 Customer Service Representative (CSR) Level of                        a high-performance, talented, diverse workforce
                      Service (IRS)
                                                                                      •	 Talent Management System: Evaluates the extent
                •	 Customer Accuracy - Customer Accounts (IRS)                           to which Treasury is recognized as a highly desir-
                •	 Customer Accuracy - Tax Law Phones (IRS)                              able employer of choice, offering employees the
                                                                                         opportunity to reach their full potential




Strategic Objective: Enabled and effective Treasury Department                                                                          112
                                                                                                                        Part II — Annual Performance report




The first measure Results-Oriented Performance Culture System includes the following components:

                                                                                                                                                  FY 2008
 Component Measure Definition                                                                                                                      Actual
 Relationship of Senior Executive Service performance ratings and awards, to accomplishment of the agency’s strategic goals (measures strategic    100%
 alignment)
 Degree of linkage between all employees’ performance appraisal plans and agency mission, goals, and outcomes (measures strategic alignment)       38%
 Percent of valid favorable responses from employees in the Federal Human Capital Survey (FHCS) administered by Office of Personnel Management,    54%
 regarding an agency’s achievement of a performance culture (measures results orientation)

The second measure Talent Management System includes the following components:

                                                                                                                                                  FY 2008
 Component Measure Definition                                                                                                                      Actual
 Competency Gaps Closed in Mission Critical Occupations – the difference between competencies needed by the organization and competencies          97%
 possessed by employees in the Mission Critical Occupations (measures both results orientation and strategic alignment)
 Talent Management Index – a score based on items from the FHCS (measures results orientation)                                                     59%
 Employee Job Satisfaction Index - a score based on items from the FHCS                                                                            67%




The degree of linkage between employee plans and agency                            ensure that steady progress is made towards the goals laid
goals was 38 percent. This was largely due to issues associ-                       out in the Human Capital Strategic Plan. In combination
ated with the IRS performance management system. The                               with the FHCS, these efforts will provide a comprehensive
IRS Office of Human Capital is taking appropriate action                           assessment of human capital performance.
to address these factors.
                                                                                   Treasury strives to resolve workplace issues in the most
This is the first year for these measures. The Department                          fair and constructive fashion. The Department encour-
considers these metrics reasonable initial proxies for mea-                        ages use of the Alternative Dispute Resolution process.
suring the human capital element of this outcome. During                           Actual performance for the measure Percent of complain-
fiscal year 2008, DASHR/CHCO revised and issued a                                  ant informally contacting Equal Employment Opportunity
Human Capital Strategic Plan for Fiscal Years 2008-2013                            (EEO) (for the purpose of seeking counseling or filing a
that outlines a methodology to recruit, develop and retain                         complaint) who participate in the Alternative Dispute
a diverse and talented workforce. Additional measures                              Resolution process was 45 percent, exceeding the target of
need to be developed to determine the effectiveness the                            30 percent. This represented a 55 percent improvement
strategies articulated in the plan. DASHR/CHCO also                                over fiscal year 2007 actual performance. In light of this
implemented its first human capital operating plan to                              performance, 2009 targets should be revisited.




113                                                                        Strategic Objective: Enabled and effective Treasury Department
Fiscal Year 2008 Performance and Accountability Report




          Key Performance Measure Table
          The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
          sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                                       Percent
                                                                                FY 2008   FY 2008     of Target   Performance   FY 2009   Target   Actual
           Key Performance Measure                                 Bureau        Target    Actual     Achieved       Rating      Target   Trend    Trend
           Percent of complainants informally contacting EEO        DO            30%      45%         150%        Exceeded       30%              
           (for the purposes of seeking counseling or filing a
           complaint) who participate in the Alternative Dispute
           Resolution process.


           Legend                                                        Symbol           technology initiatives. OCIO facilitates and coordinates
           Favorable upward trend                                                        the implementation and maintenance of a wide array of
           Favorable downward trend                                                      applications and networks Department-wide.
           Unfavorable upward trend                                         
           Unfavorable downward trend                                       
                                                                                          In order to help safeguard personal identification informa-
           No change in trend, no effect                                                 tion, Treasury has strengthened its networks and applica-
           No change in trend, favorable effect                                          tions by:
           No change in trend, unfavorable effect                                               •	 Encrypting 99.8 percent of the Department’s
           Baseline                                                         B                       61,002 laptops and 99.7 percent of Treasury’s 5,946
                                                                                                    personal digital assistants
          In 2008 the Department’s Office of Civil Rights and                                    •	 Testing 98 percent of the system contingency plans,
          Diversity (OCRD) continued its efforts to ensure the                                      certifying and accrediting 97 percent of Treasury’s
          Treasury EEO complaint program is managed fairly                                          information systems, and implementing two-factor
          and effectively. During fiscal Year 2008, the Department                                  authentication in the Department’s remote system
          issued 316 final agency decisions on complaints of                                        access services
          discrimination filed by applicants and employees.                                      •	 Strengthening security policies and implementing
          Investigations were completed on 407 complaints,                                          enhanced safeguards to reduce security exposure to
          taking an average number of 256 days of processing                                        Internet-based threats
          time, showing five percent (improvement/decline) in
                                                                                          Other notable accomplishments included:
          processing time over fiscal year 2007. OCRD works
          with the Treasury bureaus to implement methodologies                                   •	 A solid Treasury FISMA Portfolio of IT Systems,
          for dispute prevention and early resolution. Alternative                                  collaboratively refined from 738 to 540 in fiscal year
          Dispute Resolution (ADR) processes also provide                                           2007 and 504 in fiscal year 2008
          for early resolution of EEO complaints. In fiscal year                                 •	 Certification and Accreditation rate of 94 percent
          2008, the Department improved its percentage in ADR                                       fiscal year 2007 and 97 percent fiscal year 2008 for
          participation by 14 percent over 2007.                                                    the Treasury Inventory of unclassified systems
                                                                                                 •	 Annual Test of IT Security Controls for 93 percent
          Information Technology                                                                    fiscal year 2007 and 100 percent fiscal year 2008 of
          The Office of the Chief Information Officer (OCIO)                                        Treasury Inventory
          provides leadership to the Department and its bureaus                                  •	 Contingency Plans developed and tested for 93
          in the areas of information and technology management,                                    percent fiscal year 2007 and 98 percent fiscal year
          including development of the Department’s IT strategy,                                    2008 of Treasury Inventory
          management of IT investments, and leadership of key




Strategic Objective: Enabled and effective Treasury Department                                                                                     114
                                                                                              Part II — Annual Performance report




     •	 National Institute of Standards and Technology            corporate, or agency view of overall performance. During
       compliant Configuration Management Policy in               2008, the Department began prototyping a strategic per-
       effect for all of Treasury                                 formance scorecard. The scorecard is designed to measure
     •	 IT Security Awareness Training provided to 97             Treasury’s performance at achieving strategic outcomes on
       percent fiscal year 2007 and 98 percent fiscal year        both an annual and a quarterly basis.
       2008 of all Treasury employees and contractors
                                                                  The scorecard is designed to “grade” the performance
     •	 IT Security Specialty Training provided to 98
                                                                  results for each strategic outcome, based on a percentage
       percent fiscal year 2007 and 98 percent fiscal year
                                                                  of actual performance to target, and on the direction of
       2008 of all Treasury employees in IT Security roles
                                                                  both actual and target trends over time. The intent of the
     •	 An effective process to monitor progress of all Plans
                                                                  scorecard is to provide Treasury senior leadership with
       of Action and Milestones recognized as effective by
                                                                  greater insight into performance across the Department,
       OMB
                                                                  enable corporate management, and meet the requirements
     •	 A fully deployed and tested back-up capability for        of Executive Order 13450, Improving Government Program
       the Department’s wide-area network                         Performance. The scorecard employs a balanced approach,
                                                                  including information on stakeholder levels of satisfaction,
Strategic Sourcing                                                process performance, human capital performance, and both
The Strategic Sourcing program is charged with develop-           financial and non-financial results. Balanced scorecards
ing and implementing improvements in acquisition value            are widely used in both the public and private sectors to
across the Department. There were three areas of focus in         manage organizational performance and improve strategic
fiscal year 2008: Multi-Function Devices, IT Software,            management. When used in combination with modern
and IT Hardware (Personal Computer’s and x86 Based                business analytics tools, they provide a powerful way to
Servers). Successful contracting reduced the cost for these       provide leadership with increased insight into performance.
initiatives from $86.5 million to $63 million, with the
majority of savings occurring in the IRS.                         The Department’s vision is to finalize the prototype
                                                                  and implement it on a business analytics tool before the
Performance Management                                            end of fiscal year 2009. The prototype as designed also
The Office of Strategic Planning and Performance                  accommodates a Competitiveness Assessment Process
Management reviews all departmental-level performance             (CAP) that the Department plans to establish. The CAP
measures continually for the strength of the relationship         incorporates a comparison of Department performance
between the desired outcome and what is being measured.           against relevant performance benchmarks from the public
These assessments, over time, close the gaps of describing        and private sectors. This process will help the Department
benefits for the people that Treasury serves. Efforts to          improve performance target-setting and goal-setting, and
rationalize measures began in 2005, when approximately            provide impetus that drives the Department into a more
60 percent of measures at the department level were               deeply-rooted pattern of continuous improvement. Using
eliminated. Action since the release of the 2007 Treasury         similar data across multiple performance reporting venues
Strategic Plan have focused on aligning outcome measures          will improve the efficiency and consistency of Treasury
with strategic goals, or in several cases, developing entirely    performance reporting.
new measures. An example of this was the traction and
impact measure that was developed in 2008 for the Office          Other accomplishments included:
of Technical Assistance in International Affairs.                 Each year, the Office of Performance Management and
                                                                  Human Capital work together to provide senior leader-
While progress in measure development and alignment               ship with a Senior Executive Service Organizational
with outcomes is necessary, a tool was needed to provide a        Assessment. The intent is to ensure correlation between




115                                                          Strategic Objective: Enabled and effective Treasury Department
Fiscal Year 2008 Performance and Accountability Report




          organizational performance and executive compensation.           Exceptional accountability
          This process maintains certification for Treasury with the       and transparency
          Office of Personnel Management for executive compensa-
          tion, and has been cited as a best practice by the OMB.          Achieving and maintaining exemplary accountability and
                                                                           transparency is critical for the Treasury Department as
          Treasury revised its performance page on its public website      the primary financial agency for the U.S. Government.
          to better meet the needs of the public and offer more            The Department follows proper internal controls that
          transparency.                                                    serve to deter and eliminate fraud, waste, and abuse, while
                                                                           increasing efficiency and effectiveness. For fiscal year 2008,
          Conclusion                                                       Treasury generally met or exceeded its performance targets
          The measures for the citizen-centered, results oriented and      in providing accountability and transparency.
          strategically aligned organization outcome exceeded their
          fiscal year 2008 targets. However, the Department acknowl-       Fiscal Year 2008 Results

          edges that work remains to be completed on a suite of new                    Exceptional Accountability and Transparency
          metrics that more directly measure how well this outcome
          was achieved across all major areas such as human capital,                                                          17% Unmet
          information technology, and financial management.

                                                                                 66% Exceeded                                 17% Met
          Moving Forward
          In fiscal year 2009, DASHR will continue to focus on
          strategies for recruiting, developing and retaining a high
          quality and diverse workforce, ensuring leadership ef-
          fectiveness through leadership development and succession
          planning, enhancing human capital workforce metrics,             Summary of Actual Trends for the Prior Four Years
          developing human capital action plans, and improving hu-          Trend                                    Symbol   Count       %
          man capital management through feedback from manage-              Favorable upward trend                            2          33%
          ment accountability reviews. Further work on the EEO              Favorable downward trend                          0           0%

          Audit Program will continue, with audits to be performed          Unfavorable upward trend                          0           0%

          on at least two bureaus. The audits will examine the full         Unfavorable downward trend                        3          50%
                                                                            No change in trend, no effect                     0           0%
          scope of bureau EEO programs and will make recom-
                                                                            No change in trend, favorable effect              1          17%
          mendations to improve and strengthen EEO activities.
                                                                            No change in trend, unfavorable effect            0           0%
          Bureaus will also be assessed for progress in meeting their
                                                                            Baseline                                   B       0           0%
          established disability hiring goals.
                                                                            Total                                              6          100%
                                                                            Discontinued                                       0
          Treasury is in process of revising its IT strategic plan to
          identify the future operating environment and its associ-
          ated challenges, ranging from cyber security threats to
          limited resource availability. Strategies will be developed to
          prioritize Treasury IT spending, leverage existing resources
          and mitigate vulnerabilities.

          Performance Management will fully develop the perfor-
          mance management scorecard and implement it in fiscal
          year 2009.




Strategic Objective: Enabled and effective Treasury Department                                                                          116
                                                                                                                    Part II — Annual Performance report




Key Performance Measure Table
The following table contains only key performance measures associated with this outcome. Actual and target trends repre-
sent four years of data where available. The full suite of measures with detailed explanations is available in the Appendix.

                                                                                               Percent
                                                                      FY 2008     FY 2008     of Target   Performance    FY 2009   Target   Actual
 Key Performance Measure                                 Bureau        Target      Actual     Achieved       Rating       Target   Trend    Trend
 Number of, material weaknesses (Significant              DO              3         2           67%          Unmet          0               
 Management Problems Identified by Government
 Accountability Office (GAO), the Inspectors General
 and/or Bureaus) closed
 Number of completed audit products                       OIG            56         64          114%        Exceeded       60               
 Percent of statutory audits completed by the required    OIG          100%        100%         100%          Met         100%              
 date
 Percentage of audit products delivered when             TIGTA           60%       65%          108%        Exceeded      65%               
 promised to stakeholders
 Percentage of recommendations made that have            TIGTA           80%       85%          106%        Exceeded      83%               
 been implemented
 Percentage of results from investigative activities     TIGTA           76%       78%          103%        Exceeded      78%               


 Legend                                                         Symbol             Closed did not meet expectations, closing two material
 Favorable upward trend                                                           weaknesses compared to a target of three. However, 2008
 Favorable downward trend                                                         performance was not as strong as 2007 when there were no
 Unfavorable upward trend                                                         material weaknesses.
 Unfavorable downward trend                                       
 No change in trend, no effect                                                    The Department of the Treasury has two offices of
 No change in trend, favorable effect                                             Inspectors General that provide independent oversight of
 No change in trend, unfavorable effect                                           the Department’s activities.
 Baseline                                                         B
                                                                                   The Treasury Inspector General for Tax Administration
                                                                                   (TIGTA) audits and investigates the Internal Revenue
Analysis of Performance Results                                                    Service (IRS) to 1) ensure accountability for more than $2
Performance for measures assessing accountability and                              trillion in tax revenues and 2) that IRS is managed fairly
transparency exceeded target levels for 66 percent of                              and effectively. Investigative work includes the areas of em-
measures, met target levels for 17 percent of measures, and                        ployee integrity, employee and infrastructure security, and
did not meet 17 percent of measures for fiscal year 2008.                          external attempts to corrupt tax administration. During
Eighty-three percent of performance targets showed trend                           fiscal year 2008, TIGTA met or exceeded 100 percent of its
improvement and 17 percent showed trend decline. For                               performance measure targets. TIGTA actions potentially
performance actual results, 33 percent of results showed                           impacted approximately 5.7 million taxpayers’ accounts and
trend improvement and 67 percent showed trend decline.                             achieved the following year-over-year results:
These results indicate that these programs generally suc-                                 •	 Issued 179 audit reports in 2008, as compared with
ceeded in achieving their performance goals.                                                180 in 2007
                                                                                          •	 Produced financial accomplishments of $2.4 billion
On a Department-wide basis, the measure Number of
                                                                                            as a result of audits and investigations; this compares
Material Weaknesses (Significant Management Problems
                                                                                            with $3.5 billion in financial accomplishments in
Identified by GAO, the Inspectors General and/or bureaus)
                                                                                            2007, a decrease of 31.4 percent




117                                                                           Strategic Objective: Enabled and effective Treasury Department
Fiscal Year 2008 Performance and Accountability Report




              •	 Cases of employee misconduct in 2008 at 1,569                   cases were one-time referrals from a GAO public
                 cases dropped from 2007 cases of 1,663, a decrease              transit subsidy investigation. Adjusting for this
                 of 94 cases or 5.7 percent                                      outlier, the number of referrals made in fiscal year
                                                                                 2008 is within 89 percent of the target. A manage-
              •	 Percentage of investigations generating positive                ment vacancy and a new emphasis on closing older
                 results dropped from 81 percent in 2007 to 78                   cases accounted for the small shortfall in reaching
                 percent in 2008, a reduction of 3.7 percent                     the target.
              •	 Cases accepted for criminal prosecution dropped              •	 Reviewed 2,588 complaints for potential
                 from 206 cases in 2007 to 171 cases in 2008, a                  investigation or inquiry
                 notable decrease of 17 percent                               •	 Opened 84 new investigations

              •	 TIGTA opened 434 unauthorized access cases in                •	 Achieved administrative corrective action on 23
                 2008 versus 521 in 2007, a decrease of 16.7 percent             investigation cases

              •	 Unauthorized access cases closed decreased from          The Office of the Deputy Assistant Secretary for Privacy
                 621 cases in 2007 to 491 cases in 2008, a decrease       and Treasury Records (PTR) was established in fiscal year
                 of 20.9 percent                                          2008, and serves the American public and the Treasury
                                                                          community by setting the standard for the protection,
              •	 Personnel actions against IRS employees decreased
                 from 594 actions in 2007 to 471 actions in 2008, a       access, and appropriate disclosure of Treasury’s informa-
                 difference of 20.7 percent                               tion assets. PTR also maintains a Treasury Orders and
                                                                          Directives program that maintains current Departmental
          Changes from fiscal year 2007 to fiscal year 2008 are the       policies, activities, and procedures.
          result of the shifting nature of TIGTA’s investigative in-
          ventory. As the external fraud affecting IRS operations has     The PTR strengthens the Department’s privacy pro-
          increased, TIGTA has refocused its investigative activity       grams by combining key privacy functions and elevating
          on external crimes impacting federal tax administration.        the privacy program to directly report to the Assistant
                                                                          Secretary for Management and Chief Financial Officer
          The Office of Inspector General (OIG) is responsible            (ASM/CFO). The realignment of information privacy,
          for the audit and investigation of all non-IRS Treasury         civil liberties, records management, library, and disclosure
          programs and operations. OIG auditors conduct financial,        functions into one office promotes an integrated approach
          performance, and information technology audits. These           to information management and protection across the
          audits are intended to save taxpayer dollars, improve the       Department. PTR developed fiscal year 2008 goals and
          effectiveness and efficiency of Treasury programs and           objectives that support PTR core values of service, quality,
          operations, help prevent waste, and detect fraud and abuse      excellence, and teamwork. The combined efforts of the
          in Treasury programs and operations. OIG investigators          PTR team ensure that the Treasury community has the
          conduct a variety of investigations, covering financial         knowledge resources needed to serve the public, while
          crimes, corruption, other crimes, and employee miscon-          strengthening the Department’s compliance with privacy
          duct. Fiscal year 2008 results included:                        and disclosure requirements, safeguarding personally
              •	 Completed 100 percent of its statutory audits on         identifiable information, and promoting process transpar-
                 time, the same as 2007                                   ency, accountability, and timeliness.
              •	 Completed 64 audit products, the same as 2007

              •	 Referred 93 investigations for criminal or civil pros-
                 ecution, or for administrative action as compared
                 with 188 cases in 2007. However, 70 of the 188




Strategic Objective: Enabled and effective Treasury Department                                                                  118
                                                                                              Part II — Annual Performance report




Conclusion                                                            •	 Implemented a bureau-wide electronic learning
                                                                         management system that: 1) assesses current skill
For the six performance measures used to gauge the
                                                                         levels, and 2) identifies critical skills needed for
success in achieving this outcome, five were either met
                                                                         all major TIGTA occupations. Based on results,
or exceeded and one was unmet.
                                                                         TIGTA will develop a strategic recruitment
                                                                         program to fill critical vacancies with the skills
Moving Forward                                                           needed to carry out increasingly complex oversight
In fiscal year 2009, TIGTA anticipates major challenges in               activities
adapting to the increasingly complex and potentially high-            •	 Established TIGTA’s first Senior Executive Service
risk issues associated with IRS operations. Some of these                Candidate Development Plan. The objective of the
issues include: detection and investigation of fraud and                 plan is to identify the actions necessary to promote
electronic crime, procurement activities, taxpayer privacy,              a greater understanding of the mission and culture
increased requests for IRS program reviews from Congress                 of the federal government, and to train outstanding
and other IRS stakeholders, investigating crimes involv-                 leaders and prepare them for the Senior Executive
ing Electronic Tax Administration and potential security                 Service
breaches in a growing number of IRS modernized systems.
                                                                  OIG is developing two new performance measures to
TIGTA plans to continue:
                                                                  gauge the performance of the Investigations budget
    •	 Performing audit work that balances statutory audit
                                                                  activity.
       coverage and discretionary audit work
    •	 Addressing major management challenges such as             OIG will continue to focus its resources on conducting
       security of the IRS, taxpayer protections and rights,      mandatory audit work, including MLR of failed financial
       and providing quality taxpayer service                     institutions. However, due to the demands that the
    •	 Monitoring the IRS’s modernization efforts to
                                                                  MLR work has placed on OIG resources, OIG expects
       identify problems the IRS may encounter as it              to perform fewer audits during fiscal year 2009 on other
       implements new programs and information systems            important Treasury programs such as combating terrorist
                                                                  financing and money laundering. Fraud investigations
    •	 Investigating complaints of wrongdoing that could
       potentially impact the integrity of tax administra-        at failed banks are expected to increase over the next
       tion, including threats to IRS electronic systems          three years, and OIG will need to adjust its priorities and
       and information 	                                          resources to accommodate these demands.

    •	 Conducting investigations which concentrate on
       employee integrity, employee and infrastructure
       security, and external attempts to corrupt tax
       administration

As the IRS continues to modernize and automate its
operations, TIGTA auditors and investigators must be ap-
propriately trained to operate in this environment. TIGTA
initiated the following actions to address these challenges:
    •	 Created of the Office of Inspection and Evaluations
       to provide TIGTA additional flexibility, capacity
       and capability to improve tax administration and
       promote good government. This function was
       created and staffed entirely by realigning existing
       resources




119                                                          Strategic Objective: Enabled and effective Treasury Department
Fiscal Year 2008 Performance and Accountability Report




                                              This page left intentionally blank




                                                                                   120
           An n ual
Fi nancial R e port




            Part III
                                                                                                  Part III — Annual FINANCIAL report



MESSAG E FROM THE ASSISTANT SECRETARY
FOR MANAG EMENT AND CHIEF FINANCIAL OFFICER



November 17, 2008

Secretary Paulson’s message describes the Department of the Treasury’s unprecedented
role and expanded responsibilities in helping to stabilize the nation’s economy. During
the first critical weeks following enactment of the Housing and Economic Recovery
Act and the Emergency Economic Stabilization Act, Treasury professionals in the areas
of procurement, financial management, information technology, human capital, and
operations acted swiftly to ensure that these functions were mobilized to support rapid
implementation. We anticipate a continuing critical role for these teams in fiscal year
2009 in support of the Troubled Asset Relief Program and the newly established Office
of Financial Stability.

During the course of the year, Treasury took a number of steps to strengthen corporate management councils and forums,
including bureau head meetings and active Department-wide functional councils headed by the Chief Financial Officer,
the Chief Information Officer, the Chief Human Capital Officer, the Senior Procurement Executive, and the Director of
Emergency Programs. To strengthen the Department’s privacy, governance, disclosure, and record-keeping programs, a
new Office of Privacy and Treasury Records was established by combining key functions and elevating the integrated effort
to report directly to the Assistant Secretary for Management. The Department also re-energized the E-Board Information
Technology Investment Oversight forum to provide increased executive-level strategic direction and scrutiny of major
projects, and strengthened corporate management of shared services by initiating an ongoing Working Capital Fund
Review Program with participation by all bureaus.

The Department of the Treasury once again received an unqualified audit opinion on its financial statements. We are
working diligently to resolve financial systems material weaknesses which are preventing the Department from achieving
full compliance with federal financial systems requirements and, along with weaknesses in non-financial areas, result in
providing only qualified assurance that the Department is meeting federal financial management and internal control
objectives. The Department closed two long-standing material weaknesses in fiscal year 2008, and no new weaknesses were
identified, leaving four open material weaknesses as of September 30, 2008. These remaining weaknesses involve complex
solutions that will require several years of sustained, hard work to resolve. The last of the Department’s material weaknesses
is scheduled to be closed in fiscal year 2012. The Department will also need to devote special attention to the Management
Challenges outlined by the Department’s Inspectors General. These challenges do not necessarily indicate deficiencies in
performance; however, they represent inherent risks that must be monitored continuously. This is especially true of the new
challenges the Department faces in working to stabilize and improve the distressed financial markets.

In the coming months, as our nation awaits the beginning of a new Administration, the dedicated men and women of
the Department of the Treasury will continue to carry out the vital mission of the Treasury Department on behalf of the
American people, while making all necessary preparations to support a smooth and effective transition.

Sincerely,




Peter B. McCarthy
Assistant Secretary for Management
and Chief Financial Officer




123                               MESSAGE FROM THE ASSISTANT SECRETARY FOR MANAGEMENT AND CHIEF FINANCIAL OFFICER
PAGES 124-139 INTENTIONALLY LEFT BLANK
Fiscal Year 2008 Performance and Accountability Report




                                                     Consolidated Balance Sheets
                                                              As of September 30, 2008 and 2007
                                                                           (In Millions)


          ASSETS                                                                                           2008            2007
          Intra-governmental Assets
                Fund Balance (Note 2)                                                             $      275,368   $      74,767
                Loans and Interest Receivable (Note 3)                                                   264,854         236,932
                Advances to the Black Lung Trust Fund (Note 4 and Note 26)                                10,484          10,058
                Due From the General Fund (Note 4)                                                    10,100,763       9,052,624
                Accounts Receivable and Related Interest (Note 10)                                           396             466
                Other Intra-governmental Assets                                                               13              32
          Total Intra-governmental Assets                                                         $   10,651,878   $   9,374,879
          Cash, Foreign Currency, and Other Monetary Assets (Note 5)                                     387,270          92,330
          Gold and Silver Reserves (Note 6)                                                               11,062          11,062
          Loans and Interest Receivable (Note 3)                                                             172             175
          Credit Program Receivables - Mortgage Backed Securities (Note 3)                                 3,385               0
          Investments in Government Sponsored Enterprises (Note 4, Note 7, and Note 13)                    7,032               0
          Investments and Related Interest (Note 7)                                                       10,576          10,074
          Reserve Position in the International Monetary Fund (Note 8)                                     4,750           4,464
          Investments in International Financial Institutions (Note 9)                                     5,546           5,521
          Tax, Other, and Related Interest Receivables, Net (Note 10)                                     30,878          27,559
          Inventory and Related Property, Net (Note 11)                                                      698             638
          Property, Plant, and Equipment, Net (Note 12)                                                    2,077           2,086
          Other Assets (Note 3)                                                                            1,714              19
          Total Assets (Note 13)                                                                  $   11,117,038   $   9,528,807
                Heritage Assets (Note 12)

          LIABILITIES
          Intra-governmental Liabilities
                 Federal Debt and Interest Payable (Note 4 and Note 14)                           $    4,262,414   $   3,974,788
                 Other Debt and Interest Payable (Note 14)                                                14,164          14,164
                 Due to the General Fund (Note 4, Note 5, and Note 22)                                   667,112         328,973
                 Other Intra-governmental Liabilities (Note 17)                                              345             329
          Total Intra-governmental Liabilities                                                    $    4,944,035   $   4,318,254
          Federal Debt and Interest Payable (Note 4 and Note 14)                                       5,812,694       5,054,250
          Certificates Issued to Federal Reserve Banks (Note 5)                                            2,200           2,200
          Allocation of Special Drawing Rights (Note 5)                                                    7,630           7,627
          Gold Certificates Issued to Federal Reserve Banks (Note 6)                                      11,037          11,037
          Refunds Payable (Note 4 and Note 21)                                                             3,076           1,684
          D.C. Pensions and Judiciary Retirement Actuarial Liability (Note 15)                             8,803           8,992
          Other Liabilities (Note 17, Note 24 and Note 25)                                                17,852           3,664
          Total Liabilities                                                                       $   10,807,327   $   9,407,708
                 Commitments and Contingencies (Note 16, Note 24 and Note 26)

          NET POSITION
          Unexpended Appropriations: Earmarked Funds (Note 22)                                    $          200   $         200
                     Other Funds                                                                         271,768          72,117
                     Subtotal                                                                            271,968          72,317
          Cumulative Results of Operations: Earmarked Funds (Note 22)                                     37,586          35,385
                     Other Funds                                                                             157          13,397
                     Subtotal                                                                             37,743          48,782
          Total Net Position (Note 18)                                                            $      309,711   $     121,099
          Total Liabilities and Net Position                                                      $   11,117,038   $   9,528,807

          The accompanying notes are an integral part of these financial statements.



Financial Statements                                                                                                     140
                                                                                                      Part III — Annual FINANCIAL report




                                    Consolidated Statements of Net Cost
                                           For the Years Ended September 30, 2008 and 2007
                                                             (In Millions)


                                                                                                    2008                   2007

Cost of Treasury Operations: (Note 19)
Financial Program:
Gross Cost                                                                                   $    14,569         $       13,980
Less Earned Revenue                                                                               (2,282)                (2,245)
Net Program Cost                                                                             $    12,287         $       11,735

Economic Program:
Gross Cost                                                                                   $     5,339         $        5,660
Less Earned Revenue                                                                               (5,091)                (6,116)
Net Program Cost                                                                             $      248          $         (456)

Security Program:
Gross Cost                                                                                   $      346          $         302
Less Earned Revenue                                                                                   (4)                    (2)
Net Program Cost                                                                             $      342          $         300

Management Program:
Gross Cost                                                                                   $      631          $        $883
Less Earned Revenue                                                                                 (165)                  (443)
Net Program Cost                                                                             $      466          $         440

Total Program Gross Costs:                                                                   $    20,885         $       20,825
Total Program Gross Earned Revenues                                                               (7,542)                (8,806)
Total Net Cost of Treasury Operations                                                        $    13,343         $       12,019

GSE Costs (Entity) (Note 24)                                                                 $    13,800         $            0
Total Net Cost of Treasury Operations plus GSE                                               $    27,143         $       12,019

Federal Costs: (Note 19)
Federal Debt Interest                                                                        $   453,347         $      432,153
Less Interest Revenue from Loans                                                                 (12,439)               (11,714)
Net Federal Debt Interest Costs                                                              $   440,908         $      420,439

Other Federal Costs (Note 19)                                                                $     8,332         $        8,863
Less GSE Revenue (non-Entity) (Note 24)                                                           (7,032)                     0

Net Federal Costs                                                                            $   442,208         $      429,302

Net Cost of Treasury Operations, GSE Cost, Federal Debt Interest,
Other Federal Costs, and GSE Revenue                                                         $   469,351         $      441,321


The accompanying notes are an integral part of these financial statements.




141                                                                                                                  Financial Statements
Fiscal Year 2008 Performance and Accountability Report




                                   Consolidated Statement of Changes in Net Position
                                                              For the Year Ended September 30, 2008
                                                                           (In Millions)



                                                                                        Combined          Combined
                                                                                       Earmarked           All Other                      Consolidated
                                                                                           Funds              Funds        Eliminations           Total


          CUMULATIVE RESULTS OF OPERATIONS
          Beginning Balances                                                       $       35,385     $     13,397     $            0     $    48,782

          Budgetary Financing Sources:
               Appropriations Used                                                           458           481,277                  0         481,735
               Non-exchange Revenue                                                          134               144                (24)            254
               Donations and Forfeitures of Cash/Equivalent                                  159                  0                 0             159
               Transfers In/Out Without Reimbursement                                           0              (10)                 0             (10)
               Other                                                                          38                (26)                0              12
          Other Financing Sources (non-exchange)
               Donation/Forfeiture of Property                                               112                  0                 0             112
               Accrued Interest and Discount on Debt                                            0            (3,870)                0           (3,870)
               Transfers In/Out Without Reimbursement                                         (52)              31                  0              (21)
               Imputed Financing Sources                                                      60             1,147               (478)            729
               Transfers to the General Fund and Other (Note 18)                             (23)          (20,765)                 0          (20,788)
          Total Financing Sources                                                            886           457,928               (502)        458,312
          Net Cost of Operations                                                            1,315         (471,168)               502         (469,351)
          Net Change                                                                        2,201          (13,240)                 0          (11,039)
          Cumulative Results of Operations                                         $       37,586     $        157     $            0     $    37,743


          UNEXPENDED APPROPRIATIONS
          Beginning Balances                                                       $         200      $     72,117     $            0     $    72,317

          Budgetary Financing Sources:
               Appropriations Received (Note 18)                                             458           681,015                  0         681,473
               Appropriations Transferred In/Out                                                0               24                  0              24
               Other Adjustments                                                                0             (111)                 0             (111)
               Appropriations Used                                                           (458)        (481,277)                 0         (481,735)
          Total Budgetary Financing Sources                                                     0          199,651                  0         199,651
          Total Unexpended Appropriations                                          $         200      $ 271,768        $            0     $ 271,968

          Net Position                                                             $       37,786     $ 271,925        $            0     $ 309,711

          The accompanying notes are an integral part of these financial statements.




Financial Statements                                                                                                                            142
                                                                                                             Part III — Annual FINANCIAL report




                         Consolidated Statement of Changes in Net Position
                                                    For the Year Ended September 30, 2007
                                                                 (In Millions)



                                                                             Combined           Combined
                                                                            Earmarked            All Other                       Consolidated
                                                                                Funds               Funds        Eliminations            Total

CUMULATIVE RESULTS OF OPERATIONS
Beginning Balances                                                      $        31,614     $    15,030      $            0     $    46,644

Budgetary Financing Sources:
     Appropriations Used                                                           390          446,667                   0         447,057
     Non-exchange Revenue                                                          109                 7                 (43)             73
     Donations and Forfeitures of Cash/Equivalent                                  210                 0                  0              210
     Transfers In/Out without Reimbursement                                           0                (8)                0                (8)
     Other                                                                           (1)               0                  0                (1)
Other Financing Sources (non exchange)
     Donation/Forfeiture of Property                                                73                 0                  0               73
     Accrued Interest and Discount on Debt                                            0            7,632                  0           7,632
     Transfers In/Out Without Reimbursement                                         (39)              15                  0              (24)
     Imputed Financing Sources                                                      60             1,172               (492)             740
     Transfers to the General Fund and Other (Note 18)                             205           (12,498)                 0          (12,293)
Total Financing Sources                                                           1,007         442,987                (535)        443,459
Net Cost of Operations                                                            2,764         (444,620)               535         (441,321)
Net Change                                                                        3,771           (1,633)                 0           2,138
Cumulative Results of Operations                                                 35,385          13,397                   0          48,782


UNEXPENDED APPROPRIATIONS
Beginning Balances                                                      $          202      $    68,068      $            0     $    68,270

Budgetary Financing Sources:
     Appropriation Received (Note 18)                                              390          450,832                   0         451,222
     Appropriations Transferred In/Out                                                0               27                  0               27
     Other Adjustments                                                               (2)            (143)                 0             (145)
     Appropriations Used                                                           (390)        (446,667)                 0         (447,057)
Total Budgetary Financing Sources                                                    (2)           4,049                  0           4,047
Total Unexpended Appropriations                                         $          200      $    72,117      $            0     $    72,317

Net Position                                                            $        35,585     $    85,514      $            0     $ 121,099

The accompanying notes are an integral part of these financial statements.




143                                                                                                                             Financial Statements
Fiscal Year 2008 Performance and Accountability Report




                                        Combined Statement of Budgetary Resources
                                                               For the Year Ended September 30, 2008
                                                                            (In Millions)

                                                                                                            Non-Budgetary
                                                                                                Budgetary       Financing           Total
          Budgetary Resources
          Unobligated balance, brought forward                                              $    57,450      $         0    $    57,450
          Recoveries of prior year unpaid obligations                                               413                0            413
          Budget authority:
             Appropriations (Note 18)                                                           679,563               0         679,563
             Borrowing authority                                                                      4          34,304          34,308
             Spending Authority from Offsetting Collections
          Earned: Collected                                                                       8,705             335           9,040
                   Change in receivables from Federal sources                                        (32)             0              (32)
          Change unfilled customer orders: 	
                Advance received                                                                     19                0             19
                Without advance from Federal sources                                                (39)               0            (39)
          Subtotal                                                                            688,220            34,639       722,859
                Non-expenditure transfers, net                                                     844                 0           844
                Temporarily not available pursuant to Public Law                                      (9)              0              (9)
                Permanently not available                                                       (4,626)           (4,767)       (9,393)
          Total Budgetary Resources                                                         $ 742,292        $   29,872     $ 772,164
          Status of Budgetary Resources
          Obligations incurred (Note 20): Direct                                            $ 477,384        $    5,415     $ 482,799
                                          Reimbursable                                          4,735                 0         4,735
          Subtotal                                                                            482,119             5,415       487,534
          Unobligated Balance: Apportioned                                                    214,114            24,122       238,236
                                Exempt from apportionment                                      34,999                 0        34,999
          Subtotal                                                                            249,113            24,122       273,235
          Unobligated balance not available                                                    11,060               335        11,395
          Total Status of Budgetary Resources                                               $ 742,292        $   29,872     $ 772,164
          Change in Obligated Balance
          Obligated balance, net:
             Unpaid obligations brought forward, Oct. 1                                     $     57,811     $         0    $     57,811
             Uncollected customer payments from Federal sources brought forward                     (418)              0            (418)
          Total unpaid obligated balance, net                                                     57,393               0          57,393
          Obligations incurred, net                                                              482,119           5,415         487,534
          Gross outlays                                                                         (482,199)         (5,409)       (487,608)
          Recoveries of prior year unpaid obligations, actual                                       (413)              0            (413)
          Change uncollected customer payments Federal source                                         71               0              71
          Obligated balance, net, end of period:
             Unpaid obligations                                                                  57,318                6         57,324
             Uncollected customer payments Federal sources                                         (347)               0           (347)
          Total unpaid obligated balance, net, end of period                                     56,971                6         56,977
          Net Outlays
             Gross outlays                                                                    482,199             5,409       487,608
             Offsetting collections                                                              (8,194)           (335)         (8,529)
             Distributed offsetting receipts                                                   (16,211)               0        (16,211)
          Net Outlays                                                                       $ 457,794        $    5,074     $ 462,868

          The accompanying notes are an integral part of these financial statements.




Financial Statements                                                                                                             144
                                                                                                       Part III — Annual FINANCIAL report




                              Combined Statement of Budgetary Resources
                                                     For the Year Ended September 30, 2007
                                                                  (In Millions)

                                                                                                  Non-Budgetary
                                                                                      Budgetary       Financing             Total
Budgetary Resources
Unobligated balance, brought forward                                              $    57,540      $         0      $    57,540
Recoveries of prior year unpaid obligations                                               474                0              474
Budget authority:
   Appropriations (Note 18)                                                           465,200                0          465,200
   Borrowing authority                                                                     11                0               11
   Spending Authority from Offsetting Collections
Earned: Collected                                                                       9,937                0            9,937
         Change in receivables from Federal sources                                        (66)              0               (66)
Change unfilled customer orders: 	
                                                                                             17              0               17
      Advance received
      Without advance from Federal sources                                              (125)                0            (125)
Subtotal                                                                            474,974                  0        474,974
      Non-expenditure transfers, net                                                      25                 0              25
      Temporarily not available pursuant to Public Law                                    90                 0              90
      Permanently not available                                                      (10,123)                0         (10,123)
Total Budgetary Resources                                                         $ 522,980        $         0      $ 522,980
Status of Budgetary Resources
Obligations incurred (Note 20): Direct                                            $ 460,999        $         0      $ 460,999
                                Reimbursable                                          4,531                  0          4,531
Subtotal                                                                            465,530                  0        465,530
Unobligated Balance: Apportioned                                                     13,525                  0         13,525
                      Exempt from apportionment                                      32,930                  0         32,930
Subtotal                                                                             46,455                  0         46,455
Unobligated balance not available                                                    10,995                  0         10,995
Total Status of Budgetary Resources                                               $ 522,980        $         0      $ 522,980
Change in Obligated Balance
Obligated balance, net:
   Unpaid obligations brought forward, Oct. 1                                     $     53,057     $         0      $     53,057
   Uncollected customer payments from Federal sources brought forward                     (609)              0              (609)
Total unpaid obligated balance, net                                                     52,448               0            52,448
Obligations incurred, net                                                              465,530               0           465,530
Gross outlays                                                                         (460,302)              0          (460,302)
Recoveries of prior year unpaid obligations, actual                                       (474)              0              (474)
Change uncollected customer payments Federal source                                        191               0               191
Obligated balance, net, end of period:
   Unpaid obligations                                                                  57,811                0           57,811
   Uncollected customer payments Federal sources                                         (418)               0             (418)
Total unpaid obligated balance, net, end of period                                     57,393                0           57,393
Net Outlays
   Gross outlays                                                                    460,302                  0        460,302
   Offsetting collections                                                              (8,192)               0           (8,192)
   Distributed offsetting receipts                                                   (16,040)                0         (16,040)
Net Outlays                                                                       $ 436,070        $         0      $ 436,070

The accompanying notes are an integral part of these financial statements.




145                                                                                                                Financial Statements
Fiscal Year 2008 Performance and Accountability Report




                                                    Statements of Custodial Activity
                                                         For the Years Ended September 30, 2008 and 2007
                                                                           (In Millions)

                                                                                                                    2008             2007


          Sources of Custodial Revenue (Note 21):

          Revenue Received

          Individual Income and FICA Taxes                                                                 $   2,294,326    $   2,201,464
          Corporate Income Taxes                                                                                354,063          395,320
          Estate and Gift Taxes                                                                                  29,824           26,978
          Excise Taxes                                                                                           66,293           67,766
          Railroad Retirement Taxes                                                                               4,939            4,718
          Unemployment Taxes                                                                                      7,331            7,416
          Deposit of Earnings, Federal Reserve System                                                            33,598           32,043
          Fines, Penalties, Interest and Other Revenue                                                            2,233            3,084
          Total Revenue Received                                                                           $   2,792,607    $   2,738,789


          Less Refunds                                                                                          (426,074)        (292,684)
          Net Revenue Received                                                                             $   2,366,533    $   2,446,105


          Accrual Adjustment                                                                                      3,132            5,588
          Total Custodial Revenue                                                                          $   2,369,665    $   2,451,693


          Disposition of Custodial Revenue:

          Amounts Provided to Fund Non-Federal Entities                                                             407              486
          Amounts Provided to Fund the Federal Government (Note 21)                                            2,366,126        2,445,619
          Accrual Adjustment                                                                                      3,132            5,588
          Total Disposition of Custodial Revenue                                                           $   2,369,665    $   2,451,693
          Net Custodial Revenue                                                                            $           0    $           0

          The accompanying notes are an integral part of these financial statements.




Financial Statements                                                                                                              146
                                                                                                                            Part III — Annual FINANCIAL report




NOTES TO THE FINANCIAL STATEMENTS


Table of Contents

Note #

  1.	Summary of Significant Accounting Policies  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 148
  2.	Fund Balance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 158
  3.	    Loans, Interest Receivable and Credit Program Receivables -
  	      Mortgage Backed Securities  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 160
  4.	    Due from the General Fund and Due to the General Fund  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 164
  5.	    Cash, Foreign Currency, and Other Monetary Assets  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 165
  6.	    Gold and Silver Reserves, and Gold Certificates Issued to Federal Reserve Banks  . . . . . . . . . 168
  7.	    Investments and Related Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 169
  8.	    Reserve Position in the International Monetary Fund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 170	
  9.	    Investments in International Financial Institutions  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 172
  10.	 Accounts Receivable and Related Interest . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 173
  11.	 Inventory and Related Property, Net . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 174
  12.	 Property, Plant, and Equipment, Net . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 175
  13.	 Non-Entity Assets  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 176
  14. 	 Federal Debt and Interest Payable . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 177
  15.	 D.C. Pensions and Judiciary Retirement Actuarial Liability  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 180
  16.	 Commitments and Contingencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 182
  17.	 Liabilities  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 185
  18.	 Net Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 187
  19.	 Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations  . . . . . . . . 188
  20.	 Additional Information Related to the Combined Statements of Budgetary Resources  . . . . . . 194
  21. 	 Collection and Disposition of Custodial Revenue  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 197
  22.	Earmarked Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 199
  23.	 Reconciliation of Net Cost of Operations to Budget . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 204
  24.	 Special Programs with Government Sponsored Enterprises (GSE)  . . . . . . . . . . . . . . . . . . . . . 205
  25.	 Temporary Guarantee Program for Money Market Funds . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 208
  26.	Subsequent Events . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 209
  	Required Supplemental Information (Unaudited)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 211




147                                                                                                                       Notes to the Financial Statements
Fiscal Year 2008 Performance and Accountability Report




          1. Summary of Significant Accounting Policies

          A.	 Reporting Entity
             The accompanying financial statements include the operations of the U.S. Department of the Treasury (Treasury
             Department), one of 24 CFO Act agencies of the Executive Branch of the United States Government, and certain
             custodial activities managed on behalf of the entire U.S. Government. The following paragraphs describe the activities
             of the reporting entity.

             The Treasury Department was created by Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected the
             development of the Treasury Department, delegating new duties to its charge and establishing the numerous bureaus
             and divisions that now comprise the Treasury Department. As a major policy advisor to the President, the Secretary
             has primary responsibility for formulating and managing the domestic and international tax and financial policies of
             the U.S. Government.

             Further, the Secretary is responsible for recommending and implementing United States domestic and international
             economic and fiscal policy; governing the fiscal operations of the government; maintaining foreign assets control;
             managing the federal debt; collecting income and excise taxes; representing the United States on international
             monetary, trade, and investment issues; overseeing Departmental overseas operations; and directing the manufacturing
             of coins, currency, and other products for customer agencies and the public.

             In September 2008, the Treasury Department began a number of emergency economic measures relating to the
             economy which involved various financing programs. Key initiatives effective for fiscal year 2008 involved programs
             concerning two Government Sponsored Enterprises (GSE), provision of a credit facility for GSEs and Federal Home
             Loan Banks, purchase of Mortgage Backed Securities, and setup of a Money Market Insurance Program (Notes 24
             and 25).

             The Treasury Department includes the Departmental Offices (DO) and nine operating bureaus. For financial reporting
             purposes, DO is comprised of: International Assistance Programs (IAP), Office of Inspector General (OIG), Treasury
             Forfeiture Fund (TFF), Exchange Stabilization Fund (ESF), Community Development Financial Institutions Fund
             (CDFI), Office of D.C. Pensions (DCP), Treasury Inspector General for Tax Administration (TIGTA), Federal
             Financing Bank (FFB), and the DO policy offices. In addition, the Air Transportation Stabilization Board (ATSB)
             was also part of the DO reporting entity for the year ended September 30, 2007. The ATSB was set up to administer
             the temporary emergency program to assist air carriers that were in need of funds as a result of the terrorist attacks on
             the United States that occurred on September 11, 2001. The ATSB program was terminated at September 30, 2007.
             To close out its remaining budgetary resources during fiscal year 2008, ATSB returned $3.5 million of unexpended
             appropriations to the General Fund of the United States. In fiscal year 2008 the management of the Treasury Franchise
             Fund was transferred from the Departmental Offices (DO) to the Bureau of the Public Debt (BPD). 

             The nine operating bureaus are: Office of the Comptroller of the Currency (OCC); Bureau of Engraving and Printing
             (BEP); Financial Crimes Enforcement Network (FinCEN); Financial Management Service (FMS); Internal Revenue
             Service (IRS); U.S. Mint (Mint); Bureau of the Public Debt (BPD); Office of Thrift Supervision (OTS); and the
             Alcohol and Tobacco Tax and Trade Bureau (TTB).

             The Treasury Department’s financial statements reflect the reporting of its own entity activities, which include
             appropriations it receives to conduct its operations and revenue generated from those operations. They also reflect the




Note 1.                                                                                                                        148
Summary of Significant Accounting Policies
                                                                                                   Part III — Annual FINANCIAL report




   reporting of certain non-entity (custodial) functions it performs on behalf of the U.S. Government and others. Non-
   entity activities include collecting of federal revenue, servicing the federal debt, disbursing certain federal funds, and
   maintaining certain assets and liabilities for the U.S. Government, as well as for others. The Treasury Department’s
   reporting entity does not include the “General Fund” of the U.S. Government, which maintains receipt, disbursement,
   and appropriation accounts for all federal agencies.

   Transactions and balances among the Treasury Department’s entities have been eliminated from the Consolidated
   Balance Sheets, the Consolidated Statements of Net Cost, and the Consolidated Statements of Changes in Net
   Position.

B.	 Basis of Accounting and Presentation
   The financial statements have been prepared from the accounting records of the Treasury Department in conformity
   with accounting principles generally accepted in the United States for federal entities, and the Office of Management
   and Budget (OMB) Circular A-136, Financial Reporting Requirements, as amended. Accounting principles gener-
   ally accepted for federal entities are the standards prescribed by the Federal Accounting Standards Advisory Board
   (FASAB). FASAB is recognized by the American Institute of Certified Public Accountants as the official accounting
   standards-setting body of the U.S. Government.

   These financial statements are provided to meet the requirements of the Government Management Reform Act
   of 1994. They consist of the Consolidated Balance Sheets, the Consolidated Statements of Net Cost, and the
   Consolidated Statements of Changes in Net Position, the Combined Statements of Budgetary Resources, and the
   Statements of Custodial Activity. The statements and the related notes are prepared in a comparative form to present
   both fiscal year 2008 and fiscal year 2007 information.

   While these financial statements have been prepared from the books and records of the Treasury Department in ac-
   cordance with the formats prescribed by OMB, these financial statements are in addition to the financial reports used
   to monitor and control budgetary resources which are prepared from the same books and records.

   Throughout these financial statements, intra-governmental assets, liabilities, earned revenues, and costs have been clas-
   sified according to the entity for these transactions. Intra-governmental assets and liabilities are those from or to other
   federal entities. Intra-governmental earned revenues are collections or accruals of revenue from other federal entities,
   and intra-governmental costs are payments or accruals of expenditure to other federal entities.

   The financial statements should be read with the realization that they are for a component of a sovereign entity, that
   liabilities not covered by budgetary resources cannot be liquidated without the enactment of an appropriation, and
   that the payment of all liabilities other than for contracts can be abrogated by the sovereign entity.

C.	 Tax and Other Non-Entity Receivables
   Tax receivables are not accrued until related tax returns are filed or assessments are made. Prepayments of taxes are
   netted against liabilities. Accruals are made to reflect penalties and interest on tax receivables through the balance sheet
   date. Tax receivables consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers for
   which the Treasury Department can support the existence of a receivable through taxpayer agreement, such as filing a
   tax return without sufficient payment, or a court ruling in favor of the Treasury Department. Tax receivables are shown
   on the balance sheet net of an allowance for doubtful accounts and abatements. The allowance for doubtful accounts
   reflects an estimate of the portion deemed to be uncollectible based on historical experience of similar taxes receivable.




149                                                                                                                    Note 1.
                                                                                    Summary of Significant Accounting Policies
Fiscal Year 2008 Performance and Accountability Report




          D.	 Inventory and Related Property
             Inventories and related property include inventory, operating materials and supplies, and forfeited property. The
             Treasury Department values inventories at either standard cost or lower of cost or latest acquisition cost except for
             finished goods inventories, which are valued at weighted average unit cost. All operating materials and supplies are
             recorded as an expense when consumed in operations.

             Forfeited property is recorded at estimated fair market value at the time of seizure as deferred revenue, and may be
             adjusted to reflect the current fair market value at the end of the fiscal year. Property forfeited in satisfaction of a
             taxpayer’s assessed liability is recorded when title to the property passes to the U.S. Government and a correspond-
             ing credit is made to the related taxes receivable. Direct and indirect holding costs are not capitalized for individual
             forfeited assets.

             Mortgages and claims on forfeited assets are recognized as a valuation allowance and a reduction of deferred revenue
             from forfeited assets when the asset is forfeited. The allowance includes mortgages and claims on forfeited property
             held for sale and a minimal amount of claims on forfeited property previously sold. Revenue from the forfeiture of
             property is deferred until the property is sold or transferred to a state, local or federal agency. Revenue is not recog-
             nized if the forfeited property is ultimately destroyed or cannot be legally sold.

          E.	 Loans and Interest Receivable – Entity and Non-Entity
             Intra-governmental entity Loans and Interest Receivable from other federal agencies represent loans and interest
             receivable held by the Treasury Department. No subsidy costs were recorded for loans purchased from federal agencies
             or for guaranteed loans made to non-federal borrowers, because these are guaranteed (interest and principal) by those
             agencies.

             Intra-governmental non-entity Loans and Interest Receivable from other federal agencies represent loans issued by
             the Treasury Department to federal agencies on behalf of the U.S. Government. The Treasury Department acts as an
             intermediary issuing these loans, because the agencies receiving these loans will lend these funds to others to carry out
             various programs of the Federal Government. Because of the Treasury Department’s intermediary role in issuing these
             loans, the Treasury Department does not record an allowance or subsidy costs related to these loans. Instead, loan loss
             allowances and subsidy costs are recognized by the ultimate lender, the federal agency that issued the loans.

          F. 	 Advances to the Black Lung Trust Fund
             Advances have been provided to the Department of Labor’s Black Lung Trust Fund from the General Fund of the
             U.S. Government. The Bureau of the Public Debt accounts for the advances on behalf of the General Fund of the U.S.
             Government. Advances to the Black Lung Trust Fund are being accounted for pursuant to the Benefits Revenue Act
             which states: “In the event that fund resources are not adequate to meet fund obligations, then, advances of interest
             and principal are paid to the General Fund of the U.S. Government when the Secretary of the Treasury determines
             that funds are available in the trust fund for such purposes.” The advance to the Black Lung Trust Fund is repayable
             with interest at a rate determined by the Secretary of the Treasury to be equal to the current average market yield
             on outstanding marketable obligations of the United States with remaining periods to maturity comparable to the
             anticipated period during which the advance will be outstanding. Advances made prior to 1982 carried rates of inter-
             est equal to the average rate borne by all marketable interest-bearing obligations of the United States then forming a
             part of the public debt.




Note 1.                                                                                                                          150
Summary of Significant Accounting Policies
                                                                                                     Part III — Annual FINANCIAL report




   These advances were retired on October 7, 2008, under the refinancing agreement authorized by the enactment of
   the Energy Improvement and Extension Act of 2008 on October 3, 2008. The Act gave authority to the Black Lung
   Disability Trust Fund to issue obligations to the Secretary of the Treasury and gave authority to the Secretary of the
   Treasury to purchase the obligations. The repayable advances were retired with the proceeds from these obligations as
   a one time appropriation to the Trust Fund (Note 26).

G.	 Property, Plant, and Equipment
   Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services. It also
   includes assets acquired through capital leases, which are initially recorded at the amount recognized as a liability for
   the capital lease at its inception. PP&E is stated at full cost, including costs related to acquisition, delivery, and instal-
   lation, less accumulated depreciation. Major alterations and renovations including leasehold and land improvements
   are capitalized, while maintenance and repair costs are charged to expenses as incurred.

   Internal use software encompasses software design, development, and testing of projects adding significant new func-
   tionality and long-term benefits. Costs for developing internal use software are accumulated in work in development
   until a project is placed into service, and testing and final acceptance are successfully completed. Once completed, the
   costs are transferred to depreciable property.

   Costs for construction projects are recorded as construction-in-progress until completed, and are valued at actual
   (direct) cost, plus applied overhead and other indirect costs.

   The Treasury Department leases land and buildings from the General Services Administration (GSA) to conduct
   most of its operations. GSA charges a standard level users fee which approximates commercial rental rates for similar
   properties. Therefore, GSA-owned properties are not included in the Department’s PP&E.

   The Treasury Department’s bureaus are diverse both in size and in operating environment. Accordingly, the
   Department’s capitalization policy provides minimum capitalization thresholds which range from $25,000 to $50,000.
   The Treasury Department also uses a capitalization threshold range for bulk purchases: $250,000 to $500,000 for
   non‑manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus. Bureaus determine the individual
   items that comprise bulk purchases. In addition, Treasury bureaus may expense bulk purchases if they conclude that
   total period costs would not be materially distorted and the cost of capitalization is not economically feasible.

   Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of
   leasehold improvements, which are depreciated over the useful life of the lease or the useful life of the improvement,
   whichever is shorter. Service life ranges are high due to the Treasury Department’s diversity of PP&E. Construction
   in progress and internal use software in development are not depreciated.

   The Treasury Department owns the Treasury building — a multi-use heritage asset. Multi-use heritage assets are
   assets of historical significance for which the predominant use is general government operations. All acquisition,
   reconstruction, and betterment costs for the Treasury Department building are capitalized as general PP&E and
   depreciated over their service life.




151                                                                                                                     Note 1.
                                                                                     Summary of Significant Accounting Policies
Fiscal Year 2008 Performance and Accountability Report




          H.	 Federal Debt
             Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses
             when incurred, instead of when paid. Certain Treasury securities are issued at a discount or premium. These discounts
             and premiums are amortized over the term of the security using an interest method for all long term securities and the
             straight line method for short term securities. The Department of the Treasury also issues Treasury Inflation-Protected
             Securities (TIPS). The principal for TIPS is adjusted daily over the life of the security based on the Consumer Price
             Index for all Urban Consumers.

          I. 	 Pension Costs, Other Retirement Benefits, and Other Post Employment Benefits
             The Treasury Department recognizes the full costs of its employees’ pension benefits. However, the liabilities as-
             sociated with these costs are recognized by the Office of Personnel Management (OPM) rather than the Treasury
             Department.

             Most employees of the Treasury Department hired prior to January 1, 1984, participate in the Civil Service
             Retirement System (CSRS), to which the Treasury Department contributes 8.51 percent of salaries for regular CSRS
             employees.

             On January 1, 1987, the Federal Employees’ Retirement System (FERS) went into effect pursuant to Public Law
             99-335. Employees hired after December 31, 1983, are automatically covered by FERS and Social Security. A primary
             feature of FERS is that it offers a savings plan to which the Treasury Department automatically contributes one percent
             of base pay and matches any employee contributions up to an additional four percent of base pay. For most employees
             hired after December 31, 1983, the Treasury Department also contributes the employer’s matching share for Social
             Security. For the FERS basic benefit the Treasury Department contributes 11.2 percent for regular FERS employees.

             Similar to federal retirement plans, OPM, rather than the Treasury Department, reports the liability for future pay-
             ments to retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and Federal
             Employees Group Life Insurance (FEGLI) Program. The Treasury Department reports the full cost of providing
             other retirement benefits (ORB). The Treasury Department also recognizes an expense and liability for other post
             employment benefits (OPEB), which includes all types of benefits provided to former or inactive (but not retired)
             employees, their beneficiaries, and covered dependents. Additionally, the Treasury bureaus, OCC and OTS, separately
             sponsor certain benefit plans for their employees. OCC sponsors a defined life insurance benefit plan for current and
             retired employees. Additionally, OTS provides certain health and life benefits for all retired employees that meet
             eligibility requirements.

          J.	 Special Drawing Rights (SDR) Certificates Issued to Federal Reserve Banks
             The Exchange Stabilization Fund (ESF) was established for use by the Secretary of the Treasury to account for the
             purchase or sale of foreign currencies, to hold U.S. foreign exchange and Special Drawing Rights (SDR) assets,
             and to provide financing to foreign governments. SDR transactions of the ESF require the explicit authorization of
             the Secretary of the Treasury. The Special Drawing Rights Act of 1968 authorized the Secretary of the Treasury to
             issue certificates, not to exceed the value of SDR holdings, to the Federal Reserve Banks in return for interest free
             dollar amounts equal to the face value of certificates issued. The certificates may be issued to finance the acquisition
             of SDR from other countries or to provide resources for financing other ESF operations. Certificates issued are to be
             redeemed by the Treasury Department at such times and in such amounts as the Secretary of the Treasury may deter-




Note 1.                                                                                                                       152
Summary of Significant Accounting Policies
                                                                                                   Part III — Annual FINANCIAL report




   mine. Certificates issued to Federal Reserve Banks are stated at their face value. It is not practical to estimate the fair
   value of Certificates Issued to Federal Reserve Banks since these certificates contain no specific terms of repayment.

K.	 Federal Employee Benefits Payable - FECA Actuarial Liability
   The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered Federal
   civilian employees injured on the job, and employees who have incurred a work-related injury or occupational disease.
   These future workers’ compensation estimates were generated from an application of actuarial procedures developed
   to estimate the liability for FECA benefits. The actuarial liability estimates for FECA benefits include the expected
   liability for death, disability, medical, and miscellaneous costs for approved compensation cases.

L.	 Revenue and Financing Sources
   Treasury Department activities are financed either through exchange revenue it receives from others or through
   non-exchange revenue and financing sources (such as appropriations provided by the Congress and penalties, fines,
   and certain user fees collected). User fees primarily include Internal Revenue Service reimbursable costs to process
   installment agreements and accompanying photocopy and reproduction charges. Exchange revenues are recognized
   when earned; i.e., goods have been delivered or services have been rendered. Non-exchange revenues are recognized
   when received by the respective Treasury Department collecting bureau. Appropriations used are recognized as
   financing sources when related expenses are incurred or assets are purchased. Revenue from reimbursable agreements
   is recognized when the services are provided. The Treasury Department also incurs certain costs that are paid in total
   or in part by other federal entities, such as pension costs. These subsidized costs are recognized on the Consolidated
   Statement of Net Cost, and the imputed financing for these costs is recognized on the Consolidated Statement of
   Changes in Net Position. As a result, there is no effect on net position. Other non-exchange financing sources such as
   donations and transfers of assets without reimbursements also are recognized for the period in which they occurred on
   the Consolidated Statement of Changes in Net Position.

   The Treasury Department recognizes revenue it receives from disposition of forfeited property as non-exchange
   revenue on the Consolidated Statement of Changes in Net Position. The costs related to the forfeiture fund program
   are reported on the Consolidated Statement of Net Cost.

M.	 Custodial Revenues and Collections
   Non-entity revenue reported on the Treasury Department’s Statement of Custodial Activity includes cash collected by
   the Treasury Department, primarily taxes. It does not include revenue collected by other federal agencies, such as user
   fees and other receipts, which are remitted for general operating purposes of the U.S. Government or are earmarked
   for certain trust funds. The Statements of Custodial Activity is presented on the “modified accrual basis.” Revenues
   are recognized as cash is collected. The “accrual adjustment” is the net increase or decrease, during the reporting
   period, in net revenue related-assets and liabilities, mainly taxes receivable. The Balance Sheets include an estimated
   amount for taxes receivable and payable to the General Fund of the U.S. Government at September 30, 2008 and
   September 30, 2007.

N.	 Tax Assessments and Abatements
   Under Internal Revenue Code Section 6201, the Treasury Department is authorized and required to make inquiries,
   determinations, and assessments of all taxes which have not been duly paid (including interest, additions to the tax,
   and assessable penalties) under the law. Unpaid assessments result from taxpayers filing returns without sufficient




153                                                                                                                   Note 1.
                                                                                   Summary of Significant Accounting Policies
Fiscal Year 2008 Performance and Accountability Report




             payment, as well as from tax compliance programs, such as examination, under-reporter, substitute for return, and
             combined annual wage reporting. The Treasury Department also has authority to abate the paid or unpaid portion
             of an assessed tax, interest, and penalty. Abatements occur for a number of reasons and are a normal part of the tax
             administration process. Abatements may result in claims for refunds or a reduction of the unpaid assessed amount.

          O. Permanent and Indefinite Appropriations
             Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax credits.
             These appropriations are not subject to budgetary ceilings established by Congress. Therefore, refunds payable at
             year end are not subject to funding restrictions. Refund payment funding is recognized as appropriations are used.
             Permanent indefinite authority for refund activity is not stated as a specific amount and is available for an indefinite
             period of time. Although funded through appropriations, refund activity, in most instances, is reported as a custodial
             activity of the Treasury Department, since refunds are, in substance, a custodial revenue-related activity resulting from
             taxpayer overpayments of their tax liabilities.

             The Treasury Department also receives two permanent and indefinite appropriations related to debt activity. One
             is used to pay interest on the public debt securities; the other is used to redeem securities that have matured, been
             called, or are eligible for early redemption. These accounts are not annual appropriations; and do not have refunds.
             Debt activity appropriations are related to the Treasury Department’s liability and would be reported on the Treasury
             Department’s Balance Sheet. Permanent indefinite authority for debt activity is available for an indefinite period of
             time.

             Additionally, the Treasury Department receives other permanent and indefinite appropriations to make certain
             payments on behalf of the U.S. Government. These appropriations are provided to make payments to the Federal
             Reserve for services provided. They also include appropriations provided to make other disbursements on behalf of the
             U.S. Government, including payments made to various parties as the result of certain claims and judgments rendered
             against the United States.

          P.	 Income Taxes
             As an agency of the Federal Government, the Treasury Department is exempt from all income taxes imposed by any
             governing body, whether it is a federal, state, commonwealth, local, or foreign government.

          Q.	 Use of Estimates
             The Treasury Department has made certain estimates and assumptions relating to the reporting of assets, liabilities,
             revenues, expenses, and the disclosure of contingent liabilities to prepare these financial statements. Actual results
             could differ from these estimates. Major items subject to estimates include loan receivables (including Mortgage
             Backed Securities); investments in non-federal securities (including Freddie Mac and Fannie Mae); taxes receivables;
             depreciation; money market insurance liability; liability for liquidity commitment (Freddie Mac and Fannie Mae);
             imputed costs; actuarial liabilities; cost and earned revenue allocations; contingent legal liabilities; and credit reform
             subsidy costs (Notes 3 and 24).

             The Treasury recognizes the sensitivity of credit reform modeling to slight changes in some model assumptions and
             uses continual review of model factors, statistical modeling, and annual re-estimates to reflect the most accurate cost of
             the credit programs to the U.S. Government. Two of the emergency economic programs that Treasury implemented in
             the latter part of September 2008, the purchase program for Mortgage Backed Securities (MBS) and the Government




Note 1.                                                                                                                          154
Summary of Significant Accounting Policies
                                                                                                 Part III — Annual FINANCIAL report




   Sponsored Enterprise credit line facility , both operate under the provisions of credit reform and the use of estimates
   as dictated by the Federal Credit Reform Act (Notes 3 and 24). Further, the assumptions underlying the estimated
   future liquidity payments to the GSE’s are subject to a high level of market volatility, such that actual future payments
   may differ significantly from current estimates due to changing circumstances. The Troubled Asset Relief Program
   described further in subsequent event Note 26 will also require the use of sophisticated estimates.

   The Treasury used the following methodologies for valuation of the investment in GSE:
   Common Stock Warrants: The Black-Scholes Option Model (1973) was used to affirm that the value of the warrants
   is insensitive to the usual option input variables, including time to expiration and stock volatility, and that the value
   per warrant share is nominally less than the trading price at September 30, 2008.

   Senior Preferred Stock: These shares were valued based on an interpolation of market prices during the five trading
   days prior to the announcement of the Keepwell Agreement for (i) Fannie Mae and Freddie Mac subordinated debt,
   as adjusted for the tax advantages of stock dividends compared with taxable interest, and (ii) Fannie Mae and Freddie
   Mac preferred stock.

R.	 Credit Risk
   Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or a counter party to
   perform in accordance with underlying contractual obligations. The Treasury Department takes on possible credit risk
   when it makes direct loans or credits to foreign entities or becomes exposed to institutions which engage in financial
   transactions with foreign countries. Given the history of the Treasury Department with respect to such exposure and
   the financial policies in place in the U. S. Government and other institutions in which the United States participates,
   the Treasury Department expectations of credit losses is nominal.

   The Treasury Department also takes on credit risk related to committed but undisbursed direct loans, its liquid-
   ity commitment to Government Sponsored Enterprises, its mortgage-backed securities portfolio, its insurance
   of non-FDIC insured money market funds, and its Terrorism Risk Insurance Program. Except for the Terrorism
   Risk Insurance Program, these activities focus on the underlying problems in the credit markets, and the ongoing
   turbulence in those markets exposes the Department to potential costs and losses. The extent of the risk assumed by
   the Treasury Department is described in more detail in the notes to the financial statements, and where applicable
   factored into credit reform models.

S.	 Earmarked Funds
   Treasury has accounted for revenues and other financing sources for earmarked funds separately from other funds.  This
   method was adopted in accordance with the provisions of the Federal Accounting Standards Advisory Board’s Statement
   of Federal Financial Accounting Standards (SFFAS) No. 27, Identifying and Reporting Earmarked Funds, which became
   effective October 1, 2007.  This standard amended SFFAS No. 7, Revenue and Other Financing Sources, by:
      •	 Elaborating the special accountability needs associated with dedicated collections;

      •	 Separating dedicated collections into two categories – earmarked funds and fiduciary activity; and

      •	 Defining, and providing accounting and reporting guidance for earmarked funds. 

   Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources,
   which remain available over time. These specifically identified revenues and other financing sources are required by
   statute to be used for designated activities or purposes. SSFAS No. 27 defines the following three criteria for deter-




155                                                                                                                  Note 1.
                                                                                  Summary of Significant Accounting Policies
Fiscal Year 2008 Performance and Accountability Report




             mining an earmarked fund: (1) A statute committing the Federal Government to use specifically identified revenues
             and other financing sources not used in the current period for future use to finance the designated activities, benefits,
             or purposes; (2) Explicit authority for the earmarked fund to retain revenues and other financing sources not used in
             the current period for future use to finance the designated activities, benefits, or purposes; and (3) A requirement to
             account for and report on the receipt, use, and retention of the revenues and other financing sources that distinguished
             the earmarked fund from the Federal Government’s general revenues.

          T. 	 Allocation Transfers
             The Treasury Department is a party to allocation transfers with other federal agencies as both a transferring (parent)
             entity and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority
             to obligate budget authority and outlay funds to another department. A separate fund account (allocation account) is
             created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation
             transfers of balances are credited to this account, and subsequent obligations and outlays incurred by the child entity
             are charged to this allocation account as they execute the delegated activity on behalf of the parent. Beginning in fiscal
             year 2007, parent federal agencies report both the proprietary and budgetary activity and the child agency does not
             report any financial activity related to budget authority allocated from the parent federal agency to the child federal
             agency. The Treasury Department had no significant allocation transfers to report in fiscal years 2008 and 2007.

             The Treasury Department allocates funds, as the parent, to the Department of Energy. OMB allows certain exceptions
             to allocation reporting for certain funds. Accordingly, the Treasury Department has reported certain funds for which
             the Treasury Department is the child in the allocation transfer, but in compliance with OMB Circular No. A-136
             (see II.4.2 question 5 for three exceptions), will report all activities relative to these allocation transfers in the Treasury
             Department’s financial statements. The Treasury Department receives allocation transfers, as the child, from the
             Agency for International Development.

          U.	 Credit Reform Accounting
             The authoritative guidance for the credit reform portion of these statements are contained primarily in SFFAS No. 2,
             Accounting for Direct Loans and Loan Guarantees, as amended by SFFAS No. 18, Amendments to Accounting Standards
             for Direct Loans and Loan Guarantees, SFFAS No. 19, Technical Amendments to Accounting Standards for Direct Loans
             and Loan Guarantees. This guidance was promulgated as a result of the Federal Credit Reform Act (FCRA) of 1990.

             The FCRA requires that the ultimate costs of a credit program be calculated, and the budgetary resources obtained,
             before the direct loan obligations are incurred. The cost of loan guarantee programs is the net present value of the
             estimated future cash flows from payments (for claims, interest rate subsidies). The primary purpose of the FCRA,
             which became effective on October 1, 1991, is to more accurately measure the cost of federal credit programs and to
             place the cost of such credit programs on a basis equivalent with other federal spending.

             SFFAS No. 2, which generally mirrors the requirements of the FCRA, established guidance for estimating the cost of
             direct and guaranteed loan programs, as well as for recording direct loans and liability for loan guarantees for financial
             reporting purposes. SFFAS No. 2 states that the actual and expected costs of federal credit programs should be fully
             recognized in both budgetary and financial reporting. To accomplish this, agencies first predict or estimate the future
             performance of direct and guaranteed loans when preparing their annual budgets. The data used for these budgetary
             estimates are re-estimated after the fiscal year-end to reflect changes in actual loan performance and actual interest




Note 1.                                                                                                                             156
Summary of Significant Accounting Policies
                                                                                                 Part III — Annual FINANCIAL report




   rates in effect when the loans were issued. The re-estimate data are then used to report the cost of the loans disbursed
   under the direct or guaranteed loan program as a “Program Cost” in the agencies’ Statement of Net Cost.

   The FCRA establishes budgetary and financing control for each credit program through the use of the program,
   financing and negative subsidy receipt accounts for direct loans obligated after September 30, 1991. The FCRA estab-
   lishes the use of the program, financing, and general fund receipt for direct loans obligated after September 30, 1991
   (Credit Reform). These accounts are classified as either budgetary or non-budgetary in the Combined Statements of
   Budgetary Resources. The budgetary accounts include the program accounts and receipt accounts. The non-budgetary
   accounts consist of the credit reform financing accounts.

   The program account is a budget account that receives and obligates appropriations to cover the subsidy cost of a
   direct loan or guarantee and disburses the subsidy cost to the financing account. The program account also receives ap-
   propriations for administrative expenses. The financing account is a non-budgetary account that records all of the cash
   flows resulting from Credit Reform direct loans or loan guarantees. It disburses loans, collects repayments and fees,
   makes claim payments, holds balances, borrows from U.S. Treasury Bureau of the Public Debt, earns or pays interest,
   and receives the subsidy cost payment from the program account.

   The general fund receipt account is a budget account used for the receipt of amounts paid from the financing account
   when there is a negative subsidy from the original estimate or a downward re-estimate. In most cases, the receipt
   account is a general fund receipt account and amounts are not earmarked for the credit program. They are available
   for appropriations only in the sense that all general fund receipts are available for appropriations. Any assets in this
   account are non-entity assets and are offset by intragovernmental liabilities. At the beginning of the following fiscal
   year, the fund balance in the general fund receipt account is transferred to the U.S. Government General Fund.

V.	 Investments
   Treasury records investments in non-federal financial securities at acquisition cost at the date of purchases in ac-
   cordance with OMB A-136. Disclosure of market values are made as of year end and any permanent impairment is
   recorded.




157                                                                                                                 Note 1.
                                                                                 Summary of Significant Accounting Policies
Fiscal Year 2008 Performance and Accountability Report




          2. Fund Balance
               Fund Balance with Treasury is the aggregate amount of the Treasury Department’s accounts with the U.S.
               Government’s central accounts from which the Treasury Department is authorized to make expenditures and pay
               liabilities. It is an asset because it represents the Treasury Department’s claim to the U.S. Government’s resources. Fund
               balance with Treasury is not equivalent to unexpended appropriations, because it also includes non-appropriated revolv-
               ing and enterprise funds, suspense accounts, and custodial funds such as deposit funds, special funds, and trust funds.

               Fund Balances: As of September 30, 2008 and September 30, 2007, fund balances consisted of the following (in
               millions):
                                                                                                       2008                2007
                 Appropriated Funds (see Note 24)                                              $   272,561        $     72,897
                 Revolving Funds                                                                      1,837                912
                 Trust Funds                                                                              2                   8
                 Clearing Funds                                                                         26                  10
                 Deposit Funds                                                                         587                 542
                 Special Funds                                                                         299                 395
                 Other Funds (Receipts and Suspense Funds)                                              56                    3
               Total Fund Balances                                                             $   275,368        $     74,767


               As of September 30, 2008 and September 30, 2007, the status of fund balances consisted of the following (in
               millions):

               Status of Fund Balance with Treasury                                                    2008                2007
                 Unobligated Balance – Available (see Note 24)                                 $   242,939        $     17,843
                 Unobligated Balance – Unavailable                                                  11,395              10,995
                 Obligated Balance not yet Disbursed                                                56,868              57,310
                 Subtotal                                                                      $   311,202        $     86,148

                 Adjustment for Non-Budgetary Funds                                                    669                 556
                 Adjustment for Borrowing Authority                                                 (29,810)             (5,716)
                 Adjustment for Intra-Treasury Investments                                           (5,530)             (5,280)
                 Adjustment for Imprest Funds                                                            (4)                 (4)
                 Adjustment for Other Budgetary Resources Not in Fund
                      Balance – Cash and Other Assets                                                (4,838)             (4,616)
                 Authority Unavailable for Obligation                                                 3,679              3,679
                 Total Status of Fund Balance                                                  $   275,368        $     74,767


               For ESF, the above balances only include unobligated balances related to the ESF insurance program that began in
               fiscal year 2008.  Otherwise, ESF does not have Fund Balance with Treasury.  Accordingly, while other ESF bal-
               ances are included on the Statement of Budgetary Resources (SBR), they are not a component of Fund Balance with
               Treasury. The ESF balances displayed on the SBR include components of cash, foreign currency, and other monetary
               assets (Note 5).




Note 2.                                                                                                                            158
fund balance
                                                                                            Part III — Annual FINANCIAL report




  As of September 30, 2008 and September 30, 2007, the Treasury Department did not have any budgetary authority in
  Fund Balance with Treasury that was specifically withheld from apportionment by OMB. The balances in non-entity
  funds, such as deposit funds, are being held in a fiduciary capacity by the Treasury Department for the public or for
  another federal entity, such as the General Fund of the U.S. Government. Such funds have an offsetting liability
  equal to fund balance. See Note 8 regarding restrictions related to the line of credit held on the U.S. Quota in the
  International Monetary Fund.




159                                                                                                                       Note 2.
                                                                                                                    fund balance
Fiscal Year 2008 Performance and Accountability Report




          3. Loans, Interest Receivable and Credit Program
             Receivables - Mortgage Backed Securities

             Loans and Interest Receivable:
             As of September 30, 2008 and September 30, 2007, intra-governmental loans (issued by the FFB) and interest receiv-
             able consisted of the following (in millions):

             Entity Intra-governmental:
                                                                   Loans        Interest                            Loans        Interest
                                                                                               2008 Total                                       2007 Total
                                                               Receivable    Receivable                         Receivable    Receivable
             Executive Office of the President                 $      680    $        8    $        688         $      836    $        9    $        845
             Department of Agriculture                              26,326          50           26,376              25,604         300           25,904
             United States Postal Service                            7,200            1           7,201               4,200            3           4,203
             General Services Administration                         2,098          37            2,135               2,151          38            2,189
             Department of Housing and Urban Development              691           84              775                791           96              887
             Department of Education                                  338             3             341                315             4             319
             Department of Defense                                     17             0              17                 70             1              71
             National Credit Union Administration                    1,109            0           1,109                  0             0                0
             Other Agencies                                            18             0              18                 25             1              26
             Subtotal-Entity                                   $ 38,477      $     183     $     38,660         $ 33,992      $     452     $     34,444


             The FFB issues the above loans to federal agencies for their own use or to private sector borrowers, whose loans are
             guaranteed by the federal agencies. When a federal agency has to honor its guarantee because a private sector bor-
             rower defaults, the federal agency that guaranteed the loan must obtain an appropriation or use other resources to
             repay the FFB. Loan principal and interest are backed by the full faith and credit of the U.S. Government, except for
             loans to the U.S. Postal Service. The FFB has not incurred and does not expect to incur any credit-related losses on its
             loans and accordingly, has not recorded an allowance for uncollectable intra-governmental loans.

             Non-Entity Intra-governmental:
                                                                   Loans        Interest                            Loans        Interest
                                                                                               2008 Total                                       2007 Total
                                                               Receivable    Receivable                         Receivable    Receivable
             Department of Agriculture                     $        51,192   $        9    $     51,201     $        49,133   $      64     $     49,197
             Department of the Interior                               323          393              716                345          513              858
             Federal Communications Commission                        113             0             113                106             0             106
             Department of Veterans Affairs                          1,575            0           1,575               1,047          27            1,074
             Railroad Retirement Board                               3,096          69            3,165               2,945          73            3,018
             Small Business Administration                           9,463            0           9,463              11,366            0          11,366
             Department of Housing and Urban Development             4,832            0           4,832               4,573            0           4,573
             Department of Energy                                    2,186          20            2,206               2,241          (8)           2,233
             Department of Education                               128,331            0         128,331             103,973            0         103,973
             Export Import Bank of the U. S.                         2,929            0           2,929               4,364            0           4,364
             Department of Homeland Security                        17,360         359           17,719              17,787         367           18,154
             Other Agencies                                          3,944            0           3,944               3,545          27            3,572
             Subtotal Non-Entity                           $ 225,344         $     850     $ 226,194        $ 201,425         $   1,063     $ 202,488
             Total Intra-governmental Loans and Interest
                Receivable Entity and Non-Entity                                           $ 264,854                                        $ 236,932




Note 3.                                                                                                                                          160
Loans, Interest Receivable and Credit Program Receivables - Mortgage Backed Securities
                                                                                                      Part III — Annual FINANCIAL report




  BPD accounts for and reports on the principal borrowings from and repayments to the General Fund of the United
  States for approximately 80 funds managed by other federal agencies, as well as the related interest due to the General
  Fund. These agencies are statutorily authorized to borrow from the General Fund, through BPD, to make loans for a
  broad range of purposes, such as education, housing, farming, and small business support.

  Entity and Non-Entity Non-Federal:

  As of September 30, 2008 and September 30, 2007, loans and interest receivable from non-federal entities consisted
  of the following (in millions):
                                                                                          2008                                  2007
                                                                Entity   Non-entity       Total       Entity   Non-entity       Total
  Direct Loans                                              $     62      $   128     $   190     $     63      $   131     $   194
  Interest Receivable                                              0             2           2           1             2           3
  Less: Allowance and Subsidy Cost                               (20)            0        (20)          (22)           0         (22)
  Total Non-Federal Loans and Related Interest Receivable   $     42      $   130     $   172     $     42      $   133     $   175



  Other amounts include certain loans and credits issued by the United States to various foreign governments. The
  agreements with each debtor government vary as to dates, interest rates, method of payment, and billing procedures.
  All such loans and credits represent legally valid and outstanding obligations of foreign governments, and the U.S.
  Government has not waived or renounced its rights with respect to any of them. The loans are due and payable in U.S.
  denominations.

  Credit Program Receivables
  In fiscal year 2008, the Treasury Department began a program to support the availability of mortgage financing for
  millions of Americans and to mitigate pressures on mortgage rates. Under this program, Treasury purchases GSE
  MBS in the open market (note 24). This program is accounted for under credit reform accounting.

  MBS Purchase Program:

  Congress granted Treasury authority to purchase mortgage-backed securities (MBS) issued by Government
  Sponsored Enterprises (GSEs) in the Housing and Economic Recovery Act of 2008. The authority expires on
  December 31, 2009. To promote stability in the mortgage market, Treasury’s makes MBS purchases in the open
  market. GSE MBS are credit-guaranteed by the GSEs and Treasury plans to hold its portfolio of MBS to maturity
  unless, based on mortgage market conditions, sales are necessary. This program was implemented to help improve
  the availability of mortgage credit to American homebuyers and mitigate pressures on mortgage rates. By purchasing
  these securities, Treasury seeks to broaden access to mortgage funding for current and prospective homeowners as
  well as to promote market stability. The scale of the program will be based on developments in the capital markets and
  housing markets.

  The MBS program is accounted for under the provisions of the Federal Credit Reform Act, section 13201 of the
  Omnibus Budget Reconciliation Act of 1990, P.L. No. 101-508, dated November 5, 1990. Treasury develops subsidy
  estimates, re-estimates, and rates based on anticipated cash flows from the purchases of MBS. Factors that impact
  these cash flows and the subsidy rate include the interest coupons on the securities, the discount or premium paid
  at the time of purchase, the speed of mortgage prepayments, and the probability of GSE failure. A positive subsidy
  reflects the cost to the Government of the program and a negative subsidy reflects earnings on the program. The




161                                                                                                         Note 3.
                             Loans, Interest Receivable and Credit Program Receivables - Mortgage Backed Securities
Fiscal Year 2008 Performance and Accountability Report




             fiscal year 2008 GSE MBS subsidy rate was negative, indicating Treasury expects to earn a return on its investments
             in these securities.

             As of September 30, 2008, the Treasury agent responsible for MBS purchases was in receipt of $1,689 million that
             was recorded as an advance which accounts for the increase, in other assets, in fiscal year 2008 to $1,714 million. This
             amount was to purchase MBS, however, the purchases were not made until after September 30, 2008.

             GSE Credit Facility program:

             Congress granted Treasury authority to make credit available to GSE in the Housing and Economic Recovery Act
             of 2008. The GSE credit facility program (GSECF) will offer liquidity if needed until December 31, 2009. This will
             ensure credit availability to the GSEs and provide secured funding on an as needed basis under terms and conditions
             established by the Treasury Secretary to protect taxpayers. Fannie Mae, Freddie Mac, and the Federal Home Loan
             Banks are eligible to borrow under this program if needed. Funding will be provided directly by Treasury in exchange
             for eligible collateral from the GSEs which will be limited to guaranteed mortgage-backed securities issued by Freddie
             Mac and Fannie Mae as well as advances made by the Federal Home Loan Banks. All such assets pledged against loans
             will be accepted with appropriate collateral margins as determined by Treasury. Loan requests will require approval
             from Treasury and verification that adequate collateral has been pledged.

             The GSECF program is accounted for under the provisions of the Federal Credit Reform Act, section 13201 of the
             Omnibus Budget Reconciliation Act of 1990, P.L. No. 101-508, dated November 5, 1990. Treasury develops subsidy
             estimates, re-estimates, and rates based on anticipated cash flows from the credit facility. Factors that impact these
             cash flows and the subsidy rate include the interest rate on loans and the probability of GSE failure. A positive subsidy
             reflects the cost to the Government of the program and a negative subsidy reflects earnings on the program. The
             GSECF was not utilized in fiscal year 2008 and no loans were made.

             Direct MBS Purchase Program and GSE Credit Facility Obligated(in millions):
                                                          Loan                                           Allowance for    Value of Assets
                                                    Receivable,           Interest       Foreclosed       Subsidy Cost         Related to
             Programs                                    Gross         Receivable          Property     (Present Value)       Direct Loan
             MBS                                $        3,311     $           0     $           0     $           74     $       3,385
             Credit Facility                                 0                 0                 0                  0                 0
             Total Obligated                    $        3,311     $           0     $           0     $           74     $       3,385



             Total amount of MBS purchases and GSE Credit Facility Disbursed (in millions):
             Programs                               Current Year
             MBS                                $        3,311
             Credit Facility                                 0
             Total Obligated                    $        3,311




Note 3.                                                                                                                         162
Loans, Interest Receivable and Credit Program Receivables - Mortgage Backed Securities
                                                                                                              Part III — Annual FINANCIAL report




  Subsidy Expense Fiscal Year 2008 (in millions):
                                                          Interest                  Fees and Other
  Programs                                            Differential       Defaults       Collections              Other            Total
  MBS                                             $         (62)     $        8     $           0         $         0     $       (54)
  Credit Facility                                              0              0                 0                   0               0
  Total Subsidy Expense                           $         (62)     $        8     $           0         $         0     $      (54)



  Total MBS Purchases and GSE Credit Facility Subsidy Expense (in millions):
  Programs                                      Fiscal Year 2008
  MBS                                             $          (54)
  Credit Facility                                              0
  Total                                           $          (54)



  Subsidy Rates for MBS Purchases and GSE Credit Facility, Budget subsidy rates for programs
  in the current year cohorts (in dollars):
                                                          Interest                  Fees and Other
  Programs                                            Differential       Defaults       Collections              Other            Total
  MBS, Cohort 2008                                $       (1.86)     $     0.24     $           0         $         0     $     (1.62)
  Credit Facility                                              0              0                 0                   0               0
  Total Subsidy rates                             $       (1.86)     $     0.24     $           0         $         0     $     (1.62)



  Schedule for Reconciling Subsidy Cost Allowance Balances (in millions):
                                                                                                                  2008
  Beginning Balances, Changes, and Ending Balance
  Beginning Balance of the subsidy cost allowance                                                     $             0
  Add: subsidy expense for disbursements:
          (a) Interest rate differential cost                                                                     (62)
          (b) Default Costs (net of recoveries)                                                                     8
          (c) Fees and other collections                                                                            0
          (d) Other subsidy costs                                                                                   0
  Total of the above subsidy expense components                                                                   (54)

  Adjustments:
          (a) Loan Modifications                                                                                    0
          (b) Fees received                                                                                         0
          (c) Foreclosed property acquired                                                                          0
          (d) Loans written off                                                                                     0
          (e) Subsidy allowance amortized                                                                         (20)
  Ending Balance subsidy cost allowance before re-estimates                                                       (74)
  Add or subtract subsidy re-estimates by component:
          (a) Interest rate re-estimate                                                                             0
          (b) Technical default re-estimate                                                                         0
  Total of the above re-estimate components                                                                         0
  Ending balance of the subsidy cost allowance                                                        $           (74)




163                                                                                                           Note 3.
                               Loans, Interest Receivable and Credit Program Receivables - Mortgage Backed Securities
Fiscal Year 2008 Performance and Accountability Report




          4. Due from the General Fund and Due to
             the General Fund
             The Treasury Department is responsible for managing various assets and liabilities on behalf of the U.S. Government
             as a whole. Due from the General Fund represents amounts required to fund liabilities managed by Treasury on behalf
             of the U.S. Government. Liabilities managed by the Treasury Department are comprised primarily of the federal debt.
             Due to the General Fund represents assets held for the General Fund of the U.S. Government.

             As of September 30, 2008 and September 30, 2007, Due from and Due to the General Fund, included the following
             non-entity assets and liabilities (in millions):

             Liabilities Requiring Funding from the General Fund:                                    2008                     2007
                  Federal Debt and Interest Payable                                        $    5,812,694          $    5,054,250
                  Federal Debt and Interest Payable - Intra-governmental                        4,262,414               3,974,788
                  Refunds Payable                                                                   3,076                   1,684
                  Adjustment for Eliminated Liabilities                                            22,579                  21,902
             Total Due from the General Fund                                               $   10,100,763          $    9,052,624

             Assets to be Distributed to the General Fund:
             Fund Balance                                                                  $         215           $          222
             Advances to the Black Lung Trust Fund                                                 10,484                  10,058
             Cash Held by the Treasury (Note 5)                                                  364,594                   70,347
             Foreign Currency                                                                          31                      91
             Custodial Gold and Silver held by the U.S. Mint without certificates                      25                      25
             Loans and Interest Receivable - Intra-governmental                                  226,194                  202,488
             Loans and Interest Receivable                                                           130                      133
             Investments in GSEs (Note 24)                                                          7,032                          0
             Accounts Receivable - Intra-governmental                                                372                      368
             Tax and Other Non-Entity Receivables                                                  30,489                  27,395
             Miscellaneous Assets                                                                      12                          9
             Adjustment for Eliminated Assets                                                      27,534                  17,837
             Total Due to the General Fund                                                 $     667,112           $      328,973

             The Adjustment for Eliminated Intra-Treasury liabilities mainly represents investments in U.S. Government securities
             held by Treasury reporting entities that were eliminated against Federal Debt and Interest Payable. The Adjustment
             for Eliminated Intra-Treasury assets mainly represents loans and interest payable owed by reporting entities that are
             consolidated with Treasury, which were eliminated against Loans and Interest Receivable held by the Bureau of the
             Public Debt.

             On the Balance Sheet, Treasury reported $30,878 million in Tax, Other, and Related Interest Receivables as of
             September 30, 2008 ($27,559 million as of September 30, 2007). However, only $30,489 million is reported as Due
             to the General Fund of the U.S. Government ($27,395 million as of September 30, 2007). The difference is attribut-
             able to the exclusion of amounts which will be paid to others outside the U.S. Government, and miscellaneous entity
             receivables (Note 10).




Note 4.                                                                                                                    164
Due from the General Fund and Due to the General Fund
                                                                                              Part III — Annual FINANCIAL report




5. Cash, Foreign Currency, and Other Monetary Assets
    Cash, foreign currency, and other monetary assets held as of September 30, 2008 and September 30, 2007 were as
    follows (in millions):
    Entity:                                                                                 2008                     2007
      Cash                                                                       $           19           $           32
      Foreign Currency                                                                   12,758                   12,081
      Other Monetary Assets:
         Special Drawing Rights                                                           9,464                    9,363
         Other                                                                               88                      153
    Subtotal - Entity                                                            $       22,329           $       21,629

    Non-Entity:
      Operating Cash of the U.S. Government (see Note 24)                        $      364,273           $       69,701
      Foreign Currency                                                                       31                       91
      Miscellaneous Cash held by all Treasury sub-components                                637                      909
    Subtotal - Non-Entity                                                        $      364,941           $       70,701
    Total Cash, Foreign Currency, and Other Monetary Assets                      $      387,270           $       92,330


    Non-entity Operating Cash and Other Cash of the U.S. Government held by Treasury disclosed above consisted of
    the following (in millions):
                                                                                            2008                     2007
    Operating Cash of the U.S. Government                                        $       39,209           $       69,797
    Operating Cash - Federal Reserve Account (see Note 24)                              332,480                    5,539
    Subtotal                                                                     $      371,689           $       75,336
    Outstanding Checks                                                                    (7,416)                 (5,635)
    Total Operating Cash of the U.S. Government                                         364,273                   69,701
    Other Cash                                                                              386                      700
    Subtotal                                                                            364,659                   70,401
    Amounts Due to the Public                                                                (65)                    (54)
    Total Cash Due to the General Fund (See Note 4)                              $      364,594           $       70,347

	   Entity
    Entity cash, foreign currency, and other monetary assets primarily include Foreign Currency Denominated Assets
    (FCDA), Special Drawing Rights (SDR), and forfeited cash. SDR and FCDA are valued as of September 30,
    2008 and September 30, 2007, using current exchange rates plus accrued interest, at September 30, 2008 and 2007.
    “Other” includes U.S. dollars restricted for use by the International Monetary Fund (IMF), which are maintained
    in two accounts at the Federal Reserve Bank of New York.

    The foreign currency holdings are normally invested in interest bearing securities issued by or held through foreign
    governments or monetary authorities. FCDA with original maturities of three months or less, were valued at
    $9.3 billion as of September 30, 2008 ($7.6 billion as of September 30, 2007). Other FCDA with maturities greater
    than three months are also held. As of September 30, 2008, FCDA with maturities greater than three months were
    valued at $3.5 billion ($4.5 billion as of September 30, 2007).




165                                                                                                              Note 5.
                                                                      Cash, Foreign Currency, and Other Monetary Assets
Fiscal Year 2008 Performance and Accountability Report




             The SDR are international reserve assets created by the IMF. It was created as a supplement to existing reserve assets
             and on several occasions SDR have been allocated by the IMF to members participating in the IMF’s SDR depart-
             ment. The SDR value as reserve assets derive, essentially, from the commitments of participants to hold and accept
             SDR and to honor various obligations connected with their proper functioning as a reserve asset.

             The Special Drawing Rights Act of 1968 authorizes the Secretary of the Treasury to issue certificates, not to exceed
             the value of SDR holdings, to the Federal Reserve Bank in return for interest free dollar amounts equal to the face
             value of certificates issued. The certificates may be issued for the purpose of financing the acquisition of SDR from
             other countries or to provide resources for the financing of the Treasury Department’s ESF activities. Certificates
             issued are to be redeemed by the Treasury Department at such times and in such amounts as the Secretary of the
             Treasury may determine. As of September 30, 2008, the value of the certificates issued to Federal Reserve Banks
             amounted to $2.2 billion ($2.2 billion as of September 30, 2007).

             On a daily basis, the IMF calculates the value of the SDR using the market value, in terms of the U.S. dollar, from the
             amounts of each of four freely usable weighted currencies, as defined by the IMF. These currencies are the U.S. dollar,
             the European euro, the Japanese yen, and the British pound sterling. Treasury’s SDR holdings (assets resulting from
             various SDR related activities including remuneration received on interest earned on the U.S. reserve position – see
             Note 8) and allocations from the IMF (liabilities of the U.S. coming due only in the event of a liquidation of, or U.S.
             withdrawal from the SDR department of the IMF, or cancellation of SDR) are revalued monthly based on the SDR
             valuation rate calculated by the IMF.
             Pursuant to the IMF Articles of Agreement, SDR allocated to or otherwise acquired by the United States are
             permanent resources unless:
                a.	 canceled by the Board of Governors based on an 85 percent majority decision of the total voting power of the
                    Executive Board of the IMF
                b.	 the SDR Department of the IMF is liquidated
                c.	 the IMF is liquidated or
                d.	 the United States chooses to withdraw from the IMF or terminate its participation in the SDR Department.
             Except for the payment of interest and charges on SDR allocations to the United States, the payment of the Treasury
             Department’s commitment related to SDR allocations is conditional on events listed above, in which the United
             States has a substantial or controlling voice. Allocations of SDR were made on January 1, 1970, 1971, 1972, 1979,
             1980, and 1981. Since 1981, the IMF has made no further allocations of SDR. As of September 30, 2008, the amount
             of SDR holdings of the United States was the equivalent of $ 9.4 billion and the amount of SDR allocations to the
             United States was the equivalent of $ 7.6 billion. As of September 30, 2007, the amount of SDR holdings of the
             United States was the equivalent of $ 9.3 billion and the amount of SDR allocations to the United States was the
             equivalent of $7.6 billion.

             During fiscal year 2008, the Treasury Department received remuneration on the U.S. reserve position in the IMF, at
             the prevailing rates, in the amount of $59 million equivalent of SDR ($107 million equivalent of SDR during fiscal
             year 2007), and paid the General Fund of the Federal Government $0.01 million ($0.5 million in fiscal year 2007) in
             interest on these funds until they were transferred to the General Fund.




Note 5.                                                                                                                       166
Cash, Foreign Currency, and Other Monetary Assets
                                                                                                 Part III — Annual FINANCIAL report




	   Non-Entity
    Non-entity cash, foreign currency, and other monetary assets include the Operating Cash of the U.S. Government,
    managed by the Treasury Department. Also included is foreign currency maintained by various U.S. and military
    disbursing offices. It also includes seized monetary instruments, undistributed cash, and offers in compromises which
    are maintained as the result of the Treasury Department’s tax collecting responsibilities.

    The Operating Cash of the U.S. Government represents balances from tax collections, other revenues, federal debt
    receipts, and other various receipts net of checks outstanding, which are held in the Federal Reserve Banks, foreign
    and domestic financial institutions, and in U.S. Treasury tax and loan accounts at commercial banks.

    On September 18, 2008, the BPD began issuing specific cash management bills to fund the Supplementary Financing
    Program (SFP). The SFP is a temporary program that was announced by the Treasury Department and the Federal
    Reserve on September 17, 2008. The purpose of the program is to provide emergency cash for the Federal Reserve
    initiatives aimed at addressing the ongoing crisis in financial markets. As of September 30, 2008, there were a total of
    eight cash management bills outstanding that totaled $300 billion (Notes 14, 24, and 25).

    Operating Cash of the U.S. Government is either insured (for balances up to $100,000), as of September 30, 2008, by
    the Federal Deposit Insurance Corporation (FDIC) or collateralized by securities pledged by the depository institu-
    tions and held by the Federal Reserve Banks, or through securities held under reverse repurchase agreements.




167                                                                                                                Note 5.
                                                                        Cash, Foreign Currency, and Other Monetary Assets
Fiscal Year 2008 Performance and Accountability Report




          6. Gold and Silver Reserves, and Gold Certificates
             Issued to Federal Reserve Banks
              The Treasury Department is responsible for safeguarding most of the U.S. Government’s gold and silver reserves in
              accordance with 31 USC 5117. The consolidated Balance Sheets also reflect the value of the gold being held in the
              Federal Reserve Bank of New York (FRBNY).

              Gold reserves being held by the Treasury Department are offset by a liability for gold certificates issued by the
              Secretary of the Treasury to the Federal Reserve as provided in 31 USC 5117. Since 1934, Gold Certificates have been
              issued in non-definitive or book-entry form to the Federal Reserve. The Treasury Department’s liability incurred by
              issuing the Gold Certificates is limited to the gold being held by the Treasury Department at the legal standard value
              established by law. Upon issuance of Gold Certificates to the Federal Reserve, the proceeds from the certificates are
              deposited into the operating cash of the U.S. Government. All of the Treasury Department’s certificates issued are
              payable to the Federal Reserve.

              The deep storage gold and silver reserves are reported at the values stated in 31 U. S. C. § 5116 and § 5117 (statu-
              tory rates) which are $42.2222 per fine troy ounce (FTO) of gold and no less than $1.292929292 per FTO of silver.
              Accordingly, the silver is valued at $1.292929292 per FTO. The gold and silver reserves are in the custody of the U.S.
              Mint and FRBNY. The U.S. Mint holds gold and silver reserves without certificates (Note 4). As of September 30,
              2008 and September 30, 2007, the gold and silver reserves consisted of the following (in millions):

                                                                                                9/30/08                              9/30/08
                                                           FTOs         Statutory Rate   Statutory Value       Market Rate       Market Value
              Gold                                  248,046,116     $       42.2222      $      10,473     $      884.50     $      219,397
              Gold Held by Federal Reserve           13,452,784             42.2222                568            884.50             11,899
              Subtotal - Gold                       261,498,900                          $      11,041                       $      231,296
              Silver                                 16,000,000     $ 1.292929292        $          21     $        12.96    $          207
              Total Gold and Silver Reserves                                             $      11,062                       $      231,503


                                                                                                9/30/07                              9/30/07
                                                           FTOs         Statutory Rate   Statutory Value       Market Rate       Market Value
              Gold                                  248,046,116     $       42.2222      $      10,473     $      743.00     $      184,298
              Gold Held by Federal Reserve           13,452,784             42.2222                568            743.00              9,996
              Subtotal - Gold                       261,498,900                          $      11,041                       $      194,294
              Silver                                 16,000,000     $ 1.292929292        $          21     $        13.65    $          218
              Total Gold and Silver Reserves                                             $      11,062                       $      194,512




Note 6.                                                                                                                              168
Gold and Silver Reserves, and Gold Certificates Issued to Federal Reserve Banks
                                                                                                         Part III — Annual FINANCIAL report




7. Investments and Related Interest
  Investments in U.S. Government securities held by Treasury Department entities have been eliminated against the
  federal debt liability for financial reporting purposes (Note 4). The ESF holds most of the Treasury Department’s
  other investments. Securities that the Treasury Department has both the positive intent and ability to hold to maturity
  are classified as investment securities held to maturity and are carried at historical cost, adjusted for amortization of
  premiums and accretion of discounts. Foreign investment holdings are normally invested in interest bearing securities
  issued or held through foreign governments or monetary authorities (Note 5).


  As of September 30, 2008 and September 30, 2007, entity investments in foreign investment holdings consisted of the
  following (in millions):
                                                Cost/    Unamortized                                              9/30/08        9/30/08
                                           Acquisition    (Premium)/                          Interest         Investment         Market
  Type of Investment                            Value        Discount Net Investment       Receivable             Balance          Value
  Euro Bonds & Notes                   $       4,477     $       29     $     4,506    $         115       $       4,621    $     4,641
  Japanese Government Bonds                    5,908               3          5,911               11               5,922          5,935
  Other Investments                               39             (6)             33                 0                 33             33
  Total Non-Federal                    $      10,424     $       26     $   10,450     $         126       $      10,576    $    10,609


                                                Cost/    Unamortized                                              9/30/07        9/30/07
                                           Acquisition    (Premium)/                          Interest         Investment         Market
  Type of Investment                            Value        Discount Net Investment       Receivable             Balance          Value
  Euro Bonds & Notes                   $       4,338     $       52    $     4,390     $         113      $        4,503    $     4,462
  Japanese Government Bonds                    5,520              9          5,529                 8               5,537          5,538
  Other Investments                               40             (6)            34                 0                  34             34
  Total Non-Federal                    $       9,898     $       55    $     9,953     $         121      $      10,074     $    10,034


  On September 7, 2008 the Treasury Department entered into senior preferred stock purchase agreements with each
  GSE. In exchange for entering into these agreements, Treasury Department initially received from each GSE: (1)
  1,000,000 shares of non-voting variable liquidation preference senior preferred stock with a liquidation preference
  value of $1,000 per share and (2) warrants for the purchase at a nominal cost of 79.9percent of common stock on
  a fully-diluted basis. The warrants expire on September 7, 2028 (Note 24). The GSE preferred stock and warrants
  for common stock were valued (Notes 1Q and 24) as of the initial date at cost of $7,032 million and also valued at
  September 30, 2008 at $12,374 million. As of September 30, 2008, GSE investments consisted of the following (in
  millions):

                                               Cost/     Unamortized                                              9/30/08        9/30/08
                                            Appraisal      (Premium)                          Interest         Investment       Appraisal
  GSE Investment                               Value         Discount Net Investment       Receivable             Balance          Value
  Fannie Mae Sr. Preferred Stock       $         840     $         0    $      840     $            0      $         840    $       741
  Freddie Mac Sr. Preferred Stock                824               0           824                  0                824            727
  Fannie Mae Warrants Common Stock             3,104               0          3,104                 0              3,104          6,507
  Freddie Mac Warrants Common Stock            2,264               0          2,264                 0              2,264          4,399
  Total GSE Investment                 $       7,032     $         0    $     7,032    $            0      $       7,032    $    12,374




169                                                                                                                                Note 7.
                                                                                                         Investments and Related Interest
Fiscal Year 2008 Performance and Accountability Report




          8. Reserve Position in the International Monetary Fund
              The United States participates in the IMF through a quota subscription. Quota subscriptions are paid partly through
              the transfer of reserve assets, such as foreign currencies or SDR, which are international reserve currency assets created
              by the IMF, and partly by making domestic currency available as needed through a non-interest-bearing letter of
              credit. This letter of credit, issued by the Treasury Department and maintained by the FRBNY, represents the bulk
              of the IMF’s holdings of dollars. Approximately one quarter of one percent of the U.S. quota is maintained in cash
              balances in an IMF account at FRBNY.

              While resources for transactions between the IMF and the United States are appropriated, they do not result in net
              budgetary outlays. This is because U.S./IMF quota transactions constitute an exchange of monetary assets in which
              the United States receives an equal offsetting claim on the IMF in the form of an increase in the U.S. reserve position
              in the IMF, which is interest-bearing and can be drawn at any time for balance of payments needs. When the IMF
              draws dollars from the letter of credit to finance its operations and expenses, the drawing does not represent a net
              budget outlay on the part of the United States because there is a commensurate increase in the U.S. reserve position.
              When the IMF repays dollars to the United States, no net budget receipt results because the U.S. reserve position
              declines concurrently in an equal amount.

              As of September 30, 2008 and 2007, the U.S. quota in the IMF was 37.1 billion SDR, valued at approximately $57.8
              billion. The quota consisted of the following (in millions):

                                                                                                          2008                     2007
              Letter of Credit   1
                                                                                                   $   53,012               $    53,212
              U.S. Dollars Held in Cash by the IMF 1                                                       88                       152
              Reserve Position       2
                                                                                                        4,750                     4,464
              U.S. Quota in the IMF                                                                $   57,850               $    57,828
              1
                  This amount is included in entity appropriated funds under Note 2, Fund
                  Balance with Treasury, and unexpended appropriations – Obligations/
                  Undelivered orders.
              2
                  This amount is included in the Cumulative Results of Operations.


              The U.S. reserve position is denominated in SDR, as is the U.S. quota. Consequently, fluctuations in the value of the
              dollar with respect to the SDR results in valuation changes in dollar terms for the U.S. reserve position in the IMF as
              well as the IMF letter of credit. The Treasury Department periodically adjusts these balances to maintain the SDR value
              of the U.S. quota and records the change as a deferred gain or loss in its cumulative results of operations. These adjust-
              ments, known as maintenance of value adjustments, are settled annually after the close of the IMF financial year on
              April 30. Such adjustments do not involve a flow of funds. At April 30, 2008, the annual settlement with the IMF re-
              sulting from the depreciation of the dollar against the SDR since April 30, 2007, called for an upward adjustment of the
              U.S. quota by $3.4 billion and a corresponding decrease to Unexpended Appropriations on the Statement of Changes
              in Net Position (At April 30, 2007, the depreciation of the dollar against the SDR since April 30, 2006, called for an
              upward adjustment of the U.S. quota by $1.793 billion and a corresponding decrease to Unexpended Appropriations.)
              The dollar balances shown above for the U.S. quota include accrued valuation adjustments. At September 30, 2008, the




Note 8.                                                                                                                          170
Reserve Position in the International Monetary Fund
                                                                                              Part III — Annual FINANCIAL report




  Treasury Department recorded a net deferred valuation loss in the amount of $15.5 million for deferred maintenance of
  value adjustments needed at year end ($258.2 million valuation gain at September 30, 2007).

  The United States earns “remuneration” (interest) on its reserve position in the IMF except for the portion of the
  reserve position originally paid in gold. Remuneration is paid quarterly and is calculated on the basis of the SDR
  interest rate. The SDR interest rate is a market-based interest rate determined on the basis of a weighted average
  of interest rates on short-term instruments in the markets of the currencies included in the SDR valuation basket.
  Payment of a portion of this remuneration is deferred as part of a mechanism for creditors and debtors to share the
  financial consequences of overdue obligations to the IMF, such as unpaid overdue interest, and to similarly share
  the burden of establishing any contingency accounts deemed necessary to reflect the possibility of non-repayment
  of relevant principal amounts. As overdue interest is paid, previously deferred remuneration corresponding to the
  creditors’ share of the burden of earlier nonpayment is included in the next payment of remuneration. The deferred
  remuneration corresponding to the creditors’ share of establishing the contingency accounts is usually paid when there
  are no longer any relevant overdue obligations or when the IMF Executive Board determines to pay the remuneration.
  There was no deduction in the remuneration paid by the IMF as a result of burden-sharing during fiscal years 2008 or
  2007. For fiscal years 2008 and 2007, the Treasury Department received $59 million and $107 million as remuneration
  (Note 5).

  In addition to quota subscriptions, the IMF maintains borrowing arrangements to supplement its resources in times
  of crisis when IMF liquidity is low. The United States currently participates in two such arrangements – the General
  Arrangements to Borrow (GAB) and the New Arrangements to Borrow (NAB). There were no U.S. loans outstanding
  under these arrangements in fiscal year 2008 and fiscal year 2007. The dollar equivalent of SDR $6.7 billion has been
  appropriated to finance U.S. participation in the GAB and NAB; as of September 30, 2008 and September 30, 2007,
  this amounted to $10.5 billion and $10.4 billion, respectively, in standing appropriations available for lending through
  the GAB or NAB as needed. As is the case for the U.S. quota in the IMF, budgetary treatment of U.S. participation
  in the GAB and NAB does not result in net budgetary outlays, since transactions under the GAB or NAB result in
  concurrent adjustments to the U.S. reserve position in the IMF.




171                                                                                                                Note 8.
                                                                      Reserve Position in the International Monetary Fund
Fiscal Year 2008 Performance and Accountability Report




          9. Investments in International Financial Institutions
              The Treasury Department participates in Multilateral Development Banks (MDBs) to support poverty reduction,
              private sector development, and transition to market economies and sustainable economic growth and development,
              thereby advancing the United States’ economic, political, and commercial interests abroad. The MDB consist of the
              World Bank Group (International Bank for Reconciliation and Development, International Finance Corporation,
              and Multilateral Investment Guarantee Agency), and five regional development banks (the African, Asian, European,
              Inter-American, and North American institutions), as enumerated in the table below. These investments are non-
              marketable equity investments valued at cost.

              As of September 30, 2008 and September 30, 2007, investments in international financial institutions consisted of the
              following (in millions):

                                                                                                               2008            2007
              African Development Bank                                                                   $     172      $      172
              Asian Development Bank                                                                           458             458
              European Bank for Reconstruction and Development                                                 633             624
              Inter-American Development Bank                                                                 1,482           1,480
              International Bank for Reconstruction and Development                                           1,985           1,985
              International Finance Corporation                                                                569             569
              Multilateral Investment Guarantee Agency                                                          45              45
              North American Development Bank                                                                  202             188
              Total                                                                                      $    5,546     $     5,521

              Refer to Note 16 for a description of the contingent liability related to these institutions.




Note 9.                                                                                                                      172
Investments in International Financial Institutions
                                                                                                   Part III — Annual FINANCIAL report




10. Accounts Receivable and Related Interest

A.	 Tax, Other, and Related Interest Receivables, Net
   Tax, other, and related interest receivables include receivables from tax assessments, excise taxes, fees, penalties, and
   interest assessed and accrued that were not paid or abated, reduced by an estimate for uncollectible amounts. In
   addition to amounts attributed to taxes, interest income due on monies deposited in Federal Reserve Banks is also
   included in this line item.

   As of September 30, 2008 and September 30, 2007, Tax, Other, and Related Interest Receivables, and Net, consisted
   of the following (in millions):

   Non-Entity:                                                                                     2008                   2007
      IRS Federal Tax Receivable, Gross                                                     $ 112,067              $   98,016
      Less: Allowance on Taxes Receivable                                                       (83,046)               (72,007)
      Receivable, Deposit of Earnings, Federal Reserve                                            1,465                 1,291
      Other Receivables and Interest                                                                 28                   105
      Less: Allowance on Other and Related Interest Receivable                                      (19)                       (6)
      Total Tax, and Other Non-Entity Receivables, Net                                      $    30,495            $   27,399

   Entity:
      Miscellaneous Entity Receivables and Related Interest                                         383                   160
      Total Tax, Other and Related Interest Receivables, Net                                $    30,878            $   27,559


   IRS federal taxes receivable constitute the largest portion of the receivables. IRS federal taxes receivable consists of tax
   assessments, penalties, and interest which were not paid or abated, and which were agreed to by either the taxpayer
   and IRS, or the courts. An allowance for doubtful accounts is established for the difference between the gross receiv-
   ables and the portion deemed collectible. The portion of tax receivables estimated to be collectible and the allowance
   for doubtful accounts are based on projections of collectability from a statistical sample of taxes receivable. The
   Treasury Department does not establish an allowance for the receivable on deposits of Federal Reserve earnings.

B.	 Intra-governmental Accounts and Related Interest Receivable
   Intra-governmental accounts receivable and interest mainly represents non-entity payments made by the Treasury
   Department under the Contract Disputes Act ($368 million of the $396 million and $364 million of the $466 million
   displayed on the balance sheet for 2008 and 2007, respectively). Other federal agencies are required to reimburse the
   Treasury Department for payments made on their behalf, related to the Contract Disputes Act and the No Fear Act.
   These amounts are a receivable on the Treasury Department’s books, of the Financial Management Service, and a
   payable on the other federal agencies’ books until reimbursement is made. The remaining amount displayed as intra-
   governmental accounts receivable and interest is related to miscellaneous intra-governmental transactions.




173                                                                                                                     Note 10.
                                                                                       Accounts Receivable and Related Interest
Fiscal Year 2008 Performance and Accountability Report




          11. Inventory and Related Property, Net
              Inventory and related property includes inventory, operating materials and supplies, and forfeited property held by
              Treasury. The Treasury Department’s operating materials and supplies are maintained for the production of bureau
              products. The Treasury Department maintains inventory accounts or balances (e.g., metals, paper, etc.) for use in man-
              ufacturing currency and coins. The cost of these items is included in inventory costs, and is recorded as cost of goods
              sold upon delivery to customers. Inventory for check processing activities is also maintained. As of September 30,
              2008 and September 30, 2007, inventory and related property consisted of the following (in millions):

                                                                                                           2008                  2007
              Operating materials and supplies held for use                                         $        16           $       15
              Operating materials and supplies held in reserve for future use                                24                   23
              Forfeited property                                                                            100                   85
              Inventory – raw materials                                                                     355                  288
              Inventory – work in process                                                                    86                  117
              Inventory – finished goods                                                                    135                  121
              Allowance for inventories and related property                                                (18)                  (11)
              Total Inventories and Related Property, Net                                           $       698           $       638




Note 11.                                                                                                                       174
Inventory and Related Property, Net
                                                                                              Part III — Annual FINANCIAL report




12. Property, Plant, and Equipment, Net
  As of September 30, 2008 and September 30, 2007, property, plant, and equipment consisted of the following (in
  millions):
                                          Depreciation                                    Accumulated              2008
                                              Method        Service Life         Cost     Depreciation    Net Book Value
  Buildings, structures, and facilities           S/L      3 - 50 years    $     669      $      (297)             $372
  Furniture, fixtures, and equipment              S/L      2 - 20 years        3,376           (2,608)              768
  Construction in progress                       N/A               N/A            35                0                35
  Land and land improvements                     N/A               N/A            12                0                12
  Internal use software                           S/L      2 -10 years         1,151             (664)              487
  Internal use software in development           N/A               N/A           205                0               205
  Assets under capital lease                      S/L      2 - 25 years           30              (20)               10
  Leasehold improvements                          S/L      2 - 25 years          580             (392)              188
  Total                                                                    $   6,058      $    (3,981)     $      2,077


                                          Depreciation                                    Accumulated              2007
                                                            Service Life         Cost
                                              Method                                      Depreciation    Net Book Value
  Buildings, structures, and facilities           S/L      3 - 50 years    $     658      $      (276)     $        382
  Furniture, fixtures, and equipment              S/L      2 - 20 years        3,271           (2,503)              768
  Construction in progress                       N/A               N/A            27                0                27
  Land and land improvements                     N/A               N/A            12                0                12
  Internal use software                           S/L       2-10 years         1,116             (564)              552
  Internal use software in development           N/A               N/A           148                0               148
  Assets under capital lease                      S/L      2 - 25 years           25              (12)               13
  Leasehold improvements                          S/L      2 - 25 years          526             (342)              184
  Total                                                                    $   5,783      $    (3,697)     $      2,086


  The service life ranges vary significantly due to the diverse nature of PP&E held by the Treasury Department.

  Heritage Assets

  The Treasury Department Complex (Main Treasury Building and Annex) was declared a national historical landmark
  in 1972. The Treasury Department Complex is treated as a multi-use heritage asset and is expected to be preserved
  indefinitely.




175                                                                                                                 Note 12.
                                                                                         Property, Plant, and Equipment, Net
Fiscal Year 2008 Performance and Accountability Report




          13. Non-Entity Assets
              As of September 30, 2008 and September 30, 2007, non-entity assets consisted of the following (in millions):
              Intra-governmental Assets:                                                               2008                     2007
                 Fund Balance (Note 2)                                                       $         889          $           874
                 Loans and Interest Receivable (Note 3)                                            226,194                   202,488
                 Accounts Receivable and Related Interest (Note 10)                                    372                      367
                 Advances to the Black Lung Trust Fund (Note 4)                                     10,484                    10,058
                 Due from the General Fund (Note 4)                                              10,100,763             9,052,624
              Total Non-Entity Intra-governmental Assets                                     $ 10,338,702           $   9,266,411

              Cash, Foreign Currency, and Other Monetary Assets (Note 5)                           364,941                    70,701
              Gold and Silver Reserves (Note 6)                                                     11,062                    11,062
              Loans and Interest Receivable (Note 3)                                                   130                      133
              Investments in Government Sponsored Enterprises (Note 7)                               7,032                        0
              Tax, Other, and Related Interest Receivable, Net (Note 10)                            30,495                    27,399
              Miscellaneous Assets                                                                      12                        9
              Total Non-Entity Assets                                                        $ 10,752,374           $   9,375,715


              Non-entity assets are those that are held by the Treasury Department but are not available for use by the Treasury
              Department. For example, Non-entity fund balance with Treasury represents unused balances of appropriations
              received by various Treasury Department entities to conduct custodial operations such as the payment of interest on
              the federal debt and refunds of taxes and fees. Non-entity loans and interest receivable represents loans managed by
              the Treasury Department on behalf of the U.S. Government. These loans are provided to federal agencies, and the
              Treasury Department is responsible for collecting these loans and transferring the proceeds to the General Fund
              of the U.S. Government. Non-entity cash, foreign currency, and other monetary assets include the operating cash
              of the U.S. Government, managed by the Treasury Department. It also includes foreign currency maintained by
              various U.S. and military disbursing offices, as well as seized monetary instruments.

              On September 18, 2008, the Bureau of Public Debt began issuing specific cash management bills to fund the
              Supplementary Financing Program (SFP). The SFP is a temporary program that was announced by the Treasury
              Department and the Federal Reserve on September 17, 2008. The purpose of the program is to provide emergency
              cash for the Federal Reserve initiatives aimed at addressing the ongoing crisis in financial markets. The balance
              listed above of $364,941 million for 2008 is an increase over $70,701 million in 2007 as a result of the program.
              As of September 30, 2008, there were a total of eight cash management bills outstanding that totaled $300 billion
              (Notes 5, 14, 24, and 25).




Note 13.                                                                                                                       176
Non-Entity Assets
                                                                                                Part III — Annual FINANCIAL report




14. Federal Debt and Interest Payable
  The Treasury Department is responsible for administering the federal debt on behalf of the U.S. Government. The
  federal debt includes borrowings from the public as well as borrowings from federal agencies. The federal debt man-
  aged by the Treasury Department does not include debt issued by other governmental agencies such as the Tennessee
  Valley Authority or the Department of Housing and Urban Development.

  The federal debt as of September 30, 2008 and September 30, 2007 was as follows (in millions):

                                                                                               2008                     2007
  Intra-governmental
  Beginning Balance                                                                  $   3,922,548            $   3,628,701
  New Borrowings/Repayments                                                                257,022                  293,847
  Subtotal at Par Value                                                                  4,179,570                3,922,548
  Premium/(Discount)                                                                        32,489                    3,672
  Interest Payable Covered by Budgetary Resources                                           50,355                   48,568
  Total                                                                              $   4,262,414            $   3,974,788


                                                                                               2008                     2007
  Owed to the Public
  Beginning Balance                                                                  $   5,049,305            $   4,843,121
  New Borrowings/Repayments                                                                759,386                  206,184
  Subtotal at Par Value                                                                  5,808,691                5,049,305
  Premium/(Discount)                                                                       (36,124)                 (39,441)
  Interest Payable Covered by Budgetary Resources                                           40,127                   44,386
  Total                                                                              $   5,812,694            $   5,054,250


  Debt held by the public approximates the U.S. Government’s competition with other sectors in the credit markets. In
  contrast, debt held by federal entities, primarily trust funds, represents the cumulative annual surpluses of these funds
  (i.e., excess of receipts over disbursements plus accrued interest) that have been used to finance general government
  operations.

  Federal Debt held by Other Federal Agencies

  Certain federal agencies are allowed to invest excess funds in debt securities issued by the Treasury Department on
  behalf of the U.S. Government. The terms and the conditions of debt securities issued are designed to meet the cash
  needs of the U.S. Government. The vast majority is non-marketable securities issued at par value, but some are issued
  at market prices whose prices and interest rates reflect market terms. The average interest rate for debt held by the
  federal entities in fiscal year 2008 was 4.83percent (5.1percent in fiscal year 2007).




177                                                                                                                     Note 14.
                                                                                               Federal Debt and Interest Payable
Fiscal Year 2008 Performance and Accountability Report




              The federal debt also includes intra-governmental marketable debt securities that certain agencies are permitted to buy
              and sell on the open market. The debt, at par value (not including interest receivable), owed to federal agencies as of
              September 30, 2008 and September 30, 2007 was as follows (in millions):
                                                                                                            2008                   2007
              Social Security Administration                                                      $   2,367,138          $   2,182,091
              Office of Personnel Management                                                           797,107                 762,013
              Department of Defense Agencies                                                           335,672                 288,456
              Department of Health and Human Services                                                  380,540                 361,294
              All Other Federal Entities - Consolidated                                                299,113                 328,694
              Total Federal Debt Held by Federal Entities                                         $   4,179,570          $   3,922,548

              The above balances do not include premium/discount and interest payable.

              Federal Debt Held by the Public

              As of September 30, 2008 and September 30, 2007, Federal Debt held by the Public consisted of the following:

                                                                                                            Average
              (at par value, in millions)                                                 Term        Interest Rates               2008
              Marketable:
                 Treasury Bills                                                  1 Year or Less              1.6%        $   1,484,332
                 Treasury Notes                                                    2 - 10 Years              4.1%            2,623,364
                 Treasury Bonds                                                  Over 10 Years               7.1%              578,504
                 Treasury Inflation Protected Security (TIPS)                   5 Years or More              2.0%              523,951
              Total Marketable                                                                                           $   5,210,151
              Non-Marketable                                        On Demand to Over 10 Years               4.1%              598,540
              Total Federal Debt (Public)                                                                                $   5,808,691


                                                                                                            Average
              (at par value, in millions)                                                 Term        Interest Rates               2007
              Marketable:
                 Treasury Bills                                                  1 Year or Less              4.6%        $     954,607
                 Treasury Notes                                                   2 - 10 Yearss              4.4%            2,456,100
                 Treasury Bonds                                                  Over 10 Years               7.4%              560,922
                 Treasury Inflation Protected Security (TIPS)                   5 Years or More              2.3%              456,776
              Total Marketable                                                                                               4,428,405
              Non-Marketable                                        On Demand to Over 10 Years               4.9%              620,900
              Total Federal Debt (Public)                                                                                $   5,049,305


              The above balances do not include premium/discount and interest payable.

              The Treasury Department issues marketable bills at a discount and pays the par amount of the security upon maturity.
              The average interest rate on Treasury bills represents the original issue effective yield on securities outstanding as of
              September 30, 2008 and 2007, respectively. Treasury bills are issued with a term of one year or less.




Note 14.                                                                                                                        178
Federal Debt and Interest Payable
                                                                                                    Part III — Annual FINANCIAL report




    The Treasury Department issues marketable notes and bonds as long-term securities that pay semi-annual interest
    based on the securities’ stated interest rates. These securities are issued at either par value or at an amount that reflects
    a discount or a premium. The average interest rate on marketable notes and bonds represents the stated interest rate
    adjusted by any discount or premium on securities outstanding as of September 30, 2008 and 2007. Treasury notes
    are issued with a term of 2 to 10 years and Treasury bonds are issued with a term of more than 10 years. The Treasury
    Department also issues inflation–indexed securities (TIPS) that have interest and redemption payments, which are
    tied to the Consumer Price Index, a widely used measurement of inflation. TIPS are issued with a term of five years or
    more. At maturity, TIPS are redeemed at the inflation-adjusted principal amount, or the original par value, whichever
    is greater. TIPS pay a semi-annual fixed rate of interest applied to the inflation-adjusted principal.

    Over the course of fiscal year 2008, changes in economic conditions, financial markets, and fiscal policy as well as a
    reduction in nonmarketable debt issuance have caused an increase in Treasury’s marketable borrowing needs. Financial
    market strains have impacted the real economy, and the nation has experienced lower economic growth, lower receipts,
    and increased outlays. Treasury has responded to the increase in marketable borrowing requirements by increasing
    issuance sizes of regular bills, the frequency, terms, and issuance sizes of cash management bills, and the issuance sizes
    of nominal coupon security offerings.

    Federal Debt Held by the Public includes federal debt held outside of the U. S. Government by individuals, corpora-
    tions, Federal Reserve Banks (FRB), state and local governments, and foreign governments and central banks. As of
    September 30, 2008, the FRB owned $221 billion, net of $256 billion in securities lent to dealers, for total holdings of
    $477 billion. As of September 30, 2007, the FRB owned $775 billion, net of $5 billion in securities lent to dealers, for
    total holdings of $780 billion. These securities are held in the FRB System Open Market Account (SOMA) for the
    purpose of conducting monetary policy.

	   Other Debt and Interest Payable
    Borrowings outstanding are with the Civil Service Trust Fund, which is administered by the Office of Personnel
    Management. The interest rates on these borrowings range from 4.62 percent to 5.62 percent, and the maturity dates
    range from June 30, 2009 to June 30, 2019. Borrowings began in 2005.




179                                                                                                                         Note 14.
                                                                                                   Federal Debt and Interest Payable
Fiscal Year 2008 Performance and Accountability Report




          15. D.C. Pensions and Judiciary retirement
          	   Actuarial Liability
              Pursuant to Title XI of the Balanced Budget Act of 1997, as amended (the Act), on October 1, 1997, Treasury
              became responsible for certain District of Columbia retirement plans. The Act was intended to relieve the District
              of Columbia government of the burden of unfunded pension liabilities transferred to the District by the U.S.
              Government in 1979. To fulfill its responsibility, Treasury manages two funds — the D.C. Teachers, Police Officers,
              and Firefighters Federal Pension Fund (the D.C. Federal Pension Fund), and the District of Columbia Judicial
              Retirement and Survivors Annuity Fund (the Judicial Retirement Fund). The Treasury Department is required to
              make annual amortized payments from the General Fund of the U.S. Government to the D.C. Federal Pension Fund
              and the Judicial Retirement Fund. The actuarial cost method used to determine costs for the retirement plans is the
              Aggregate Entry Age Normal Actuarial Cost Method. The actuarial liability is based upon long‑term assumptions se-
              lected by the Treasury Department. The pension benefit costs incurred by the plans are included on the Consolidated
              Statements of Net Cost.

          	   D.C. Federal Pension Fund
              The purpose of the D.C. Federal Pension Fund is to make federal benefit payments and pay necessary administra-
              tive expenses for the District of Columbia Police Officers’, Firefighters’, and Teachers’ Retirement Plans for benefits
              earned based upon service on or before June 30, 1997.  The amount paid into the D.C. Federal Pension Fund from
              the General Fund of the U.S. Government was $340.2 million for fiscal year 2008 ($345.4 million during fiscal
              year 2007).  As of September 30, 2008, the unobligated budgetary resources of the D.C. Federal Pension Fund were
              approximately $3,564 million, and the pension actuarial liability was $8,641 million, resulting in an unfunded liability
              of $5,077 million.  (As of September 30, 2007, the unobligated budgetary resources of the D.C. Federal Pension Fund
              were approximately $3,565 million, and the pension actuarial liability was $8,842 million, resulting in an unfunded
              liability of $5,277 million.)  In fiscal year 2008, the assumption for the annual rate of investment return in fiscal year
              2009 is 4.7percent for the D.C. Federal Pension Fund with a gradual increase to 6.0percent by fiscal year  2014; and
              the assumption for the future annual rate of inflation and future cost-of-living adjustments is 3.5percent.  In fiscal year
              2007, the assumption for the annual rate of investment return for the D.C. Federal Pension Fund in fiscal year 2008
              was 4.7percent with a gradual increase to 6percent by fiscal year 2013; and the assumption for the future annual rate
              of inflation and future cost-of-living adjustments was 3.5percent.  In fiscal year 2008, the assumption for the future
              annual rate of salary increases is 6.5percent for police officers and firefighters (also 6.5percent during fiscal year 2007),
              and 5.5percent for teachers (also 5.5percent during fiscal year 2007).

          	   Judicial Retirement Fund
              The purpose of the Judicial Retirement Fund is to make federal benefit payments and pay necessary administrative
              expenses for the Judges’ Retirement Plans for all benefits earned.  The amount paid into the Judicial Retirement
              Fund from the General Fund of the U.S. Government will be $6.98 million for fiscal year 2008 ($7.4 million during
              fiscal year 2007).  As of September 30, 2008, the unobligated budgetary resources of the Judicial Retirement Fund
              were approximately $118.5 million, and the pension actuarial liability was $161.6 million, resulting in an unfunded
              liability of $43.1 million. (as of September 30, 2007, the unobligated budgetary resources of the Judicial Retirement
              Fund were approximately $114.3 million, and the pension actuarial liability was $150.1 million, resulting in an
              unfunded liability of $35.8 million.)  In fiscal year 2008, the assumption for the annual rate of investment return for
              the Judicial Retirement Fund in fiscal year 2009 is 5.2percent for the Judicial Retirement Fund with a gradual increase




Note 15.                                                                                                                           180
D.C. Pensions and Judiciary Retirement Actuarial Liability
                                                                                                Part III — Annual FINANCIAL report




  to 6.0percent by fiscal year 2015; and the assumption for the future annual rate of inflation and future cost-of-living
  adjustments is 3.5percent.  In fiscal year 2007, the assumption for the future annual rate of investment return for the
  Judicial Retirement Fund was 6percent; and the assumption for the future annual rate of inflation and future cost-of-
  living adjustments was 3.5percent.  In fiscal year 2008, the assumption for the future annual rate of salary increases is
  3.5percent for judges. This assumption is unchanged from fiscal year 2007.




181                                                                                                                Note 15.
                                                                  D.C. Pensions and Judiciary Retirement Actuarial Liability
Fiscal Year 2008 Performance and Accountability Report




          16. Commitments and Contingencies

          	   Legal Contingencies
              The Department is a party in various administrative proceedings, legal actions, and claims including equal op-
              portunity matters which may ultimately result in settlements or decisions adverse to the Federal Government. These
              contingent liabilities arise in the normal course of operations and their ultimate disposition is unknown. Treasury
              has one contingent liability in fiscal year 2008 related to the legal action taken on the case, American Council of the
              Blind and Others, where losses are determined to be probable and amounts can be estimated. The Department has
              disclosed contingent liabilities where the conditions for liability recognition have not been met and the likelihood of
              unfavorable outcome is more than remote. The Department does not accrue for possible losses related to cases where
              the potential loss cannot be estimated or the likelihood of an unfavorable outcome is less than probable.

              In some cases, a portion of any loss that may occur may be paid by the Treasury’s Judgment Fund which is separate
              from the operating resources of the Department. For those cases related to awards under federal anti-discrimination
              and whistleblower protection acts, Treasury must reimburse the Judgment Fund from future appropriations.

              In the opinion of the Department’s management and legal counsel, based on information currently available, the
              expected outcome of legal actions, individually or in the aggregate, will not have a materially adverse effect on the
              Department’s financial statements, except for the legal actions described below.

          	   Pending Legal Actions
               •	 The American Council of the Blind and Others: Plaintiffs have filed suit against the Department under
                  Section 504 of the Rehabilitation Act seeking the redesign of U.S. currency. In 2006, a judge ruled that the
                  current U.S. currency design violates this Act and this ruling was appealed. In 2008, the United States Court of
                  Appeals for the District of Columbia Circuit affirmed this ruling. No monetary damages were awarded by the
                  Court. However, the Department is required to provide meaningful access to United States currency for blind
                  and other visually impaired persons. This may require changes to U.S. currency (excluding the one-dollar note.)
                  The Court ordered such changes shall be completed, in connection with each denomination of currency, not
                  later than the date when a redesign is next approved by the Secretary of the Treasury. Because the cost of these
                  changes will be incorporated into future currency redesign costs, no redesign costs have been accrued in the
                  accompanying financial statements as of September 30, 2008 and 2007.

                  The judge in the above mentioned case also has ordered that the parties confer and attempt to negotiate attorney
                  fees and costs to be awarded the plaintiffs. A preliminary attorney fee and cost estimate of $800,000 is included
                  in other accrued liabilities. However, updated information has changed this figure to a range of $900,000 to
                  $1,200,000.

               •	 Amidax Trading Group v. S.W.I.F.T.: Allegations have been made that S.W.I.F.T. unlawfully disclosed
                  information to the U.S. Government. We have no opinion as to the likelihood of an unfavorable outcome or an
                  estimate of potential loss at this time.

               •	 Cobell et al. v. Kempthorne et al. (formerly Cobell v. Norton): Native Americans allege that the
                  Department of Interior and the Treasury Department have breached trust obligations with respect to the
                  management of the plaintiffs’ individual Indian monies. On August 7, 2008, a Federal District Court issued




Note 16.                                                                                                                      182
Commitments and Contingencies
                                                                                                    Part III — Annual FINANCIAL report




            an opinion awarding $455 million to the plaintiffs. The opinion is not a final order, and both parties have
            petitioned for the right to appeal. The Department of the Interior is also a defendant in this case and will be
            reporting this case in their financial statements.

      •	 Tribal Trust Fund Cases: Numerous cases have been filed in which Native American Tribes seek a declaration
            that the U.S. has not provided the tribes with a full and complete accounting of their trust funds, and seek an
            order requiring the government to provide such an accounting. In addition, there are a number of other related
            cases for damages which do not name the Treasury Department as a defendant. It is not possible at this time to
            determine the likelihood of an unfavorable outcome or an estimate of the amount or range of any potential loss.
            The Department of the Interior is also a defendant in these cases.

      •	 Other Legal Actions: The Department is also involved in employment related legal actions (e.g.,
            Discrimination, Equal Employment Opportunity Commission, Merit System Protection Board, etc.) which
            were reported to have a “reasonably possible” chance of being decided in the plaintiff’s favor. However, an
            estimate of potential loss cannot be determined at this time. It is not expected that these cases will have a
            material effect on Treasury’s financial position or results.

    There are also other legal actions pending where the ultimate resolution of the legal actions, for which the possibility
    of loss could not be determined, may materially affect Treasury’s financial position or results. As of September 30,
    2008, three legal claims amounting to approximately $156.5 million existed for which the possibility of loss could not
    be determined.

	   Other Contingencies
    Multilateral Development Banks (MDB): The Treasury Department has subscribed to capital for certain MDB,
    portions of which are callable under certain limited circumstances to meet the obligations of the respective MDB.
    There has never been, nor is there anticipated, a call on the Treasury Department subscriptions. As of September 30,
    2008 and September 30, 2007, U.S. callable capital in MDB was as follows (in millions):

                                                                                                   2008                       2007
    African Development Bank                                                             $       1,634           $       1,602
    Asian Development Bank                                                                       5,911                   5,911
    European Bank for Reconstruction and Development                                             1,805                   1,805
    Inter-American Development Bank                                                             28,687                  28,687
    International Bank for Reconstruction and Development                                       22,641                  22,641
    Multilateral Investment Guarantee Agency                                                       301                        301
    North American Development Bank                                                              1,275                   1,275
    Total                                                                                $      62,254           $      62,222


    Terrorism Risk Insurance Program: The Terrorism Risk Insurance Act (TRIA or the Act) was signed into law
    on November 26, 2002. This law was enacted to address market disruptions resulting from terrorist attacks on
    September 11, 2001. The Act helps to ensure available and affordable commercial property and casualty insurance
    for terrorism risk, and simultaneously allows private markets to stabilize. The Terrorism Risk Insurance Program
    is activated upon the certification of an “act of terrorism” by the Secretary of the Treasury in concurrence with the
    Secretary of State and the Attorney General. If a certified act of terrorism occurs, insurers may be eligible to receive




183                                                                                                                      Note 16.
                                                                                                   Commitments and Contingencies
Fiscal Year 2008 Performance and Accountability Report




             reimbursement from the Federal Government for insured losses above a designated deductible amount. Insured
             losses above this amount will be shared between insurance companies and the Federal Government. The Act also
             gives Treasury authority to recoup federal payments made under the Program through policyholder surcharges under
             certain circumstances and contains provisions designed to manage litigation arising from or relating to a certified act
             of terrorism.

             The original TRIA program was to expire on December 31, 2005, but the Program was extended through
             December 31, 2007, by the Terrorism Risk Insurance Extension Act of 2005 (Extension Act). This law included the
             following significant changes: it reduced the Federal role in terrorism risk insurance markets by increasing insurer
             deductibles and excluding certain types of previously covered insurance. The Extension Act also reduced the Federal
             Government’s share of insured losses and added a “Program Trigger” provision which precludes federal payments
             unless insured losses from a certified act of terrorism exceeds $100 million.

             On December 26, 2007, the President signed into law the Terrorism Risk Insurance Program Reauthorization
             Act of 2007 (Reauthorization Act) extending the Program through December 31, 2014. The Reauthorization Act,
             among other Program changes, revised the definition of “Act of Terrorism” to remove the certification requirement
             that the act be committed by an individual acting on behalf of a foreign person or foreign interest; revised the
             provisions of the Act with regard to the cap on annual liability for insured losses of $100 billion; and established
             deadlines by which recoupment of federal payments made under the Program would have to be accomplished.




Note 16.                                                                                                                      184
Commitments and Contingencies
                                                                                                                 Part III — Annual FINANCIAL report




17. Liabilities

  Liabilities Not Covered by Budgetary and Other Resources

  As of September 30, 2008 and September 30, 2007, liabilities not covered by budgetary and other resources consisted
  of the following (in millions):

                                                                                                                    2008                  2007
  Intra-governmental Liabilities Not Covered by Budgetary and Other Resources:
      Federal Debt Principal, Premium/Discount (Note 14)                                               $     4,212,059           $   3,926,220
      Other Intra-governmental Liabilities                                                                          105                   105
  Total Intra-governmental Liabilities Not Covered by Budgetary and Other Resources                    $     4,212,164           $   3,926,325


  Federal Debt Principal, Premium/Discount (Note 14)                                                         5,772,567               5,009,864
  D.C. Pensions Liability (Note 15)                                                                               5,120                  5,313
  Other Liabilities                                                                                               1,085                  1,037
  Total Liabilities Not Covered by Budgetary and Other Resources                                       $     9,990,936           $   8,942,539



  Other Liabilities

  Total “Other Liabilities” displayed on the Balance Sheets consists of both liabilities that are covered and not covered
  by budgetary resources.
  The amounts displayed of $17,852 million and $3,664 million, respectively, at September 30, 2008 and September 30,
  2007, consisted of the following (in millions):

                                                                                                                           2008
                                                                                                      Current      Non-Current            Total
  Intra-governmental
  Unfunded Federal Workers Compensation Program Liability (FECA)                                  $         45       $      57       $    102
  Accounts Payable                                                                                          76               0             76
  Other Accrued Liabilities                                                                                165               2            167
  Total Intra-governmental                                                                        $        286       $      59       $    345


  With the Public
  GSE Quarter Ended 9/30/08 Keepwell Payable (Note 24)                                            $ 13,800           $       0       $ 13,800
  Actuarial Federal Workers Compensation Program Liability (FECA)                                            0             594            594
  Liability for Deposit Funds (Held by the Federal Government for Others) and Suspense Accounts            526               0            526
  Accrued Funded Payroll and Benefits                                                                      424               0            424
  Capital Lease Liabilities                                                                                  4               1              5
  Accounts Payable and Other Accrued Liabilities                                                      2,460                 43           2,503
  Total with the Public                                                                           $ 17,214           $     638       $ 17,852




185                                                                                                                                                  Note 17.
                                                                                                                                                  Liabilities
Fiscal Year 2008 Performance and Accountability Report




                                                                                                                                      2007
                                                                                                                      Current   Non-Current        Total
              Intra-governmental
              Unfunded Federal Workers Compensation Program Liability (FECA)                                      $      44      $      58    $    102
              Accounts Payable                                                                                           46             21          67
              Other Accrued Liabilities                                                                                 158              2         160
              Total Intra-governmental                                                                            $     248      $      81    $    329


              With the Public
              Actuarial Federal Workers Compensation Program Liability (FECA)                                     $        0     $    573     $    573
              Liability for Deposit Funds (Held by the Federal Government for Others) and Suspense Accounts             573              0         573
              Accrued Funded Payroll and Benefits                                                                       402              0         402
              Capital Lease Liabilities                                                                                    2             5           7
              Accounts Payable and Other Accrued Liabilities                                                          2,045             64        2,109
              Total with the Public                                                                               $ 3,022        $    642     $ 3,664




Note 17.                                                                                                                                      186
Liabilities
                                                                                              Part III — Annual FINANCIAL report




18. Net Position
  Unexpended Appropriations represents the amount of spending authorized as of year-end that is unliquidated or
  unobligated and has not lapsed, been rescinded, or withdrawn. No-year appropriations remain available for obligation
  until expended. Annual appropriations remain available for upward or downward adjustment of obligations until
  expired.

  Cumulative Results of Operations represents the net results of operations since inception, and includes cumula-
  tive amounts related to investments in capitalized assets and donations and transfers of assets in and out without
  reimbursement. Also included as a reduction in Cumulative Results of Operations are accruals for which the related
  expenses require funding from future appropriations and assessments. These future funding requirements include,
  among others (a) accumulated annual leave earned but not taken, (b) accrued workers compensation, and (c) expenses
  for contingent liabilities.

  The amount reported as “appropriations received” are appropriated from Treasury General Fund of the U.S.
  Government receipts, such as income taxes, that are not earmarked by law for a specific purpose. This amount will
  not necessarily agree with the “appropriation received” amount reported on the Statement of Budgetary Resources
  (SBR) because of differences between proprietary and budgetary accounting concepts and reporting requirements. For
  example, certain dedicated and earmarked receipts are recorded as “appropriations received” on the SBR, but are rec-
  ognized as exchange or non-exchange revenue (i.e., typically in special and non-revolving trust funds) and reported on
  the Statement of Changes in Net Position in accordance with Statement of Federal Financial Accounting Standards
  (SFFAS No. 7).

  Transfers to the General Fund and Other
  The amount reported as “Transfers to the General Fund and Other” on the Consolidated Statements of Changes in
  Net Position under “Other Financing Sources” mainly represents the distribution of interest revenue to the General
  Fund of the U.S. Government of $13.5 billion and $12.4 billion, for the year ended September 30, 2008 and year
  ended September 30, 2007, respectively and $7.032 billion for the value of the GSE stock transactions for the year
  ended September 30, 2008. The interest revenue is accrued on inter-agency loans held by the Treasury Department
  on behalf of the U.S. Government. A corresponding balance is reported on the Consolidated Statement of Net Cost
  under “Federal Costs: Less Interest Revenue from Loans.” The amount reported on the Consolidated Statement of
  Net Cost is reduced by eliminations with Treasury Department bureaus.

  The Treasury Department also includes seigniorage in “Transfers to the General Fund and Other.” Seigniorage is the
  face value of newly minted circulating coins less the cost of production. The United States Mint is required to distrib-
  ute the seigniorage that it recognizes to the General Fund of the U.S. Government. The distribution is also included in
  “Transfers to the General Fund and Other.” In any given year, the amount recognized as seigniorage may differ for the
  amount distributed to the General Fund by an insignificant amount due to timing differences.

  Seigniorage in the amounts of $728.6 million and $1,032 million was recognized, respectively, for the year ended
  September 30, 2008 and year ended September 30, 2007. Distributions to the General Fund, including seigniorage, and
  numismatic profit amounted to $750 million and $825 million, respectively, for the years ended September 30, 2008
  and September 30, 2007.




187                                                                                                                          Note 18.
                                                                                                                        Net position
Fiscal Year 2008 Performance and Accountability Report




          19. Consolidated Statement of Net Cost and Net Costs
              of Treasury Sub-organizations
             The Treasury Department’s Consolidated Statement of Net Cost displays information on a consolidated basis. The
             complexity of the Treasury Department’s organizational structure and operations requires that supporting schedules
             for Net Cost be included in the notes to the financial statements. These supporting schedules provide consolidating
             information, which fully displays the costs of each sub-organization (Departmental Offices and each operating
             bureau).

             The classification of sub-organizations has been determined in accordance with SFFAS No. 4, Managerial Cost
             Accounting Concepts and Standards for the Federal Government which states that the predominant factor is the report-
             ing entity’s organization structure and existing responsibility components, such as bureaus, administrations, offices,
             and divisions within a department.

             Each sub-organization is responsible for accumulating costs. The assignment of the costs to Treasury-wide programs
             is the result of using the following cost assignment methods: (1) direct costs, (2) cause and effect, and (3) cost
             allocation.

             Intra-Departmental costs/revenues resulting from the provision of goods and/or services on a reimbursable basis
             among Departmental sub-organizations are reported as costs by providing sub-organizations. Accordingly, such
             costs/revenues are eliminated in the consolidation process.

             To the extent practical or reasonable to do so, earned revenue is deducted from the gross costs of the programs to
             determine their net cost. There are no precise guidelines to determine the degree to which earned revenue can rea-
             sonably be attributed to programs. The attribution of earned revenues requires the exercise of managerial judgment.

             In fiscal year 2008, the management of the Treasury Franchise Fund (BPF) was transferred from the Departmental
             Offices (DO) to the Bureau of the Public Debt (BPD).  Accordingly, BPF is included with BPD for fiscal year 2008
             reporting.  For comparative purposes, this resulted in an increase in amounts reported under the Management
             Program for BPD in fiscal year 2008 and a decrease in the amounts reported for DO.

             In fiscal year 2008, BPD began consolidating BPF. It should be noted that the 2008 Consolidated Statement of
             Net Cost by Treasury Sub-organization DO includes BPF, in fiscal year 2007 statement it is included in BPD. This
             change has an immaterial effect on the statement.

             In fiscal year 2008, the Treasury Department began incurring costs in association with the intervention programs
             with GSEs. The amount reflected in the Statement of Net Cost for 2008 is $13,800 million. This is the expense
             portion of the quarter ended September 30, 2008 Keepwell payment to ensure liquidity of Freddie Mac. There was
             no payment anticipated or accrued for Fannie Mae.

             The Treasury Department’s Consolidated Statement of Net Cost also presents interest expense on the Federal Debt
             and other federal costs incurred as a result of assets and liabilities managed on behalf of the U.S. Government.
             These costs are not reflected as program costs related to the Treasury Department’s strategic plan missions.
             Such costs are eliminated in the consolidation process to the extent that they involve transactions with Treasury
             Department sub-organizations.




Note 19.                                                                                                                     188
Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
                                                                                           Part III — Annual FINANCIAL report




  OMB Circular No. A-136, Financial Reporting Requirements, requires that the presentation of the Statements of
  Net Cost align directly with the goals and outcomes identified in the Strategic Plan. Accordingly, the Treasury
  Department has presented the gross costs and earned revenues by the applicable mission goals in the Treasury
  Department’s fiscal years 2007–2012 Strategic Plan.

  Other federal costs for the years ended September 30, 2008 and September 30, 2007 consisted of the following (in
  millions):

                                                                                            2008                    2007
  Credit Reform Interest on Uninvested Funds (Intra-governmental)                    $     5,043          $    4,632
  Resolution Funding Corporation                                                           1,393               1,987
  Judgment Claims and Contract Disputes                                                     786                1,222
  Corporation for Public Broadcasting                                                       448                     464
  Legal Services Corporation                                                                347                     350
  All Other Payments                                                                        315                     208
  Total                                                                              $     8,332          $    8,863




189                                                                                                           Note 19.
                                        Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
Fiscal Year 2008 Performance and Accountability Report




          19. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations (In Millions):

          Fiscal Year Ended
                                                                                                    Financial
          September 30, 2008                    Bureau of                                             Crimes           Financial         Internal
                                                Engraving    Bureau of the   Departmental        Enforcement        Management          Revenue
          Program Costs:                      and Printing     Public Debt         Offices           Network             Service         Service        U.S. Mint

           Financial Program:
           Intra-governmental Gross Costs     $      0       $      71       $   1,392       $          0       $        202       $   4,107        $          0
           Less: Earned Revenue                      0             (15)          (2,009)                0               (159)             (72)                 0
           Intra-governmental Net Costs              0              56            (617)                 0                 43           4,035                   0

           Gross Costs with the public               0            256              373                  0             1,120            8,441                   0
           Less: Earned Revenue                      0             (10)              (1)                0                  0             (287)                 0
           Net Costs with the public                 0            246              372                  0             1,120            8,154                   0
               Net Cost: Financial Program           0            302             (245)                 0              1,163           12,189                  0
           Economic Program:
           Intra-governmental Gross Costs          81                0             462                  0                  0                0                 78
           Less: Earned Revenue                     (8)              0            (811)                 0                  0                0                (10)
           Intra-governmental Net Costs            73                0            (349)                 0                  0                0                 68

           Gross Costs with the public            449                0           1,740                  0                  0                0             1,958
           Less: Earned Revenue                   (509)              0           (1,529)                0                  0                0            (2,063)
           Net Costs with the public               (60)              0             211                  0                  0                0               (105)
               Net Cost: Economic Program           13               0            (138)                 0                  0                0                (37)
           Security Program:
           Intra-governmental Gross Costs            0               0             139                 58                  0                0                  0
           Less: Earned Revenue                      0               0              (18)                (2)                0                0                  0
           Intra-governmental Net Costs              0               0             121                 56                  0                0                  0

           Gross Costs with the public               0               0             171                 52                  0                0                  0
           Less: Earned Revenue                      0               0                0                 0                  0                0                  0
           Net Costs with the public                 0               0             171                 52                  0                0                  0
               Net Cost: Security Program            0               0             292               108                   0                0                  0
           Management Program:
           Intra-governmental Gross Costs            0              51             143                  0                  0                0                  0
           Less: Earned Revenue                      0            (237)           (224)                 0                  0                0                  0
           Intra-governmental Net Costs              0            (186)             (81)                0                  0                0                  0

           Gross Costs with the public               0            207              300                  0                  0                0                  0
           Less: Earned Revenue                      0               0                0                 0                  0                0                  0
           Net Costs with the public                 0            207              300                  0                  0                0                  0
               Net Cost: Management Program          0              21             219                  0                  0                0                  0
           Net Cost of Treasury Operations    $     13       $    323        $     128       $       108        $      1,163       $ 12,189         $        (37)




Note 19.                                                                                                                                                190
Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
                                                                                                                    Part III — Annual FINANCIAL report




Fiscal Year Ended
September 30, 2008                          Office of the          Office of   Alcohol, Tobacco
                                          Comptroller of              Thrift             Tax and        Combined        Eliminations         9/30/2008
Program Costs:                             the Currency         Supervision       Trade Bureau              Total   and Adjustments        Consolidated

 Financial Program:
 Intra-governmental Gross Costs          $          0       $          0       $         13        $    5,785       $    (1,442)       $     4,343
 Less: Earned Revenue                               0                  0                   0           (2,255)              272              (1,983)
 Intra-governmental Net Costs                       0                  0                 13             3,530            (1,170)             2,360

 Gross Costs with the public                        0                  0                 36            10,226                  0            10,226
 Less: Earned Revenue                               0                  0                  (1)            (299)                 0               (299)
 Net Costs with the public                          0                  0                 35             9,927                  0             9,927
     Net Cost: Financial Program                    0                  0                 48            13,457            (1,170)            12,287
 Economic Program:
 Intra-governmental Gross Costs                   96                 34                  13               764               (409)              355
 Less: Earned Revenue                            (27)                (14)                  0             (870)              845                 (25)
 Intra-governmental Net Costs                     69                 20                  13              (106)              436                330

 Gross Costs with the public                    584                 217                  36             4,984                  0             4,984
 Less: Earned Revenue                           (710)              (254)                  (1)          (5,066)                 0             (5,066)
 Net Costs with the public                      (126)                (37)                35               (82)                 0                (82)
     Net Cost: Economic Program                  (57)               (17)                 48              (188)              436                248
 Security Program:
 Intra-governmental Gross Costs                     0                  0                   0              197                (74)              123
 Less: Earned Revenue                               0                  0                   0              (20)                16                  (4)
 Intra-governmental Net Costs                       0                  0                   0              177                (58)              119

 Gross Costs with the public                        0                  0                   0              223                  0               223
 Less: Earned Revenue                               0                  0                   0                0                  0                  0
 Net Costs with the public                          0                  0                   0              223                  0               223
     Net Cost: Security Program                     0                  0                   0             400                 (58)              342
 Management Program:
 Intra-governmental Gross Costs                     0                  0                   0              194                (70)              124
 Less: Earned Revenue                               0                  0                   0             (461)              296                (165)
 Intra-governmental Net Costs                       0                  0                   0             (267)              226                 (41)

 Gross Costs with the public                        0                  0                   0              507                  0               507
 Less: Earned Revenue                               0                  0                   0                0                  0                  0
 Net Costs with the public                          0                  0                   0              507                  0               507
     Net Cost: Management Program                   0                  0                   0              240               226                466
 Net Cost of Treasury Operations         $       (57)       $       (17)       $         96        $   13,909       $      (566)       $    13,343




191                                                                                                       Note 19.
                                    Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
Fiscal Year 2008 Performance and Accountability Report




          19. Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations (In Millions):

          Fiscal Year Ended
                                                                                                    Financial
          September 30, 2007                    Bureau of                                             Crimes           Financial          Internal
                                                Engraving    Bureau of the   Departmental        Enforcement        Management           Revenue
          Program Costs:                      and Printing     Public Debt         Offices           Network             Service          Service        U.S. Mint

           Financial Program:
           Intra-governmental Gross Costs     $      0       $      76       $   1,395       $          0       $        171       $    3,967        $          0
           Less: Earned Revenue                      0             (14)          (2,097)                0               (144)              (45)                 0
           Intra-governmental Net Costs              0              62            (702)                 0                 27            3,922                   0

           Gross Costs with the public               0            259              474                  0                981            8,049                   0
           Less: Earned Revenue                      0              (3)               0                 0                  0             (231)                  0
           Net Costs with the public                 0            256              474                  0                981            7,818                   0
               Net Cost: Financial Program           0            318             (228)                 0             1,008            11,740                   0
           Economic Program:
           Intra-governmental Gross Costs          81                0              69                  0                  0                 0                 69
           Less: Earned Revenue                     (5)              0             (850)                0                  0                 0                  (9)
           Intra-governmental Net Costs            76                0             (781)                0                  0                 0                 60

           Gross Costs with the public            466                0           2,593                  0                  0                 0             1,520
           Less: Earned Revenue                   (573)              0           (3,033)                0                  0                 0            (1,595)
           Net Costs with the public              (107)              0             (440)                0                  0                 0                (75)
               Net Cost: Economic Program          (31)              0           (1,221)                0                  0                 0                (15)
           Security Program:
           Intra-governmental Gross Costs            0               0             135                 51                  0                 0                  0
           Less: Earned Revenue                      0               0              (13)                (1)                0                 0                  0
           Intra-governmental Net Costs              0               0             122                 50                  0                 0                  0

           Gross Costs with the public               0               0             126                 57                  0                 0                  0
           Less: Earned Revenue                      0               0                0                 0                  0                 0                  0
           Net Costs with the public                 0               0             126                 57                  0                 0                  0
               Net Cost: Security Program            0               0             248               107                   0                 0                  0
           Management Program:
           Intra-governmental Gross Costs            0               0             167                  0                  0                 0                  0
           Less: Earned Revenue                      0               0             (720)                0                  0                 0                  0
           Intra-governmental Net Costs              0               0             (553)                0                  0                 0                  0

           Gross Costs with the public               0               0             770                  0                  0                 0                  0
           Less: Earned Revenue                      0               0                0                 0                  0                 0                  0
           Net Costs with the public                 0               0             770                  0                  0                 0                  0
               Net Cost: Management Program          0               0             217                  0                  0                 0                  0
           Net Cost of Treasury Operations    $    (31)      $    318        $    (984)      $       107        $     1,008        $ 11,740          $        (15)




Note 19.                                                                                                                                                 192
Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
                                                                                                                     Part III — Annual FINANCIAL report




Fiscal Year Ended
September 30, 2007                           Office of the          Office of   Alcohol, Tobacco
                                           Comptroller of              Thrift             Tax and        Combined        Eliminations         9/30/2007
Program Costs:                              the Currency         Supervision       Trade Bureau              Total   and Adjustments        Consolidated

 Financial Program:
 Intra-governmental Gross Costs           $          0       $          0       $         14        $    5,623       $    (1,441)       $     4,182
 Less: Earned Revenue                                0                  0                   0           (2,300)              291              (2,009)
 Intra-governmental Net Costs                        0                  0                 14             3,323            (1,150)             2,173

 Gross Costs with the public                         0                  0                 35             9,798                  0             9,798
 Less: Earned Revenue                                0                  0                  (2)            (236)                 0               (236)
 Net Costs with the public                           0                  0                 33             9,562                  0             9,562
     Net Cost: Financial Program                     0                  0                 47            12,885            (1,150)            11,735
 Economic Program:
 Intra-governmental Gross Costs                    89                 30                  13               351                (48)              303
 Less: Earned Revenue                             (27)                (16)                  0             (907)              889                 (18)
 Intra-governmental Net Costs                      62                 14                  13              (556)              841                285

 Gross Costs with the public                     548                 195                  35             5,357                  0             5,357
 Less: Earned Revenue                            (669)              (227)                  (1)          (6,098)                 0             (6,098)
 Net Costs with the public                       (121)                (32)                34              (741)                 0               (741)
     Net Cost: Economic Program                   (59)               (18)                 47            (1,297)              841                (456)
 Security Program:
 Intra-governmental Gross Costs                      0                  0                   0              186                (67)              119
 Less: Earned Revenue                                0                  0                   0              (14)                12                  (2)
 Intra-governmental Net Costs                        0                  0                   0              172                (55)              117

 Gross Costs with the public                         0                  0                   0              183                  0               183
 Less: Earned Revenue                                0                  0                   0                0                  0                  0
 Net Costs with the public                           0                  0                   0              183                  0               183
     Net Cost: Security Program                      0                  0                   0              355                (55)              300
 Management Program:
 Intra-governmental Gross Costs                      0                  0                   0              167                (54)              113
 Less: Earned Revenue                                0                  0                   0             (720)              277                (443)
 Intra-governmental Net Costs                        0                  0                   0             (553)              223                (330)

 Gross Costs with the public                         0                  0                   0              770                  0               770
 Less: Earned Revenue                                0                  0                   0                0                  0                  0
 Net Costs with the public                           0                  0                   0              770                  0               770
     Net Cost: Management Program                    0                  0                   0              217               223                440
 Net Cost of Treasury Operations          $       (59)       $       (18)       $         94        $   12,160       $      (141)       $    12,019




193                                                                                                       Note 19.
                                    Consolidated Statement of Net Cost and Net Costs of Treasury Sub-organizations
Fiscal Year 2008 Performance and Accountability Report




          20. Additional Information Related to the Combined
              Statements of Budgetary Resources
             Federal agencies are required to disclose additional information related to the Combined Statements of Budgetary
             Resources (per OMB Circular A-136, Financial Reporting Requirements as amended). In accordance with SFFAS No.
             7, the Department must report the value of goods and services ordered and obligated which have not been received.
             This amount includes any orders for which advance payment has been made but for which delivery or performance
             has not yet occurred. The information for the fiscal years ended September 30, 2008 and September 30, 2007 was as
             follows (in millions):

                                                                                                            2008                  2007
             Undelivered orders at the end of the period                                             $    57,513           $    56,304
             Available borrowing and contract authority at the end of the period                     $     5,716           $     5,716




             Apportionment Categories of Obligations Incurred: Direct vs. Reimbursable Obligations
                                                                                                            2008                  2007
             Obligations Incurred
                Direct - Category A                                                                  $     7,050           $     6,525
                Direct - Category B                                                                       20,623                14,197
                Direct - Exempt from Apportionment                                                       455,126               440,277
             Total Direct                                                                            $ 482,799             $ 460,999


                Reimbursable - Category A                                                                      2                    0
                Reimbursable - Category B                                                                  3,287                 3,344
                Reimbursable - Exempt from Apportionment                                                   1,446                 1,187
               Total Reimbursable                                                                    $     4,735           $     4,531
             Total Direct and Reimbursable                                                           $ 487,534             $ 465,530




             Reconciliation of the President’s Budget

             The Budget of the United States (also known as the President’s Budget), with actual numbers for fiscal year 2008, was not
             published at the time that these financial statements were issued. The President’s Budget is expected to be published
             in 2009. It will be available from the United States Government Printing Office. The following chart displays the
             differences between the Combined Statement of Budgetary Resources (SBR) in the fiscal year 2007 Performance and
             Accountability Report and the actual fiscal year 2007 balances included in the fiscal year 2009 President’s Budget (PB).




Note 20.                                                                                                                        194
Additional Information Related to the Combined Statements of Budgetary Resources
                                                                                                                                          Part III — Annual FINANCIAL report




Reconciliation of Fiscal Year 2007 Combined Statement of Budgetary Resources
to the Fiscal Year 2009 President’s Budget (in Millions)
                                                                                                    Outlays (net
                                                                                    Budgetary       of offsetting            Offsetting               Net         Obligations
                                                                                    Resources        collections)             Receipts            Outlays           Incurred
Statement of Budgetary Resources Amounts                                        $ 522,980           $ 452,110            $ (16,040)          $ 436,070           $ 465,530


Included in the Treasury Chapter of the President’s Budget (PB) but
not in the Statement of Budgetary Resources (SBR):
IRS non-entity tax credit payments (1)                                                57,830              57,830                  (13)            57,817               57,830
Tax and Trade Bureau (TTB) non-entity collections for Puerto Rico                        462                 462                    0                 462                     0
Non-Treasury offsetting receipts included in Treasury chapter of PB                         0                   0                 (53)                (53)                    0
Treasury offsetting receipts considered to be “General Fund” transac-
                                                                                            0                   0                 (53)                (53)                    0
    tions for reporting purposes (2)
Continued dumping subsidy – CBP                                                          388                 381                    0                 381                 381
Other                                                                                       2                   1                  (1)                   0                    1
Subtotal                                                                        $     58,682        $     58,674         $       (120)       $    58,554         $     58,212

Included in the SBR but not in the Treasury chapter of the PB:
Treasury resources shown in non-Treasury chapters of the PB, included
                                                                                     (34,543)             (3,489)                   0             (3,489)              (8,315)
    in SBR (3)
Offsetting collections net of collections shown in PB                                 (7,224)                   0                (741)               (741)                    0
Treasury offsetting receipts shown in other chapters of PB, part of which
                                                                                            0                   0                 198                 198                     0
    is in SBR
Unobligated balance carried forward, recoveries of prior year funds and
                                                                                      (1,339)                   0                   0                    0                (35)
    expired accounts
Exchange Stabilization Fund resources not shown in PB (4)                            (28,919)                   0                   0                    0               (307)
Treasury Financing Accounts (CDFI and ATSB)                                             (110)                (18)                  24                    6               (106)
IRS user fees and 50% Transfer Accounts and Capital Transfers to
                                                                                        (108)                   0                   0                    0                    0
     General Fund not included in PB
Other                                                                                     (2)                  (3)                  6                    3                  (3)
Subtotal                                                                        $ (72,245)          $     (3,510)        $       (513)       $    (4,023)        $     (8,766)
Trust Fund – Comptroller of the Currency (OCC) (5)                                          0                103                    0                 103                     0
President’s Budget Amounts*                                                     $ 509,417           $ 507,377            $ (16,673)          $ 490,704           $ 514,976

   1.	 These are primarily Earned Income Tax Credit and Child Tax Credit payments that are reported with refunds as custodial activities in Treasury’s financial statements
       and thus are not reported as budgetary resources.
   2.	 These are receipt accounts that Treasury manages on behalf of other agencies and considers to be “General Fund” receipts rather than receipts of the Treasury
       reporting entity.
   3.	 The largest of these resources relate to Treasury’s International Assistance Programs.
   4.	 Exchange Stabilization Fund (ESF) is a self-sustaining component that finances its operations with the buying and selling of foreign currencies to regulate the fluctua-
       tions of the dollar. Because of the nature of the activities of the component, it does not receive appropriations, and therefore is excluded from the PB.
   5.	 Negative outlay for OCC included in both Analytical Perspectives and the Appendix.
    * Per President’s Budget for fiscal year 2009 – Budgetary Resources and Outlays are from the Analytical Perspective. Offsetting Receipts and Obligations Incurred are
      from the Appendix.




195                                                                                                                   Note 20.
                                            Additional Information Related to the Combined Statements of Budgetary Resources
Fiscal Year 2008 Performance and Accountability Report




             Legal Arrangements Affecting Use of Unobligated Balances

             The use of unobligated balances is restricted based on annual legislation requirements or enabling authorities. Funds
             are presumed to be available for only one fiscal year unless otherwise noted in the annual appropriation language.
             Unobligated balances in unexpired fund symbols are available in the next fiscal year for new obligations unless some
             restrictions had been placed on those funds by law. In those situations, the restricted funding will be temporarily
             unavailable until such time as the reasons for the restriction have been satisfied or legislation has been enacted to
             remove the restriction.

             Amounts in expired fund symbols are not available for new obligations, but may be used to adjust obligations and
             make disbursements that were recorded before the budgetary authority expired or to meet a bona fide need that arose
             in the fiscal year for which the appropriation was made.




Note 20.                                                                                                                     196
Additional Information Related to the Combined Statements of Budgetary Resources
                                                                                                      Part III — Annual FINANCIAL report




21. Collection and Disposition of Custodial Revenue
  The Treasury Department collects the majority of federal revenue from income and excise taxes. Collection activity,
  by revenue type and tax year, was as follows for the fiscal years ended September 30, 2008 and September 30, 2007 (in
  millions):
                                                                           Tax Year
                                                                                                                                 2008
                                                           2008         2007               2006           Pre-2006         Collections
  Individual Income and FICA Taxes                  $ 1,455,017    $ 799,244       $ 23,498           $   16,567        $ 2,294,326
  Corporate Income Taxes                                222,000     113,949               2,010           16,104            354,063
  Estate and Gift Taxes                                     23        19,248              1,266            9,287             29,824
  Excise Taxes                                           48,106       17,909               119               159             66,293
  Railroad Retirement Taxes                               3,769        1,164                 1                  5             4,939
  Unemployment Taxes                                      5,146        2,026                42               117              7,331
  Federal Reserve Earnings                               25,879        7,719                 0                  0            33,598
  Fines, Penalties, Interest, and Other Revenue           1,936         297                  0                  0             2,233
  Subtotal                                          $ 1,761,876    $ 961,556       $ 26,936           $   42,239        $ 2,792,607
  Less Amounts Collected for Non-federal Entities                                                                              (407)
  Total                                                                                                                 $ 2,792,200

                                                                               Tax Year
                                                                                                                                 2007
                                                            2007         2006               2005           Pre-2005        Collections


  Individual Income and FICA Taxes                   $ 1,408,591   $ 750,587       $      23,861      $    18,425       $ 2,201,464
  Corporate Income Taxes                                 253,376      116,342              2,938           22,664           395,320
  Estate and Gift Taxes                                      45        16,162              1,571             9,200           26,978
  Excise Taxes                                            49,660       17,807                90                209           67,766
  Railroad Retirement Taxes                                3,576        1,127                     1             14            4,718
  Unemployment Taxes                                       5,198        2,041                51                126            7,416
  Federal Reserve Earnings                                26,255        5,788                     0                 0        32,043
  Fines, Penalties, Interest, and Other Revenue            2,661         423                      0                 0         3,084
  Subtotal                                           $ 1,749,362   $ 910,277       $      28,512      $    50,638       $ 2,738,789
  Less Amounts Collected for Non-federal Entities                                                                              (486)
  Total                                                                                                                 $ 2,738,303


  Amounts reported for Corporate Income Taxes collected in fiscal year 2008 include corporate taxes of $10 billion for
  tax year 2009 (similarly, amounts reported for Corporate Income Taxes collected in fiscal year 2007 include corporate
  taxes of $10 billion for tax year 2008). Individual Income and FICA Taxes includes $79 billion in payroll taxes col-
  lected from other federal agencies ($72 billion in fiscal year 2007).




197                                                                                                                Note 21.
                                                                           Collection and Disposition of Custodial Revenue
Fiscal Year 2008 Performance and Accountability Report




              Amounts Provided to Fund the Federal Government

              For the fiscal years ended September 30, 2008 and September 30, 2007, collections of custodial revenue transferred to
              other entities were as follows (in millions):
                                                                           2008                               2007
              Department of the Interior                      $            312             $                  288
              General Fund                                            2,365,814                     2,445,331
              Total                                           $       2,366,126            $        2,445,619


              Federal Tax Refunds Paid

              Refund activity, broken out by revenue type and by tax year, was as follows for the fiscal years ended September 30,
              2008 and September 30, 2007 (in millions):
                                                                                                   Tax Year
                                                                                                                                                    2008
                                                                         2008             2007                      2006           Pre-2006      Refunds
              Individual Income and FICA Taxes                    $      935      $ 342,216             $ 19,217               $    6,980     $ 369,348
              Corporate Income Taxes                                   2,206         19,610                   10,446               22,078        54,340
              Estate and Gift Taxes                                        0              343                       428               251         1,022
              Excise Taxes                                               439              497                       107               208         1,251
              Railroad Retirement Taxes                                    0                   1                      1                 (9)          (7)
              Unemployment Taxes                                           1               65                        14                39           119
              Fines, Penalties, Interest, and Other Revenue                1                   0                      0                  0            1
              Total                                               $    3,582      $ 362,732             $ 30,213               $   29,547     $ 426,074


                                                                                                   Tax Year
                                                                                                                                                    2007
                                                                         2007             2006                      2005           Pre-2005      Refunds
              Individual Income and FICA Taxes                    $    1,823      $ 235,151             $ 17,839               $    6,242     $ 261,055
              Corporate Income Taxes                                   1,241             8,122                  4,278              14,509        28,150
              Estate and Gift Taxes                                        0              256                       490               223           969
              Excise Taxes                                               416              570                       253             1,131         2,370
              Railroad Retirement Taxes                                    0                   5                      1                  7           13
              Unemployment Taxes                                           0               75                        16                36           127
              Total                                               $    3,480      $ 244,179             $ 22,877               $   22,148     $ 292,684


          	   Federal Tax Refunds Payable
              As of September 30, 2008 and September 30, 2007, refunds payable to taxpayers consisted of the following (in
              millions):
                                                                                                     2008                             2007
              Alcohol, Tobacco Tax and Trade Bureau                                  $                 12                  $             9
              Internal Revenue Service                                               $             3,064                   $        1,675
              Total                                                                  $             3,076                   $        1,684




Note 21.                                                                                                                                         198
Collection and Disposition of Custodial Revenue
                                                                                                                Part III — Annual FINANCIAL report




22. Earmarked Funds
  Earmarked funds are financed by specifically identified revenues, often supplemented by other financing sources,
  which remain available over time. These specifically identified revenues and other financing sources are required by
  statute to be used for designated activities or purposes. SFFAS No. 27, Identifying and Reporting Earmarked Funds,
  issued by the FASAB defines the following three criteria for determining an earmarked fund: 1) A statute commit-
  ting the Federal Government to use specifically identified revenues and other financing sources only for designated
  activities, benefits or purposes; 2) Explicit authority for the earmarked fund to retain revenues and other financing
  sources not used in the current period for future use to finance the designated activities, benefits, or purposes; and 3)
  A requirement to account for and report on the receipt, use, and retention of the revenues and other financing sources
  that distinguishes the earmarked fund from the government’s general revenues.

  The majority of Treasury’s earmarked fund activities are attributed to the ESF and the pension and retirement funds
  managed by the Office of DCP. In addition, several Treasury bureaus operate with “public enterprise revolving funds”
  and receive no appropriations from the Congress. These bureaus are BEP, U.S. Mint, OCC, and OTS. Other miscel-
  laneous earmarked funds are managed by BPD, DO, FMS, and TFF.

  The following is a list of earmarked funds and a brief description of the purpose, accounting, and uses of these funds.
      Exchange Stabilization Fund (ESF)
         ESF       20X4444        Exchange Stabilization Fund


      D.C. Pensions
         DCP       20X1713        Federal payment – D.C. Judicial Retirement
         DCP       20X1714        Federal payment – D.C. Federal Pension Fund
         DCP       20X5511        D.C. Federal Pension Fund
         DCP       20X8212        D.C. Judicial Retirement and Survivor’s Annuity Fund


      Public Enterprise Revolving Funds
         BEP       20X4502        Bureau of Engraving and Printing Public Enterprise Fund
         MNT       20X4159        Public Enterprise Revolving Fund
         OCC       20X8413        Assessment Funds
         OTS       20X4108        Public Enterprise Revolving Fund
         IRS       20X4413        Federal Tax Lien Revolving Fund


      Other Earmarked Funds
         BPD       2061738        Payments to the Terrestrial Wildlife Habitat Restoration
         BPD       2071738        Payments to the Terrestrial Wildlife Habitat Restoration
         BPD       2081738        Payments to the Terrestrial Wildlife Habitat Restoration
         BPD       20X5080        Gifts to Reduce Public Debt
         BPD       20X5080.001 Receipt of Gifts to Reduce Public Debt
         BPD       20X8207        Lower Brule Sioux Tribe Terrestrial Wildlife Habitat Restoration Trust Fund
         BPD       20X8209        Cheyenne River Sioux Terrestrial Wildlife Habitat Restoration Trust Fund
         DO        20X5407        Sallie Mae Assessments
         DO        20X5816        Confiscated and Vested Iraqi Property and Assets




199                                                                                                                                    Note 22.
                                                                                                                               Earmarked Funds
Fiscal Year 2008 Performance and Accountability Report




                    DO       20X8790       Gifts and Bequests Trust Fund
                    FMS      205445        Debt Collection
                    FMS      20X5081       Presidential Election Campaign
                    FMS      20X8902       Esther Cattell Schmitt Gift Fund
                    FMS      202/35445     Debt Collection Special Fund
                    FMS      203/45445     Debt Collection Special Fund
                    FMS      204/55445     Debt Collection Special Fund
                    FMS      205/65445     Debt Collection Special Fund
                    FMS      206/75445     Debt Collection Special Fund
                    FMS      207/85445     Debt Collection Special Fund
                    FMS      208/95445     Debt Collection Special Fund
                    IRS      20X5510       Private Collection Agent Program
                    TFF      20X5697       Treasury Forfeiture Fund


             The ESF uses funds to purchase foreign currencies, to hold U.S. foreign exchange and SDR assets, and to provide
             financing to foreign governments. ESF accounts and reports its holdings to FMS on the SF224, “Statement of
             Transactions,” as well as to the Congress and Treasury’s policy office. The Gold Reserve Act of 1934, Bretton Woods
             Agreement Act of 1945, P.L. 95-147 and P.L. 94-564 established and authorized the use of the Fund. SDR in the
             IMF, Investments in U.S. Securities (BPD), and Investments in Foreign Currency Denominated assets are the sources
             of revenues or other financing sources. ESF’s earnings and realized gains on foreign currency denominated assets
             represent inflows of resources to the government, and the revenues earned are the result of intra-governmental inflows.

             D.C. Pension Funds provide annuity payments for retired D.C. teachers, police officers, judges, and firefighters. The
             sources of revenues are through annual appropriations, employees’ contributions, and interest earnings from invest-
             ments. All proceeds are earmarked. Note 15 provides detailed information on various funds managed by the Office of
             DCP.

             Treasury’s four non-appropriated bureaus, BEP, Mint, OCC, and OTS, operate “public enterprise funds” that account
             for the revenue and expenses related to the production and sale of numismatic products and circulating bureaus
             coinage (Mint), the currency printing activities (BEP), and support of oversight functions of banking (OCC) and
             thrift operations (OTS). 31 USC 142 established the revolving fund for BEP to account for revenue and expenses
             related to the currency printing activities. Public Law 104-52 (31 USC §5136) established the Public Enterprise
             Fund for the Mint to account for all revenue and expenses related to the production and sale of numismatic products
             and circulating coinage. Revenues and other financing sources at the Mint are mainly from the sale of numismatic
             and bullion coins, and the sale of circulating coins to the Federal Reserve Banks system. 12 USC 481 established the
             Assessment Funds for OCC, and 103 Stat. 278 established the Public Enterprise Revolving Fund for OTS. Revenue
             and financing sources are from the bank examination and assessments for the oversight of the national banks, savings
             associations, and savings and loan holding companies. These earmarked funds do not directly contribute to the inflows
             of resources to the government; however, revenues in excess of costs are returned to the General Fund of the U.S.
             Government. There are minimal transactions with other government agencies.

             There are other earmarked funds at several Treasury Department bureaus, such as donations to the Presidential
             Election Campaign Fund, funds related to the debt collection program, gifts to reduce the public debt, and other
             enforcement related activities. Public laws, statutory laws, U.S. Code, and the Debt Collection Improvement Act




Note 22.                                                                                                                     200
Earmarked Funds
                                                                                               Part III — Annual FINANCIAL report




    established and authorized the use of these funds. Sources of revenues and other financing sources include contribu-
    tions, cash and property forfeited in enforcement activities, public donations, and debt collection.

	   Intra-governmental Investments in Treasury Securities
    The Federal Government does not set aside assets to pay future benefits or other expenditures associated with
    earmarked funds. Treasury bureaus and other federal agencies invest some of the earmarked funds that they collect
    from the public. The funds are invested in securities issued by Treasury’s Bureau of the Public Debt (BPD). The
    cash collected by BPD is deposited in the General Fund of the U.S. Government, which uses the cash for general
    government purposes.

    The investments provide the Treasury Department bureaus and other federal agencies with authority to draw upon
    the General Fund of the U.S. Government to make future benefit payments or other expenditures. When Treasury
    Department bureaus or other federal agencies require redemption of these securities to make expenditures, the
    government finances those expenditures out of accumulated cash balances, by raising taxes or other receipts, by
    borrowing from the public or repaying less debt, or by curtailing other expenditures. This is the same way that the
    government finances all other expenditures.

    The securities are an asset to the Treasury Department bureaus and other federal agencies and a liability of the
    BPD. The General Fund of the U.S. Government is liable to BPD. Because Treasury Department bureaus and other
    federal agencies are parts of the U.S. Government, these assets and liabilities offset each other from the standpoint
    of the government as a whole. For this reason, they do not represent an asset or a liability in the U.S. Government-
    wide financial statements.

    The balances related to the investments made by Treasury Department bureaus are not displayed on Treasury’s
    consolidated financial statements because the bureaus are subcomponents of the Treasury Department. However,
    the General Fund of the U.S. Government remains liable to BPD for the invested balances and BPD remains liable
    to the investing Treasury Department bureaus (Note 4).




201                                                                                                                       Note 22.
                                                                                                                  Earmarked Funds
Fiscal Year 2008 Performance and Accountability Report




          Summary Information for Earmarked Funds as of and for the Year ended September 30, 2008
          (In Millions):
                                                                                                    Public
                                                           Exchange                             Enterprise          Other         Combined
                                                         Stabilization                          Revolving      Earmarked         Earmarked                         09/30/2008
                                                                 Fund     D.C. Pensions             Funds          Funds             Funds      Eliminations*           Totals
          Balance Sheet
          ASSETS:
          Fund Balance                                   $        33       $        0       $        459      $      228        $     720        $         0       $      720
          Investments/Related Interest – 	
          Intra-governmental                                 16,847             3,859             1,251              592            22,549           22,549                    0
          Cash, Foreign Currency/Other Monetary
          Assets                                             22,221                 0                  0              16            22,237                 0           22,237
          Investments and Related Interest                   10,543                 0                  0                0           10,543                 0           10,543
          Other Assets                                          298                16             1,292              133             1,739                 9            1,730
          Total Assets                                   $ 49,942          $    3,875       $     3,002       $      969        $ 57,788         $ 22,558          $ 35,230


          LIABILITIES:
          Intra-governmental Liabilities                 $         0       $        0       $         37      $      150        $     187        $       29        $      158
          Certificates Issued to Federal Reserve              2,200                 0                  0                0            2,200                 0            2,200
          Allocation of Special Drawing Rights                7,630                 0                  0                0            7,630                 0            7,630
          Other Liabilities                                     330             8,856                617             182             9,985                 0            9,985
          Total Liabilities                              $ 10,160          $    8,856       $        654      $      332        $ 20,002         $       29        $ 19,973


          NET POSITION:
          Unexpended Appropriations                      $      200        $        0       $          0      $         0       $     200        $         0       $      200
          Cumulative Results of Operations                   39,582            (4,981)            2,348              637            37,586                 0           37,586
          Total Liabilities and Net Position             $ 49,942          $    3,875       $     3,002       $      969        $ 57,788         $       29        $ 57,759


          Statement of Net Cost
          Gross Cost                                     $      250        $      339       $     3,496       $      337        $    4,422       $       62        $    4,360
          Less Earned Revenue                                 (1,986)            (152)            (3,593)              (6)          (5,737)            (650)           (5,087)
          Total Net Cost of Operations                   $ (1,736)         $      187       $        (97)     $      331        $ (1,315)        $     (588)       $     (727)


          Cumulative Results of Operations
          Beginning Balance                              $ 37,846          $   (5,141)      $     2,206       $      474        $ 35,385         $         0       $ 35,385


          Budgetary Financing Sources                              0              347                  0             442              789                23               766
          Other Financing Sources                                  0                0                 45              52                97              (31)              128
          Total Financing Sources                                  0              347                 45             494              886                (8)              894
          Net Cost of Operations                              1,736              (187)                97            (331)            1,315              588               727
          Net Change                                          1,736               160                142             163             2,201              580             1621
          Total Cumulative Results of Operations         $ 39,582          $ (4,981)        $     2,348       $      637        $ 37,586         $      580        $ 37,006

           * The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the elimi-
             nations reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




Note 22.                                                                                                                                                               202
Earmarked Funds
                                                                                                                                Part III — Annual FINANCIAL report




Summary Information for Earmarked Funds as of and for the Year ended September 30, 2007
(In Millions):
                                                                                           Public
                                                  Exchange                             Enterprise          Other        Combined
                                                Stabilization                          Revolving      Earmarked        Earmarked                          09/30/2007
                                                        Fund    D.C. Pensions              Funds          Funds            Funds      Eliminations*            Totals
Balance Sheet
ASSETS:
Fund Balance                                    $         0      $         0       $        439     $      265        $      704       $                 $      704
Investments/Related Interest – 	
Intra-governmental                                  16,439            3,856              1,124             482            21,901           21,901                 0
Cash, Foreign Currency/Other Monetary
Assets                                              21,445                 0                  0             28            21,473                             21,473
Investments and Related Interest                    10,040                 0                  0               0           10,040                             10,040
Other Assets                                              0              45              1,259              90             1,394                10            1,384
Total Assets                                    $ 47,924         $    3,901        $     2,822      $      865        $ 55,512         $ 21,911          $ 33,601


LIABILITIES:
Intra-governmental Liabilities                  $         0      $         0       $         24     $      198        $      222       $        13       $      209
Certificates Issued to Federal Reserve               2,200                 0                  0               0            2,200                              2,200
Allocation of Special Drawing Rights                 7,627                 0                  0               0            7,627                              7,627
Other Liabilities                                        51           9,042                 592            193             9,878                              9,878
Total Liabilities                               $    9,878       $    9,042        $        616     $      391        $ 19,927         $        13       $ 19,914


NET POSITION:
Unexpended Appropriations                       $      200       $         0       $          0     $         0       $      200                         $      200
Cumulative Results of Operations                    37,846           (5,141)             2,206             474            35,385                             35,385
Total Liabilities and Net Position              $ 47,924         $    3,901        $     2,822      $      865        $ 55,512         $        13       $ 55,499


Statement of Net Cost
Gross Cost                                      $      703       $      446        $     2,997      $      234        $    4,380       $        56       $    4,324
Less Earned Revenue                                 (3,864)            (160)            (3,120)               0           (7,144)          (1,036)           (6,108)
Total Net Cost of Operations                    $ (3,161)        $      286        $      (123)     $     $234        $ (2,764)        $     (980)       $ (1,784)


Cumulative Results of Operations
Beginning Balance                               $ 34,685         $ (5,209)         $     1,816      $      322        $ 31,614         $         0       $ 31,614


Budgetary Financing Sources                     $         0      $      354        $          0     $      354        $      708       $        40       $      668
Other Financing Sources                                   0                0                267             32               299              (16)              315
Total Financing Sources                                   0             354                 267            386             1,007                24              983
Net Cost of Operations                               3,161             (286)                123           (234)            2,764              980             1,784
Net Change                                           3,161               68                 390            152             3,771            1,004             2,767
Total Cumulative Results of Operations          $ 37,846         $ (5,141)         $     2,206      $      474        $ 35,385         $    1,004        $ 34,381

 * The eliminations reported above include both inter and intra eliminations for the Earmarked Funds. The total eliminations amount will not agree with the elimina-
   tions reported in the Statement of Changes in Net Position, which include eliminations for Other Funds.




203                                                                                                                                                              Note 22.
                                                                                                                                                         Earmarked Funds
Fiscal Year 2008 Performance and Accountability Report




          23. Reconciliation of Net Cost of Operations to Budget
             The Reconciliation of Net Cost of Operations to Budget explains the difference between the budgetary net obliga-
             tions and the proprietary net cost of operations. For fiscal years 2008 and 2007, OMB did not prescribe a format for
             this reconciliation in OMB Circular A-136, Financial Reporting Requirements, as amended, so that preparers might
             develop a more robust presentation tailored to their agency. As of September 30, 2008 and September 30, 2007, the
             Reconciliation of Net Cost of Operations to Budget consisted of the following (in millions):

                                                                                                               2008           2007
             RESOURCES USED TO FINANCE ACTIVITIES:
               Budgetary Resources Obligated:
               Obligations Incurred                                                                     $ 487,534      $ 465,530
               Less: Spending Authority from Offsetting Collections and Recoveries                           (9,401)       (10,237)
               Obligations Net of Offsetting Collections and Recoveries                                     478,133        455,293
               Less: Offsetting Receipts                                                                    (16,211)       (16,040)
               Net Obligations                                                                          $ 461,922      $ 439,253
               Other Resources:
               Donations and Forfeiture of Property                                                            112             73
               Financing Sources for Accrued and Discount on the Debt                                        (3,870)         7,632
               Transfers In/Out Without Reimbursement                                                           (21)           (24)
               Imputed Financing from Cost Absorbed by Others                                                  729            740
               Transfers to the General Fund and Other (Note 18)                                            (20,788)       (12,293)
               Net Other Resources Used to Finance Activities                                               (23,838)        (3,872)
               GSE Transactions                                                                              13,800              0
               Total Resources Used to Finance Activities                                               $ 451,884      $ 435,381


             RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS:
               Change in Budgetary Resources Obligated for Goods, Services, 	
               and Benefits Ordered but not yet Provided                                                $     1,229    $     4,788
               Credit Program Collections that Increase Liabilities for Loans Guarantees 	
               or Allowances for Subsidy                                                                         (5)           (94)
               Adjustment to Accrued Interest and Discount on the Debt                                       (6,731)         4,385
               Other (primarily non-exchange portion of offsetting receipts)                                (10,745)       (14,089)
               Total Resources Used to Finance Items Not Part of the Net Cost of Operations                 (16,252)        (5,010)
               Total Resources Used to Finance the Net Cost of Operations                               $ 468,136      $ 440,391


               Total Components of Net Cost of Operations that will Require 	
               or Generate Resources in Future Periods                                                          14             (18)


               Total Components of Net Cost of Operations that will not Require or Generate Resources         1,201           948
               Total Components of Net Cost of Operations That Will Not Require
               or Generate Resources in the Current Period                                                    1,215           930
             Net Cost of Operations                                                                     $ 469,351      $ 441,321




Note 23.                                                                                                                    204
Reconciliation of Net Cost of Operations to Budget
                                                                                                   Part III — Annual FINANCIAL report




24. Special Programs with Government Sponsored
    Enterprises (GSE)

	   Steps Taken to Maintain Financial Stability of GSE
    The Federal National Mortgage Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation
    (Freddie Mac) are stockholder-owned GSE. Congress established these GSE to increase the supply of mortgage loans
    and to reduce the accompanying costs. A key Fannie Mae and Freddie Mac responsibility is to package purchased
    mortgages into securities. These securities are subsequently sold to investors. Proceeds from Fannie Mae and Freddie
    Mac sales are used to buy additional mortgages and keep money flowing through the mortgage markets. Fannie Mae
    and Freddie Mac direct, guaranteed debt, and mortgage backed securities (MBS) outstanding totaled approximately $5
    trillion dollars at September 30, 2008.

    Increasingly difficult conditions in the housing market challenged the soundness and profitability of MBS, thereby
    undermining the entire housing market. This led Congress to pass the Housing and Economic Recovery Act of 2008
    in July 2008 (HERA). This Act created the new Federal Housing Finance Agency (FHFA), with enhanced regulatory
    authority over the GSE, and provided the Secretary of the Treasury with certain authorities intended to ensure the
    financial stability of the GSE, if necessary.

    Due to deteriorating conditions in the housing mortgage markets and the resulting negative financial impact on the
    GSE, they were placed under FHFA conservatorship on September 7, 2008. This action was taken to preserve GSE
    assets, ensure a sound and solvent financial condition, and mitigate systemic risks that contributed to market instability.
    The FHFA director will terminate the conservatorship once sound and solvent conditions are established.

    Pursuant to the authorities provided to the Secretary under the HERA, the Treasury Department, also on September 7,
    2008, took three additional steps discussed below to help ensure the liquidity of the GSE while they are working to
    resolve their financial difficulties.

    Senior Preferred Stock Purchase Agreements

    The first step was entering into senior preferred stock purchase agreements with each GSE on September 7, 2008. In
    exchange for entering into these agreements, Treasury Department initially received from each GSE: (1) 1,000,000
    shares of non-voting variable liquidation preference senior preferred stock with a liquidation preference value of
    $1,000 per share and (2) a non-transferrable warrant for the purchase at a nominal cost of 79.9percent of common
    stock on a fully-diluted basis. The warrants expire on September 7, 2028. The senior preferred stock accrues dividends
    at 10percent per year, payable quarterly. This rate shall increase to 12percent if, in any quarter, the dividends are not
    paid in cash, until all accrued dividends have been paid. In addition, beginning on March 31, 2010, the GSE will pay
    the Treasury Department a periodic commitment fee on a quarterly basis. This commitment fee will compensate the
    Treasury Department for the explicit support provided by the preferred stock agreements. This fee will be initially set by
    December 31, 2009, based on mutual agreement between the Treasury Department and each GSE, in consultation with
    the Chairman of the Federal Reserve Board. The fee shall be established for five-year periods, and may be waived by the
    Treasury Department for one year at a time if warranted by adverse mortgage market conditions. It may be paid in cash
    or may be added to the liquidation preference.




205                                                                                                         Note 24.
                                                        Special Programs with Government Sponsored Enterprises (GSE)
Fiscal Year 2008 Performance and Accountability Report




             The senior preferred stock and warrants received in fiscal year 2008 are accounted for as non-entity investments in
             the Treasury Department’s Fiscal Year 2008 Performance and Accountability Report. Their combined estimated
             value at September 08, 2008, is $7,032 million and at September 30, 2008, is $12,374 million. As these investments
             are accounted for at their fair value at the date of receipt, no increase in fair value is recorded. Other Federal Revenue
             of $7,032 was recognized from the acquisition of preferred stock and warrants. Treasury recorded the investment
             using the appraisal value $7,032 million at the date of purchase September 8, 2008, and then subsequently used the
             valuation $12,371 million at the reporting date to determine that no permanent impairment had occurred. Therefore,
             the recorded amount remained at the historical appraised value.

             These agreements, which have no expiration date, provide that the Treasury Department will increase its investment
             in the senior preferred stock if at the end of any quarter the FHFA determines that the liabilities of either GSE
             exceed its assets. The maximum amount available to each GSE under this agreement is $100 billion. The Department
             determined that the net present value of this potential liability cannot be measured with sufficient reliability for fiscal
             year 2008. Accordingly, the estimated future liability, which would take into account increases in preferred stock
             liquidity value, associated dividends, and future commitment fees, is not recorded in the financial statements. The
             Department will attempt to make this determination on at least an annual basis going forward.

             The actual recorded liability arising from the reported excess of GSE liabilities over assets as of September 30, 2008,
             is $ 13.8 billion. This amount is also recorded as an expense for fiscal year 2008. As funds for these payments are
             appropriated directly to the Department, these payments are treated as entity expenses and reflected as such on the
             Statement of Net Cost and Cumulative Results of Operations. The payment of this liability in fiscal year 2009 will
             result in an increase to the nonentity investment in GSE preferred stock, with a corresponding increase in Due to
             the General Fund, as the Department holds the investment on behalf of the General Fund. The carrying value of the
             investment will be evaluated on at least an annual basis.

             The full amount of the $100 billion for each GSE, totaling $200 billion, was appropriated in fiscal year 2008, and
             accounts for the increase in appropriated funds and the increase in Unobligated Balance Available as seen in Note 2.

             GSE Credit Facility

             The second step was the establishment of the Government Sponsored Enterprise Credit Facility (GSECF) to ensure
             credit availability to the GSE and the Federal Home Loan Banks. This lending facility will provide secured funding
             on an as needed basis under terms and conditions established by the Secretary to protect taxpayers. Fannie Mae,
             Freddie Mac, and the Federal Home Loan Banks are eligible to borrow under this program. The GSECF provides
             liquidity, if needed, until December 31, 2009.

             Funding will be provided directly by Treasury from its account held at the Federal Reserve Bank of New York
             (FRBNY) in exchange for eligible collateral from the GSE which will be limited to guaranteed mortgage backed
             securities issued by the GSE as well as advances made by the Federal Home Loan Banks. Loan requests will require
             approval from Treasury and verification by the FRBNY that adequate collateral has been pledged. Loans made
             through the GSECF are subject to the federal debt limit. Loans will be for short-term durations and are in general
             expected to be for less than one month but no shorter than one week. Loans will not be made with a maturity date
             beyond December 31, 2009. The rate on a loan request ordinarily will be based on the daily London Interbank
             Borrowing Rate (LIBOR) for a similar term loan plus 50 basis points. The rate is set at the discretion of the
             Secretary with the objective of protecting the taxpayer, and is subject to change.




Note 24.                                                                                                                         206
Special Programs with Government Sponsored Enterprises (GSE)
                                                                                            Part III — Annual FINANCIAL report




  There is no stated limitation on loans provided through the GSECF. However, loans are limited to the amounts of
  available collateral.

  There were no loans made through the GSECF in fiscal year 2008.

  GSE Mortgage-Backed Securities Purchase Program

  The third step was the initiation of a temporary program to further support the availability of mortgage financing
  for millions of Americans and to mitigate pressures on mortgage rates. Under this program, Treasury purchases
  GSE MBS in the open market. By purchasing these credit-guaranteed securities, Treasury seeks to broaden access
  to mortgage funding for current and prospective homeowners and to promote stability in the mortgage market.

  The size and timing of the MBS purchases is subject to the discretion of the Secretary. The scale of the program will
  be based on developments in the capital and housing markets. Initial purchases of $3.3 billion were made during
  September 2008. Additional purchases will be made as deemed appropriate through the expiration of this authority
  on December 31, 2009.

  As these securities are backed by individual mortgages, they are accounted for under the Credit Reform Act of
  1990.




207                                                                                                    Note 24.
                                                   Special Programs with Government Sponsored Enterprises (GSE)
Fiscal Year 2008 Performance and Accountability Report




          25. Temporary Guarantee Program
              for Money Market Funds
             The Treasury Department has established a Temporary Guarantee Program (Program) for Money Market Funds.
             Under this Program the Treasury Department will guarantee to investors that they will receive the stable share
             price (SSP) for shares held in participating money market funds as of the close of business on September 19, 2008.
             President George W. Bush approved the use of existing authorities by Secretary Henry M. Paulson, Jr. to make
             available, as necessary, the assets of the Exchange Stabilization Fund (ESF) to support the Program. If a participating
             fund’s market-based net asset value (NAV) falls below 99.5 percent of the SSP and is not cured, a Guarantee Event
             will be deemed to occur. If outlays become necessary, they would be paid out initially from the ESF, and then under
             the provisions of Section 131 of the Emergency Economic Stabilization Act of 2008, such outlays would be reim-
             bursed from funds available under the Troubled Assets Relief Program (Note 26). Treasury is not currently aware of
             any Guarantee Events which have occurred at funds that have been accepted into the Program.

             Eligible funds must be regulated under Rule 2a-7 of the Investment Company Act of 1940, must maintain a SSP,
             must have had a market-based NAV of at least 99.5 percent of the SSP as of September 19, 2008, and must be
             publicly offered and registered with the Securities and Exchange Commission. The Program will be in effect until
             December 18, 2008, with an option to extend until September 18, 2009, at the discretion of the Secretary of the
             Treasury.

             To participate in the Program, eligible money market funds must submit an application and pay a premium of one
             basis point if the fund’s NAV is greater than or equal to 99.75 percent of the SSP, or 1.5 basis points of the SSP if
             the fund’s NAV is less than 99.75 percent of the SSP but greater than or equal to 99.50 percent of the SSP. If the
             Program is extended beyond December 18, new premium charges will apply and funds will have the option to renew
             their coverage.

             As of September 30, 2008, the Department collected $39.7 million in program participation premiums. As of October
             10, 2008, the Department collected an additional $298.1 million in premiums. These premiums represent the pay-
             ments for the first three months of coverage which began September 19, 2008. All premium payments were invested
             into U.S. Government securities. Treasury received applications representing at least $3 trillion of assets under
             management before the application deadline. As Treasury is currently reviewing the applications and determining
             eligibility for inclusion in the Program, the final assets under management that will be covered by the Program has
             not been determined. In addition, program participation payments from funds that are not accepted into the Program
             will be returned. Of the total $337.8 million collected, $45.0 million was recognized as earned revenue, while $292.8
             million remained as unearned revenue at September 30, 2008. The revenue is included in Economic Program earned
             revenue on the Statement of Net Cost. The unearned revenue is included in other liabilities on the Balance Sheet.

             The Department of the Treasury’s exposure under the Program, when a guarantee event occurs, is the difference
             between the SSP and the NAV at liquidation of the money market fund. The Department believes the risk of loss
             under the program is negligible, and no future liability is recorded at September 30, 2008.




Note 25.                                                                                                                      208
Temporary Guarantee Program for Money Market Funds
                                                                                                Part III — Annual FINANCIAL report




26. Subsequent Events

A.	 Emergency Economic Stabilization Act of 2008
   The Emergency Economic Stabilization Act of 2008 (EESA) was signed into law on October 3, 2008. This law
   establishes a Troubled Asset Relief Program (TARP) to be administered by the Department of the Treasury. The
   TARP is intended to promote market stability and protect the U.S. economy by authorizing Treasury to purchase
   and guarantee troubled mortgage-related assets and other financial assets. EESA also provides for the purchase of
   any other financial instruments that the Secretary determines, after consultation with the Federal Reserve Board
   Chairman, is necessary in order to promote financial market stability.

   The Secretary’s authority to purchase financial assets was limited initially to $250 billion in outstanding assets, and
   increased to $350 billion upon certification by the President to the Congress on October 14, 2008. The authority
   can be increased to the maximum of $700 billion upon submission of a written report from the President to the
   Congress detailing the Secretary’s plan to exercise additional authority, providing Congress does not enact a law to
   remove the President’s authority.

   The $700 billion limit shall be reduced by the difference between outstanding guaranteed obligations under the
   insurance program authorized by EESA, if any, and the balance in the Troubled Assets Insurance Financing Fund
   (TAIFF) established by EESA to guarantee timely payments on mortgage-related assets. The Secretary can guaran-
   tee timely payment of up to 100percent of the principal and interest on these insured assets. Institutions seeking this
   guarantee are required to pay risk-based premiums into the fund. The premiums will be in amounts determined by
   the Secretary, as necessary, to meet anticipated claims and eliminate any budgetary cost.

   The EESA legislation terminates on December 31, 2009. However, the Secretary can extend this authority to
   October 3, 2010 upon submission of a written certification to Congress. EESA increases the statutory public debt
   limit by $700 billion, from $10.615 trillion to $11.315 trillion.

   Upon passage of EESA, Treasury established the Office of Financial Stability to administer the TARP. No EESA
   transactions occurred during fiscal year 2008. Through November 14, 2008, $148 billion in financial assets were
   purchased through TARP.

B.	 Energy Improvement and Extension Act of 2008
   P.L. 110-343, Division B - Energy Improvement and Extension Act of 2008, was enacted on October 3, 2008.

   Section 113 of the Act allowed for the restructuring of the Advance to the Black Lung Trust Fund (the Fund) by
   the repayment of the market value of outstanding repayable advances with the proceeds of obligations issued by the
   Fund to the General Fund of the U.S. Government and a one time appropriation.

   Effective October 7, 2008, the Black Lung Disability Trust Fund repaid the General Fund of the U.S. Government
   the market value of the outstanding repayable plus accrued interest by transferring (1) obligations whose denomi-
   nations, rate, and maturity were prescribed by the Secretary of the Treasury and (2) the one time appropriation
   amount, which was the difference between the proceeds received from issuance of the obligations described above
   and the market value of the outstanding advances payable.




209                                                                                                                      Note 26.
                                                                                                                Subsequent Events
Fiscal Year 2008 Performance and Accountability Report




          C.	 American International Group (AIG)
             To help AIG work out its financial difficulties, the Federal Reserve Bank of New York agreed to lend up to
             $85 billion to AIG pursuant to the authority in Section 13(3) of the Federal Reserve Act. The Department is not
             a party to the AIG credit facility with the Fed, and has no liabilities, commitments or guarantees pursuant to the
             Fed’s arrangements with AIG or any other financial relationship with AIG.

             Under the terms of the agreement with AIG and the Federal Reserve, an approximately 79.9 percent equity interest
             in AIG (in the form of Convertible Participating Serial Preferred Stock convertible into approximately 79.9 percent
             of the issued and outstanding shares of common stock) was to be issued to a trust to be established by AIG. The
             U.S. Treasury will be named as the beneficiary of that trust, so that when the stock is ultimately liquidated the
             proceeds will be deposited into the General Fund of the U.S. Government. The Treasury Department will be the
             recipient of any dividends and any proceeds from the liquidation of the stock on behalf of the General Fund. The
             accounting and reporting for any activities related to the government’s interest in the stock held by the trust will be
             done by the Treasury Department.

             Subsequent to September 30, 2008, the credit facility to assist AIG was restructured significantly. The credit facility
             was modified to be incorporated into the TARP described above. To provide additional financial assistance to AIG,
             the Department agreed in November 2008 to directly purchase $40 billion in senior AIG preferred stock through
             the TARP. The Treasury Department will also receive common stock warrants for 2 percent of the outstanding
             AIG common stock, with the above-described convertible preferred stock interest to be owned by the trust reduced
             to 77.9 percent.




Note 26.                                                                                                                      210
Subsequent Events
                                                                                                 Part III — Annual FINANCIAL report




Required Supplemental Information (Unaudited)

	   Introduction
    This section provides the Required Supplemental Information as prescribed by Office of Management and Budget
    (OMB) Circular A-136, Financial Reporting Requirements.

	   Other Claims for Refunds
    The Treasury Department has estimated that $22 billion may be payable as other claims for tax refunds. This estimate
    represents amounts (principal and interest) that may be paid for claims pending judicial review by the federal courts
    or internally. The total estimated payout (including principal and interest) for claims pending judicial review by the
    federal courts is $5.0 billion and by appeals is $17 billion.

	   Federal Taxes Receivable, Net
    In accordance with SFFAS No. 7, some unpaid tax assessments do not meet the criteria for financial statement
    recognition as discussed in Note 1 to the financial statements. Although compliance assessments and write-offs are
    not considered receivables under federal accounting standards, they represent legally enforceable claims of the Federal
    Government. There is, however, a significant difference in the collection potential between compliance assessments
    and receivables.

    The components of the total unpaid assessments at September 30, 2008, were as follows (in billions):

      Total Unpaid Assessments                              $     278
      Less: Compliance Assessments                                (67)
        Write Offs                                                (99)
      Gross Federal Taxes Receivable                        $     112
      Less: Allowance for Doubtful Accounts                       (83)
      Federal Taxes Receivables, Net                        $      29


    To eliminate double counting, the compliance assessments reported above exclude trust fund recovery penalties, total-
    ing $4 billion, assessed against officers and directors of businesses who were involved in the non-remittance of federal
    taxes withheld from their employees. The related unpaid assessments of those businesses are reported as taxes receiv-
    able or write-offs, but the Treasury Department may also recover portions of those businesses’ unpaid assessments
    from any and all individual officers and directors against whom a trust fund recovery penalty is assessed.




211                                                                           Required Supplemental Information (Unaudited)
Fiscal Year 2008 Performance and Accountability Report




              Internal Revenue Service (IRS)

              The unpaid assessments balance represents assessments resulting from taxpayers filing returns without sufficient
              payment, as well as from the IRS’s enforcement programs such as examination, under-reporter, substitute for return,
              and combined annual wage reporting. A significant portion of this balance is not considered a receivable. Also, a
              substantial portion of the amounts considered receivables is largely uncollectible.

              Under federal accounting standards, unpaid assessments require taxpayer or court agreement to be considered
              federal taxes receivable. Assessments not agreed to by taxpayers or the courts are considered compliance assessments
              and are not considered federal taxes receivable. Due to the lack of agreement, these compliance assessments are less
              likely to have future collection potential than those unpaid assessments that are considered federal taxes receivable.

              Assessments with little or no future collection potential are called write-offs. Write-offs principally consist of
              amounts owed by deceased, bankrupt, or defunct taxpayers, including many failed financial institutions liquidated
              by the FDIC and the former Resolution Trust Corporation (RTC). As noted above, write-offs have little or no
              future collection potential, but statutory provisions require that these assessments be maintained until the statute for
              collection expires.

          	   Deferred Maintenance
              In fiscal year 2008, the Treasury Department had no material amounts of deferred maintenance costs to report on
              vehicles, buildings, and structures owned by the Department of the Treasury.

              Deferred maintenance applies to owned PP&E. Deferred maintenance is maintenance that was not performed when
              it should have been, or was scheduled to be, and is put off or delayed for a future period. Maintenance is defined
              as the act of keeping capitalized assets in an “acceptable condition” to serve their required mission. It includes
              preventive maintenance, normal repairs, replacement of parts and structural components, and other activities
              needed to preserve the asset so that it continues to provide acceptable services and achieves its expected useful life.
              Maintenance excludes activities aimed at expanding the capacity or significantly upgrading the assets to a different
              form than it was originally intended (i.e., activities related to capitalized improvements, modernization, and/or
              restoration).

              Logistic personnel use condition assessment surveys and/or the total life-cycle cost methods to determine deferred
              maintenance and acceptable operating condition of an asset. Periodic condition assessments, physical inspections,
              and review of manufacturing and engineering specifications, work orders, and building and other structure logistics
              reports can be used under these methodologies.

          	   Money Market Insurance Program– Risk Assumed Disclosure
              The Treasury Department is not recording a contingent liability for any risk assumed, because the Department of
              the Treasury’s exposure under the Program is the difference between a stable share price and the net asset value at
              liquidation of the money market fund. For all of the reasons outlined in Note 25, and based on current information
              and the Federal programs in place, and as this is a temporary program dealing with issues of first impression, we
              believe the risk of loss to the Treasury Department is negligible.




Required Supplemental Information (Unaudited)                                                                                  212
                                                                                                Part III — Annual FINANCIAL report




	   Liquidity Commitment to Government Sponsored Enterprises (GSEs)
    The liquidity commitment to the GSEs described in the senior preferred stock purchase agreements section of Note
    24 is essentially an insurance program in that the Treasury Department received a commitment fee in return for a
    guarantee of GSE liquidity should their liabilities exceed their assets at the end of any future quarter.

    The total program liability as of September 30, 2008 should include the amount of quarterly liquidity draws
    requested but not yet paid, accruals for amounts of liquidity draws not known until after the end of the quarter, and
    an estimated contingent liability for the discounted present value of future liquidity draws up to the $200 billion
    combined liability limit. The discounted present value would take into account estimated offsetting increases in the
    liquidity preference of the preferred stock, increases in dividends on the increased liquidity preference, and annual
    commitment fees. However, due to the current uncertainties and turbulence in the financial markets, for fiscal year
    2008 the estimated contingent liability amount does not have “sufficient reliability” to be recorded as a liability. The
    only liability that is recorded for fiscal year 2008 is the $13.8 billion draw request received from the Federal Housing
    Finance Agency on behalf of Freddie Mac in November 2008 for the quarter ended September 30, 2008. As noted
    above, the total gross risk under this commitment was $200 billion; after the November draw request, the remain-
    ing commitment is $186.2 billion.




213                                                                           Required Supplemental Information (Unaudited)
Fiscal Year 2008 Performance and Accountability Report




          Fiscal Year 2008 Statement of Budgetary Resources Disaggregated by Sub-organization Accounts
          (in Millions):
                                                                                                                                           Fin. Crimes          Financial          Internal
                                                                                  Engraving             Bureau        Departmental        Enforcement        Management           Revenue
                                                                                and Printing        Public Debt             Offices           Network             Service          Service

          Budgetary Resources
          Unobligated balance brought forward                               $        112       $        131       $      55,288       $          11      $         259      $       662
          Recoveries prior year unpaid obligations                                      0               125                 133                   2                 15              105
          Budget Authority:
            Appropriations                                                              0           452,780            203,289                   86            12,018            11,296
            Borrowing authority                                                         0                  0                   4                  0                  0                 0
               Spending authority offsetting collections:
            Earned: Collected                                                        509                334               4,405                   2                239              144
                        Change in receivable federal                                    8               (73)                   2                  1                  2               28
          Change in unfilled customer order:
               Advance received                                                         5                  0                  (4)                 0                  0                 0
               Without advance from federal sources                                     0               (37)                   6                  2                 (8)               (3)
            Subtotal                                                                 522            453,004            207,702                   91            12,251            11,465
          Non-expenditure transfers, net                                                0                 (2)               846                   0                (18)              18
          Temporarily not available                                                     0                 (5)                 (4)                 0                  0                 0
          Permanently not available                                                     0            (1,303)             (1,027)                 (1)           (2,210)              (68)
          Total Budgetary Resources                                         $        634       $ 451,950          $ 262,938           $        103       $     10,297       $    12,182
          Status of Budgetary Resources
          Obligations incurred
            Direct                                                          $           0      $ 451,458          $       4,544       $          80      $       9,847      $    11,360
            Reimbursable                                                             538                317                 511                   4                211              140
            Subtotal                                                                 538            451,775               5,055                  84            10,058            11,500
          Unobligated Balance
            Apportioned                                                                96               144            213,380                   15                212              217
            Exempt from apportionment                                                   0                 23             33,932                   0                 18                 0
            Subtotal                                                                   96               167            247,312                   15                230              217
          Unobligated balance not available                                             0                  8             10,571                   4                  9              465
          Total Status of Budgetary Resources                               $        634       $ 451,950          $ 262,938           $        103       $     10,297       $    12,182
          Relationship Obligations to Outlays
          Obligated balance, net
            Unpaid obligations brought forward                              $        102       $        297       $      55,202       $          16      $         332      $     1,440
            Uncollected customer payments Federal sources brought forward            (39)              (299)                  (9)                 0                (39)             (22)
          Total unpaid obligated balance, net                                          63                 (2)            55,193                  16                293            1,418
          Obligations incurred, net                                                  538            451,775               5,055                  84            10,058            11,500
          Gross Outlays                                                             (536)          (451,788)             (5,335)                (85)          (10,046)          (11,399)
          Recoveries prior year unpaid obligations                                      0              (125)               (133)                 (2)               (15)            (105)
          Change uncollected customer payments                                         (8)              110                   (8)                (3)                 6              (25)
          Obligated balance net, end of period
               Unpaid obligations                                                    103                159              54,789                  13                329            1,436
               Uncollected customer payments  federal                                (46)              (189)                (17)                 (3)               (33)             (47)
          Total unpaid obligated balance, net                                          57               (30)             54,772                  10                296            1,389
          Net Outlays
               Gross outlays                                                         536            451,788               5,335                  85            10,046            11,399
               Offsetting collections                                               (514)              (334)             (3,871)                 (2)             (239)             (144)
               Distributed offsetting receipts                                          0           (14,789)               (236)                  0              (986)             (200)
          Net Outlays                                                       $          22      $ 436,665          $       1,228       $          83      $       8,821      $    11,055




Required Supplemental Information (Unaudited)                                                                                                                                    214
                                                                                                                                           Part III — Annual FINANCIAL report




Fiscal Year 2008 Statement of Budgetary Resources Disaggregated by Sub-organization Accounts
(in Millions):
                                                                                         Office of the                          Alcohol Tobacco                         9/30/2008
                                                                                       Comptroller of        Office of Thrift       Tax & Trade         Budgetary   Non-Budgetary
                                                                       U.S. Mint        the Currency           Supervision               Bureau             Total       Financing

Budgetary Resources
Unobligated balance brought forward                               $        53      $           668       $           263        $          3      $     57,450      $          0
Recoveries prior year unpaid obligations                                   27                     0                      3                 3               413                 0
Budget Authority:
  Appropriations                                                            0                     0                      0                94           679,563                 0
  Borrowing authority                                                       0                     0                      0                 0                  4          34,304
     Spending authority offsetting collections:
  Earned: Collected                                                    2,066                   740                   263                   3             8,705               335
              Change in receivable federal                                  0                     0                      0                 0               (32)                0
Change in unfilled customer order:
     Advance received                                                       9                     0                      9                 0                19                 0
     Without advance from federal sources                                   1                     0                      0                 0               (39)                0
  Subtotal                                                             2,076                   740                   272                  97           688,220           34,639
Non-expenditure transfers, net                                              0                     0                      0                 0               844                 0
Temporarily not available                                                   0                     0                      0                 0                (9)                0
Permanently not available                                                (15)                     0                      0                (2)           (4,626)          (4,767)
Total Budgetary Resources                                         $    2,141       $        1,408        $           538        $        101      $ 742,292         $    29,872
Status of Budgetary Resources
Obligations incurred
  Direct                                                          $         0      $              0      $               0      $         95      $ 477,384         $      5,415
  Reimbursable                                                         2,091                   674                   246                   3             4,735                 0
  Subtotal                                                             2,091                   674                   246                  98           482,119             5,415
Unobligated Balance
  Apportioned                                                              50                     0                      0                 0           214,114           24,122
  Exempt from apportionment                                                 0                  734                   292                   0            34,999                 0
  Subtotal                                                                 50                  734                   292                   0           249,113           24,122
Unobligated balance not available                                           0                     0                      0                 3            11,060               335
Total Status of Budgetary Resources                               $    2,141       $        1,408        $           538        $       101       $ 742,292         $    29,872
Relationship Obligations to Outlays
Obligated balance, net
  Unpaid obligations brought forward                              $      209       $           152       $             42       $         19      $     57,811      $          0
  Uncollected customer payments Federal sources brought forward            (6)                  (4)                      0                 0              (418)                0
Total unpaid obligated balance, net                                      203                   148                     42                 19            57,393                 0
Obligations incurred, net                                              2,091                   674                   246                  98           482,119             5,415
Gross Outlays                                                         (2,013)                (660)                  (241)                (96)         (482,199)          (5,409)
Recoveries prior year unpaid obligations                                 (27)                     0                    (3)                (3)             (413)                0
Change uncollected customer payments                                       (1)                    0                      0                 0                71                 0
Obligated balance net, end of period
     Unpaid obligations                                                  260                   166                     44                 19            57,318                 6
     Uncollected customer payments  federal                                (7)                  (4)                      0                (1)             (347)                0
Total unpaid obligated balance, net                                      253                   162                     44                 18            56,971                 6
Net Outlays
     Gross outlays                                                     2,013                   660                   241                  96           482,199             5,409
     Offsetting collections                                           (2,075)                (740)                  (272)                 (3)           (8,194)            (335)
     Distributed offsetting receipts                                        0                     0                      0                 0           (16,211)                0
Net Outlays                                                       $      (62)      $           (80)      $           (31)       $         93      $ 457,794         $      5,074




215                                                                                                          Required Supplemental Information (Unaudited)
Fiscal Year 2008 Performance and Accountability Report




                                                This page left intentionally blank




Required Supplemental Information (Unaudited)                                        216
Oth e r Accom panyi ng
          I n for mation




        Appendices

          Appendix A:	 Other Accompanying Information
                       (Unaudited)

          Appendix B:	Improper Payments Information Act

          Appendix C:	 Management Challenges and Responses	

          Appendix D:	 Material Weaknesses, Audit Follow-up,
                       and Financial Systems	

          Appendix E:	Full Report of the Treasury Department’s
                      Fiscal Year 2008 Performance Measures	

        Glossary of Acronyms




                                   Part IV
                                                                                                                               Part IV — Other Accompanying Information



Appe n dix A: Oth e r Accom panyi ng
I n for mation (U nau dite d)


  This section provides Other Accompanying Information as prescribed by OMB Circular A-136, Financial Reporting
  Requirements.




Prompt Payment
The Prompt Payment Act requires federal agencies to                                                        Percentage of Number of Invoices Paid Late

make timely payments to vendors for supplies and services,                                                     10%
to pay interest penalties when payments are made after                                                                         8.08%
                                                                                                                8%
the due date, and to take cash discounts only when they
                                                                                                                6%
are economically justified. Treasury bureaus report Prompt




                                                                                                 Percent
Payment data on a monthly basis to the Department,                                                              4%
                                                                                                                      2.79%

and periodic quality control reviews are conducted by the                                                       2%                         1.39%      1.05%    0.84%

bureaus to identify potential problems.                                                                         0%
                                                                                                                      2004      2005       2006       2007     2008

                                                                                                                                        Fiscal Year




                         Total Dollar Amount of Invoices Paid (in Millions)                     Percentage of Dollar Amount of Interest Penalties Paid

                                     $6,000                                                                  0.010%
                                                                                                                               0.009%
                                     $5,000                                            $4,704
                                                                              $4,384                         0.008%
                                                                  $4,227
     Dollars (in Millions)




                                     $4,000   $3,575   $3,499
                                                                                                             0.006%
                                                                                                 Percent




                                     $3,000
                                                                                                             0.004%
                                     $2,000
                                                                                                                                          0.002%
                                     $1,000                                                                  0.002%
                                                                                                                      0.001%                          0.001%   0.001%

                                        $0                                                                   0.000%
                                              2004      2005       2006        2007     2008                          2004      2005       2006       2007     2008

                                                                Fiscal Year                                                             Fiscal Year




                                  Total Number of Invoices Paid (in Thousands)                        Percentage of Number of Interest Penalties Paid

                                       250                                                                    3.0%
                                                                                                                                2.88%
   Invoices Paid (in Thousands)




                                       200                                              191                   2.5%

                                               159                  160        166
                                                        148                                                   2.0%
                                       150
                                                                                                 Percent




                                                                                                              1.5%
                                       100
                                                                                                              1.0%    0.82%
                                        50                                                                                                 0.38%      0.42%
                                                                                                              0.5%                                             0.28%

                                         0                                                                    0.0%
                                              2004      2005       2006        2007     2008                          2004      2005       2006       2007     2008

                                                                Fiscal Year                                                             Fiscal Year




 219                                                                                            Appendix a: Other Accompanying Information (Unaudited)
Fiscal Year 2008 Performance and Accountability Report




          Tax Gap                                                           filed returns (the underpayment gap). Of these three
                                                                            components, only the underpayment gap is observed;
          Reducing the tax gap is at the heart of IRS’ enforcement          the nonfiling gap and the underreporting gap must be
          programs. The tax gap is the difference between what              estimated. Each instance of noncompliance by a taxpayer
          taxpayers should pay and what they actually pay due to not        contributes to the tax gap, whether or not the IRS detects
          filing tax returns, not paying their reported tax liability on    it, and whether or not the taxpayer is even aware of the
          time, or failing to report their correct tax liability. The tax   noncompliance. Obviously, some of the tax gap arises from
          gap, about $345 billion based on updated estimates for tax        intentional (willful) noncompliance, and some of it arises
          year 2001, is the amount of tax that is not paid voluntarily      from unintentional mistakes.
          and on time. Underreporting tax liability accounts for
          82% of the gap, with the remainder almost evenly divided          The collection gap is the cumulative amount of tax, penal-
          between nonfiling (8%) and underpaying (10%). The IRS             ties, and interest that has been assessed over many years,
          remains committed to finding ways to increase compliance          but has not been paid by a certain point in time, and which
          and reduce the tax gap, while minimizing the burden on            the IRS expects to remain uncollectible. In essence, it rep-
          the vast majority of taxpayers who pay their taxes accu-          resents the difference between the total balance of unpaid
          rately and on time.                                               assessments and the net taxes receivable reported on the
                                                                            IRS’ balance sheet. The tax gap and the collection gap are
          The tax gap is the aggregate amount of tax (i.e., excluding       related and overlapping concepts, but they have significant
          interest and penalties) that is imposed by the tax laws for       differences. The collection gap is a cumulative balance sheet
          any given tax year but is not paid voluntarily and timely.        concept for a particular point in time, while the tax gap is
          The tax gap arises from the three types of noncompli-             like an income statement item for a single year. Moreover,
          ance: not filing required tax returns on time or at all (the      the tax gap estimates include all noncompliance, while
          nonfiling gap), underreporting the correct amount of              the collection gap includes only amounts that have been
          tax on timely filed returns (the underreporting gap), and         assessed (a small portion of all noncompliance).
          not paying on time the full amount reported on timely




Appendix a: Other Accompanying Information (Unaudited)                                                                            220
                                                                                                                                                                                           Part IV — Other Accompanying Information




Tax Burden                                                                                                                                         tion illustrates, in percentage terms, the tax burden borne
                                                                                                                                                   by varying AGI levels. For corporations, the information
The Internal Revenue Code provides for progressive rates                                                                                           illustrates, in percentage terms, the tax burden borne by
of tax, whereby higher incomes are generally subject to                                                                                            these entities by various sizes of their total assets. The
higher rates of tax. The graphs below present the latest                                                                                           graphs are only representative of more detailed data and
available information on income tax and adjusted gross                                                                                             analysis available from the IRS Statistics of Income (SOI)
income (AGI) for individuals by AGI level and for                                                                                                  office.
corporations by size of assets. For individuals, the informa-


                  Average Individual Income Tax Liability and                                                                                                                      Individual Income Tax Liability
              Average Adjusted Gross Income (AGI) Tax Year 2006                                                                                                                        as a Percentage of AGI

               $600,000                                                                                                                                            25%
                                                                                                                                                                                                                                  22.4%
               $500,000                                                                                                                                            20%

               $400,000
    Dollars




                                                                                                                                                                   15%                                                  13.1%




                                                                                                                                                        Percent
               $300,000
                                                                                                                           $594,740
                                                                                                                                      $133,380
                                                                                                    $132,956
                                                                                                               $17,386




                                                                                                                                                                   10%                                        8.7%
                                                                                 $70,672




               $200,000
                                                                                           $6,156




                                                                                                                                                                                                   6.1%
                                                             $39,088

                                                                       $2,403
                                          $22,105
                          $5,015




                                                                                                                                                                    5%                  3.4%
               $100,000
                                                    $761
                                   $84




                                                                                                                                                                            1.7%
                    $0                                                                                                                                              0%
                           Under         $15,000-          $30,000-             $50,000-            $100,000- $200,000                                                     Under      $15,000-   $30,000-   $50,000- $100,000- $200,000
                          $15,000        $30,000           $50,000              $100,000            $200,000 or more                                                      $15,000     $30,000    $50,000    $100,000 $200,000 or more

                                   Average AGI             Average Income Tax




 Individual Income Tax Liability Tax Year 2006

                                                            Number of taxable                                                                                                     Average AGI        Average income tax         Income tax as a
                                                                       returns                                                     AGI           Total income tax                   per return                per return            percentage
 Adjusted Gross Income (AGI)                                   (in thousands)                                            (in millions)                (in millions)          (in whole dollars)        (in whole dollars)                of AGI
 Under $15,000                                                                     37,614                                      188,624                            3,141                     5,015                        84               1.7%
 $15,000 under $30,000                                                             29,649                                      655,386                       22,562                       22,105                       761                3.4%
 $30,000 under $50,000                                                             24,907                                      973,569                       59,846                       39,088                      2,403               6.1%
 $50,000 under $100,000                                                            30,053                                 2,123,894                      185,019                          70,672                      6,156               8.7%
 $100,000 under $200,000                                                           12,110                                 1,610,028                      210,538                        132,956                      17,386               13.1%
 $200,000 or more                                                                          4,088                          2,431,160                      545,226                        594,740                  133,380                  22.4%
 Total                                                                          138,421                                  $7,982,661                   1,026,332




221                                                                                                                                                    Appendix a: Other Accompanying Information (Unaudited)
Fiscal Year 2008 Performance and Accountability Report




                                                          Corporation Tax Liability as a Percentage of Taxable Income

                             40%
                             35%                                                     32.7%          33.0%       32.4%        32.5%           31.8%
                                                                         29.3%
                             30%         26.7%                                                                                                             25.5%
                             25%                               23.3%
                                                  18.4%
              Percent




                             20%
                             15%
                             10%
                              5%
                              0%
                                    Zero Assets     $1          $500     $1,000     $5,000       $10,000        $25,000     $50,000       $100,000        $250,000
                                                  under        under     under       under        under          under       under          under          or more
                                                   $500        $1,000    $5,000     $10,000      $25,000        $50,000     $100,000      $250,000




           Corporation Tax Liability Tax Year 2005
                                                                            Income subject to tax           Total income tax after credits           Percentage of income tax after
           Total Assets (in thousands)                                              (in millions)                            (in millions)                credits to taxable income
           Zero Assets                                                                       19,086                                    5,094                                 26.7%
           $1 under $500                                                                      9,223                                    1,698                                 18.4%
           $500 under $1,000                                                                  4,473                                    1,043                                 23.3%
           $1,000 under $5,000                                                               14,935                                    4,372                                 29.3%
           $5,000 under $10,000                                                               9,367                                    3,060                                 32.7%
           $10,000 under $25,000                                                             13,506                                    4,456                                 33.0%
           $25,000 under $50,000                                                             13,459                                    4,366                                 32.4%
           $50,000 under $100,000                                                            14,239                                    4,624                                 32.5%
           $100,000 under $250,000                                                           31,250                                    9,935                                 31.8%
           $250,000 or more                                                            1,071,781                                  273,431                                    25.5%
           Total                                                                       1,201,319                                  312,079                                    26.0%




Appendix a: Other Accompanying Information (Unaudited)                                                                                                                     222
                                                                                               Part IV — Other Accompanying Information



Appe n dix B: I m prope r Paym e nts
I n for mation Act

The Improper Payments Information Act of 2002 (IPIA) requires agencies to review their programs and activities an-
nually to identify those susceptible to significant improper payments. According to OMB Circular A-123, Appendix C,
Requirements for Effective Measurement and Remediation of Improper Payments (A-123, Appendix C), “significant”
means that an estimated error rate and a dollar amount exceed the threshold of 2.5 percent and $10 million of total pro-
gram funding. A-123, Appendix C also requires the agency to implement a corrective action plan that includes improper
payment reduction and recovery targets.

The government-wide Chief Financial Officers Council developed an alternative for meeting IPIA requirements for
federal programs that are so complex that developing an annual error rate is not feasible. Agencies may establish an annual
estimate for a high-risk component of a complex program (e.g., a specific program population) with Office of Management
and Budget (OMB) approval. Agencies must also perform trend analyses to update the program’s baseline error rate in the
interim years between detailed program studies. When development of a statistically valid error rate is possible, the reduc-
tion targets are revised and become the basis for future trend analyses.

  I. Description of the Department’s risk assessment(s) performed subsequent to compiling its full program
     inventory and risk-susceptible programs.
Each year, a comprehensive inventory of the funding sources for all programs and activities is developed and distributed
to the Department’s bureaus and offices. If program or activity funding is at least $10 million, Risk Assessments are
required at the payment type level (e.g., payroll, contracts, vendors, travel, etc.). For those payment types resulting in high
risk assessments that comprise at least 2.5 percent and $10 million of a total funding source, (1) statistical sampling must
be performed to determine the actual improper payment rate, and (2) a Corrective Action Plan must be developed and
submitted to the Department and OMB for approval.

Responses to the Risk Assessments produce a score that falls into pre-determined categories of risk. The following table
describes the actions required to be taken at each risk level:

 Risk Level                                                   Required Action(s)
 High Risk > 2.5% Error Rate & > $10 Million                  Corrective Action Plan
 Medium Risk                                                  Review Payment Controls for Improvement
 Low Risk                                                     No Further Action Required

The Risk Assessments performed across the Department in fiscal year 2008 resulted in all programs and activities as low
and medium risk susceptibility for improper payments except for the Internal Revenue Service’s (IRS) Earned Income Tax
Credit (EITC) program. The EITC’s high-risk status is well-documented, having been previously identified in the former
Section 57 of OMB Circular A-11, and has been deemed a complex program for the purposes of the IPIA.




 223                                                                                   Appendix B: Improper Payments Information Act
Fiscal Year 2008 Performance and Accountability Report




            II. Describe the statistical sampling process conducted to estimate the improper payment rate for each
               program identified.

          Earned Income Tax Credit
          The Earned Income Tax Credit (EITC) is a refundable federal tax credit that offsets income taxes owed by low income
          workers and, if the credit exceeds the amount of taxes owed, provides a lump-sum payment to those who qualify.

          The next section explains how the IRS currently develops its erroneous payment projections. The most recent projection is
          based on a tax year 2001 reporting compliance study that estimated the level of improper overclaims for fiscal year 2008
          to range between $11.1 - $13.1 billion and 23 percent (lower bound) to 28 percent (upper bound) of approximately $47.6
          billion in total program payments.

          National Research Program (NRP) Analysis
          The complexity of the EITC program, the nature of tax processing, and the expense of compliance studies preclude
          statistical sampling on an annual basis to develop error rates for comparison to reduction targets. The estimates are based
          primarily on information from the National Research Program (NRP) reporting compliance study of individual income
          tax returns for tax year 2001—the most recent year for which compliance information from a statistically valid, random
          sample of individual tax returns is available. The approach is nearly identical to that used for earlier years. The difference is
          that the estimates make use of more recent EITC payment data from the President’s fiscal year 2009 Budget.

          Under the tax year 2001 NRP reporting compliance study, individual income tax returns filed during calendar year 2002
          for tax year 2001 were randomly selected for examination.1This selection method allows the measures for the individual
          income tax return filing population to be estimated from the results of the NRP sample returns. Because one of the objec-
          tives of the NRP is to provide data for compliance measurement, NRP procedures and data collection differed from those
          followed in standard examination programs. NRP classification and examination procedures were more comprehensive in
          scope and depth than those for standard examination programs. These expanded procedures were designed to provide a
          more thorough determination of what taxpayers should have reported on their returns.

          Estimates of various compliance measures for individual income taxpayers can be calculated by comparing the NRP sample
          case results—the estimate of what taxpayers should have reported on their returns—to what these taxpayers voluntarily
          reported on their returns and then projecting the sample results to the population. The projection to the population is done
          using weights assigned to each return. These weights reflect the number of returns in the population that the sample return
          represents.

          The tax year 2001 NRP individual income tax return study covered filers of individual income tax returns. About 6,400 of
          the approximately 44,400 returns in the regular NRP sample were EITC claimants.2 The NRP study results for this EITC
          claimant subset of NRP returns were the primary source of data for the improper payments estimates. Other data and
          information sources used for the estimates included IRS Enforcement Revenue Information System (ERIS) data (which
          tracks assessments and collections from IRS enforcement-related activities), Treasury Department estimates of the effect of
          the EITC provisions in the Economic Growth and Tax Relief Reconciliation Act of 2001 (EGTRRA) on erroneous EITC
          claims, and Treasury Department fiscal year 2009 EITC budget estimates.

               1	 The NRP used a stratified, random sample design. Returns are grouped into predefined categories or “strata” and selected randomly
                  within each stratum.
               2	 About 1,600 other returns (the “calibration sample”) were included in the tax year 2001 NRP Individual Income Tax Study. These
                  returns went through a somewhat different examination process and they were not used for these calculations.




Appendix B: Improper Payments Information Act                                                                                                   224
                                                                                       Part IV — Other Accompanying Information




The general approach for developing the fiscal year 2008 set of EITC improper payments estimates involves the follow-
ing steps: (1) estimating an improper payment rate for tax year 2001 using the NRP data, (2) adjusting the tax year 2001
rate to reflect the estimated impact of the EITC-related EGTRRA provisions, (3) estimating EITC claims for fiscal
year 2008 through fiscal year 2011 by projecting tax year 2001 claims forward using the growth rates implicit in Treasury
Department budget outlay estimates, and (4) multiplying the adjusted improper payment rate by the estimated claims to
calculate estimated improper payments for each fiscal year. The Department estimates that as a component of the upcom-
ing NRP analysis, the next EITC compliance study will be completed in fiscal year 2009. This new, multi-year study will
provide an annual update of the EITC error rate.

  III. Describe the Corrective Action Plans for reducing the estimated rate of improper payments for the EITC
     program.
The IRS uses a two-pronged approach to reduce erroneous EITC payments:

     1.	 Continually seek opportunities to increase program efficiency within existing resources – in other words, make the
         base program better; and
     2.	 Test potential business process enhancements to reduce error and then request implementation funding if the tests
         prove successful.

Base Program
In 2008, the IRS prevented more than $3.2 billion from being paid in error. Three areas of activity compose the bulk of this
spending:
    •	 Examinations – the IRS identifies tax returns for examination and holds the EITC portion of the refund until
       an audit can be conducted. This is the only ongoing IRS audit program where exams are conducted before a refund
       is released. The examination closures and enforcement revenue protected in the charts below do not include test
       initiatives.

    •	 Math Error – this refers to an automated process in which the IRS identifies math or other statistical irregularities
       and automatically prepares an adjusted return for a taxpayer. Congressional approval is required for math error use.

    •	 Document Matching – involves comparing income information provided by the taxpayer with matching informa-
       tion (e.g., W-2s, 1099s) from employers to identify discrepancies.

The chart below shows significant results from fiscal year 2003 through fiscal year 2009. In fiscal year 2008 alone, the IRS
conducted 502,700 examinations, issued 425,000 math error notices, and closed 375,000 document matching reviews.




225                                                                             Appendix B: Improper Payments Information Act
Fiscal Year 2008 Performance and Accountability Report




                                                     Compliance Activities (thousands)
                                                                                                                                                        FY02-FY08
                                                            FY03*           FY04*            FY05*             FY06*       FY07*    FY08**    FY09***        Total

                                   Examinations          422,033         472,022         527,969            517,617      503,267   502,700   500,000    3,819,116
                           Math Error Notices**          699,590         624,590         515,890            460,316      393,263   425,000   425,000    4,536,723
                           Document Matching                             300,000         324,419            364,020      394,217   377,327   375,000    2,134,983
                              Amended Returns                                                                                       32,473    30,000      62,473
           *Restated actual
           **Preliminary estimates
           ***Estimate based on fiscal year 2008 preliminary data


          These activities had a significant effect. We project that continued enforcement efforts will protect a total of $19 billion in
          revenue through fiscal year 2009.

                                                     Enforcement Revenue Protected ($ billions)
                                                                                                                                                        FY02-FY08
                                                             FY03           FY04*            FY05*             FY06*       FY07*    FY08**    FY09***        Total

                                   Examinations              1.00             1.12            1.35              1.50        1.49      2.00      2.00        11.41
                           Math Error Notices**              0.65             0.62            0.52              0.46        0.41      0.42      0.42         3.92
                           Document Matching                                  0.25            0.53              0.60        0.73      0.74      0.74         3.59
                              Amended Returns                                                                                         0.07      0.07         0.14
                                           TOTAL             1.65             1.99            2.40              2.56        2.63      3.23      3.23        19.06
           *Restated actual
           **Preliminary estimates
           ***Estimate based on fiscal year 2008 preliminary data




          Business Process Enhancements
          In 2003 and 2004, the IRS received a total of $75 million to fund a number of EITC business process improvement
          initiatives. These initiatives, referred to as the “Investment Portfolio,” included the use of private sector solutions to better
          identify egregious cases, apply appropriate collection methods, assign and manage case inventory more efficiently, catch
          problems with amended returns, improve communications with taxpayers, better focus on under-reported income, and
          explore the use of new notices to improve taxpayer response. The entire initiative process was managed using a project
          management governance structure known as the Enterprise Life Cycle which, among other requirements, includes a busi-
          ness case analysis to justify investment choices. It was conceived, designed, and implemented in three separate releases over
          a three year period. The chart below shows the actual benefits of the EITC Investment Portfolio through fiscal year 2007.
          In fiscal year 2007 the Investment Portfolio was incorporated into the compliance activities above.

                                         Enforcement Revenue Protected ($ billions)
                                                    FY05               FY06                FY07        FY05-FY07 Total

                  Investment Portfolio              0.06               0.06                0.07                  0.19
               Note: In fiscal year 2008 this initiative was incorporated into Compliance Activities




Appendix B: Improper Payments Information Act                                                                                                             226
                                                                                                               Part IV — Other Accompanying Information




Testing New Business Processes
The IRS continues to build new solutions for existing business processes. For example, in June 2008, new proposed
Treasury regulations were issued to provide EITC return preparers with additional guidance on professional standards and
EITC due diligence documentation. In addition, the IRS partnered with the tax software industry to develop a working
group to address EITC error.

Finally, the IRS continues to use other activities to combat program error including:
     •	 Generate extensive national and local media coverage to expand education of the public on the EITC and partici-
        pation of eligible taxpayers
     •	 Implement a strategy to partner with advisory groups and other stakeholders to gather feedback for enhancements
        to notices, forms, publications, and IRS.gov to improve participation among eligible taxpayers
     •	 Complete activities associated with the fourth year of the EITC Return Preparer Study and analyze short-term
        outcomes, including penalties and accuracy of returns

  IV. EITC Improper Payment Reduction Outlook
The reduction outlook for EITC improper payments is as follows:

 Improper Payment (IP) Reduction Outlook ($ in billions)
                                                                                CY+1                       CY+2                        CY+3
                           PY                           CY                         Est   CY+1     CY+1        Est    CY+2     CY+2        Est       CY+3   CY+3
           Program    Outlays     PY %      PY $   Outlays   CY IP%   CY IP$   Outlays    IP%       IP$   Outlays     IP%       IP$   Outlays        IP%     IP$

  EITC Upper Bound     $44.5      28%     $12.3    $47.6      28%     $13.1    $49.5     28%     $13.7     $52.5     28%     $14.5     $53.2        28%    $14.7
          Estimate
  EITC Lower Bound     $44.5      23%     $10.4    $47.6      23%     $11.1    $49.5     23%     $11.5     $52.5     23%     $12.2     $53.2        23%    $12.4
          Estimate
 Outlays: Following prior methodology, the amount shown is the total EITC claimed.
 IP % and IP $: These estimates follow the prior approach which provided a range for improper payments.
 Note: The Improper Payment percentage and Estimated Outlay columns reflect a constant error rate pending the development of an annual error rate
   measurement.
 CY: Current year; PY: Prior year




Recovery Act
  V. The Department’s Recovery Auditing Program
Section 831 of the Defense Authorization Act for fiscal year 2002 added a new subchapter to the U.S. Code (31 U.S.C
3561-3567), also known as the Recovery Auditing Act, that requires agencies that enter into contracts with a total value
in excess of $500 million in a fiscal year carry out a cost-effective program for identifying errors made in paying contrac-
tors and for recovering amounts erroneously paid to the contractors. A required element of such a program is the use of
recovery audits and recovery activities. In accordance with Office of Management and Budget (OMB) Circular A-123,
Management’s Responsibility for Internal Control, Appendix C, reporting on recovery auditing is required annually.

In fiscal year 2008, the Department issued contracts totaling $5.0 billion. The annual Improper Payments Information
Act Risk Assessment process includes a review of pre-payment controls that minimize the likelihood and occurrence of
improper payments. For Recovery Act compliance, Treasury requires each bureau and office to review their post-payment
controls and report on recovery auditing activities, contracts issued, improper payments made, and recoveries achieved.




227                                                                                                   Appendix B: Improper Payments Information Act
Fiscal Year 2008 Performance and Accountability Report




          Bureaus and offices may use recovery auditing firms to perform many of the steps in their recovery program and identify
          candidates for recovery action.

          The Department considers both pre-payment and post-payment reviews to identify payment errors a good management
          practice that should be included among basic payment controls. All of the Department’s bureaus use some form of recovery
          auditing techniques to identify improper payments during post-payment reviews. At times, bureaus may use the services of
          recovery auditors to help them identify payment anomalies and target areas for improvement. However, the Department
          has extensive contract payment controls that are applied at the time each payment is processed, making recovery activ-
          ity minimal. The low level of improper payments in 2008 did not require any Treasury bureau to develop a management
          improvement program under Recovery Act guidance.

           Recovery Auditing Information Fiscal Year 2004 - Fiscal Year 2008
                                                                                                                                              Cumulative      Cumulative
                               Amount Subject        Actual Amount          Amounts                           Amounts                     Amts. Identified         Amts.
                              to Review for CY       Reviewed and       Identified for        Amounts     Identified for       Amounts      for Recovery      Recovered
                 Agency              Reporting         Reported CY      Recovery CY      Recovered CY*   Recovery PYs      Recovered PY         (CY+PYs)        (CY+PYs)

              Treasury      $5,008,145,428        $4,531,863,330          $825,279          $839,818        $843,230         $821,667       $5,258,573       $4,142,907
           Note: CY: Current year; PY: Prior year
           * Includes amounts identified for recovery in prior years.



          For fiscal year 2008, the total number of contracts subject to review was 36,917; the total number reviewed was 30,135, for
          a total program cost of approximately $1.1 million dollars.

            VI. Management Accountability
          The Secretary of the Treasury has delegated responsibility for improper payments to the Assistant Secretary for
          Management/Chief Financial Officer (ASM/CFO). Improper payments fall under the Department’s management control
          program. A component of the management control program is risk assessments, which are an extension of each bureau’s
          annual improper payment review process. Through Treasury Directive 40-04, Treasury Internal (Management) Control
          Program, executives and other managers are required to have management control responsibilities as part of their annual
          performance plans. With oversight mechanisms such as the Treasury CFO Council and IRS’s Financial and Management
          Control Executive Steering Committee, managerial responsibility and accountability in all management control areas are
          visible and well documented.

          Improper payments are a separate initiative under the President’s Management Agenda and have been monitored for
          improvement as a material weakness under the Federal Managers’ Financial Integrity Act. Managers who are responsible
          and accountable for reducing the level of EITC overclaims have been identified, while other senior and mid-level officials
          have responsibility for monitoring progress in this area as bureau and program internal control officers.

            VII. Resources Requested in the Fiscal Year 2009 Budget Submission to Congress
          The IRS fiscal year 2009 President’s Budget submission included no new initiatives related directly to the EITC Program.




Appendix B: Improper Payments Information Act                                                                                                                   228
                                                                                       Part IV — Other Accompanying Information




  VIII. Limiting Statutory and Regulatory Barriers
A number of factors serve as barriers to reducing overclaims in the EITC program. These include:
    •	 The complexity of the tax law

    •	 The structure of the Earned Income Tax Credit

    •	 Confusion among eligible claimants

    •	 High program turnover

    •	 Unscrupulous return preparers

    •	 Fraud

No one of these factors can be considered the primary driver of program error. Furthermore, the interaction among the
factors makes addressing the credit’s erroneous claims rate, while balancing the need to ensure the credit makes its way to
taxpayers who are eligible, extremely difficult.




229                                                                             Appendix B: Improper Payments Information Act
Fiscal Year 2008 Performance and Accountability Report




                                                This page left intentionally blank




Appendix B: Improper Payments Information Act                                        230
                                                                                        Part IV — Other Accompanying Information



Appe n dix C: Manag e m e nt Challe ng es
an d R esponses


Each year, the Inspectors General issue Semiannual Reports to Congress that include specific management challenges
facing the Department. These challenges are sent to the Secretary at the end of each fiscal year and cite the challenges for
the upcoming fiscal year.

The letters sent to the Secretary and the Secretary’s responses are reflected on the following pages for each respective
Inspector General.




 231                                                                      Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report




                                              This page left intentionally blank




Appendix C: Management Challenges and Responses                                    232
                Part IV — Other Accompanying Information




233   Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report




Appendix C: Management Challenges and Responses          234
                Part IV — Other Accompanying Information




235   Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report




Appendix C: Management Challenges and Responses          236
                Part IV — Other Accompanying Information




237   Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report




Appendix C: Management Challenges and Responses          238
                                                                                       Part IV — Other Accompanying Information




                                             DEPAR TMENT OF THE TREASURY
                                                        WAS H INGTO N , D . C .


S E C R E TA R Y O F T H E T R E A S U R Y


                                                        November 17, 2008


                MEMORANDUM FOR	ERIC M. THORSON
                	              INSPECTOR GENERAL

                FROM: 	                      Henry M. Paulson, Jr.


                SUBJECT: 	                   Response to Management and Performance Challenges Facing
                	                            the Department of the Treasury

                I am responding to your memorandum describing the Office of Inspector General’s (OIG) per-
                spective on the most serious management and performance challenges facing the Department of
                the Treasury. The Department appreciates your independent assessment of progress in addressing
                these challenges.

                Fiscal year (FY) 2008 brought two new management challenges, Management of Treasury’s
                New Authorities Related to Distressed Financial Markets and Regulation of National Banks and
                Thrifts. The Department recognizes the importance of these challenges, and has been working
                tirelessly to stabilize the current financial market situation and lay the foundation to prevent
                future turmoil.

                Treasury has taken, and will continue to take, the appropriate action to address these and other
                management challenges. One management challenge was closed in FY 2008, and significant
                progress has been made on several others.

                The Department is committed to remain vigilant about the risks associated with all of its pro-
                grams, and to adjust its strategies based on changing circumstances to achieve financial stability,
                economic security, and protection of the taxpayer.

                Challenge 1 - Management of Treasury’s New Authorities Related to Distressed Financial
                Markets
                Treasury recognizes the need and importance of sound stewardship in managing the authorities
                related to distressed financial markets. The authorities we have been granted are focused on a
                primary goal – to restore liquidity and stability to the financial system of the United States.




                239                                                          Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 2


          Our programs are designed to help financial institutions of all sizes so they can grow stronger
          and provide crucial funding to our economy. Since the announcement of our capital purchase
          program, we have seen numerous signs of improvement in our markets and in the confidence in
          our financial institutions. Treasury continues to press on with actions to both stabilize the imme-
          diate situation and prevent future turmoil.

          The Department has created the Office of Financial Stability (OFS) in accordance with the
          Emergency Economic Stabilization Act of 2008 (EESA) to address this challenge. Treasury is
          committed to transparency and oversight in all aspects of the program and has taken several
          important steps to meet the letter and spirit of our important compliance requirements, in the
          areas of staffing, internal control, and risk management. The Department will seek the very best
          in public and private sector expertise to help execute this program, compete our procurements to
          the maximum extent practicable considering urgent and compelling circumstances, and take the
          appropriate steps to mitigate and manage any conflicts of interest. Positions have been created
          for a Chief Risk Management Officer, Chief Financial Officer, Chief Investment Officer, Chief
          Compliance Officer, Chief Operating Officer, Chief Homeownership Officer, and Chief Legal
          Officer. The Chief Operating Officer will provide strong management control of the program. An
          interim Director of Internal Control for OFS is working to develop sound internal controls. An
          enterprise risk management governance model is also being developed.

          There is inherent risk in any start-up operation. Treasury has moved aggressively on behalf of
          the American people to implement the authorities of the EESA, but has done so in a prudent,
          methodical fashion. We believe that the infrastructure has been initially deployed to mitigate risk
          for the taxpayer, and that sound controls and oversight are being properly designed, planned, and
          implemented for the longer-term.

          Challenge 2 - Regulation of National Banks and Thrifts
          The Department clearly understands both the urgent need to better protect the financial health
          of the U.S. banking and thrift industries, and the longer term need to strengthen and improve
          regulatory oversight. With regard to the former, early positive effects of our recently announced
          Capital Purchase Program under the Troubled Asset Relief Program (TARP) are already evident.
          With regard to the latter, our Blueprint for a Modernized Financial Regulatory Structure (released
          March 31, 2008) examines the many shortcomings inherent in the current structure, and sets out
          numerous recommendations for constructive change. One of the recommendations is, in fact, to
          merge the regulatory functions of the Office of the Comptroller of the Currency (OCC) and the
          Office of Thrift Supervision (OTS).




Appendix C: Management Challenges and Responses                                                         240
                                                                      Part IV — Other Accompanying Information




                                               Page 3


Regulation of National Banks
In general, the OCC is well-positioned to address the challenge of regulating national banks in
the current economic environment. Its approach to bank supervision is risk-based and includes
continuous monitoring in the largest national banks. In addition to onsite examinations of
national banks, supervision includes many ongoing activities, such as quarterly reviews, and
special initiatives, such as following up with bankers on significant events. Nevertheless, the
OCC recognizes the need to review its supervisory processes and effectiveness in light of recent
national bank failures.

In the last year, national banks experienced an unprecedented series of severe credit and market
events, which led to a predictable deterioration in credit quality and increase in the number of
problem banks. The OCC’s approach to addressing problem banks is focused on recognizing
problems early to try to address them before they become larger and threaten the bank’s viability.
The OCC has a well developed program to do this, involving problem bank specialists, which
includes calibrated steps with respect to enforcement. As a result, 47% of the banks considered to
be problems a year ago have been rehabilitated. However, five national banks, of which two were
owned by the same bank holding company, failed in the first three quarters of 2008. Compared
to total assets held by national banks of $7.9 trillion, these national banks held the relatively
much smaller amount of $5.8 billion, and the estimated cost to the deposit insurance fund of their
failures totals $1.08 billion. While each of these banks has had its own unique circumstances,
several had common threads: business strategies that resulted in a combination of 1) residential
commercial real estate concentrations, especially in residential construction and development;
and 2) one or more of the following significant risk factors: rapid growth, high levels of non-
core funding, or out-of-area lending. These factors, when coupled with the rapid deterioration in
market conditions that placed significant stresses on the businesses and real estate markets where
the banks loaned, put strains on the banks that they did not anticipate and ultimately could not
manage, despite progressively stronger supervisory actions by the OCC.

As soon as the results of any material loss reviews are received, the OCC will address them.
The OCC also plans to conduct an internal assessment of the failures to seek opportunities for
improvement in supervisory processes. The current economic environment poses new challenges
to the OCC in resolving problem bank situations. Interest in recapitalizing or acquiring these
institutions has softened and depositor nervousness and restrictions threaten liquidity. Part of the
OCC’s efforts in finding a way to address these challenges is to support Treasury in the imple-
mentation of provisions of the EESA, including the TARP.

While much financial repair work remains to be done, it is encouraging that the national banking
system remains relatively healthy overall. At fiscal year end, 99% of national banks were esti-
mated to have capital levels above the well-capitalized standard and 92% of national banks had




241                                                        Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 4


          composite CAMELS ratings of 1 or 2. It should be further noted that national banks have been
          a source of strength for the U.S. financial system. In each of the cases cited by the OIG where
          distressed banks and investment banks were rescued, the rescuers have been national banks; that
          is, national banks have purchased the nation’s largest mortgage lender, the largest failed bank in
          the nation’s history, two of the largest investment banks, and two other large banks – all at no
          cost to the Federal Deposit Insurance Corporation, and all but one resulting in all assets staying
          in private hands rather than being passed to the government.

          Regulation of National Thrifts
          The Department recognizes that 4 out of 9 failed Treasury-regulated institutions identified by
          the OIG were thrifts. The Department also agrees there is potential for additional failures in the
          future before the economy improves, which is in sharp contrast to the relatively few financial
          institutions that failed during the previous five years.

          It is noteworthy that despite operating in this extraordinarily challenging environment and facing
          severe liquidity issues because of external market conditions, only 4 of the 829 savings associa-
          tions regulated by the OTS have failed since September 2007. Most thrifts continue to conduct
          themselves in a safe and sound manner. As of June 30, 2008, 98% of thrifts were well-capitalized
          based on interagency standards and 90% had composite CAMELS ratings of 1 or 2.

          Nevertheless, given current conditions and the fact that OTS-regulated thrifts currently hold
          over $1 trillion in housing-related loans and securities, the OTS recognizes it is important to
          review its supervisory processes. To meet credit quality and asset management challenges, the
          OTS has been emphasizing to thrift managers that they must: 1) make appropriate provisions for
          loan losses, 2) build sufficient loan loss reserves, 3) pay greater attention to risk management,
          4) assess the risks their particular institution faces in the current economic climate, and 5) pay
          particular attention to business planning, risk analysis and monitoring, account management, and
          problem asset management.

          The OTS has made significant efforts to improve visibility on the mortgage situation and re-
          spond to market conditions. In September 2008, the OTS and the OCC jointly issued the second
          Mortgage Metrics Report covering the second quarter of 2008. The combined report covers more
          than 90% of first lien mortgages held or serviced by federally regulated banks and thrifts. The
          combined portfolio in the report represents 34.7 million loans worth $6.1 trillion.

          The report stated that:
             •	   Actions by thrifts and national banks to prevent home mortgage foreclosures increased
                  faster than new foreclosures




Appendix C: Management Challenges and Responses                                                         242
                                                                      Part IV — Other Accompanying Information




                                               Page 5


   •	   New loan modifications increased by more than 80% from January to June and increased
        by 56% from the first quarter to the second quarter
   •	   More than 9 out of 10 mortgages remain current

   •	   New loss mitigation actions increased more quickly than new foreclosures during the
        second quarter

In further action to prevent or mitigate credit problems, the OTS requested public comment on
a broad array of issues and practices seeking to strengthen unfair or deceptive acts and practices
rules related to the marketing, originating, and servicing of credit cards. The OTS, the Federal
Reserve Board, and the National Credit Union Administration collaborated to issue a proposed
rule regarding fairness and transparency. For credit cards, the proposed rule addresses unfair
practices in the areas of providing reasonable time periods for making payments, payment
allocations, interest rate increases on outstanding balances, security deposits and fees charged
to an account for the issuance of credit, and deceptive offers of credit. For overdraft protection
services on deposit accounts, the proposed rule would address a consumer’s ability to opt out of
overdraft services and unfair fees for debit holds. The three agencies expect to finalize this rule
by year end 2008.

While there has been significant federal effort to improve risk management, industry problems
cannot be corrected if a large number of those who originate mortgages – mortgage brokers and
mortgage companies – are not subject to bank-like regulations and supervision. The OTS and
the other banking agencies have worked with the Conference of State Bank Supervisors and
the American Association of Residential Mortgage Regulators to encourage individual states to
adopt strict guidelines for mortgage brokers under their supervision. The OTS is also crafting,
and will soon be ready to discuss, details of its “Financial Institution Reform Initiative,” which
will propose best practices for implementing regulations requiring mortgage brokers and mort-
gage companies to comply with basic credit principles. In December 2008, the OTS will hold its
Third Annual National Housing Forum (NHF), bringing together the country’s foremost experts
in housing and mortgage finance to discuss issues related to the nation’s housing situation. The
NHF will bring together federal and state regulators, public policy advocates, and financial
analysts to determine solutions and avoid similar turmoil in the future.

Challenge 3 - Corporate Management
The Treasury Department has made a profound effort in 2008 to promote excellent corporate
governance. In addition to daily meetings of the senior leadership team, weekly bureau head
meetings, and monthly Treasury-wide council meetings, the Department has taken several ac-
tions to improve corporate management. An Executive Review Board was re-established for
major IT capital investments to better engage Department and bureau executive leadership in




243                                                        Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 6


          IT decision making. The Human Capital Strategic plan was revised, identifying the factors that
          will shape the future workforce environment of the agency, and the corporate strategies that are
          needed to meet these challenges. The Office of the Procurement Executive continued to imple-
          ment its corporate approach to procurement, saving thousands of dollars, and improving gover-
          nance, communication, and training across the agency.

          A prototype Treasury performance scorecard concept was developed for the financial outcomes
          described in the Department’s strategic plan. The Privacy and Treasury Records Office was
          established in FY 2008 to strengthen the Department’s privacy programs by combining key pri-
          vacy functions and elevating the privacy program to directly report to the Assistant Secretary for
          Management and Chief Financial Officer (ASM/CFO). The realignment of information privacy,
          civil liberties, records management, library, and disclosure functions into one office promotes an
          integrated, corporate approach to information management and protection across the Department.

          Corporate governance activities, including strategic planning and financial, asset, information
          technology, risk, human capital, procurement, performance, privacy and records, and emergency/
          continuity program management were consistently monitored and any gaps in the process were
          identified.

          Challenge 4 - Management of Capital Investments
          The Department improved the Information Technology (IT) capital management process in
          FY 2008. Treasury renewed its focus on effective management of IT spending by re-establishing
          the Executive Review Board to better engage Department and bureau executive leadership in IT
          decision making. Through this process, Treasury has prioritized its IT spending to enhance the
          Department’s ability to perform critical mission functions.

          New guidance was developed and implemented to further improve the governance of Treasury’s
          IT investments. To address recommendations cited in recent audits, attention was focused on
          addressing Earned Value Management (EVM) and Baseline Changes. Improvements in EVM and
          Baseline Change Management will enable Treasury to better monitor the progress on its major
          IT investments by readily identifying potential cost, schedule, and performance variances so that
          prompt corrective action can be taken. Bureaus and corporate staff worked collaboratively to
          draft new Department-wide guidance that provides the framework, standards, and requirements
          in these two critical areas.

          In FY 2008, Treasury made significant progress in implementing the Federal Acquisition Council
          Program and Project Managers (FAC-P/PM) requirements to ensure that Treasury project manag-
          ers are well trained and certified. A core curriculum and competency model were developed to
          serve as the framework for improving the management of IT investments. Using the framework,




Appendix C: Management Challenges and Responses                                                       244
                                                                      Part IV — Other Accompanying Information




                                                Page 7


the qualifications of Treasury’s Program/Project Managers for major IT investments were re-
viewed by a cross-bureau committee. As a result of the review, individuals were determined to
be qualified at various levels (i.e., senior/junior/entry), or requirements were waived (because
they were newly assigned to the program/project). Competency gaps were identified, and mile-
stones/due dates were established for rectifying deficiencies and ensuring new Program/Project
Managers received necessary training to enable future certifications.

With respect to the specific capital investments noted, significant executive attention has been
directed to delays associated with transitioning to the new telecommunications contract (TNet).
Weekly meetings are held between the highest corporate and government IT management
echelons to monitor progress made in resolving the contractor’s poor planning of network imple-
mentation and security testing.

Regarding other large capital investments:
   •	   61 out of 65 major IT investments were placed on the Office of Management and Budget
        (OMB) Management Watch List (MWL) in December 2007. By June 30, 2008, all but 4
        major investments were removed from the MWL.
   •	   OMB placed 56 of the Department’s major investments and 20 E-government initiatives on
        their High Risk List (HRL) in FY 2008. Because of the broad and subjective criteria used
        to place initiatives on the OMB HRL, it is more difficult to have items removed. Treasury
        already has requested that 6 of the 56 major IT investments on the list be removed, and will
        request additional projects be removed as projects show documented evidence of sound
        project management.

Challenge 5 - Information Security
In FY 2008, Treasury made significant progress in strengthening security configuration man-
agement, which was noted as a significant deficiency in FY 2007. Consistent with the OIG’s
2008 conclusion that Treasury is generally compliant with the Federal Information Security
Management Act (FISMA), and the identification of no significant deficiencies in informa-
tion security in their FISMA 2008 audit, the Department formally closed the longstanding IT
security Material Weakness in September 2008. Regarding the Department’s most critical cyber
assets, the OIG reported that Treasury had implemented all provisions of Homeland Security
Presidential Directive #7 and related OMB guidance, and included the development of critical
infrastructure plans in identifying, prioritizing, protecting, and planning for contingencies related
to these critical cyber assets.

Targeted security configuration management efforts have focused on ensuring security settings
for operating and database systems in addition to implementing NIST-compliant Configuration




245                                                        Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 8


          Management Policy for all of Treasury. The Department has worked toward full implementation
          of OMB’s requirements for the Federal Desktop Core Configuration (FDCC), which addresses
          Windows XP, Treasury’s most common operating system platform. An independent assessment
          of the Department’s accomplishments in implementing the OMB FDCC policy in June 2008
          included a sampling that found the Department’s approximately 130,000 XP systems had an
          overall rate of 94% of FDCC compliance. The Department developed metrics and monitors all
          bureau security content management progress on a monthly basis.

          Other significant accomplishments included raising the rate of Annual Testing of IT Security
          Controls from 93% in FY 2007 to 100% in FY 2008, and the accolades Treasury has received
          from the Department of Homeland Security as a model agency for computer security incident
          reporting.

          Challenge 6 - Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act
          Enforcement
          The Treasury Department faces unique challenges in carrying out its responsibilities under the
          Bank Secrecy Act (BSA) and the USA PATRIOT Act to prevent and detect money launder-
          ing and terrorist financing. The Financial Crimes Enforcement Network (FinCEN) has overall
          authority for enforcement and compliance of the BSA, including coordination and direction
          of procedures and activities of all other agencies exercising delegated authority, including the
          Internal Revenue Service (IRS), the OCC, and the OTS. Several actions were taken by all of
          these components, together with federal and state authorities, in FY 2008 to address this manage-
          ment challenge.

          FinCEN has issued a proposed new chapter in the Code of Federal Regulations to restructure
          BSA requirements in a more industry-friendly format. In addition, FinCEN, the OTS, and the
          OCC worked with other federal banking agencies to study different approaches for risk-scoping
          of examinations to enhance the risk-based examination process. This collaborative exchange
          identified short-term improvements in the process with potential longer-term application in
          both the banking and non-banking sectors. In FY 2009, the OCC, the OTS, and FinCEN will
          continue to enhance the Federal Financial Institutions Examination Council’s Bank Secrecy Act/
          Anti-Money Laundering Examination Manual first issued in 2005. Following up on the success
          of this manual, FinCEN has also developed a Money Services Business (MSB) examination
          manual that was drafted in conjunction with the IRS and state regulators. The new manual,
          due to be issued in FY 2009, will foster national consistency in MSB examination practices.
          Additionally, FinCEN will follow up its FY 2008 proposed rulemaking relating to simplifying
          the appropriate exemption of customers from currency transaction reporting requirements with a
          final rule in early FY 2009. FinCEN’s efforts closely track, but also go beyond, last year’s GAO




Appendix C: Management Challenges and Responses                                                      246
                                                                      Part IV — Other Accompanying Information




                                               Page 9


recommendations on the subject. In conjunction with the federal banking agencies, FinCEN
is also drafting additional guidance with respect to the final application of the new rules for
exemptions.

Outreach is an important tool in addressing FinCEN’s challenges in administering the BSA. The
Bank Secrecy Act Advisory Group (BSAAG), statutorily authorized and chaired by FinCEN,
serves as the principal forum to discuss BSA administration issues among regulators, law
enforcement, and the industry. At present, there are over fifty members, including the IRS, the
OCC, and the OTS. Along with other members, these Treasury components serve on a number of
on-going BSAAG subcommittees, including the Banking, Suspicious Activity Report, and Stored
Value Product committees. In addition, FinCEN’s Data Management Council is a new body that
enables government users of the BSA database to have a more direct role in advising FinCEN of
their information needs and helping FinCEN prioritize adjustments to the operation of the data-
base. In FY 2009, FinCEN will continue the extensive outreach campaign to specific financial
institutions begun in FY 2008, which has increased FinCEN’s understanding of the capabilities
of these institutions for anti-money laundering (AML) and counter financing of terrorism moni-
toring and reporting.

Active engagement and leveraging of other regulators is also key to meeting our challenges.
FinCEN has established 53 memoranda of understanding (MOU) with federal and state regula-
tors to enhance the sharing of information derived from compliance examinations. FinCEN has
shared profiles of suspicious activity and currency transaction reporting with these federal and
state regulators, and has surveyed its MOU partners to determine the impact of the information
exchanged; 64% of respondents indicated that the information shared with them was valuable.
As these MOUs mature, the information exchanged will help FinCEN improve BSA examination
consistency and compliance. In FY 2009, FinCEN will pursue MOUs with additional federal and
state regulators, focusing on completing agreements with state insurance commissioners.

To enhance regulated financial industries’ understanding of and compliance with BSA program-
matic, recordkeeping, and reporting requirements, FinCEN published a range of interpretive
guidance in FY 2008, such as: addressing common errors noted in suspicious activity report-
ing, which highlighted the importance of filing complete and accurate reports; Customer
Identification Program requirements; clarifying MSB definitions; application of anti-money
laundering program and suspicious activity reporting requirements to insurance companies; the
conduct of risk assessments by dealers in precious metals, precious stones, or jewels; and clari-
fication of the application of appropriate, specific, and, where necessary, enhanced due diligence
in connection with foreign correspondent accounts. Similar to FY 2008, FinCEN, in FY 2009,
will conduct strategic analytical studies and publish reports promoting both greater awareness of
emerging money laundering trends, vulnerabilities, and avoidance of compliance expenditures




247                                                        Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 10


          that are not commensurate with actual risks. FinCEN strives to be responsive to the needs of fi-
          nancial institutions and collaborates to increase their understanding of the BSA. FinCEN’s efforts
          are demonstrated by achieving a 94% customer satisfaction rate among independently surveyed,
          regulatory, help-line callers.

          A primary strategy for meeting the goal of a safer, more transparent financial system includes
          effective examination for any potential money laundering, terrorist financing, and BSA issues
          in OTS and OCC-supervised institutions. Under consistent policies developed with FinCEN
          and other federal banking agencies, the OTS and the OCC continue to examine compliance
          with BSA, USA PATRIOT Act, and other anti-money laundering provisions through a process
          which consists of on-site examinations conducted every 12-18 months, supplemented by off-site
          monitoring and follow-up to address identified supervisory issues. The OTS has also expanded
          supervisory resources in this area by hiring additional experienced compliance examiners and
          compliance specialists. Additionally, to enhance the training of examiners, in October 2008
          the federal banking agencies hosted the second Advanced BSA/AML Specialists Conference,
          in which FinCEN participated. The Conference focused on emerging money laundering and
          terrorist financing risks. Additionally, in FY 2008 FinCEN and the IRS finalized a coordinated
          joint strategy for developing and implementing a more effective BSA examination regime for
          non-bank financial institutions that the IRS examines. Implementation of the joint FinCEN-IRS
          strategy and other coordination efforts will continue through FY 2009.

          FinCEN does not pursue enforcement actions against financial institutions for isolated failures
          to comply with the BSA, such as BSA reports with incomplete or erroneous information. Rather,
          FinCEN invokes enforcement responsibilities when a financial institution exhibits a systemic
          breakdown in BSA compliance. In FY 2008, FinCEN took enforcement action where necessary
          against financial institutions for willful violations of BSA requirements, in close coordination
          with relevant federal and state supervisors, and the U.S. Department of Justice.

          We look forward to working with you to further address these challenges.

          cc: 	 The Deputy Secretary
          	     Assistant Secretary for Management and Chief Financial Officer




Appendix C: Management Challenges and Responses                                                       248
                                                                                         Part IV — Other Accompanying Information




                                                      October 15, 2008



MEMORANDUM FOR SECRETARY PAULSON

FROM:	        J. Russell George
	             Inspector General

SUBJECT:	 Management and Performance Challenges Facing the Internal
	         Revenue Service for Fiscal Year 2009

The Reports Consolidation Act of 20001 requires that the Treasury Inspector General for Tax Administration (TIGTA)
summarize, for inclusion in the Department of the Treasury Accountability Report for Fiscal Year 2008, its perspective on the
most serious management and performance challenges confronting the Internal Revenue
Service (IRS or Service). The top 10 challenges in order of priority are:
     1.	 Modernization;
     2.	 Security;
     3.	 Tax Compliance Initiatives;
     4.	 Providing Quality Taxpayer Service Operations;
     5.	 Human Capital;
     6.	 Erroneous and Improper Payments;
     7.	 Complexity of the Tax Law;
     8.	 Taxpayer Protection and Rights;
     9.	 Processing Returns and Implementing Tax Law Changes; and
     10.	 Improving Performance and Financial Data for Program and Budget Decisions.

TIGTA’s assessment of the major IRS management challenge areas for Fiscal
Year 2009 has not changed substantially from the prior year. While the IRS has continued to address each challenge area,
TIGTA was unable to remove any challenge areas at this time. We have, however, changed the priority order of certain
challenges. For example, Human Capital went from sixth to fifth place, while Complexity of the Tax Law went from
fifth to seventh place. This reorganization is based on our assessment of many factors, including our opinion that the IRS
needs to address its gaps in talent because of the changes in the knowledge, skills, and competencies in mission-critical
occupations.

The following is a discussion of each of the challenges.




    1	 31 U.S.C. § 3516(d) (2000).




249                                                                       Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                                            Page 2



          Modernization
          The Business Systems Modernization (Modernization Program or Program) is a complex effort to modernize IRS technol-
          ogy and related business processes. It involves integrating thousands of hardware and software components while replacing
          outdated technology and maintaining the current tax system.

          The IRS originally estimated that the Modernization Program would last up to 15 years and incur contractor costs of ap-
          proximately $8 billion.2 The Program is in its 10th year and has received approximately $2.5 billion for contractor services,
          plus an additional $310 million for internal IRS costs. The IRS planned to spend $267 million on the Program in Fiscal
          Year 2008, and the preliminary budget for Fiscal Year 2009 shows a reduction of 16.6 percent to $222.6 million. According
          to the IRS’s original plan, the Modernization Program would be past the halfway point in Calendar Year 2008. However,
          due to generally decreased funding since Fiscal Year 2005 and difficulties in managing contractor work, the IRS has had to
          reduce the scope of many Modernization projects. The IRS and its contractors must still overcome significant barriers in
          successfully implementing Modernization Program goals, including:
              •	 Continued reductions in funding that have forced the IRS to adjust the scope of the Modernization Program
                 portfolio and project release schedules; and
              •	 Inconsistent adherence to established project development guidelines that has limited the effectiveness and growth
                 of the Modernization Program.

          Due mostly to funding shortfalls, the IRS had to forgo development of significant capabilities for the Modernized e-File
          Integration project.3 These capabilities would have allowed the IRS business divisions to better use the Modernized e-File
          system for enforcement activities. Because the Modernized e-File system is not being used to the extent originally planned,
          the intended benefits to the business divisions are not being achieved. As a result of the data access limitations, the Large
          and Mid-Size Business Division and the Tax Exempt and Government Entities Division are using their own systems to
          access Modernized e-File system tax return data. A second project, the Enterprise Return Retrieval system, was subse-
          quently planned to deliver the capabilities that the Modernized e-File Integration project could not deliver. However, this
          project was not funded for Fiscal Year 2008.

          The IRS achieved successes when the Modernization Program followed a systems development plan and management
          guidance. The Program has progressed more effectively with implementation of the Enterprise Services organization’s
          management components and with the development of the Information Technology Modernization Vision and Strategy
          as a map for future development. However, the IRS and its contractors could improve Program effectiveness and efficiency
          through closer adherence to established guidelines such as the Enterprise Life Cycle4 and its related key processes, as well
          as the Federal Acquisition Regulation. Our audits found that the Modernization Program did not consistently implement
          Enterprise Life Cycle guidelines, including project management and requirements management activities.

          The Modernization Program and processes have not progressed enough to eliminate the material weakness designation,
          and further reductions in funding could jeopardize the Program’s ability to deliver planned improvements. We believe that
          until the IRS is able to show consistent progress and improvement in the management of its Modernization Program and


              2	 Treasury Inspector General for Tax Administration, Ref. No. 2008-20-129, Annual Assessment of the Business Systems Modernization
                 Program (2008).
              3	 The Modernized e-File system is a replacement of the current IRS tax return filing technology with a modernized, Internet-based
                 electronic filing platform.
              4	 The Enterprise Life Cycle is a structured business systems development method that requires the preparation of specific work products
                 during different phases of the development process.




Appendix C: Management Challenges and Responses                                                                                                250
                                                                                                       Part IV — Other Accompanying Information




                                                                    Page 3


adequately addresses past TIGTA and Government Accountability Office (GAO) recommendations, the Modernization
Program will remain a high risk for the IRS and will continue to be considered a material weakness.

Security
Millions of taxpayers entrust the IRS with sensitive financial, personal, and other data that are processed by and stored
on IRS computer systems. Reports of identity thefts from both the private and public sectors have heightened aware-
ness of the need to protect these data. The risk that taxpayers’ identities could be stolen by exploiting security weaknesses
in the IRS’s computer systems continues to increase, as does the risk that IRS computer operations could be disrupted.
Internal factors (such as the increased connectivity of computer systems and increased use of portable laptop computers)
and external factors (such as the volatile threat environment resulting from increased terrorist and hacker activity) require
strong security controls.

The Incident Management Plan and Occupant Emergency Plan are designed to protect employees and visitors in IRS
facilities; implement a clear command structure; and guide incident stabilization, assessment, and recovery efforts in the
event of an emergency. However, these plans were not always complete or subject to regular exercises or tests to ensure
readiness. As a result, we believe that in the event of an actual emergency such as a terrorist attack or natural disaster,
these deficiencies could result in delays in ensuring employee and visitor safety and in beginning efforts to recover critical
business processes, such as collecting tax revenue, processing tax refunds, and responding to taxpayer inquiries. Emergency
preparedness at IRS facilities needs to be improved.5

Section 301 of the Federal Information Security Management Act (FISMA)6 requires each Federal Government agency to
report annually to the Office of Management and Budget and to Congress on the effectiveness of its security programs
and to perform an annual independent evaluation of its information security program and practices. The IRS has made
steady progress in complying with FISMA requirements since the law’s enactment in 2002 and states that it continues to
place a high priority on efforts to improve its security program. The IRS continues to develop an enterprise-wide approach
to help employees understand their responsibilities for securing IRS systems and data and to implement the necessary
controls. However, the IRS needs to do more to adequately secure its systems and data. Past audits have shown that the
most significant areas of concern are compliance with mandated security configurations, implementation of access controls
for its computer systems, and use of audit trails to detect computer intrusions and misuse. Additionally, the introductions
of malware7 into the IRS network via email and phishing schemes8 are growing security concerns. TIGTA works closely
with the IRS to identify and investigate these schemes. Between January and July 2008, more than 1,900 phishing sites
pretending to represent the IRS were identified. The IRS continues to designate computer security as a material weakness
under the Federal Managers’ Financial Integrity Act of 1982.9




    5	 Treasury Inspector General for Tax Administration, Ref. No. 2008-10-148, Emergency Preparedness at Internal Revenue Service Facilities
       Needs to Be Improved (2008).
    6	 Pub. L. No. 107-347, tit. III, 116 Stat. 2899, 2946 (2002) (codified as amended at 44 U.S.C. §§ 3541-49).
    7	 Malware refers to a program inserted into a computer with the intent of compromising the confidentiality, integrity, or availability of the
       system’s data, applications, or operating system. Examples of malware include viruses, spyware, Trojan horses, and rootkits.
    8	 Phishing is the act of sending an email to a user falsely claiming to be an established, legitimate enterprise in an attempt to scam the
       user into surrendering private information that could be used for identity theft.
    9	 31 U.S.C. §§ 1105, 1106, 1108, 1113, 3512 (2000). The Federal Managers’ Financial Integrity Act (FMFIA) requires that agency
       management establish and maintain effective internal controls to achieve the objectives of 1) effective and efficient operations, 2) reliable
       financial reporting, and 3) compliance with applicable laws and regulations. The FMFIA also requires the head of each Executive agency
       to report annually to the President and Congress on the effectiveness of the internal controls and any identified material weaknesses in
       those controls. Reporting material weaknesses under the FMFIA is not limited to weaknesses over financial reporting.




251                                                                                   Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                                                Page 4



          Tax Compliance Initiatives
          Another compelling challenge confronting the IRS is tax compliance. Tax compliance initiatives include the administra-
          tion of tax regulations, collection of the correct amount of tax from businesses and individuals, and oversight of tax-exempt
          and government entities. Increasing voluntary compliance and reducing the Tax Gap are currently the focus of many IRS
          initiatives. Nevertheless, the IRS is facing significant challenges in 1) obtaining more complete and timely data, and 2)
          developing the methods necessary to interpret the data.

              Businesses and Individuals

              With the Tax Gap remaining center stage, TIGTA continues to focus considerable attention on the progress that
              the IRS is making to reduce the estimated difference between the amount of tax that taxpayers should pay and the
              amount that is paid voluntarily and on time. In August 2007, the Department of the Treasury and the IRS issued a
              report entitled Reducing the Federal Tax Gap: A Report on Improving Voluntary Compliance, which details the strategy
              being taken to address the Tax Gap by increasing voluntary compliance. TIGTA provided an evaluation of this
              strategy in 2008 and reported that the long-term success of the strategy will, in large part, be dependent on addressing
              several risk factors.

              The IRS estimated the gross Tax Gap for Tax Year (TY) 2001 to be approximately $345 billion. Of this amount, about
              $54 billion (16 percent) is attributable to underreported employment taxes. In addition, the GAO recently reported
              that business taxpayers failed to pay to the IRS about $58 billion in Federal payroll taxes that they withheld from
              employees’ wages over the past 10 years.

              TIGTA has previously reported on both of these issues and has planned several audits to provide more insight into
              this growing problem, including audits of the misclassification of employees by employers,10 the effectiveness of the
              IRS’s SS-8 determination program,11 the effectiveness of IRS actions on collection accounts, and the Trust Fund
              Recovery Penalty.12

              The IRS must continue to seek accurate measures for the various components of the Tax Gap and the effectiveness of
              the actions taken to reduce it. Broader strategies and better research are needed to determine what actions are most
              effective in addressing noncompliance.

              Tax-Exempt Entities

              The IRS continues to face challenges in administering programs focused on ensuring that tax-exempt organizations
              comply with applicable laws and regulations to qualify for tax-exempt status. The IRS has noted that the non-profit




              10	 A recent report issued by the GAO states that, “In its last comprehensive misclassification estimate, the IRS estimated that 15 percent
                  of employers misclassified 3.4 million workers as independent contractors in 1984, resulting in an estimated tax loss of $1.6 billion (or
                  $2.72 billion in inflation-adjusted 2006 dollars) in Social Security tax, unemployment tax, and income tax.”
              11	 The SS-8 program makes determinations of workers’ employment tax status as employees or independent contractors. Workers may
                  request determinations by submitting Determination of Worker Status for Purposes of Federal Employment Taxes and Income Tax
                  Withholding (Form SS-8) to the IRS. An IRS determination of a worker’s status has tax consequences for both the worker and the
                  employer.
              12	 The Trust Fund Recovery Penalty is an enforcement tool the IRS uses to collect unpaid trust fund taxes. If a business taxpayer has failed
                  to collect or pay trust fund taxes, the unpaid liability is assessed against the responsible officer(s). Although the IRS assesses this penalty
                  on multiple taxpayers, these assessments represent only one liability. The IRS may collect the penalty from any combination of the
                  business and related individual taxpayers.




Appendix C: Management Challenges and Responses                                                                                                          252
                                                                                                     Part IV — Other Accompanying Information




                                                                   Page 5


    community has not been immune from the recent trends toward bad corporate practices that have been highlighted in
    the for-profit area.13

    For example, in a report issued in Fiscal Year 2008, we stated that the IRS needed to strengthen controls over exami-
    nation closures to provide assurance that 1) capital raised from issuing tax-exempt bonds will be appropriately used for
    public works projects, and 2) examinations are conducted with integrity and fairness.14 In addition, we reported that
    there was a need for the Exempt Organizations function to perform more detailed analyses of completed casework
    related to recently established tax‑exempt organizations to determine if taxpayer funds allocated to this activity are
    being used wisely and tax-exempt organizations are being contacted only when necessary.15

Providing Quality Taxpayer Service Operations
Since the late 1990s, the IRS has increased its delivery of quality customer service to taxpayers. However, the first goal in
the IRS’s current strategic plan is to improve taxpayer service. In July 2005, Congress requested that the IRS develop a
five-year plan, including an outline of which services the IRS should provide and how it will improve services for taxpay-
ers. The IRS developed the plan the Taxpayer Assistance Blueprint which focuses on services that support the needs of
individual filers who file or should file the Form 1040 series tax returns.16

The Blueprint identified strategic improvement themes by researching IRS services relative to taxpayers’ needs and prefer-
ences. It recommended 55 improvement initiatives designed to enhance taxpayer service called the Taxpayer Assistance
Blueprint Service Improvement Portfolio. The Portfolio is categorized into initiatives called Electronic Interaction
Enablement,17 Telephone Service Enhancements, Partner Services,18 Outreach and Education, and Marketing and
Promotion. The IRS has begun implementing the initiatives, but many are dependent on future funding.

The Blueprint Phase 2 report issued in April 2007 devoted an entire section to the Taxpayer Assistance Centers (TAC),
which are the IRS’s walk-in offices. It provided a step-by-step process for future decisions regarding TAC locations called
the TAC Geographic Footprint. However, inaccurate and incomplete management information continues to delay imple-
mentation of the TAC Geographic Footprint. The IRS cannot measure the effectiveness of the TAC Program without
accurate and complete data.




    13	 Written Statement of Mark W. Everson, Commissioner of Internal Revenue, Before the Committee on Finance, United States Senate
        Hearing on Exempt Organizations: Enforcement Problems, Accomplishments, and Future Direction, April 5, 2005.
    14	 Treasury Inspector General for Tax Administration, Ref. No. 2008-10-052, The Tax Exempt Bonds Office Has Established Controls, but
        Improvements Are Needed to Prevent Improprieties (2008).
    15	 Treasury Inspector General for Tax Administration, Ref. No. 2008-10-057, Performance Measures and Improved Case Tracking Would Help
        the Exempt Organizations Function Better Allocate Resources (2008).
    16	 The Form 1040 series tax returns include any IRS tax forms that begin with “1040” such as the
        U.S. Individual Income Tax Return (Form 1040), U.S. Individual Income Tax Return (Form 1040-A), and Income Tax Return for
        Single and Joint Filers With No Dependents (Form 1040EZ).
    17	 The objective of the Electronic Interaction Enablement initiative is to maximize the taxpayer and partner value of the IRS Web site,
        making the electronic channel the first choice of taxpayers and partners for obtaining the information and services they need to comply
        with their tax obligations. The recommended initiatives for Electronic Interaction Enablement address services governance, content
        management, end-to-end portal and application monitoring, Web site design and usability, online support tools, publication search
        capability, evaluation of Frequently Asked Questions, and authentication for account-related tools.
    18	 The objective of the Partner Services initiative is to maximize assistance provided to tax practitioners, commercial preparers, community-
        based partners, and return preparation software vendors who are helping taxpayers understand and meet their tax obligations. The
        recommended initiatives for the Partner Services initiative address training and resources; tax practitioner, commercial preparer, and
        community-based partner collaboration; electronic and telephone resources; community coalition support; and coordination with
        Federal agencies.




253                                                                                  Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                                             Page 6


          The Blueprint also recognizes the significant role of tax return preparers because more than one-half of all taxpayers use
          preparers to file their tax returns. As a result, services to both taxpayers and the preparer community are essential to ensure
          effective tax administration.

          Human Capital
          In 2001, the President’s Management Agenda designated Strategic Management of Human Capital as the first of its five
          government-wide initiatives. Despite significant focus and progress over the past few years, the GAO has designated hu-
          man capital as a “high risk” government-wide concern and reported that ample opportunities exist for agencies to improve.
          The GAO also reported that a government-wide framework to advance human capital reform is needed.19

          Like many other Federal Government agencies, the IRS has experienced workforce challenges over the past few years,
          including recruiting, training, and retaining employees, as well as an increasing number of employees who are eligible to
          retire. In addition, the IRS, along with other Federal Government agencies, is slowly moving toward changing pay, clas-
          sification, and performance management systems to transition to a more market-based and performance-oriented culture.
          While the IRS has made some progress, the strategic management of human capital remains one of the IRS’s major
          management challenge areas.

          TIGTA has conducted audits in areas such as recruiting, workforce planning, training delivery, and employee turnover. As
          a result of these audits, we have made a significant number of recommendations for improvement. For example, in a report
          issued in Fiscal Year 2008, we stated that the IRS needed to complete significant work to ensure that future leaders are
          identified and developed, as the IRS might lose a large number of its leaders within the next several years.20 In addition, we
          reported that while the IRS has established some key parts of a workforce planning foundation, it has not made substantial
          progress in developing and implementing an agency-wide process that will consistently and accurately project future hu-
          man resource needs. If accurate projections are not made, the IRS might struggle to fill unforeseen vacancies, which could
          affect overall service to taxpayers.21

          Erroneous and Improper Payments
          As defined by the Improper Payments Information Act of 2002,22 an improper payment is any payment that should not
          have been made or that was made in an incorrect amount (including overpayments and underpayments) under statutory,
          contractual, administrative, or other legally applicable requirements. It includes any payment to an ineligible recipient, any
          payment for an ineligible service, any duplicate payment, payments for services not received, and any payment that does
          not account for credit for applicable discounts. For the IRS, improper and erroneous payments generally involve improperly
          paid refunds, tax return filing fraud, or overpayments to vendors or contractors.

          Some tax credits, such as the Earned Income Tax Credit (EITC) and the Education Credit, provide opportunities for
          abuse in income tax claims. The IRS estimated that between $9.6 billion and $11.4 billion (23 percent to 28 percent) of
          the $41.3 billion in EITC claims paid for tax year 2004 returns should not have been paid.23 While the EITC program has

              19	 U.S. Government Accountability Office, GAO-07-310, High Risk Series: An Update (2007).
              20	 Treasury Inspector General for Tax Administration, Ref. No. 2008-10-132, Progress Has Been Made, but Important Work Must Be
                  Completed to Ensure Timely Identification of Future Leaders (2008).
              21	 An IRS contractor reported a five-year staffing forecast in March 2006 for Fiscal Years 2006 through 2010. The number of employees
                  projected to retire is expected to steadily increase through 2010, from 5.1 percent (about 4,900 employees) to 8.3 percent (about 8,300
                  employees).
              22	 Pub. L. No. 107-300, 116 Stat. 2350.
              23	 Estimates for tax year 2004 include claims paid in error and a factor for erroneous payments identified and recovered by the IRS, as well
                  as a factor for the impact of the tax year 2002 tax law changes.




Appendix C: Management Challenges and Responses                                                                                                    254
                                                                                                    Part IV — Other Accompanying Information




                                                                   Page 7


been successful in helping millions of taxpayers, the IRS still receives a substantial number of excessive or incorrect EITC
claims. Because of the potential EITC compliance problems, Congress passed legislation requiring taxpayers who had had
the EITC denied during examinations to prove eligibility before receiving the EITC again. In response to this legislation,
the IRS initiated the EITC Recertification Program, which has been successful in helping to reduce the high level of fraud
and abuse in the EITC program. However, since Calendar Year 2005, the IRS has been limiting the number of recertifica-
tion examinations, which reduces the effectiveness of the program.

The IRS’s Criminal Investigation Division is responsible for detecting and combating tax refund fraud through its
Questionable Refund Program, which was established to address the serious problem of refund fraud now estimated to
exceed $1 billion annually. Although the IRS has taken actions to improve the Questionable Refund Program, we con-
tinue to have concerns with the growth of fraudulent refunds. The exponential growth in fraud in Processing Year 2007
presented a challenge for the IRS, which did not have the resources to handle the volume.24 If this trend continues over the
next few years, the IRS might issue an even greater number of fraudulent refunds, possibly resulting in a significant annual
revenue loss to the Federal Government. As a result, additional burden is placed on honest taxpayers whose tax dollars are
being used to support this criminal activity.25

Complexity of the Tax Law
Simplicity, transparency, and ease of administration are interrelated and desirable features of a tax system. Over the years,
the Federal tax system, especially the Federal income tax, has become more complex, less transparent, and subject to
frequent revision. Tax complexity and frequent revisions to the Internal Revenue Code make it more difficult and costly for
taxpayers who want to comply with the system’s requirements and for the IRS to explain and enforce the tax laws.

Tax law complexity continues to challenge the IRS and taxpayers. The IRS Office of Chief Counsel assists in tax adminis-
tration by providing correct and impartial interpretation of the revenue laws. While providing tax advice to IRS functional
employees auditing tax returns and collecting tax liabilities, Chief Counsel also issued 391 regulations, revenue rulings,
revenue procedures, and notices during Fiscal Year 2007 through its Published Guidance Program, which is the IRS’s
primary means of providing tax guidance to the general public.26 Throughout the year, Chief Counsel receives significantly
more requests to clarify tax laws than available resources permit and must prioritize suggestions in the development of its
annual business plan for published guidance.

Tax law complexity results in higher costs for both tax administration and tax compliance. For example, in Calendar Year
2006, computer checks identified about 226,000 discrepancies between the Alternative Minimum Tax (AMT) figures
reported by the taxpayers and the amounts computed by the IRS.27 These complexities hamper IRS efforts to assist
taxpayers. Without meaningful simplification, the complexities of the current tax code will likely continue to contribute to
the Tax Gap.

    24	 TIGTA estimated that the number of potentially fraudulent returns that would have been identified without dollar value and data-
        mining score restrictions rose by an alarming 70 percent between Processing Years 2006 and 2007. See Treasury Inspector General for
        Tax Administration, Ref. No. 2008-40-131, While Progress Has Been Made, Limits on the Number of Examinations Reduce the Effectiveness
        of the Earned Income Tax Credit Recertification Program (2008).
    25	 Treasury Inspector General for Tax Administration, Ref. No. 2008-10-172, An Estimated $1.6 Billion in Fraudulent Refunds Was Issued
        During the 2006 and 2007 Filing Seasons (2008).
    26	 To help taxpayers understand and meet their tax responsibilities and help the IRS apply the tax laws correctly and uniformly, Chief
        Counsel’s Published Guidance Program provides interpretations of the tax code or new legislation that is formally available and legally
        relied upon by taxpayers, tax practitioners, and tax officials. The Published Guidance Program is coordinated with the Department of the
        Treasury Office of Tax Policy.
    27	 Treasury Inspector General for Tax Administration, Ref. No. 2008-40-146, Procedures Were Not Always Followed When Resolving
        Alternative Minimum Tax Discrepancies (2008).




255                                                                                 Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                                            Page 8



          Taxpayer Protection and Rights
          The IRS continues to dedicate significant resources and attention to implementing the taxpayer rights provisions of the
          IRS Restructuring and Reform Act of 1998 (RRA 98).28 Annual audit reports are mandated for the following taxpayer rights
          provisions:
              •	 Notice of Levy;

              •	 Restrictions on the Use of Enforcement Statistics to Evaluate Employees;

              •	 Fair Debt Collection Practices Act Violations;

              •	 Notice of Lien;

              •	 Seizures;

              •	 Illegal Protestor Designations;

              •	 Assessment Statute of Limitations;

              •	 Restrictions on Directly Contacting Taxpayers Instead of Authorized Representatives; and

              •	 Separated or Divorced Joint Filer Requests.

          In general, the IRS has improved its compliance with these statutory taxpayer rights provisions. The IRS has shown
          improvement over prior years when documenting that taxpayers were informed of their rights. The percentage of case files
          without documentation has steadily decreased over the last five years. However, there were still instances in which there
          was no documentation in the related case files to show that taxpayers were advised of their rights regarding assessment
          statute extensions,29 and the IRS did not always follow procedures for mailing notices to taxpayers or their representatives
          in Federal Tax Lien cases.

          Some IRS management information systems do not track cases that require mandatory annual audit coverage.30 Thus,
          neither TIGTA nor the IRS could evaluate the Service’s compliance with certain RRA 98 provisions.

          Processing Returns and Implementing Tax Law Changes
          Each filing season tests the IRS’s ability to implement tax law changes made by Congress. It is during the filing season that
          most individuals file their income tax returns and call the IRS with questions about specific tax laws or filing procedures.
          Correctly implementing tax law changes is a continuing challenge because the IRS must identify the tax law changes;
          revise the various tax forms, instructions, and publications; and reprogram the computer systems used for processing
          returns. Changes to the tax laws have a major effect on how the IRS conducts its activities, what resources are required, and
          how much progress can be made on strategic goals. Congress frequently changes the tax laws. Thus, some level of change
          is a normal part of the IRS environment. However, certain types of changes can significantly affect the IRS in terms of the
          quality and effectiveness of its service and how taxpayers perceive the Service.

          For example, the 2008 Filing Season was successful despite the challenges of 1) late enactment of legislation to extend
          relief from the AMT, and 2) the need to provide taxpayers with Economic Stimulus Payments. Late enactment of AMT


              28	 Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22
                  U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
              29	 Treasury Inspector General for Tax Administration, Ref. No. 2008-40-127, Fiscal Year 2008 Statutory Audit of Compliance With Notifying
                  Taxpayers of Their Rights When Requested to Extend the Assessment Statute (2008).
              30	 Treasury Inspector General for Tax Administration, Ref. No. 2008-40-099, Fiscal Year 2008 Statutory Review of Disclosure of Collection
                  Activity With Respect to Joint Returns (2008) and Treasury Inspector General for Tax Administration, Ref. No. 2008-40-090, Fiscal Year
                  2008 Statutory Review of Restrictions on Directly Contacting Taxpayers (2008).




Appendix C: Management Challenges and Responses                                                                                                 256
                                                                                                    Part IV — Other Accompanying Information




                                                                   Page 9


relief required the IRS to delay the processing of tax returns with certain forms until February 11, 2008, in order to update
and test its systems for the needed changes to these forms without major disruptions to other return processing operations.
For the Economic Stimulus Payments, which Congress expected to be in the hands of individuals as soon as possible, the
IRS did not have the option to delay implementation until after the 2008 Filing Season. To receive an Economic Stimulus
Payment, individuals were required to file a Tax Year 2007 return. The IRS estimated that potentially 20 million individuals
will file tax returns that they normally would not have filed.31

The Economic Stimulus Payments will also affect the 2009 Filing Season because the payments are a credit for Tax Year
2008, even though the payments were estimated using information reported on Tax Year 2007 returns. Processes will need
to be established for the 2009 Filing Season, because individuals who qualify for a larger payment as a result of changes be-
tween their Tax Year 2007 and Tax Year 2008 returns will receive the additional amount of payment. In addition, potential
changes to the AMT and the possibility of another Economic Stimulus Payment might pose significant challenges for the
IRS in the 2009 Filing Season.

Improving Performance and Financial Data for Program and Budget Decisions
While the IRS has made some progress in using performance and financial data for program and budget decisions, this
area is still a major challenge. The IRS lacks a comprehensive, integrated system that provides accurate, relevant, and timely
financial and operating data that describes performance measures, productivity, and associated costs of IRS programs. In
addition, the IRS cannot produce timely, accurate, and useful information needed for day-to-day decisions, which hinders
its ability to address financial management and operational issues to fulfill its responsibilities. TIGTA has continued to
report that various IRS management information systems are insufficient to enable IRS management to measure costs,
determine if performance goals have been achieved, or monitor progress in achieving program goals. For example, our
review of performance-based acquisition (PBA)32 found that lack of internal expertise within program offices on how to
implement PBA as an acquisition strategy, insufficient time to complete procurements, lack of a vigorous planning phase,
and the inability by program managers to define requirements contributed to underuse of PBA. As a result, the IRS has
not achieved the desired PBA usage rates and might not have made the best use of its resources when acquiring goods and
services.

PBA is a method for structuring all aspects of an acquisition around the need and outcome desired as opposed to the
method by which the work should be done. For example, a need is identified for janitorial services with the desired
outcome of clean office spaces. However, the Federal Government does not detail how the janitorial work should be done.
This type of procurement shifts much of the risk from the Federal Government to industry because contractors become
responsible for achieving the objectives in the work statement using their own best practices. It also allows the Federal
Government to focus its monitoring efforts on the desired outcome rather than on how the contractor performs the work
resulting in significantly fewer contract administration resources. When used properly, PBA increases performance, innova-
tion, and competition among interested vendors and results in better value for the Federal Government.




    31	 Treasury Inspector General for Tax Administration, Ref. No. 2008-40-149, Evaluation of Planning Efforts for the Issuance of Economic
        Stimulus Payments (2008).
    32	 Treasury Inspector General for Tax Administration, Ref. No. 2008-10-098, Due to the Lack of Experienced Users, the Benefits of
        Performance-Based Acquisition Are Not Being Fully Realized (2008).




257                                                                                 Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                                   Page 10



          Conclusion
          These are the 10 major management challenges for the IRS in Fiscal Year 2009. TIGTA’s FY 2009 Annual Audit Plan
          contains our planned audits and is organized by these challenges. If you have questions or wish to discuss TIGTA’s views
          on the challenges in greater detail, please contact me at (202) 622-6500.

          cc:	     The Deputy Secretary
          	        Assistant Secretary for Management and Chief Financial Officer
          	        Commissioner of Internal Revenue




Appendix C: Management Challenges and Responses                                                                               258
                                                                                       Part IV — Other Accompanying Information




                                             DEPAR TMENT OF THE TREASURY
                                                        WAS H INGTO N , D . C .


S E C R E TA R Y O F T H E T R E A S U R Y


                                                        November 17, 2008

                MEMORANDUM FOR	 J. RUSSELL GEORGE
                	               TREASURY INSPECTOR GENERAL
                	               FOR TAX ADMINISTRATION

                FROM: 	                      Henry M. Paulson, Jr.


                SUBJECT: 	                   Response to Management and Performance Challenges Facing
                	                            the Internal Revenue Service

                I am responding to your October 15, 2008, memorandum describing the most serious management
                and performance challenges facing the Internal Revenue Service (IRS). I appreciate your assess-
                ment of these challenges, and your acknowledgment of the progress made in addressing them.

                The IRS has taken, and will continue to take, many actions to address its performance and
                management challenges. However, we note that many of these challenges represent inherent
                risks associated with the IRS mission and the environment in which the IRS operates, rather than
                deficiencies that can be eliminated. The IRS is taking the appropriate actions to mitigate these
                challenges to the extent practicable, and has made substantial progress thus far.

                This memorandum provides information on the actions completed by the IRS in fiscal year (FY)
                2008 and the actions planned for FY 2009 to address the ten management and performance
                challenges.

                Challenge 1 - Modernization
                In FY 2008, the IRS continued to make substantial progress in meeting targets for the Business
                Systems Modernization (BSM) projects, delivering 92% of the system releases within 10% of the
                estimated cost and schedule. Notable accomplishments in key modernization projects included:
                1) a Customer Account Data Engine (CADE) release that processed returns and issued refunds
                on average five days faster than the legacy system, while expediting the processing of Economic
                Stimulus Package payments to taxpayers ahead of schedule; 2) new Modernized e-File (MeF)
                system capabilities for business taxpayers, which enabled the IRS to process 50% more elec-
                tronic returns than in FY 2007, including a new electronic Form 1120F for foreign corporations




                259                                                          Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 2


          and the new Form 990N, the electronic “postcard” for small, tax-exempt organizations; and 3)
          the implementation of an online address change capability for CADE accounts via the Accounts
          Management Services system.

          The IRS also implemented several initiatives that continue to improve the information
          technology (IT) infrastructure. The IRS continued to use a consistent standardized governance
          approach that maps IT projects to a single framework and applies best practices across the entire
          IT portfolio. In addition, the IRS implemented a repeatable process to assess the condition of IT
          development, maintenance, and services to better equip decision makers. The process examines
          the “health” of all IRS IT projects across the portfolio and alerts management if a project is
          facing unusual challenges that may influence a critical IRS function such as the filing season.

          In FY 2009, the IRS will continue to focus on modernization of the tax administration systems in
          manageable increments to provide additional benefits to taxpayers and maintain continuity of the
          program while mitigating risk through strict oversight.

          Challenge 2 - Security
          As part of its mission, the IRS is entrusted with sensitive information including personally identi-
          fiable information such as Social Security numbers (SSNs). Protecting this information is vital to
          maintaining the public trust that encourages voluntary compliance with the tax law and enables
          the IRS to conduct business effectively. In FY 2008, the IRS focused on establishing enterprise
          resilience for personal, physical, and IT security as well as disaster recovery capability of the tax
          administration systems.

          Accomplishments in FY 2008 include the establishment of an Office of Online Fraud Detection
          and Prevention to address increasing and evolving online threats affecting the IRS and taxpayers;
          continued risk assessments of business processes to address identity protection; and analysis
          of the use of SSNs for reduction and elimination where possible. The IRS also implemented a
          process to encrypt removable storage devices; installed a program that automatically encrypts
          all files written on CD-DVD media; and conducted Operation R.E.D., an IRS-wide event to
          remind IRS employees of existing policies and procedures regarding safe-guarding of sensitive
          or personally identifiable information.

          Security of infrastructure and IT systems continues to be a top priority for the IRS. In FY 2008,
          the IRS revised its corrective action plan to address all components of the Information Security
          material weakness, providing a comprehensive approach to addressing the issues. The actions
          address IT security training, systems auditing, access controls, systems security configuration
          control, and IT systems disaster recovery. The Certification and Accreditation and Security




Appendix C: Management Challenges and Responses                                                          260
                                                                      Part IV — Other Accompanying Information




                                               Page 3


Training components of the plan are closed pending Government Accountability Office (GAO)
and Treasury Inspector General for Tax Administration (TIGTA) validation. As TIGTA indicated
in its FY 2008 review of IRS compliance with the Federal Information Security Management Act
(FISMA), the IRS has made steady progress in complying with FISMA requirements and contin-
ues to place a high priority on efforts to improve the security program.

Planned actions for FY 2009 include enhancements to the project lifecycle process to ensure
security is part of project development, deployment of an automated means of identifying and
accounting for IT assets connected to the network, and upgrading core security infrastructure
components. During FY 2009, the IRS expects to develop the methodology and framework to
close the Disaster Recovery component of the Information Security material weakness. Ongoing
activities will take place to identify and assess new online computer fraud schemes.

Challenge 3 - Tax Compliance Initiatives
In FY 2008, the IRS expanded its research studies of filing, payment, and reporting compliance
to provide an overall picture of taxpayer compliance levels. The IRS has begun using a rolling
multi-year methodology to obtain more complete and timely data on individual tax filers and
continues to conduct other research studies to ensure compliance with the tax code like the on-
going Subchapter S Corporations study. The IRS will use the data from these studies and others
like them to continue to update the audit identification and selection tools and better leverage the
limited enforcement resources. Studies in subsequent years will also allow the IRS to combine
results to make annual updates to its voluntary compliance estimates.

GAO’s downgrade of the Tax Revenue and Refunds audit material weakness in the FY 2008
IRS Financial Statement Audit Report was attributable in part to the IRS establishment of a
governance body to improve collection efforts and the improved use of modeling to better target
collection efforts.

Individuals and Businesses
In FY 2008, the IRS collected over $2.7 trillion in revenue, including $56.4 billion through exami-
nation and collection enforcement activities. The IRS focused enforcement presence where it was
most needed on corrosive activities of certain types of corporations, high income taxpayers, and
other major violators of the tax code to improve efficiency and reduce the burden on compliant
taxpayers. The IRS increased analytics in critical programs such as Examination and Collection,
and improved the systemic workload identification and selection models to target high risk cases.
These actions resulted in increases in the total number of audits started and completed and in
closures for the Collection and Automated Underreporter programs. The IRS also continued




261                                                        Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                          Page 4


          reengineering the Examination and Collection processes to expand coverage, reduce processing
          time, and increase yield.

          As the flow of trade and capital moves more easily across borders, the global marketplace is
          developing at an ever increasing rate. With this continued growth, tax planning is increasingly
          focused on minimizing the worldwide effective tax rate. As a result, taxpayers often have an
          incentive to adopt structures or arrangements that maximize U.S. expenses or shift income abroad.
          While U.S. domestic law or treaty provisions clearly address many cross-border transactions, others
          involve emerging issues that may constitute unacceptable tax avoidance or evasion. Unless adequate
          compliance resources are provided to identify, develop, and pursue such issues where appropriate,
          international activities will pose increasingly serious risks to the U.S. tax base.

          Planned actions for FY 2009 include testing alternative methods of selection for offshore entities,
          testing new business rules for identifying and reporting noncompliance, introduction of a new
          Schedule M-3 to gather information on foreign controlled corporations, improved case selection
          for Examination and Automated Underreporter cases, and testing of additional soft notices to
          provide taxpayers with opportunities to self-correct income reporting errors.

          In addition, the FY 2009 IRS Budget Request includes a $51 million enforcement initiative to
          support and expand ongoing research studies of filing, payment, and reporting compliance to
          provide a comprehensive picture of the overall taxpayer compliance level. Research allows the
          IRS to better target specific areas of noncompliance, improve voluntary compliance, and allocate
          resources more effectively to reduce the tax gap.

          Tax-Exempt Organizations
          Maintaining a strong enforcement presence in the tax-exempt sector is particularly important
          because these entities can be misused by third parties to facilitate abusive transactions. The IRS
          expanded its enforcement presence in FY 2008, conducting reviews of executive compensation
          practices among tax-exempt organizations. The IRS developed new outreach tools, including web-
          based tools to help tax-exempt entities understand their federal tax requirements, and presentations
          for issuers and borrowers of tax-exempt bond proceeds to encourage improved compliance
          procedures after bond issuance.

          The IRS has controls in place that are intended to ensure the integrity of the closing process for tax-
          exempt bond examinations. For example, in FY 2008, the IRS conducted a comprehensive review
          of administrative procedures related to the tax-exempt bond examination and refund claim closing
          processes, which resulted in the issuance of a new revenue procedure and development of revised
          internal procedures to ensure managers approve closing letters and refund claims.




Appendix C: Management Challenges and Responses                                                            262
                                                                     Part IV — Other Accompanying Information




                                              Page 5


In addition, the IRS increased awareness of IRS Pension Plan Correction Programs via an
educational workshop marketed for small business practitioners and encouraged them to use
new, online IRS “Fix-It Guides” to help their clients find, fix, and avoid common retirement plan
mistakes.

In FY 2009, the IRS will continue to focus its efforts on tax shelter schemes and abusive
transactions. The IRS also will continue efforts to improve its understanding of compliance issues
in major segments of the exempt sector, including conducting a study of colleges and universities
focusing on unrelated business income, endowments, and executive compensation practices.

Challenge 4 - Providing Quality Taxpayer Service Operations
The IRS continued to make improvements in key areas involving services for taxpayers in
FY 2008, providing assistance to millions of taxpayers through toll-free call centers, the IRS.
gov website, and the 400 Taxpayer Assistance Centers (TACs). The number of partnerships with
community-based organizations assisting taxpayers with financial literacy, return preparation, and
tax return filing increased. At over 12,000 Volunteer Income Tax Assistance and Tax Counseling
for the Elderly sites, the IRS provided free tax assistance to the elderly, disabled, and limited
English proficient individuals, filing approximately 3.5 million returns on their behalf, a 34%
increase over FY 2007 and a 15% increase in outreach efforts.

To increase the number of eligible taxpayers opting to claim the Earned Income Tax Credit
(EITC), the IRS held the second EITC Awareness Day, during which the IRS, along with a cadre
of national partners, reached out to the underserved EITC-eligible population, especially those
with limited English proficiency.

Actions planned for FY 2009 include implementation of additional Taxpayer Assistance Blueprint
(TAB) service improvement initiatives, including recommendation of a set of TAB Measures to
serve as the basis for a taxpayer scorecard to measure service improvements; providing taxpayers
who did not receive an Economic Stimulus Payment or received less than the maximum amount
with information to claim the Recovery Rebate Credit; and completion of the TAC Evaluation
Model, the decision tool for determining changes in the TAC geographic footprint.

Challenge 5 - Human Capital
Similar to most other federal agencies, the IRS continues to face major workforce challenges such
as large numbers of retirements, competition with both the public and private sectors for critical
talent, and ensuring the workforce is prepared to carry out the IRS mission.




263                                                       Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 6


          Developing future leaders and ensuring adequate bench strength to lead the current organization
          are two tenets of the IRS succession planning strategy. In 2001, the IRS developed a Leadership
          Competency Model that enhanced the ability to analyze competency strengths and weaknesses
          for both individuals and across the Service. This model provided a foundation for the current
          Leadership Succession Review (LSR) process, designed to assist senior leadership in identifying
          qualified individuals to fill future leadership positions. In FY 2008, the IRS expanded the LSR
          process to include bargaining unit employees, allowing for a larger group of employees from
          which to identify individuals with the potential to become leaders. Individuals identified as ready
          for management in the next three to five years are encouraged to develop plans that include both
          training courses and detail opportunities to develop their skills.

          In FY 2008, the IRS initiated a leadership coaching pilot to serve and support the current cadre of
          managers. The pilot program’s success and the addition of external coaches validated the coach-
          ing concept, and the IRS plans to expand the program in the future. An analysis of the Employee
          Engagement Survey results for 2007 and 2008 indicates that coaching benefits both managers
          and employees and strengthens the workgroup.

          The IRS is developing and documenting a high-level leadership succession strategy that estab-
          lishes a process to assess the overall success of its leadership succession activities. The IRS also
          plans to improve the system in place to capture leadership succession data so the system can be
          used to quickly replace leaders when vacancies occur.

          Additionally, the IRS recently implemented an exit survey process to identify the reasons why
          employees leave the Service. The survey was sent to individuals who separated in the six months
          before its implementation, and a preliminary analysis has been conducted. Also in FY 2008, the
          IRS established a Corporate Incentive Strategy to ensure consistency across the bureau in the use
          of incentives for hiring, relocation, and retention. The IRS will review the effectiveness of these
          incentives annually.

          The IRS established a “Workforce of Tomorrow” task force to address recruitment and retention
          issues so the IRS has the necessary leadership and workforce to address the challenges of FY
          2009 and beyond. The task force will drive several key workforce priorities, including valuing
          and retaining people, planning a dynamic hiring strategy, attracting the best candidates both
          internally and externally, streamlining the hiring process at the IRS, developing future leaders,
          and enhancing the role of managers.




Appendix C: Management Challenges and Responses                                                          264
                                                                    Part IV — Other Accompanying Information




                                              Page 7


Challenge 6 - Erroneous and Improper Payments
In 2008, the IRS protected over $3.2 billion in revenue through enforcement efforts for the
Earned Income Tax Credit (EITC), which included the examination of over 500,000 returns
claiming the EITC, 375,000 document matching reviews, and 425,000 math error corrections.
The IRS reduced the number of erroneous and improper EITC payments by developing and
implementing business process improvements and business enhancements that resulted from
the ongoing analysis of the tax year 2001 National Research Program (NRP) study. The
IRS also made a number of significant improvements to the EITC program by improving
accuracy, automating release of suspended refunds where the EITC was in question, improving
communications with taxpayers, and enhancing the training provided to tax examiners working
on EITC cases. The IRS focused on EITC cases that presented the highest compliance risk,
conducted a significant number of recertification audits, and provided necessary coverage of
other components of EITC error.

In addition, the IRS Questionable Refund Program identified more than 332,000 potentially
fraudulent returns claiming over $1.6 billion in refunds and stopped over $41 billion in fraudulent
claims using the Electronic Fraud Detection System. Process improvements and automation
improved the efficiency in verification routines by 16%.

In FY 2009, the IRS will continue to focus on reducing the number of erroneous and improper
payments by analyzing the results from the first year of the multi-year NRP study begun in
FY 2008. This study will provide an annual update of the EITC error rate and allow the IRS to
more quickly explore research-based, cost-effective approaches to improve EITC participation
and minimize errors more quickly than possible using the older data. The IRS will also complete
activities associated with the fourth year of the EITC Return Preparer Study and analyze short-
term outcomes, including penalties assessed, accuracy of returns prepared, and other outcomes
from due diligence visits and education/compliance notices and phone calls to first-time EITC
preparers.

Challenge 7 - Complexity of the Tax Law
To ease the burden associated with the complexity of the voluntary tax system and recent
revisions to the law, the IRS continued to improve services through automation, outreach,
and education of taxpayers. In FY 2008, the IRS.gov website had more than 2.1 billion hits as
taxpayers accessed the site in record numbers to get the most up-to-date information. To assist
individual taxpayers, the IRS designed a “1040 Central” page which contains news releases,
fact sheets, and tax tips, all designed to keep taxpayers informed of changes as they happen. The
IRS also developed a three-point plan that expanded EITC outreach initiatives, identified ways




265                                                       Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 8


          to simplify and improve the EITC forms, and outlined efforts to improve IRS.gov, making it
          more user friendly for EITC filers. To address potential compliance issues for small businesses
          and individuals with limited English proficiency, chapters in Publication 334, Tax Guide for
          Businesses, and Publication 17, Your Federal Income Tax, were translated into Spanish, and
          the IRS began to offer publications in more languages such as Chinese, Russian, Korean, and
          Vietnamese.

          The complexity of the tax law and resulting transactions created a need for specialized
          knowledge and expertise in certain areas. Taxpayers increasingly operate in a global
          environment. New business enterprises are rapidly developing that give rise to increasingly
          complex tax issues, often crossing international tax jurisdictions. To address these issues, in
          FY 2008, the IRS reorganized its international resources and programs into one organization to
          provide for comprehensive, IRS-wide approaches to analyzing the dynamics of globalization and
          the resulting international tax issues.

          In FY 2009, the IRS will continue to monitor proposed changes to the tax laws and prepare
          accordingly to ensure taxpayers and IRS employees have the necessary forms and information
          available for the filing season.

          Challenge 8 - Taxpayer Protection and Rights
          Taxpayer protection remains a high priority for the IRS. The IRS has expanded its taxpayer rights
          procedures, guidelines, and taxpayer notification processes to ensure compliance. In FY 2008,
          the IRS continued to monitor compliance with taxpayer rights provisions. Actions taken included
          quarterly managerial certifications and annual independent reviews of employee and manager
          files to ensure managers do not use enforcement statistics to evaluate employees and drive
          behavior in conflict with taxpayer rights. As TIGTA indicated in its reports, because of actions
          taken by the IRS, taxpayers are better informed of their rights during interviews than in the past,
          and employees are provided with sufficient guidance with respect to taxpayer rights.

          In FY 2008, the IRS completed a Federal Payment Levy Program (FPLP) research project to
          make sure levies processed against certain benefit programs do not adversely impact certain low-
          income taxpayers. Further examination of the results is expected to identify recommendations for
          program changes. The IRS also completed an IRS-wide Return Preparer Strategy plan to address
          paid preparer noncompliance and establish treatment alternatives consistent with those used to
          address certain other paid preparer behaviors.

          Actions planned for FY 2009 include establishment of an oversight review and approval process
          for preparer penalties to ensure uniform and consistent application of penalties, and development




Appendix C: Management Challenges and Responses                                                        266
                                                                       Part IV — Other Accompanying Information




                                               Page 9


of metrics for the IRS paid preparer program. Efforts to remove or redact SSNs from outgoing
correspondence will continue, as will efforts to identify reliable indicators of taxpayer ability to
pay for the FPLP.

Challenge 9 - Processing Returns and Implementing Tax Law Changes
The IRS adeptly ensures that its forms and publications accurately reflect legislative changes,
and quickly modifies the tax processing systems upon enactment of new tax law provisions. In
February 2008, after the onset of the filing season, the President signed the Economic Stimulus
Act of 2008, authorizing economic stimulus payments to over 130 million American households.
Before the bill’s enactment, the IRS had plans in place to identify taxpayers who qualified for the
payment, to send notices to over 130 million taxpayers to alert them of their potential eligibility
for the stimulus payments, and to generate publicity to ensure information on the stimulus pay-
ments reached the widest possible audience. Because the Economic Stimulus Act became law
after the onset of the filing season, its implementation had a major impact on the IRS, requiring
quick development of new forms for those taxpayers who normally would not have to file a
return to use to claim the stimulus payments, the creation of new publications, and the re-pro-
gramming of the 38 major filing systems. In addition, the IRS launched an extensive communica-
tion strategy that focused on educating the public by maximizing media reach and publicizing the
Economic Stimulus Payments. This comprehensive approach to administering the refund allowed
the IRS to successfully meet taxpayer and stakeholder expectations for these important tax law
changes, all while delivering a successful filing season.

The IRS.gov website allows taxpayers to obtain real-time information on tax law changes. In FY
2008, taxpayers used the site to find out about changes to the alternative minimum tax, used the
stimulus calculator to find out the amount of their payment, check on the status of the payment,
and get answers to their questions. More than 39 million taxpayers used the traditional “Where’s
My Refund?” calculator to check on the status of their tax refund, including 317,000 taxpayers
who used the new Spanish version, and an additional 38.7 million taxpayers used the “Where’s
My Stimulus Payment?” to check on the status of their payment.

The IRS will continue to plan and prepare for the 2009 filing season, continuing the focus on
electronic filing, particularly for businesses. The rigorous planning and oversight the taxpaying
public has come to expect will ensure that new and carry-over legislative provisions are accu-
rately reflected in filing season forms, publications, and on IRS.gov.




267                                                         Appendix C: Management Challenges and Responses
Fiscal Year 2008 Performance and Accountability Report



                                                         Page 10


          Challenge 10 - Improving Performance and Financial Data for Program and Budget
          Decisions
          The IRS has a detailed allocation methodology to provide full cost accounting to the five
          operating business units, and three complete years of fully allocated cost data in the Integrated
          Financial System (IFS). The IFS cost module produced the FY 2008 Statement of Net Cost. Also,
          the IRS developed a full cost return on investment (ROI) calculation for the EITC program, a key
          factor that allowed the IRS to downgrade the Federal Managers’ Financial Integrity Act material
          weakness for the EITC program in FY 2008. Additionally, in the FY 2008 Financial Statement
          Audit Report, GAO downgraded the Tax Revenue and Refunds audit material weakness because
          of the significant progress the IRS made in FY 2008. Specifically, GAO indicated the IRS made
          substantial cost accounting improvements, including calculation of a full-cost ROI for EITC,
          improved use of ROI in budget initiatives, establishment of governance bodies to improve
          collection efforts, and improved use of modeling to better target collection efforts.

          To more fully realize the benefits of Performance Based Acquisitions, the IRS implemented
          requirements to improve training and an on-going process to develop measures for use in
          tracking IRS progress in reaching the goals mandated by the Office of Management and
          Budget. The IRS created a training curriculum offering courses designed to train personnel in
          performance based methods, choosing the most appropriate procurement vehicle, and balancing
          procurement decisions against requirements for all IRS investments.

          In FY 2009, the IRS will continue to use its managerial cost accounting system for cost analysis
          and cost estimations.

          We look forward to working with you to further address these challenges.

          cc: 	   The Deputy Secretary
          	       Assistant Secretary for Management and Chief Financial Officer
          	       Commissioner of Internal Revenue	




Appendix C: Management Challenges and Responses                                                       268
                                                                                       Part IV — Other Accompanying Information



Appe n dix D: Mate r ial Weakn esses,
Au dit Follow-u p, an d Fi nancial Syste ms


  This section consists of detailed descriptions of the Department’s material weakness inventory, including a summary
  of actions taken and planned to resolve the weaknesses; tracking and follow-up activities related to the Department’s
  GAO, OIG, and TIGTA audit inventory; an analysis of potential monetary benefits arising from audits performed by
  the Department’s Inspectors General; and an update on the Department’s financial systems framework.




Treasury’s Material Weaknesses
Management may declare audit findings or internal situations as a material weakness whenever a condition exists that may
jeopardize the Treasury mission or continued operations. Material weaknesses are required in these instances by the Federal
Managers’ Financial Integrity Act of 1982 (FMFIA) and the Federal Financial Management Improvement Act of 1996
(FFMIA).

Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
The FMFIA requires agencies to establish and maintain internal control. The Secretary must annually evaluate and report
on the controls (Section 2) and financial systems (Section 4) that protect the integrity of federal programs. The require-
ments of the FMFIA serve as an umbrella under which other reviews, evaluations, and audits should be coordinated and
considered to support management’s assertion about the effectiveness of internal control over operations, financial report-
ing, and compliance with laws and regulations. During fiscal year 2008, Treasury closed two material weaknesses: Treasury
Departmental Offices Lack of Compliance with the FISMA, and IRS Overclaims in the Earned Income Tax Credit.

As of September 30, 2008, Treasury has four remaining material weaknesses under Section 2 of the FMFIA, summarized
as follows:

 Summary of FMFIA and FFMIA Material Weaknesses        Section 2   Section 4   Total
                 Balance at the Beginning of FY 2008      6           0         6
                Closures/Downgrades during FY 2008        2           0         2
                         Reassessed during FY 2008        0           0         0
                   New MW declared during FY 2008         0           0         0
                       Balance at the End of FY 2008      4           0         4




 269                                               Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems
Fiscal Year 2008 Performance and Accountability Report




          Below are detailed descriptions of Treasury’s four material weaknesses:

           Material Weakness Description
           Internal Revenue Service - Improve Modernization Management Controls and Processes
            The IRS needs to improve its Business Systems Modernization program. Key elements:
             •	   Assess the recommendations from the Special Studies and Reviews of the Business Modernization program and projects
             •	   Implement and institutionalize procedures for validating contractor-developed costs and schedules
             •	   Establish effective contract management practices
             •	   Complete a human capital strategy
             •	   Improve configuration management practices
                                         Actions Completed                                               What Remains to be Done
             ✓✓ Added expertise in industry-best practice experience               ❍❍ Allow assessment time to observe long-term effect of actions
             ✓✓ Enhanced capabilities in critical management process areas            completed
             ✓✓ Completed Project Release Cost/Schedule milestones                 ❍❍ Targeted Downgrade/Closure: fiscal year 2011
                  within acceptable threshold levels


           Material Weakness Description
           Internal Revenue Service - Computer Security
           The IRS has various computer security controls that need improvement. Key elements:
            •	   Adequately restrict electronic access to and within computer network operational components
            •	   Adequately ensure that access to key computer application and systems is limited to authorized persons for authorized purposes
            •	   Adequately configure system software to ensure the security and integrity of system programs, files, and data
            •	   Appropriately delineate security roles and responsibilities within functional business operating and program units, as required by
                 the Federal Information Security Management Act (FISMA)
            •	   Appropriately segregate system administration and security administration responsibilities
            •	   Sufficiently plan or test the activities required to restore certain critical business systems where unexpected events occur
            •	   Effectively monitor key networks and systems to identify unauthorized activities and inappropriate system configurations
            •	   Provide sufficient technical, security-related training to key personnel
            •	   Certify and accredit 90% of all systems
                                         Actions Completed                                               What Remains to be Done
            ✓✓ Completed technical security related training to key                ❍❍ Restrict electronic access to and at the operating system level
                  personnel                                                           of network operational components
            ✓✓ Completed certification and accreditation area metrics              ❍❍ Control access to systems software and applications
            ✓✓ Conducted compliance assessment to revalidate security roles        ❍❍ Implement configuration management and change control to
                  and responsibilities                                                safeguard the security and integrity of system programs, files,
            ✓✓ Established an Authoritative Asset Inventory                           and data
            ✓✓ Certified and accredited 100% of all systems as of fiscal year      ❍❍ Monitor user activity on network operating devices, operating
                  2008                                                                systems, and applications
                                                                                   ❍❍ Targeted Downgrade/Closure: fiscal year 2012




Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems                                                                        270
                                                                                                Part IV — Other Accompanying Information




Material Weakness Description
Internal Revenue Service - Accounting for Revenue
The IRS needs to have detail data to support custodial financial reporting for revenue. Key elements:
 •	 Inability to provide detailed support for large types of revenue for employment and excise taxes
 •	 Lack of effective custodial supporting systems/subsidiary detail
 •	 Subsidiary ledger does not track and report one Trust Fund Recovery Penalty (TFRP) balance
 •	 Untimely posting of TFRP assessments and untimely review of TFRP accounts
 •	 Lack of a single, integrated general ledger to account for tax collection activities and the costs of conducting those activities
 •	 Inability to generate and report reliable cost-based performance data for collection activities to make informed resource alloca-
    tion decisions
 •	 IRS’s general ledger for its custodial activities does not use the standard federal accounting classification structure
                           Actions Completed                                                 What Remains to be Done
 ✓✓ Subsidiary payment systems placed into production                   ❍❍ Completion of CDDB Releases to provide a single, inte-
 ✓✓ Custodial Detail Database (CDDB) master files placed into              grated subsidiary ledger using standard federal accounting
    production                                                             classification structure
 ✓✓ Completed Project Charter, IRS Project Management                   ❍❍ Targeted Downgrade/Closure: fiscal year 2010
    Plan, and tailoring plan for Redesign Revenue Accounting
    Control System (RRACS)
 ✓✓ Developed a cost accounting policy that provides guidance
    on managerial cost concepts and established an Office of
    Cost Accounting to implement the policy


Material Weakness Description
Financial Management Service - Consolidated Government-wide Financial Statements
The government does not have adequate systems, controls, and procedures to properly prepare the Consolidated Government-wide
Financial Statements. Key elements:
 •	 The government lacks a process to obtain information to effectively reconcile the reported excess of revenue over net costs with
      the budget surplus
 •	 Weaknesses in financial reporting procedures in internal control over the process for preparing the Consolidated Financial
      Statements
                           Actions Completed                                                What Remains to be Done
 ✓✓ Partially reconciled fiscal year 2007 operating revenues with      ❍❍ Complete reconciliation of operating revenues to budget
    budget receipts                                                       receipts
 ✓✓ Developed a model to provide analysis of unreconciled trans-       ❍❍ Complete reciprocal category for the Treasury General Fund
    actions that affect the change in net position                     ❍❍ Implement changes identified by the Fiscal Assistant
 ✓✓ Accounted for intra-governmental differences through for-             Secretary as a result of their review of the Reporting Entity
    mal consolidating and elimination accounting entries using            definitions per the Financial Accounting Standards Advisory
    all reciprocal fund categories including the General Fund             Board (FASAB) criteria
 ✓✓ Federal agencies submit complete closing packages to GAO           ❍❍ Establish traceability from agency footnotes to the
                                                                          Consolidated Financial Statements (CFS) for completeness
                                                                       ❍❍ Include all disclosures as appropriate
                                                                       ❍❍ Include all loss contingencies as appropriate
                                                                       ❍❍ Targeted Downgrade/Closure: fiscal year 2011




271                                                  Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems
Fiscal Year 2008 Performance and Accountability Report




          Audit Follow-up Activities
          During fiscal year 2008, Treasury placed renewed emphasis in both the general administration of internal control is-
          sues throughout the Department and the timely resolution of findings and recommendations identified by the Office
          of the Inspector General (OIG), the Treasury Inspector General for Tax Administration (TIGTA), the Government
          Accountability Office, and external auditors. During the year, Treasury continued to implement enhancements to the
          tracking system called the “Joint Audit Management Enterprise System” ( JAMES). JAMES is a Department-wide, inter-
          active, web-based system accessible to the OIG, TIGTA, bureau management, Departmental management, and others. The
          system tracks information on audit reports from issuance through completion of all corrective actions required to address
          findings and recommendations contained in an audit report.

          Potential Monetary Benefits
          The Inspector General Act Amendments of 1988, Public Law 101-504, require that the Inspectors General and the
          Secretaries of Executive Agencies and Departments submit semiannual reports to the Congress on actions taken on audit
          reports issued that identify potential monetary benefits. The Department consolidates and analyzes all relevant information
          for inclusion in this report. The information contained in this section represents a consolidation of information provided
          separately by the OIG, TIGTA, and Department management.

          In the course of their audits, the Inspectors General periodically identify questioned costs, make recommendations that
          funds be put to better use, and identify measures that demonstrate the value of audit recommendations to tax administra-
          tion and business operations. “Questioned costs” include:
              •	 a cost that is questioned because of an alleged violation of a provision of a law, regulation, contract, or other require-
                 ment governing the expenditure of funds;
              •	 a finding, at the time of the audit, that such costs are not supported by adequate documentation (i.e., an unsup-
                 ported cost); or
              •	 a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable.

          The Department regularly reviews progress made by the bureaus in realizing potential monetary benefits identified in audit
          reports, and coordinates with the auditors as necessary to ensure the consistency and integrity of information on monetary
          benefit recommendations being tracked.

          The statistical data in the following summary table and charts represent audit report activity for the period from
          October 1, 2007, through September 30, 2008. The data reflect information on reports that identified potential monetary
          benefits issued by the OIG and TIGTA.




Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems                                                             272
                                                                                                                         Part IV — Other Accompanying Information




    Audit Report Activity With Potential Monetary Benefits For Which Management Has Identified Corrective Actions (OIG and TIGTA)
                                             October 1, 2007 through September 30, 2008
                                                                          (Dollars in Millions)
                                                    Disallowed Costs           Better Used Funds            Revenue Enhancements                          Totals
                                                   Reports      Dollars        Reports       Dollars         Reports        Dollars           Report Total*       Total Dollars

 Beginning Balance                                    12          $36.0           7               $9.7         12             $698.3               29                      $744.0

 New Reports                                          4               .2          4            350.3            7              196.1               15                       546.6

 Total                                               16             36.2         11            360.0           19              894.4               44                      1,290.6

 Reports Closed                                       5              1.1          7            339.1            9              141.2               21                       481.4

    a. Realized or Actual                             3              1.0          5                   5.7       6                  46.4            14                        53.1

    b. Unrealized - Written off                       3               .1          3           333.4     1
                                                                                                                4                 94.82
                                                                                                                                                   11                       428.3
 Ending Balance                                      11           $35.1           5            $20.9           10             $753.2               23                      $809.2

 * Reports column may not add due to inclusion of reports in multiple categories.
 1 This category includes one report, with $3.28 million written off, for which IRS management did not concur with TIGTA’s projected benefits; and one report,
    with $330 million written off, for which IRS management did not agree with TIGTA’s recommended corrective action.
 2 This category includes two reports, with $89.57 million written off, for which TIGTA does not agree with the IRS that the benefits have not been realized; and
    two reports, with $5.27 million written off, for which IRS management did not concur with TIGTA’s projected benefits.


The following table provides a snapshot of OIG and TIGTA audit reports with significant recommendations reported
in previous semiannual reports for which corrective actions had not been completed as of September 30, 2007, and
September 30, 2008, respectively. There were no “Undecided Audit Recommendations” during the same periods.


 Significant Unimplemented Recommendations
                                                                                          9/30/2007                                              9/30/2008
                                                                                 OIG                        TIGTA                     OIG                         TIGTA

                                                                            No. of Reports              No. of Reports         No. of Reports                 No. of Reports
 Unimplemented                                                                    14                         39                           6                           40



The following table presents a summary of TIGTA and OIG audit reports that were open for more than a year with
potential monetary benefits at the end of PAR Report Year.


 Number of Reports with Potential Monetary Benefits Open for More than One Year

                                                  PAR Report Year                            FY 2006                       FY 2007                            FY 2008
                                        No. of Reports                                         15                             10                                 12
                TIGTA
                                        $ Projected Benefits                           $13,097.6 million                 $66.5 million                   $661.5 million
                                        No. of Reports                                            0                           1                                   1
                  OIG
                                        $ Projected Benefits                              $0 million                     $29.4 million                   $29.4 million




273                                                            Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems
Fiscal Year 2008 Performance and Accountability Report




          The following tables present a summary of TIGTA and OIG audit reports on which management decisions were made on
          or before September 30, 2007, but the final actions have not been taken as of September 30, 2008.

                    Details of the Audit Reports with Potential Monetary Benefits on Which Management Decisions Were Made On or Before
                                     September 30, 2007, But Final Actions Have Not Been Taken as of September 30, 2008
                                                                             (Dollars In Thousands)
                                                                                                        Funds Put   Revenue
                       Report     Report                                                   Disallowed   to Better   Enhance-                Due Date/Reason
           Bureau      Number     Issue Date    Brief Description                          Costs        Use         ment        Total       for Delay
           IRS         2004-      8/26/2004     The IRS should ensure the Storage                          200.0                    200.0   Due 12/31/2010
                       20-142                   Strategy Study addresses the data
                                                storage capacity deficiency and
                                                recommends a cost-effective virtual
                                                tape system solution to reduce
                                                maintenance and tape shipping costs.
           2004        1                                                                                    200.0                   200.0


                    Details of the Audit Reports with Potential Monetary Benefits on Which Management Decisions Were Made On or Before
                                September 30, 2007, But Final Actions Have Not Been Taken as of September 30, 2008 (Continued)
                                                                             (Dollars In Thousands)
                                                                                                        Funds Put   Revenue
                       Report      Report                                                  Disallowed   to Better   Enhance-                Due Date/Reason
           Bureau      Number      Issue Date    Brief Description                         Costs        Use         ment        Total       for Delay
           IRS         2005-30-    12/2/2005     Consider requiring the use of a                                       135.0        135.0   Delayed to
                       013                       standardized tool, such as Decision                                                        12/15/2008.
                                                 Point, or analysis tools in the offer                                                      Additional time
                                                 evaluation process.                                                                        is needed to
                                                                                                                                            complete the pilot
                                                                                                                                            and evaluate the
                                                                                                                                            results.
           FY 2005     1                                                                                               135.0        135.0


                    Details of the Audit Reports with Potential Monetary Benefits on Which Management Decisions Were Made On or Before
                                September 30, 2007, But Final Actions Have Not Been Taken as of September 30, 2008 (Continued)
                                                                             (Dollars In Thousands)
                                                                                                        Funds Put   Revenue
                       Report      Report                                                  Disallowed   to Better   Enhance-                Due Date/Reason
           Bureau      Numbers     Issue Date    Brief Description                         Costs        Use         ment        Total       for Delay
           BEP         OIG-06-     12/2/2005     Full cost of BEP’s Currency                                        29,.400.0    29,400.0   Delayed to
                       010                       Operations is not reflected in its                                                         10/1/2009
                                                 billing rates.

           IRS         2006-1c-    9/25/2006     The IRS Contracting Officer (CO)            32,373.7                            32,373.7   Due 8/15/2009
                       142                       should use the results of the
                                                 Defense Contract Auditing Agency
                                                 (DCAA) report to fulfill his/her duties
                                                 in awarding and administering
                                                 contracts.
           FY 2006     2                                                                     32,373.7               29,400.0     61,773.7
                                                                                                                                                   Continued




Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems                                                                                  274
                                                                                                          Part IV — Other Accompanying Information




         Details of the Audit Reports with Potential Monetary Benefits on Which Management Decisions Were Made On or Before
                     September 30, 2007, But Final Actions Have Not Been Taken as of September 30, 2008 (Continued)
                                                               (Dollars In Thousands)
                                                                                              Funds Put   Revenue
            Report     Report                                                  Disallowed     to Better   Enhance-                Due Date/Reason
Bureau      Numbers    Issue Date   Brief Description                          Costs          Use         ment        Total       for Delay
IRS         2007-1c-                The IRS CO will work with DCAA                   17.1                                         Due 12/15/2009
            013                     and the contractor to resolve the
                                    questioned costs applicable to IRS
                                    contracts.
IRS         2007-1c-                The IRS CO will work with DCAA                  103.6                                         Due 2/15/2010
            040                     and the contractor to resolve the
                                    questioned costs applicable to IRS
                                    contracts.
IRS         2007-1c-                The IRS CO will work with DCAA                2,247.0                                         Due 3/15/2010
            041                     and the contractor to resolve the
                                    questioned costs applicable to IRS
                                    contracts.
IRS         2007-1c-                The IRS CO will work with DCAA                   22.1                                         Due 3/15/2010
            044                     and the contractor to resolve the
                                    questioned costs applicable to IRS
                                    contracts.
IRS         2007-30-                Ensure the revised Form 4137                                          541,124.0               Due 1/15/2009
            062                     is used effectively to identify and
                                    assess the employer’s share of Social
                                    Security and Medicare taxes on
                                    unreported tip income.
IRS         2007-10-                Initiate a legislative proposal to                                     81,500.0               Due 1/31/2009
            076                     exempt the IRS from issuing a
                                    deficiency notice for disallowance of
                                    the EITC and other refundable credits
                                    when the deficiency and credits are
                                    the result of fraudulent returns, if its
                                    current efforts through a regulatory
                                    change are not successful.
IRS         2007-20-                Collect and review lessons learned                          3,683.0                           Due 3/1/2009
            123                     from the use of independent
                                    estimates to determine whether
                                    independent estimates can become a
                                    consistently more useful negotiation
                                    tool.
IRS         2007-1c-                The IRS CO will work with DCAA                   62.1                                         Due 9/15/2010
            149                     and the contractor to resolve the
                                    questioned costs applicable to IRS
                                    contracts.
IRS         2007-1c-                The IRS CO will work with DCAA                      1.2                                       Due 9/15/2010
            154                     and the contractor to resolve the
                                    questioned costs applicable to IRS
                                    contracts.
FY 2007     9                                                                     2,453.1       3,683.0   622,624.0   628,760.1
TOTAL       13                                                                   34,826.8       3,883.0   652,159.0   690,868.8




275                                                      Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems
Fiscal Year 2008 Performance and Accountability Report




          Plan for Financial Management Systems Framework

          Overview
          The Department of the Treasury’s financial management systems structure consists of financial and mixed systems main-
          tained by the Treasury bureaus and the Department-wide Financial Analysis and Reporting System (FARS). The bureau
          systems process and record the detailed financial transactions and submit summary-level data to FARS on a scheduled
          basis. FARS maintains the key financial data necessary for consolidated financial reporting. In addition, the FARS modules
          also maintain data on performance management and the status of audit-based corrective actions. Under this systems
          structure, the bureaus are able to maintain financial management systems that meet their specific business requirements.
          On a scheduled basis, the required financial and performance data are submitted to FARS to meet Departmental analysis
          and reporting requirements. The Department uses FARS to produce its periodic financial and performance reports as well
          as the annual Performance and Accountability Report. This structured financial systems environment enables Treasury to
          receive an unqualified audit opinion and supports its required financial management reporting and analysis requirements.

          The FARS structure consists of the following components: bureau core and financial management systems that process
          and record detailed financial transactions; the Treasury Information Executive Repository (TIER) data warehouse; CFO
          Vision to produce monthly financial statements and analyze financial results; the Joint Audit Management Enterprise
          System ( JAMES) to capture information on audit findings, recommendations, and planned corrective actions; and the
          Performance Reporting System (PRS) to track the status of key performance measures. Bureaus submit summary-level
          financial data to TIER on a monthly basis, within three business days of the month-end. The data are then used by CFO
          Vision to generate financial statements and reports on both a Department-wide and bureau-level basis. This structure
          enables the Department to produce its monthly and audited annual financial statements. During fiscal year 2008, Treasury
          continued to upgrade its FARS applications to take advantage of improvements in system technology. This included the
          continued roll-out of CFO Vision to additional Treasury bureaus. CFO Vision provides the bureaus with direct system
          access for enhanced reporting capabilities and financial analysis.

          Treasury continues with its plans to enhance the financial management systems structure. As of September 2008,
          the Department’s inventory of financial management systems lists 60 financial and mixed systems compared to 64 in
          September 2007. As part of the Department’s enhancement effort, twelve Treasury bureaus and reporting entities are
          cross-serviced for core financial systems by the Bureau of the Public Debt’s Administrative Resource Center. Cross-
          servicing enables these bureaus to have access to core financial systems without having to maintain the necessary technical
          and systems architectures. In an effort to continue to streamline its financial systems environment, Treasury will work with
          the remaining bureaus to develop plans to migrate to a Shared Service Provider for core financial systems in accordance
          with the Financial Management Line of Business requirements. In addition, as part of the Department’s implementation
          of the e-Travel initiative, all bureaus but one have eliminated their legacy travel systems. The remaining bureau began to
          implement GovTrip during 2008.

          Continued Improvement
          Treasury’s target financial management systems structure will build upon the current FARS foundation. As processing
          and reporting requirements change and FARS is expanded to collect additional financial and performance data, it may be
          necessary to implement additional applications to support these new requirements. FARS will provide management with
          the appropriate tools needed to analyze Department and bureau performance.




Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems                                                         276
                                                                                       Part IV — Other Accompanying Information




In fiscal year 2005, the IRS implemented the Integrated Financial System (IFS) as its new core financial system. IFS
provides timely financial statements and reports in accordance with the federal accounting and reporting standards,
including information for budgeting, analysis, and government-wide reporting. In addition, IFS provides the core processes
of General Ledger, Accounts Payable, Accounts Receivable, Budget Execution, Cost Accounting, Administrative Tax and
Travel Accounting, Cost Allocations, some tax processing functionality for Health Care Tax Credit Payments (HCTC),
Budget Formulation, Labor Forecasting, and Budget Execution decision support. Detailed financial, cost accounting,
property accounting, and procurement data are available for authorized users. Significant accomplishments for fiscal year
2008 include:
    •	 Successful migration of all interfaces to a secure protocol

    •	 Integration of E-Government data for travel posting and payment

    •	 Enhancement of the HCTC interface to support payment increases from legislative changes

In fiscal year 2009, IRS will continue updating its business requirements to upgrade the IFS and migrate to a Shared
Service Provider.

The IRS implemented the Custodial Detail Database (CDDB) in fiscal year 2006. CDDB is an enhancement to the
Financial Management Information System (FMIS), which serves as the sub-ledger for the Interim Revenue Accounting
Control System (IRACS). CDDB maintains detailed records of IRS revenue, refunds, and unpaid assessments. CDDB
addresses a Government Accountability Office (GAO) material weakness by providing detailed data to support custodial
financial reporting. Full CDDB functionality will be accomplished with the implementation of Release 4 in 2009. During
fiscal year 2008, the IRS implemented several enhancements to CDDB. In January, IRS implemented the Trace ID to
add all other pre-posted revenue receipt transactions (federal tax deposits, lockbox, integrated submission, and remittance
processing), and created a revenue transaction subsidiary ledger. In March, the IRS used CDDB to accelerate revenue and
refund processing, and by June GAO determined specific components for review during the fiscal year 2008 financial audit.
In July, GAO agreed to test the Electronic Federal Tax Payment System (EFTPS) pre-posted revenue receipt transactions
from CDDB Release 3 during the fiscal year 2008 financial audit. EFTPS accounts for approximately 78 percent of the
revenue receipts received during the year. The IRS anticipates full use of CDDB for the fiscal year 2009 financial statement
audit.

The 2008 Customer Account Data Engine (CADE) release was delivered in time for the filing season. CADE processed
30.6 million returns, a substantial increase from the 2007 posting of 11.2 million returns, and issued over 28.9 million
refunds, totaling more than $44.1 billion. CADE is the highest priority business systems modernization project for the
IRS and represents the core foundation of modernized systems. With CADE, the IRS will have the flexibility to respond
more quickly to complex tax law and policy initiatives – changes which the existing Master File system cannot easily or
cost-effectively accommodate.

CADE settles on a daily basis, rather than weekly as with the legacy system. As a result, CADE processes refunds on aver-
age five days faster than the legacy system and updates taxpayer account information immediately for improved customer
service. The IRS is using a phased, multi-year approach for CADE by processing increasingly more complex tax returns.
When fully operational, the CADE database will house tax information for more than 200 million individual and business
taxpayers.

As previously indicated, the Bureau of the Public Debt’s Administrative Resource Center cross-services twelve Treasury
bureaus and reporting entities for core financial systems. In addition to the cross-servicing for core financial systems,




277                                              Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems
Fiscal Year 2008 Performance and Accountability Report




          Treasury bureaus are also cross-serviced for other financial management services, such as electronic travel and human
          resource processing. This cross-servicing has resulted in a reduction in the number of financial management systems
          maintained by the Department.

          Federal Financial Management Improvement Act (FFMIA) Compliance
          The FFMIA requires agencies to have financial management systems that substantially comply with the federal finan-
          cial management systems requirements, standards promulgated by the Federal Accounting Standards Advisory Board
          (FASAB), and the U.S. Standard General Ledger (USSGL) at the transaction level. Financial management systems shall
          have general and application controls in place to support management decisions by providing timely and reliable data. The
          Secretary shall make a determination annually about whether the agency’s financial management systems substantially
          comply with the FFMIA. If the systems are found not to be compliant, management shall develop a remediation plan to
          bring those systems into substantial compliance. Management shall determine whether non-compliances with FFMIA
          should also be reported as non-conformances with Section 4 of FMFIA.

          As of September 30, 2008, the Treasury Department’s financial management systems were not in substantial compliance
          with FFMIA due to deficiencies with the IRS’s financial management systems. The IRS has a remediation plan in place to
          correct the deficiencies. For each FFMIA recommendation, the remediation plan identifies specific remedies, target dates,
          responsible officials, and resource estimates required for completion. This plan is reviewed and updated quarterly.

          The Redesign Revenue Accounting Control System (RRACS) Release 1 is an IRS fiscal year 2009 Modernization, Vision,
          and Strategy (MV&S) initiative that will replace the Interim Revenue Accounting Control System (IRACS). It provides
          new functionality to address GAO material weaknesses, reduces the risk of failure to sustain future clean audit opinions,
          and streamlines financial reporting. Specifically, RRACS incorporates the USSGL as required by the Core Financial
          Systems Requirements and the FFMIA. RRACS adds traceability between the revenue, refunds, and unpaid assessments
          summary records and the IRS processing systems’ detail records. Additionally, RRACS will perform all the functionality
          of the existing IRACS system, which is the IRS custodial accounting system of record. In March 2008, Release 1 business
          requirements and the high-level project schedule were completed with an implementation date of January 2010. In May
          2008, an integrated project team was established to include a project manager, contractor lead, and project management
          support. In June 2008, IRS held a project kick-off for all IRS partners and completed the project charter for executive sig-
          natures. In July 2008, the Project Charter, IRS Project Management Plan, and Tailoring Plan for RRACS Release 1 were
          completed. Full deployment of RRACS will allow the IRS to address the financial accounting of revenue material weakness
          and improve IRS statement of custodial activity reporting and Treasury Information Executive Repository submissions.




Appendix D: Material Weaknesses, Audit Follow-up, and Financial Systems                                                        278
                                                                                                 Part IV — Other Accompanying Information


Appe n dix E: Fu ll R e port of th e Tr easu ry De partm e nt’s
Fiscal Year 2008 Pe r for mance M easu r es
by Focus an d Strateg ic Goal



 Fiscal Year 2008 Performance Summary
 This section reports the results of the Department of the Treasury’s official performance measures by focus and strategic
 goal, and further by bureau/organization, for which targets were set in the Fiscal Year 2008 Performance Plan, as presented
 in the Fiscal Year 2009 Congressional Justification for Appropriations and Performance Plans. For each performance measure,
 there is a definition of the measure, performance levels and targets for three previous fiscal years (where available), the
 performance target and actual for the reporting year, and proposed performance targets for the next fiscal year (where
 available). The report examines unrealized performance targets and presents actions for improvement.

 The purpose of the Treasury Department’s strategic management effort is to develop effective performance measures to
 achieve the Department’s goals and objectives, and provide recommendations that will improve results delivered to the
 American public.

 Overall, the Department of the Treasury had 167 performance targets in fiscal year 2008; 15 of these measures were base-
 line, and 24 were discontinued, resulting in 143 measures. Targets exceeded, met, improved and unmet are shown below for
 two calculations: 1) including baseline and discontinued measures, and 2) including baseline and discontinued measures.


  Fiscal Year 2008 Treasury-wide Performance Summary for Active Measures
  (Excluding Baseline and Discontinued)
       Total Measures                 Target Exceeded            Target Met             Target Unmet              Target Improved
              143                         90 (63%)                33 (23%)                  17 (12%)                  3 (2%)


  Fiscal Year 2008 Treasury-wide Performance Summary
  (Including Baseline and Discontinued)
   Total Measures       Target Exceeded          Target Met     Target Unmet   Target Improved         Baseline        Discontinued
        167                90 (54%)                  18 (11%)     17 (10%)         3 (2%)              15 (9%)           24 (14%)




 Definitions and Other Important Information
 Determination of Official Measures: A rigorous process is followed to maintain internal controls when establishing or
      modifying performance measures. If a performance measure is in the performance budget for the year in question, it
      must be included in the Performance and Accountability Report, and must be approved by the Performance Reporting
      System administrator. Performance measures that are not in the performance budget may also be included in the
      Performance and Accountability Report.

 Actual: For most of the measures included in this report, the fiscal year 2008 actual data is final. Some of the actual data
       for fiscal year 2008 are estimates at the time of publication, which are indicated by an asterisk (*). Actual data for
       these estimated measures will be presented in the Fiscal Year 2010 Congressional Justification for Appropriations and
       the Fiscal Year 2009 Performance and Accountability Report. The actual data for previous years throughout this report
       is the most current data available and may not reflect previous editions of the Performance and Accountability
       Report and the Congressional Justification.




 279                     Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




          Target: The targets shown for fiscal year 2009 are proposed targets and are subject to change. The final targets will be
                presented in the Fiscal Year 2010 Congressional Justification for Appropriations. Also included in this report are the
                previous year’s final targets for each performance measure.

          Target Met: For each fiscal year that there is a target and an actual number, the report tells the reader whether the target
                was met or not. If the target is exceeded or met, “Y” will be shown. If the target has improved from the prior year
                (but was not met), or was not met, “N” will be shown.

          Definition: All performance measures in this report have a detailed definition describing the measure and summarizing
                 the calculation.

          Source: The basis for the data is included in this report.

          Future Plans/Explanation for Shortfall: If a performance target is not met, the report includes an explanation as to
                why Treasury did not meet its target, and what it plans to do to improve performance in the future. If a perfor-
                mance target is met, the report includes what future plans Treasury has to either match fiscal year 2008 perfor-
                mance, or improve on that performance in future years. Explanations may also include justification for any expected
                degradation in performance.

          Discontinued: Some measures will be discontinued in the Fiscal Year 2010 Congressional Justification for Appropriations
               and the Fiscal Year 2009 Performance and Accountability Report. New measures are sometimes developed in order to
               better measure performance; when this happens, the measure being replaced is discontinued, and an explanation is
               provided.

          Baseline Measures: There are 15 new measures in fiscal year 2008 included in this report. Baseline values facilitate
                target-setting in the future. The target value for a new measure is “baseline,” and the actual value is the initial
                data point. These targets are considered met since the objective was to establish the initial value in the first year of
                measurement. Targets are then established for subsequent years.

          Additional Information: Additional Information relating to Treasury’s performance management can be found at Office of
                Performance Budgeting and Strategic Planning webpage.



               Legend:
           *             Indicates actual data is estimated and subject to change
           Oe            Outcome Measure
           E             Efficiency Measure
           Ot            Output Measure




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                         280
                                                                                                 Part IV — Other Accompanying Information




*These tables do not include measures that were discontinued prior to fiscal year 2009.

 Cash Resources are Available to Operate the Government
                                                                                    Percent
                                                          FY 2008        FY 2008   of Target   Performance    FY 2009   Target       Actual
             Performance Measure               Bureau      Target         Actual   Achieved       Rating       Target   Trend        Trend

 Revenue Collected When Due Through a Fair and Uniform Application of the Law
 Dollar amount of collections processed        FMS        $40.00         $48.70     122%       Exceeded       $43.00                 
 through Pay.gov government-wide Internet
 collections portal ($ billions)
 Percentage collected electronically of        FMS         79%            80%       101%       Exceeded        80%                   
 total dollar amount of federal government
 receipts
 Unit cost to process a federal revenue        FMS        $1.30          $1.23*     105%       Exceeded       $1.30                  
 collection transaction
 Amount of delinquent debt collected per       FMS        $40.00        $54.82 +    137%       Exceeded       $43.00                 
 $1 spent
 Amount of delinquent debt collected through   FMS        $3.40          $4.41 +    130%       Exceeded       $3.90                  
 all available tools ($ billions)
 Percentage of delinquent debt referred to     FMS         95%            99%       104%       Exceeded        97%                   
 FMS for collection compared to amount
 eligible for referral
 Amount of revenue collected per program        TTB      Baseline       $313.00     100%          Met        $300.00      B            B
 dollar
 Percent of voluntary compliance from large     TTB      Baseline         94%       100%          Met          92%        B            B
 taxpayers in filing tax payments timely and
 accurately (in terms of revenue)
 Automated Collection System (ACS)              IRS        92%           95.3%      104%       Exceeded        92%                   
 accuracy
 Automated Underreporter (AUR) coverage         IRS        2.5%          2.55%      102%       Exceeded       2.5%                   
 Automated Underreporter (AUR) efficiency       IRS       1,961           1,982     101%       Exceeded       2,022                  
 Percent of BSM projects within +/- cost        IRS      Baseline         92%       100%          Met          90%        B            B
 variance
 Percent of BSM projects within +/- schedule    IRS      Baseline         92%       100%          Met          90%        B            B
 variance
 Collection coverage - Units                    IRS        53%           55.2%      104%       Exceeded      54.74%                  
 Collection efficiency - Units                  IRS       1,835           1,926     105%       Exceeded       1,935                  
 Conviction efficiency rate (Cost per           IRS      $317,625       $315,751    101%       Exceeded      $317,100                
 conviction)
 Conviction rate                                IRS        92%           92.3%     100.3%      Exceeded        92%                   
 Criminal investigations completed              IRS       4,000           4,044     101%       Exceeded       3,900                  
 Customer accuracy - Customer accounts          IRS       93.5%          93.7%     100.2%      Exceeded       93.7%                  
 (Phones)
 Customer accuracy - Tax law phones             IRS        91%           91.2%     100.2%      Exceeded        91%                   
 Customer contacts resolved per staff year      IRS       8,000          12,634     158%       Exceeded       9,686                  
 Customer Service Representative (CSR)          IRS        82%           52.8%      64%          Unmet         77%                   
 Level of Service (%)
                                                                                                                                 (continued)




281                            Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Cash Resources are Available to Operate the Government
                                                                                              Percent
                                                                       FY 2008    FY 2008    of Target   Performance    FY 2009   Target       Actual
                        Performance Measure               Bureau        Target     Actual    Achieved       Rating       Target   Trend        Trend

           Examination coverage - Business                 IRS         6.6%        6.1%       92%          Unmet        5.8%                   
           corporations > $10 million
           Examination Coverage – individual (%)           IRS          1%          1%        100%          Met          1%                    
           Examination Efficiency – individual (1040       IRS          133        138        104%       Exceeded        140                   
           Form)
           Examination Quality (LMSB) - Coordinated        IRS          96%        97%        101%       Exceeded        96%                   
           industry
           Examination Quality (LMSB) - Industry           IRS          88%        88%        100%          Met          88%                   
           Field collection embedded quality               IRS          86%        79%        92%          Unmet         80%                   
           Field examination embedded quality              IRS          87%        86%        99%         Improved       87%                   
           Health Care Tax Credit cost per taxpayer        IRS         $14.25     $16.94      81%          Unmet        $17.00                 
           served
           Number of convictions                           IRS         2,135       2,144     100.4%      Exceeded       2,135                  
           Office examination embedded quality             IRS          90%        90%        100%          Met          90%                   
           Percent of business returns processed           IRS         20.8%      19.4%       93%         Improved      22.9%                  
           electronically
           Percent of individual returns processed         IRS         61.8%      57.6%       93%         Improved       64%                   
           electronically
           Refund timeliness - Individual (paper)          IRS         98.4%      99.1%       101%       Exceeded       98.4%                  
           Health Care Tax Credit sign-up time (days)      IRS           97         94        103%       Exceeded         97                   
           Taxpayer self assistance rate                   IRS          51.5       66.8       130%       Exceeded        64.2                  
           Tax Exempt and Government Entities              IRS        100,600    10,0050      99%          Unmet        94,000                 
           determination case closures
           Timeliness of critical filing season tax        IRS          86%       92.4%       107%       Exceeded        92%                   
           products to the public
           Timeliness of critical other tax products to    IRS          86%       89.5%       104%       Exceeded        89%                   
           the public
           Timely and Accurate Payments at the Lowest Possible Cost
           Percentage of paper check and electronic       FMS          100%        100%       100%          Met         100%                   
           funds transfer (EFT) payments made
           accurately and on-time
           Percentage of Treasury payments and            FMS           79%        79%        100%          Met          80%                   
           associated information made electronically
           Percentage of federal agency customers         FMS           85%        88%        104%       Exceeded        87%                   
           indicating an overall service rating of
           satisfactory or better
           Unit cost for federal government payments      FMS          $0.40      $0.39*      103%       Exceeded       $0.40                  
           Government Financing at the Lowest Possible Cost Over Time
           Cost per debt financing operation               BPD        $263,306   $237,636*    110%       Exceeded      $275,610                
           Cost per federal funds investment               BPD         $75.55     $57.81*     123%       Exceeded       $69.11                 
           transaction
                                                                                                                                           (continued)




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                    282
                                                                                                    Part IV — Other Accompanying Information




Cash Resources are Available to Operate the Government
                                                                                       Percent
                                                           FY 2008          FY 2008   of Target   Performance   FY 2009   Target   Actual
            Performance Measure                Bureau       Target           Actual   Achieved       Rating      Target   Trend    Trend

Percent of auction results released in two      BPD          95%            100%       105%       Exceeded       95%               
minutes +/- 30 seconds
Cost per TreasuryDirect assisted transaction    BPD         $9.25           $7.23*     122%       Exceeded      $9.34              
Cost per TreasuryDirect online transaction      BPD         $4.34           $3.76*     113%       Exceeded      $4.34              
Number of Government Agency Investment          BPD           2               2        100%          Met          0                
Services control processes consolidated
Percentage of retail customer service           BPD          90%            99.86%     111%       Exceeded       90%               
transactions completed within 12 business
days
Effective Cash Management
Variance between estimated and actual           DO           5%             4.6%       108%       Exceeded       5%                
receipts (annual forecast)
Accurate, Timely, Useful Transparent and Accessible Financial Information
Cost per summary debt accounting                BPD         $9.91           $8.29*     116%       Exceeded      $10.01             
transaction
Release federal government-wide                 DO           Met             Met*      100%          Met         Met               
statements on time
Percentage of government-wide accounting       FMS          100%            100%       100%          Met        100%               
reports issued accurately
Percentage of government-wide accounting       FMS          100%            100%       100%          Met        100%               
reports issued timely
Unit cost to manage $1 million dollars of      FMS         $11.72           $9.21*     121%       Exceeded      $13.39             
cash flow




283                        Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Improved Economic Opportunity, Mobility, and Security with Robust, Real, Sustainable Economic Growth at Home and Abroad
                                                                                          Percent
                                                                     FY 2008   FY 2008   of Target   Performance   FY 2009   Target       Actual
                       Performance Measure                  Bureau    Target    Actual   Achieved       Rating      Target   Trend        Trend

           Strong U.S. Economic Competitiveness
           Administrative cost per number of Bank           CDFI     $1,455    $3,070    -11%^         Unmet       $1,455                 
           Enterprise Award (BEA) applications
           processed
           Administrative costs per financial assistance    CDFI     $6,920    $7,200     96%          Unmet       $6,920                 
           application processed
           Administrative costs per number of Native        CDFI     $9,090    $10,990    79%          Unmet       $9,090                 
           American CDFI Assistance applications
           processed
           Administrative costs per number of New           CDFI     $4,875    $7,400     48%          Unmet       $4,875                 
           Markets Tax Credit (NMTC) applications
           processed
           Annual percentage increase in the total          CDFI      15%       19%       127%       Exceeded       15%                   
           assets of Native CDFIs
           Commercial real-estate properties financed       CDFI      285       287       100%       Exceeded       285                   
           by BEA Program applicants that provide
           access to essential community products and
           services in underserved communities
           Community Development Entities’ annual           CDFI      $2.5      $3.3      132%       Exceeded       $2.5                  
           investments in low-income communities
           ($ billion)
           Community Development Entities’                  CDFI      $6.0      $8.9      148%       Exceeded       $8.0                  
           cumulative investments in low-income
           communities ($ billion)
           Dollars of private and non-CDFI Fund             CDFI     $750       $621      83%          Unmet       $635                   
           investments that CDFIs are able to leverage
           because of their CDFI Fund Financial
           Assistance
           ($ million)
           Increase in community development                CDFI     $180       $232      129%       Exceeded      $202                   
           activities over prior year for all BEA program
           applicants ($ million)
           Increase in the percentage of eligible areas     CDFI      15%      17.8%      119%       Exceeded       15%                   
           served by a CDFI
           Number of full-time equivalent jobs created      CDFI     28,676    29,539     103%       Exceeded      30,000                 
           or maintained in underserved communities
           by businesses financed by CDFI program
           awardees
           Number of small businesses located in            CDFI      329       906       275%       Exceeded       288                   
           underserved communities financed by BEA
           Program applicants
           Percent of CDFIs that increased their total      CDFI      70%       87%       124%       Exceeded       70%                   
           assets (cumulative)
           Percent of CDFIs that increased their total      CDFI      70%       80%       114%       Exceeded       70%                   
           assets over the previous year (annual)
                                                                                                                                      (continued)




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                               284
                                                                                             Part IV — Other Accompanying Information




Improved Economic Opportunity, Mobility, and Security with Robust, Real, Sustainable Economic Growth at Home and Abroad
                                                                                Percent
                                                          FY 2008    FY 2008   of Target   Performance   FY 2009   Target       Actual
             Performance Measure                 Bureau    Target     Actual   Achieved       Rating      Target   Trend        Trend

Percentage of eligible areas served by one       CDFI      3.0%      3.4%       113%       Exceeded      3.0%                   
or more CDFI
Percentage of loans and investments that         CDFI      66%        73%       111%       Exceeded       66%                   
went into severely distressed communities
Average number of days to process an              TTB     Baseline     64       100%          Met          72        B            B
original permit application at the National
Revenue Center
National Revenue Center (NRC) customer            TTB     Baseline    90%       100%          Met         85%        B            B
satisfaction survey
Percent of electronically filed Certificate of    TTB      52%        62%       119%       Exceeded       52%                   
Label Approval applications
Percentage of instances where the                 TTB     Baseline    15%       100%          Met         16%        B            B
utilization of the International Trade
Database System identified importers
without permits as a percentage of total
permits on file
Free Trade and Investment
Number of new trade and investment                DO      Baseline     14       100%          Met          6         B            B
negotiations underway or completed
Number of specific new trade actions              DO      Baseline     68       100%          Met          68        B            B
involving Treasury interagency participation
in order to enact, implement and enforce
U.S. trade law and international agreements
Prevented or Mitigated Financial and Economic Crises
Changes that result from project                  DO      Baseline    3.1       100%          Met         3.1        B            B
engagement (Impact)
Scope and intensity of engagement                 DO      Baseline    3.7       100%          Met         3.7        B            B
(Traction)
Percent of national banks with composite         OCC       90%        92%       102%       Exceeded       90%                   
CAMELS rating of 1 or 2
Percentage of licensing applications             OCC       95%        95%       100%          Met         95%                   
and notices completed with established
timeframes
Percentage of national banks that are            OCC       95%        99%       104%       Exceeded       95%                   
categorized as well capitalized
Percentage of national banks with consumer       OCC       94%        97%       103%       Exceeded       94%                   
compliance rating of 1 or 2
Rehabilitated national banks as a                OCC       40%        47%       118%       Exceeded       40%                   
percentage of problem national banks one
year ago (CAMELS 3, 4 or 5)
Total OCC costs relative to every $100,000       OCC       $9.55     $8.39      112%       Exceeded      $9.22                  
in bank assets regulated
Percent of safety and soundness exams             OTS      90%        94%       104%       Exceeded       90%                   
started as scheduled
Percent of thrifts that are well capitalized      OTS      95%       98.4%      104%       Exceeded       95%                   
                                                                                                                            (continued)




285                          Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Improved Economic Opportunity, Mobility, and Security with Robust, Real, Sustainable Economic Growth at Home and Abroad
                                                                                                     Percent
                                                                      FY 2008          FY 2008      of Target   Performance   FY 2009   Target   Actual
                       Performance Measure               Bureau        Target           Actual      Achieved       Rating      Target   Trend    Trend

           Percent of thrifts with a compliance           OTS           90%             95.8%         106%      Exceeded       90%               
           examination rating of 1 or 2
           Percent of thrifts with composite CAMELS       OTS           90%              90%          100%         Met         90%               
           ratings of 1 or 2
           Total OTS costs relative to every $100,000     OTS         $15.08           $15.10       99.99%        Unmet       $15.07             
           in savings association assets regulated
           Decreased Gap in Global Standard of Living
           Improve International Monetary Fund (IMF)       DO           90%              93%          103%      Exceeded       90%               
           effectiveness and quality through periodic
           review of IMF programs
           Percentage of grant and loan proposals          DO           90%              94%          104%      Exceeded       90%               
           containing satisfactory frameworks for
           results measurement


           Trust and Confidence in U.S. Notes and Coins
                                                                                                     Percent
                                                                                                    of Target   Performance   FY 2009   Target   Actual
                      Performance Measure               Bureau    FY 2008 Target   FY 2008 Actual   Achieved       Rating      Target   Trend    Trend

           Commerce Enabled Through Safe, Secure U.S. Notes and Coins
           Manufacturing costs for currency (dollar      BEP         $33.00           $29.47         111%       Exceeded      $37.00             
           costs per thousand notes produced)
           Maintain International Organization for       BEP           Met              Met          100%          Met         Met               
           Standardization certification
           Currency production (billion notes)           BEP           7.7              7.7          100%          Met          6.8              
           Other financial losses                        BEP           $0               $0           100%          Met          $0               
           Percent of currency notes delivered to        BEP         99.9%            100%          100.1%      Exceeded      99.9%              
           the Federal Reserve that meet customer
           quality requirements
           Currency shipment discrepancies per           BEP         0.01%            0.01%          100%          Met        0.01%              
           million notes
           Security costs per 1,000 notes delivered      BEP         $5.65            $5.63         100.4%      Exceeded       $5.65             
           Total regulatory fines and claims paid        BEP        $27,500             $0          200%^       Exceeded      $20,000            
           Improper and/or erroneous payments or         BEP          $500              $0          200%^       Exceeded       $500              
           purchases
           Total Financial Losses                        BEP        $28,000             $0          200%^       Exceeded      $20,500            
           Conversion costs per 1,000 coin              Mint         $7.09            $8.46         80.7%         Unmet        $7.99             
           equivalents ($)
           Conversion costs per 1,000 coin              Mint        Baseline          11.0%          100%          Met          0%        B        B
           equivalents (% deviation from target)
           Protection cost per square foot              Mint         $32.50           $31.76         102%       Exceeded      $31.75             
           Employee confidence in protection            Mint          86%              81%           94%          Unmet        83%               




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       286
                                                                                                       Part IV — Other Accompanying Information




Pre-Empted and Neutralized Threats to the International Financial System and Enhanced U.S. National Security
                                                                                        Percent
                                                           FY 2008       FY 2008       of Target   Performance      FY 2009       Target      Actual
            Performance Measure                Bureau      Target         Actual       Achieved       Rating         Target        Trend      Trend
Removed or Reduced Threats to National Security from Terrorism, Proliferation of Weapons of Mass Destruction, Drug Trafficking and Other Criminal
Activity on the Part of Rogue Regimes, Individuals, and Their Support Networks
Number of open civil penalty cases               DO         120            233          194%        Exceeded      Discontinued                 
that are resolved within the Statute of
Limitations period
Increase the number of outreach                  DO         70%           80%           114%        Exceeded      Discontinued                 
engagements with the charitable and
international financial communities
Number of countries that are assessed for        DO          12            12           100%           Met        Discontinued                 
compliance with the Financial Action Task
Force (FATF) 40 + 9 recommendations
Percent of forfeited cash proceeds            Treasury      75%          86.91%         116%        Exceeded          75%                      
resulting from high impact cases              Forfeiture
                                                Fund
Safer and More Transparent U.S. and International Financial Systems
Average time to process enforcement            FinCEN        1            0.7%          130%        Exceeded           1                       
matters (in years)
Percentage of bank examinations                FinCEN      5.2%           2.5%          152%        Exceeded         5.2%                      
conducted by the Federal Banking
Agencies indicating a systemic failure of
the anti-money laundering program rule
Percentage of FinCEN’s Regulatory              FinCEN       90%           94%           104%        Exceeded          90%                      
Resource Center customers rating the
guidance received as understandable
Median time taken from date of receipt         FinCEN        16             3           181%        Exceeded           15                      
of Financial Institution Hotline Tip SAR to
transmittal of a written analytical report
to law enforcement or the intelligence
community (days)
Percentage of complex analytical work          FinCEN       38%           27%            71%          Unmet           39%                      
completed by FinCEN analysts
The percent of countries/jurisdictions         FinCEN       98%           98%           100%           Met            98%                      
connected to the Egmont Secure Web
within one year of Egmont membership
The percentage of domestic law                 FinCEN       79%           83%           105%        Exceeded          80%                      
enforcement and foreign financial
intelligence units finding FinCEN’s
analytical reports highly valuable
The percentage of private industry or          FinCEN       74%           75%           101%        Exceeded          76%                      
financial institution customers finding
FinCEN’s Suspicious Activity Report (SAR)
products highly valuable
Cost per BSA form E-Filed                      FinCEN      $0.15          $0.13         113%        Exceeded         $0.15                     
Number of largest BSA report filers using      FinCEN       374            386          103%        Exceeded          454                      
E-Filing
                                                                                                                                           (continued)




287                         Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Pre-Empted and Neutralized Threats to the International Financial System and Enhanced U.S. National Security
                                                                                                   Percent
                                                                     FY 2008         FY 2008      of Target   Performance     FY 2009      Target      Actual
                      Performance Measure                Bureau       Target             Actual   Achieved      Rating         Target      Trend       Trend
           Number of users directly accessing BSA        FinCEN       8,000              9,649     121%       Exceeded        10,000                    
           data
           Percentage of customers satisfied with the    FinCEN       90%                93%       103%       Exceeded         90%                      
           BSA E-Filing
           Percentage of customers satisfied with        FinCEN      Baseline            81%       100%          Met           81%           B            B
           WebCBRS and secure outreach
           Share of BSA filings submitted                FinCEN        63                 71       113%       Exceeded          67                      
           electronically
           Percent of federal and state regulatory       FinCEN      Baseline            41%       100%          Met           45%           B            B
           agencies with memoranda of
           understanding/ information sharing
           agreements
           Percent of FinCEN’s compliance MOU            FinCEN      Baseline            64%       100%          Met           66%           B            B
           holders finding FinCEN’s information
           exchange valuable to improve the BSA
           consistency and compliance of the
           financial system


           Enabled and Effective Treasury Department
                                                                                                   Percent
                                                                     FY 2008         FY 2008      of Target   Performance     FY 2009      Target       Actual
                      Performance Measure                Bureau       Target          Actual      Achieved       Rating        Target      Trend        Trend

           A Citizen-Centered, Results-Oriented and Strategically Aligned Organization
           Percent of complainants informally              DO          30                 45       150%        Exceeded         30                      
           contacting Equal Employment Opportunity
           (EEO) (for the purposes of seeking
           counseling or filing a complaint) who
           participate in the Alternative Dispute
           Resolution Process)
           Completed investigations of EEO                 DO          50                 56       112%        Exceeded         50                      
           complaints within 180 Days
           Injury and illness rate Treasury-wide,          DO          1.4               1.29*     108%        Exceeded         1.4                     
           including DO
           Customer satisfaction approval rating-       Franchise     80%                97%       121%        Exceeded        74%                      
           Financial Management Administrative            Fund
           Support Services
           Operating expenses as a percentage of        Franchise     12%                17.7      53%          Unmet       Discontinued                
           revenue – Consolidated/                        Fund
           Integrated Administrative Management
           Operating expenses as a percentage           Franchise     12%                3.6%      170%        Exceeded     Discontinued                
           of revenue – Financial Management              Fund
           Administrative Support
           Operating expenses as a percentage of        Franchise     12%                6.5%      146%        Exceeded     Discontinued                
           revenue – Financial Systems, Consulting        Fund
           and Training
                                                                                                                                                    (continued)




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                             288
                                                                                                                                     Part IV — Other Accompanying Information




Enabled and Effective Treasury Department
                                                                                                                  Percent
                                                                          FY 2008              FY 2008           of Target       Performance           FY 2009          Target     Actual
             Performance Measure                        Bureau             Target               Actual           Achieved           Rating              Target          Trend      Trend

Exceptional Accountability and Transparency
Number of material weaknesses                             DO                  3                   2                67%              Unmet                 0                           
(Significant management problems
identified by GAO, the IGs and/or bureaus)
closed
Number of completed audit products                        OIG                56                  64               114%            Exceeded               60                           
Number of investigations referred for                     OIG               105                  93                89%              Unmet                105                          
criminal prosecution, civil litigation or
corrective administrative action
Percent of statutory audits completed by                  OIG              100%                 100%              100%               Met               100%                           
the required date
Percentage of audit products delivered                   TIGTA              60%                 65%               108%            Exceeded              65%                           
when promised to stakeholders
Percentage of recommendations made                       TIGTA              80%                 85%               106%            Exceeded              83%                           
that have been implemented
Percentage of results from investigative                 TIGTA              76%                 78%               103%            Exceeded              78%                           
activities


Legend                                                                                                                                                                           Symbol
Favorable upward trend                                                                                                                                                            
Favorable downward trend                                                                                                                                                          
Unfavorable upward trend                                                                                                                                                          
Unfavorable downward trend                                                                                                                                                        
No change in trend, no effect                                                                                                                                                      
No change in trend, favorable effect                                                                                                                                               
No change in trend, unfavorable effect                                                                                                                                             
Baseline                                                                                                                                                                           B
Estimate                                                                                                                                                                           *
Data does not include offset collections from the stimulus package                                                                                                                 +
Percent of target achieved is calculated as (Actual/Target) for measures where a rising trend is favorable (e.g. efficiency measures, customer satisfaction measures).             ^
Percent of target achieved is calculated as [1 - {(Actual-Target)/Target}] for measures where a declining trend is favorable (e.g. cost measures or measures related to
losses). Using this latter formula, measures with an actual result of zero and positive trend will show percent of target as 200 percent; more than double the target will
produce a negative result.




289                             Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




            Strategic Goal:
               Effectively Managed U.S. Government Finances

            Strategic Objective: Cash Resources are Available to Operate the Government

            Outcome: Revenue Collected When Due Through a Fair and Uniform Application of the Law

          Financial Management Service
           Measure: Dollar Amount of Collections Processed Through Pay.Gov Government-Wide Internet Collections Portal ($ billions) (Ot)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                 Target            12                    15                    30                    40                    43
                                 Actual             6                   29.5                  37.94                 48.7
                            Target met?             N                     Y                     Y                     Y
           Definition: Pay.gov is a financial management transaction. It offers a suite of online electronic financial services that FA can use to
              meet their responsibilities towards the public.
           Indicator Type: Measure
           Data Capture and Source: Pay.Gov has been developed to meet the FMS commitment to process collections electronically using
              Internet technologies. Pay.Gov is a secure government-wide collection portal. The application is web-based allowing custom-
              ers to access their accounts from any computer with Internet access. The Pay.Gov application is comprised of four services:
              Collections (ACH and Credit Card), Forms, Billing/Notification, and Reporting.
           Data Verification and Validation: Data is verified and validated on a monthly, quarterly, and yearly basis. Reporting is presented from
              the Federal Reserve Bank of Cleveland, as well as through CA$H-LINK and Fifth Third Bank (credit Card only). These num-
              bers are cross checked to verify accuracy.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal and plans to meet its future goals with its
              efficient operations.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                      290
                                                                                                   Part IV — Other Accompanying Information




Measure: Percentage Collected Electronically of Total Dollar Amount of Federal Government Receipts (Oe)
                                       FY 2005               FY 2006               FY 2007                FY 2008               FY 2009
                       Target            82                    83                     80                    79                    80
                       Actual            79                    79                     79                    80
                  Target met?             N                     N                     N                      Y
Definition: Electronic collections data are retrieved from the CA$H-LINK system, which encompasses eight collection systems.
Indicator Type: Measure
Data Capture and Source: This measure considers the percentage of government collections that are collected by electronic mecha-
   nisms (Electronic Federal Tax Payment System, Plastic Card, FEDWIRE Deposit System, Automated Clearinghouse (ACH))
   compared to total government collections. The system receives deposit and accounting information from local depositories and
   provides detailed accounting information to STAR, FMS’ central accounting and reporting system.
Data Verification and Validation: The agencies that report collections are responsible for ensuring the deposit reports are correct.
   Financial institutions and Federal agencies report deposits into the CA$H-LINK deposit reporting system using an Account
   Key which identifies the collection mechanism (lockbox, which is non-electronic or ACH, electronic) through which the collec-
   tion was made. FMS analysts gather deposit information from CA$H-LINK reports and then report totals and percentages on
   a monthly Collections Summary Report and on the Total Government Collections Report. The Total Government Collections
   Report totals all deposits divided into electronic/non-electronic mechanisms and tax and non-tax totals within the mechanisms.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. FMS will continue to work with agencies to
   promote the use of web and electronic technologies for revenue collection.


Measure: Unit Cost to Process a Federal Revenue Collection Transaction (E)
                                       FY 2005               FY 2006               FY 2007                FY 2008               FY 2009
                       Target            1.4                  1.37                   1.33                   1.3                   1.3
                       Actual            1.2                   1.1                   1.19                  1.23*
                  Target met?             Y                     Y                     Y                      Y
Definition: The unit cost to process a revenue collection transaction.
Indicator Type: Measure
Data Capture and Source: The cost data is captured through an activity based costing process. The unit cost is the calculated ratio of
   total direct and indirect costs over total government-wide collection transactions.
Data Verification and Validation: At the end of each year actual costs for collections are accumulated and calculated for electronic and
   non-electronic collections. In addition, the number of transactions is calculated for each collection system. This information is
   calculated in conjunction with and verified by the program office, and is reviewed by senior level executives.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. In the future, FMS will continue to expand
   electronic collection tools to other agencies in an effort to improve efficiency and keep costs low. FMS has initiated a com-
   prehensive effort to streamline, modernize and improve the processes and systems supporting Treasury’s collections and cash
   management program. This effort will improve financial performance by enabling FMS and government agencies to more effec-
   tively manage financial transaction information and improve the efficiency of the collections information reporting processes.




291                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Amount of Delinquent Debt Collected Per $1 Spent (E)
                                                 FY 2005               FY 2006               FY 2007                FY 2008               FY 2009
                                  Target          41.09                  36.4                  36.5                   40                    43
                                  Actual          36.23                 39.97                 53.55                 54.82*
                            Target met?             N                     Y                     Y                      Y
           Definition: This measure shows the efficiency of the Debt Collection program. The costs include all debt collection activities and all
              funding sources.
           Indicator Type: Measure
           Data Capture and Source: Collection of data and reporting on the cost of the debt collection program are performed on an annual
              basis.
           Data Verification and Validation: Data from FMS’ collection program systems is validated against data contained in FMS’ Debt
              Management Accounting System by program staff and verified by senior management. Program costs are derived from FMS’
              accounting system and budget reports. The methodology and the origin of the data are consistent from year to year.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. FMS will continue to look for efficiencies to
              lower program costs by streamlining debt management systems while increasing delinquent debt collected.


           Measure: Amount of Delinquent Debt Collected Through All Available Tools ($ billions) (Ot)
                                                 FY 2005               FY 2006               FY 2007                FY 2008               FY 2009
                                  Target            3                    3.1                    3.2                   3.4                   3.9
                                  Actual           3.25                  3.34                  3.76                  4.41
                            Target met?             Y                     Y                     Y                      Y
           Definition: This measure provides information on the total amount collected, in billions, through debt collection tools operated by
              Debt Management Services.
           Indicator Type: Measure
           Data Capture and Source: The process of collecting and reporting the debt collection data is performed on a monthly basis. The meth-
              odology and the origin of the data are consistent from month to month. The collection data is generated by the program systems
              (TOP and DMSC) and is reported on a monthly basis. The tools include: tax refund offset, administrative offset, private collec-
              tion agencies, demand letters, and credit bureau reporting. FMS also collects debt through the State debt program and tax levy.
           Data Verification and Validation: The data from the program systems is validated against the data contained in the Debt Management
              Account System (DMAS).
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: FMS had record collections in fiscal year 2008 as a result of program efficiencies, streamlining
              systems and increased volumes in the Federal Payment Levy program. For the future, FMS will continue these efforts as well as
              work to incorporate additional payment types into the payment offset and levy programs.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        292
                                                                                                    Part IV — Other Accompanying Information




 Measure: Percentage of Delinquent Debt Referred to FMS for Collection Compared To Amount Eligible For Referral (Ot)
                                        FY 2005               FY 2006                FY 2007               FY 2008            FY 2009
                        Target            92                     93                    94                        95              97
                        Actual            97                     95                    100                       99
                   Target met?             Y                     Y                      Y                        Y
 Definition: The measure tracks the percentage of the dollar volume of debt referred to the total dollar volume that is eligible for
    referral.
 Indicator Type: Measure
 Data Capture and Source: The process of collecting and reporting the debt collection data is performed on a monthly basis. The meth-
    odology and the origin of the data are consistent from month to month. The referral data is contained in the program systems
    (TOP and DMSC). The referral data is loaded from the files received from Federal Program Agencies (AFPAs).
 Data Verification and Validation: The agencies are responsible for certifying the debt referrals to Treasury.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: FMS has met the target performance measure for fiscal year 2008. FMS will continue to educate
    and encourage agencies to refer all eligible delinquent debt in a timely manner.



Alcohol and Tobacco Tax and Trade Bureau
 Measure: Amount of Revenue Collected Per Program Dollar (E)
                                        FY 2005               FY 2006                FY 2007               FY 2008            FY 2009
                        Target                                                                             Baseline              300
                        Actual                                                                               313
                   Target met?            N/A                   N/A                    N/A                       Y
 Definition: Represents the amount of federal excise taxes collected divided by the amount of resources expended to collect the taxes.
 Indicator Type: Measure
 Data Capture and Source: Taxes collected are captured by the Federal Excise Tax database; expense data are maintained in Oracle
    Financials.
 Data Verification and Validation: Both of these components represent information that is subject to annual audits and routine
    reconciliation.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: TTB discontinued the “Resources as a percentage of revenue” measure and instituted this
    new measure in fiscal year 2008 with a revised compilation methodology. In fiscal year 2009, TTB expects a slight decline in
    revenues, largely due to the erosion of tobacco collections (an average loss of $50 million each year), related to public policy sur-
    rounding tobacco products. Any decline in revenues, caused by fluctuating demand for alcohol and tobacco products or public
    policy decisions, affects our return on the public investment in the Collect the Revenue program. Still, this measure offers an
    important gauge of TTB’s effectiveness in using its budget efficiently to collect excise tax. To improve upon our efficiency in fis-
    cal year 2009, TTB will explore options for an automated permit application system that will greatly reduce the processing time
    and turnaround for permits. If this system were to be implemented, taxpayers will be able to commence business sooner and
    thus remit taxes sooner. Additionally, the Tax Audit Division has developed an aggressive annual audit plan that incorporates a
    new risk model that takes effect in fiscal year 2009; the risk model is reviewed and updated annually. In fiscal year 2008, TTB
    found unpaid tax liabilities resulting from the industry’s misuse of alcohol for fuel use and unsupported exports. By continuing to
    focus on these areas, TTB can potentially detect and collect millions in additional tax revenue rightfully due under the Internal
    Revenue Code. TTB also is developing procedures to fully investigate and audit persons suspected of being involved in diversion
    schemes to avoid payment of taxes.




293                     Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percent of Voluntary Compliance from Large Taxpayers in Filing Tax Payments Timely and Accurately (In Terms of Revenue)
           (Oe)
                                                  FY 2005               FY 2006               FY 2007               FY 2008              FY 2009
                                  Target                                                                            Baseline                92
                                  Actual                                                                              94
                             Target met?            N/A                   N/A                   N/A                    Y
           Definition: The percentage of total revenue dollars from taxpayers who file over $50,000 in tax payments annually collected on or
              before the scheduled due date (without notification of any delinquency from the National Revenue Center).
           Indicator Type: Measure
           Data Capture and Source: The NRC maintains all tax return and payment information in the FET system.
           Data Verification and Validation: The National Revenue Center (NRC) generates reports to identify late-filed returns and payments in
              the Federal Excise Tax (FET) system.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: The National Revenue Center (NRC) consistently achieved a voluntary compliance rate of 90
              percent or higher in fiscal year 2008 from large taxpayers (owing $50,000 or more in excise tax payments annually). However,
              due to the influx of newly permitted taxpayers combined with the saturation of Pay.gov by longer term taxpayers, TTB expects
              more modest improvements in voluntary compliance in fiscal year 2009. We will focus our efforts on educational programs, such
              as TTB Expo 2009, in which our staff will provide advanced instruction on how to properly report operations and pay excise
              taxes.


           Measure: Cumulative Percentage of Excise Tax Revenue Audited Over 3 Years (Ot) [DISCONTINUED FY 2008]
                                                  FY 2005               FY 2006               FY 2007               FY 2008              FY 2009
                                  Target            65                    90                    12                Discontinued         Discontinued
                                  Actual            82                    93                    16
                             Target met?             Y                     Y                     Y                    N/A

           Definition: The portion of total excise tax revenue that is audited in the fiscal years covered in the 5-year period.
           Indicator Type: Measure
           Data Capture and Source: TTB tracks completion of all scheduled audits.
           Data Verification and Validation: Audit results–we designed the audit to verify and validate the accuracy of the revenue collected for the
              entity (ies) audited in the given fiscal year.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008. TTB’s historical audit results have shown
              more pervasive industry member non-compliance and potential excise tax liability among small and mid-size taxpayers as well as
              among those operating outside the regulatory system. Discontinuing this external measure gives TTB the flexibility to leverage
              its limited resources to audit the high-risk industry members identified in risk models while still maintaining a visible presence
              with its largest taxpayers.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       294
                                                                                                Part IV — Other Accompanying Information




Measure: Percentage of Total Tax Receipts Collected Electronically (%) (E) [DISCONTINUED FY 2008]
                                      FY 2005              FY 2006               FY 2007                 FY 2008            FY 2009
                       Target           98                    98                    98               Discontinued         Discontinued
                       Actual           98                    98                    98
                  Target met?            Y                    Y                     Y                      N/A

Definition: The portion of total tax collected from taxpayers via electronic funds transfer (EFT).
Indicator Type: Measure
Data Capture and Source: Data on tax payments made electronically are recorded in Cashlink (Deposit reporting and cash concentra-
   tion system). The Revenue Accounting Unit retrieves the wire transfer information from Cashlink. The detail records are input
   into the Electronic Wire Transfer table using the Federal Excise Tax System.
Data Verification and Validation: When the tax return is processed the system displays all unmatched EFT messages for the taxpayer.
   The NRC selects the payment that matches the tax return. The system then records the control number of the tax return in the
   Electronic Wire Transfer table, updates the Returns table to show the return closed and posts tax liability and payment transac-
   tions to the Audit table.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008 as part of a review of its performance mea-
   sures. TTB determined that its goal in measuring our performance in EFT collections has been met.


Measure: Percentage of Voluntary Compliance in Filing Tax Payments Timely and Accurately (In Terms of Number of Compliant
Industry Members) (Oe) [DISCONTINUED FY 2008]
                                      FY 2005              FY 2006               FY 2007                 FY 2008            FY 2009
                       Target           70                    74                    74               Discontinued         Discontinued
                       Actual           70                  75.95                   75
                  Target met?            Y                    Y                     Y                      N/A

Definition: The portion of total taxpayers that file payments on or before the scheduled due date, without notification of any
   delinquency.
Indicator Type: Measure
Data Capture and Source: TTB maintains late-filed tax payments in FETS.
Data Verification and Validation: TTB runs reports to identify late-filed returns and payments in FET.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008 and developed a new measure with revised
   methodology - “Percentage of voluntary compliance from large taxpayers in filing tax payments timely and accurately (in terms
   of revenue).” TTB determined that measuring timely and accurate payments is a more reliable indicator of compliance versus the
   number of compliant industry members. The new parameters account for the timeliness and accuracy of payments, and center
   on large taxpayers owing more than $50,000 in excise tax annually. This group has less flexibility in the method and frequency of
   payment, eliminating the need for estimation in reporting the percentage of voluntary compliance. Also, “large” taxpayers consti-
   tute 99.8 percent of TTB tax collections on an annual basis, which provides a true indication of the compliance level of industry.




295                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percentage of Voluntary Compliance in Filing Timely and Accurate Tax Payments (In Terms of Revenue) (Oe) [DISCONTINUED
           FY 2008]
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target            84                    86                    86               Discontinued          Discontinued
                                  Actual           86.3                  87.2                 86.37
                            Target met?             Y                     Y                     Y                    N/A

           Definition: The portion of total taxpayers, by revenue, that file payments on or before the schedule due date without notification of
              any delinquency.
           Indicator Type: Measure
           Data Capture and Source: Late filed tax payments are maintained in the Federal Excise Tax system (FET).
           Data Verification and Validation: The Unit Supervisor has the capability to run canned reports to identify late filed returns and pay-
              ments in FET.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008 and developed a new measure with revised
              methodology - “Percentage of voluntary compliance from large taxpayers in filing tax payments timely and accurately (in terms
              of revenue).” New legislation that allows the quarterly filing of tax returns for qualified industry members nullified the assump-
              tions involved in the original compilation methodology regarding the frequency of payment. The new parameters account for the
              timeliness and accuracy of payments, and center on large taxpayers owing more than $50,000 in excise tax annually. This group
              has less flexibility in the method and frequency of payment, eliminating the need for estimation in reporting the percentage of
              voluntary compliance. Also, “large” taxpayers constitute 99.8 percent of TTB tax collections on an annual basis, which provides a
              true indication of the compliance level of industry.


           Measure: Resources as a Percentage of Revenue (E) [DISCONTINUED FY 2008]
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target            .4                   .34                   .34               Discontinued          Discontinued
                                  Actual           .37                   .31                   .31
                            Target met?             Y                     Y                     Y                    N/A

           Definition: Represents the amount of resources expended to collect taxes, divided by the amount of taxes collected.
           Indicator Type: Measure
           Data Capture and Source: Taxes collected is captured by the Federal Excise Tax database; expense data is maintained in Oracle
              Financials.
           Data Verification and Validation: Both of these components represent information that is subject to annual audits and routine
              reconciliation.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008 and replaced it with a new measure, “Amount
              of revenue collected per program dollar,” and revised the compilation methodology.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                      296
                                                                                                   Part IV — Other Accompanying Information




 Measure: Unit Cost to Process an Excise Tax Return (E) [DISCONTINUED FY 2008]
                                 FY 2005                FY 2006                 FY 2007               FY 2008                 FY 2009
               Target                                                                76             Discontinued            Discontinued
               Actual                                     76                         61
         Target met?               N/A                     Y                         Y                  N/A

 Definition: The cost of resources that it takes to process one excise tax return.
 Indicator Type: Measure
 Data Capture and Source: Capturing excise tax returns: Tax returns are submitted via mail and the Pay.gov system. Mail submissions
    are assigned a unique control number and date of receipt is logged into the Integrated Revenue Information System (IRIS). Pay.
    gov assigns a unique number and date of submission automatically. This information is then transmitted and consolidated in
    IRIS. TTB generates a report from IRIS indicating the number of tax returns processed. Capturing resource cost data: NRC
    captures resource expenses in the Status of Funds Report in Discoverer (Oracle Financial Reporting System).
 Data Verification and Validation: Capturing excise tax returns: TTB reconciles the returns received vs. logged returns daily. Capturing
    resource cost data: Resource data is captured and available four times a day in Discoverer.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008 as part of a review and revision that resulted
    in a new suite of measures that better represent the Bureau’s performance.



Internal Revenue Service
 Measure: Automated Collection System (ACS) Accuracy (%) (Oe)
                                           FY 2005             FY 2006                   FY 2007         FY 2008               FY 2009
                        Target               88                   88                       91              92                    92
                        Actual              88.5                  91                      92.9            95.3
                   Target met?                Y                   Y                         Y                 Y
 Definition: Percent of taxpayers who receive the correct answer to their ACS question.
 Indicator Type: Measure
 Data Capture and Source: The Centralized Quality Review System (CQRS) monitors the calls as they are reviewed. Data is input to
    the Quality Review Database for product review and reporting.
 Data Verification and Validation: 1.CQRS management samples QRDbv2 records and validates that sample plans have been fol-
    lowed. 2. CQRS management reviews QRDbv2 employee input DCIs for consistency and coding. 3. CQRS tracks and reviews
    rebuttals quarterly, and an annual sample of each product line’s rebuttals are performed. 4. A rebuttal web site is used to share
    technical and coding issues in CQRS.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: The IRS will leverage the process improvements made in prior years and use prior year accuracy
    statistics to better focus managerial reviews.




297                     Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Automated Underreporter Coverage (E)
                                                    FY 2005              FY 2006              FY 2007            FY 2008               FY 2009
                                 Target             Baseline               2.3                   2.5                  2.5                2.5
                                 Actual               2.2                  2.4                   2.5                  2.55
                            Target met?                Y                    Y                    Y                     Y
           Definition: The sum of all individual returns closed, by SB/SE and W&I AUR divided by the total individual return filings for the
              prior calendar year. Effective: 10/2006
           Indicator Type: Measure
           Data Capture and Source: NUMERATOR: The sum of all individual returns closed will be extracted as follows: SB/SE AUR: AUR
              MISTLE Report W&I AUR: AUR MISTLE Report DENOMINATOR: The source for the total individual return filings
              for the prior calendar year is the Office of Research Projections of return filings as shown in IRS Document 6187 (Table 1A ).
              AUR MISTLE AUR Management Information System for Top Level Executives (MISTLE)
           Data Verification and Validation: 1.AUR run controls are reviewed to see if the weekend processing has been completed and are accu-
              rate. 2. MISTLE reports are reviewed with other AUR reports to see if processing has been completed and are accurate. 3.
              MISTLE reports are reviewed to see if information is complete and accurate.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: The IRS plans to leverage prior process improvements implemented to improve workload selec-
              tion and productivity, reducing the number of cases closed without taxpayer contact.


           Measure: Automated Underreporter (AUR) Efficiency (E)
                                          FY 2005               FY 2006                FY 2007                 FY 2008                FY 2009
                        Target             1701                  1759                   1932                    1961                   2022
                        Actual             1701                  1832                   1956                    1982
                   Target met?               Y                       Y                    Y                       Y
           Definition: The sum of all individual returns closed by AUR in SB/SE and W&I divided by the Total staff years expended in rela-
              tion to those individual returns. Effective: 10/2006
           Indicator Type: Measure
           Data Capture and Source: Each case initiated in AUR results in a closure either in the pre-notice or notice phases. All closing actions
              are posted on the system through the use of process codes that describe the reason& type of closure. Pre-notice closures (no
              taxpayer contact) include screenouts (discrepancy accounted for on the return), transfers and referrals. Pre-notice closures are
              included in the Efficiency Measure numerator. Notice phase closures can be posted at the CP2501, CP2000 or Statutory phases.
              Tax examiners evaluate taxpayer/practitioner responses to the notice and close cases using process codes that denote the respon-
              dent’s full or partial agreement or disagreement, no change to the original tax liability, transfer or referral. Time: Examiners
              complete Form 3081 to record time charged to each program code. The Form 3081 is input onto the WP&C system and a
              Resource Allocation Report generated. Source: Management Information System for Top Level Executives (MISTLE).
           Data Verification and Validation: Closures – 1.AUR run controls are reviewed to see if the weekend processing has been completed
              and are accurate. 2. MISTLE Reports are reviewed with other AUR reports to see if processing has been completed and are
              accurate. 3. MISTLE reports are reviewed to see if information is complete and accurate. Time - 1.Managers review Form 3081
              prior to input to verify that time is appropriately charged. 2. WP&C monitored to ensure appropriate time usage.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: The IRS will leverage the process improvements implemented in fiscal year 2008 to improve
              workload selection and productivity and reduce the number of cases closed with taxpayer contact.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                      298
                                                                                               Part IV — Other Accompanying Information




Measure: Percent of BSM Projects Within +/- Cost Variance (E)
                                     FY 2005               FY 2006              FY 2007              FY 2008               FY 2009
                      Target                                                                         Baseline                90
                      Actual                                                                            92
                 Target met?           N/A                   N/A                  N/A                   Y
Definition: The percent of projects that were within +/- 10% cost variance by release/sub-release of a Business Systems
   Modernization (BSM) funded project’s initial approved cost estimate versus current, approved cost estimate. Cost variances less
   than or equal to +/- 10% are categorized as being within acceptable tolerance thresholds. Cost variances greater than +/- 10% of
   the variance are categorized as being outside of acceptable thresholds.
Indicator Type: Measure
Data Capture and Source: The data is collected from the approved and enacted Expenditure Plan and subsequent modifications
   resulting from changes to project cost plans as approved via the BSM Governance Procedures and documented by the Resource
   Management Office.
Data Verification and Validation: The baseline data will be reviewed/ validated by the Program Performance Management (PPM) Team
   and Manager. To indicate the baseline is valid and approved, the manager will send a notification that the data (Excel spread-
   sheets) may be placed in the PPM shared library. Before the measure is reported, the PPM Team and Manager will review/
   validate the report. The PPM Manager will provide the monthly report to the Deputy Associate CIO for Business Integration for
   approval. Concurrence will be obtained from the Associate CIO for BSM. To indicate the report is validated and approved, the
   manager will send a notification to store the report in the PPM shared library and report on Improvement Measure externally.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: The IRS will continue reporting on the cost variance measure in accordance with the agreed
   upon performance methodology. Variance exceeding the +/- 10 percent threshold is subject to IRS change notification pro-
   cess review, Executive Steering Committee approval and, if applicable, Modernization and Information Technology Services
   Enterprise Governance Committee approval.




299                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percent of BSM Projects Within +/- Schedule Variance (E)
                                                 FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                                  Target                                                                            Baseline                 90
                                  Actual                                                                               92
                             Target met?           N/A                    N/A                   N/A                    Y
           Definition: The percent of projects that were within +/- 10% schedule variance by release/sub-release of a BSM funded project’s ini-
              tial approved schedule estimate versus current, approved schedule estimate. Schedule variances less than or equal to +/- 10% will
              be categorized as being within acceptable tolerance thresholds. If schedule variances are greater than +/- 10%, the variance will
              be categorized as being outside of acceptable thresholds.
           Indicator Type: Measure
           Data Capture and Source: The data is collected at the time of Expenditure Plan creation and subsequent modifications resulting
              from changes to project schedule plans as approved via the BSM Governance Procedures and documented by the Resource
              Management Office.
           Data Verification and Validation: The baseline data will be reviewed/ validated by the Program Performance Management (PPM) Team
              and Manager. To indicate the baseline is valid and approved, the manager will send a notification that the data (Excel spread-
              sheets) may be placed in the PPM shared library. Before the measure is reported, the PPM Team and Manager will review/
              validate the report. The PPM Manager will provide the monthly report to the Deputy Associate CIO for Business Integration
              for approval. Concurrence will be obtained from the Associate CIO for BSM. To indicate the report is validated and approved,
              the manager will send a notification to store the report in the PPM shared library and report on Improvement Measure
              externally.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: The IRS will continue reporting on the schedule variance measure in accordance with the
              agreed upon performance methodology. Variance exceeding the +/- 10 percent threshold is subject to IRS change notification
              process review, Executive Steering Committee approval and, if applicable, Modernization and Information Technology Services
              Enterprise Governance Committee approval. Schedule variances exceeding +/- 10 percent or $1 million require Congressional
              notification. At each review juncture, management ensures that proposed project changes as reported in the BSM expenditure
              plan are valid and that mitigation plans are in place when applicable.


           Measure: Collection Coverage - Units (Oe)
                                                 FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                                  Target                                  52                    54                     53                  54.74
                                  Actual                                  54                    54                    55.2
                             Target met?           N/A                     Y                     Y                     Y
           Definition: The volume of collection work closed as compared to the volume of collection work available.
           Indicator Type: Measure
           Data Capture and Source: The data comes from the Collection Activity Report (CAR.)
           Data Verification and Validation: 1. Changes to programming of Collection Activity Reports are generally made once a year. Those
              changes are tested and verified by program analysts at headquarters before the first new report is released. Monthly spot checks
              are also done to verify they match the data sent to the DataMart. 2. Accuracy of Automated Offer in Compromise database is
              validated by management checks in the operating units.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: The IRS plans to continue to facilitate the process for allocating its resources and planning for
              program delivery through the Collection Governance Council. This will ensure enterprise-wide coordination of case selection
              and delivery decisions.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                         300
                                                                                                   Part IV — Other Accompanying Information




Measure: Collection Efficiency - Units (E)
                                      FY 2005                FY 2006               FY 2007                FY 2008               FY 2009
                       Target         Baseline                1650                   1723                  1835                   1935
                       Actual           1514                  1677                   1828                  1926
                  Target met?            Y                      Y                     Y                      Y
Definition: The total work disposed (sum of all modules) by the Automated Collection System and the Collection field function
   divided by the total FTE realized for those areas (Total work disposed = delinquent accounts, investigations, offer-in-compro-
   mise, automated substitution for return).
Indicator Type: Measure
Data Capture and Source: The data comes from the Collection Activity Report (CAR) and the Integrated Financial System (IFS).
Data Verification and Validation: 1.Changes to programming of Collection Activity Reports is generally made once a year. Those
   changes are tested and verified by program analysts at headquarters before the first new report is released. Monthly spot checks
   are also done to verify they match the data sent to the DataMart. 2. Accuracy of Automated Offer in Compromise database is
   validated by management checks in the operating units.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: The IRS plans to continue to facilitate the process for allocating its resources and planning for
   program delivery through the Collection Governance Council to ensure enterprise-wide coordination of case selection and deliv-
   ery decisions.


Measure: Conviction Efficiency Rate (Cost Per Conviction) (E)
                                      FY 2005                FY 2006               FY 2007                FY 2008               FY 2009
                       Target          332194                339565                314008                 317625                317100
                       Actual          295316                328750                301788                 315751
                  Target met?            Y                      Y                     Y                      Y
Definition: The cost of CI’s program divided by the number of convictions. The number of convictions is the total number of cases with
   the following CIMIS statuses: guilty plea, nolo contendere, judge guilty or jury guilty. The Criminal Investigation financial plan
   includes all appropriations and reimbursements for the entire year. It is the fully loaded cost, including employees’ salaries, benefits,
   and vacation time, as well as facility costs (office space, heating, cleaning, computers, security, etc.), and other overhead costs.
Indicator Type: Measure
Data Capture and Source: The final fiscal year-end expenses as documented in IFS plus corporate costs as determined by the Chief
   Financial Officer divided by the number of convictions reported for the year. The source: CI Management Information System
   (CIMIS) and the Integrated Financial System (IFS)
Data Verification and Validation: Criminal Investigation management dictates that the lead agent assigned to the investigation and/or
   the agent’s manager(s) input investigation data directly into CIMIS. Agents and management are to enter status updates into
   CIMIS within five calendar days of the triggering event. Further, upper management directs first line managers to review indi-
   vidual work group CIMIS reports for accuracy each month to ensure any system input errors or omissions are corrected within
   30 days of the initial issuance of the monthly data tables. The CFO, Associate CFO for Internal Financial Management, and
   Associate CFO Corporate Performance Budgeting ensure the functionality and accuracy of the Integrated Financial System-the
   Service’s core accounting system of records. (Rev. 1-07)
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: The Conviction Efficiency Rate (CER) 2009 target was reduced to $317,100 from $321,940,
   an amount calculated last year. The CER is calculated by dividing the entire Criminal Investigation financial plan including all
   appropriations and reimbursements for the entire year by the number of Convictions for the year. The fiscal year 2009 Budget
   Continuing Resolution coupled with anticipated lower reimbursable and asset forfeiture amounts over last year will result in a
   smaller financial plan number, the numerator in the equation. Criminal Investigation has adjusted the target to better reflect this
   lower dollar amount and smaller Conviction Efficiency Rate result.




301                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Conviction Rate (Oe)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                 Target            92                    92                    92                    92                    92
                                 Actual           91.2                   92                   90.2                  92.3
                            Target met?             N                     Y                     N                     Y
           Definition: The percent of adjudicated criminal cases that result in convictions. The conviction rate is defined as the total number of
              cases with CIMIS status codes of guilty plea, nolo-contendere, judge guilty, or jury guilty divided by these status codes and nolle
              prosequi, judge dismissed and jury acquitted.
           Indicator Type: Measure
           Data Capture and Source: Cases are tracked in CIMIS with frequent updates to the status code.
           Data Verification and Validation: Criminal Investigation management dictates that the lead agent assigned to the investigation and/
              or the agent’s manager(s) input investigation data directly into CIMIS. Agents and management directs first line managers to
              review individual work group CIMIS reports for accuracy each month to ensure any system input errors or omissions are cor-
              rected within 30 days of the initial issuance of the monthly data tables. (Rev. 1-07) Standardized reports extract data related to
              the status codes sited above on a monthly basis. This calculation is performed monthly.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Criminal Investigation’s conviction rate historically has been among the highest of any Federal
              law enforcement agency. One of the ambitious goals CI has set for itself is to obtain a conviction rate of 92%. For fiscal year
              2008 CI narrowly exceeded this goal by achieving a conviction rate of 92.3%.


           Measure: Criminal Investigations Completed (Ot)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                 Target           3895                  3945                  4000                  4000                  3900
                                 Actual           4104                  4157                  4269                  4044
                            Target met?             Y                     Y                     Y                     Y
           Definition: The total number of subject criminal investigations completed during the fiscal year, including those that resulted in pros-
              ecution recommendations to the Department of Justice as well as those discontinued due to a lack of prosecution potential.
           Indicator Type: Measure
           Data Capture and Source: Criminal Investigations Management Information System (CIMIS)
           Data Verification and Validation: The guidance and direction given by upper management to first line managers is that the first line
              managers should review their individual work group CIMIS data tables at the beginning of each month. The use of this pro-
              cedure will assure that system input errors are corrected no later than 30 days after the error is initially reported in the monthly
              CIMIS data tables. Additionally, national standard monthly reports and statistical information are circulated among the senior
              staff and headquarter analysts for their review and use. If the published information on the official critical measure appears to be
              out of line with what is normal or expected, headquarters analysts or senior staff request that the CI research staff verify that the
              published and circulated information and/or report is accurate. If the published and circulated information is not accurate, then
              the CI research staff corrects the error and issues revised data for the month.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Criminal Investigation will continue to utilize a balanced enforcement program to facilitate
              the development and prosecution of quality financial investigations. The intent of enforcement efforts is to produce a strong
              deterrent effect, enhancing voluntary compliance and promoting confidence in the fairness of the tax system. The focus of CI’s
              resources in fiscal year 2009 will be on the development of complex, high impact investigations, training of new hires, and
              enhanced efforts to reduce the escalating pipeline inventory. Declining investigative resources, however, are expected to nega-
              tively influence the number of investigation completed. The target for completed investigations has consequently been reduced
              from 4025 in fiscal year 2008 to 3900 in fiscal year 2009.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        302
                                                                                               Part IV — Other Accompanying Information




Measure: Customer Accuracy - Customer Accounts (Phones) (Oe)
                                     FY 2005               FY 2006              FY 2007               FY 2008              FY 2009
                      Target           89.8                  92                   93.3                 93.5                 93.7
                      Actual           91.5                 93.2                  93.4                 93.7
                 Target met?            Y                     Y                    Y                     Y
Definition: The percentage of correct answers provided by a telephone assistor. The measure indicates how often customers receive
   the correct answer to their account inquiry and/or had their case resolved correctly based upon all available information and
   Internal Revenue Manual required actions.
Indicator Type: Measure
Data Capture and Source: Quality reviewers on the Centralized Quality staff complete a data collection instrument as calls are
   reviewed. Data is input to the Quality Review Database for product review and reporting.
Data Verification and Validation: Field 715 on the DCI is coded by the CQRS monitor as calls are reviewed. Data is input to the
   NQRS. The NQRS contains several levels of validation that occur as part of the review process. The input records are validated
   requiring entries and combinations of entries based upon the relationships inherent in different product lines or based upon an
   entry in a quality attribute. The national reviews conducted by CQRS site staff on telephone product lines are sampled by local
   management and management officials at the CQRS site. In addition, every review is available on-line to the site for verification
   purposes. Sites monitor their review records daily and have a small rebuttal period to contest any review.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: Incremental improvement in performance is expected in fiscal year 2009 and beyond from con-
   tinued improvement efforts such as the development of new online tools for assistors to research taxpayer questions.


Measure: Customer Accuracy - Tax Law Phones (%) (Oe)
                                     FY 2005               FY 2006              FY 2007               FY 2008              FY 2009
                      Target           82                    90                   91                    91                   91
                      Actual           89                   90.9                  91.2                 91.2
                 Target met?            Y                     Y                    Y                     Y
Definition: The percentage of correct tax law answers provided by a telephone assistor. The measure indicates how often customers
   receive the correct answer to their tax law inquiry based upon all available information and Internal Revenue Manual required
   actions.
Indicator Type: Measure
Data Capture and Source: Quality reviewers on the Centralized Quality staff complete a data collection instrument as calls are
   reviewed. Data is input to the Quality Review Database for product review and reporting.
Data Verification and Validation: Field 715 on the DCI is coded by the CORS monitor as calls are reviewed. Data is input to the
   NQRS. The NQRS contains several levels of validation that occur as part of the review process. The input records are validated
   requiring entries and combinations of entries based upon the relationships inherent in different product lines or based upon an
   entry in a quality attribute. The national reviews conducted by CORS site staff on telephone product lines are sampled by local
   management and management officials at the CORS site. In addition, every review is available on-line to the site for verification
   purposes. Sites monitor their review records daily and have a small rebuttal period to contest any review.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: The IRS will maintain Tax Law Accuracy above 90 % in fiscal year 2009. The type and com-
   plexity of tax law questions changes each year as new and often complex tax laws are enacted.




303                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Customer Contacts Resolved Per Staff Year (E)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                 Target           7261                  7477                  7702                  8000                  9686
                                 Actual           7585                  7414                  7648                 12634
                            Target met?             Y                     N                     N                     Y
           Definition: The number of Customer Contacts resolved in relation to time expended based on staff usage. Customer Contacts
              Resolved are derived from all telephone and paper inquiries received by Accounts Management, in which all required actions
              have been taken, and the taxpayer has been notified as appropriate. The measure includes all self-service, Internet-based applica-
              tions, such as the “Where’s My Refund?” service available on www.irs.gov.
           Indicator Type: Measure
           Data Capture and Source: Contacts resolved volumes are derived from internal telephone management systems and modernization
              project websites. Staff year data is extracted from the weekly Work Planning & Control report and consolidated and included in
              the weekly resource usage report.
           Data Verification and Validation: 1. Data is compiled from several sources (see individual components below). Each area is responsible
              for component accuracy: Enterprise Telephone Data (ETD) Snapshot Report, Accounts Management Information Report
              (AMIR), Internet Refund/Fact of Filing, MIS Reporting Tool, Electronic Tax Administration (ETA) Website, Work Planning
              & Control (WP&C) Report, Resource Allocation Report (RAR)
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: The Service continued to handle customer contacts effectively with the resources available.
              The Customer Contacts Resolved per Staff Year (CCR) rate was above the planned rate due to the continued impact of the
              Economic Stimulus Payment. Usage of the web service continued to show a significant increase, reporting 38.7 million comple-
              tions. The total usage of all web services was 83 million completions which is 113% above plan. The IRS is expecting efficiency
              to continue to increase as more taxpayers choose to use automated means to contact the IRS instead of traditional, labor inten-
              sive methods.


           Measure: Customer Service Representative (CSR) Level of Service (%) (Oe)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                 Target            82                    82                    82                    82                    77
                                 Actual           82.6                   82                   82.1                  52.8
                            Target met?             Y                     Y                     Y                     N
           Definition: The number of toll-free callers that either speak to a Customer Service Representative or receive automated informational
              message divided by the total number of attempted calls.
           Indicator Type: Measure
           Data Capture and Source: Enterprise Telephone Database (ETD)
           Data Verification and Validation: 1. Validation of monthly report data by W&I P&A staff. 2. The JOC validates CSR LOS data prior
              to publication of the weekly official Snapshot report. Independent weekly CSR LOS source data is also gathered and validated
              by comparing data with the data used to produce the official Snapshot report.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: For fiscal year 2008, the CSR Level of Service (LOS) was 52.8%, roughly 29 percentage points
              below the target of 82%. The shortfall was caused by the high call volume from the Economic Stimulus Payments (ESP) issu-
              ance. Assistor Services were 119.7% of plan and Calls Answered were 123% of plans as a result of ESP demand. The IRS
              realigned resources to answer calls and seasonal employees were kept on board longer.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       304
                                                                                                  Part IV — Other Accompanying Information




Measure: Examination Coverage - Business Corporations >$10 million (%) (Oe)
                                       FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                       Target             7                    7.3                   8.2                   6.6                   5.8
                       Actual            7.8                   7.4                   7.2                   6.1
                  Target met?             Y                     Y                     N                     N
Definition: The number of Large and Mid-Size Business customer returns with assets greater than $10 million examined and closed
   during the current fiscal year, divided by filing of the same type returns from the preceding calendar year.
Indicator Type: Measure
Data Capture and Source: The number of returns examined and closed during the Fiscal Year is from the Audit Information
   Management System (AIMS) closed case database, accessed via A-CIS (an MS Access application). Filings are from Document
   6186, which is issued by the Office of Research, Analysis and Statistics.
Data Verification and Validation: 1. Examination Support & Processing (ESP) group (SBSE) validates data on AIMS (Detroit server)
   and makes necessary correction. 2. LMSB picks closing codes and downloads data down to (A-CIS) Access database (Atlanta
   server). Charles Johnson (Plantation, FL) validates data, uploads to A-CIS. 3. (LMSB - Chicago) downloads LMSB version
   of data and performs data validation before providing data to CPP. 4. The information is Document 6186 is validated by the
   Office of Research, Analysis and Statistics before it is released.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: IRS exceeded its large business return closures goal of 13,059 returns, closing 13,186 returns.
   However, the coverage percentage dropped to 6.1% due to higher than estimated return fillings. The IRS’ emphasis on stream-
   lining and improving the examination process, coupled with better risk analysis, will continue to provide for early resolution of
   post-filing examination issues and enhance large business examination coverage.


Measure: Examination Coverage - Individual (Oe) (%)
                                       FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                       Target            .9                    .9                     1                     1                     1
                       Actual            .9                     1                     1                     1
                  Target met?             Y                     Y                     Y                     Y
Definition: The sum of all individual returns closed by SB/SE, W&I, and LMSB (Field Examination and Correspondence
   Examination) divided by the total individual return filings for the prior calendar year. In fiscal year 2005, Automated
   Underreported (AUR) cases were included as part of this measure. In fiscal year 2006, AUR is covered as a separate measure.
Indicator Type: Measure
Data Capture and Source: The data comes from the Audit Information Management System (AIMS) closed case data base, the auto-
   mated underreporter Management Information System for Top Level Executives (MISTLE) reports and Research projections
   for individual return filings.
Data Verification and Validation: new measure - verification and validations will be supplied
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: The IRS will continue to balance its audit coverage to emphasize reduction of the tax gap.




305                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Examination Efficiency – Individual (1040 form) (E)
                                                FY 2005               FY 2006               FY 2007              FY 2008             FY 2009
                                 Target           121                   121                  136                   133                140
                                 Actual           121                   128                  137                   138
                            Target met?            Y                      Y                    Y                    Y
           Definition: The sum of all individual returns closed by SB/SE, W&I, and LMSB (Field Examination and Correspondence
              Examination) divided by the Total Full Time Equivalents (FTE) expended in examining those individual returns. In fiscal year
              2005, Automated Underreporter (AUR) cases were included as part of this measure.
           Indicator Type: Measure
           Data Capture and Source: The data comes from the Audit Information Management System (AIMS) closed case data base, the auto-
              mated underreporter Management Information System for Top Level Executives (MISTLE) reports and Exams time reporting
              system and the Integrated Financial System.
           Data Verification and Validation: Closures and AIMS Closures - 1.Case closing documents are reviewed for accuracy during sample
              reviews by managers and quality reviewers. 2. AIMS data is validated prior to distribution. 3. Queries used to retrieve data
              are reviewed for thoroughness and accuracy. Frivolous Filers (Non-AIMS Closures): 1. Cases are reviewed by managers for
              accuracy, timeliness and completeness at any point in the process. 2. Headquarters Analyst reconciles WP&C data to Summary
              Report in order to validate data. SB/SE AUR: Closures – 1.Managerial review samples (phone calls, open and closed cases). 2.
              Checks and balances exist in the AUR Control System to validate the input. 3. Sample physical review of cases closed on the
              AUR Control System by Program Analysis System (“PAS”) for accuracy and appropriateness of actions.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Future plans include leverage National Research Program (NRP) data to improve return selec-
              tion criteria, streamline automation, emphasis on multi-year non-compliance and utilization of risk analysis/assessment in all
              business processes.


           Measure: Examination Quality (LMSB) - Coordinated Industry (%) (Oe)
                                                FY 2005               FY 2006               FY 2007              FY 2008             FY 2009
                                 Target            90                     92                  97                    96                 96
                                 Actual            89                     96                  96                    97
                            Target met?            N                      Y                    N                    Y
           Definition: The average of the percentage of critical elements passed on Coordinated Industry cases reviewed.
           Indicator Type: Measure
           Data Capture and Source: The Large & Mid-Size Business (LMSB) Quality Measurement System (LQMS) database.
           Data Verification and Validation: The Examination Teams make a reasonable effort to keep the CEMIS database accurate and timely
              with milestone completion information. The LQMS Industry Review Team Managers regularly review the work being per-
              formed by the Reviewers. Each Review Group has two senior Review Team Leaders (GS-14 employees) and they are actively
              involved in overseeing the reviews being conducted by their team members. The groups have regularly scheduled meetings at
              which consistent determinations on issues is reviewed by the entire group of Reviewers. The team of Managers and Analysts
              that prepare the quarterly reports are involved in reviewing the conclusions for mistakes and inconsistencies. The Coordinated
              Industry LQMS Program Managers also performs reviews of the work processes in the Coordinated Industry LQMS Groups.
              The review of Specialty issues (such as International, Engineering, Economist, etc.) is done by Specialists in those areas.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: The IRS plans to identify areas that warrant further attention and improvement.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                  306
                                                                                                 Part IV — Other Accompanying Information




Measure: Examination Quality (LMSB) - Industry (Oe)
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                      Target            78                    80                    88                    88                    88
                      Actual            77                    85                    87                    88
                 Target met?             N                     Y                     N                     Y
Definition: The average of the percentage of critical quality attributes passed on Industry cases (corporations, S-corps (pass through
   corporations) and partnerships with assets over $10 million) reviewed.
Indicator Type: Measure
Data Capture and Source: The Large & Mid-Size Business (LMSB) Quality Measurement System (LQMS) database.
Data Verification and Validation: There are controls and validity checks built into the ERCS database that ensure that is captures all
   closed cases. The LQMS Industry Review Team Managers regularly review the work being performed by the Reviewers. Each
   Review Group has two senior Review Team Leaders (GS-14 employees) and they are actively involved in overseeing the reviews
   being conducted by their team members. The groups have regularly scheduled meetings at which consistent determinations on
   issues is reviewed by the entire group of Reviewers. The team of Managers and Analysts that prepare the quarterly reports are
   involved in reviewing the conclusions for mistakes and inconsistencies. The Industry LQMS Program Managers also performs
   reviews of the work processes in the Industry LQMS Groups.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: The IRS plans to identify areas that warrant further attention and improvement.


Measure: Field Collection Embedded Quality (Oe)
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                      Target                                  84.2                  86                    86                    80
                      Actual                                  84.2                  84                    79
                 Target met?            N/A                    Y                     N                     N
Definition: The number of EQ quality attributes that are scored as “met” by an independent centralized review staff divided by the
   total attributes measured (meets + not met) in a sample of closed cases. All measured attributes have the same weight when
   calculating the score.
Indicator Type: Measure
Data Capture and Source: Monthly reports supplied from the EQMS database.
Data Verification and Validation: Cases are sent to the review sites to be reviewed. The cases are then reviewed and results are recorded
   into the CQMS EQ database. A validity check is conducted by EQ review site management. Once the data has been validated
   the information is transmitted to the EQ website.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: For fiscal year 2008, the quality score was 79%, 7% points below the target of 86%. Effort to
   reduce the number of aged cases in the quality inventory, coupled with the overall quality of the older cases had an impact on
   the cumulative quality score. Improvements to job aids, continuation of quarterly reviews and an annual “Quality Summit”
   focusing on specific quality attributes in need of improvement are on-going to focus attention on case quality.




307                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Field Examination Embedded Quality (Oe)
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                 Target                                 85.9                   87                    87                   87
                                 Actual                                 85.9                  85.9                   86
                            Target met?            N/A                    Y                    N                     N
           Definition: The score awarded to a reviewed Field Examination case by a Quality Reviewer using the Examination Quality
              Measurement System (EQMS) quality standards.
           Indicator Type: Measure
           Data Capture and Source: Monthly reports supplied from the EQMS database.
           Data Verification and Validation: A manual validation for inconsistencies in the data input is completed at the end of each monthly
              cycle. Potential errors are sent to the EQMS site managers for either verification or correction. Monthly consistency meetings
              are held with EQMS management, analyst and reviewers to ensure consistent application of the quality ratings.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: During fiscal year 2008, a quality action plan was implemented to address weaknesses identified
              within the Timeliness, Income Probe and Multi-year Pick Up attributes. In addition, area quality improvement teams were
              established to address area specific quality weaknesses. As a result of these efforts, significant improvements with the quality
              score were realized during the second half of fiscal year 2008.


           Measure: HCTC Cost Per Taxpayer Served (E)
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                 Target                                Baseline              14.25                 14.25                  17
                                 Actual                                 13.71                14.93                 16.94
                            Target met?            N/A                    Y                    N                     N
           Definition: Costs associated with serving the taxpayers including program kit correspondence, registration and program participation.
              [IFS Monthly Disbursement – (83% IT Cost + 60% Program Management Costs + Special Projects and Costs + (IRS Non-
              Labor Costs – Printing))] divided by Taxpayers Served * 1.6 Where Taxpayers Served is the unique count of SSNs for primary
              candidates that are enrolled, and/or interact with the customer contact center including correspondence and program kits, 1.6 is
              a factor attributed to the average number of taxpayers served per primary enrollee, to reflect affected Qualified Family Members.
           Indicator Type: Measure
           Data Capture and Source: IRS costs and exclusions: IFS disbursement report Accenture costs and exclusions: Monthly Work Request
              report. Taxpayers served: Health Care Tax Credit Siebel system provides data extracts to the HCTC reporting database, and
              further queries and reports are created from there.
           Data Verification and Validation: 1.Health Care Tax Credit Program office reviews IFS disbursement, 2.Health Care Tax Credit PMO
              team reviews and checks Contractor costs and exclusions 3.PMO reporting team verifies the source data against previous months
              of IFS data and Work Request data
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: For fiscal year 2008, the cumulative cost per taxpayer served was $16.94, 19% above the target of
              $14.25. A decrease in the number of taxpayers eligible for the credit and taxpayers gaining a better understanding of the invoic-
              ing and payment cycle are reasons for the decline in the number of taxpayers served volume.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                     308
                                                                                                Part IV — Other Accompanying Information




Measure: Number of Convictions (Oe)
                                     FY 2005               FY 2006               FY 2007                 FY 2008            FY 2009
                      Target         Baseline               2260                  2069                    2135               2135
                      Actual           2151                 2019                  2155                    2144
                 Target met?            Y                     N                     Y                       Y
Definition: Convictions are the total number of cases with Criminal Investigation Management Information System (CIMIS) status
   codes of guilty plea, nolo-contendere, and judge guilty or jury guilty.
Indicator Type: Measure
Data Capture and Source: Standardized reports extract data related to the status codes sited above on a monthly basis.
Data Verification and Validation: Cases are tracked in CIMIS with frequent updates to the status code.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: CI is committed to the identification and development of complex, high-impact investigations
   by emphasizing management accountability at all levels. Devoting greater resources to pipeline investigations contributes to suc-
   cessful prosecutions, which in turn generates positive publicity, fosters deterrence, and enhances voluntary compliance.


Measure: Office Examination Embedded Quality (Oe)
                                     FY 2005               FY 2006               FY 2007                 FY 2008            FY 2009
                      Target                                 88.2                  89                      90                 90
                      Actual                                 88.2                 89.4                     90
                 Target met?           N/A                    Y                     Y                       Y
Definition: The score awarded to a reviewed Office Examination case by a Quality Reviewer using the Examination Quality
   Measurement System (EQMS) quality standards.
Indicator Type: Measure
Data Capture and Source: Examination Quality Measurement System
Data Verification and Validation: A manual validation for inconsistencies in the data input is completed at the end of each monthly
   cycle. Potential errors are sent to the EQMS site managers for either verification or correction. Monthly consistency meetings
   are held with EQMS management, analyst and reviewers to ensure consistent application of the quality ratings.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: For fiscal year 2009 and beyond, the IRS will use results to drive improvements in work products
   and help improve the taxpayer’s experience.




309                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percent of Business Returns Processed Electronically (Oe)
                                                 FY 2005                FY 2006               FY 2007               FY 2008            FY 2009
                                  Target            17                   18.6                  19.5                   20.8              22.9
                                  Actual           17.8                  16.6                  19.1                   19.4
                             Target met?            Y                      N                     N                     N
           Definition: The number of electronically filed business returns divided by the total business returns filed.
           Indicator Type: Measure
           Data Capture and Source: Work Planning and Control reports from W&I Submission Processing campuses.
           Data Verification and Validation: 1. At each Submission Processing Center, managerial oversight is used to ensure that the balancing
              instructions for the Balance Forward Listing are followed and that necessary adjustments are made. 2. Management Officials
              review Program Analysis Reports prior to its release to Headquarters personnel. 3. Headquarters Personnel release preliminary
              data for peer and managerial review prior to releasing data for the measure.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: fiscal year 2008 target was based on a Fall 2007 projection of 20.8% which was modified in the
              Spring 2008 to 19.6%. A significant decrease (nearly 28.5%) in projected volume of electronically filed Forms 1041, primarily
              due to a regulation change allowing certain grantor trusts to be reported on Form 1099 instead of Form 1041, contributed to the
              decline.



           Measure: Percent of Individual Returns Processed Electronically (Oe)
                                                 FY 2005                FY 2006               FY 2007               FY 2008            FY 2009
                                  Target            51                    55                    57                    61.8               64
                                  Actual           51.1                  54.1                  57.1                   57.6
                             Target met?            Y                      N                     Y                     N
           Definition: Number of electronically filed individual tax returns divided by the total individual returns filed.
           Indicator Type: Measure
           Data Capture and Source: Working Planning and Control reports from W&I Submission Processing campuses.
           Data Verification and Validation: 1. At each Submission Processing Center, managerial oversight is used to ensure that the balancing
              instructions for the Balance Forward Listing are followed and that necessary adjustments are made. 2. Management Officials
              review “II” Report prior to its release to Headquarters personnel. 3. Headquarters Personnel release preliminary data for peer
              and managerial review prior to releasing data for the measure.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: For fiscal year 2008, the Percent of Individual Returns Processed Electronically was 57.6% which
              is 4.2 percentage points below the target of 61.8%. Excluding taxpayers who filed solely to claim a stimulus payment, the per-
              centage of e-file returns would have been 63 percent.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                     310
                                                                                                Part IV — Other Accompanying Information




Measure: Refund Timeliness - Individual (paper) (E)
                                      FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                      Target           98.4                  99.2                  99.2                 98.4                  98.4
                      Actual           98.3                  99.3                  99.1                 99.1
                 Target met?             N                    Y                     N                     Y
Definition: Percentage of refunds from paper returns processed within 40 days.
Indicator Type: Measure
Data Capture and Source: Submission Processing Measures Analysis and Reporting Tool (SMART). Data is extracted from a
   Generalize Mainframe Framework computer run that processes data input by the processing centers.
Data Verification and Validation: The calculation for Refund Timeliness is a ratio of untimely IMF paper refunds in a sample compared
   against the total number of IMF paper refunds reviewed in a sample. The result of the ratio is weighted against the entire
   volume of refund returns a center has processed on a monthly basis. The monthly results are tabulated to determine the perfor-
   mance rating at the corporate and site level.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: The IRS expects its performance for refund timeliness to remain stable under the current pro-
   cessing system and within resource constraints.


Measure: HCTC Sign-up Time (days) (Ot)
                                      FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                      Target                               Baseline                97                    97                    97
                      Actual                                 98.7                  93.3                  94
                 Target met?            N/A                   Y                     Y                     Y
Definition: The calculation of this measure is the median number of calendar days that elapse per registration from the date the
   Program Kit is mailed to the date the first payment is received from the participant. This is calculated based on queries and
   reports from system data.
Indicator Type: Measure
Data Capture and Source: 1.Dates captured in system during operations, 2.Data queried by Health Care Tax Credit Program
   Evaluation and Reporting team, 3.Measure calculated by Health Care Tax Credit Program Evaluation and Reporting team.
   Source: Siebel via Microsoft Systems Reporting.
Data Verification and Validation: 1.Data is reviewed by Health Care Tax Credit Program Evaluation and Reporting function and com-
   pared with previous months, 2.Diagnostic reports will be available for further review
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: In fiscal year 2009, the IRS will continue to explore program enhancements and efficiencies to
   minimize the time it takes to enroll for Health Care Tax Credit.




311                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Taxpayer Self Assistance Rate (E)
                                                 FY 2005              FY 2006               FY 2007              FY 2008                FY 2009
                                 Target           42.5                  45.7                  48.6                 51.5                  64.2
                                 Actual           42.5                  46.8                  49.5                 66.8
                            Target met?             Y                    Y                     Y                    Y
           Definition: The percent of contacts that are resolved by automated self-assistance applications.
           Indicator Type: Measure
           Data Capture and Source: Enterprise Telephone Data (ETD) Snapshot Report, Accounts Management Information Report (AMIR),
              Internet Refund/Fact of Filing Project Site, MIS Reporting Tool, Electronic Tax Administration (ETA) Website, Microsoft
              Excel Spreadsheet tracking (Kiosk Visits)
           Data Verification and Validation: Automated Calls Answered + Web Services Completed Divided by: Assistor Calls Answered +
              Automated Calls Answered + Web Services Completed + Electronic Interactions + Customer Accounts Resolved (Paper)
              Taxpayer Assistance Centers Contact. This measure summarizes the following self-service activities: telephone automated calls
              answered, and web services (IRFOF, Internet EIN, Disclosure Authorization, P-TIN) compared to the volume of all interac-
              tions, including correspondence and amended returns, electronic interactions such as from electronic interactions such as ETLA,
              & I-EAR and assistor calls answered.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: The IRS expects performance to continue to increase as more taxpayers choose to use automated
              applications to resolve issues and questions instead of more traditional methods such as contact with the IRS by telephone and
              correspondence.


           Measure: TEGE Determination Case Closures (Ot)
                                                 FY 2005              FY 2006               FY 2007              FY 2008                FY 2009
                                 Target          131700               112400                118200               100600                 94000
                                 Actual          126481               108462                109408               100050
                            Target met?             N                    N                     N                    N
           Definition: Cases established and closed on the Employee Plans-Exempt Organizations Determination System (EDS) includes all
              types of tax exempt and employee plan application cases.
           Indicator Type: Measure
           Data Capture and Source: Tax Exempt and Government Entities (TE/GE) Determination System (EDS) Table 2A
           Data Verification and Validation: 1. Group managers review data entered on closing documents by determination specialists prior to
              approving the case for closing. 2. Error registers/reports are generated for data not meeting system consistency checks
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: The IRS was within 99% of its target. The shortfall resulted from the increasing number of
              applications that are subject to an in-depth review for potential abuses in the Exempt Organizations Determination program.
              These applications, along with others identified for potential promoter or fraud issues during the screening process, required
              more extensive development and coordination than the traditional determination workload, resulting in higher per case. The
              shortfall was minimized due to the increase in merit closures, which required fewer hours to complete.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                      312
                                                                                                  Part IV — Other Accompanying Information




Measure: Timeliness of Critical Filing Season Tax Products to the Public (E)
                                      FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                       Target            80                    92                   85.2                   86                    92
                       Actual           91.4                   83                   83.5                  92.4
                 Target met?             Y                     N                      N                     Y
Definition: The percentage of Critical Tax Products, paper and electronic, made available to the public timely. Critical Tax Products
   are business tax products, Tax Exempt and Government Entities and miscellaneous tax products. This measure contains two
   components: (1) percentage of paper tax products that meet the scheduled start to ship date within five business days of the
   actual start to ship date and (2) percentage of scheduled electronic tax products that is available on the Internet within five
   business days of the ok-to-print date. The intent is to have the tax products available to the public 30 days before the form is
   required to be filed.
Indicator Type: Measure
Data Capture and Source: Publishing Services Data (PSD) System
Data Verification and Validation: Nightly processes provide analysts and management with reports concerning production status, miss-
   ing data problems, and past due situations.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: The IRS expects to continue to timely deliver tax products to the public in fiscal year 2009.


Measure: Timeliness of Critical Other Tax Products to the Public (E)
                                      FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                       Target            80                    85                   79.6                   86                    89
                       Actual            80                   61.2                   84                   89.5
                 Target met?             Y                     N                      Y                     Y
Definition: The percentage of Critical Other Tax Products, paper and electronic, made available to the public timely. Critical Other
   Tax Products are business tax products, Tax Exempt and Government Entities and miscellaneous tax products. This measure
   contains two components: (1) percentage of paper tax products that meet the scheduled start to ship date within five business
   days of the actual start to ship date and (2) percentage of scheduled electronic tax products that is available on the Internet
   within five business days of the ok-to-print date. The intent is to have the tax products available to the public 30 days before the
   form is required to be filed.
Indicator Type: Measure
Data Capture and Source: Publishing Services Data System (PSD)
Data Verification and Validation: Nightly processes provide analysts and management with reports concerning production status, miss-
   ing data problems, and past due situations.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: The IRS expects to continue to timely deliver tax products to the public in fiscal year 2009.




313                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: BSM Project Cost Variance by Release/Subrelease (E) [DISCONTINUED FY 2008]
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                 Target                                   0                    10               Discontinued          Discontinued
                                 Actual                                   0                    10
                            Target met?            N/A                    Y                    Y                    N/A

           Definition: Percent variance by release/sub-release of a BSM funded project’s initial, approved cost estimate versus current, approved
              cost estimate. Cost variances < or = to +/- 10% are categorized as being within acceptable thresholds. Cost variances greater than
              +/- 10% are considered outside acceptable thresholds.
           Indicator Type: Measure
           Data Capture and Source: The data is collected from the approved and enacted Expenditure Plan and subsequent modifications
              resulting from changes to project cost plans as approved via the BSM Governance Procedures and documented by the Resource
              Management Office.
           Data Verification and Validation: The baseline data will be reviewed/ validated by the Program Performance Management (PPM) Team
              and Manager. To indicate the baseline is valid and approved, the manager will send a notification that the data (Excel spread-
              sheets) may be placed in the PPM shared library. Before the measure is reported, the PPM Team and Manager will review/
              validate the report. The PPM Manager will provide the monthly report to the Deputy Associate CIO for Business Integration
              for approval. Concurrence will be obtained from the Associate CIO for BSM. To indicate the report is validated and approved,
              the manager will send a notification to store the report in the PPM shared library and report on Improvement Measure
              externally.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: This measure is being discontinued in fiscal year 2008 and is being replaced with a new cost
              variance measure because there was a change in methodology.


           Measure: BSM Project Schedule Variance by Release/Subrelease (E) [DISCONTINUED FY 2008]
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                 Target                                   0                    10               Discontinued          Discontinued
                                 Actual                                   0                    0
                            Target met?            N/A                    Y                    N                    N/A

           Definition: Percent variance by release/sub-release of a BSM funded project’s initial, approved schedule estimate versus current,
              approved schedule estimate. Schedule variances < or = to +/- 10% are categorized as being within acceptable thresholds.
              Schedule variances greater than +/- 10% are considered outside acceptable thresholds.
           Indicator Type: Measure
           Data Capture and Source: The data is collected at the time of Expenditure Plan creation and subsequent modifications resulting
              from changes to project schedule plans as approved via the BSM Governance Procedures and documented by the Resource
              Management Office.
           Data Verification and Validation: The baseline data will be reviewed/ validated by the Program Performance Management (PPM) Team
              and Manager. To indicate the baseline is valid and approved, the manager will send a notification that the data (Excel spread-
              sheets) may be placed in the PPM shared library. Before the measure is reported, the PPM Team and Manager will review/
              validate the report. The PPM Manager will provide the monthly report to the Deputy Associate CIO for Business Integration
              for approval. Concurrence will be obtained from the Associate CIO for BSM. To indicate the report is validated and approved,
              the manager will send a notification to store the report in the PPM shared library and report on Improvement Measure
              externally.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: This measure is being discontinued in fiscal year 2008 and is being replaced with a new schedule
              variance measure because there was a change in methodology.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                     314
                                                                                                 Part IV — Other Accompanying Information




 Outcome: Timely and Accurate Payments at the Lowest Possible Cost

Financial Management Service
 Measure: Percentage of Paper Check and Electronic Funds Transfer (EFT) Payments Made Accurately And On-Time (Oe)
                                       FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                       Target           100                   100                   100                   100                   100
                       Actual           100                   100                   100                   100
                  Target met?             Y                    Y                     Y                     Y
 Definition: Accurately refers to the percentage of check and EFT payments that FMS makes which are not duplicate or double pay-
    ments. On time means that FMS releases checks to the U.S. Postal Service and EFT payments to the Federal Reserve Bank
    such that normal delivery by them results in timely receipt by payees.
 Indicator Type: Measure
 Data Capture and Source: Accuracy data is captured through FMS’ Regional Financial Centers which submit statistics on duplicate
    payments and data for the performance measure. The payments are balanced with payment certifications submitted to FMS by
    Federal Program Agencies. On time data on check and EFT volumes are captured monthly in a report from FMS’ Production
    Reporting System.
 Data Verification and Validation: Accuracy is ensured through payment processes and accounting systems that are subject to numerous
    internal controls and audit reviews. RFC managers validate payment controls. Systems and accounting reports are used to inde-
    pendently validate payment accuracy and identify the number of duplicate payments. RFCs balance the input to the PRS with a
    payment control file. The volume of checks released to the USPS is verified against the volume of checks listed on Postal Form
    3600. USPS timeliness is ensured through Form 3600, which contains the time and date of release of checks from RFCs to the
    USPS. For EFT timeliness verification, the volume of payments released is verified against the volume of payments listed on the
    transmission report which also states the time and date of transmission from an RFC to the Federal Reserve Bank.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. FMS plans to continue to issue 100% of
    payments accurately and on-time. The Secure Payment System (SPS) used by program agencies to certify checks, clearinghous-
    es, or wire payments to recipients in a secure environment is a critical component in achieving the performance goal.


 Measure: Percentage of Treasury Payments and Associated Information Made Electronically (Oe)
                                       FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                       Target            76                    78                    78                   79                    80
                       Actual            76                    77                    78                   79
                  Target met?             Y                    N                     Y                     Y
 Definition: The portion of the total volume of payments that is made electronically by FMS. Electronic payments include transfers
    through the automated clearinghouse and wire transfer payments through the FEDWIRE system.
 Indicator Type: Measure
 Data Capture and Source: The volume of payments is tracked through FMS’ Production Reporting System. The amount and number
    of payments are also maintained under accounting control.
 Data Verification and Validation: Accounting controls provide verification that the number of payments, both checks and EFT, is accu-
    rately tracked and reported. The number of inquires made against Federal check payments, whether disbursed by FMS or by other
    agencies, is separately tracked and reported. Additionally, payment files are balanced with payment authorizations that are electroni-
    cally certified and submitted to FMS by Federal program agencies. The Federal Reserve Banks also validate the payment files.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. FMS will continue to implement the suc-
    cessful Go-Direct Campaign to expand and market the use of electronic media to deliver federal payments, improve service to
    payment recipients, and reduce government program costs. In April 2008, FMS launched the nationwide Direct Express card
    program to target the un-banked customers of benefit payments. It is available now to all SSA and SSI recipients. To date over
    100,000, enrollments have been processed.




315                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percentage of Federal Agency Customers Indicating an Overall Rating of Satisfactory or Better (Oe)
                                                 FY 2005                FY 2006               FY 2007                FY 2008               FY 2009
                                  Target            80                    81                     81                    85                     87
                                  Actual            80                    80                     88                    88
                            Target met?             Y                      N                     Y                      Y
           Definition: The percentage of customers who utilize our collections network who are at least satisfied with the process.
           Indicator Type: Measure
           Data Capture and Source: The survey is sent out via e-mail with a link to a specially designed website to complete the survey. Data is
              captured in the website.
           Data Verification and Validation: FMS’ Agency Relationship Management Division sends out a survey every year to all the agencies
              (approximately 100 CFO and non-CFO agencies) asking for their feedback on a number of things such as people, policies,
              products, etc. These agencies are asked to rate these categories as very satisfied, satisfied, neutral, dissatisfied and very dissatis-
              fied. The satisfied and very satisfied responses are added to give the satisfaction measure.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal and plans to meet its future goals by provid-
              ing effective and efficient customer service.


           Measure: Unit Cost For Federal Government Payments (E)
                                                 FY 2005                FY 2006               FY 2007                FY 2008               FY 2009
                                  Target            .35                   .35                   .39                    .4                     .4
                                  Actual           .355                   .37                   .39                   .39*
                            Target met?             N                      N                     Y                      Y
           Definition: Unit cost combines both paper and electronic payment mechanisms and includes the aftermath processes (reconciliation
              and claims) for both types of payment mechanisms.
           Indicator Type: Measure
           Data Capture and Source: The cost data is captured through an activity based costing process. The unit cost is the calculated ratio of
              cost per payment.
           Data Verification and Validation: At the end of each fiscal year, actual costs for issuing payments are accumulated and calculated for
              checks and EFT payments. This information is calculated in conjunction with and verified by the program office and is reviewed
              by senior executives. Additional accounting controls provide verification that the number of payments is accurately tracked and
              reported.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. In the future FMS will continue to expand
              and market the use of electronic media to deliver federal payments, improve service to payment recipients, and reduce govern-
              ment program costs. This helps decrease the number of paper checks issued and minimize costs associated with postage, the
              re-issuance of lost, stolen and misplaced checks, and inefficiencies associated with the non-electronic delivery of benefits.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                         316
                                                                                                   Part IV — Other Accompanying Information




 Outcome: Government Financing at the Lowest Possible Cost Over Time

Bureau of the Public Debt
 Measure: Cost Per Debt Financing Operation (E)
                                       FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                        Target         Baseline              133683                 228409                263306                275610
                        Actual         126828                148926                 235172               237636*
                  Target met?             Y                     N                      N                     Y
 Definition: This performance measure divides debt financing operations costs, determined by an established cost allocation methodol-
    ogy, by the number of auctions and buybacks.
 Indicator Type: Measure
 Data Capture and Source: The number of debt financing operations is captured in the Global Securities Services (GSS) system and
    on-line at TreasuryDirect.gov. Costs are captured in BPD’s administrative accounting system.
 Data Verification and Validation: Analysts manually count the number of auctions in the GSS system and cross-reference this number
    to the historical information query on-line at www.TreasuryDirect.gov to determine the number of debt financing operations.
    Senior management regularly reviews the cost allocation methodology and the allocations are updated at least annually.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Based upon the third quarter year-to-date figures, the cost per debt financing operation falls
    below the fiscal year 2008 target of $263,306. The projected cost for fiscal year 2009 of $275,610 includes increases for inflation
    and upgrades to the Treasury Automated Auction Processing System (TAAPS). These upgrades to TAAPS will ensure that
    Public Debt keeps pace with technology changes and conducts financing operations timely and with 100 percent accuracy. *Cost
    per item does not include fourth quarter data and therefore represents an estimate of year-end numbers.


 Measure: Cost Per Federal Funds Investment Transaction (E)
                                       FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                        Target         Baseline               90.15                 72.33                  75.55                 69.11
                        Actual          88.74                 62.64                 68.53                 57.81*
                  Target met?             Y                     Y                      Y                     Y
 Definition: This performance measure divides the federal funds investment costs, determined by an established cost allocation meth-
    odology, by the number of issues, redemptions, and interest payments for more than 200 trust funds, as well as the Treasury
    managed funds.
 Indicator Type: Measure
 Data Capture and Source: The automated investment accounting system captures and reports transaction counts. Costs are captured in
    Public Debt’s administrative accounting system.
 Data Verification and Validation: Accountants review transaction reports for reasonableness and any unusual trends are investigated.
    Senior management regularly reviews the cost allocation methodology and the allocations are updated at least annually.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Based upon third quarter year-to-date figures, Public Debt forecasts the cost per federal funds
    investment transaction to fall below the target of $75.55. Due to inflationary cost increases and constant transaction volumes
    coupled with reducing the number of systems used to support GAIS, Public Debt establishes a target for fiscal year 2009 of
    $69.11. *Cost per item does not include fourth quarter data and therefore represents an estimate of year-end numbers.




317                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percent of Auction Results Released in Two Minutes +/- 30 Seconds (Oe)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target           95                    95                    95                    95                    95
                                  Actual           95                    100                   99.1                  100
                            Target met?             Y                     Y                     Y                     Y
           Definition: This measures the elapsed time from the auction close to the public release of the auction results. The annual percentage
              of auctions meeting the release time target of 2 minutes plus or minus 30 seconds is calculated for the fiscal year.
           Indicator Type: Measure
           Data Capture and Source: BPD’s automated auction processing systems
           Data Verification and Validation: For each auction, analysts verify and validate the system time stamps that record the auction close and
              auction posting times.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: A key component of Public Debt’s mission is to borrow the money required to run the federal
              government at the lowest possible cost to the taxpayer. Public Debt fulfills this mission by creating an investment environment
              that is predictable and reliable. Public Debt’s ability to meet the performance measure of releasing Treasury auction results to
              the public in two minutes +/- 30 seconds, 95 percent of the time demonstrates the ability to reliably publish security informa-
              tion to financial markets and contributes to its overall mission. In fiscal year 2008, Public Debt achieved an auction release time
              performance of 100 percent, exceeding the stated goal of 95 percent for timely releases. For the upcoming fiscal year, Public
              Debt continues to focus on identifying and correcting any auction system defects in order to ensure ongoing success with this
              performance metric.


           Measure: Cost Per TreasuryDirect Assisted Transaction (E)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target         Baseline                7.75                  6.16                  9.25                  9.34
                                  Actual           8.51                  4.97                  6.65                 7.23*
                            Target met?             Y                     Y                     N                     Y
           Definition: This performance measure divides TreasuryDirect customer service transaction costs, determined by an established cost
              allocation methodology, by the number of customer requests completed with assistance by a customer service representative.
           Indicator Type: Measure
           Data Capture and Source: For customer service transactions received by mail and for some requests received by phone or internet,
              Public Debt (BPD) obtains volumes from an automated tracking system. Simple phone and internet requests are manually
              counted. Costs are captured in BPD’s administrative accounting system.
           Data Verification and Validation: The accuracy of the system-generated volumes is verified twice a year by customer service staff per-
              forming manual counts. Senior management regularly reviews the cost allocation methodology and the allocations are updated at
              least annually.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Based upon the third quarter year-to-date figures, the cost per TreasuryDirect assisted trans-
              action falls below the fiscal year 2008 target of $9.25. The fiscal year 2009 target is $9.34. Public Debt continues to realign
              resources to handle a changing mixture of customer transactions that result from a growing number of accounts and an expan-
              sion of services available in TreasuryDirect. *Cost per item does not include fourth quarter data and therefore represents an
              estimate of year-end numbers.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        318
                                                                                                   Part IV — Other Accompanying Information




Measure: Cost Per TreasuryDirect Online Transaction (E)
                                       FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                       Target          Baseline                2.99                  2.96                   4.34                  4.34
                       Actual           3.43                   3.06                  3.24                  3.76*
                  Target met?             Y                     N                      N                     Y
Definition: This performance measure divides TreasuryDirect online transaction costs, determined by an established cost allocation
   methodology, by the number of TreasuryDirect online transactions.
Indicator Type: Measure
Data Capture and Source: Workload figures are captured from information stored in TreasuryDirect. Costs are captured in Public
   Debt’s administrative accounting system.
Data Verification and Validation: Workload figures are electronically verified by the Treasury Direct system. Senior management regu-
   larly reviews the cost allocation methodology and the allocations are updated at least annually.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: Based upon the third quarter year-to-date figures, the cost per TreasuryDirect online transaction
   falls below the fiscal year 2008 target of $4.34. The fiscal year 2009 target is $4.34. Public Debt continues to promote customer
   self-sufficiency in TreasuryDirect—an internet-accessed system that provides one-stop shopping, account management, and prod-
   uct information. *Cost per item does not include fourth quarter data and therefore represents an estimate of year-end numbers.


Measure: Number of Government Agency Investment Services Control Processes Consolidated (Oe)
                                       FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                       Target                                                       Baseline                 2                     0
                       Actual                                                          3                     2
                  Target met?            N/A                   N/A                     Y                     Y
Definition: Government Agency Investment Services (GAIS), one of the Bureau of Public Debt’s primary Lines of Business (LOB),
   is responsible for the accounting of the Federal Investments, Special Purpose Securities, and Loans Receivable programs. In July
   2005, Public Debt management announced a strategic direction to reduce the number of systems used to support GAIS. Through
   systems reduction, Public Debt will streamline the diversity of technology involved in supporting this business line. Additionally,
   this effort will allow Public Debt to consolidate and standardize the internal controls over processes common to all GAIS programs.
   The control environment consists of 18 processes that will be transformed into 6 standardized processes. The processes are funds
   management, investment accounting, standard reporting, customer interface, account maintenance, and enhanced reporting.
Indicator Type: Measure
Data Capture and Source: The Project Manager (PM) is responsible for tracking the status of the project using a project plan detail-
   ing all stages of the System Development Life Cycle (SDLC). This plan includes milestones that help to measure significant
   accomplishments. This information is routinely shared with management of the program areas as part of an established and
   well-documented IT governance and change management process.
Data Verification and Validation: The Project Manager (PM) for the systems consolidation project is responsible for keeping management
   informed of the project plan and implementation dates of the system consolidation effort. The PM coordinates with program areas
   on all system related efforts to ensure the control environment is reduced with each system consolidation effort. With each mile-
   stone achieved in the systems consolidation project, there is a corresponding standardization and reduction of controls in the GAIS
   program. For example, in fiscal year 2007 the loans receivable program consolidated funds management, investment accounting,
   and standard reporting. This would bring the total processes from 18 to 15 with the ultimate goal of 6 standardized processes by
   fiscal year 2012.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: For fiscal year 2008, Public Debt met its goal to consolidate two Government Agency Investment
   Services (GAIS) control processes. During fiscal year 2008, the Borrowings program consolidated customer interface and account
   maintenance bringing the total number of control processes from 15 to 13 with the ultimate goal of 6 standardized processes by
   fiscal year 2012. The project manager (PM) continues to monitor the scope, time, and cost of the project against the approved
   baseline, and the PM keeps management informed of the project plan and implementation dates of the system consolidation effort.




319                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percent of Retail Customer Transactions Completed Within 12 Business Days (Ot)
                                                  FY 2005                FY 2006              FY 2007               FY 2008               FY 2009
                                   Target            90                    90                   90                    90                    90
                                   Actual           88.7                   98                  99.43                 99.86
                              Target met?            N                      Y                    Y                     Y
           Definition: The length of time to complete a customer service transaction is measured from the date each transaction is received to
              the date it is completed.
           Indicator Type: Measure
           Data Capture and Source: For customer service transactions received by mail and for some requests received by phone or e-mail,
              Public Debt uses an automated tracking system that measures the length of time it takes to complete the transactions. Simple
              phone and internet requests are manually tracked.
           Data Verification and Validation: The accuracy of system-generated data is crosschecked at least twice a year by customer service staff
              performing manual counts.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Public Debt met its fiscal year 2008 target for completing 90 percent of time-sensitive retail cus-
              tomer service transactions within 12 business days. In fiscal year 2009, Public Debt will shorten the processing expectation for
              these transactions to 90 percent completion within 11 business days. This is an important step towards meeting the long-term
              goal of completing 90 percent of time-sensitive retail customer service transactions within 10 business days by fiscal year 2010.
              Public Debt continues to streamline work processes and increase the volume of electronic business actions in order to meet this
              goal.


           Measure: Percentage of Government Agency Customer Initiated Transactions Conducted Online (Oe) [DISCONTINUED FY 2008]
                                                  FY 2005                FY 2006              FY 2007               FY 2008               FY 2009
                                   Target                                  65                   75                Discontinued          Discontinued
                                   Actual           72.7                  97.03                97.31
                              Target met?            Y                      Y                    Y                    N/A

           Definition: Public Debt (BPD) administers three programs in which government agencies conduct transactions: 1. Government
              Account Series Securities (Federal Investments) 2. Treasury Loans Receivable (Borrowings) 3. State and Local Government
              Series securities. Prior to an initiative to make BPD systems available on the internet, customers faxed all requests to Public
              Debt, and BPD manually entered the transactions into the various systems. BPD’s long-term goal is to have 80 percent of
              customer-initiated transactions completed online by the end of fiscal year 2008.
           Indicator Type: Measure
           Data Capture and Source: Total transaction counts are captured from the investment accounting systems in automated reports that
              differentiate online transactions from other transactions entered into the systems.
           Data Verification and Validation: Accountants review the total online transaction counts for reasonableness and unusual volumes are
              investigated.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Discontinued in fiscal year 2008.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       320
                                                                                                   Part IV — Other Accompanying Information




 Outcome: Effective Cash Management

Departmental Offices
 Measure: Variance Between Estimated and Actual Receipts (Annual Forecast) (Oe)
                                       FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                        Target            5                     5                      5                     5                     5
                        Actual            5                     3.9                   2.1                   4.6
                  Target met?             Y                     Y                      Y                     Y
 Definition: Percentage error measures the accuracy of the Mark receipt forecasts produced monthly by the Office of Fiscal
    Projections. It measures the relative amount of error or bias in Office of Fiscal Projection receipt forecasts.
 Indicator Type: Measure
 Data Capture and Source: The Office of Fiscal Projections within the Office of the Fiscal Assistant Secretary compiles receipts data by
    major categories (i.e., withheld income taxes, individual taxes, FICA, corporate, customs deposits, estate and excise) as well as by
    types of collection mechanisms (electronic and paper coupons). The Office of Fiscal Projections is also responsible for forecast-
    ing the daily tax receipts in order to manage the federal government’s cash flow. Data on monthly and daily federal tax receipts
    of actual and forecasts are compiled by the office and are used to report on the United States’ monthly, weekly, and daily cash
    position in addition to determining the optimal financing for cash management.
 Data Verification and Validation: The percentage error is computed by subtracting the forecast value of tax receipts from the actual
    (At -Ft), and dividing this error of forecast by the actual value, and then multiplying it by 100. PEt = ((At - Ft)/At) *100 At is
    actual value of receipts at time t, and Ft is forecasted value of receipts at time t. The average percentage error is more general
    measure that will be used to compare the relative error in the forecasts. This measure adds up all the percentage errors at each
    point and divides them by the number of time point APE = |(?t=1TPEt)|/T where PEt is the percentage error of forecasts in (1)
    and T is the total number of time point. The absolute value of the average percentage error will be used to measure the magni-
    tude of error or bias in the receipts forecasts.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: In fiscal year 2009, Treasury anticipates that forecasting government receipts and outlays will
    continue to be challenging. Volatility caused by changing economic conditions and new programs and initiatives enacted by
    Congress to address systemic risks and market concerns is added to the forecasting mix. Treasury’s investments may need to be
    of a shorter duration, giving up some higher returns normally associated with longer-term investments.




321                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




            Outcome: Accurate, Timely, Useful, Transparent and Accessible Financial Information

          Bureau of the Public Debt
           Measure: Cost Per Summary Debt Accounting Transaction (E)
                                                 FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                                  Target         Baseline                11.59                 10.98                  9.91                 10.01
                                  Actual          12.62                  10.96                 9.29                  8.29*
                             Target met?            Y                      Y                     Y                     Y
           Definition: This performance measure divides summary debt accounting transaction costs, determined by an established cost alloca-
              tion methodology, by the number of summary debt accounting transactions.
           Indicator Type: Measure
           Data Capture and Source: Public Debt’s investment accounting systems capture and report transaction counts. Costs are captured in
              Public Debt’s administrative accounting system.
           Data Verification and Validation: Accountants review transactional activity reports for reasonableness and any unusual trends are investi-
              gated. Senior management regularly reviews the cost allocation methodology and the allocations are updated at least annually.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Based upon third quarter year-to-date figures, Public Debt forecasts the cost per summary debt
              accounting transaction to fall below the fiscal year 2008 target of $9.91. Due to inflationary cost increases and constant transac-
              tion volumes, Public Debt establishes a target for fiscal year 2009 of $10.01. Public Debt will continue to maintain and support
              strong accounting controls to ensure integrity of the operations and accuracy of the information provided to the public. *Cost per
              item does not include fourth quarter data and therefore represents an estimate of year-end numbers.



          Departmental Offices
           Measure: Release Federal Government-Wide Financial Statements on Time (Oe)
                                                 FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                                  Target            1                      1                     1                     1                     1
                                  Actual           Met                    Met                   Met                   Met*
                             Target met?            Y                      Y                     Y                     Y
           Definition: This report is the audited consolidated financial report of the Federal Government required by the Government
              Management Reform Act.
           Indicator Type: Measure
           Data Capture and Source: Data are collected from the audited financial results of all federal agencies and is audited by GAO.
           Data Verification and Validation: Report is released to the public with a release date that can be independently verified. Due date is
              established by Treasury/OMB policy decision since it exceeds the statutory requirement of March 31.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: This data is not available until December 15, 2008, after this report is published. Treasury will
              evaluate the information at that time and determine what actions to take in the 2009.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                         322
                                                                                                  Part IV — Other Accompanying Information




 Measure: Audit Opinion Received on Government-wide Financial Statements (Oe)
                                       FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                       Target             1                     1                    1                Discontinued          Discontinued
                       Actual            Met                   Met                  Met
                  Target met?             Y                     Y                    Y                    N/A

 Definition: This is the independent audit opinion rendered on the financial statements by GAO. Treasury expects to receive a dis-
    claimed audit opinion until fiscal year 2007.
 Indicator Type: Measure
 Data Capture and Source: GAO is the statutorily prescribed auditor.
 Data Verification and Validation: Opinion is included in the published financial report and is also available directly from GAO.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: There are material weaknesses in DOD and DHS which will not be resolved in the near term,
    making this measure an inappropriate gauge of Treasury’s performance. As a result, prior data is invalid. A new measure will be
    developed in fiscal year 2009 to replace this measure. Based on OIG comments, Treasury is considering developing a measure
    that would track the timeliness and accuracy of the statements that Treasury delivers.



Financial Management Service
 Measure: Percentage of Government-Wide Accounting Reports Issued Accurately (%) (Oe)
                                       FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                       Target            100                  100                   100                   100                   100
                       Actual            100                  100                   100                   100
                  Target met?             Y                     Y                    Y                     Y
 Definition: All government-wide financial data that FMS publishes relating to U.S. Treasury cash-based accounting reports (i.e., the
    Daily Treasury Statement, the Monthly Treasury Statement, and the Annual Combined Report) will be 100% accurate.
 Indicator Type: Measure
 Data Capture and Source: A monthly tracking system reports on the various published statements and monitors errata as it pertains to
    this data.
 Data Verification and Validation: There are no errata in any of the published government-wide financial information.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. FMS will continue to revamp government-
    wide accounting processes to provide more useful and reliable financial information on a regular basis. FMS is building and
    implementing a system to improve the exchange of financial information among FMS, Federal Program Agencies (FPA), Office
    of Management and Budget and the banking community. Once completed, this Government-wide Accounting Modernization
    Project will comprehensively replace current government-wide accounting functions and processes that are both internal and
    external to FMS. It will improve the reliability, usefulness, and timeliness of the government’s financial information, provide
    FPAs and other users with better access to that information, and will eliminate duplicate reporting and reconciliation burdens by
    agencies. FMS is also moving forward on a project called Financial Information Reporting Standardization which will integrate
    budgetary and proprietary accounting data as well as several accounting data collection systems to improve the integrity and
    accuracy of government-wide financial information and reports.




323                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percentage of Government-Wide Accounting Reports Issued Timely (E)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                 Target            100                   100                   100                   100                   100
                                 Actual            100                   100                   100                   100
                            Target met?             Y                     Y                     Y                     Y
           Definition: All Government-wide financial data that FMS publishes relating to U.S. Treasury cash-based accounting reports (i.e., the
              Daily Treasury Statement, the Monthly Treasury Statement, and the Annual Combined Report) will be on time 100% of the
              time.
           Indicator Type: Measure
           Data Capture and Source: A monthly reporting system is used to track the release dates to the public of all of the various government-
              wide statements.
           Data Verification and Validation: Procedures are in place to validate that the statements are released on time to the public 100% of the
              time.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. FMS is building and implementing a system
              to improve the exchange of financial information among FMS, Federal Program Agencies (FPA), Office of Management and
              Budget (OMB) and the banking community. Once completed, this Government-wide Accounting (GWA) Modernization
              Project will comprehensively replace current government-wide accounting functions and processes that are both internal and
              external to FMS. It will improve the reliability, usefulness, and timeliness of the government’s financial information.


           Measure: Unit Cost to Manage $1 Million Dollars of Cash Flow (E)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                 Target                                Baseline               10.69                 11.72                 13.39
                                 Actual                                  8.5                  10.36                 9.21*
                            Target met?            N/A                    Y                     Y                     Y
           Definition: This Unit Cost Measure assesses Government Wide Accounting’s (GWA’s) Cost to Manage Government Operations.
              The Government Operations consists of total GWA costs which consist of all Directorates, Systems, Administrative Overhead,
              and major initiatives performed within GWA. On a monthly basis the Cost-per-Million of Cash Flow managed by GWA is
              calculated.
           Indicator Type: Measure
           Data Capture and Source: The Total GWA Cost data is retrieved from the year ending Cost Accounting Report. The Operating
              Cash, which is rounded in millions, is determined from the final DTS of each month for the fiscal year. The ratio of total costs
              to GWA per month over Deposits and Withdrawals (Excluding Transfers) gives us the cost to manage $1 Million dollars of
              cash flow. This ratio is calculated for GWA alone to determine controllable costs, and using Information Resources / TWAI
              and Management Overhead to determine the uncontrollable costs attributed to GWA.
           Data Verification and Validation: At the beginning of each month, the actual operating cash of the United States in the form of
              Deposits and Withdrawals is obtained from the Last Daily Treasury Statement (DTS) of the previous month. GWA total costs
              are broken down and retrieved from the Cost Accounting Report that is prepared at the end of the fiscal year. This informa-
              tion is verified and excludes Financial Services. Additional data is retrieved from this source and included in the report and is
              reviewed by senior executives.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: FMS has met its fiscal year 2008 performance goal. Though cash flow is beyond the control of
              FMS, FMS plans to continue its efforts in improving efficiencies and lowering its costs in managing the nation’s money.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        324
                                                                                                  Part IV — Other Accompanying Information




 Strategic Goal:
    U.S. and World Economies Perform at Full Economic Potential

 Strategic Objective: Improved Economic Opportunity, Mobility, and Security with Robust,
         Real, Sustainable Economic Growth At Home And Abroad

 Outcome: Strong U.S. Economic Competitiveness

Community Development Financial Institution Fund
 Measure: Administrative Costs Per Number of Bank Enterprise Award (BEA) Applications Processed (E)
                                       FY 2005                FY 2006               FY 2007              FY 2008              FY 2009
                       Target          Baseline                1280                  1455                 1455                  1455
                       Actual           1280                   1630                  1950                 3070
                  Target met?             Y                       N                    N                    N
 Definition: The fixed and variable cost per application for Bank Enterprise Award (BEA) applications.
 Indicator Type: Measure
 Data Capture and Source: The Fund will analyze the cost of materials as well as staff time and contractor’s time to determine the total
    cost per application.
 Data Verification and Validation: The Fund will conduct an analysis of the total cost of processing a single BEA application. The analy-
    sis will include both fixed and variable costs for the project.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Admin cost increased from previous fiscal year due to: 1) an incorrect number of applications
    reported in FY07. FY07 restated with correct number of applications results in an administrative cost per application of $2,272;
    2) an increase in salary and benefits and training cost primarily a result of FY08 being the first full fiscal year with new dedicated
    FTE to program; 3) a significant increase in IT costs from the previous year; and 4) the inclusion of application intake cost
    (FY07 does not include application intake cost).


 Measure: Administrative Costs Per Financial Assistance Application Processed (E)
                                       FY 2005                FY 2006               FY 2007              FY 2008              FY 2009
                       Target          Baseline                5130                  6920                 6920                  6920
                       Actual           5130                   8710                  7180                 7200
                  Target met?             Y                       N                    N                    N
 Definition: The cost per application for Financial Assistance (FA) applications.
 Indicator Type: Measure
 Data Capture and Source: The Fund will analyze the cost of materials as well as staff time and contractor’s time to determine the total
    fixed and variable cost per application.
 Data Verification and Validation: The Fund will conduct an analysis of the total cost of processing a single FA application. The analysis
    will include both fixed and variable costs for the project.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Admin cost increased from previous year. Percent increase in costs higher than percent increase
    in number of applications from 2007 to 2008. As a result of an independent assessment performed by a contractor and approved
    by the CDFI Fund, new SOPs to streamline the application and award process have been developed. By late 2009, the CDFI
    Fund should be able to determine the effectiveness of the new SOPs currently being implemented.




325                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Administrative Costs Per Number of Native American CDFI Assistance Applications Processed(E)
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                 Target          Baseline               10050                9090                  9090                  9090
                                 Actual           10050                  8130                13510                10990
                            Target met?             Y                     Y                    N                     N
           Definition: The Fund will determine the total cost associated with Native American CDFI Assistance (NACA) applications based on
              fixed and variable costs.
           Indicator Type: Measure
           Data Capture and Source: The Fund will capture this information through budget documentation.
           Data Verification and Validation: The Fund will determine the total cost of a single NACA application based on material costs as well
              as the amount staff and contractor time per application.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Admin cost decreased from previous year. Percent increase in applications much greater than
              percent increase in costs from 2007 to 2008. As a result of an independent assessment performed by a contractor and approved
              by the CDFI Fund, new SOPs to streamline the application and award process have been developed. By late 2009, the CDFI
              Fund should be able to determine the effectiveness of the new SOPs currently being implemented.


           Measure: Administrative Costs Per Number of New Markets Tax Credit (NMTC) Applications Processed (E)
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                 Target          Baseline                5390                4875                  4875                  4875
                                 Actual           5390                   4360                5320                  7400
                            Target met?             Y                     Y                    N                     N
           Definition: The cost per application for New Markets Tax Credit (NMTC) applications.
           Indicator Type: Measure
           Data Capture and Source: The Fund will analyze the cost of materials as well as staff time and contractor’s time to determine the total
              fixed and variable cost per application.
           Data Verification and Validation: The Fund will conduct an analysis of the total cost of processing a single NMTC application. The
              analysis will include both fixed and variable costs for the project.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Admin cost increased from previous year. Percent increase in costs higher than percent increase
              in number of applications from 2007 to 2008. As a result of an independent assessment performed by a contractor and approved
              by the CDFI Fund, new SOPs to streamline the application and award process have been developed. By late 2009, the CDFI
              Fund should be able to determine the effectiveness of the new SOPs currently being implemented.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                      326
                                                                                                   Part IV — Other Accompanying Information




Measure: Annual Percentage Increase In The Total Assets of Native CDFIs (Oe)
                                       FY 2005               FY 2006               FY 2007                  FY 2008            FY 2009
                       Target            35                    33                     33                      15                 15
                       Actual           103                    182                    19                      19
                  Target met?             Y                     Y                     N                        Y
Definition: Measure the percent change in total assets that Native CDFIs report from one year to the next. The Fund will calculate:
   [Total Assets in Current Year - Total Assets in Previous Year] / [Total Assets in Previous Year]
Indicator Type: Indicator
Data Capture and Source: The Native CDFIs financial data is captured through the annual Institution Level Report.
Data Verification and Validation: Native CDFIs report their total assets to the Fund in their Institution Level Report. The Fund verifies
   the total assets reported against the organization’s submitted balance sheet. Organizations are contacted regarding any discrepan-
   cies in the data reported. The Fund compares the total assets of CDFIs from year-to-year.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: Based on 2007 reporting. Increased assets indicate a stronger financial institution which also
   indicates a maturing CDFI industry as a whole. It is expected that CDFIs receiving awards from the CDFI Fund should be able
   to maintain the target level. Please note that the asset growth rate target for Native CDFIs is significantly lower than for other
   CDFIs.


Measure: Commercial Real-Estate Properties Financed by BEA Program Applicants That Provide Access to Essential Community
Products And Services In Underserved Communities (Oe)
                                       FY 2005               FY 2006               FY 2007                  FY 2008            FY 2009
                       Target                                                      Baseline                  285                285
                       Actual                                                        301                     287
                  Target met?            N/A                   N/A                    Y                        Y
Definition: Number of commercial real-estate projects financed by BEA applicants.
Indicator Type: Measure
Data Capture and Source: Each BEA Program applicant is required to submit an application containing a Report of Transactions.
   The BEA Program Unit administers the BEA application. All reports are submitted electronically and the data is stored in the
   Fund’s databases.
Data Verification and Validation: The data is self-reported by applicants during the application process.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: The number of commercial real estate loans provided by BEA applicants has remained level over
   the past three years. Given the current credit crunch, the Fund maintains an assumption of no growth in this area.




327                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Community Development Entities’ Annual Investments In Low-Income Communities ($ billions) (Oe)
                                                FY 2005               FY 2006               FY 2007              FY 2008               FY 2009
                                 Target           1.4                   1.6                   2.1                  2.5                   2.5
                                 Actual           1.1                    2                    2.5                  3.3
                            Target met?            N                     Y                     Y                    Y
           Definition: Amount of investments in Low Income Communities that Community Development Entities have made with capital
              raised through their New Markets Tax Credits (NMTC) allocations. The Fund will report NMTC Qualified Low-Income
              Community Investments (QLICIs) that are supported by NMTC Qualified Equity Investments (QEIs).
           Indicator Type: Measure
           Data Capture and Source: The Fund will capture the data in the CDEs’ annual Institution Level and Transaction Level Reports.
           Data Verification and Validation: CDEs will attract private sector equity in the form of QEIs. CDEs will have 12 months to invest
              these QEIs in QLICIs. The CDEs will self-report QLICIs in their annual Transaction Level Report. The Fund uses these
              reports for research, reporting, and compliance. The Fund is confident that CDEs will accurately report, as the consequence of
              misinformation may be recapture of the New Markets Tax Credits.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Reported in 2007. This measure is directly tied to the performance and target of the measure
              “CDEs cumulative investments in low-income communities”. The cumulative actual performance in 2008 is $8.9B. The target
              set in 2009 is $11.4B. This is a difference of $2.5B, which is the 2009 target set for this specific measure.


           Measure: Community Development Entities’ Cumulative Investments in Low-Income Communities ($ billion) (Oe)
                                                FY 2005               FY 2006               FY 2007              FY 2008               FY 2009
                                 Target           1.4                    2                     4                    6                    11.4
                                 Actual           1.1                   3.1                   5.6                  8.9
                            Target met?            N                     Y                     Y                    Y
           Definition: Amount of cumulative investments in Low Income Communities that Community Development Entities have made with
              capital raised through their New Markets Tax Credits (NMTC) allocations in billions. The Fund will report NMTC Qualified
              Low-Income Community Investments (QLICIs) that are supported by NMTC Qualified Equity Investments (QEIs).
           Indicator Type: Measure
           Data Capture and Source: The Fund will capture the data in the CDEs’ annual Institution Level and Transaction Level Reports.
           Data Verification and Validation: CDEs will attract private sector equity in the form of QEIs. CDEs will have 12 months to invest
              these QEIs in QLICIs. The CDEs will self-report QLICIs in their annual Transaction Level Report. The Fund uses these
              reports for research, reporting, and compliance. The Fund is confident that CDEs will accurately report, as the consequence of
              misinformation may be recapture of the New Markets Tax Credits.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Cumulative thru 2007. As the NMTC program continues to receive funding, this measure
              will increase as the allocation will go directly to the Community Development Entities (CDEs) to raise Qualified Equity
              Investments (QEIs). Based on past funding trends, the CDFI Fund expects to have a minimum allocation of $2.0 billion avail-
              able to be awarded in 2009.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                      328
                                                                                                   Part IV — Other Accompanying Information




Measure: Dollars of Private and Non-CDFI Fund Investments That CDFIs are Able To Leverage Because of Their CDFI Fund Financial
Assistance. ($ million) (Oe)
                                       FY 2005               FY 2006               FY 2007                  FY 2008          FY 2009
                       Target           500                   1100                   861                     750               635
                       Actual           1800                  1400                   778                     621
                  Target met?             Y                     Y                     N                        N
Definition: This measure represents the dollars of private and non-CDFI Fund investments that CDFIs are able to leverage because
   of their CDFI Fund Financial Assistance (FA) award. For CDFIs, leverage is defined as the one-to-one non-federal match (as
   required by the FA program), plus funds the CDFI is able to leverage with CDFI Fund FA grant and equity dollars, plus dollars
   that the awardees’ borrowers leverage for projects. (Project leverage example - Of the total financing needed for a housing devel-
   opment is $5 million and the awardee lends $1 million, while other investors lend the remaining $4 million, then the $4 million
   is the project leverage).
Indicator Type: Measure
Data Capture and Source: FA award disbursements are made once CDFIs provide documentation showing that they have received
   or been committed matching funds. Disbursements of FA are tracked by the Financial Manager and are used as the proxy for
   matching funds raised. The CDFI Program annual Institution Level Report captures the leverage ratio for FA grants and equity
   dollars, as well as project level leverage.
Data Verification and Validation: CDFI awardees’ one-to-one match is equal to the amount disbursed to awardees. The FA grant and
   equity dollar leverage ratio is taken from the awardees’ financial statements. (In most cases, the financial statements have been
   audited.) Project level leverage is reported by the awardee and is not verifiable by the Fund.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: The shortfall was due to a drop of FA disbursements from $40M (in 2006) to $28M (in 2007).
   Although this is a drop in the overall leverage, the single dollar leverage increased from the previous year went from 1:19 in
   2007 to 1:22 in 2008, respectively. FA disbursements are dependent on how much money the CDFI Fund has available so the
   single dollar leverage is a better indicator of the effectiveness of the grants being provided.


Measure: Increase in Community Development Activities Over Prior Year For All BEA Program Applicants ($ million) (Oe)
                                       FY 2005               FY 2006               FY 2007                  FY 2008          FY 2009
                       Target           134                    81                    100                     180               202
                       Actual           103                    318                   227                     232
                  Target met?             N                     Y                     Y                        Y
Definition: This measures the Bank Enterprise Award (BEA) applicants’ increase in qualified community development activities over
   prior year.
Indicator Type: Measure
Data Capture and Source: Each BEA Program applicant is required to submit an application containing a Report of Transactions.
   The BEA Program Unit administers the BEA application. All reports are submitted electronically and the data is stored in the
   Fund’s databases.
Data Verification and Validation: The data is self-reported by applicants during the application process.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: BEA activity increased this funding round due to an increased level of financial support pro-
   vided to certified CDFIs and small businesses in economically distressed areas. The Fund will continue to support these efforts
   through the BEA awards.




329                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Increase in the Percentage Of Eligible Areas Served by a CDFI (Oe)
                                                 FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                                 Target         Baseline                 5                     8                    15                    15
                                 Actual            3.3                  13.5                  19.5                 17.8
                            Target met?             Y                    Y                     Y                     Y
           Definition: From 2000 census data, there are 24,795 geographic tracts in the U.S. that are designated as eligible to be served by
              CDFIs. The CDFI Fund captures portfolio data at the specific project address level from organizations receiving awards. By
              having this information, it can be determined how many eligible tracts CDFIs are serving in an annual reporting year.
           Indicator Type: Measure
           Data Capture and Source: Each awardee collects and tracts their portfolio data in its own management information system(s). It is
              then uploaded into the CDFI Fund’s Community Investment Impact System (CIIS). This information is self-reported by the
              awardees.
           Data Verification and Validation: The CDFI Fund will collect portfolio data thru the annual transaction level reports. Data provided is
              compared to the awardees’ actual financial statements for accuracy and “reasonableness” as defined by the CDFI Fund. Awardees
              are contacted regarding any discrepancies.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Portfolio data shows that CDFIs have projects in 4,407 out of 24,795 CDFI eligible tracts
              (17.8%) for reporting year 2007. As the CDFI industry expands and more investments/projects are finalized, there should be an
              increase in coverage of projects in distressed communities.


           Measure: Number of Full-Time Equivalent Jobs Created Or Maintained In Underserved Communities By Businesses Financed by CDFI
           Program Awardees (Oe)
                                                 FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                                 Target          26995                 29158                 34009                28676                 30000
                                 Actual          23656                 22329                 35022                29539
                            Target met?             N                    N                     Y                     Y
           Definition: Jobs maintained are jobs at the business at the time the loan or investment is made. Jobs created are new jobs created
              after the loan or investment is made. Jobs created and maintained serve as an important indicator of the economic vitality of
              underserved areas. Underserved communities are those that qualify as CDFI Program Target Markets (which include a specific
              geography called an Investment Area or a specific community of people with demonstrated lack of access to credit, equity, or
              financial services called a Low-Income Targeted Population or an Other Targeted Population).
           Indicator Type: Measure
           Data Capture and Source: Each awardee and allocatee collects and tracks job data in its own management information system(s). The
              information is self-reported by awardees and allocatees. Many organizations track the number of jobs projected to be created. A
              smaller number collect annual information on actual number of jobs created. Some do not collect the data and respond “don’t
              know.” Each CDFI Financial Assistance awardee and NMTC Allocatee is required to complete a Transaction Level Report.
              CDFI awardees report FTE data in the Institution Level Report or Transaction Level Report, while NMTC Allocatees report
              FTE data in the Transaction Level Report only.
           Data Verification and Validation: The Fund will collect FTE through the annual Institution Level and Transaction Level Reports. Data
              provided is compared to the awardees’ and allocatees’ actual financial statements for accuracy and “reasonableness” as defined by
              the Fund. Awardees and allocatees are contacted regarding any discrepancies.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Based on 2007 reporting. Job creation will be of great importance during this economic down
              turn. As CDFIs receive funding from the CDFI Fund, they will be able to continue investing in projects that will improve low-
              income communities and create jobs.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                     330
                                                                                                   Part IV — Other Accompanying Information




Measure: Number of Small Businesses Located In Underserved Communities Financed by BEA Program Applicants (Oe)
                                       FY 2005               FY 2006               FY 2007                  FY 2008           FY 2009
                       Target                                                      Baseline                  329               288
                       Actual                                                        375                     906
                  Target met?            N/A                   N/A                    Y                        Y
Definition: Number of loans provided to small businesses financed by BEA applicants.
Indicator Type: Measure
Data Capture and Source: Each BEA Program applicant is required to submit an application containing a Report of Transactions.
   The BEA Program Unit administers the BEA application. All reports are submitted electronically and the data is stored in the
   Fund’s databases.
Data Verification and Validation: The data is self-reported by applicants during the application process.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: In 2007, there was a significant rise in the number of loans provided to small business owners in
   economically distressed areas. Given the uncertainty in the lending markets, the Fund does not predict this level of growth to
   continue but to more closely resemble the cycle experience in the past three years.


Measure: Percent of CDFIs that Increased Their Total Assets (Cumulative) (Oe)
                                       FY 2005               FY 2006               FY 2007                  FY 2008           FY 2009
                       Target            69                    70                     70                      70                70
                       Actual            74                    84                     82                      87
                  Target met?             Y                     Y                     Y                        Y
Definition: Measure the # of CDFIs that reported an increase in total assets in the current year compared to the original year that
   was first reported to the CDFI Fund.
Indicator Type: Measure
Data Capture and Source: CDFIs financial data is captured through the annual Institutional Level Report.
Data Verification and Validation: CDFIs report their total assets to the CDFI Fund in their Institutional Level Report. The CDFI
   Fund verifies the total assets reported against the organization’s submitted balance sheet. Organizations are contacted regarding
   any discrepancies in the data reported.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: Assets increased in 117 out of 134 CDFIs for reporting year 2007 compared to the original
   reporting year. Increased assets indicate a stronger financial institution which also indicates a maturing CDFI industry as a
   whole. It is expected that CDFIs receiving awards from the CDFI Fund should be able to maintain the target level.




331                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percent of CDFIs that Increased Their Total Assets Over the Previous Year (Annual) (Oe)
                                                 FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                                 Target            69                    69                    70                   70                    70
                                 Actual            73                    82                    74                   80
                            Target met?             Y                    Y                     Y                     Y
           Definition: Measure the # of CDFIs that reported an increase in total assets over the previous year.
           Indicator Type: Measure
           Data Capture and Source: The CDFIs financial data is captured through the annual Institution Level Report.
           Data Verification and Validation: CDFIs report their total assets to the CDFI Fund in their Institutional Level Report. The CDFI
              Fund verifies the total assets reported against the organization’s submitted balance sheet. Organizations are contacted regarding
              any discrepancies in the data reported. The CDFI Fund compares the total assets of CDFIs from year-to-year.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Assets increased in 103 out of 128 CDFIs for reporting year 2007. Increased assets indicate a
              stronger financial institution which also indicates a maturing CDFI industry as a whole. It is expected that CDFIs receiving
              awards from the CDFI Fund should be able to maintain the target level.


           Measure: Percentage of Eligible Areas Served by One Or More CDFI (Oe)
                                                 FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                                 Target          Baseline                1                     1                     3                     3
                                 Actual             .1                  1.6                   4.2                   3.4
                            Target met?             Y                    Y                     Y                     Y
           Definition: Same definition as the measure “CDFI - Increase in the pct. of eligible areas served”. The difference is that this measure
              focuses on one or more CDFI serving the same geographic tract, which would indicate demand for CDFIs.
           Indicator Type: Measure
           Data Capture and Source: Each awardee collects and tracts their portfolio data in its own management information system(s). It is
              then uploaded into the CDFI Fund’s Community Investment Impact System (CIIS). This information is self-reported by the
              awardees.
           Data Verification and Validation: The CDFI Fund will collect portfolio data thru the annual transaction level reports. Data provided is
              compared to the awardees’ actual financial statements for accuracy and “reasonableness” as defined by the CDFI Fund. Awardees
              are contacted regarding any discrepancies.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Portfolio data shows that 832 out of 24,795 CDFI eligible tracts (3.4%) are being served by one
              or more CDFI for reporting year 2007. As the CDFI industry expands and more investments/projects are finalized, there should
              be an increase in coverage of projects in distressed communities.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                     332
                                                                                                   Part IV — Other Accompanying Information




 Measure: Percentage of Loans and Investments that Went Into Severely Distressed Communities (Oe)
                                       FY 2005               FY 2006               FY 2007               FY 2008                FY 2009
                        Target         Baseline                 66                    66                    66                    66
                        Actual            64                    71                    76                    73
                  Target met?             Y                     Y                     Y                     Y
 Definition: Portfolio data being reported by allocatees’ at the project level is used to determine the percentage of loans going into a
    distressed community. A distressed community is composed of any of the following criteria: 1)Poverty > 30% 2)Median Income
    < 60% 3)Unemployment Rate 1.5x National Average
 Indicator Type: Measure
 Data Capture and Source: Each allocatee collects and tracts their portfolio data in its own management information system(s). It is
    then uploaded into the CDFI Fund’s Community Investment Impact System (CIIS). This information is self-reported by the
    awardees.
 Data Verification and Validation: The CDFI Fund will collect portfolio data thru annual transaction level reports. Data provided is
    compared to the awardees’ actual financial statements for accuracy and “reasonableness” as defined by the CDFI Fund. Awardees
    are contacted regarding any discrepancies.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Cumulative thru 2007, 1,453 out of 1,980 projects are considered to be located in severely dis-
    tressed communities. With more emphasis on assisting rural communities in the latest award round, this measure should easily
    exceed the projection for the next reporting year.



Alcohol and Tobacco Tax and Trade Bureau
 Measure: Average Number of Days to Process an Original Permit Application at the National Revenue Center (E)
                                       FY 2005               FY 2006               FY 2007               FY 2008                FY 2009
                        Target                                                                           Baseline                 72
                        Actual                                                                              64
                  Target met?            N/A                   N/A                   N/A                    Y
 Definition: The average numbers of days to process an original permit application (including those rejected) at the National Revenue
    Center (NRC). An application is stamped when received and recorded when processed.
 Indicator Type: Measure
 Data Capture and Source: The NRC generates statistical reports, searches, and queries from the IRIS system.
 Data Verification and Validation: The NRC maintains data in the Integrated Revenue Information System (IRIS) database that reflects
    the receipt date of the application and the permit issue or close date. The IRIS system contains built-in data integrity controls to
    validate the information.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: TTB used fiscal year 2008 results to baseline this measure and set a performance target for fiscal
    year 2009. In setting the target, TTB took into consideration that the National Revenue Center (NRC) is currently experiencing
    an eight percent annual growth in permit applications. This has led to growth in the backlog of applications and to the expendi-
    ture of unplanned overtime costs for the NRC. The NRC will review its business processes and explore funding options for an
    automated permit application system that will greatly reduce the processing time for permits.




333                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: National Revenue Center (NRC) Customer Satisfaction Survey Results (Oe)
                                                 FY 2005              FY 2006               FY 2007              FY 2008              FY 2009
                                 Target                                                                         Baseline                85
                                 Actual                                                                            90
                            Target met?            N/A                   N/A                  N/A                   Y
           Definition: The NRC will conduct a customer survey to determine satisfaction levels among industry members applying for a permit
              or filing a claim with TTB. The questions used in this survey will be standardized for each commodity.
           Indicator Type: Measure
           Data Capture and Source: Data is captured from clients through a survey mechanism. Results are posted to a detailed Excel spread-
              sheet. There are periodic reports generated for management.
           Data Verification and Validation: Supervisor reviews report developed summary data developed by National Revenue Center (NRC)
              staff.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: The TTB National Revenue Center (NRC) intends to achieve a score of 85 or better (a B+ rat-
              ing) in fiscal year 2009 by improving forms and clarifying form instructions, an area that the fiscal year 2008 survey indicated as
              vulnerability. The NRC plans to target key stakeholders in the upcoming fiscal year, concentrating on the few regulated indus-
              tries with the lowest apparent scores on the satisfaction survey.


           Measure: Percent of Electronically Filed Certificate of Label Approval Applications (E)
                                                 FY 2005               FY 2006              FY 2007              FY 2008              FY 2009
                                 Target            16                    27                    47                  52                   52
                                 Actual            25                    38                    51                  62
                            Target met?             Y                     Y                    Y                    Y
           Definition: Calculated by dividing the number of e-filed applications by the total Certificate of Label Approval applications (COLA)
              submissions (paper and electronic). The quarterly results are cumulative.
           Indicator Type: Measure
           Data Capture and Source: Data is captured through the COLAs Online database system. There are periodic statistical reports,
              searches, and queries that are generated.
           Data Verification and Validation: Supervisor reviews canned report developed from COLAs Online database.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: TTB continues to monitor COLAs Online user feedback to develop and implement system
              enhancements as resources allow. These updates result in a more user-friendly system that attracts and retains e-filers. The
              Advertising, Labeling and Formulation Division (ALFD) plans to continue its outreach efforts by participating as session speak-
              ers and booth exhibitors at TTB Expo 2009. Also, resources permitting, ALFD will hold another series of COLAs Online
              Workshops at locations throughout the United States, and will attend and present at various national seminars sponsored by
              industry. Further, ALFD is making a strategic effort to identify and reach out to large paper filers for one-on-one presentations
              and system demonstrations to show the benefits of filing label applications electronically.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                   334
                                                                                                   Part IV — Other Accompanying Information




Measure: Percentage of Instances Where the Utilization of International Trade Database System Identified Importers Without Permits
as a Percentage of Total Permits on File (Oe)
                                       FY 2005               FY 2006                FY 2007               FY 2008                FY 2009
                       Target                                                                             Baseline                 16
                       Actual                                                                                15
                  Target met?            N/A                   N/A                    N/A                    Y
Definition: The percentage of occurrences in which any individual or business importer has no known authorization (e.g., permit) to
   operate in the alcohol or tobacco industries in the U.S. where instances in the ITDS fail to match those within the NRC’s inte-
   grated Revenue System (IRIS). The results reported quarterly are cumulative findings for the year up through the reporting date.
Indicator Type: Measure
Data Capture and Source: Data is captured through the ITDS and compared with that of the NRC permit database. There are peri-
   odic statistical reports, searches, and queries that are generated.
Data Verification and Validation: Supervisor reviews report developed from ITDS compared to National Revenue Center (NRC) permit
   database.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: TTB plans to begin monitoring alcohol importers in the International Trade Database System
   (ITDS) in fiscal year 2009. Due to staffing levels, TTB concentrated on targeting illicit tobacco importers in fiscal year 2008.
   TTB will send cease and desist letters to illegal importers of alcohol and tobacco products. If database records indicate that
   these importers continue to import product, TTB intelligence specialists will refer the importer to TTB’s Trade Investigations
   Division and/or TTB’s Tax Audit Division for investigation.


Measure: Percentage of COLA Approval Applications Processed within 9 Calendar Days of Receipt (E) [DISCONTINUED FY 2008]
                                       FY 2005               FY 2006                FY 2007               FY 2008                FY 2009
                       Target            30                     55                    45                Discontinued           Discontinued
                       Actual            50                     44                    42
                  Target met?             Y                     N                      N                    N/A

Definition: The percentage of Certificate of Label Applications (COLA) processed electronically and by paper within 9 days of
   receipt.
Indicator Type: Measure
Data Capture and Source: Data is captured thru the COLAs Online data base system. There are periodic statistical reports, searches,
   and queries that are generated.
Data Verification and Validation: There are statistical reports, searches and queries that are generated. In addition, there are data integ-
   rity controls in place within the application to validate the data.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008. The nine-day standard for processing
   COLA applications, set in the 1990’s, is no longer representative of staffing or workload levels, given that the number of
   COLA applications has risen 25 percent in the past three years alone. TTB replaced this customer service measure with another
   customer-oriented measure, “National Revenue Center customer service survey results.”




335                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percentage of Permit Applications (original and amended) Processed by the National Revenue Center within 60 Days (E)
           [DISCONTINUED FY 2008]
                                                  FY 2005                FY 2006             FY 2007               FY 2008               FY 2009
                                  Target             67                    80                  80                Discontinued          Discontinued
                                  Actual             81                    86                 85.09
                             Target met?             Y                      Y                   Y                    N/A

           Definition: The average number of days to process a permit application (original including those rejected by the NRC. An applica-
              tion is stamped when received and recorded when processed.
           Indicator Type: Measure
           Data Capture and Source: NRC generates statistical reports, searches and queries. In-place data integrity controls exist within the
              application to validate the data.
           Data Verification and Validation: NRC maintains data in the IRIS database that reflects receipt date and issued or closed date.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008 and instituted a replacement measure,
              “Average number of days to process an original permit application at the National Revenue Center,” which tracks our customer
              service level. The 60-day standard for processing original and amended permit applications grew to be unrealistic due to signifi-
              cantly increasing applications with no corresponding increase in authorized staffing levels at the National Revenue Center.
           Future Plans/Explanation for Shortfall: Discontinued for fiscal year 2008.


           Measure: Unit Cost to Process a Wine Certificate of Label Approval (E) [DISCONTINUED FY 2008]
                                                  FY 2005                FY 2006             FY 2007               FY 2008               FY 2009
                                  Target                                                        0                Discontinued          Discontinued
                                  Actual                                                       34
                             Target met?            N/A                    N/A                  Y                    N/A

           Definition: This is the allocated cost of the resources used in processing the COLA divided by the number of COLAs.
           Indicator Type: Measure
           Data Capture and Source: The COLA online database.
           Data Verification and Validation: Capturing excise tax returns: TTB reconciles the returns received vs. logged returns daily. Capturing
              resource cost data: Resource data is captured and available four times a day in Discoverer.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: TTB discontinued this measure in fiscal year 2008 as part of a review and revision that resulted
              in a new suite of measures that better represent the Bureau’s performance.
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Discontinued for fiscal year 2008.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                     336
                                                                                                  Part IV — Other Accompanying Information




 Outcome: Free Trade and Investment

Departmental Offices
 Measure: Number of New Trade and Investment Negotiations Underway 0r Completed (Oe)
                                       FY 2005               FY 2006               FY 2007                FY 2008              FY 2009
                        Target                                                                            Baseline                6
                        Actual                                                                              14
                  Target met?            N/A                   N/A                   N/A                     Y
 Definition: The number of international trade or investment agreements underway or completed during the period and the number
    of those that reflect commitments to high standards, including new commitments by a foreign government to open its financial
    services markets to U.S. providers. It includes bilateral agreements such as Free Trade Agreements, Bilateral Investment treaties
    and multilateral undertaking (e.g., WTO) from which the U.S. benefits.
 Indicator Type: Measure
 Data Capture and Source: International Affairs staff and U.S. Trade Representative’s office reporting.
 Data Verification and Validation: Based upon a count by International Affairs staff responsible for such negotiations and verifiable by
    reference to U.S. Trade Representative’s office of financial services and investment.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Rising protectionist sentiment around the globe is impeding efforts to complete both bilateral
    and multilateral negotiations. Progress towards Department goals could be slowed if weaker economic conditions exacerbate this
    protectionist trend. The Department will make every effort to complete the target of six negotiations for 2009.


 Measure: Number of Specific New Trade Actions Involving Treasury Interagency Participation in Order to Enact, Implement, and
 Enforce U.S. Trade Law and International Agreements (Oe)
                                       FY 2005               FY 2006               FY 2007                FY 2008              FY 2009
                        Target                                                                            Baseline                68
                        Actual                                                                              68
                  Target met?            N/A                   N/A                   N/A                     Y
 Definition: Specific trade actions involving Treasury interagency participation under legislation, decision whether to initiate trade dis-
    putes, review of country eligibility for preference programs, and review of specific trade petitions and recommendations (under
    preference programs, Section 301, CITA, Section 337, etc.)
 Indicator Type: Measure
 Data Capture and Source: International Affairs staff and U.S. Trade Representative’s office reporting.
 Data Verification and Validation: Based upon a count by International Affairs staff responsible for such negotiations and verifiable by
    reference to U.S. Trade Representative’s office of financial services and investment.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: Challenging economic conditions increased the number of new trade actions for 2008 beyond
    initial expectations. High likelihood of similar economic conditions in 2009 will most likely keep trade actions at an elevated
    level. The actual result for 2008, 68 actions, has thereby been retained as the target for 2009.




337                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Number of New Free Trade Agreement (FTA) Negotiations and Bilateral Investment Treaty Negotiations Underway or
           Completed (Oe) [DISCONTINUED FY 2008]
                                                 FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                                  Target            5                     9                      7                Discontinued          Discontinued
                                  Actual            7                     12                    10                     0
                             Target met?            Y                     Y                      Y                    N/A

           Definition: The number of international trade or investment agreements underway or completed during the period and the number
              of those that reflect commitments to high standards such as that includes new commitments by a foreign government to open
              its financial services markets to U.S. providers. It includes bilateral agreements and multilateral undertakings (e.g., WTO) from
              which the U.S. benefits.
           Indicator Type: Measure
           Data Capture and Source: International Affairs staff and U.S. Trade Representative’s office reporting.
           Data Verification and Validation: : Based upon a count by International Affairs staff responsible for such negotiations and verifiable by
              reference to U.S. Trade Representative’s office of financial services and investment.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: This measure was Discontinued in fiscal year 2008.



            Outcome: Prevented or Mitigated Financial and Economic Crises

          Departmental Offices
           Measure: Changes that Result from Project Engagement (Impact) (Oe)
                                                 FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                                  Target                                                                            Baseline                3.1
                                  Actual                                                                              3.1
                             Target met?           N/A                   N/A                    N/A                    Y
           Definition: The extent to which a Technical Assistance project objective contributes to the achievement of the goal(s) described in
              the Terms of Reference and addresses the country problem describe
           Indicator Type: Measure
           Data Capture and Source: Generated by the Financial Technical Assistant Advisor who manage the project in the countries were tech-
              nical assistant project exist.
           Data Verification and Validation: The data is verified by the five contracting office representatives, the Associate Director of OTA and
              approved by the director of OTA.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: During fiscal year 2009 OTA will continue work already begun on analysis of fiscal year 2008
              baseline data; continue reviewing team processes of generating, recording, and reviewing individual project data; and review team
              indicators for the four Program Key Results Areas that comprise the overall Program Performance Measures.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        338
                                                                                                   Part IV — Other Accompanying Information




Measure: Scope and Intensity of Engagement (Traction) (E)
                                        FY 2005               FY 2006              FY 2007               FY 2008                FY 2009
                       Target                                                                            Baseline                 3.7
                       Actual                                                                               3.7
                  Target met?             N/A                   N/A                  N/A                    Y
Definition: The degree to which a Technical Assistance project brings about changes in behavior among the counterparts and other
   country participants.
Indicator Type: Measure
Data Capture and Source: Generated by the Financial Technical Assistant Advisor who manage the project in the countries were tech-
   nical assistant project exist.
Data Verification and Validation: The data is verified and validated by the five contracting office representatives, the Associate Director
   of OTA and approved by the Director of OTA.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: During fiscal year 2009 OTA will continue work already begun on analysis of fiscal year 2008
   baseline data; continue reviewing team processes of generating, recording, and reviewing individual project data; and review team
   indicators for the four Program Key Results Areas that comprise the overall Program Performance Measures.


Measure: U.S. Real Gross Domestic Product (GDP) Growth Rate (Oe) [DISCONTINUED FY 2008]
                                        FY 2005               FY 2006              FY 2007               FY 2008                FY 2009
                       Target             3.6                   3.4                  3.3               Discontinued           Discontinued
                       Actual             3.6                    3                   2.4
                  Target met?              Y                     N                    N                    N/A

Definition: Real GDP is the most comprehensive measure of economic activity and is compiled throughout the year to reflect devel-
   opments in each calendar quarter.
Indicator Type: Measure
Data Capture and Source: Data are provided by the Department of Commerce, Bureau of Economic Analysis (BEA).
Data Verification and Validation: Data is drawn from the Department of Commerce, Bureau of Economic Analysis, and checked twice
   to make sure the data is accurate.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: Discontinued for fiscal year 2008.




339                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: U.S. Unemployment Rate (Oe) [DISCONTINUED FY 2008]
                                                  FY 2005                FY 2006              FY 2007               FY 2008                FY 2009
                                  Target            5.3                    5.2                  5.1               Discontinued           Discontinued
                                  Actual            5.1                    4.6                  4.5
                             Target met?             Y                      Y                    Y                    N/A

           Definition: The percentage of the U.S. labor force reported as unemployed in the last quarter of the reference fiscal year.
           Indicator Type: Measure
           Data Capture and Source: Data are collected from the U.S. Department of Labor, Bureau of Labor Statistics
           Data Verification and Validation: Data are drawn from the U.S. Department of Labor, Bureau of Labor Statistics and checked twice to
              make sure the data are accurate.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Discontinued for fiscal year 2008.



          Office of the Comptroller of the Currency
           Measure: Percent of National Banks With Composite CAMELS Rating 1 or 2 (Oe)
                                                  FY 2005                FY 2006              FY 2007               FY 2008                FY 2009
                                  Target             90                    90                   90                    90                     90
                                  Actual             94                    95                   96                    92
                             Target met?             Y                      Y                    Y                     Y
           Definition: This measure reflects the overall condition of the national banking system at fiscal year-end. Bank regulatory agencies use
              the Uniform Financial Institutions Rating System, CAMELS, to provide a general framework for assimilating and evaluating all
              significant financial, operational and compliance factors inherent in a bank. Evaluations are made on: Capital adequacy, Asset
              quality, Management, Earnings, Liquidity, and Sensitivity to Market Risk. The rating scale is 1 through 5 where 1 is the high-
              est rating granted.
           Indicator Type: Indicator
           Data Capture and Source: The Supervisory Information office identifies the current composite ratings from Examiner View (EV)
              and Supervisory Information System (SIS) at fiscal year-end. The number of national banks at fiscal year-end is obtained from
              the Federal Reserve Board’s National Information Center database. The percentage is determined by comparing the number of
              national banks with current composite CAMELS ratings of 1 or 2 to the total number of national banks at fiscal year-end.
           Data Verification and Validation: Either quarterly or semi-annually, an independent reviewer compares a sample of Reports of
              Examination to the Examiner View (EV) and Supervisory Information System (SIS) data to ensure the accuracy of the recorded
              composite ratings. Any discrepancies between the supporting documentation and the systems data are reported to the respective
              Assistant Deputy Comptroller or Deputy Comptroller for corrective action.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: To sustain this level of achievement, the OCC will execute its Bank Supervision Operating Plan
              that focuses on credit quality, allowance of loan and lease losses (ALLL) adequacy, off-balance-sheet activities, liquidity and
              interest rate risk management, consumer protection, and Bank Secrecy Act/Anti-money Laundering compliance. The OCC
              also will continue it’s recruiting of entry-level examiners, aligning supervision resources to the areas of greatest risk, training the
              examiner staff, and enhancing examination guidance.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        340
                                                                                                   Part IV — Other Accompanying Information




Measure: Percentage of Licensing Applications and Notices Completed within Established Timeframes (Oe)
                                       FY 2005               FY 2006               FY 2007               FY 2008                FY 2009
                       Target            95                    95                     95                    95                    95
                       Actual            96                    94                     96                    95
                  Target met?             Y                     N                     Y                     Y
Definition: This measure reflects the extent to which OCC meets its established timeframes for reaching decisions on licensing appli-
   cations and notices. The OCC’s timely and effective approval of corporate applications and notices contributes to the nation’s
   economy by enabling national banks to engage in corporate transactions and introduce new financial products and services.
Indicator Type: Measure
Data Capture and Source: The Chief Counsel’s office uses the Corporate Activity Information System (CAIS) to identify applications
   completed during the fiscal year. For each filing, the actual decision date is compared to the target action date to determine
   whether the application was completed within established standards. The percentage is determined by comparing the number of
   licensing applications processed within the required timeframes to the total number of licensing applications processed during
   the fiscal year. The processing time is the number of calendar days from the date of OCC receipt to the date of OCC’s decision.
   The established processing timeframe depends on the application type and if the application qualifies for expedited processing.
Data Verification and Validation: The Licensing Department tracks processing of all applications and notices through the Corporate
   Activity Information System (CAIS). The analyst who is assigned the application will verify the accuracy of the CAIS data
   as the application is processed. The senior analyst or manager who approves the final decision also verifies the accuracy of the
   CAIS data.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: OCC plans to maintain its high level of timeliness in completing licensing applications and
   notices by hiring qualified staff as vacancies arise; providing staff training through annual conferences and rotational assign-
   ments, revising licensing manuals to address new circumstances and changed policies; and maintaining frequent communications
   between Headquarters office management and licensing analysts and District Office staff.


Measure: Percentage of National Banks that are Categorized as Well Capitalized (Oe)
                                       FY 2005               FY 2006               FY 2007               FY 2008                FY 2009
                       Target            95                    95                     95                    95                    95
                       Actual            99                    99                     99                    99
                  Target met?             Y                     Y                     Y                     Y
Definition: This measure reflects whether the national banking system is well capitalized at fiscal year-end. The Federal Deposit
   Insurance Act established a system of prompt corrective action (PCA) that classifies insured depository institutions into five cat-
   egories (well capitalized; adequately capitalized; undercapitalized, significantly undercapitalized; and critically undercapitalized)
   based on their relative capital levels. The purpose of PCA is to resolve the problems of insured depository institutions at the
   least possible long-term cost to the deposit insurance fund.
Indicator Type: Indicator
Data Capture and Source: National banks file quarterly Reports of Condition and Income with the Federal Finance Institution
   Examination Council through the Federal Deposit Insurance Corporation’s data processing center. The Supervisory Information
   office reviews the Reports of Condition and Income (i.e., call reports) for each quarter to identify national banks that meet all
   of the criteria for a well capitalized institution. The number of national banks at fiscal year-end is obtained from the Federal
   Reserve Board’s National Information Center database. The percentage is determined by comparing the number of national
   banks that meet all of the established criteria for being well capitalized to the total number of national banks at fiscal year-end.
Data Verification and Validation: The banks’ boards of directors attest to the accuracy of the reported data. The reliability of these quar-
   terly reports is evaluated by OCC examiners during bank examinations.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: To sustain this level of achievement, the OCC will execute its Bank Supervision Operating Plan
   that focuses on the capitalization levels of all national banks to ensure that our examination process focuses on banks that have
   or may develop problems related to capitalization levels. The OCC also will continue it’s recruiting of entry-level examiners,
   aligning supervision resources to the areas of greatest risk, training the examiner staff, and enhancing examination guidance.




341                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percentage of National Banks with Consumer Compliance Rating of 1 or 2 (Oe)
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                  Target           94                    94                    94                    94                    94
                                  Actual           94                    94                    97                    97
                             Target met?            Y                     Y                    Y                     Y
           Definition: This measure reflects the national banking system’s compliance with consumer laws and regulations. Bank regulatory
              agencies use the Uniform Financial Institutions Rating System, Interagency Consumer Compliance Rating, to provide a general
              framework for assimilating and evaluating significant consumer compliance factors inherent in a bank. Each bank is assigned a
              consumer compliance rating based on an evaluation of its present compliance with consumer protection and civil rights statutes
              and regulations, and the adequacy of its operating systems designed to ensure continuing compliance. Ratings are on a scale of 1
              through 5 in increasing order of supervisory concern.
           Indicator Type: Indicator
           Data Capture and Source: The Supervisory Information office identifies the number of banks with current consumer compliance rat-
              ings of 1 or 2 and the total number of national banks from Examiner View (EV) and Supervisory Information System (SIS)
              subject to consumer compliance examinations at fiscal year-end. The percentage is determined by comparing the number of
              national banks with current consumer compliance ratings of 1 or 2 to the total number of national banks subject to consumer
              compliance examinations at fiscal year-end.
           Data Verification and Validation: Consumer compliance ratings are assigned at the completion of each consumer compliance exami-
              nation. These ratings are entered into OCC’s management information systems, Examiner View (EV) and Supervisory
              Information System (SIS), by the banks’ Examiner-in-Charge and reviewed and approved by the Supervisory Offices’ Assistant
              Deputy Comptroller (Mid-Size/Community banks) or Deputy Comptroller (Large banks).
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: To sustain this level of achievement, the OCC will execute its Bank Supervision Operating Plan
              that encourages and ensures that national banks have strong compliance management functions in place. The OCC also will
              continue it’s recruiting of entry-level examiners, aligning supervision resources to the areas of greatest risk, training the examiner
              staff, and enhancing examination guidance.


           Measure: Rehabilitated National Banks as a Percentage of Problem National Banks One Year Ago (CAMEL 3,4, or 5) (Oe)
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                  Target           40                    40                    40                    40                    40
                                  Actual           44                    46                    52                    47
                             Target met?            Y                     Y                    Y                     Y
           Definition: This measure reflects the successful rehabilitation of problem national banks during the past twelve months. Problem
              banks can ultimately reach a point where rehabilitation is no longer feasible. The OCC’s early identification of and intervention
              with problem banks can lead to successful remediation of problem banks.
           Indicator Type: Indicator
           Data Capture and Source: The Supervisory Information office in OCC’s headquarters office uses Examiner View (EV) and the
              Supervisory Information System (SIS) to identify and compare the composite CAMELS ratings for problem banks from twelve
              months prior to the current period composite CAMELS ratings for the same banks. The percentage is determined by compar-
              ing the number of national banks that have upgraded composite CAMELS ratings of 1 or 2 from composite CAMELS ratings
              of 3, 4 or 5 to the total number of national banks that had composite CAMELS ratings of 3, 4 or 5 twelve months ago.
           Data Verification and Validation: Either quarterly or semi-annually, an independent reviewer compares a sample of Reports of
              Examination to the Examiner View (EV) and Supervisory Information System (SIS) data to ensure the accuracy of the recorded
              composite ratings. Any discrepancies between the supporting documentation and the systems data are reported to the respective
              Assistant Deputy Comptroller or Deputy Comptroller for corrective action.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: To sustain this level of achievement, the OCC will execute its Bank Supervision Operating Plan
              that focuses on banks with the highest degree of problems and to work with those banks to resolve their problems in order to
              ensure the national banking system remains stable and strong. The OCC also will continue its recruiting of entry-level examin-
              ers, aligning supervision resources to the areas of greatest risk, training the examiner staff, and enhancing examination guidance.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                      342
                                                                                                  Part IV — Other Accompanying Information




 Measure: Total OCC Costs Relative to Every $100,000 in Bank Assets Regulated ($) (E)
                                       FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                       Target                                Baseline               9.55                  9.55                  9.22
                       Actual                                 8.84                  8.89                  8.39
                  Target met?            N/A                    Y                     Y                     Y
 Definition: This measure reflects the efficiency of OCC operations while meeting the increasing supervisory demands of a growing
    and more complex national banking system.
 Indicator Type: Measure
 Data Capture and Source: OCC costs are those reported as total program costs on the annual audited Statement of Net Cost. Banks
    assets are those reported quarterly by national banks on their Reports of Condition and Income.
 Data Verification and Validation: OCC’s financial statements and controls over the data are audited by an independent accountant
    each year. National banks file quarterly Reports on Condition and Income with the FFIEC through the FDIC’s data process-
    ing center. The banks’ boards of directors attest to the accuracy of the reported data. The reliability of these quarterly reports is
    evaluated by OCC examiners during bank examinations.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: OCC will continue implementation of a performance measure that reflects the efficiency of its
    operations while meeting the increasing supervisory demands of a growing and more complex national banking system. This
    measure supports the OCC’s strategic goal of efficient use of agency resources.



Office of Thrift Supervision
 Measure: Percent of Safety and Soundness Exams Started as Scheduled (Ot)
                                       FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                       Target            90                    90                    90                    90                     90
                       Actual            93                    94                    95                    94
                  Target met?             Y                     Y                     Y                     Y
 Definition: OTS examines savings associations every 12-18 months for safety and soundness, compliance and consumer protection
    laws. OTS performs safety and soundness examinations of its regulated savings associations consistent with the requirements
    in the Federal Deposit Insurance Corporation Improvement Act of 1991 (FDICIA) as amended by the Riegle Community
    Development and Regulatory Improvement Act of 1994. When safety and soundness or compliance issues are identified during
    its risk-focused examinations, OTS acts promptly to ensure association management and directors institute corrective actions to
    address supervisory concerns. OTS staff often meets with the savings association’s board of directors after delivery of the Report
    of Examination to discuss findings and recommendations.
 Indicator Type: Measure
 Data Capture and Source: When a savings association is examined, OTS staff enters into the Examination Data System the examina-
    tion type, examination beginning and completion dates report of examination mail date, and CAMELS or equivalent ratings.
    The percentage success rate for this measure is calculated by dividing the number of examinations that were started by the num-
    ber of examinations that were scheduled to be started during the review period.
 Data Verification and Validation: Data regarding safety and soundness examinations started as scheduled are available from the
    Examination Data System. The System reports assist in scheduling examinations and monitoring past performance. When nec-
    essary, management determines why standards are not being met and will initiate steps to improve performance.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure. The fiscal year
    2009 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations. OTS will con-
    tinue tailoring supervisory examinations to the risk profile of the institutions, while effectively allocating resources to oversee and
    assess the safety and soundness and consumer compliance record of the thrift industry.




343                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percent of Thrifts that are Well Capitalized (Oe)
                                                 FY 2005                FY 2006              FY 2007               FY 2008               FY 2009
                                 Target            95                     95                   95                    95                    95
                                 Actual           99.5                   99.9                  99                   98.4
                            Target met?             Y                      Y                    Y                     Y
           Definition: Capital absorbs losses, promotes public confidence and provides protection to depositors and the FDIC insurance funds.
              It provides a financial cushion that can allow a savings association to continue operating during periods of loss or other adverse
              conditions. The Federal Deposit Insurance Act established a system of prompt corrective action (PCA) that classifies insured
              depository institutions into five categories (well-capitalized; adequately capitalized; undercapitalized, significantly undercapital-
              ized; and critically undercapitalized) based on their relative capital levels. The purpose of PCA is to resolve the problems of
              insured depository institutions at the least possible long-term cost to the deposit insurance fund.
           Indicator Type: Measure
           Data Capture and Source: PCA ratings are stored in the Examination Data System and can also be found in the Thrift Overview
              Report and off-site financial monitoring reports. OTS calculates this measure by dividing the number of savings associations
              that are well capitalized by the total number of OTS-regulated institutions.
           Data Verification and Validation: The Assistant Managing Director, Examinations and Supervision – Operations monitors and validates
              the capital measures. Quarterly press releases provide capital measures to the public.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure. The fiscal year
              2009 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations. OTS will con-
              tinue tailoring supervisory examinations to the risk profile of the institutions, while effectively allocating resources to oversee and
              assess the safety and soundness and consumer compliance record of the thrift industry.


           Measure: Percent of Thrifts with a Compliance Examination Ratings of 1 or 2 (Oe)
                                                 FY 2005                FY 2006              FY 2007               FY 2008               FY 2009
                                 Target            90                     90                   90                    90                    90
                                 Actual            94                     93                   97                   95.8
                            Target met?             Y                      Y                    Y                     Y
           Definition: A uniform, interagency compliance rating system was first approved by the Federal Financial Institutions Examination
              Council (FFIEC) in 1980. The FFIEC rating system was designed to reflect, in a comprehensive and uniform fashion,
              the nature and extent of an association’s compliance with consumer protection statutes, regulations and requirements. The
              Compliance Rating System is based upon a scale of 1 through 5 in increasing order of supervisory concern. OTS began to
              combine safety and soundness and compliance examinations in 2002 to attain exam efficiencies and to improve risk assessment.
              Using comprehensive exam procedures, compliance with consumer protection laws is reviewed at more frequent intervals, which
              has improved the quality of the examination process.
           Indicator Type: Measure
           Data Capture and Source: Compliance examination ratings are stored in the Examination Data System. OTS calculates this measure
              by dividing the number of OTS-regulated savings associations that received a compliance examination rating of 1 or 2 on their
              most recent examination by the total number of OTS-regulated savings associations that have been assigned a compliance
              examination rating.
           Data Verification and Validation: Summary and detail reporting of compliance ratings are available online through the Examination
              Data System. The Assistant Managing Director, Examinations and Supervision – Operations monitors the status of compliance
              exam ratings.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure. The fiscal year
              2009 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations. OTS will con-
              tinue tailoring supervisory examinations to the risk profile of the institutions, while effectively allocating resources to oversee and
              assess the safety and soundness and consumer compliance record of the thrift industry.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                      344
                                                                                                 Part IV — Other Accompanying Information




Measure: Percent of Thrifts with Composite CAMELS Ratings of 1 or 2 (%) (Oe)
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                      Target            90                    90                    90                    90                    90
                      Actual            94                    93                    93                    90
                 Target met?             Y                     Y                     Y                     Y
Definition: On December 9, 1996, the FFIEC adopted the CAMELS rating system as the internal rating system to be used by the
   Federal and State regulators for assessing the safety and soundness of financial institutions on a uniform basis. The CAMELS
   rating system puts increased emphasis on the quality of risk management practices. “CAMELS” stands for Capital adequacy,
   Asset quality, Management, Earnings, Liquidity and Sensitivity to market risk. OTS assigns composite CAMELS rating to
   savings associations at each examination and may adjust the rating between examinations if the association’s overall condition
   has changed. New savings associations are typically not assigned a composite CAMELS rating until the first examination. OTS
   adjusts the level of supervisory resources devoted to an association based on the composite rating. The CAMELS rating is based
   upon a scale of 1 through 5 in increasing order of supervisory concern.
Indicator Type: Measure
Data Capture and Source: Composite CAMELS ratings are stored in and retrieved from the online Examination Data System. OTS
   calculates this measure by dividing the number of savings associations having composite CAMELS rating of 1 or 2 by the total
   number of OTS-regulated savings associations that have been assigned a composite CAMELS rating.
Data Verification and Validation: Summary and detail reporting of CAMELS ratings are available online through the Examination
   Data System and are provided to each association at the conclusion of an exam. The composite rating is used semi-annually in
   the assessment process. The Assistant Managing Director, Examinations and Supervision – Operations continuously monitors
   the status of exam ratings. Quarterly press releases provide a summary of the thrift industry’s CAMELS ratings to the public.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure. The fiscal year
   2009 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations. OTS will con-
   tinue tailoring supervisory examinations to the risk profile of the institutions, while effectively allocating resources to oversee and
   assess the safety and soundness and consumer compliance record of the thrift industry.




345                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Total OTS Costs Relative to Every $100,000 in Savings Association Assets Regulated (E)
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                 Target                               Baseline               14.33                 15.08                 15.07
                                 Actual                                13.46                  13.9                  15.1
                            Target met?            N/A                    Y                    Y                     N
           Definition: Beginning in fiscal year 2006, OTS included a performance measure that reflects the efficiency of its operations while
              meeting the increasing supervisory demands of a growing and more complex thrift industry. This measure supports OTS’s
              ongoing efforts to efficiently use agency resources. The efficiency measure is impacted by the relative size of the savings associa-
              tions regulated. As of June 30, 2006, 63% of all savings associations have total assets of less than $250 million and are generally
              community-based organizations that provide retail financial services in their local markets. In addition, the measure does not
              include over $7 trillion in assets of holding company enterprises regulated by OTS.
           Indicator Type: Measure
           Data Capture and Source: The OTS expenses published in OTS’s annual audited financial statement are used in this calculation. If
              the performance measure calculation is provided before the audited financial statement is available, the estimated expenses are
              derived from OTS’s Budget Variance System. The OTS regulated assets are published in the OTS quarterly press release of
              thrift industry financial highlights and are derived from the institutions’ quarterly Thrift Financial Reports. The measure is cal-
              culated by dividing total fiscal year expenses by total thrift assets.
           Data Verification and Validation: OTS expenses are verified during the annual CFO audit and reflect those published in the OTS
              annual audited financial statements. The industry’s assets are reported by OTS’s regulated institutions in the quarterly Thrift
              Financial Report, edited and verified by OTS staff, and then published in the OTS quarterly press release and available to the
              public on the OTS Internet site. OTS allows amendments from the industry for six months after the filing date.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: OTS plans to maintain its current high level of achievement for this measure. The fiscal
              year 2009 Budget/Performance Plan describes the goals, strategies, and priorities that will guide OTS’s operations. The fis-
              cal year 2008 success rate for this measure does not include one time unusual and extraordinary expenses for infrastructure
              improvements.


           Measure: Difference Between the Inflation Rate and the OTS Assessment Rate Increase (%) (E) [DISCONTINUED FY 2008]
                                                 FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                                 Target             0                     0                    0                Discontinued          Discontinued
                                 Actual             0                     0                    0
                            Target met?             Y                     Y                    Y                    N/A

           Definition: Without compromising responsibilities and the risk-based examination approach, OTS strives to efficiently manage its
              operations and budget to ensure that assessment rate increases do not exceed the inflation rate. However, if OTS believes that
              events require more personnel or other expenditures, OTS may increase assessments to raise the required resources. Annually,
              OTS analyzes its operating costs and compares them to the assessments it charges savings associations and holding companies in
              order to achieve a structure that keeps assessment rates as low as possible while providing OTS with the resources necessary for
              effective supervision.
           Indicator Type: Measure
           Data Capture and Source: OTS’s current assessment rates are specified in OTS’s Thrift Bulletins (the TB 48 series). OTS calculates
              this measure annually for its January assessment cycle or whenever a new assessment bulletin is issued. The percent increase
              in assessment rates is calculated and compared with the inflation rate as specified in OTS’s Thrift Bulletins. The difference
              between the inflation rate and the assessment rate increase is targeted to be greater than or equal to zero.
           Data Verification and Validation: The Chief Financial Officer monitors and initiates change to the assessment rates. Changes are final-
              ized and announced through a Thrift Bulletin after a period of public comment.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Treasury requested that OTS use this measure only as an in-house measure. This measure was
              Discontinued for PAR reporting in fiscal year 2008 and is being replaced by another measure.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       346
                                                                                                  Part IV — Other Accompanying Information




 Outcome: Decreased Gap in Global Standard of Living

Departmental Offices
 Measure: Improve International Monetary Fund (IMF) Effectiveness and Quality through Periodic Review of IMF Program(Oe)
                                        FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                          Target          90                   90                    90                    90                    90
                          Actual          78                   100                   100                   93
                  Target met?              N                    Y                     Y                     Y
 Definition: This measure tracks efforts by International Affairs (IA) staff to monitor quality of IMF country programs and ensure
    the application of appropriately high standards. IA staff endeavors to review each country program and provide a synopsis and
    recommendation for action at least one week before each program is voted on by the IMB Board. The measure tracks the per-
    centage of times the staff review is completed in a timely manner (at least one week before Board action) to allow for alterations
    in language if deemed necessary.
 Indicator Type: Measure
 Data Capture and Source: International Affairs staff tracks and accounts for actions undertaken during the reporting period.
 Data Verification and Validation: Publicly available accounts of meetings (press, etc.), communiqués issued following multilateral or
    bilateral meetings.
 Data Accuracy: Reasonable
 Data Frequency: Semi-Annually
 Future Plans/Explanation for Shortfall: The ongoing credit crisis will increase IMF program activity related to emerging market coun-
    tries. For fiscal year 2008 the IMF met their program requirements, despite challenges associated with significant management
    restructuring. The Office of International Affairs will continue to closely monitor IMF program activities and report on matters
    in a timely fashion.


 Measure: Percentage of Grant and Loan Proposals Containing Satisfactory Frameworks for Results Measurement (Oe)
                                        FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                          Target        Baseline               90                    90                    90                    90
                          Actual          78                   88                    92                    94
                  Target met?              Y                    N                     Y                     Y
 Definition: The percentage of grant and loan project proposals that contain a satisfactory framework for measuring project results
    (such as outcome indicators, quantifiable and time-bound targets, etc.) This information is measured on an annual basis.
 Indicator Type: Measure
 Data Capture and Source: MDB monthly operational report, special requests to MDBs for loan and grant approvals, MDB annual
    reports and U.S. voting positions
 Data Verification and Validation: Data provided by the MDB is compared with Treasury MDB Office vote history database and inter-
    nal supporting memoranda.
 Data Accuracy: Reasonable
 Data Frequency: Semi-Annually
 Future Plans/Explanation for Shortfall: Results measurement for grant and loan proposals at the MDBs remains a challenge. Long-term
    Millennium Development Goals exist, but short-term measures of progress against these goals are weak or non-existent. Greater
    transparency and accountability at the MDBs has permitted a somewhat clearer insight into their contribution to growth and
    alleviation of poverty, but stronger interim measures are needed. The Department will continue to closely monitor MDB financ-
    ing programs.




347                       Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




            Strategic Objective: Trust and Confidence in U.S. Currency Worldwide

            Outcome: Commerce Enabled Through Safe, Secure U.S. Notes and Coins

          Bureau of Engraving and Printing
           Measure: Manufacturing Costs For Currency (Dollar Costs Per Thousand Notes Produced) ($) (E)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target            31                   28.5                  32.5                   33                    37
                                  Actual          28.83                 27.49                 28.71                 29.47
                            Target met?             Y                     Y                     Y                     Y
           Definition: An indicator of currency manufacturing efficiency and effectiveness of program management. This standard is developed
              annually based on the past year’s performance, contracted price factors, and anticipated productivity improvements. Actual per-
              formance comparison against the standard depends on BEP’s ability to meet annual spoilage, efficiency, and capacity utilization
              goals established for this product line.
           Indicator Type: Measure
           Data Capture and Source: Cost data is collected through BEP’s accrual-based cost accounting system.
           Data Verification and Validation: BEP’s accrual-based cost accounting system is audited annually as part of the financial statement audit.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: In 2008 BEP was able to exceed its target for cost of currency for the forth consecutive year
              despite a change in the currency production program to deliver a different amount and mix of currency notes due to changes in
              the demand for currency. In 2009, BEP will produce and deliver the Federal Reserves order while continuing to monitor design
              and overhead costs related to the manufacture of currency to ensure the most efficient production and distribution of future
              denomination.


           Measure: Maintain ISO Certification (Oe)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target            1                     1                     1                     1                     1
                                  Actual           Met                   Met                   Met                   Met
                            Target met?             Y                    N/A                   N/A                    Y
           Definition: The effectiveness of the manufacturing program is also demonstrated by the attainment of ISO 9001 certification. ISO
              is an internationally recognized quality assurance program aimed at promoting the adoption of a management system that
              establishes a process that governs the transformation of inputs into outputs to meet customer requirements. Components of the
              Bureau’s ISO certified system include elements of the accountability activity in that the identification and traceability of product
              tracking procedures are tested for consistency and reliability.
           Indicator Type: Measure
           Data Capture and Source: ISO compliance is verified by periodic audits of the Bureau’s quality management system by an independent
              ISO designated firm. Periodically the International Organization for Standardization updates the quality standards, thereby,
              requiring organizations already ISO certified to upgrade their quality management systems in order to maintain certification.
           Data Verification and Validation: Certification is achieved based on a successful compliance audit by an independent firm under the
              auspices of the International Organization for Standardization.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: The Bureau maintained its certifications for both the ISO 14001 Environmental Management
              Systems and the ISO 9001 Quality Management Systems during 2008. These certifications are a testament to the Bureau’s com-
              mitment to protecting the environment while producing the highest quality currency notes, BEP plans to continue its efforts in
              order to maintain these certifications in 2009 as well.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                         348
                                                                                                  Part IV — Other Accompanying Information




Measure: Currency Production (billion notes) (Ot)
                                      FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                       Target           8.6                   8.2                    9.1                   7.7                   6.8
                       Actual           8.6                   8.2                    9.1                   7.7
                 Target met?             Y                     Y                      Y                     Y
Definition: A measure of BEP’s ability to meet customer order delivery schedule. The customer considers this measure satisfied when
   complete shipments of finished currency are received in the Federal Reserve vault where it is held prior to final distribution to
   Federal Reserve district banks.
Indicator Type: Measure
Data Capture and Source: Product delivery data is collected and verified through various through various BEP’s product accountability
   systems.
Data Verification and Validation: Product delivery data is reconciled to invoices generated by BEP, and confirmed by the customer.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: BEP will produce and deliver the Federal Reserves fiscal year 2009 order while continuing to
   monitor design and overhead costs related to the manufacture of currency to ensure the most efficient production and distribu-
   tion of future denominations.


Measure: Percent of Currency Notes Delivered to the Federal Reserve that Meet Customer Quality and Requirements (%) (Oe)
                                      FY 2005               FY 2006                FY 2007               FY 2008               FY 2009
                       Target           99.9                  99.9                  99.9                  99.9                  99.9
                       Actual           99.9                  99.9                  100                   100
                 Target met?             Y                     Y                      Y                     Y
Definition: A qualitative indicator reflecting the Bureau’s ability to provide a quality product. All notes delivered to the Federal
   Reserve go through rigorous quality inspections. These inspections ensure that all counterfeit deterrent features, both overt and
   covert are functioning as designed.
Indicator Type: Measure
Data Capture and Source: Quality inspections are performed at each Federal Reserve Bank. Any discrepancies found are reported to
   BEP on a per shipment basis.
Data Verification and Validation: Quality review audits are performed by internal BEP auditors on all Federal Reserve inspection sys-
   tems as well as the procedures followed in reporting data to BEP. These audits are conducted on an annual basis with additional
   audits performed upon request by Federal Reserve Banks.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: In 2008 BEP was able to maintain its high level of providing quality currency notes to our cus-
   tomer and exceeded this target for the year. In order to continue to produce high quality counterfeit deterrent notes for 2009,
   BEP will work closely with the Advanced Counterfeit Steering Committee to identify and evaluate current and future counter-
   feit deterrent designs.




349                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Currency Shipment Discrepancies Per Million Notes (%) (Ot)
                                                 FY 2005               FY 2006               FY 2007               FY 2008                FY 2009
                                  Target           .01                   .01                   .01                    .01                   .01
                                  Actual            0                    .01                   .01                    .01
                            Target met?             Y                     Y                     Y                     Y
           Definition: A qualitative indicator reflecting BEP’s ability to provide effective product security and accountability. This measure
              refers to product overages or underages of as little as a single currency note in shipments of finished notes to the Federal Reserve
              Banks.
           Indicator Type: Measure
           Data Capture and Source: The customer captures this data and report to BEP on a monthly basis.
           Data Verification and Validation: BEP reports product discrepancy data based on monthly information provided by the customer.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: During 2008, BEP was able to maintain its high level of security and accountability and met our
              target for the shipment of currency notes to our customer. For 2009 BEP plans to continue to ensure that proper accountability
              is addressed during each stage of currency production and delivery.


           Measure: Security Costs Per 1,000 Notes Delivered ($) (E)
                                                 FY 2005               FY 2006               FY 2007               FY 2008                FY 2009
                                  Target           5.95                  6.25                   6                    5.65                  5.65
                                  Actual           5.75                   6                    5.92                  5.63
                            Target met?             Y                     Y                     Y                     Y
           Definition: An indicator reflecting the cost of providing effective and efficient product security and accountability. This standard is
              developed annually based on the past year’s cost performance and anticipated cost increases. The formula used to calculate this
              measure is the total cost of security divided by the number of notes produced divided by 1000.
           Indicator Type: Measure
           Data Capture and Source: Cost data is collected through BEP’s accrual-based cost accounting system. This standard is developed
              annually based on the past year’s cost performance and anticipated cost increases.
           Data Verification and Validation: BEP’s accrual-based cost accounting system is audited annually as part of the financial statement audit.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: In 2008 BEP was able to exceed its target for cost of security despite a reduction in the currency
              production program. Guarding against theft is the top priority of the BEP security program; in 2009, BEP will produce and
              deliver the 2009 currency order while continuing to monitor the cost of providing effective and efficient product security and
              accountability.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        350
                                                                                                  Part IV — Other Accompanying Information




Measure: Total Regulatory Fines and Claims Paid (Oe)
                                       FY 2005              FY 2006                FY 2007               FY 2008               FY 2009
                       Target          Baseline              70000                 30000                  27500                 20000
                       Actual          101380                48693                  8304                    0
                  Target met?             Y                    Y                      Y                     Y
Definition: The annual amount of all regulatory fines and tort claims paid by the BEP.
Indicator Type: Indicator
Data Capture and Source: BEP Management Information System (BEPMIS)
Data Verification and Validation: BEP Annual Financial Audit, the CFO Performance and Accountability Report
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: Fiscal year 2008 marked the fourth consecutive year that BEP has received an unqualified opinion
   on its internal controls over financial reporting. BEP will continue its efforts to mark a fifth consecutive year in fiscal year 2009.


Measure: Improper and/or Erroneous Payments or Purchases (Oe)
                                       FY 2005              FY 2006                FY 2007               FY 2008               FY 2009
                       Target          Baseline               1000                   500                   500                   500
                       Actual            790                  2126                    0                     0
                  Target met?             Y                    N                      Y                     Y
Definition: An indicator reflecting the ability of the Bureau of Engraving and Printing to make payment for goods and services for
   only authorized expenses and in a timely manner.
Indicator Type: Measure
Data Capture and Source: BEP Management Information System (BEPMIS)
Data Verification and Validation: BEP Annual Financial Audit, The CFO Performance and Accountability Report
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: Fiscal year 2008 marked the fourth consecutive year that BEP has received an unqualified opinion
   on its internal controls over financial reporting. BEP will continue its efforts to mark a fifth consecutive year in fiscal year 2009.


Measure: Other Financial Losses
                                       FY 2005              FY 2006                FY 2007               FY 2008               FY 2009
                       Target          Baseline                0                      0                     0                     0
                       Actual          30000                 15500                    0                     0
                  Target met?             Y                    N                      Y                     Y
Definition: The face value of product theft that has been reported, investigated as unrecoverable, and verified, during the production,
   delivery and destruction process.
Indicator Type: Indicator
Data Capture and Source: BEP Management Information System (BEPMIS)
Data Verification and Validation: BEP Annual Financial Audit, the CFO Performance and Accountability Report
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: Fiscal year 2008 marked the fourth consecutive year that BEP has received an unqualified opinion
   on its internal controls over financial reporting. BEP will continue its efforts to mark a fifth consecutive year in fiscal year 2009.




351                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Total Financial Losses (Oe)
                                                  FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                                  Target          Baseline              71000                 30500                 28000                 20500
                                  Actual          131000                66319                 8304                    0
                             Target met?             Y                    Y                     Y                     Y
           Definition: The aggregate amount of annual financial losses that have been reported, investigated, and verified as unrecoverable, as
              a result of the following: improper and/or erroneous payments or purchases (including late payment penalties); total regulatory
              fines and claims paid; and other financial losses.
           Indicator Type: Indicator
           Data Capture and Source: BEP Management Information System (BEPMIS)
           Data Verification and Validation: BEP Annual Financial Audit, the CFO Performance and Accountability Report
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Fiscal year 2008 marked the fourth consecutive year that BEP has received an unqualified opin-
              ion on its internal controls over financial reporting. BEP will continue its efforts to mark a fifth consecutive year in fiscal year
              2009.


          United States Mint
           Measure: Conversion Costs Per 1,000 Coin Equivalents (E)
                                                  FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                                  Target           7.03                 6.62                  7.27                   7.09                  7.99
                                  Actual           7.42                 7.55                  7.23                   8.46
                             Target met?             N                    N                     Y                     N
           Definition: Cost per 1000 coin equivalents is the cost of production (conversion cost) divided by the number of products made.
              Conversion costs are controllable costs within manufacturing. Those costs include manufacturing payroll, non-payroll, and
              depreciation costs. To determine the coin equivalents, an equivalency factor is assigned to each circulating denomination and
              numismatic product based on the resources it takes to make the product (indexed against the resources it takes to make one
              product – the quarter). The production quantity for each product is multiplied by the equivalency factor, resulting in a coin
              equivalent quantity. Thus, all denominations and products are equivalized to a quarter.
           Indicator Type: Measure
           Data Capture and Source: Conversion costs are pulled from financial reports from the accounting system. Production data is pulled
              from the enterprise resource planning system via queries and converted to coin equivalents.
           Data Verification and Validation: United States Mint analysts review the data pulled from the accounting system for reasonableness and
              accuracy on a monthly basis.
           Data Accuracy: Reasonable
           Data Frequency: Monthly
           Future Plans/Explanation for Shortfall: The United States Mint was unable to reduce conversion costs in fiscal year 2008 because of
              sustained fixed costs and rising energy and fuel costs. As production volumes declined, these costs were spread over fewer units,
              resulting in a higher overall cost per 1000 coin equivalents.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        352
                                                                                                  Part IV — Other Accompanying Information




Measure: Conversion Costs Per 1,000 Coin Equivalents (E) ( % deviation from target)
                                      FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                       Target                                                                            Baseline                 0
                       Actual                                                                              11
                 Target met?            N/A                    N/A                   N/A                    Y
Definition: The United States Mint’s costs vary by product, and the product mix has been variable over time. This makes it difficult
   to compare operating results from year to year. The coin equivalent calculation converts the production output to a common
   denominator based on the circulating quarter. Production costs, excluding metal and fabrication, are then divided by this
   standardized production level, thus resulting in “conversion costs per 1,000 coin equivalents.” This allows comparison of perfor-
   mance over time by negating the effects of changes in the product mix. Starting in fiscal year 2008, the target and results will be
   presented as a percentage difference from the baseline. By showing the target and performance as a percentage, this allows for
   the impact of fixed costs as they get spread over varying levels of production.
Indicator Type: Measure
Data Capture and Source: Conversion costs are pulled from financial reports from the accounting system. Production data is pulled
   from the enterprise resource planning system via queries and converted to coin equivalents
Data Verification and Validation: United States Mint analysts review the data pulled from the accounting system for reasonableness and
   accuracy on a monthly basis.
Data Accuracy: Reasonable
Data Frequency: Monthly
Future Plans/Explanation for Shortfall: The United States Mint will report on this performance measure for PART reporting until the
   Mint’s new suite of performance measures are approved and the old measures are fully discontinued. Until then the Mint’s fiscal
   year 2009 target for this performance measure should be 0%.


Measure: Protection Cost Per Square Foot (E)
                                      FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                       Target          31.86                   32                   32.99                 32.5                  31.75
                       Actual          32.43                 32.49                  31.75                 31.76
                 Target met?             N                      N                     Y                     Y
Definition: Protection cost per square foot is the Protection operating costs divided by the area of usable space in square feet that
   the United States Mint Police protects. Usable space is defined as 90% of total square footage. The year-to-date result is then
   annualized on a straight-line basis.
Indicator Type: Measure
Data Capture and Source: The Protection costs are automatically pulled from the United States Mint’s accounting system on a month-
   ly basis. The square footage is relatively stable and is monitored by the Protection office and United States Mint management.
Data Verification and Validation: United States Mint analysts review the data for reasonableness and accuracy on a monthly basis.
Data Accuracy: Reasonable
Data Frequency: Monthly
Future Plans/Explanation for Shortfall: Protection cost per square foot increased from $31.29 in fiscal year 2007 to $31.76 in fiscal
   year 2008.The United States Mint is restating the FY2007 results, originally reported at $31.75. The restated figure of $31.29
   excludes depreciation expense. The FY2004 –FY2006 results all exclude depreciation expense and do not have to be restated.
   FY2008 performance measure was below the target of $32.11. Protection reduced expenses for overtime and travel in FY2008
   compared to FY2007. Contracted services expense increased by 52 percent due to one time charge for a prior year R&D project
   not fully capitalized, and an increase in charges from other federal agencies due to increase in background investigations of Mint
   staff and contractors and HSPD 12. Both of the programs cost discussed previously were higher than anticipated. Supplies
   increased by 43 percent replenishment of firearm supplies and shelter in place supplies. Shelter in place supplies are replaced
   every five years.




353                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Employee Confidence in Protection (Oe)
                                                 FY 2005               FY 2006               FY 2007               FY 2008              FY 2009
                                  Target           86                    86                    86                    86                    83
                                  Actual           84                    82                    81                    81
                             Target met?            N                     N                     N                     N
           Definition: Percentage of United States Mint employees reporting a favorable response to their confidence in the Office of Protection
              to safeguard United States Mint assets and assets in the custody of the United States Mint.
           Indicator Type: Indicator
           Data Capture and Source: Contractor administered quarterly Employee Pulse Check survey which assesses the attitudes of United
              States Mint employees concerning their work environment.
           Data Verification and Validation: Results and data are captured and verified by United States Mint analysts.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Employee Confidence in Protection was 81 percent in fiscal year 2008, below the target of
              86 percent. The main reason performance fell short of the target was apparent differences in the way various segments of the
              United States Mint perceive the survey question. While many employees answer the question favorably, Office of Protection
              personnel tend to view the question differently and record lower ratings than non-Protection personnel. Employee Confidence
              in Protection reported by only Protection employees was 76 percent in fiscal year 2008. Employee Confidence in Protection
              reported by other offices ranged from 81 to 90 percent in fiscal year 2008. The United States Mint will continue to evaluate
              the drivers of performance in order to address operating and communication needs and improve results. The fiscal year 2008
              figure consists of the average of three quarterly Employee Pulse Check surveys. The Department of the Treasury conducted a
              department-wide employee survey in the first quarter of fiscal year 2008 pursuant to 5 CFR 250 Subpart C. The United States
              Mint Office of Workforce Solutions did not conduct the Employee Pulse Check survey in that quarter in lieu of the departmen-
              tal survey. The fiscal year 2009 target for Employee Confidence in Protection is 83 percent. The Office of Workforce Solutions
              will begin conducting the Employee Pulse Check survey biannually in fiscal year 2009.


           Measure: Cycle Time (E) [DISCONTINUED FY 2008]
                                                 FY 2005               FY 2006               FY 2007               FY 2008              FY 2009
                                  Target           53                    67                    75                Discontinued         Discontinued
                                  Actual           69                    72                    61                     0
                             Target met?            N                     N                     Y                    N/A

           Definition: Cycle time is the length of time from when material enters a production facility until it is delivered to the customer.
           Indicator Type: Measure
           Data Capture and Source: Data for each element is pulled from the United States Mint’s Enterprise Resource Planning system.
           Data Verification and Validation: United States Mint analysts review the data pulled from the accounting system for reasonableness and
              accuracy on a monthly basis.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: This measure was Discontinued in fiscal year 2008.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       354
                                                                                                  Part IV — Other Accompanying Information




Measure: Order Fulfillment (Oe) [DISCONTINUED FY 2008]
                                      FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                       Target            0                     95                    96                Discontinued          Discontinued
                       Actual            94                    95                    98                     0
                 Target met?             Y                      Y                     Y                    N/A

Definition: This measure will track order fulfillment in both the circulating and numismatic products. Each component will be scaled
   by its percentage of the total revenue to create an index. The formula for this measure is [(circulating shipments/circulating
   orders) (circulating revenue/total revenue) + (numismatic orders shipped within 7 days/numismatic orders requiring shipping)
   (numismatic revenue/total revenue)] The numismatic revenue and total revenue components exclude bullion revenue.
Indicator Type: Measure
Data Capture and Source: United States Mint analysts maintain circulating orders and shipment data in a database. Numismatic
   orders data are pulled via a query from the United States Mint’s order management system. Revenue data are from the account-
   ing system.
Data Verification and Validation: Order Fulfillment is a new measure that tracks the overall order fulfillment for the circulating coins
   shipped to the Federal Reserve and the numismatic coins sold to the public. The measure captures the percentage of orders that
   are shipped in a timely manner. Each component will be scaled by its percentage of the total revenue to create an index. The
   formula for this measure is [(circulating shipments/circulating orders) (circulating revenue/total revenue) + (numismatic orders
   shipped within 7 days/numismatic orders requiring shipping) (numismatic revenue/total revenue)]. United States Mint analysts
   review the data for reasonableness and accuracy regularly.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: This measure was Discontinued in fiscal year 2008.


Measure: Total Losses (Oe) [DISCONTINUED FY 2008]
                                      FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                       Target         250000                 15000                 10000               Discontinued          Discontinued
                       Actual           1135                    0                     0
                 Target met?             Y                      Y                     Y                    N/A

Definition: The United States Mint performs its protection function by minimizing the vulnerability to theft or unauthorized access
   to critical assets. The measure is comprised of the sum of three elements 1. Financial Losses: Losses that have been reported,
   investigated and verified as unrecoverable; from a. Strategic reserves (Theft of Treasury Reserves) b. Coining products (Theft
   from the production facilities) c. Sales of products to the public (Theft by fraud) d. Other losses (Other theft) 2. Productivity
   losses: The cost of intentional damage or destruction of United States Mint production capability and the cost to utilize alterna-
   tive productivity as needed as a result of the intentional damage or destruction. 3. Intrusion losses: The cost to repair and/or
   recover from intentional intrusions into United States Mint facilities and systems, either physically or electronically.
Indicator Type: Measure
Data Capture and Source: The United States Mint Police maintains a secure database of monthly reports on incidents included in the
   categories above. Any theft or fraud amount determined as unrecoverable is assessed on a case-by-case basis. In the event that
   cost information is needed, data on the value of United States Mint assets and costs are in the ERP system.
Data Verification and Validation: Analysts in the Protection organization compile and analyze the incident data on a monthly basis.
   Protection senior management reviews the total losses report for reasonableness and accuracy and reports to United States Mint
   management on a quarterly basis.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: This measure was Discontinued in fiscal year 2008.




355                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




            Strategic Goal:
               Prevented Terrorism and Promoted the Nation’s Security Through
               Strengthened International Financial Systems

            Strategic Objective: Pre-Empted and Neutralized Threats to the International
                   Financial System and Enhanced U.S. National Security

            Outcome: Removed or Reduced Threats to National Security From Terrorism, Proliferation of Weapons
                of Mass Destruction, Drug Trafficking and Other Criminal Activity on the Part of Rogue Regimes,
                Individuals, and Their Support Networks

          Departmental Offices
           Measure: Number of Open Civil Penalty Cases that are Resolved within the Statute of Limitations Period (Ot)
           [DISCONTINUED FY 2009]
                                                 FY 2005               FY 2006               FY 2007                FY 2008               FY 2009
                                  Target                                  85                    85                   120                Discontinued
                                  Actual            85                    85                   296                   233
                            Target met?             Y                     Y                     Y                      Y
           Definition: Timely imposition of civil penalties plays a major role in deterring and appropriately punishing violations of sanctions by
              U.S. persons. OFAC receives a very high volume of law enforcement referrals regarding potential violations. It is devising strate-
              gies to reduce the backlog of civil penalty and enforcement actions and increase efficiency in drafting warning and cautionary
              letters, assessing penalties, negotiating penalty resolutions and processing monetary penalties.
           Indicator Type: Measure
           Data Capture and Source: Penalty case information is recorded in OFAC’s main Oracle database (FACDB). That database has a
              Report function that allows us to query the database and generate reports according to a number of variables such as status, date
              of action, etc. Information generated from these reports is used to calculate the number of cases that were closed during a given
              time frame. Additionally, we have implemented processes to check a representative sampling of the closed cases to verify that the
              data within the system matches our hard copy records.
           Data Verification and Validation: The Assistant Director for Civil Penalties Cases reviews every case that is closed. Cases that involve
              a settlement, an assessment, or penalty come under additional review by OFAC’s Chief Counsel’s Office. Cases that result in
              settlement or an assessment or penalty are also posted on OFAC’s public website.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: In fiscal year 2009, OFAC plans to discontinue this measure. OFAC will continue to track the
              number of cases resolved within the statute of limitations period to use as an indicator in its newly developed measure.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       356
                                                                                                 Part IV — Other Accompanying Information




Measure: Increase the Number of Outreach Engagements with the Charitable and International Financial Communities (Ot)
[DISCONTINUED FY 2009]
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                      Target                                  105                   70                    70                Discontinued
                      Actual            95                    45                    85                    80
                 Target met?             Y                     N                     Y                     Y
Definition: The effectiveness of the USG’s efforts to combat terrorist financing and other forms of illicit finance depends upon the
   understanding and cooperation of the domestic and international private sector, particularly the financial services industries
   and other vulnerable sectors such as charities. The Office of Terrorist Finance and Financial Crimes (TFFC) outreach engage-
   ments allows the USG to assess first-hand domestic and international Anti-money Laundering and Combating the Financing
   of Terrorism (AML/CFT) practices by governments and private institutions alike and engage with these entities to ensure that
   they safeguard themselves and the financial system against illicit activity. When followed-up consistently, this outreach has
   proven to be one of our most efficacious tools for changing behavior, raising awareness, and improving capacity among foreign
   governments as well as domestic and foreign institutions with gaps in their AML/CFT programs.
Indicator Type: Measure
Data Capture and Source: Data collected by the Department of Treasury’s Office of Terrorism and Financial Intelligence (TFI);
   Terrorist Financing and Financial Crimes (TFFC).
Data Verification and Validation: Department of the Treasury’s TFI data based on outreach events.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: TFFC will discontinue this measure in fiscal year 2009, but will continue to collect evidence that
   the private sector (particularly, financial institutions and the charitable sector) is responding to TFFC engagements by taking
   action to identify and safeguard against terrorist financing and money laundering threats and vulnerabilities.


Measure: Number of Countries that are Assessed for Compliance with the Financial Action Task Force (FATF) 40+9 Recommendations
(Ot) [DISCONTINUED FY 2009]
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                      Target                                  45                     6                    12                Discontinued
                      Actual            49                     5                     6                    12
                 Target met?             Y                     N                     Y                     Y
Definition: TFFC is the lead Treasury component and representative to the Financial Action Task Force (FATF). As such, TFFC
   is responsible for leading international efforts to identify and close money laundering and terrorist financing vulnerabilities in
   the international financial system, and to ensure that countries throughout the world comply with international anti-money
   laundering/counter-terrorist financing standards. In concert with the international community, Treasury is deploying a three-
   prong strategy that 1) objectively assesses all countries against the FATF 40+9, 2) provides capacity-building assistance for key
   countries in need and 3) isolates and punishes those countries and institutions that facilitate terrorist financing. TFI is working
   with international bodies like FATF, IMF (International Monetary Fund) and World Bank to ensure compliance. The IMF
   and World Bank have adopted the FATF 40+9 and they use those standards to assess countries for compliance.
Indicator Type: Measure
Data Capture and Source: Data collected by the Department of Treasury’s Office of Terrorism and Financial Intelligence (TFI);
   Terrorist Financing and Financial Crimes (TFFC).
Data Verification and Validation: TFFC data undergoes multiple quality checks to ensure accuracy.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: TFFC will discontinue this measure in fiscal year 2009, but will continue to track the number
   of countries assessed for compliance with international AML/CFT standards and use it as part of a broader indictor to illustrate
   demonstrated action in key regions to identify and address threats and vulnerabilities to financial systems.




357                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




          Treasury Forfeiture Fund
           Measure: Percent of Forfeited Cash Proceeds Resulting from High-Impact Cases (%) (Oe)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target           75                     75                    75                    75                    75
                                  Actual           81                   72.93                 84.18                 86.91
                            Target met?             Y                     N                     Y                     Y
           Definition: A “high impact case” is a case, based on designation or executive order, resulting in a cash forfeiture equal to or greater
              than $100,000. This measure is calculated by dividing the amount of cash forfeited in amounts equal to or greater than $100,000
              (as measured by individual deposits that are equal to or greater than $100,000) divided by the total amount of cash forfeitures to
              the Fund (as of the end of the year, or other reporting period.)
           Indicator Type: Measure
           Data Capture and Source: The Treasury Forfeiture Fund is able to capture this data on a monthly basis and the source of the data is
              the Detailed Collection Report (DCR).
           Data Verification and Validation: The source of the data that supports our performance calculation comes from the general ledger of the
              Treasury Forfeiture Fund which data is audited annually pursuant to our financial statement audit. Therefore, the annual finan-
              cial statement audit process serves to “verify and validate” the data used to support our performance measure on an annual basis.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: The Treasury Forfeiture Fund will continue to work with participating bureaus to urge the use of
              asset forfeiture in high-impact cases.



            Outcome: Safer and More Transparent U.S. and International Financial Systems

          Financial Crimes Enforcement Network
           Measure: Average Time to Process Enforcement Matters (in years) (E)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target           1.1                    1                     1                     1                     1
                                  Actual           1.3                    1                    1.1                    .7
                            Target met?             N                     Y                     N                     Y
           Definition: The average time to process an enforcement matter is determined from the date a case is referred from the Office of
              Compliance to the date the charging (or action) letter is issued.
           Indicator Type: Measure
           Data Capture and Source: The data for this measure is captured through an internal database that stores enforcement matters. The
              database records the date cases are received, the analyst assigned, the statute of limitations date, and the date each case was
              closed.
           Data Verification and Validation: The enforcement matters are entered into the automated log and evaluated to determine whether there
              is enforcement potential through a civil monetary penalty or otherwise. FinCEN has established time management guidelines to
              reduce the average processing time for civil penalty cases.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN surpassed its target for the average time to process enforcement
              matters in one year with an average time of 0.7. FinCEN will continue to actively manage casework to meet targets in the next
              fiscal year.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       358
                                                                                                  Part IV — Other Accompanying Information




Measure: Percentage of Bank Examinations Conducted by the Federal Banking Agencies Indicating a Systemic Failure of the Anti-
Money Laundering Program Rule (Oe)
                                      FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                       Target                                                      Baseline                5.2                   5.2
                       Actual                                                        5.2                   2.5
                  Target met?           N/A                    N/A                    Y                     Y
Definition: The percentage of bank examinations that reveal the existence of systemic compliance failure (i.e., demonstrated by cited
   violations of the anti-money laundering program rule) is a meaningful measure because it provides an intermediate assessment of
   the effectiveness of the efforts of the Regulatory Policy and Programs Division’s three offices in providing policy guidance and
   taking formal and informal compliance and enforcement actions to increase financial industry compliance with the Bank Secrecy
   Act. At the present time, the only financial sector from which we are receiving useful data to quantify this measure is the bank-
   ing sector supervised and examined for Bank Secrecy Act compliance by the Federal Banking Agencies.
Indicator Type: Measure
Data Capture and Source: The Federal Banking Agencies aggregated information provided pursuant to the Memorandum of
   Understanding executed in 2004 with FinCEN.
Data Verification and Validation: This information can be validated from the quarterly aggregate reports provided to FinCEN by each
   agency pursuant to the Memorandum of Understanding of 2004.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: In fiscal year 2008, the percentage of banking institutions cited for program failures during
   examinations was significantly below the 5.2 percent indicator level, only 2.5 percent were cited, this exceeded the indicator
   level. This is primarily attributable to greater consistency among bank regulators in citing instances of program failures. FinCEN
   will continue collaborating with the Federal Financial Institutions Examination Council and will conduct outreach to the bank-
   ing industry to keep future performance results positive.


Measure: Percentage of FinCEN’s Regulatory Resource Center Customers Rating the Guidance Received as Understandable (Oe)
                                      FY 2005                FY 2006               FY 2007               FY 2008               FY 2009
                       Target                                Baseline                90                    90                     90
                       Actual                                  94                    91                    94
                  Target met?           N/A                     Y                     Y                     Y
Definition: The percentage of financial institution customers who contact the Resource Center and respond to a survey, who find the
   information/response/guidance received was understandable. Providing guidance that is understandable is a desired result and is
   critical for financial institutions to establish programs that comply with the BSA.
Indicator Type: Measure
Data Capture and Source: Resource Center customer records and survey data.
Data Verification and Validation: Results and data will be captured and verified by a professional survey consultant.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: The fiscal year 2008 goal was to maintain a 90 percent satisfaction level for customers rating the
   guidance as “understandable,” and FinCEN surpassed its goal with 94 percent. In order to meet targets in the next fiscal year,
   FinCEN will continue to make guidance available on the Internet, accept and analyze customer feedback, and conduct surveys
   to measure customer satisfaction.




359                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Median Time Taken from Date of Receipt of Financial Institution Hotline Tip SAR to Transmittal of the Information to Law
           Enforcement or the Intelligence Community (E)
                                                  FY 2005                FY 2006               FY 2007                FY 2008               FY 2009
                                  Target          Baseline                 30                     25                    16                     15
                                  Actual            35                     19                     7                      3
                             Target met?             Y                      Y                     Y                      Y
           Definition: The purpose of the Financial Institution Hotline Tip is to facilitate the transmission of potential terrorism-related activity
              to law enforcement in a more expeditious manner than through the normal manual or electronic filing of a Suspicious Activity
              Report. The median time taken to transmit the information from a Financial Institution Hotline Tip SAR will be computed
              using the Julian date of the Hotline Tip receipt and the transmittal date. Statistical data for fiscal year 2003 and fiscal year 2004
              is not available as the Julian dates found on SARs was not tracked and converted to calendar dates for comparison with referral
              dates in the current management information system.
           Indicator Type: Measure
           Data Capture and Source: Date of receipt of Hotline Tip and the date of referral in an analytical product, as recorded in the FinCEN
              Database. Manual records, spreadsheets and/or Access databases will be maintained to record the dates for all Hotline Tips
              referred.
           Data Verification and Validation: Verification of receipt and report dates and medians can be accomplished using the FinCEN
              Database, paper and/or other electronic records developed to record dates.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN surpassed its target of 16 days with a median time of 3 days. To
              continue achieving this target in the future, FinCEN will continue to process Hotline Tips in an expeditious manner.


           Measure: Percentage of Complex Analytic Work Completed by FinCEN Analysts (Ot)
                                                  FY 2005                FY 2006               FY 2007                FY 2008               FY 2009
                                  Target          Baseline                  0                     38                    38                     39
                                  Actual                                                          33                    27
                             Target met?            N/A                    N/A                    N                      N
           Definition: Comparison of total number of work products generated versus those products that required complex analysis, graphical
              display of data relationships, analytical findings, comments and recommendations. “Complex” as used in this measure refers to
              the application of analytic resources to assist law enforcement clients in perfecting investigations that they consider significant
              due to geographic scope, large data sets, and use of multiple or little understood money laundering methodologies or involving
              financial relationships, products or systems not adequately understood by investigators.
           Indicator Type: Measure
           Data Capture and Source: The FinCEN database currently tracks assignments and includes a complexity ranking on each assignment.
              Management reports can be generated outlining the number of such projects and the number of reports prepared and distributed
              on an annual basis.
           Data Verification and Validation: Production levels can be verified by a review of the paper or electronic file copies of analytical reports
              generated.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: In fiscal year 2008, the percentage of complex analytical products completed was 27 percent.
              FinCEN did not meet its target of 38 percent of complex work completed by FinCEN analysts. In fiscal year 2008 there was an
              increase in the number of non-discretionary, non-complex products. To increase the percentage of complex products completed
              in the future, FinCEN will continue efforts to reduce the number of discretionary non-complex projects undertaken and increase
              the number of complex products produced for foreign FIUs.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                          360
                                                                                                 Part IV — Other Accompanying Information




Measure: The Percent of Countries/Jurisdictions Connected to the Egmont Secure Web with in One Year of Egmont Membership (Oe)
                                      FY 2005               FY 2006               FY 2007               FY 2008              FY 2009
                      Target          Baseline                98                    98                    98                    98
                      Actual            99                    97                    98                    98
                 Target met?              Y                    N                     Y                     Y
Definition: The percent of Egmont Financial Intelligence Unit members connected to the Egmont Secure Web. The goal is to main-
   tain a 98% percent user rate. As new members are admitted to Egmont, we will work to connect them to the Egmont Secure
   Web.
Indicator Type: Measure
Data Capture and Source: Egmont Member data base and Egmont Secure Web User database.
Data Verification and Validation: Compare the list of Egmont Secure Web Users to the list of Egmont members.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN met its target of 98 percent of countries/jurisdictions connected to
   the Egmont Secure Web. To continue to meet this target in the future, FinCEN will work to ensure continued connectivity for
   countries that have access to the Egmont Secure Web and will connect new Egmont Group members as soon after admission as
   possible.


Measure: Percentage of Domestic Law Enforcement and Foreign Financial Intelligence Units Finding FinCEN’s Analytical Reports
Highly Valuable
                                      FY 2005               FY 2006               FY 2007               FY 2008              FY 2009
                      Target                                Baseline                78                    79                    80
                      Actual                                  77                    82                    83
                 Target met?            N/A                    Y                     Y                     Y
Definition: The percentage of customers (domestic law enforcement and foreign financial intelligence units finding FinCEN’s
   analytical reports highly valuable. This is composite measure compiled from survey results. The survey looks at the impact of
   FinCEN’s analysis products, such as whether the product was used to open a new investigation, whether it generated new leads,
   or whether it provided information previously unknown.
Indicator Type: Measure
Data Capture and Source: Annual Surveys
Data Verification and Validation: The vendor survey team developed questionnaires for customers, with FinCEN input. They conducted
   e-mail and/or telephone surveys of FinCEN’s customers in the investigative/intelligence community, financial community and
   in-house customers. A comprehensive report and presentation was provided at the conclusion of the survey.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: FinCEN exceeded its target of 79 percent with 83 percent of its customers finding the analytical
   reports highly valuable. To continue to meet targets in the next fiscal year, FinCEN will continue its efforts to solicit input from
   its customers on types of products they would like to see produced and possible ways to improve the structure of its reports.




361                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percentage of Private Industry or Financial Institution Customers Finding FinCEN’s Suspicious Activity Report (SAR)
           Products Highly Valuable (Oe)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target                               Baseline                 72                    74                    76
                                  Actual                                  70                    71                    75
                            Target met?            N/A                    Y                     N                     Y
           Definition: This measure tracks the percentage of customers that find FinCEN’s SAR activity review products useful. The measure is
              a composite measure compiled from survey results. The surveys look at whether regulated industries find the products useful to
              improving their BSA/anti-money laundering programs and whether the products provide useful guidance on filing requirements.
           Indicator Type: Measure
           Data Capture and Source: Annual Surveys
           Data Verification and Validation: The vendor survey team developed questionnaires for customers, with FinCEN input. They conducted
              e-mail and/or telephone surveys of FinCEN’s customers in the investigative/intelligence community, financial community and
              in-house customers. A comprehensive report and presentation was provided at the conclusion of the survey.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: FinCEN surpassed its target with 75 percent of private industry or financial institution cus-
              tomers finding FinCEN’s Suspicious Activity Review (SAR) products valuable. FinCEN will continue seeking feedback from
              shareholders and will consider requests for specific analytic studies to continue improving customer satisfaction.


           Measure: Cost Per BSA form E-Filed (E)
                                                 FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                                  Target         Baseline                .19                   .15                   .15                   .15
                                  Actual           .32                   .22                   .14                   .13
                            Target met?              Y                    N                     Y                     Y
           Definition: This measure tracks the government reoccurring operations and maintenance costs associated with E-Filing against the
              number of BSA forms E-Filed. As more financial institutions E-File, it is anticipated that the cost per BSA form E-Filed will
              decrease.
           Indicator Type: Measure
           Data Capture and Source: E-Filing cost records and BSA Direct E-Filing Records.
           Data Verification and Validation: Results can be verified against E-Filing operations and maintenance cost records and BSA Direct
              E-Filing records.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN surpassed its target of .15 with .13 for cost per BSA form E-Filed.
              To meet this target next fiscal year, FinCEN will continue to balance operational costs with the filing volume.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                         362
                                                                                                 Part IV — Other Accompanying Information




Measure: Number of Largest BSA Report Filers Using E-Filing (Oe)
                                        FY 2005                FY 2006            FY 2007               FY 2008               FY 2009
                       Target           Baseline                342                 302                   374                   454
                       Actual                                   383                 297                   386
                  Target met?             N/A                     Y                  N                     Y
Definition: FinCEN has identified the 650 largest filers of Bank Secrecy Act reports and has established the goal of assisting and
   encouraging members of this group who are not already using the BSA Direct E-filing system to begin E-filing reports. E-filing
   by this group is seen as a means of achieving FinCEN’s long-term goal.
Indicator Type: Measure
Data Capture and Source: A list compiled and maintained in the Office of BSA Data Services.
Data Verification and Validation: Magnitude of report filing and method of filing can be checked against records at he IRS Detroit
   Computing Center and automated records from the BSA Direct E-Filing system.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN surpassed its target of 374 with 386 largest BSA report filers using
   E-Filing. To increase the number of largest BSA report filers using E-filing, FinCEN plans to conduct additional, targeted
   outreach using possible methods such as User IT Forums.


Measure: Number of Users Directly Accessing BSA Data (Oe)
                                        FY 2005                FY 2006            FY 2007               FY 2008               FY 2009
                       Target            3000                   4000               6000                  8000                  10000
                       Actual            3941                   4683               8402                  9649
                  Target met?              Y                      Y                  Y                     Y
Definition: The number of individuals with current passwords who have accessed the Bank Secrecy Act data through the Secure
   Outreach network in the past 90 days.
Indicator Type: Measure
Data Capture and Source: The list can be checked through the Profile function at the Detroit Computing Center
Data Verification and Validation: The system generates a list of users.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN surpassed its target of 8,000 with 9,649 users directly accessing
   BSA data. FinCEN will continue its efforts to continue expanding law enforcement’s direct access to BSA data, including a
   concerted effort to sign additional Memoranda of Understanding.




363                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percentage of Customers Satisfied with the BSA E-Filing (Oe)
                                                  FY 2005               FY 2006              FY 2007               FY 2008              FY 2009
                                  Target                                Baseline                90                    90                   90
                                  Actual                                  92                    94                    93
                             Target met?            N/A                    Y                    Y                     Y
           Definition: This measure assesses the customer satisfaction with BSA E-Filling. Feedback will be used to improve the system and
              customize it for user populations. The measure is meaningful because it tracks the satisfaction with technology used to facilitate
              analysis of BSA information.
           Indicator Type: Measure
           Data Capture and Source: Active status user survey
           Data Verification and Validation: Survey information is captured in a database.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: The fiscal year 2008 target was to maintain at least a 90 percent satisfaction level, and FinCEN
              surpassed its target with 93%. In order to meet targets in the next fiscal year, FinCEN will continue outreach to E-Filers and
              ensure the technology supports the user demand.


           Measure: Percentage of Customers Satisfied with WebCBRS and Secure Outreach (Oe)
                                                  FY 2005               FY 2006              FY 2007               FY 2008              FY 2009
                                  Target                                                                           Baseline                81
                                  Actual                                                                              81
                             Target met?            N/A                   N/A                  N/A                    Y
           Definition: This measure tracks FinCEN’s progress toward serving the number of law enforcement and regulatory agency users
              accessing BSA information. These technologies (WebCBRS and Outreach Secure) allow authorized persons to more readily
              access BSA information and better enable them to conduct investigations more efficiently and effectively.
           Indicator Type: Measure
           Data Capture and Source: Data are captured via a survey.
           Data Verification and Validation: Raw data are received from the survey vendor and results are calculated and verified.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN established a baseline of 81 percent of customers satisfied with
              the WEBCBRS and secure outreach. Going forward, FinCEN will continue to provide timely and effective support to users of
              WEBCBRS and secure outreach to help ensure increasing customer satisfaction.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        364
                                                                                                Part IV — Other Accompanying Information




Measure: Share of Bank Secrecy Act Filings Submitted Electronically (Oe)
                                      FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                      Target            40                    60                   58                    63                    67
                      Actual            29                    48                   59                    71
                 Target met?             N                    N                     Y                     Y
Definition: The number of Bank Secrecy Act filings submitted via the web-based system, as a percent of the total filings.
Indicator Type: Measure
Data Capture and Source: Reports are generated weekly by the PACS contractor based on automated tracking
Data Verification and Validation: Checked against reports from the Detroit Computing Center
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN surpassed its target of 63 percent with 71 percent of BSA filings
   E-Filed. FinCEN will retire Magnetic Media by the end of the 2008 calendar year in order to meet future targets for BSA
   E-filing submissions.


Measure: Percentage of Federal and State Regulatory Agencies with Memoranda of Understanding/Information Sharing Agreements
(Ot)
                                      FY 2005              FY 2006               FY 2007               FY 2008               FY 2009
                      Target                                                                           Baseline                45
                      Actual                                                                             41
                 Target met?            N/A                  N/A                   N/A                    Y
Definition: This measure tracks the percentage of the examining universe that FinCEN supports and oversees. Oversight is estab-
   lished pursuant to Memoranda of Understanding Agreements established with federal and state regulators. The examining
   universe is the number of federal and state regulators with constituents subject to BSA rules. This measure is meaningful because
   it tracks our progress toward improving our ability to consistently examine industry compliance.
Indicator Type: Measure
Data Capture and Source: The Office of Compliance maintained list of Memoranda of Understanding agreements with targeted regu-
   lators and the list of the examining universe.
Data Verification and Validation: List can be checked against signed Memoranda of Understanding agreements in files.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: In 2008, FinCEN executed three additional such agreements and surpassed its fiscal year 2008
   target of 40 percent with 41 percent of federal/state regulatory agencies with MOUs. These MOUs help ensure effective appli-
   cation of the BSA regulations across all regulated financial service industries by providing vital compliance data. FinCEN will
   continue collaborating with state insurance agencies and other regulatory agencies to sign additional agreements.




365                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Percentage of FinCEN’s Compliance MOU Holders Finding FinCEN’s Information Exchange Valuable to Improve the BSA
           Consistency and Compliance of the Financial System (Oe)
                                                     FY 2005           FY 2006               FY 2007               FY 2008             FY 2009
                                  Target                                                                           Baseline              66
                                  Actual                                                                              64
                             Target met?               N/A               N/A                   N/A                    Y
           Definition: This is a composite measure that examines the survey responses of compliance MOU holders. The questions and measure
              were designed to track the outcome of improved BSA consistency and compliance of the financial system and address the PART
              recommendation.
           Indicator Type: Measure
           Data Capture and Source: Data are captured via survey.
           Data Verification and Validation: Raw data are received from the survey vendor and results are calculated and verified.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: In fiscal year 2008, FinCEN surveyed its compliance MOU holders to determine the impact of
              the information exchange to improve the BSA consistency and compliance of the financial system, and established a 64 percent
              baseline of respondents rating the information exchange valuable to improving BSA consistency and compliance. To achieve
              future targets, FinCEN will continue to facilitate routine discussions with the MOU holders.


           Measure: Number of Federal and State Regulatory Agencies with which FinCEN has Conducted Memoranda of Understanding/
           Information Sharing Agreements (Oe) [DISCONTINUED FY 2008]
                                                     FY 2005           FY 2006               FY 2007               FY 2008             FY 2009
                                  Target                                  45                    50               Discontinued        Discontinued
                                  Actual               41                 48                    50
                             Target met?                Y                 Y                     Y                    N/A

           Definition: This measure tracks the number of Memoranda of Understanding agreements the Office of Compliance concludes with
              other regulators of targeted jurisdictions. This measure is meaningful because it tracks our progress in sharing information on
              Bank Secrecy Act compliance with the regulatory agencies that either have delegated authority to examine for Bank Secrecy
              Act compliance or are expending resources to review for Bank Secrecy Act compliance under other authorities (for example,
              many states have Bank Secrecy Act-style laws/regulations or have laws that require compliance with all applicable laws and
              regulations). Some states must pass legislation to permit information sharing with the Financial Crimes Enforcement Network.
              Ultimately, information derived from these agreements will allow us to meet the intermediate outcome measure of improving
              our ability to monitor industry compliance.
           Indicator Type: Measure
           Data Capture and Source: Office of Compliance-maintained list of Memorandum of Understanding agreements with targeted
              regulators.
           Data Verification and Validation: List can be checked against signed Memorandum of Understanding agreements in files. A monthly
              list is prepared for the regulators.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: This measure was discontinued in fiscal year 2008, and was replaced due to a change in method-
              ology to measure the percentage of federal and state regulatory agencies with memoranda of understanding/information sharing
              agreements. The replacement measure is “Percentage of federal and state regulatory agencies with memoranda of understanding/
              information sharing agreements.”




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                    366
                                                                                                 Part IV — Other Accompanying Information




 Strategic Goal:
     Management and Organizational Excellence

 Strategic Objective: Enabled and Effective Treasury Department

 Outcome: A Citizen-Centered, Results-Oriented and Strategically Aligned Organization

Departmental Offices
 Measure: Percent of Complainants Informally Contacting EEO (for the Purposes of Seeking Counseling or Filing a Complaint) Who
 Participate in the ADR Process (%) (Oe)
                                        FY 2005               FY 2006                  FY 2007         FY 2008               FY 2009
                        Target            25                     25                      30               30                   30
                        Actual            25                     25                      29               45
                   Target met?             Y                     Y                        N               Y
 Definition: Equal Employment Opportunity (EEO) contact means an instance where an EEO Counselor or an ADR Intake Officer
    performs the counseling duties described in Chapter 2 of MD 110 (Government-wide managing directive on EEO). This is
    the same information which is reported in Part One, Section one of 462 report (Government-wide EEO report). Participation
    means both parties agree to enter an ADR process.
 Indicator Type: Measure
 Data Capture and Source: Treasury’s automated Complaint Tracking System.
 Data Verification and Validation: Data is periodically reviewed to ensure accuracy.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: Treasury will provide training on dispute prevention centered around Alternative Dispute
    Resolution (ADR) and measure bureau’s ADR participation rate on a quarterly basis.


 Measure: Complete Investigations of EEO Complaints within 180 days (%) (Oe)
                                        FY 2005               FY 2006                  FY 2007         FY 2008               FY 2009
                        Target            50                     50                      50               50                   50
                        Actual            36                     20                     51.6              56
                   Target met?             N                     N                        Y               Y
 Definition: The average time it takes to complete investigations of Equal Employment Opportunity (EEO) complaints.
 Indicator Type: Measure
 Data Capture and Source: The Annual Federal EEO Statistical Report of Discrimination Complaints and the Department’s
    Complaint Tracking System are the primary sources of data.
 Data Verification and Validation: Data is reviewed quarterly to ensure accuracy.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: Treasury will hold the Treasury Complaint Center (TCC) accountable to service level standards,
    which will be reviewed quarterly. In addition, TCC will contract a portion of complaint investigations to ensure they are expedi-
    tiously completed.




367                     Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Injury and Illness Rate Treasurywide-including DO (Oe)
                                                  FY 2005                FY 2006             FY 2007               FY 2008             FY 2009
                                  Target             3                     2.8                 2.6                   1.4                 1.4
                                  Actual            2.8                     1                   1                   1.29*
                             Target met?             Y                      Y                   Y                     Y
           Definition: The number of reported work-related injuries and illnesses Treasury-wide.
           Indicator Type: Measure
           Data Capture and Source: Safety and Health Information Management System
           Data Verification and Validation: Data are collected from the Safety and Health Information Management system
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Final numbers are not yet available from the Department of Labor. In fiscal year 2009, we plan
              to meet our future goals by continuing to pursue activities that have led to reductions in occupational injuries and illnesses at
              Treasury. We continue to emphasize the approach of proactive hazard identification and elimination within our bureaus. This
              past year, Departmental Offices jointly conducted safety audits with two of our bureaus that had collateral duty safety officers.
              We plan to expand that cooperation in the coming year. We will also continue utilizing the Safety and Health Information
              Management System, or SHIMS, to record and trend injuries to determine appropriate interventions for preventing injuries.
              Training, awareness, and removal or minimizing of hazards is key to meeting our future goals.


           Measure: Management Cost Per Treasury Employee ($) (E) [DISCONTINUED FY 2008]
                                                  FY 2005                FY 2006             FY 2007               FY 2008             FY 2009
                                  Target             0                    40.27               38.21              Discontinued        Discontinued
                                  Actual           39.33                  40.59               29.64
                             Target met?             N                      N                   Y                    N/A

           Definition: Total amount obligated for Treasury’s strategic objective, M5B, divided by total amount of Treasury FTEs (excluding
              IRS employees).
           Indicator Type: Measure
           Data Capture and Source: Total amount obligated for M5B is taken from year end execution reports. The total amount of Treasury
              FTEs is taken by each bureau (except IRS) from the Department of Agriculture’s National Finance Center database.
           Data Verification and Validation: Treasury’s Office of Performance Budgeting staff carefully checks and verifies data.
           Data Accuracy: Reasonable
           Data Frequency: Annually
           Future Plans/Explanation for Shortfall: Discontinued in fiscal year 2008.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                     368
                                                                                                  Part IV — Other Accompanying Information




Treasury Franchise Fund
 Measure: Customer Satisfaction Index - Financial Mgmt Admin Support Services (%) (Oe)
                                       FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                         Target           0                    71                    74                    80                    74
                         Actual          71                    75                    0                     97
                    Target met?           Y                     Y                    N                     Y
 Definition: Shared service customers satisfaction level with service offerings, service level competence and responsiveness and overall
    value.
 Indicator Type: Measure
 Data Capture and Source: Results are submitted by the management of each franchise business and are obtained from internal or
    external customer satisfaction reviews.
 Data Verification and Validation: Customer satisfaction processes and results for the Franchise businesses are reviewed by the Fund’s
    management to ensure objectivity.
 Data Accuracy: Reasonable
 Data Frequency: Annually
 Future Plans/Explanation for Shortfall: ARC continues to improve their customer satisfaction assessment methodology. In fiscal year
    2009, they plan to review their measurement processes to ensure that the service line owners receive feedback at a level that can
    lead to improvements in their customer service experience.


 Measure: Operating Expenses as a Percentage of Revenue—Financial Management Administrative Support (%) (E)
                                       FY 2005               FY 2006              FY 2007               FY 2008               FY 2009
                         Target          11                    12                    12                    12                    12
                         Actual           9                    17                   15.1                  3.6
                    Target met?           Y                     N                    N                     Y
 Definition: The Franchise Fund will either maintain or decrease their operating (administrative) expenses as a percentage of revenue
    year to year.
 Indicator Type: Measure
 Data Capture and Source: The data is captured in Oracle Financials system and reported through Oracle’s Discoverer Reporting sys-
    tem. Measure is calculated as Operating Expenses divided by Total Revenue.
 Data Verification and Validation: External auditors perform routine audits of financial statements. Operating Expenses are part of the
    financial statements.
 Data Accuracy: Reasonable
 Data Frequency: Quarterly
 Future Plans/Explanation for Shortfall: ARC continues to monitor and take steps to ensure that operating costs remain low. In fis-
    cal year 2008, they worked to properly classify operating costs and indirect costs for each of their service lines, resulting in a
    decreased operating cost percentage. In fiscal year 2009, ARC plans to continue assessing areas where operating costs can be
    contained to ensure maximum value for their customers.




369                     Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




           Measure: Operating Expenses as a Percentage of Revenue—Consolidated/Integrated Administrative Management (%)(E)
           [DISCONTINUED FY 2009]
                                                 FY 2005               FY 2006               FY 2007              FY 2008               FY 2009
                                   Target           4                    12                    12                    12               Discontinued
                                   Actual           4                     4                    4.3                  17.7
                              Target met?           Y                     Y                     Y                    N
           Definition: The Franchise Fund will either maintain or decrease their operating (administrative) expenses as a percentage of revenue
              year to year.
           Indicator Type: Measure
           Data Capture and Source: The data is captured in Oracle Financials system and reported through Oracle’s Discoverer Reporting sys-
              tem. Measure is calculated as Operating Expenses divided by Total Revenue.
           Data Verification and Validation: External auditors perform routine audits of financial statements. Operating Expenses are part of the
              financial statements.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Discontinued in fiscal year 2009 due to business exiting the Franchise Fund.


           Measure: Operating Expenses as a Percentage of Revenue—Financial Systems, Consulting and Training (%) (E) [DISCONTINUED
           FY 2009]
                                                 FY 2005               FY 2006               FY 2007              FY 2008               FY 2009
                                   Target          12                    12                    12                    12               Discontinued
                                   Actual          11                    10                    6.7                  6.5
                              Target met?           Y                     Y                     Y                    Y
           Definition: The Franchise Fund will either maintain or decrease their operating (administrative) expenses as a percentage of revenue
              year to year.
           Indicator Type: Measure
           Data Capture and Source: The data is captured in Oracle Financials system and reported through Oracle’s Discoverer Reporting sys-
              tem. Measure is calculated as Operating Expenses divided by Total Revenue.
           Data Verification and Validation: External auditors perform routine audits of financial statements. Operating Expenses are part of the
              financial statements.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: Discontinued in fiscal year 2009 due to businesses exiting the Franchise Fund.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                        370
                                                                                                 Part IV — Other Accompanying Information




Measure: Customer Satisfaction Index - Consolidated/Integrated Administrative Management (%)(Oe) [DISCONTINUED FY 2008]
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                      Target             0                    71                    74                Discontinued          Discontinued
                      Actual            71                    51                     0
                 Target met?             Y                     N                     N                    N/A

Definition: Shared service customers satisfaction level with service offerings, service level competence and responsiveness and overall
   value.
Indicator Type: Measure
Data Capture and Source: Results are submitted by the management of each franchise business and are obtained from internal or
   external customer satisfaction reviews.
Data Verification and Validation: Customer satisfaction processes and results for the Franchise businesses are reviewed by the Fund’s
   management to ensure objectivity.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: Discontinue in fiscal year 2008. Not cost effective due to business exiting the Franchise Fund.


Measure: Customer Satisfaction Index - Financial System, Consulting & Training (Oe) [DISCONTINUED FY 2008]
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                      Target             0                    71                    74                Discontinued          Discontinued
                      Actual            71                    81                     0
                 Target met?             Y                     Y                     N                    N/A

Definition: Shared service customers satisfaction level with service offerings, service level competence and responsiveness and overall
   value.
Indicator Type: Measure
Data Capture and Source: Results are submitted by the management of each franchise business and are obtained from internal or
   external customer satisfaction reviews.
Data Verification and Validation: Customer satisfaction processes and results for the Franchise businesses are reviewed by the Fund’s
   management to ensure objectivity.
Data Accuracy: Reasonable
Data Frequency: Annually
Future Plans/Explanation for Shortfall: Discontinued in fiscal year 2008. Not cost effective due to businesses exiting the Franchise Fund.




371                   Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




            Outcome: Exceptional Accountability and Transparency

          Departmental Offices
           Measure: Number of Material Weaknesses (Significant Management Problems Identified by GAO, the IGs and/or the Bureaus) Closed
           (Oe)
                                                  FY 2005                FY 2006                  FY 2007         FY 2008              FY 2009
                                  Target             4                      2                        1               3                    0
                                  Actual             7                      1                        0               2
                             Target met?             Y                      N                        N               N
           Definition: Treasury seeks to reduce and eventually eliminate the material weaknesses that currently exist within Treasury, while
              simultaneously taking actions which will serve to avoid new material weaknesses. Material weaknesses are significant problems
              with an organization’s internal controls, systems’ reliability, controls on waste, fraud or abuse, mission performance, and compli-
              ance with laws and regulations.
           Indicator Type: Measure
           Data Capture and Source: Identified by the Government Accountability Office, Treasury’s Inspectors General, and/or Treasury
              bureaus.
           Data Verification and Validation: Certification statement issued by head of bureau. Independent review to validate material weaknesses
              has been corrected.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: GAO determined that IRS needed to further demonstrate the ability to implement modernized
              systems on time and within budget, so the Modernization Management Controls material weakness could not be closed in fiscal
              year 2008. Due to the complexity of the remaining material weaknesses, the next closure is scheduled for fiscal year 2010.



          Office of the Inspector General
           Measure: Number of Completed Audit Products (Ot)
                                                  FY 2005                FY 2006                  FY 2007         FY 2008              FY 2009
                                  Target             53                    56                       56              56                    60
                                  Actual             54                    57                       64              64
                             Target met?             Y                      Y                        Y               Y
           Definition: Audits, attestation engagements, and evaluations: (1)promote economy, efficiency, and effectiveness of Treasury programs
              and operations; (2)prevent and detect fraud, waste, and abuse in those programs and operations; (3)keep the Secretary and the
              Congress fully informed; and (4)help the Federal government to be accountable to the public.
           Indicator Type: Measure
           Data Capture and Source: OIG audits, attestation engagements, and evaluations result in sequentially numbered written products.
           Data Verification and Validation: Official audit files support the performance data.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: OIG will continue to strive to meet or exceed the performance target, although the increasing
              number of financial institution failures requiring material loss reviews may tax OIG’s resources.




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures                                                       372
                                                                                                   Part IV — Other Accompanying Information




Measure: Number of Investigations Referred for Criminal Prosecution, Civil Litigation or Corrective Administrative Action. (Oe)
                                       FY 2005               FY 2006                FY 2007               FY 2008                FY 2009
                       Target            72                     85                    105                   105                    105
                       Actual            85                    144                    188                    93
                  Target met?             Y                     Y                      Y                     N
Definition: In order to protect the integrity and efficiency of Treasury programs it is important that findings of criminal or civil mis-
   conduct be referred to the Justice Department, state and/or local governments for prosecution and litigation in a timely manner.
   Criminal and civil convictions have a greater impact and carry a greater deterrent effect when they are prosecuted expeditiously.
   Some investigations will identify violations of the Ethical Standards of conduct, Federal Acquisition Regulations, or other
   administrative standards, which do not rise to the level of criminal or civil prosecution. In these cases it is important that OIG
   findings are reported to the bureau or office in a timely manner to allow them to take administrative action against the individu-
   als engaging in misconduct.
Indicator Type: Measure
Data Capture and Source: This data will be retrieved from the Investigations case management system.
Data Verification and Validation: All case files from fiscal year 2003 and fiscal year 2009 will be reviewed to ensure that the case data is
   correct and supported by documentation.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: A void in senior leadership and a new emphasis on closing older cases accounted for the small
   shortfall in reaching the fiscal year 2008 target. Revised measures for fiscal year 2009 and beyond will provide a more reliable
   indication of the quality of OIG investigative work.


Measure: Percent of Statutory Audits Completed by the Required Date (E)
                                       FY 2005               FY 2006                FY 2007               FY 2008                FY 2009
                       Target            100                   100                    100                   100                    100
                       Actual            100                   100                    100                   100
                  Target met?             Y                     Y                      Y                     Y
Definition: Legislation mandating certain audit work generally prescribes, or authorizes OMB to prescribe, the required completion
   date for recurring audits and evaluations, such as those for annual audited financial statements. For other types of mandated
   audit work, such as a Material Loss Review (MLR) of a failed financial institution, the legislation generally prescribes a time-
   frame to issue a report (6 months for an MLR, as an example) from the date of an event that triggers the audit.
Indicator Type: Measure
Data Capture and Source: The date OIG issues an audit, attestation engagement, or evaluation report is printed on the cover. The
   required dates may vary each year and are specified in different legislation.
Data Verification and Validation: Official audit files and the dates on the reports themselves support the performance data.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: OIG will continue to complete statutory audits by the mandatory completion dates as has
   occurred over the past four fiscal years.




373                                                                                                          Appendix F: Glossary of Acronyms
Fiscal Year 2008 Performance and Accountability Report




          Treasury Inspector General for Tax Administration
           Measure: Percentage of Audit Products Delivered when Promised to Stakeholders (Oe)
                                                FY 2005               FY 2006               FY 2007              FY 2008               FY 2009
                                 Target                                                     Baseline                60                   65
                                 Actual                                                       68                    65
                            Target met?           N/A                   N/A                    Y                    Y
           Definition: The likelihood that our products will be used is enhanced if they are delivered when needed to support Congressional and
              Internal Revenue Service (IRS) decision making. To determine whether our products are timely, we track the percentage of our
              products that are delivered on or before the day we committed to (Contract date) because it is critical that our work be done on
              time for it to be used by the IRS or the Congress.
           Indicator Type: Measure
           Data Capture and Source: Information regarding Contract dates and actual delivery dates for audits is maintained on the TCMIS.
              MIS Coordinators in the Office of Audit’s Operating/Business Units monitor overall data accuracy and maintain secure controls
              over key milestone and “Contract” data entries.
           Data Verification and Validation: Summary data used for purposes of reporting on this measure are extracted, from the Office of
              Audit’s TeamCentral Management Information System (TCMIS), analyzed and summarized by personnel in our Office of
              Management and Policy. A qualified staff member independent of the process validates the progress related statistics. TCMIS
              data are reviewed and validated monthly by MIS Coordinators, Audit Managers and Directors.
           Data Accuracy: Reasonable
           Data Frequency: Quarterly
           Future Plans/Explanation for Shortfall: For Fiscal Year 2009, TIGTA OA will continue to monitor the execution of its audit programs to
              ensure its timeliness goals are met. TIGTA OA uses a management information system to monitor actual dates against estimated
              completion dates and makes adjustments, as needed. In addition, OA management supervises the work of auditors to ensure that
              audit objectives and procedures are met, IRS management is informed of audit results, and that draft and final audit reports sum-
              marizing results are prepared in a timely manner. TIGTA OA believes the combination of its management information system and
              its management controls provides adequate assurance that its Fiscal Year 2009 stakeholder timeliness goal will be met.




Appendix F: Glossary of Acronyms                                                                                                                 374
                                                                                                 Part IV — Other Accompanying Information




Measure: Percentage of Recommendations Made that Have Been Implemented (Oe)
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                       Target                                                     Baseline                80                    83
                       Actual                                                       90                    85
                  Target met?           N/A                   N/A                    Y                     Y
Definition: The Office of Audit (OA) makes recommendations designed to improve administration of the Federal tax system. The
   Internal Revenue Service (IRS) must implement these recommendations in order for our work to produce financial or non-
   financial benefits. This measure assesses our effect on improving the IRS’ accountability, operations, and services. Since the IRS
   needs time to act on recommendations, we track the percentage of recommendations that we made four (4) years ago that have
   since been implemented, rather than the results of our activities, during the fiscal year in which the recommendations are made.
   This timeframe is used because four (4) years is the point at which TIGTA-OA believes that if a recommendation has not been
   implemented, it is not likely to be.
Indicator Type: Measure
Data Capture and Source: The IRS records recommendations in the Department’s JAMES as they are issued. Summary data regard-
   ing the status of the IRS’s corrective actions taken in response to our recommendations are provided to the Office of Audit
   via JAMES reports. Our Office of Management and Policy monitors implementation of recommendations as the IRS submits
   updated information to the JAMES.
Data Verification and Validation: Through a formal process, each audit team identifies the number of recommendations included
   in each report and the IRS enters the findings and corresponding recommendations into the Department of the Treasury’s
   (the Department) Joint Audit Management Enterprise System (JAMES). The database is updated frequently. Our Office of
   Management and Policy receives summary data and monitors the data regularly to make sure the recommendations reported
   as implemented have been accurately recorded, as well as to accumulate data in regard to progress in meeting this measure. A
   qualified staff member independent of the process validates the progress related statistics.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: For Fiscal Year 2009, TIGTA OA will continue to monitor the execution of its audit programs
   to ensure its timeliness goals are met. The OA uses a management information system to monitor actual dates against estimated
   completion dates and makes adjustments, as needed. In addition, OA management supervises the work of auditors to ensure
   that audit objectives and procedures are met, IRS management is informed of audit results, and that draft and final audit reports
   summarizing results are prepared in a timely manner. TIGTA OA believes the combination of its management information sys-
   tem and its management controls provides adequate assurance that its Fiscal Year 2009 stakeholder timeliness goal will be met.


Measure: Percentage of Results from Investigative Activities (Oe)
                                      FY 2005               FY 2006               FY 2007               FY 2008               FY 2009
                       Target           67                    70                    73                    76                    78
                       Actual           82                    79                    81                    78
                  Target met?            Y                     Y                     Y                     Y
Definition: Investigative reports resulting in Criminal, Civil or Administrative adjudication or the identification of matters of security
   or investigative interest.
Indicator Type: Measure
Data Capture and Source: The total number of investigative cases closed along with the total number of completed Criminal, Civil
   and Administrative Actions is extracted from the Performance and Results Information System (PARIS).
Data Verification and Validation: Reports of Investigation and PARIS are reviewed for consistency by Special Agents in Charge prior
   to closing the investigation. Additionally, independent reviews are conducted periodically of each field office where a sample of
   closed investigations are quality reviewed by the Operations Division Inspection Team to ensure accuracy of the PARIS data.
   Periodic tests of PARIS data are also conducted to ensure accuracy.
Data Accuracy: Reasonable
Data Frequency: Quarterly
Future Plans/Explanation for Shortfall: At the end of the 4th quarter, the results are 2 percentage points above the goal. TIGTA OI will
   continue to measure performance consistent with fiscal year 2008 criteria. TIGTA OI will monitor and evaluate fiscal year 2009
   performance and may make adjustments if deemed appropriate. The fiscal year 2010 target will be determined based on evalua-
   tion of the fiscal year 2009 performance results.




375                    Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures
Fiscal Year 2008 Performance and Accountability Report




                                              This page left intentionally blank




Appendix E: Full Report of the Treasury Department’s Fiscal Year 2008 Performance Measures   376
                                                                                                              Part IV — Other Accompanying Information




Appe n dix F: G lossary of Acronyms


 Glossary of Acronyms
  ADR                   Alternative Dispute Resolution
  AML                   Anti-Money Laundering
  AMS                   Accounts Management Services
  APR                   Annual Performance Report
  ASM/CFO               Assistant Secretary for Management & Chief Financial Officer
  AUR                   Automated UnderReporter
  BEA                   Bank Enterprise Award
  BEN                   Bureau of Engraving and Printing Enterprise System
  BEP                   Bureau of Engraving and Printing
  BPD                   Bureau of the Public Debt
  BSA                   Bank Secrecy Act
  BSM                   Business Systems Modernization
  CADE                  Customer Account Data Engine
  CAMELS                Capital adequacy, Asset quality, Management Earnings, Liquidity, and Sensitivity
  CAP                   Competitiveness Assessment Process
  CBRS                  Currency and Banking Retrieval System
  CDE                   Community Development Entities
  CDFI                  Community Development Financial Institutions
  CDDB                  Custodial Detail Database
  CFT                   Counter-Terrorist Financing
  CFIUS                 Committee on Foreign Investment in the United States
  CFTC                  Commodities Futures Trading Commission
  COLA                  Certificate of Label Approval
  COSO                  Committee of Sponsoring Organizations of the Treadway Commission
  CSR                   Customer Service Representative
  DASHR/CHCO            Office of Deputy Assistant Secretary of Human Resources/Chief Human Capital Officer
  ECP                   Electronic Check Processing
  EEO                   Equal Employment Opportunity
  EESA                  Emergency Economic Stabilization Act of 2008
  E-File                Electronic Filing
  EFT                   Electronic Funds Transfer
  EFTPS                 Electronic Federal Tax Payment System
  EITC                  Earned Income Tax Credit
  Fannie Mae            Federal National Mortgage Association
  FASAB                 Federal Accounting Standards Advisory Board
  FATF                  Financial Action Task Force
  FDIC                  Federal Deposit Insurance Corporation
                                                                                                                                    (continued)




377                                                                                                                 Appendix F: Glossary of Acronyms
Fiscal Year 2008 Performance and Accountability Report




           Glossary of Acronyms
            FFMIA                 Federal Financial Management Improvement Act
            FHA                   Federal Housing Administration
            FHCS                  Federal Human Capital Survey
            FHFA                  Federal Housing Finance Agency
            FinCEN                Financial Crimes Enforcement Network
            FIRST                 Financial Information and Reporting Standardization
            FISMA                 Federal Information Security Management Act
            FIU                   Financial Intelligence Unit
            FMFIA                 Federal Managers’ Financial Integrity Act
            FMS                   Financial Management Service
            Freddie Mac           Federal Home Loan Mortgage Corporation
            FSF                   Financial Stability Forum
            FTA                   Free Trade Agreement
            FY                    Fiscal Year
            G-7                   Group of Seven
            G-20                  Group of Twenty
            GAAP                  Generally Accepted Accounting Principles
            GAO                   Government Accountability Office
            GAPP                  Generally Accepted Principles and Practices
            GDP                   Gross Domestic Product
            GSE                   Government-Sponsored Enterprises
            HUD                   Department of Housing and Urban Development
            IMF                   International Monetary Fund
            IRISL                 Islamic Republic of Iran Shipping Lines
            IRS                   Internal Revenue Service
            IT                    Informational Technology
            MBS                   Mortgage Backed Securities
            MeF                   Modernized electronic Filing
            MLR                   Material Loss Reviews
            MODAFL                Ministry of Defense and Armed Forces Logistics
            MOU                   Memorandum of Understanding
            NMTC                  New Markets Tax Credit
            NRC                   National Revenue Center
            NSC                   National Security Council
            OFAC                  Office of Foreign Assets Control
            OCC                   Office of the Comptroller of the Currency
            OCIO                  Office of the Chief Information Officer
            OCIP                  Office of Critical Infrastructure and Compliance Policy
            OCRD                  Office of Civil Rights and Diversity
            OFIP                  Office of Financial Institutions Policy
                                                                                            (continued)




Appendix F: Glossary of Acronyms                                                               378
                                                                            Part IV — Other Accompanying Information




Glossary of Acronyms
 OFM                   Office of Financial Markets
 OFS                   Office of Financial Stability
 OIA                   Office of Intelligence and Analysis
 OMB                   Office of Management and Budget
 OTA                   Office of Technical Assistance
 OTS                   Office of Thrift Supervision
 OFS                   Office of Financial Stability
 NMTC                  New Market Tax Credit
 PAM                   Payments Modernization
 PCC OTC               Payment Check Conversion Over the Counter
 PMA                   President’s Management Agenda
 PTR                   Office of Privacy and Treasury Records
 PWG                   President’s Working Group on Financial Markets
 RACS                  Revenue Accounting Control System
 Repo                  Treasury Reverse Repurchase Agreement
 SAR                   Suspicious Activity Report
 SEC                   Securities and Exchange Commission
 SVC                   Stored Value Card
 U.S.-China SED        U.S.-China Strategic Economic Dialogue
 TARP                  Troubled Asset Relief Program
 TFFC                  Office of Terrorist Financing and Financial Crimes
 TFI                   Terrorism and Financial Intelligence
 TIO                   Term Investment Option
 TRS                   Transaction Reporting System
 TTB                   Alcohol and Tobacco Tax and Trade Bureau
 TT&L                  Treasury Tax and Loan
 WMD                   Weapons of Mass Destruction




379                                                                               Appendix F: Glossary of Acronyms
Fiscal Year 2008 Performance and Accountability Report




                                              This page left intentionally blank




Appendix F: Glossary of Acronyms                                                   380
         we bsite i n for mation


                                 Treasury On-line     www.treas.gov

       Alcohol and Tobacco Tax And Trade Bureau       www.ttb.gov

Community Development Financial Institutions Fund     www.treas.gov/cdfi

                      Comptroller of the Currency     www.occ.treas.gov

                   Bureau of Engraving & Printing     www.bep.treas.gov

           Financial Crimes Enforcement Network       www.treas.gov/fincen

                    Financial Management Service      www.fms.treas.gov

                         Internal Revenue Service     www.irs.gov

                                         U.S. Mint    www.usmint.gov

                        Bureau of the Public Debt     www.publicdebt.treas.gov

                       Office of Thrift Supervision   www.ots.treas.gov
www.tr eas.gov
